APPENDIX INDEX
March 25, 2020 President Donald J. Trump Approves Major
Disaster Declaration for North Carolina .................... App. 1
Bogage, Jacob & Ingraham, Christopher, Key swing states
vulnerable to USPS slowdowns as millions vote by mail,
data shows, The Washington Post (Oct. 20, 2020) ....... App. 3
N.C. Absentee Ballot Requests for 2020 General Election
(published Oct. 23, 2020) .............................................. App. 8
Jameel, Maryam & McCarthy, Ryan, Poorly Protected Postal
Workers Are Catching COVID-19 by the Thousands. It’s One
More Threat to Voting by Mail., ProPublica
(Sept. 18, 2020) ........................................................... App. 25
November 5, 2018 North Carolina State Board of Elections
Emergency Order ....................................................... App. 34
September 6, 2019 North Carolina State Board of Elections
Emergency Order ........................................................ App. 38
September 6, 2019 North Carolina State Board of Elections
Second Emergency Order ............................................ App. 42
September 7, 2019 North Carolina State Board of Elections
Third Emergency Order .............................................. App. 47
July 17, 2020 North Carolina State Board of Elections
Emergency Order ........................................................ App. 51
North Carolina State Board of Elections
Numbered Memo 2016-21 ........................................... App. 59
Order on Injunctive Relief, Cooper v. Berger, No. 18-CVS-9805
(Wake Cty. Sup. Ct. Aug. 21, 2018) ............................ App. 63
September 15, 2020 North Carolina State Board of Elections
Closed Session Board Minutes .................................... App. 94
Plaintiffs’ and Executive Defendants’ Joint Motion for Entry of
Consent Judgment, North Carolina Alliance for Retired
Americans v. North Carolina State Board of Elections (Wake
Cty. Sup. Ct.) ............................................................ App. 104

September 23, 2020 Letter from K. Raymond................ App. 146
September 23, 2020 Letter from D. Black to
D. Circosta ................................................................ App. 147
September 15, 2020 North Carolina State Board of Elections
Bench Memo ............................................................ App. 149
Memorandum from North Carolina Department of Justice to
Members of the North Carolina State Board of
Elections .................................................................. App. 163
Doran, Will & Battaglia, Danielle, Republican election officials
resigned after call with lawyer for ‘very unhappy’ NCGOP,
Raleigh News & Observer (Sept. 25, 2020) ............... App. 169
Findings of Fact and Conclusions of Law, North Carolina
Alliance for Retired Americans v. North Carolina State
Board of Elections (Wake Cty. Sup. Ct.) ................... App. 175
Republican Committees’ Petition for Writ of Supersedeas and
Motion for Temporary Stay and Expedited Review, North
Carolina Alliance for Retired Americans v. North Carolina
State Board of Elections (N.C. Ct. App.) ................. App. 186
Florida Extends Deadline After Crash of Voter Registration
Site, NBC 6 South Florida (Oct. 6, 2020) ................ App. 225
Legislative Defendants’ Opposition to Plaintiffs’ and Executive
Defendants’ Joint Motion for Entry of a Consent Judgment,
North Carolina Alliance for Retired Americans v. North
Carolina State Board of Elections
(Wake Cty. Sup. Ct.) ................................................. App. 231
Republican Committees’ Opposition to Plaintiffs’ and Executive
Defendants’ Motion for Entry of Consent Judgment, North
Carolina Alliance for Retired Americans v. North Carolina
State Board of Elections (Wake Cty. Sup. Ct.) ......... App. 292
Order, North Carolina Alliance for Retired Americans v. North
Carolina State Board of Elections
(N.C. Ct. App. Oct. 19, 2020) .................................... App. 331

ii

Order, North Carolina Alliance for Retired Americans v. North
Carolina State Board of Elections (N.C.) ................. App. 333
Stipulation and Consent Judgment, North Carolina Alliance
for Retired Americans v. North Carolina State Board of
Elections (Wake Cty. Sup. Ct.) ................................. App. 334
October 18, 2020 Letter from R. Park to D. Horne ...... App. 357
Legislative Intervenors’ Petition for Writ of Supersedeas and
Motion for Temporary Stay, North Carolina Alliance for
Retired Americans v. North Carolina State Board of
Elections (N.C.) ........................................................ App. 394
Republican Committees’ Petition for Writ of Supersedeas and
Motion for Temporary Stay, North Carolina Alliance for
Retired Americans v. North Carolina State Board of
Elections (N.C.) ........................................................ App. 484

iii

10/24/2020

President Donald J. Trump Approves Major Disaster Declaration for North Carolina | FEMA.gov

An o icial website of the United States government
Here’s how you know

President Donald J. Trump Approves
Major Disaster Declaration for North
Carolina
Release Date

Release Number

March 25, 2020

HQ-20-026

WASHINGTON — FEMA announced that federal emergency aid has been made available for
the state of North Carolina to supplement the state, tribes and local recovery e orts in the
areas a ected by the Coronavirus Disease 2019 (COVID-19) pandemic beginning on January
20, 2020, and continuing.
Federal funding is available to state, tribal, and eligible local governments and certain private
nonprofit organizations on a cost-sharing basis for emergency protective measures (Category
B), including direct federal assistance under Public Assistance, for all areas a ected by COVID19 at a federal cost share of 75 percent.
Gracia B. Szczech has been named as the Federal Coordinating O icer for federal recovery
operations in the a ected area. Additional designations may be made at a later date if
requested by the state and warranted by the results of further assessments.
###
FEMA's mission is to help people before, during and a er disasters.
Follow FEMA online, on Twitter @FEMA or @FEMAEspanol, on FEMA's Facebook page or
Espanol page and at FEMA's YouTube account. Also, follow Administrator Pete Gaynor’s
activities @FEMA_Pete.
App. 1

https://www.fema.gov/news-release/20200723/president-donald-j-trump-approves-major-disaster-declaration-north-carolina

1/2

10/24/2020

President Donald J. Trump Approves Major Disaster Declaration for North Carolina | FEMA.gov

Tags:

Headquarters

North Carolina

Coronavirus

Pandemic

Last updated July 23, 2020

Accessibility
Plug-Ins

Accountability

Privacy

Careers

Report Disaster Fraud

Contact Us

FOIA

Glossary

Website Information

No FEAR Act

DHS.gov

USA.gov

Inspector General

FOLLOW FEMA

App. 2

https://www.fema.gov/news-release/20200723/president-donald-j-trump-approves-major-disaster-declaration-north-carolina

2/2

10/24/2020

President Donald J. Trump Approves Major Disaster Declaration for North Carolina | FEMA.gov

Tags:

Headquarters

North Carolina

Coronavirus

Pandemic

Last updated July 23, 2020

Accessibility
Plug-Ins

Accountability

Privacy

Careers

Report Disaster Fraud

Contact Us

FOIA

Glossary

Website Information

No FEAR Act

DHS.gov

USA.gov

Inspector General

FOLLOW FEMA

App. 2

https://www.fema.gov/news-release/20200723/president-donald-j-trump-approves-major-disaster-declaration-north-carolina

2/2

Democracy Dies in Darkness

Key swing states vulnerable to USPS slowdowns as
millions vote by mail, data shows
Battlegrounds that may decide the presidency have some of the nation’s most erratic mail service, which has
particular implications for states with firm ballot deadlines
By Jacob Bogage and Christopher Ingraham
Oct. 20, 2020 at 12:52 p.m. EDT
Key swing states that may well decide the presidential race are recording some of the nation’s most erratic mail service
as record numbers of Americans are relying on the U.S. Postal Service to deliver their ballots, agency data shows.
Consistent and timely delivery remains scattershot as the mail service struggles to right operations after the rollout,
then suspension, of a major midsummer restructuring. In 17 postal districts representing 10 battleground states and
151 electoral votes, the average on-time delivery rate for first-class mail is 83.9 percent — 7.8 percentage points lower
than in January and nearly two points below the national average. By that measure, more than 1 in 6 mailings arrive
outside the agency’s one-to-three-day delivery window.
The slowdowns, which have raised alarms and suspicions among voters, postal workers and voting experts, have
particular implications for states with strict voter deadlines. Michigan, Wisconsin and Georgia, for example, do not
accept ballots that arrive after Election Day, regardless of the postmark. Of the states that do, there is generally a short
qualifying window: In North Carolina, where polls have President Trump and Democratic nominee Joe Biden in a dead
heat, postmarked ballots must arrive within three days of the election.
“There are fundamental and foundational issues with the Postal Service that go beyond voting, and there are issues
with election administration that we can address,” said David Becker, executive director of the nonpartisan, nonprofit
Center for Election Innovation and Research. “But the rules we have for the next 14 days are the rules we have.”
There are always variabilities in the mail, he said. “There have always been states that have firm deadlines after which
no more ballots will be accepted. There has always been an element of voter responsibility along with responsibility of
election officials and the Postal Service. And voters are embracing that responsibility.”
In Detroit, where Democrats are relying on heavy turnout to carry the rest of Michigan, only 70.9 percent of first-class
mail was on time the week that ended Oct. 9, compared with 92.2 percent at the start of the year.
In Wisconsin — which struggled mightily with a vote-by-mail primary in August — on-time delivery fell to 84.3 percent
in the Lakeland district, which encompasses most of the state. In North Carolina’s Greensboro district, which includes
Raleigh and Durham, service was 10.1 percentage points lower than it had been in January. Timeliness also varied
widely in postal districts in Pennsylvania and Florida.

App. 3

Postal Service spokesman David Partenheimer said the agency has maintained performance standards despite surging /

p

g

y

p

p

g g

mail volumes and challenges related to the coronavirus pandemic. The agency had made an estimated 64 million ballot
deliveries — to and from election offices — through Oct. 7, agency data shows.
“The Postal Service is fully committed and actively working to handle the increase in election mail volume across the
country over the next two weeks,” he said in an emailed statement to The Washington Post, adding that extra staffing
and resources have been allocated to help process and deliver election mail.
Workers have been instructed to use “extraordinary measures” to accelerate the delivery of ballots, he wrote. Those
measures include expedited handling, special pick-ups, and extra and Sunday deliveries.

But some postal workers say ballot-handling directives from higher-ups have been chaotic. Letter carriers in Michigan
say supervisors press them to focus on package delivery toward the end of their shifts, leaving ballot collection lower
on the priority list. In Pennsylvania, clerks are preparing to hand-stamp ballot envelopes in the final stretch of the
2020 campaign, to steer them away from overwhelmed processing plants.
Though government officials and election experts say municipalities have made great strides in preparing for the Nov.
3 election, mail service remains a key variable given that 198 million Americans are eligible to vote by mail. Postal
leaders are scrambling to build confidence in an agency that has been maligned as a “joke” by Trump, was forced to
suspend a major cost-cutting agenda and told 46 states and the District of Columbia that their election regulations
were “incongruous” with mail service.
The Postal Service data reveals an agency fighting to stabilize itself before a final influx of ballots, as well as the holiday
season’s onslaught of packages, greeting cards and catalogues.
“In the current state of the world, there is nothing a voter could do to work around problems in the post office,” said J.
Remy Green, an attorney who represents a group of voters in a lawsuit against the Postal Service in federal court in the
Southern District of New York.
“I think at the end of the day, the damage that has been done here, it’s not just service performance and quantifiable
damage,” Green said. “It is a kind of psychic damage to the confidence of voters and confidence in the vote.”
According to a Washington Post-University of Maryland poll conducted by Ipsos in late August, 34 percent of
registered voters said they were not confident their vote would be counted correctly if submitted by mail. And 37
percent were only “somewhat” confident. More than 60 percent of respondents said they had never before voted by
mail.
A representative from the Trump campaign declined to comment. The Biden campaign did not immediately respond to
a request for comment.
The Postal Service began the year moving 91.8 percent of all first-class mail on time — below its internal goal of 95
percent but within the realm of reliable service. The national rate hovered in the low 90s until mid-July, roughly a
month into the tenure of Postmaster General Louis DeJoy, a former supply-chain logistics executive and major Trump
financier who implemented a stricter transportation schedule that banned late and extra deliveries, and other costcutting measures.
Meanwhile, regional vice presidents and local managers were instructed to cut hours among a 630,000-member
workforce already flattened by the pandemic. The Postal Service also mothballed nearly 700 high-speed mail-sorting

App.

4 moves the agency says were planned before DeJoy’s
machines and removed more than 1,500 public collection boxes,

/

arrival.
The postmaster general suspended those moves in August after public and congressional pushback, but he declined to
replace machines already disconnected (many had been trashed or scrapped for parts) or replace the collection boxes.
The Postal Service maintains it has ample capacity to process election mail.

But postal workers say those changes have made their jobs more difficult and contributed to the delays. Mail is no
longer sorted locally — instead items are sent to centralized processing facilities that cover larger geographic areas —
making late and extra trips crucial components of timely delivery. Fewer sorting machines means more mail is handsorted, which is time-intensive and has a greater margin of error. It also means mail can sit around longer before
processing.
Still, on-time service has improved since early August, after DeJoy suspended his changes and after seven federal
courts intervened on behalf of 19 states and voters groups. Judges in New York, Pennsylvania, Washington state and
D.C. ordered the Postal Service to authorize late and extra trips to deliver election mail, including ballots, ballot
applications and voting information.
The Postal Service, though, continues to struggle with issues that are independent of but were exacerbated by DeJoy’s
policies, according to postal workers and logistics experts.
The front lines remain understaffed and rely heavily on overtime hours to accomplish basic tasks. During the summer,
employees routinely worked 60 hours or more per week, say workers and organized-labor leaders. Now, as the
holidays approach and the Postal Service grapples with surging package volumes, overtime hours have soared.
The agency recorded 3.3 million overtime hours, or 21.1 percent of all work hours, during the week of Oct. 15,
according to documents filed in the Pennsylvania lawsuit. Overtime hours typically make up 10 to 13 percent of all
hours within a two-week pay period.
Though election mail and packages are processed on separate machines, they still funnel out to individual carriers for
delivery, leaving the agency to decide which has priority.
The Postal Service has a vested interest in both. Ballots are profitable because municipalities cover the cost if they are
mailed without postage, while packages are a core and growing part of the service’s finances.
Postal workers say that tension is clear in Michigan, especially in Detroit’s suburbs. Letter carriers say they receive
messages daily telling them to prioritize packages — which often have guaranteed delivery windows — over other
items, including election mail. Carriers have taken to sorting through their satchels mid-route to pull out ballots and
pieces of voting information so they can prioritize them on their own, according to two letter carriers who spoke on the
condition of anonymity to avoid retribution.
The frequency of mail delivery also varies widely by Zip code, even on postal routes within minutes of one another. In
facilities that serve Detroit’s mostly White suburbs, staffing has remained steady, the workers said, and residents can
expect delivery daily. If a piece of mail is late, they said, it will probably arrive the next day.

App. 5

But in more racially diverse neighborhoods, they said, mail delivery typically occurs twice or three times a week unless

/

But in more racially diverse neighborhoods, they said, mail delivery typically occurs twice or three times a week unless
a parcel is in the mix.
“I walked around a little bit — it was a mess in there,” one of the letter carriers said of a post office that serves Detroit.
“There was mail everywhere. And not mail everywhere in the sense that carriers come in the morning and 'This is my
route for the day. I’ve got to [sort] this up and get out of here.’ This was mail everywhere because no one is there to
carry that mail.”

The Detroit postal district extends 130 miles north and 110 miles west, covering about a quarter of the state and
including communities with predominantly Black populations. It also had the worst mail service in the country the
week that ended Oct. 9. Meanwhile, the Greater Michigan district — which covers the rest of the state, and rural areas
that helped deliver the state to Trump in 2016 — was in line with the national average, and 16 percentage points better
than Detroit.
Simple awareness of the delivery issues is one of the best ways to protect mailed ballots, said Christopher Thomas, a
fellow at the Bipartisan Policy Center think tank who was Michigan’s longtime director of elections.
“There might be a little faith in the postal system in the sense of the pressure being on right now for them to handle
election mail,” Thomas said. “It’s distinctive mail for them to see and pull out. And people who live in those areas know
that their mail is not dependable. The hope is that they know not to test that out.”
Most of Wisconsin is contained in the Lakeland postal district, where mail service is 6 percentage points below January
levels. Voters have requested 1.4 million ballots, nearly half of the 3 million that state residents are projected to cast.
They have already returned 61.4 percent of those ballots, a rate that dwarfs the national average of 22.7 percent,
according to the United States Elections Project.
Mail service in pockets of Florida and Pennsylvania also could prove decisive.
Without Florida and its 29 electoral votes, Trump’s path to 270 electors is exceedingly difficult. In the heavily
Democratic South Florida district, mail service is the worst in the state, at 82.8 percent. In the Gulf Atlantic district,
which includes the northern cities of Jacksonville, Tallahassee and Pensacola, delivery stands at 83.4 percent. The
Suncoast district, which includes Orlando, features some of the most heavily conservative areas in the state. Its
delivery rate is 88.1 percent, down from 90.9 percent at the start of the year.
The unpredictable mail service, coupled with Florida’s firm election-night cutoff for ballot delivery, has labor leaders
worried.
“Everything has been running differently between the three districts. There’s no consistency,” said Al Friedman,
president of the Florida State Association of Letter Carriers. “You knew this election was coming four years ago. You
knew the amount of political mail was going to be the worst. You predicted this in May — the worst year for political
mail ever. And you didn’t plan.”
Mail service in Pennsylvania similarly varies by region, with better and more consistent results recorded in areas that
are primarily rural, suburban and conservative.
The Western Pennsylvania district, which encompassesApp.
Pittsburgh and its suburbs and exurbs, traditionally has some

6

of the best on-time rates in the country. The on-time rate of 89.4 percent exceeds the national average. The Central

/

of the best on time rates in the country. The on time rate of 89.4 percent exceeds the national average. The Central
Pennsylvania district, a Republican stronghold, has an 83.2 percent on-time rate.
But the Philadelphia Metro district, which Democrats need to dominate to offset GOP votes in the rest of the state, is
one of only six districts in the country with on-time service below 80 percent. Staffing shortfalls remain a chronic
issue, according to postal employees in the state. In Philadelphia, workers are preparing to cull ballots, process them
by hand and deliver them to local election officials to avoid having to send them to regional processing plants, where
the sorting system moves slower.

“It’s hard to tell a voter with certainty,” said David Thornburgh, president of the local good-government group
Committee of Seventy, “how long it will take the post office to deliver their ballot.”

Updated October 9, 2020

Voting in the 2020 U.S. Election
What you need to know: How to make sure your vote counts in November | Absentee ballots vs. mail-in
ballots | How to track your vote like a package | How to prevent your mail ballot from being rejected | Where Biden
and Harris stand on voting issues | Google allows ads with ‘blatant disinformation’ about voting by mail

U.S. Postal Service: USPS on-time performance dips again as millions prepare to mail 2020 ballots |
Chronic USPS delays in Detroit undermine voters’ confidence in voting by mail | Postal Service backlog sparks
worries that ballot delivery could be delayed in November | Why the USPS wanted to remove hundreds of mailsorting machines | Can FedEx and UPS deliver ballots? | Newly revealed USPS documents show the agency’s
2020 ballot pressures, uncertainty

Map: Which states can cast ballots by mail
Are you running into voting problems? Let us know.

App. 7

/

N.C. Absentee Ballot Requests for 2020 General Election
Published 10/23/2020
Includes data through 10/22/2020

Contents:
· Total Number of Requests
· 2016 General Election Comparison
· Table 1. Number of Requests by Voter Party Affiliation (2020)
· Table 2. Number of Requests per County (2020)
· Table 3. Number of Requests per County, by Voter Party Affiliation (2020)

Total Number of Requests:

1,420,665

Number of requests received through 10/22/2020 (12 days before election)

2016 General Election Comparison
Total number of requests this time in 2016:

220,058

Number of requests received through 10/27/2016 (12 days before election)

Table 1. Number of Requests by Voter Party Affiliation (2020)
X0AT

Party
CONSTITUTION
DEMOCRATIC
GREEN

Requests
473
656,659
903

LIBERTARIAN

6,564

REPUBLICAN

278,495

UNAFFILIATED
Grand Total

477,571
1,420,665

Table 2. Number of Requests per County (2020)
X0A1T

County

Requests

ALAMANCE

21,709

ALEXANDER

2,451

ALLEGHANY

952

ANSON

1,356

ASHE

2,554

AVERY

1,231

BEAUFORT

4,246

BERTIE

1,244

BLADEN

1,999

BRUNSWICK

25,802

BUNCOMBE

55,914

BURKE

7,528

App. 8

CABARRUS

30,536

CALDWELL

6,393

CAMDEN

713

CARTERET

7,304

CASWELL

1,932

CATAWBA

14,758

CHATHAM

16,662

CHEROKEE

2,695

CHOWAN

1,153

CLAY

1,016

CLEVELAND

8,013

COLUMBUS

3,390

CRAVEN

12,716

CUMBERLAND

36,175

CURRITUCK

2,356

DARE

5,084

DAVIDSON

15,763

DAVIE

4,136

DUPLIN

3,204

DURHAM
EDGECOMBE
FORSYTH

69,418
3,820
64,876

FRANKLIN

7,105

GASTON

23,384

GATES
GRAHAM

820
467

GRANVILLE

6,309

GREENE

1,242

GUILFORD

75,163

HALIFAX

3,825

HARNETT

11,902

HAYWOOD
HENDERSON

8,144
20,572

HERTFORD

1,456

HOKE

4,369

HYDE

319

IREDELL

22,089

JACKSON

3,896

JOHNSTON
JONES

22,713
629

LEE

5,830

LENOIR

4,893

LINCOLN

8,194

MACON

4,537

MADISON

2,541

MARTIN

1,854

MCDOWELL

3,658

App. 9

MECKLENBURG

199,937

MITCHELL

1,291

MONTGOMERY

1,510

MOORE
NASH
NEW HANOVER
NORTHAMPTON

14,434
7,943
40,741
1,415

ONSLOW

13,878

ORANGE

36,262

PAMLICO

1,301

PASQUOTANK

4,023

PENDER

5,929

PERQUIMANS
PERSON

993
3,537

PITT

17,027

POLK

3,322

RANDOLPH

11,287

RICHMOND

2,701

ROBESON

6,251

ROCKINGHAM
ROWAN

6,511
12,809

RUTHERFORD

5,856

SAMPSON

3,919

SCOTLAND

2,512

STANLY

4,671

STOKES

3,599

SURRY

6,946

SWAIN

964

TRANSYLVANIA
TYRRELL

5,271
136

UNION

26,488

VANCE

3,474

WAKE
WARREN
WASHINGTON

241,363
1,881
866

WATAUGA

7,394

WAYNE

9,917

WILKES

5,672

WILSON

6,586

YADKIN

2,836

YANCEY

2,202

Grand Total

1,420,665

App. 10

Table 3. Number of Requests per County, broken down by Voter Party Affiliation (2020)
County, Party
ALAMANCE
CONSTITUTION
DEMOCRATIC
GREEN

Requests
21,709
7
10,387
8

LIBERTARIAN

82

REPUBLICAN

4,754

UNAFFILIATED
ALEXANDER

6,471
2,451

DEMOCRATIC

981

LIBERTARIAN

5

REPUBLICAN

740

UNAFFILIATED
ALLEGHANY
CONSTITUTION
DEMOCRATIC

725
952
1
431

GREEN

3

LIBERTARIAN

3

REPUBLICAN

239

UNAFFILIATED

275

ANSON
DEMOCRATIC
GREEN

1,356
933
2

LIBERTARIAN

2

REPUBLICAN

169

UNAFFILIATED

250

ASHE
CONSTITUTION

2,554
1

DEMOCRATIC

1,025

LIBERTARIAN

7

REPUBLICAN

796

UNAFFILIATED
AVERY
DEMOCRATIC

725
1,231
293

GREEN

2

LIBERTARIAN

7

REPUBLICAN

528

UNAFFILIATED
BEAUFORT
CONSTITUTION
DEMOCRATIC
GREEN

401
4,246
3
2,157
4

LIBERTARIAN

17

REPUBLICAN

898

UNAFFILIATED

1,167

App. 11

BERTIE
DEMOCRATIC
GREEN

1,244
993
1

LIBERTARIAN

2

REPUBLICAN

90

UNAFFILIATED
BLADEN

158
1,999

DEMOCRATIC

1,220

LIBERTARIAN

7

REPUBLICAN

301

UNAFFILIATED

471

BRUNSWICK
CONSTITUTION
DEMOCRATIC
GREEN

25,802
1
9,881
3

LIBERTARIAN

81

REPUBLICAN

6,595

UNAFFILIATED
BUNCOMBE
CONSTITUTION
DEMOCRATIC
GREEN

9,241
55,914
15
29,289
59

LIBERTARIAN

232

REPUBLICAN

6,424

UNAFFILIATED
BURKE
CONSTITUTION
DEMOCRATIC
GREEN

19,895
7,528
3
3,310
5

LIBERTARIAN

31

REPUBLICAN

1,949

UNAFFILIATED

2,230

CABARRUS
CONSTITUTION
DEMOCRATIC
GREEN

30,536
9
12,134
24

LIBERTARIAN

161

REPUBLICAN

7,409

UNAFFILIATED
CALDWELL
CONSTITUTION
DEMOCRATIC
GREEN

10,799
6,393
2
2,322
5

LIBERTARIAN

30

REPUBLICAN

2,189

UNAFFILIATED

1,845

CAMDEN

713

App. 12

CONSTITUTION

1

DEMOCRATIC

249

LIBERTARIAN

6

REPUBLICAN

174

UNAFFILIATED

283

CARTERET
CONSTITUTION
DEMOCRATIC
GREEN

7,304
3
2,737
5

LIBERTARIAN

27

REPUBLICAN

2,047

UNAFFILIATED
CASWELL
DEMOCRATIC

2,485
1,932
1,083

LIBERTARIAN

2

REPUBLICAN

376

UNAFFILIATED

471

CATAWBA
CONSTITUTION
DEMOCRATIC
GREEN

14,758
7
5,259
8

LIBERTARIAN

61

REPUBLICAN

4,331

UNAFFILIATED

5,092

CHATHAM
CONSTITUTION
DEMOCRATIC
GREEN

16,662
5
7,704
7

LIBERTARIAN

42

REPUBLICAN

2,308

UNAFFILIATED
CHEROKEE
CONSTITUTION

6,596
2,695
1

DEMOCRATIC

904

LIBERTARIAN

15

REPUBLICAN

954

UNAFFILIATED
CHOWAN
CONSTITUTION

821
1,153
1

DEMOCRATIC

641

LIBERTARIAN

7

REPUBLICAN

204

UNAFFILIATED

300

CLAY

1,016

DEMOCRATIC

355

LIBERTARIAN

2

REPUBLICAN

305

App. 13

UNAFFILIATED
CLEVELAND
CONSTITUTION
DEMOCRATIC
GREEN

354
8,013
7
3,889
2

LIBERTARIAN

34

REPUBLICAN

2,070

UNAFFILIATED

2,011

COLUMBUS
DEMOCRATIC
GREEN

3,390
2,175
2

LIBERTARIAN

6

REPUBLICAN

503

UNAFFILIATED

704

CRAVEN
CONSTITUTION
DEMOCRATIC
GREEN

12,716
4
5,511
7

LIBERTARIAN

61

REPUBLICAN

3,076

UNAFFILIATED

4,057

CUMBERLAND
CONSTITUTION
DEMOCRATIC
GREEN

36,175
21
19,945
25

LIBERTARIAN

232

REPUBLICAN

5,886

UNAFFILIATED
CURRITUCK
CONSTITUTION
DEMOCRATIC
GREEN

10,066
2,356
1
722
3

LIBERTARIAN

30

REPUBLICAN

659

UNAFFILIATED

941

DARE
CONSTITUTION
DEMOCRATIC
GREEN

5,084
1
2,002
3

LIBERTARIAN

25

REPUBLICAN

1,139

UNAFFILIATED
DAVIDSON
CONSTITUTION
DEMOCRATIC
GREEN
LIBERTARIAN

1,914
15,763
5
5,355
7
66

App. 14

REPUBLICAN

5,841

UNAFFILIATED

4,489

DAVIE
CONSTITUTION

4,136
2

DEMOCRATIC

1,217

LIBERTARIAN

23

REPUBLICAN

1,533

UNAFFILIATED

1,361

DUPLIN
DEMOCRATIC
GREEN

3,204
1,896
4

LIBERTARIAN

11

REPUBLICAN

546

UNAFFILIATED

747

DURHAM
CONSTITUTION
DEMOCRATIC
GREEN
LIBERTARIAN
REPUBLICAN
UNAFFILIATED
EDGECOMBE
CONSTITUTION
DEMOCRATIC
GREEN

69,418
8
39,809
44
254
5,435
23,868
3,820
1
2,883
1

LIBERTARIAN

5

REPUBLICAN

446

UNAFFILIATED

484

FORSYTH
CONSTITUTION
DEMOCRATIC
GREEN

64,876
17
31,231
37

LIBERTARIAN

185

REPUBLICAN

14,048

UNAFFILIATED

19,358

FRANKLIN
CONSTITUTION
DEMOCRATIC
GREEN

7,105
2
3,459
4

LIBERTARIAN

47

REPUBLICAN

1,447

UNAFFILIATED
GASTON
CONSTITUTION
DEMOCRATIC
GREEN
LIBERTARIAN

2,146
23,384
14
9,610
18
108

App. 15

REPUBLICAN

6,547

UNAFFILIATED

7,087

GATES

820

DEMOCRATIC

506

LIBERTARIAN

1

REPUBLICAN

129

UNAFFILIATED
GRAHAM
DEMOCRATIC

184
467
160

LIBERTARIAN

4

REPUBLICAN

183

UNAFFILIATED
GRANVILLE
CONSTITUTION
DEMOCRATIC
GREEN

120
6,309
2
3,287
3

LIBERTARIAN

29

REPUBLICAN

1,171

UNAFFILIATED

1,817

GREENE
DEMOCRATIC
GREEN

1,242
855
3

LIBERTARIAN

2

REPUBLICAN

149

UNAFFILIATED

233

GUILFORD
CONSTITUTION
DEMOCRATIC
GREEN

75,163
20
38,687
36

LIBERTARIAN

288

REPUBLICAN

14,040

UNAFFILIATED

22,092

HALIFAX
CONSTITUTION

3,825
1

DEMOCRATIC

2,800

LIBERTARIAN

6

REPUBLICAN

322

UNAFFILIATED

696

HARNETT
CONSTITUTION
DEMOCRATIC

11,902
4
5,172

GREEN

10

LIBERTARIAN

74

REPUBLICAN

3,092

UNAFFILIATED
HAYWOOD
DEMOCRATIC

3,550
8,144
4,083

App. 16

GREEN

4

LIBERTARIAN

35

REPUBLICAN

1,583

UNAFFILIATED
HENDERSON
CONSTITUTION
DEMOCRATIC

2,439
20,572
6
7,061

GREEN

21

LIBERTARIAN

71

REPUBLICAN

4,879

UNAFFILIATED

8,534

HERTFORD
DEMOCRATIC
GREEN

1,456
1,124
2

LIBERTARIAN

3

REPUBLICAN

97

UNAFFILIATED
HOKE
CONSTITUTION
DEMOCRATIC
GREEN
LIBERTARIAN
REPUBLICAN
UNAFFILIATED
HYDE
DEMOCRATIC

230
4,369
6
2,324
5
38
673
1,323
319
187

GREEN

1

LIBERTARIAN

3

REPUBLICAN
UNAFFILIATED
IREDELL
CONSTITUTION
DEMOCRATIC
GREEN

24
104
22,089
7
7,536
12

LIBERTARIAN

114

REPUBLICAN

6,612

UNAFFILIATED
JACKSON
CONSTITUTION
DEMOCRATIC
GREEN

7,808
3,896
1
1,866
5

LIBERTARIAN

16

REPUBLICAN

711

UNAFFILIATED
JOHNSTON
CONSTITUTION
DEMOCRATIC

1,297
22,713
19
9,689

App. 17

GREEN

13

LIBERTARIAN

141

REPUBLICAN

5,297

UNAFFILIATED

7,554

JONES
CONSTITUTION
DEMOCRATIC

629
2
312

GREEN

1

LIBERTARIAN

4

REPUBLICAN

159

UNAFFILIATED

151

LEE
CONSTITUTION
DEMOCRATIC
GREEN

5,830
5
2,961
2

LIBERTARIAN

29

REPUBLICAN

1,144

UNAFFILIATED
LENOIR
CONSTITUTION
DEMOCRATIC
GREEN

1,689
4,893
1
3,275
1

LIBERTARIAN

12

REPUBLICAN

732

UNAFFILIATED

872

LINCOLN
CONSTITUTION
DEMOCRATIC
GREEN

8,194
8
2,695
4

LIBERTARIAN

43

REPUBLICAN

2,669

UNAFFILIATED

2,775

MACON
CONSTITUTION
DEMOCRATIC
GREEN

4,537
3
1,707
6

LIBERTARIAN

19

REPUBLICAN

1,367

UNAFFILIATED
MADISON
DEMOCRATIC

1,435
2,541
1,310

GREEN

3

LIBERTARIAN

4

REPUBLICAN

356

UNAFFILIATED
MARTIN
CONSTITUTION

868
1,854
1

App. 18

DEMOCRATIC

1,263

GREEN

1

LIBERTARIAN

3

REPUBLICAN

241

UNAFFILIATED

345

MCDOWELL
DEMOCRATIC
GREEN
LIBERTARIAN
REPUBLICAN
UNAFFILIATED
MECKLENBURG
CONSTITUTION
DEMOCRATIC
GREEN

3,658
1,589
4
17
945
1,103
199,937
66
93,017
118

LIBERTARIAN

1,013

REPUBLICAN

34,361

UNAFFILIATED

71,362

MITCHELL
DEMOCRATIC

1,291
286

GREEN

1

LIBERTARIAN

1

REPUBLICAN

590

UNAFFILIATED

413

MONTGOMERY
CONSTITUTION
DEMOCRATIC
GREEN

1,510
1
674
2

LIBERTARIAN

9

REPUBLICAN

403

UNAFFILIATED
MOORE
CONSTITUTION
DEMOCRATIC
GREEN

421
14,434
6
4,920
5

LIBERTARIAN

82

REPUBLICAN

4,275

UNAFFILIATED

5,146

NASH
DEMOCRATIC
GREEN

7,943
4,613
6

LIBERTARIAN

32

REPUBLICAN

1,528

UNAFFILIATED

1,764

NEW HANOVER
CONSTITUTION
DEMOCRATIC

40,741
10
18,003

App. 19

GREEN

41

LIBERTARIAN

221

REPUBLICAN

8,204

UNAFFILIATED
NORTHAMPTON
CONSTITUTION

14,262
1,415
1

DEMOCRATIC

995

LIBERTARIAN

5

REPUBLICAN

116

UNAFFILIATED
ONSLOW
CONSTITUTION
DEMOCRATIC
GREEN

298
13,878
13
5,112
22

LIBERTARIAN

150

REPUBLICAN

3,839

UNAFFILIATED

4,742

ORANGE
CONSTITUTION
DEMOCRATIC
GREEN
LIBERTARIAN
REPUBLICAN
UNAFFILIATED
PAMLICO
CONSTITUTION

36,262
5
20,696
26
118
2,348
13,069
1,301
2

DEMOCRATIC

651

LIBERTARIAN

6

REPUBLICAN

265

UNAFFILIATED

377

PASQUOTANK
CONSTITUTION
DEMOCRATIC
GREEN

4,023
1
2,215
4

LIBERTARIAN

14

REPUBLICAN

621

UNAFFILIATED
PENDER
CONSTITUTION
DEMOCRATIC
GREEN

1,168
5,929
2
2,395
3

LIBERTARIAN

37

REPUBLICAN

1,520

UNAFFILIATED

1,972

PERQUIMANS
CONSTITUTION
DEMOCRATIC

993
2
470

App. 20

GREEN

1

LIBERTARIAN

2

REPUBLICAN

201

UNAFFILIATED
PERSON
DEMOCRATIC

317
3,537
1,923

LIBERTARIAN

13

REPUBLICAN

641

UNAFFILIATED

960

PITT
CONSTITUTION
DEMOCRATIC

17,027
2
9,500

GREEN

12

LIBERTARIAN

92

REPUBLICAN

2,661

UNAFFILIATED

4,760

POLK
CONSTITUTION
DEMOCRATIC
GREEN

3,322
1
1,288
3

LIBERTARIAN

11

REPUBLICAN

690

UNAFFILIATED
RANDOLPH
CONSTITUTION
DEMOCRATIC
GREEN

1,329
11,287
3
3,823
5

LIBERTARIAN

57

REPUBLICAN

4,239

UNAFFILIATED

3,160

RICHMOND
DEMOCRATIC
GREEN

2,701
1,590
1

LIBERTARIAN

7

REPUBLICAN

434

UNAFFILIATED

669

ROBESON
CONSTITUTION
DEMOCRATIC
GREEN
LIBERTARIAN
REPUBLICAN
UNAFFILIATED
ROCKINGHAM
CONSTITUTION
DEMOCRATIC
GREEN

6,251
1
3,970
4
18
799
1,459
6,511
5
3,183
3

App. 21

LIBERTARIAN

23

REPUBLICAN

1,665

UNAFFILIATED

1,632

ROWAN
CONSTITUTION
DEMOCRATIC

12,809
5
4,922

GREEN

12

LIBERTARIAN

59

REPUBLICAN

3,884

UNAFFILIATED
RUTHERFORD
DEMOCRATIC
GREEN

3,927
5,856
2,376
4

LIBERTARIAN

24

REPUBLICAN

1,708

UNAFFILIATED

1,744

SAMPSON
CONSTITUTION
DEMOCRATIC
GREEN

3,919
2
2,258
1

LIBERTARIAN

13

REPUBLICAN

922

UNAFFILIATED
SCOTLAND
DEMOCRATIC

723
2,512
1,494

LIBERTARIAN

3

REPUBLICAN

366

UNAFFILIATED

649

STANLY
CONSTITUTION
DEMOCRATIC
GREEN

4,671
3
1,772
4

LIBERTARIAN

14

REPUBLICAN

1,594

UNAFFILIATED

1,284

STOKES
CONSTITUTION
DEMOCRATIC
GREEN

3,599
2
1,225
2

LIBERTARIAN

11

REPUBLICAN

1,423

UNAFFILIATED
SURRY
CONSTITUTION
DEMOCRATIC
GREEN
LIBERTARIAN

936
6,946
1
3,047
5
23

App. 22

REPUBLICAN

2,187

UNAFFILIATED

1,683

SWAIN
CONSTITUTION
DEMOCRATIC
GREEN

964
1
439
3

LIBERTARIAN

6

REPUBLICAN

205

UNAFFILIATED

310

TRANSYLVANIA
CONSTITUTION

5,271
2

DEMOCRATIC

2,070

LIBERTARIAN

8

REPUBLICAN

965

UNAFFILIATED
TYRRELL

2,226
136

DEMOCRATIC

89

REPUBLICAN

12

UNAFFILIATED

35

UNION
CONSTITUTION
DEMOCRATIC
GREEN

26,488
8
9,410
18

LIBERTARIAN

143

REPUBLICAN

7,149

UNAFFILIATED
VANCE
CONSTITUTION

9,760
3,474
2

DEMOCRATIC

2,421

LIBERTARIAN

19

REPUBLICAN

442

UNAFFILIATED

590

WAKE
CONSTITUTION
DEMOCRATIC
GREEN

241,363
76
103,240
142

LIBERTARIAN

1,298

REPUBLICAN

39,764

UNAFFILIATED

96,843

WARREN
DEMOCRATIC

1,881
1,297

LIBERTARIAN

5

REPUBLICAN

255

UNAFFILIATED

324

WASHINGTON

866

DEMOCRATIC

634

LIBERTARIAN

3

App. 23

REPUBLICAN
UNAFFILIATED
WATAUGA
DEMOCRATIC

90
139
7,394
2,972

GREEN

9

LIBERTARIAN

27

REPUBLICAN

1,332

UNAFFILIATED

3,054

WAYNE

9,917

CONSTITUTION
DEMOCRATIC

6
5,428

GREEN

8

LIBERTARIAN

67

REPUBLICAN

2,164

UNAFFILIATED
WILKES

2,244
5,672

CONSTITUTION
DEMOCRATIC

8
2,078

GREEN

2

LIBERTARIAN

24

REPUBLICAN

2,218

UNAFFILIATED

1,342

WILSON

6,586

CONSTITUTION
DEMOCRATIC

2
3,778

GREEN

3

LIBERTARIAN

21

REPUBLICAN

1,240

UNAFFILIATED
YADKIN

1,542
2,836

CONSTITUTION
DEMOCRATIC

5
843

GREEN

2

LIBERTARIAN

9

REPUBLICAN

1,167

UNAFFILIATED
YANCEY
DEMOCRATIC

810
2,202
1,101

GREEN

1

LIBERTARIAN

4

REPUBLICAN

477

UNAFFILIATED
Grand Total

619
1,420,665

Data Sources: absentee_demo_stats_20201103.csv, absentee_20161108.zip

App. 24

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

NATIONAL

Poorly Protected Postal Workers Are
Catching COVID-19 by the Thousands. It’s
One More Threat to Voting by Mail.
More than 50,000 workers have taken time oﬀ for virus-related reasons,
slowing mail delivery. The Postal Service doesn’t test employees or
check their temperatures, and its contact tracing is erratic.
by Maryam Jameel and Ryan McCarthy, Sept. 18, 5 a.m. EDT

Shoshana Gordon/ProPublica; source images: Centers for Disease Control and Prevention,
U.S. Postal Service and Wikimedia Commons

ProPublica is a nonproﬁt newsroom that investigates abuses of power. Sign up to receive
our biggest stories as soon as they’re published.

For months, one postal worker had been doing all she could to protect
herself from COVID-19. She wore a mask long before it was required at her
plant in St. Paul, Minnesota. She avoided the lunch room, where she saw
little social distancing, and ate in her car.
The stakes felt especially high. Her husband, a postal worker in the same
facility, was at high risk because his immune system is compromised by a
condition unrelated to the coronavirus. And the 20-year veteran of the U.S.
Postal Service knew that her job, operating a machine that sorts mail by

App. 25

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

1/10

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

ZIP code, would be vital to processing the ﬂood of mail-in ballots expected
this fall.
By mid-August, more than 20 workers in her building had tested positive
for the coronavirus. Then, in a list of talking points on her supervisor’s
desk, she spotted a reference to a new positive case at the plant. She had
heard that someone she’d worked with closely a few days earlier was out
sick, but no one at USPS had told her to quarantine, and no contact tracer
had reached out to her. Although USPS’ protocol is to tell workers when
they’ve been exposed to COVID-19, that didn’t happen, she and another
postal worker familiar with the case said.
Asking around, she learned that a colleague she’d partnered with to load
mail into the sorting machine had been infected. She phoned her doctor,
who advised her to quarantine and get tested. Later that week, she tested
positive and began suﬀering body aches, a sore throat and fatigue.
“They should’ve told anybody who worked with him, ‘You need to go
home.’ What is it going to take, somebody to die in the building before they
take it seriously?” said the worker, who requested anonymity for fear of
retaliation.
In recent weeks, furors over Postmaster General Louis DeJoy’s cost-cutting
initiatives, and over President Donald Trump’s unsubstantiated warnings
of voter fraud, have overshadowed a signiﬁcant threat to the Postal
Service’s ability to handle the expected tens of millions of mail-in ballots
this fall: a rapid rise in the number of workers sidelined by COVID-19.
The total number of postal workers testing positive has more than tripled
from about 3,100 cases in June to 9,600 in September, and at least 83 postal
workers have died from complications of COVID-19, according to USPS.
Moreover, internal USPS data shows that about 52,700 of the agency’s
630,000 employees, or more than 8%, have taken time oﬀ at some point
during the pandemic because they were sick, or had to quarantine or care
for family members.
High rates of absence could slow ballot delivery in key states, especially if
there’s a second wave of the coronavirus, as some epidemiologists predict.
Twenty-eight states, including Pennsylvania, Wisconsin and Florida,
require mail-in ballots to arrive by Election Day to be counted.
Even in a normal year, absentee levels of this magnitude “would have a
dramatic eﬀect on the mission of the postal service,” said Alan Kessler, an
attorney who served on the Postal Service’s Board of Governors during the
Clinton and George W. Bush administrations, including as chairman from
2008 to 2011. “When people ask me about November, my biggest concern
right now is exactly that — the on-time delivery of mail.” Kessler is a
former ﬁnance vice chair of the Democratic National Committee.

App. 26

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

2/10

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

What vacant positions have been ﬁlled at USPS have been ﬁlled by less
experienced temporary workers. Restrictions on overtime pay under
DeJoy may have prevented full-time workers at some facilities from
adding hours to pick up some of the slack. While USPS has nearly $14
billion in cash, it reserves some of that funding to pre-pay employee
pensions, and it is projected to run out of money next spring. On Thursday,
a federal judge in Washington state temporarily halted operational
changes that have slowed mail delivery, ﬁnding that “at the heart of
DeJoy’s and the Postal Service’s actions is voter disenfranchisement.”
As the St. Paul worker’s case illustrates, the Postal Service’s half-hearted
precautions against COVID-19 have contributed to the problem. Its eﬀorts
to limit the virus’s spread in the workplace fall short of recommendations
by the Centers for Disease Control and Prevention. Unlike Amazon, which
relies on USPS to help deliver its packages, the Postal Service doesn’t test
workers or check their temperatures, depending instead on self-reporting.
When employees get sick, USPS sometimes neglects to tell co-workers, and
its eﬀorts at contact tracing have been inconsistent and understaﬀed.
Reﬂecting these shortcomings, the U.S. Occupational Safety and Health
Administration has received more than 250 coronavirus-related
complaints against the Postal Service since March, more than twice the
number ﬁled against private employers in the same industry like Amazon,
FedEx and the UPS. Amazon, which has almost 250,000 more workers
than the postal service, had 117 complaints. The complaints against USPS
paint a worrisome picture. They typically allege failures to maintain social
distancing, enforce mask wearing or inform workers when colleagues have
the virus.
The tally doesn’t include open complaints yet to be made public, including
one by another worker in the same St. Paul building. That July complaint,
obtained by ProPublica, accused USPS of “not communicating and
informing employees that may have potentially been exposed to positive
COVID-19 employees,” as well as inadequate ventilation and six other
hazards. The Postal Service responded to OSHA that it traces contacts of
all employees who test positive and encourages ailing employees to stay
home. Nevertheless, OSHA told the complainant that it will inspect the
facility as soon as possible.
The Postal Service has been adamant that it can handle a nationwide
increase in voting by mail in the general election. Even a mass shift to
mail-in ballots would represent a small portion of its overall volume.
Still, DeJoy, a major donor to President Donald Trump and the Republican
Party, acknowledged in congressional testimony last month that COVID19-related absences had upended mail service. “Across the country, our
employee availability is down 3 to 4% on average,” DeJoy said. “But the
issue is in some of the hot spots in the country, areas like Philadelphia and

App. 27

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

3/10

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

Detroit — there’s probably 20 [other areas] the averages cover — they could
be down 20%. And that is contributing to the delivery problem that we’re
having.”
The Postal Service referred us to an April 30 statement on its website. Its
COVID-19 leadership team “is focusing on employee and customer safety
in conjunction with operational and business continuity during this
unprecedented epidemic,” according to the statement. “We continue to
follow the strategies and measures recommended by the Centers for
Disease Control and Prevention and public health departments.”
Among its initiatives, the statement said, the Postal Service is supplying its
more than 30,000 locations with masks, gloves and cleaning supplies.
Employees who can’t maintain social distance must wear masks. The
service has reduced employee contact with the public by eliminating a rule
that customers must sign mobile devices for deliveries, and it has updated
its leave policy to allow workers to take extra time oﬀ for illness and child
care.
Postal workers who test positive are supposed to tell their supervisor, who
should alert a nurse responsible for contact tracing. But communication is
sometimes lacking. “They have the occupational nurse doing the contact
tracing, but sometimes there’s no contact with the worker. And some
managers don’t report [the case] to the tracking. Some managers tell
people, ‘You don’t sound sick, come to work,’” said Omar Gonzalez,
western regional coordinator at the American Postal Worker Union. “So we
don’t really know what to rely on.”
One reason that the system breaks down is a shortage of contact tracers.
USPS, which does not provide medical care to workers, employs about 160
nurses. Alongside other administrative duties, they are supposed to
register COVID-19 cases and interview workers when they get sick. In the
New York district, one nurse has been responsible for contact tracing for
about 8,200 employees; in Detroit, the ratio is two nurses per 11,600
workers; and in Atlanta, one for 12,500. Facilities in all three districts have
seen coronavirus outbreaks. USPS has reemployed 10 former agency
nurses to assist with contact tracing, according to a spokesperson.
“To use the word contact tracing is a joke,” said Jonathan Smith, president
of the New York metro area’s postal worker union.
Coronavirus outbreaks in several areas have correlated with slower
delivery times. First-class delivery has slowed since March, with notable
lags in New York, New Jersey, Philadelphia, Detroit, Chicago, Houston and
Southern California, according to data from GrayHair Software, which
tracks postal analytics.
COVID-19 has “caused severe disruptions to on-time delivery in many
parts of the country,” the U.S. Senate Committee on Homeland Security

App. 28

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

4/10

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

and Governmental Aﬀairs reported this week. In late March and early
April, it found a spike in cases in Michigan, “especially in the Detroit area,”
led to a “notable drop in on-time delivery.”
In Philadelphia, where more than 235 postal workers have tested positive,
local media outlets reported unsorted mail piling up in postal facilities and
carriers unable to complete routes even after working extra hours. Some
residents said they went two to three weeks without receiving mail. In
April, COVID-19-related delays in Detroit facilities slowed delivery of
primary ballots for parts of northwest Ohio, prompting Ohio’s secretary of
state to call for in-state processing of all ballots. In Michigan’s August
primary election, more than 6,400 residents’ votes weren’t counted
because they arrived after the deadline, though it’s not clear whether
COVID-19 was a major factor.
Internal USPS data from its southern region in mid-August shows the
impact of the coronavirus on workers. In Atlanta, more than 900 postal
workers had been infected with COVID-19 or had to quarantine. More than
550 workers were aﬀected in Houston and an additional 485 in South
Florida.
COVID-19 outbreaks have strained postal oﬃces that had inadequate
staﬃng even before the pandemic, said Michael Caref, national business
agent of the Illinois chapter of the National Association of Letter Carriers.
“Now you’re seeing crisis levels in some areas.”
In March, the Postal Service donated 500,000 N95 masks “in excess of our
needs” for distribution to hospitals and other critical workers, according to
a draft letter from the Board of Governors to members of Congress that was
made public by American Oversight. However, the service doesn’t provide
N95 masks, which are considered especially eﬀective at ﬁltering out virus
particles, to most of its own employees. A Postal Service spokesperson said
USPS supplies N95 masks to employees who require them. Other workers
receive surgical masks.
The CDC and OSHA have both released guidance on how employers
should protect workers, though it does not carry the power of law.
According to the CDC, “businesses and employers can prevent and slow
the spread of COVID-19 within the workplace.”
The CDC advises employers to “consider conducting daily in-person or
virtual health checks (e.g., symptom and/or temperature screening) of
employees before they enter the facility.” The Postal Service doesn’t
conduct those checks. The onus falls on workers to stay home if they
notice symptoms, get tested, report back on results and recall whom they
were in contact with.
At Amazon, which has also been criticized for failing to protect its
employees during the pandemic, precautions are more stringent.

App. 29

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

5/10

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

According to an Amazon spokesperson, the company does daily
temperature checks and has installed thermal cameras at some of its sites.
When an employee is exposed, the company “immediately kicks-oﬀ
contact tracing to determine if anyone was exposed to that individual, and
we inform those employees right away and ask them to quarantine for 14
days with pay,” the spokesperson said.
FedEx’s protections also appear more robust than the Postal Service’s.
FedEx checks temperatures of employees at some of its sites, and it has
expanded testing to 43 locations since July, according to a company
spokesperson.
The CDC advises employers to collaborate with local and state health
departments on contact tracing. According to its guidance, employees who
are asymptomatic but have been within about 6 feet of a person with
COVID-19 for a prolonged period of time should self-isolate and
quarantine for 14 days. Often, contact tracing is needed to identify those
employees.
But even when USPS employees report positive tests, supervisors don’t
always follow through. In August, an asymptomatic employee in Flint,
Michigan, tested positive for COVID-19 and told a supervisor as well as a
few co-workers. The worker stopped coming in, but the supervisor didn’t
inform USPS’ medical unit until four days later — after the exposed
workers had told their union, which in turn reported the case to
management. Michael Mize, the local postal union president, said he
pushed the supervisor to report it. A USPS nurse started contact tracing on
the ﬁfth day.
“That’s way too slow,” said George Rutherford, a professor of epidemiology
and biostatistics at the University of California at San Francisco School of
Medicine.
Because most people infected with COVID-19 often begin shedding large
amounts of virus four or ﬁve days after they’re exposed, even if they’re
asymptomatic, co-workers in Flint might have transmitted the disease
before the nurse contacted them, Rutherford said. “That’s why you gotta
get on this stuﬀ quickly.” According to CDC guidance, exposed co-workers
should be contacted and tested within 24 hours.
USPS and union oﬃcials had a Zoom call to discuss what went wrong in
Flint, Mize said. “Luckily we don’t have any major outbreaks because of
any failures that happened,” he said. “If things aren’t handled
appropriately, you’re relying on good fortune.”
Roscoe Woods, a Detroit-area postal union president, said that USPS
sometimes lacks up-to-date contact information, complicating the task of
contact tracers. In addition, employees often don’t know the surnames of
exposed co-workers. “You’re trying to trace down eight people and all their

App. 30

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

6/10

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

contact information is bad,” said Woods, who has stepped in to help with
contact tracing in the past.
When employees are sidelined because of the coronavirus, USPS can ﬁll in
some of the gaps by hiring employees who aren’t in the union. But the
Postal Service has long had trouble hiring and retaining temporary or noncareer employees, and union representatives say the Postal Service has
been slow to ﬁll these roles during the pandemic.
In February, the Postal Service’s Oﬃce of Inspector General faulted the
agency for failing to recruit and retain nonunion workers. In 2019, the
annual turnover rate for non-career employees, who constitute 21% of the
workforce, was 38.5%; the average tenure for workers who left their jobs
was just 81 days. One of the top reasons for leaving: Workers said that
supervisors didn’t treat them with respect. The jobs ﬁlled by these workers
are physically strenuous, pay about $17 an hour, lack beneﬁts and often
require an inconsistent work schedule. It can take weeks to hire and train
them.
“The hiring process is really slow,” Caref said. “And if you have a person
that says they want to work, the person is not prepared for a month after
they’ve been hired. They really need to ﬁgure that out.”
Virus-related OSHA complaints from around the country reﬂect some of
the dangers and frustrations postal workers have faced throughout the
pandemic.
“The station and the vehicles have not been cleaned and sanitized. Bleach
spray bottles were provided at one time but the employees were not
provided material to wipe down surfaces and the bottles have since
broken,” reads a complaint ﬁled from Houston on June 18. “Employees in
the vehicles do not have hand sanitizer or another method to cleanse
hands while away from the station.”
In a postal facility in Smithtown, New York, “the air conditioning has not
been working properly for the last 3-4 weeks (blowing 81 degrees at the
vent) which has made working in the building uncomfortable and may be
contributing to employees not wanting to [wear] their masks,” a complaint
stated in mid-July. It’s unclear what action, if any, OSHA took on the
Houston and Smithtown complaints, which are now closed.
Since the worker in St. Paul began quarantining in mid-August, there have
been at least 11 COVID-19 cases at her workplace, according to Postal
Service emails obtained by ProPublica. Overall, at least 33 out of more than
1,000 workers have tested positive at the building since the start of the
pandemic.
In USPS’ Northland District, which covers Minnesota — including the St.
Paul plant — and western Wisconsin, at least 148 workers have tested

App. 31

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

7/10

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

positive. “We had a record breaking day with COVID-19 positive cases

(vOTE

today. 18 employees must be quarantined. This is not a good record,” reads

^

an Aug. 25 email from USPS management to unions regarding the

Northland District.

“We had 4 new COVID-19 cases reported today. Things aren’t getting any

better,” management said in an email two days later.

No one replaced the St. Paul postal worker while she was out. She returned
to the job this month, even though she was still recovering and low on
energy, because she needed the money. After two weeks of sick leave, her
days oﬀ were unpaid, and her husband hasn’t worked for four months
because of an unrelated health condition. Plus, the situation at the plant
has improved somewhat: Social distancing has become mandatory in the
break rooms, and employees were warned that not wearing masks could
jeopardize their jobs.
She also felt a civic obligation, because she’ll be responsible for processing
thousands of ballots in the upcoming election.
“That’s another reason why I want to go back to work,” she said. “I want to
make sure the ballots get run.”
Jack Gillum and Rachel Glickhouse contributed reporting.

Help Us Report on Voting
Are you a voter? A poll worker? An election administrator? We want to hear from you
about any problems you’re experiencing or witnessing in the voting process.
Name *

Email *

Are you a: *

Voter
Poll worker
Election administrator
Other

What city are you located in? *

What state are you located in? *

Alabama

App. 32

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

8/10

10/24/2020

Poorly Protected Postal Workers Are Catching COVID-19 by the Thousands. It’s One More Threat to Voting by Mail. — ProPublica

Another forum, newsletter, blog, group I subscribe to

^

An SMS/text message survey

( vOTE
Tjjy
\

Other

Choose all that apply.

Saved

SUBMIT

Powered by CityBase.

Maryam Jameel
Maryam Jameel is an engagement reporter working on communitysourced investigations out of ProPublica’s Washington, D.C.
newsroom.

Maryam.Jameel@propublica.org
202-886-9555

@mrym_jml

Signal: 202-681-0779

Ryan McCarthy
Ryan McCarthy edits stories for ProPublica’s Electionland, focusing on voting rights,
election security and misinformation.
ryan.mccarthy@propublica.org

@mccarthyryanj

App. 33

https://www.propublica.org/article/poorly-protected-postal-workers-are-catching-covid-19-by-the-thousands-its-one-more-threat-to-voting-by-mail

10/10

>IM »• I77S

et a
f!

4 NORTH CAROLINA

, ,.
all
uU- Ua
C

l£*/ i . 12 , »

State Board of Elections & Ethics Enforcement
EMERGENCY ORDER – Updated 11/5/2018
G.S. § 163A-750; 08 NCAC 01.0106

1. Hurricane Florence (“Florence”) made landfall on or about September 14, 2018,
severely damaging persons and property across eastern North Carolina. The
President of the United States declared a Major Disaster and the Governor of
North Carolina declared a State of Emergency and called a special session of the
General Assembly that convened October 2, 2018.
2. Session Law 2018-134 enacted a process by which county boards of elections could
relocate voting sites affected by Florence, allocated funding for a public
information campaign to highlight registration and voting options, and extended
the voter registration deadline in the following thirty-four (34) counties (the
“Affected Counties”):
Beaufort
Bladen
Brunswick
Carteret
Columbus
Craven
Cumberland
Duplin
Greene
Harnett
Hoke
Hyde

Johnston
Jones
Lee
Lenoir
Moore
New Hanover
Onslow
Pamlico
Pender
Pitt
Richmond
Robeson

Sampson
Scotland
Wayne
Wilson

Anson
Chatham
Durham
Guilford
Orange
Union

3. The State Board of Elections & Ethics Enforcement (“State Board”) staff continue
to monitor the effect of Florence across the State and remain in communication
with disaster response teams, the U.S. Postal Service, and county elections
administrators.
4. The State Board convened in open session on October 17, 2018. During that
meeting, members of the State Board and the Executive Director discussed the
effects of Florence on voting populations and the November 6, 2018 general
election.
5. Statute provides that the Executive Director, as chief State elections official, may
exercise emergency powers to conduct an election in districts where the normal
schedule has been disrupted by a natural disaster. G.S. § 163A-750(a)(1). The

App. 34

N © RTH CAROLINA
State Board of Elections & Ethics Enforcement
exercise of such powers must avoid unnecessary conflict with existing law. G.S. §
163A-750(a).
6. Administrative rules authorized by the State Board, adopted by the Executive
Director, and approved by the Rules Review Commission provide standards for
the exercise of emergency powers. See 08 NCAC 01.0106. Pursuant thereto, the
Executive Director finds the following:
a. 08 NCAC 01.0106(a): Florence and its aftermath have disrupted the
normal schedule for the election and impaired critical components of
election administration by displacing persons, damaging property, and
affecting mail delivery, which have cumulatively impaired voting
opportunities in Affected Counties and absentee voting processes more
broadly.
b. 08 NCAC 01.0106(b)(1)(A): Hurricane Florence is a qualifying natural
disaster permitting the Executive Director to assess the propriety of
emergency action.
c. 08 NCAC 01.0106(c): The Executive Director has shaped the exercise of
emergency power having considered the following:
• 08 NCAC 01.0106(c)(1): The geographic scope of disruption is
limited to the Affected Counties identified by the President of the
United States as within a Major Disaster area and targeted
specifically by Session Law 2018-134. Remedial action as to
absentee ballot delivery, however, cannot be limited to the
recipient Affected County, because mail transit routes and/or
delays may affect the delivery of ballots sent from any location to
either an Affected County or a non-affected county.
• 08 NCAC 01.0106(c)(2): Select contests span both affected and
non-affected areas and include statewide ballot items. The
considered exercise of power works to preserve the rights of
candidates and voters participating in contests that span affected
and non-affected areas.
• 08 NCAC 01.0106(c)(3): More than one month has passed since
Florence made landfall, and the disruption in advance of Election
Day is highly foreseeable. The State Board has also invested
heavily in advertising campaigns communicating the registration
and voting options available this election. Nevertheless, the types
of disruptions addressed by the exercise of emergency power
contained in this Order are not adequately remedied by increased
public awareness.
• 08 NCAC 01.0106(c)(4): Alternative registration options were
made available in Affected Counties by special enactments that
extended the voter registration deadline. S.L. 2018-134, § 5.3.(a).
The General Assembly additionally directed procedures by which
county boards may relocate early voting sites and Election Day
precinct locations. Early voting has not been suspended based
App.
2 35

N © RTH CAROLINA
State Board of Elections & Ethics Enforcement
upon the disruption, and same-day registration remains available
to individuals who appear during the early voting period.
Registrants may present proof of residency using an electronic
document. Voters displaced outside of their county of registration
are able to request an absentee ballot sent to the address of their
choosing. Accordingly, registration and voting opportunities
remain available.
• 08 NCAC 01.0106(c)(5) and 01.0106(c)(6): The duration of
disruption is ongoing and residents and voters remain displaced.
Media reports indicate thousands remain displaced due to
Florence. See Jason DeBruyn, “FEMA Brings Trailers to NC For
Temporary Housing”, WUNC (October 18, 2018). Additionally,
FEMA has announced temporary housing services. FEMA,
“Direct Temporary Housing for North Carolina Disaster
Survivors”, Release DR-4393-NC, (October 15, 2018). Displaced
persons staying with family or friends may not be included in the
count of those utilizing federal housing assistance. Some election
workers cannot be reached or are no longer available to serve due
to disruption, and in some precincts an insufficient number of
elections officials are available to fill the positions of judge and
chief judge.
• 08 NCAC 01.0106(c)(7): The General Assembly has approved
processes that ensure secure voting locations. While access to
some voting locations was a point of initial concern, the State
Board staff remain in ongoing contact with county administrators
who are best positioned to recommend any relocations to their
respective county boards.
• 08 NCAC 01.0106(c)(8): The Executive Director transmitted
correspondence to the Governor, President Pro Tempore of the
Senate, and Speaker of the House on September 26, 2018,
detailing current legal deadlines and administrative processes
affecting voter registration, voting by mail, election workers,
voting sites, and displaced voters. The letter also cited the
administrative rule requiring consideration of the time remaining
for the political branches to address disruptions. In the month
since Florence made landfall, the General Assembly and the
Governor have approved emergency legislation on three
occasions: Session Laws 2018-134 (ratified October 2), 2018-135
(ratified October 2), and 2018-136 (ratified October 15).
• 08 NCAC 01.0106(c)(9): Emergency remedial measures contained
in this Order do not erode election integrity and ballot security.
All changes to absentee balloting involve administrative handling
of absentee ballots while suspending no security requirements
contained in current law.

App.
3 36

N © RTH CAROLINA
State Board of Elections & Ethics Enforcement
• 08 NCAC 01.0106(c)(10): Emergency remedial measures are
calculated to have minimal effect on certification deadlines in
that no deadline extends beyond the deadline by which certain
ballots from overseas and military voters must be accepted under
current law.
7. In evaluating the disruption and establishing remedial effects, every effort has
been made to treat similarly situated persons equally, while appropriately
tailoring relief to offset the nature and scope of the disruption as required by law.
Based upon the foregoing findings and conclusions, and in exercise of G.S. § 163A-750
and 08 NCAC 01.0106, the Executive Director hereby ORDERS:
A.

Civilian absentee ballots delivered by mail or commercial courier service to the
appropriate county board of elections office in any of the twenty-eight Affected
Counties shall be counted if received no later than 5 p.m. Thursday, November 15,
2018, if the container return envelope was postmarked on or before Election Day,
November 6. This directive modifies the deadlines contained in
G.S. § 163A-1310(b)(2) only, and in no other respect.

B.

Any voter or other person authorized by law may deliver an absentee ballot in
person to any early voting site or county board of elections office in the state; the
absentee ballot must be delivered during the site or office’s hours of operation and
shall be considered timely if delivered by 5 p.m. on Election Day, November 6.
County boards of elections must ensure delivery to the appropriate county board
of elections office prior to canvass on November 16, 2018. This directive modifies
restrictions as to the location of delivery in G.S. § 163A-1310 only, and in no other
respect.

C.

In any precinct in an Affected County where, due to the effects of Florence, the
county board finds that an insufficient number of precinct officials are available
to fill the majority of the three positions of chief judge and judge with residents of
that precinct, the county board may appoint nonresidents of the precinct to a
majority of the positions provided that the officials otherwise meet all
requirements.

This the fifth day of November, 2018.

Kim Westbrook Strach
Executive Director
State Board of Elections & Ethics Enforcement
App.
4 37

Mailing Address:

( \/OTE ) N O R T H C A R O L I N A

XTTJ7 S T A T E B O A R D O F E L E C T I O N S

P . O. Box 27255 ,
Raleigh, NC 27611
(919) 814 - 0700 or
(866) 522 - 4723

^ (919) 7150135

EMERGENCY EXECUTIVE ORDER
Friday, September 6, 2019
G .S. § 163A-750; 08 NCAC 01.0106
1 . Hurricane Dorian (“ Dorian”) made landfall on or about September 5, 2019, damaging
property and causing power outages across eastern North Carolina. The Governor of North
Carolina declared a State of Emergency in anticipation of Dorian on August 31.2019.
2. Due to the disruption caused by Hurricane Dorian, the following counties in the
Congressional District 9 special election (“Affected Counties”) were closed for Certain
portions of the one-stop early voting period:

Bladen
Cumberland

Robeson
Scotland

3. The State Board of Elections (“State Board”) staff continue to monitor the effects of Dorian
across the State and remain in communication with state and federal partners, emergency
response personnel, the U.S. Postal Service, and county elections administrators.
Additional executive orders may be issued if needed .

4. The State Board convened in open session on September 5, 2019. During that meeting,
members of the State Board and the Executive Director discussed the effects of Dorian on
voting populations and the September 10 special congressional election.
5. Statute provides that the Executive Director, as chief State elections official, may exercise
emergency powers to conduct an election in districts where the normal schedule has been
disrupted by a natural disaster. G.S. § 163 A-750(a)( I ). The exercise of such powers must
avoid unnecessary conflict with existing law. G.S. § 163 A-750(a ).
6 . Administrative rules provide standards for the exercise of emergency powers. See 08
NCAC 01. 0106. Pursuant thereto, the Executive Director finds the following:

a. 08 NCAC 0 T 0106(a): Dorian and its aftermath has disrupted the normal schedule
for the election and impaired critical components of election administration by
displacing persons, damaging property, and disrupting the one-stop early voting
period. Each Affected County closed its one-stop sites for portions or all of the day

App. 38

on Wednesday, Thursday, and/or Friday of the last week of the early voting period.
Cumberland and Scotland counties reopened their sites for voting on Friday.

b. 08 NCAC 01. 0106(b)(1)(A): Hurricane Dorian is a qualifying natural disaster
permitting the Executive Director to assess the propriety of emergency action.
c. 08 NCAC 01.0106(c): The Executive Director has defined tire scope of the exercise
of emergency power having considered the following:

•08 NCAC 01 . 0106(c)(1): The geographic scope of disruption is limited to
The other counties in
Congressional District 9 did not experience a disruption at early Voting
locations or otherwise.
the Affected Counties identified above ,

•08 NCAC 01. 0106(c)(2): The contest at issue, Congressional District 9 ,
spans affected and non-affected areas. The considered exercise of power
works to preserve the rights of candidates and voters participating in this
contest. Extending one-stop hours in only Affected Counties works to
ensure that voters across the district are given a fair opportunity to
participate in the election.

• 08 NCAC 01 . 0106(c)(3): Only one day has passed since Dorian made
landfall, and inclement weather continues in the State. While the disruption

in advance of the election was foreseeable, the specific impacts of Dorian
were not. The State Board has created a page on its website to inform the
public about closures of early voting sites , Nevertheless, the types of
disruptions addressed by the exercise of emergency power contained in this
Order cannot be adequately addressed by public awareness because the
closure of the final day(s) of One-stop voting in Affected Counties prevented
some voters from having an opportunity to cast their ballots,

•08

NCAC Of . 0106(c)(4): Alternative registration options were not
available in Affected Counties, While voters may have the opportunity vote
on Election Day at their precinct locations, they are not be able to same-day
register on Election Day . The deadline to register to Vote had already passed
when Dorian made landfall, as had the deadline to request an absentee
ballot.

• 08 NCAC 01. 0106(c)(5) and 0 i . 0106(c)(6): The duration of the disruption
of one-stop voting was Wednesday, Thursday, and /or Friday of the last
week of early voting in Affected Counties. It is not anticipated: that large
numbers of voters in Congressional District 9 were displaced by Dorian.
The remedy in this Order, extending certain early voting hours, is tailored
2
App. 39

to make up for the closures that occurred earlier in the week. However, it
is not possible in every county to make up for the early voting closures on
an hour-by- hour basis. The Executive Director has communicated with
each county board of elections in Affected Counties to understand their
ability to administer extended early voting hours. Some election workers
cannot be reached or are no longer available to serve due to the disruption
or because they were never scheduled to work over the weekend. County
boards of elections are also preparing over the weekend and on Monday for
Election Day on Tuesday. This includes uploading voter history from onestop pollbooks, syncing and printing pollbooks for Election Day, and
preparing other supplies for distribution to voting sites.

-

•08 NCAC 01. 0106(c)(7): State Board staff remain in ongoing contact with
county elections officials, who are best positioned to advise on the
feasibility of any modifications. One-stop sites identified in this Order are
available for voting.

•08 NCAC 01. 0106(c)(8): There is not time for the General Assembly to
respond since; Election Day is on Tuesday, and one-stop voting must be
extended today in order to occur tomorrow. The Executive Director
transmitted a copy of Numbered Memo 2019-05 to the Governor , President
Pro Tempore of the Senate, and Speaker of the House, and the political
parties, on September 3. 2019, detailing preparations made by the agency
prior to landfall of Dorian. The letter also cited the administrative rule
permitting the executive director to exercise emergency powers in certain
circumstances. The political parties have submitted correspondence to the
Executive Director requesting certain extensions of one stop voting,

-

•08 NCAC 01. 0106(c)(9): Emergency remedial measures contained in this

.

Order do not erode election integrity and ballot security State Board staff
have consulted with Affected Counties to ensure they will be able to
securely carry out the directives in this Orders

• 08 NCAC 01. 0106(c)(10): Emergency remedial measures will not affect
certification deadlines.
7. In evaluating the disruption and establishing remedial effects, every effort has been made
to treat similarly situated persons equally, while appropriately tailoring relief to offset the
nature ; and scope; of the disruption as required by law.

3

App. 40

Based upon the foregoing findings and conclusions, and in exercise of G.S. § 163 A-750 and 08
NCAC 01.0106, the Executive Director hereby ORDERS:

-

Early voting, including same day registration is orderedto take place in Affected Counties
as follows:

Bladen
Friday, September 6 , 2019
County Board of Elections office from 12 p. m. to 7 p .m.
Tar Heel Municipal Building from 12 p.m. to 7 p m.
Saturday, September 7, 2019
County Board of Elections office from 8:30 a. m . to 7 p . m .
Tar Heel Municipal Building from 8:30 a.m. to 7 p.m .

.

Cumberland
Saturday, September 7, 2019
County Board of Elections office and East Regional Library from 8 a.m. to
2 p.m .

Robeson
Friday, September 6, 2019:
Comity Board of Elections office from 12 p. m . to 5:15 p.m .
All other one-stop sites from 1 p .m. to 7 p.m ,
Saturday, September 7, 2019 :
County Board of Elections office from 7 a.m, to 7 p.m.
All other one-stop sites from 8 a.m. to 5:30 p.m .
Scotland
Saturday, September 7, 2019:
County Board of Elections office from 7 a.m . to 1 p.m .

This directive modifies the schedule of one-stop early voting contained in G.S. § 163 A 1300(b)
and S.L. 2019-22 only, and in no other respect.
This the 5th day of September , 2019.
r

Karen Brinson Bell
Executive Director
State Board of Elections
4

App. 41

Mailing Address

(VOTE) N O R T H C A R O L I N A
Nfnry

P.O. Box 27255,

-

Raleigh, NC 27611

-

(919) 814 0700 or
(866) 522- 4723

S T A T E B O A R D O F E L E C T I O N S ** <*10) 715-0135
SECOND EMERGENCY EXECUTIVE ORDER
Friday, September 6, 2019
G.S. § 163A-750; 08 NCAC 01.0106

1. Hurricane Dorian (“Dorian”) made landfall on or about September 5, 2019, damaging
property and causing power outages across eastern North Carolina. The Governor of North
Carolina declared a State of Emergency in anticipation of Dorian on August 31, 2019.
2. Due to the disruption caused by Hurricane Dorian, all county boards of elections in the
Congressional District 3 special election were closed for certain portions of the one-stop
early voting period. These counties (“Affected Counties”) are:
Beaufort

Dare

Pamlico

Camden

Greene

Pasquotank

Carteret

Hyde

Perquimans

Chowan

Jones

Pitt

Craven

Lenoir

Tyrrell

Currituck

Onslow

3. The State Board of Elections (“State Board”) staff continue to monitor the effects of Dorian
across the State and remain in communication with state and federal partners, emergency
response personnel, the U.S. Postal Service, and county elections administrators.
Additional executive orders may be issued if needed.
4. The State Board convened in open session on September 5, 2019. During that meeting,
members of the State Board and the Executive Director discussed the effects of Dorian on
voting populations and the September 10 special congressional election.
5. Statute provides that the Executive Director, as chief State elections official, may exercise
emergency powers to conduct an election in districts where the normal schedule has been
disrupted by a natural disaster. G.S. § 163A-750(a)( l ). The exercise of such powers must
avoid unnecessary conflict with existing law. G.S. § 163A-750(a).

6. Administrative rules provide standards for the exercise of emergency powers. See 08
NCAC 01. 0106. Pursuant thereto, the Executive Director finds the following:
a. 08 NCAC 01. 0106(a): Dorian and its aftermath has disrupted the normal schedule
for the election and impaired critical components of election administration by

App. 42

displacing persons, damaging property, and disrupting the one-stop early voting
period across the district. Each Affected County closed its one-stop sites for
portions or all of the day on Wednesday, Thursday, and/or Friday of the last week
of the early voting period.

b. 08 NCAC 01. 0106(b)(1)(A): Hurricane Dorian is a qualifying natural disaster
permitting the Executive Director to assess the propriety of emergency action.
c. 08 NCAC 01.0106(c): The Executive Director has defined the scope of the exercise
of emergency power having considered the following:

• 08 NCAC 01. 0106(c)(1): The geographic scope of disruption covers the
entire Congressional District 3. However, some Affected Counties are
experiencing a more substantial disruption than other Affected Counties. In
some counties, mandatory curfews and mandatory evacuations continue.
There are widespread power outages. Some areas are unreachable by road .
Other areas experienced disruptions but conditions have largely returned to
normal at the time of the issuance of this Order.

• 08 NCAC 01. 0106(c)(2): The contest at issue, Congressional District 3,
spans the entire affected area.

• 08

NCAC 01. 0106(c)(3): Only one day has passed since Dorian made
landfall. While the disruption in advance of the election was foreseeable,
the specific impacts of Dorian were not. The State Board has created a page
on its website to inform the public about closures of early voting sites.
Nevertheless, the types of disruptions addressed in this Order, including
disruptions in one-stop voting and mail delivery, cannot be adequately
addressed by public awareness.

•08

NCAC 01. 0106(c)(4): Alternative registration options were not
available in Affected Counties. While voters may have the opportunity to
vote on Election Day at their precinct locations, they are not be able to sameday register on Election Day. The deadline to register to vote had already
passed when Dorian made landfall, as had the deadline to request an
absentee ballot. Voters who need to vote absentee by mail, due to disability
or other reason that prevents them from physically voting at a voting site,
do not have an alternative other than to send their ballot by mail or
commercial carrier.

• 08 NCAC 01. 0106(c)(5), 01. 0106(c)(6), and 01 .0106(c)(7): The duration
of the disruption includes a disruption to one-stop voting that occurred
Wednesday, Thursday, and/or Friday of the last week of early voting in

2
App. 43

Affected Counties. Mail disruptions are ongoing in some areas. Some
voters remain displaced due to mandatory evacuation orders, power
outages, and road closures. Some precinct officials will not be available to
work on Election Day due to these and other issues.
The remedy in this Order extending early-voting hours is tailored to make
up for the closures that occurred earlier in the week. However, it is not
possible to make up for the early-voting closures in every county. Some
county boards of elections do not have power or are not currently able to
assess their voting sites. Some election workers cannot be reached or are
no longer available to serve due to the disruption or because they were never
scheduled to work over the weekend. County boards of elections are also
preparing over the weekend and on Monday for Election Day on Tuesday.
This includes uploading voter history from one-stop pollbooks, syncing and
printing pollbooks for Election Day, and preparing other supplies for
distribution to voting sites. The one-stop sites and hours provided for in
this Order are what is assessed to be possible in the Affected Counties based
on current information and conditions. This information may be imperfect
due to changing conditions and limited time for decisionmaking.

• 08 NCAC 01. 0106(c)(8): There is not time for the General Assembly to
respond since Election Day is on Tuesday, and one-stop voting must be
extended today in order to occur tomorrow. The Executive Director
transmitted a copy of Numbered Memo 2019-05 to the Governor, President
Pro Tempore of the Senate, and Speaker of the House, and the political
parties, on September 3, 2019, detailing preparations made by the agency
prior to landfall of Dorian. The letter also cited the administrative rule
permitting the executive director to exercise emergency powers in certain
circumstances. Political parties have submitted correspondence to the
Executive Director requesting certain extensions of one-stop voting.

• 08 NCAC 01. 0106(c)(9): Emergency remedial measures contained in this
Order do not erode election integrity or ballot security. State Board staff
have consulted with Affected Counties to ensure they will be able to
securely carry out the directives in this Order. The remedies provided
herein are specifically tailored to the circumstances based on what county
boards of elections have reported is possible without compromising
elections security or integrity.

•08

NCAC 01. 0106(c)(10): Emergency remedial measures are not
anticipated to affect certification deadlines.

App. 44

7. In evaluating the disruption and establishing remedial effects, every effort has been made
to treat similarly situated persons equally, while appropriately tailoring relief to offset the
nature and scope of the disruption as required by law.
Based upon the foregoing findings and conclusions, and in exercise of G.S. § 163A-750 and 08
NCAC 01. 0106, the Executive Director hereby ORDERS:

A. Early voting, including same-day registration, is ordered to take place on Saturday,
September 7, 2019, from 9 a.m. to 5 p.m., at the county board of elections office or in
lieu of site in the following counties:
Beaufort

Greene

Onslow

Carteret

Hyde

Pamlico

Chowan

Jones

Pitt

Craven

Lenoir

This directive modifies the schedule of one-stop early voting contained in G.S. § 163A
1300(b) and S.L. 2019-22 only, and in no other respect.

B. For all Affected Counties (all counties in Congressional District 3): Notwithstanding
Numbered Memo 2019-03, canvass for Congressional District shall take place on
Friday, September 20, 2019 at 11 a.m.
C. For all Affected Counties (all counties in Congressional District 3): Civilian absentee
ballots delivered by mail or commercial courier service to the appropriate county
board of elections office in any of the Affected Counties shall be counted if received
no later than 5 p.m. on Wednesday, September 18, 2019, if the container-return
envelope was postmarked on or before Election Day, September 10. This directive
modifies the deadlines contained in G.S. § 163A 1310(b)(2) only, and in no other
respect.

D. For all Affected Counties (all counties in Congressional District 3): In any precinct in
an Affected County where, due to the effects of Dorian, the county board finds that an
insufficient number of precinct officials are available to fill the majority of the three
positions of chief judge and judges with residents of that precinct, the county board
may appoint nonresidents of the precinct to a majority of the positions provided, that
the officials otherwise meet all requirements.

4
App. 45

This the 6th day of September, 2019.

Ka/en Brinson Bell
Executive Director
State Board of Elections

5
App. 46

Mailing Address•

(VOTE) N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

P.O. Box 27255,
Raleigh, NC 27611
(919) 814 0700 or
(866) 522 4723
*

*

#» (919) 7150135

THIRD EMERGENCY EXECUTIVE ORDER
Saturday, September 7, 2019
G.S. § 163A-750; 08 NCAC 01.0106
1. Hurricane Dorian (“Dorian”) made landfall on or about September 5, 2019, damaging
property and causing power outages across eastern North Carolina. The Governor of North
Carolina declared a State of Emergency in anticipation of Dorian on August 31, 2019.

2. Due to the disruption caused by Hurricane Dorian, certain county boards of elections in
Congressional District 9 and all county boards of elections in Congressional District 3
special election were closed for certain portions of the one-stop early voting period. These
counties (“Affected Counties”) are:

Bladen

Chowan

Lenoir

Cumberland

Craven

Onslow

Robeson

Currituck

Pamlico

Scotland

Dare

Pasquotank

Beaufort

Greene

Perquimans

Camden

Hyde

Pitt

Carteret

Jones

Tyrrell

3. The State Board of Elections (“State Board”) staff continue to monitor the effects of Dorian
across the State and remain in communication with state and federal partners, emergency
response personnel, the U.S. Postal Service, and county elections administrators. This is
the third executive order issued for the September 10 election, and additional executive
orders may be issued if needed.
4. The State Board convened in open session on September 5, 2019. During that meeting,
members of the State Board and the Executive Director discussed the effects of Dorian on
voting populations and the September 10 special congressional election.

5. Statute provides that the Executive Director, as chief State elections official, may exercise
emergency powers to conduct an election in districts where the normal schedule has been
disrupted by a natural disaster. G.S. § 163A-750(a)( l ). The exercise of such powers must
avoid unnecessary conflict with existing law. G.S. § 163A-750(a).

App. 47

6. Administrative rules provide standards for the exercise of emergency powers. See 08
NCAC 01. 0106. Pursuant thereto, the Executive Director finds the following:

a. 08 NCAC 01. 0106(a): Dorian and its aftermath have disrupted the normal schedule
for the election and impaired critical components of election administration by
displacing persons, damaging property, and disrupting the one-stop early voting
period across the district. Each Affected County closed its one-stop sites for
portions or all of the day on Wednesday, Thursday, and/or Friday of the last week
of the early voting period.
b. 08 NCAC 01. 0106(b)(1)(A): Hurricane Dorian is a qualifying natural disaster
permitting the Executive Director to assess the propriety of emergency action.
c. 08 NCAC 01. 0106(c): The Executive Director has defined the scope of the exercise
of emergency power having considered the following:

• 08 NCAC 01. 0106(c)(1): The geographic scope of disruption covers the
entire Congressional District 3 and parts of Congressional District 3. Some
Affected Counties experienced a more substantial disruption than other
Affected Counties, but all Affected Counties experienced some disruption.

• 08 NCAC 01. 0106(c)(2): Congressional District 3 spans the entire affected
area. Congressional District 9 spans affected and non-affected areas. The
remedies herein address only those portions of Congressional District 9 that

were affected by Dorian.

• 08 NCAC 01. 0106(c)(3): Only one day has passed since Dorian made
landfall. While the disruption in advance of the election was foreseeable,
the specific impacts of Dorian were not. The State Board has created a page
on its website to inform the public about closures of early voting sites.
Nevertheless, the types of disruptions addressed in this Order, including
disruptions in one-stop voting, cannot be adequately addressed by public
awareness.

•08

NCAC 01. 0106(c)(4): Alternative registration options were not
available in Affected Counties. While voters may have the opportunity to
vote on Election Day at their precinct locations, they are not be able to sameday register on Election Day. The deadline to register to vote had already
passed when Dorian made landfall, as had the deadline to request an
absentee ballot.

• 08 NCAC 01. 0106(c)(5), 01. 0106(c)(6), and 01 .0106(c)(7): The duration
of the disruption includes a disruption to one-stop voting that occurred
Wednesday, Thursday, and/or Friday of the last week of early voting in

2
App. 48

Affected Counties. Some voters remain displaced due to mandatory
evacuation orders, power outages, and road closures. Some precinct
officials will not be available to work on Election Day due to these and other
issues.

The remedy in this Order extending early-voting hours is tailored to make
up for closures that occurred earlier in the week that have not already been
accounted for. However, it is not possible to make up for the early-voting
closures in every county. Some county boards of elections do not have
power or are not currently able to assess their voting sites. Some election
workers cannot be reached or are no longer available to serve due to the
disruption or because they were never scheduled to work over the weekend.
County boards of elections are also preparing over the weekend and on
Monday for Election Day on Tuesday. This includes uploading voter
history from one-stop pollbooks, syncing and printing pollbooks for
Election Day, and preparing other supplies for distribution to voting sites.
The one-stop sites and hours provided for in this Order are what is assessed
to be possible in the Affected Counties based on current information and
conditions. This information may be imperfect due to changing conditions
and limited time for decisionmaking.

• 08 NCAC 01. 0106(c)(8): There is not time for the General Assembly to

respond since Election Day is on Tuesday, and one-stop voting must be
extended today in order to occur tomorrow. The Executive Director
transmitted a copy of Numbered Memo 2019-05 to the Governor, President
Pro Tempore of the Senate, and Speaker of the House, and the political
parties, on September 3, 2019, detailing preparations made by the agency
prior to landfall of Dorian. The letter also cited the administrative rule
permitting the executive director to exercise emergency powers in certain
circumstances. Political parties have submitted correspondence to the
Executive Director requesting certain extensions of one-stop voting.

• 08 NCAC 01. 0106(c)(9): Emergency remedial measures contained in this
Order do not erode election integrity or ballot security. State Board staff
have consulted with Affected Counties to ensure they will be able to
securely carry out the directives in this Order. The remedies provided
herein are specifically tailored to the circumstances based on what county
boards of elections have reported is possible without compromising
elections security or integrity.

• 08

NCAC 01. 0106(c)(10): Emergency remedial measures are not
anticipated to affect certification deadlines.
3
App. 49

7. In evaluating the disruption and establishing remedial effects, every effort has been made
to treat similarly situated persons equally, while appropriately tailoring relief to offset the
nature and scope of the disruption as required by law.
Based upon the foregoing findings and conclusions, and in exercise of G.S. § 163A-750 and 08
NCAC 01. 0106, the Executive Director hereby ORDERS:

A. Early voting, including same-day registration, is ordered to take place on Sunday,
September 8, 2019, from 12 p.m. to 3 p.m. , at the county board of elections office in
the following counties:
Camden

Dare

Perquimans

Currituck

Pasquotank

Tyrrell

This directive modifies the schedule of one-stop early voting contained in G.S. § 163A1300(b) and S.L. 2019-22 only, and in no other respect.

B. For all Affected Counties (all counties in Congressional District 3, and Bladen,
Cumberland, Robeson, and Scotland counties in Congressional District 9):
Notwithstanding G.S. § 163A-821(b), the chair of each political party in an Affected
County may submit the list of persons to be appointed as observers to the county
board of elections by Sunday, September 8, 2019, at 5 p.m. This includes lists of
precinct-specific and at-large observers. A political party chair who has already
submitted a list of observers may update the list by this deadline. Lists may be
submitted by fax, email, or in-person.

This the 7th day of September, 2019.

Kdren Brinson Bell
Executive Director
State Board of Elections

4
App. 50

Mailing Address:

^

( vOTE N O R T H C A R O L I N A
XTjjy

STATE BOARD OF ELECTIONS

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

July 17, 2020
EMERGENCY ORDER

ADMINISTERING THE NOVEMBER 3, 2020 GENERAL ELECTION
DURING THE GLOBAL COVID-19 PANDEMIC AND PUBLIC HEALTH
EMERGENCY
As Executive Director, acting pursuant to N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01
.0106, I hereby find the following:
1.
On March 10, 2020, the Governor issued Executive Order No. 116, declaring a
State of Emergency in response to the public health emergency posed by Coronavirus Disease
2019 (COVID-19).
2.
pandemic.

On March 11, 2020, the World Health Organization declared COVID-19 a global

3.
On March 13, 2020, the President of the United States issued an emergency
declaration for all states, tribes, territories, and the District of Columbia, retroactive to March 1,
2020, and declared that the COVID-19 pandemic in the United States constitutes a national
emergency.
4.
On March 25, 2020, the President approved a Major Disaster Declaration, FEMA4487-DR, for the State of North Carolina.
5.
On May 20, 2020, the Governor stated in Executive Order 141 that “slowing and
controlling community spread of COVID-19 is critical to ensuring that the state’s healthcare
facilities remain able to accommodate those who require medical assistance.” Executive Order
141 further states that, due to the “continued community spread of COVID-19 within North
Carolina,” the State must “continue some measures to slow the spread of the virus during the
pandemic.”
6.
Executive Order 141 notes the determination of public health experts that that
“the risk of contracting and transmitting COVID-19 is higher in settings that are indoors, where
air does not circulate freely and where people are less likely to maintain social distancing by
staying six feet apart.” Executive Order 141 also notes that “the risk of contracting and
transmitting COVID-19 is higher in settings where people are stationary and in close contact for
long periods of time” and “in gatherings of larger groups of people because these gatherings
offer more opportunity for person-to-person contact with someone infected with COVID-19.”

App. 51

7.
The Secretary of the North Carolina Department of Health and Human Services
has noted that scientific evidence suggests that the probability of COVID-19 transmission
indoors is “approximately 18.7 times higher than in an open-air environment.” 1
8.
As of July 16, 2020, North Carolina has had more than 93,426 laboratoryconfirmed cases of COVID-19 and more than 1,588 deaths from the disease. 2
9.
As of the date of this Order, North Carolina’s daily case counts of COVID-19
continue to increase, the percent of COVID-19 tests that are positive remains elevated,
emergency-department visits for COVID-19-like illnesses are increasing, and hospitalizations for
COVID-19 are increasing. 3
10.
COVID-19 infections in North Carolina are likely to continue for the next several
months and into the fall, through at least Election Day.
11.
In-person polling places, by their very nature, are venues where people may,
without appropriate measures, congregate, often in close quarters, and sometimes for prolonged
periods of time. As a result, it is critical that measures be taken to reduce the risk of COVID-19
transmission and to ensure, to the maximum extent possible, that voters are able to exercise their
constitutional right to vote without undue risk.
12.
Experiences from other states that have conducted elections during the pandemic
are instructive. In Wisconsin, for example, following primary elections on April 7, researchers at
the University of Wisconsin-Oshkosh and Ball State University found a “statistically and
economically significant association between in-person voting and the spread of COVID-19 two
to three weeks after the election.” In addition, the study found that “consolidation of polling
locations, and relatively fewer absentee votes, increased positive testing rates two to three weeks
after the election.” 4 The study’s findings suggest that taking measures to reduce crowding at
polling places is important to minimize the risk of COVID-19 transmission.
13.
It has also been publicly reported that in Georgia, in primary elections held on
June 9, 2020, there were “widespread problems” that led to lengthy delays and disruptions that
were caused by the introduction of a new voting system, a “mass exodus of poll workers fearing
coronavirus exposure,” the forced closure of polling places due to insufficient staffing, and a

1

Declaration of Mandy K. Cohen, MD, MPH, North Carolina Bowling Proprietors Assn.
v. Cooper, No. 20 CVS 6422 (Wake Cty. Sup. Ct.), Dkt. 14.1, ¶ 40.
2
See North Carolina Department of Health and Human Services COVID-19 Response,
available at https://covid19.ncdhhs.gov/.
3
See North Carolina Department of Health and Human Services COVID-19 Dashboard,
available at https://covid19.ncdhhs.gov/dashboard.
4
Cotti, Chad D. and Engelhardt, Bryan and Foster, Joshua and Nesson, Erik and Niekamp,
Paul, The Relationship between In-Person Voting, Consolidated Polling Locations, and Absentee
Voting on COVID-19: Evidence from the Wisconsin Primary (May 10, 2020), available at
SSRN: https://ssrn.com/abstract=3597233.
2
App. 52

“crush of absentee ballot requests.” 5 In several locations, these problems led to hours-long
delays in in-person voting on Election Day, 6 further increasing both inconvenience and risk to
voters and poll-workers. It has been publicly reported that Nevada and South Carolina also
experienced similar delays and disruption. 7 Pennsylvania and Washington, D.C. experienced
delays during their primary elections as well; in Washington D.C., only 20 of its typical 143
polling places opened, with reported wait times at each location of more than an hour around
7:30 p.m. on election day during a citywide curfew and in Philadelphia, only 190 of 831 polling
places were opened. 8
14.
On June 22, 2020, the Centers for Disease Control and Prevention (CDC) issued
interim guidance to prevent the spread of COVID-19 in election-polling locations. 9 The CDC
guidance encourages elections officials to:
•

Ensure that “poll workers who are sick, have tested positive for COVID-19, or
have recently had a close contact with a person with COVID-19” stay home.

•

“Provide an alcohol-based hand sanitizer with at least 60% alcohol for use at each
step in the voting process where voters interact with poll workers, after using the
voting machine, and as the final step in the voting process.”

•

Use “physical barriers, such as plexiglass shields, that can be used to protect
workers and voters when physical distance cannot be maintained.”

•

“Recommend and reinforce the use of cloth face coverings among all workers”
and “encourage voters to use cloth face coverings while in the polling location.”

•

Ensure adequate supplies, including soap, hand sanitizer, paper towels, tissues,
disinfectant wipes, and no-touch trash cans, to support healthy hygiene.

5

Gardner, Amy and Lee, Michelle Ye Hee and Boburg, Shawn, Voting debacle in Georgia
came after months of warnings went unaddressed, The Washington Post (June 19, 2020),
available at https://www.washingtonpost.com/politics/voting-debacle-in-georgia-came-aftermonths-of-warnings-went-unaddressed/2020/06/10/1ab97ade-ab27-11ea-94d2d7bc43b26bf9_story.html.
6
Id.
7
Id.
8
Gardner, Amy and Viebeck, Elise and Pompilio, Natalie, Primary voters in 8 states and
D.C. faced some confusion, long lines and poor social distancing, The Washington Post (June 2,
2020), available at https://www.washingtonpost.com/politics/in-pennsylvania-officials-preparefor-coronavirus-civil-unrest-to-disrupt-tuesday-primary/2020/06/02/96a55c40-a4be-11ea-b6193f9133bbb482_story.html.
9
Interim guidance to prevent spread of coronavirus disease 2019 (COVID-19), The
Centers for Disease Control and Prevention (June 22, 2020), available at
https://www.cdc.gov/coronavirus/2019-ncov/community/election-polling-locations.html.
3
App. 53

•

Disinfect all surfaces “frequently touched by multiple people” and clean and
disinfect voting-associated equipment. “After the polling location closes, clean
and disinfect” all equipment and transport cases.

•

“Where possible, replace shared objects like pens or ballot-activation cards with
single-use objects” and headphones for voters with disabilities.

•

“Encourage voters to stay at least six feet apart” from each other by posting signs
and providing other visual cues and have plans to manage lines to ensure social
distancing can be maintained.

•

Increase the number of polling locations available for early voting and extend
hours of operation at early voting sites.

•

Maintain or increase the total number of polling places available to the public on
Election Day to improve the ability to social distance.

•

Minimize lines as much as possible, especially in small, indoor spaces.

•

“Limit the number of voters in the facility by moving lines outdoors if weather
permits or using a ticket system for access to the facility.”

•

“To ensure sufficient space for social distancing and other measures, identify
larger facilities for use as polling places.”

•

Notify voters of changes to polling operations, including the availability of
alternative voting options that minimize contact.

•

Offer alternatives to in-person voting.

•

Offer early voting or extended hours, where voter crowds may be smaller
throughout the day.

•

Offer alternative voting options that minimize exposure between poll-worker and
voters for voters with symptoms, those who are sick, or known COVID-19
positive.

15.
The COVID-19 pandemic is a major health emergency across all regions of North
Carolina, affecting North Carolinians statewide. 10
16.
Because the COVID-19 pandemic affects North Carolinians across local
jurisdictional boundaries, it is critical that health and safety measures instituted by county boards
10

See North Carolina Department of Health and Human Services COVID-19 Dashboard,
available at https://covid19.ncdhhs.gov/dashboard.
4
App. 54

of elections not conflict and are coordinated with statewide measures to ensure adequate
protection for lives of North Carolina voters. Therefore, I have determined that it is necessary to
take action and give direction to county boards of elections to ensure adequate protection for
lives of North Carolinians.
17.
The State Board and county boards of elections are already well underway with
actively preparing to conduct the November 3, 2020 general election in accordance with state
and federal law. For example, county boards were directed to submit one-stop early voting plans
to the State Board by July 31, 2020. Some counties have already submitted plans. However, the
COVID-19 pandemic is disrupting and will continue to disrupt the normal schedule for this
election cycle in every county in the state, and has impaired critical components of election
administration. These impairments include significantly increasing the difficulty for county
boards to identify and train adequate numbers of poll-workers and one-stop workers who can
safely assist with in-person registration and voting activities, and allow for voters to cast ballots
without subjecting themselves to serious health risks. To address these impairments, county
boards of elections can take actions that reduce crowd density, shorten the time voters spend in
line and at polling locations, and improve sanitation and cleanliness.
18.
N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01. 0106 authorize me to exercise
emergency powers to conduct an election where the normal schedule is disrupted by a
catastrophe arising from natural causes that has resulted in a disaster declaration by the President
of the United States or the Governor, while avoiding unnecessary conflict with the laws of North
Carolina. The emergency remedial measures set forth here are calculated to offset the nature and
scope of the disruption from the COVID-19 disaster.
19.
Pursuant to N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01. 0106(a) and (b), and
after consultation with the State Board, I have determined that the COVID-19 health emergency
is a catastrophe arising from natural causes—i.e., a naturally occurring virus—resulting in a
disaster declaration by the President of the United States and a declaration of a state of
emergency by the Governor, and that the disaster has already disrupted and continues to disrupt
the schedule and has already impacted and continues to impact multiple components of election
administration.
20.
State public health officials have cited data that show that the continuing spread
of COVID-19 within North Carolina is on an upward trend. 11 They have informed me that the
spread will likely continue for at least several months, through the November 3, 2020 general
election date, and across the State. Pursuant to N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01
.0106(c)(1) and (2), I have determined that these disruptions to administering the November 3,
2020 general election have already affected and will continue to affect the entire State and all
contests. As of the date of this Order, I have determined that, pursuant to N.C. Gen. Stat. § 16327.1 and 08 NCAC 01 .0106(c)(5), it is not clear when or if the disruptions to the normal
schedule for the November 3, 2020 general election will end. Because of the advance planning
necessary to address multiple components of election administration, pursuant to N.C. Gen. Stat.
11

See North Carolina Department of Health and Human Services COVID-19 Dashboard,
available at https://covid19.ncdhhs.gov/dashboard.
5
App. 55

§ 163-27.1 and 08 NCAC 01 .0106(c)(3), (8), and (10), I have determined that certain emergency
measures need to be identified now to ensure that there is adequate time to meet State and federal
deadlines, particularly in light of the upcoming deadline for county boards to submit their onestop absentee voting plans. Impacted aspects of election administration include procuring
necessary supplies, ensuring adequate staffing, and securing adequate facilities and
infrastructure.
21.
Because there is a higher risk of transmission of the COVID-19 virus indoors and
in areas where people come in close contact, pursuant to N.C. Gen. Stat. § 163-27.1 and 08
NCAC 01. 0106(c)(4) and (6), the State Board and county boards of elections must make
arrangements to ensure the existence of safe in-person voting opportunities and safe spaces for
election workers so as to reduce, to the maximum extent possible, displacement of voters or
election workers. Pursuant to N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01. 0106(c)(7), I have
determined that the high risk of transmission in close contact also requires that the State Board
and county boards of elections ensure that there are sufficient voting locations and election
workers to ensure that every eligible North Carolinian has the ability to vote without endangering
herself.
22.
Without sufficient measures to ensure that all eligible North Carolinians can vote
safely, the integrity of the elections may be compromised. To avoid the disenfranchisement of
eligible voters and to protect the health and safety of election workers and voters, pursuant to
N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01 .0106(c)(9), I have determined that the State Board
and county boards of elections must put in place measures that will protect against the
contraction and spread of COVID-19 while voting is taking place.
Based on the foregoing findings and conclusions, by the authority vested in me as
Executive Director by N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01 .0106, IT IS ORDERED:
1.
All county boards of elections shall open each one-stop early voting site in their
county for a minimum of ten hours total for each of the first and second weekends of the 17-day
early voting period. A county-board office or in-lieu-of site (as defined in N.C. Gen. Stat. § 163227.6) that is open only during regular business hours shall be excluded from the requirement in
this paragraph, provided that there is at least one other one-stop site in the county.
2.
Each county board of elections shall open at least one one-stop early voting site
per 20,000 registered voters in the county, as reflected in the voter registration records as of July
11, 2020. A county board of elections may apply to the Executive Director for a waiver of the
requirement in this paragraph if its proposed plan is sufficient to serve the voting population,
maintain social distancing and reduce the likelihood of long lines.
3.
Any county board of elections that only has only one one-stop early voting site
shall arrange for a backup site and backup staff in the event that its site must be shut down or in
the event that there is a lack of sufficient staffing due to COVID-19.

6
App. 56

4.
Any county board of elections may open its sites earlier than 8:00 a.m. and/or
may stay open later than 7:30 p.m., provided that the sites (other than the county-board office or
in-lieu-of site, if only open regular business hours) are all open at the same time.
5.
All county boards of elections shall post visible signage outside each one-stop site
to inform voters of the location and hours of all one-stop sites in the county so voters can assess,
while abiding by social distancing guidelines outside the polling location, whether to go to a
different location.
6.
If a county board of elections learns that one of its polling places for a precinct is
inaccessible because of the COVID-19 pandemic, the county board of elections may request a
transfer of some voters to an adjacent precinct. The request is subject to approval by the
Executive Director and shall explain why the partial transfer is necessary due to the COVID-19
pandemic and how the proposal is consistent with the criteria in N.C. Gen. Stat. § 163-130.2(3)(7). The request must be received at least 45 days prior to the election. No later than 30 days
prior to the election, the county board of elections shall mail a notice of precinct change to each
registered voter who, as a result of the change, will be assigned to a different voting place.
7.

All county boards shall:
a. Provide for social distancing at voting sites, including by applying
appropriate markings and providing appropriate barriers, including
barriers between elections officials and voters at check-in;
b. Provide for frequent sanitation of common surfaces, hand-sanitizer, and
single-use ballot-marking devices;
c. Require that elections officials wear face coverings, and make face
coverings available to voters who do not bring their own. Voters will not
be required to wear a face covering to vote;
d. Require face shields or partitions and gloves for all election officials
where appropriate for the task.

8.
The State Board shall provide a centralized location on its website for precinctconsolidation information throughout the voting period.
9.
As Executive Director, I will disseminate additional guidance on the measures
described here in Numbered Memos.
10.
If any provision of this Order or its application to any person or circumstances is
held invalid by any court of competent jurisdiction, this invalidity does not affect any other
provision or application of the Order which can be given effect without the invalid provision or
application. To achieve this purpose, the provisions of this order are declared to be severable.

7
App. 57

11.
This order will be in effect immediately and will remain in effect through 11:59
p.m. on November 4, 2020 unless repealed, replaced, or rescinded by another Emergency Order.
Further emergency orders may be issued to address other components of election administration
that may be impaired as necessary.
This 17th day of July, 2020.

Karen Brinson Bell
Executive Director
North Carolina State Board of Elections

8
App. 58

Mailing Address:
P.O. Box 27255
Raleigh, NC 27611-7255

^

( vOTE N O R T H C A R O L I N A
Tjjy S T A T E B O A R D O F E L E C T I O N S
\
TO:
FROM:
RE:
DATE:

Phone: (919) 733-7173

KIM WESTBROOK STRACH
Executive Director

NUMBERED MEMO 2016-21
County Boards of Elections
Kim Strach, Executive Director
Voter Registration Processing and Election Observer Requirements
October 19, 2016

This memorandum provides guidance to address questions regarding voter registration and
election observer requirements. For additional information on observer conduct, see Numbered
Memo 2016-17 and Tips for Observers and Runners.

Voter Registration Deadline
We have received many questions about voter registration processing in light of the extension of
the voter registration deadline in 37 counties. I am certain that many of you spent your weekend
processing voter registration applications that were received by Friday, October 14. And, due to
the mail delays associated with Hurricane Matthew, it is likely most counties will be processing
voter registration applications through today. For those 37 counties with the extended voter
registration deadline, it may be impossible to process applications received today before voting
begins tomorrow. Additionally, voter registrations will be timely in those 37 counties if
postmarked by today. If the postmark is missing or illegible on forms received in those 37
counties, the forms must be received in your office by Monday, October 24.
The grid below is meant to highlight the differences between the 37 Matthew counties and those
counties that did not have an extended voter registration deadline (Non-Matthew counties).
Matthew Counties

Non-Matthew Counties

10/19/2016

10/14/2016

Source: received by mail with
postmark date

Postmark dated 10/19/2016 or
earlier

Ignore postmark date if
received by 10/19/2016 (if
received after 10/19/16 it must
be postmarked by 10/14/16)

Source: received by mail with
missing or illegible postmark
date

Must be received by
10/24/2016

Ignore postmark date through
receipt by 10/19/2016

Voter registration deadline

App. 59

Numbered Memo 2016-21
Page 2

10/19/2016 – signed or
transaction date

10/14/2016 – signed or
transaction date

Source: In-person

10/19/2016, close of business

10/14/2016, close of business

Source: Fax or Email

10/19/2016, close of business

10/14/2016, close of business

Must receive originals for new
registrations or party changes
by 10/24/2016

Must receive originals for new
registrations or party changes
by 10/19/2016

Source: NVRA

(includes received by mail from
the agency)

Processing Voter Registration Applications
In many counties you will be processing new voter registrations after you have started early voting
tomorrow. This will be in addition to the statutory requirement to process same day registrations
within 48 hours of registration. If you are continuing to process voter registrations received timely
in accordance with the grid above, please ensure that the data is being transferred in order for your
OS site laptops to be up-to-date.

Handling voters that present to vote before applications are processed
If a voter presents during the one-stop early voting period and advises the poll worker that they
have submitted a registration application in compliance with the deadline, you should process this
voter as a same day registration. However, if the voter does not possess proof of residence in order
to complete an SDR process, allow the voter to vote a provisional ballot with the reason being “no
record of registration” as on Election Day.

Best Practice for ensuring compliance with HAVA
Voter registration applicants that don’t provide their driver’s license number or last four of their
Social Security number must provide HAVA identification when voting for the first time. If voter
registration applications have not been processed and the voter did not provide either of those
identifications on their application, that voter will not be flagged as needing to show HAVA
identification. Therefore, if you are not going to be able to process all of your voter registrations,
please prioritize those applications that omit both a driver’s license number and last four of the
Social Security number. This will allow these voters to be flagged in the poll book and they can
be advised they need to provide HAVA identification prior to the county canvass.
App. 60

Numbered Memo 2016-21
Page 3

Submission of Observer Lists
The chair of each political party in the county may designate two observers to attend each voting
place in a primary or general election. In addition, the party chair may designate 10 additional atlarge observers who may attend any voting place in that county. G.S. § 163-45(a).
The party chair must provide a written, signed list of at-large observers to the county director of
elections prior to 10:00 a.m. on the fifth day prior to any primary or general election. The party
chair must submit a written, signed list of the observers appointed for each precinct to the chief
judge of each precinct prior to 10:00 a.m. on the fifth day prior to any primary or general election;
the list may be delivered in care of the county director of elections if desired. In addition, the party
chair must submit two written, signed copies of the precinct-specific and at-large observer lists to
the chair of the county board of elections prior to 10:00 a.m. on the fifth day prior to any primary
or general election. Please note that the writing requirement does not rule-out electronic
submission by facsimile or email. It is best practice to communicate with local party officials and
coordinate the most optimal method by which the party may communicate its selections.
For observers at early voting sites, the list provided must designate which observers will be present
on each day of early voting at each early voting site. It is insufficient for the party chair to merely
provide a list of all who observers who might be present at any given site throughout the early
voting period.

Who May Serve as an Observer
Observers must be registered voters of the county in which the voting place is located and must
possess good moral character. G.S. § 163-45(a). Although the statute does not explicitly prohibit
someone who is serving as an election official from also being designated as a political party
observer when they are not scheduled to work as an election official, an official who serves as a
designed party observer, even at a site other than the one to which the official is assigned to serve,
runs the risk of casting his or her impartiality in doubt. For that reason, it is strongly recommended
that you advise election officials to consider carefully their oath and controlling state law and to
make every effort to avoid the appearance of partiality. It is best practice to instruct your chief
judges to check identification for those who appear at the polls claiming to be appointed observers.

Number of Observers in the Voting Enclosure
No more than two precinct-specific observers from each political party may be in the voting
enclosure at any time. Only one at-large observer from each political party may be in the voting
enclosure at any time, even if no precinct-specific observers are present. All observers, whether
precinct-specific or at-large, may be relieved after serving no less than four hours. G.S. § 16345(a). This means that at least four hours must have passed since the observer began serving
before a replacement observer can take over from the prior observer.

App. 61

Numbered Memo 2016-21
Page 4

Observer Conduct
Observers at the voting place are prohibited from wearing or distributing campaign material or
making any political comments. Observers are also prohibited from impeding the voting process,
speaking with voters and assistants, or interfering with the privacy of the voter. An observer may
not photograph, video, or record a voter without the consent of the voter and the chief judge.
Observers are permitted to make observations, take notes, and use personal electronic devices for
a non-prohibited purpose as long as they are not disruptive to voters or elections officials.

App. 62

- 122 -

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
18-CVS-9805
- q

NORTH CAROLINA
WAKE COUNTY

ZOiO AUG 2 I P 5 i

ROY A. COOPER, III, in his official
Capacity as GOVERNOR OF THE
STATE OF NORTH CAROLINA,

)
)
)
)
)
Plaintiff,
)
)
v.
)
)
PHILIP E. BERGER, in his official
)
capacity as the PRESIDENT PRO
)
TEMPORE OF THE NORTH
)
CAROLINA SENATE; TIMOTHY K.
)
MOORE, in his official capacity as
)
SPEAKER OF THE NORTH
)
OF
CAROLINA HOUSE
)
REPRESENTATIVES; NORTH
)
CAROLINA BIPARTISAN STATE
BOARD OF ELECTIONS AND ETHICS )
)
ENFORCEMENT; and JAMES A.
)
(“ANDY”) PENRY, in his official
)
capacity as CHAIR OF THE
)
BIPARTISAN
NORTH CAROLINA
STATE BOARD OF ELECTIONS AND )
)
ETHICS ENFORCEMENT,
)
)
Defendants.

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
18-CVS 9806

NORTH CAROLINA

-

WAKE COUNTY
NORTH CAROLINA STATE
CONFERENCE OF THE NATIONAL
ASSOCIATION FOR THE
ADVANCEMENT OF COLORED

PEOPLE, and CLEAN AIR CAROLINA,

Plaintiffs,
v.

ORDER ON INJUNCTIVE RELIEF

)
)
)
)
)
)
)
)
)

App. 63

- 123 -

TIMOTHY K. MOORE, in his official
capacity; PHILIP E. BERGER, in his
official capacity; THE NORTH
CAROLINA BIPARTISAN STATE
BOARD OF ELECTIONS AND ETHICS
ENFORCEMENT; JAMES A. (“ANDY”)
PENRY, in his official capacity; JOSHUA
MALCOM, in his official capacity; KEN
RAYMOND, in his official capacity;
STELLA ANDERSON, in her official
capacity; DAMON CIRCOSTA, in his
official capacity; STACY EGGERS IV,
in her official capacity; JAY HEMPHILL,
in his official capacity; VALERIE
JOHNSON, in her official capacity; and,
JOHN LEWIS, in his official capacity,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER ON INJUNCTIVE RELIEF

-

THESE MATTERS CAME ON TO BE HEARD before the undersigned three judge
panel on August 15, 2018. All adverse parties to these actions received the notice required by
Rule 65 of the North Carolina Rules of Civil Procedure. The Court considered the pleadings,

briefs and arguments of the parties, supplemental affidavits, and the record established thus far,

as well as submissions of counsel in attendance.

THE COURT, in the exercise of its discretion and for good cause shown, hereby makes
the following findings of fact and conclusions of law:

1.

As an initial matter, in order to promote judicial efficiency and expediency, this

court has exercised its discretion, pursuant to Rule 42 of the North Carolina Rules of Civil
Procedure, to consolidate these two cases for purposes of consideration of the arguments and
entry of this Order, due to this court’s conclusion that the two cases involve common questions

of fact and issues of law. Because the claims do not completely overlap, the various claims of
the parties will be addressed separately within this order.
2

App. 64

- 124 -

STANDING OF PLAINTIFFS

2.

Defendants Philip E. Berger, in his official capacity as President Pro Tempore of

the North Carolina Senate, and Timothy K. Moore, in his official capacity as Speaker of the
North Carolina House of Representatives, (hereinafter “Legislative Defendants”) do not contend,

nor do we otherwise conclude, that Plaintiff Governor Roy A. Cooper (hereinafter “Governor
Cooper”) lacks standing to bring a separation of powers challenge in this case. Indeed, “if a

sitting Governor lacks standing to maintain a separation-of-powers claim predicated on the
theory that legislation impermissibly interferes with the authority constitutionally committed to

the person holding that office, we have difficulty ascertaining who would ever have standing to
assert such a claim.” Cooper v. Berger , 370 N.C. 392, 412, 809 S.E.2d 98, 110 (2018).

3.

Legislative Defendants have, however, filed a motion to dismiss under Rule

12(b)(1) of the North Carolina Rules of Civil Procedure asserting that Plaintiff North Carolina

State Conference of the National Association for the Advancement of Colored People
(hereinafter “NC NAACP”) and Plaintiff Clean Air Carolina (hereinafter “CAC”) lack standing

to bring a challenge to the Session Laws at issue in this matter.
4.

NC NAACP contends that it has standing to bring its claims on behalf of its

members, citing the core mission of the organization to advance and improve the political,
educational, social, and economic status of minority groups; the elimination of racial prejudice
and discrimination; the publicizing of adverse effects of racial discrimination; and the initiation

of lawful action to secure the elimination of racial bias and discrimination. (Plaintiffs’ Amended
Complaint Tf 8). In order for NC NAACP to have standing to challenge the proposed

amendments on behalf of its individual members, each individual member must have standing to

sue in his or her own right. Creek Pointe Homeowner's Ass'n v. Happ , 146 N.C. App. 159 (2001)

3

App. 65

- 125 -

(citing Hunt v. Washington State Apple Advertising Commission, 432 U.S. 333, 343 (1977). This

showing has not been made here. NC NAACP has not demonstrated that each individual

member is a registered voter in North Carolina, or that each individual member is a member of a
minority group.

5.

NC NAACP does, however, have standing to bring its claims on behalf of the

organization itself. “The gist of the question of standing is whether the party seeking relief has
alleged such a personal stake in the outcome of the controversy as to assure that concrete

adverseness which sharpens the presentation ] of issues upon which the court so largely

^

depends for illumination of difficult constitutional questions.” Mangum v. Raleigh Bd. of
Adjustment, 362 N.C. 640, 642, 669 S.E.2d 279, 282 (2008) (quoting Stanley v. Dep't of

Conservation & Dev., 284 N.C. 15, 28, 199 S.E.2d 641, 650 (1973)). The claims asserted by NC
NAACP with respect to the language of the proposed amendments directly impact the ability of
the organization to educate its members of the likely effect of the proposed legislation, which is

pertinent to the organization’s purpose. The undersigned three-judge panel therefore concludes
that NC NAACP does have standing to bring this action and, for that reason, Legislative

Defendants’ motion under Rule 12(b)(1) on these grounds is denied as to NC NAACP.
6.

CAC has not asserted the right to bring its claim on behalf of its members. In

order to have standing on its own behalf, CAC must demonstrate that the legally protected injury

at stake is “(a) concrete and particularized and (b) actual or imminent, not conjectural or
hypothetical.” Neuse River Found., Inc. v. SmithfieldFoods, Inc., 155 N.C. App. 110, 114 (2002)
(citing Lujan v. Defenders of Wildlife , 504 U .S. 555, 561 (1992)). The requirement of

particularity has not been met here. The general challenge of informing its members of the

effects of the proposed legislation is not an injury particularized to CAC, whose stated mission is

4

App. 66

- 126 -

“to ensure cleaner air quality for all by educating the community about how air quality affects
health, advocating for stronger clean air policies, and partnering with other organizations
committed to cleaner air and sustainable practices.” (Plaintiffs’ Amended Complaint f 17).

7.

The specific injuries put forth by CAC concern the merit of the proposed

amendments, rather than the manner in which the amendments will appear on the ballot. The
courts are not postured to consider questions which involve “textually demonstrable

constitutional commitment of the issue to a coordinate political department.” Cooper v. Berger ,

370 N.C. 393, 809 S.E. 2d 98 (2018) (quoting Baker v. Carr , 369 U.S. 186 (1962)). Article XIII,
Section 4 of the North Carolina Constitution expressly grants the North Carolina General
Assembly (hereinafter “General Assembly”) the authority to initiate the proposal of a

constitutional amendment. This authority exists notwithstanding the position of the courts on the

-

wisdom or public policy implications of the proposal. The undersigned three judge panel
therefore concludes that CAC does not have standing to bring this action and, for that reason,
Legislative Defendants’ motion under Rule 12(b)(1 ) is granted as to CAC.

POLITICAL QUESTION DOCTRINE

8.

Governor Cooper, cross-claimant Bipartisan State Board of Elections and Ethics

Enforcement (hereinafter “State Board of Elections”), and NC NAACP have asserted facial
challenges to the constitutionality of acts of the General Assembly. The portions of these claims
constituting facial challenges to the constitutionality of acts of the General Assembly are within

the statutorily-provided jurisdiction of this three judge panel. N.C.G.S. § 1-267.1; N.C.G.S. §

-

1A-1, Rule 42(b)(4). All other matters will be remanded, upon finality of any orders entered by

-

this three judge panel, to the Wake County Superior Court for determination.

5

App. 67

- 127 -

9.

Legislative Defendants have filed a motion under Rule 12(b)(1) of the North

Carolina Rules of Civil Procedure in both cases, asserting that the undersigned three-judge panel

-

lacks subject matter jurisdiction on the theory that the claims constitute non justiciable political
questions. A majority of the three-judge panel has concluded that Governor Cooper’s facial
constitutional challenges, as expressed, present a justiciable issue as distinguished from “a non-

justiciable political question arising from nothing more than a policy dispute,” Cooper, 370 N.C.
at 412, 809 S.E.2d at 110, and, for that reason, Legislative Defendants’ motion under Rule

12(b)(1) is denied as to Governor Cooper.
10.

Likewise, a majority of this panel has concluded that NC NAACP’s facial

constitutional challenges, as expressed, present a justiciable issue, as distinguished from a nonjusticiable political question and, for that reason, Legislative Defendants’ motion under Rule

12(b)(1) on these grounds is denied as to NC NAACP.
NC NAACP “USURPER LEGISLATIVE BODY” CLAIM
11.

NC NAACP has also asserted a claim that the General Assembly, as presently

constituted, is a “usurper” legislative body whose actions are invalid. While this panel
acknowledges the determinations made in this regard in Covington v. North Carolina, 270 F.

Supp. 3d 881 (2017), we conclude that this claim by NC NAACP in this action constitutes a
collateral attack on acts of the General Assembly and, as a result, is not within the jurisdiction of

this three-judge panel. N.C.G.S. § 1-267.1. We therefore decline to consider NC NAACP’s

claim that the General Assembly, as presently constituted, is a “usurper” legislative body.

12.

Furthermore, even if NC NAACP’s claim on this point was within this three-

judge panel’s jurisdiction, the undersigned do not at this stage accept the argument that the

General Assembly is a “usurper” legislative body. And even if assuming NC NAACP is correct,

6

App. 68

- 128 -

a conclusion by the undersigned three-judge panel that the General Assembly is a “usurper”
legislative body would result only in causing chaos and confusion in government; in considering
the equities, such a result must be avoided. See Dawson v. Bomar , 322 F.2d 445 (6th Cir.

1963). For the reasons stated above, we decline to invalidate any acts of this General Assembly
as a “usurper” legislative body.

THE PROPOSED AMENDMENTS AND BALLOT LANGUAGE i

13.

On June 28, 2018, the General Assembly enacted Session Law 2018-117

-

(hereinafter the “Board Appointments Proposed Amendment”), Session Law 2018 118
(hereinafter the “Judicial Vacancies Proposed Amendment”), Session Law 2018-119 (hereinafter

the “Maximum Tax Rate Proposed Amendment”) and Session Law 2018-128 (hereinafter “Photo

Identification for Voting Proposed Amendment”). Each Session Law contains the text of
proposed amendments to the North Carolina Constitution. See 2018 N.C. Sess. Laws 117 §§ 1-4;

2018 N.C. Sess. Laws 118 §§ 1-5; 2018 N.C. Sess. Laws 119 § 1; 2018 N.C. Sess. Laws 128 §§

1-2. Each Session Law also contains the language to be included on the 2018 general election
ballot submitting the proposed amendments to the qualified voters of our State. See 2018 N.C.

Sess. Laws 117 § 5; 2018 N.C. Sess. Laws 118 § 6; 2018 N.C. Sess. Laws 119 § 2; 2018 N.C.
Sess. Laws 128 § 3.

14.

Governor Cooper and State Board of Elections have asserted claims that the

sections containing the ballot language in S.L. 2018-117 and S.L. 2018-118 are facially in

violation of the North Carolina Constitution. NC NAACP also has asserted claims that these

1 In the following, full quotations of the proposed amendments, underlined text
in the proposed amendments
represents additions to the North Carolina Constitution, strikethrough text in the proposed amendments represents
language to be removed from the North Carolina Constitution, and text that is not otherwise underlined or struck
through represents already-existing language of the North Carolina Constitution that will remain unchanged. The
proposed amendments are displayed in this manner so that it is readily apparent what is proposed to be added to and
removed from the North Carolina Constitution.

7

App. 69

- 129 -

same sections containing the ballot language, as well as in S.L. 2018-119 and S.L. 2018-128, are
facially in violation of the North Carolina Constitution.

15.

Section 1 of S.L. 2018-117 proposes to amend Article VI of the North Carolina

Constitution by adding a new section to read:
Sec. 11. Bipartisan State Board of Ethics and Elections Enforcement,
m The Bipartisan State Board of Ethics and Elections Enforcement shall be
established to administer ethics and election laws, as prescribed bv general law.
The Bipartisan State Board of Ethics and Elections Enforcement shall be located
within the Executive Branch for administrative purposes only but shall exercise all
of its powers independently of the Executive Branch.
(2}
The Bipartisan State Board of Ethics and Elections Enforcement shall
consist of eight members, each serving a term of four years, who shall be qualified
voters of this State. Of the total membership, no more than four members may be
registered with the same political affiliation, if defined bv general law.
Appointments shall be made as follows:
(al
Four members bv the General Assembly, upon the recommendation
of the President Pro Tempore of the Senate, from nominees
submitted to the President Pro Tempore bv the majority leader and
minority leader of the Senate, as prescribed bv general law. The
President Pro Tempore of the Senate shall not recommend more than
two nominees from each leader.
(bl
Four members bv the General Assembly, upon the recommendation
of the Speaker of the House of Representatives, from nominees
submitted to the Speaker of the House bv the majority leader and
minority leader of the House of Representatives, as prescribed bv
general law. The Speaker of the House of Representatives shall not
recommend more than two nominees from each leader.

2018 N.C. Sess. Laws 117, § 1.
16.

Section 2 of S.L. 2018-117 proposes to amend Article I, Section 6 of the North

Carolina Constitution by rewriting the section to read as follows:

Sec. 6. Separation of powers.
The legislative, executive, and supreme judicial powers of the State
0)
government shall be forever separate and distinct from each other.
(2)
The legislative powers of the State government shall control the powers.
duties, responsibilities, appointments, and terms of office of any board or
commission prescribed bv general law. The executive powers of the State
government shall be used to faithfully execute the general laws prescribing the
board or commission.
8

App. 70

- 130 -

2018 N.C. Sess. Laws 117, § 2.
17.

-

Section 3 of S.L. 2018 117 proposes to amend Article II, Section 20 of the North

Carolina Constitution by rewriting the section to read as follows:
Sec. 20. Powers of the General Assembly.
Each house shall be judge of the qualifications and elections of its own
0)
members, shall sit upon its own adjournment from day to day, and shall prepare
bills to be enacted into laws. The two houses may jointly adjourn to any future day
or other place. Either house may, of its own motion, adjourn for a period not in
excess of three days.
No law shall be enacted bv the General Assembly that appoints a member
of the General Assembly to any board or commission that exercises executive or

m

judicial powers.

2018 N.C. Sess. Laws 117, § 3.
18 .

-

Section 4 of S.L. 2018 117 proposes to amend Article III, Section 5 of the North

Carolina Constitution by rewriting the section to read as follows:

Sec. 5. Duties of Governor.
• ••

Execution of laws. The Governor shall take care that the laws be faithfully
executed. In faithfully executing any general law enacted bv the General Assembly
controlling the powers, duties, responsibilities, appointments, and terms of office
of any board or commission, the Governor shall implement that general law as
enacted and the legislative delegation provided for in Section 6 of Article I of this
Constitution shall control.
(4)

•••

(8)
Appointments. The Governor shall nominate and by and with the advice
and consent of a majority of the Senators appoint all officers whose appointments
are not otherwise provided for. The legislative delegation provided for in Section 6
of Article I of this Constitution shall control any executive, legislative, or judicial
appointment and shall be faithfully executed as enacted.
• •••

2018 N.C. Sess. Laws 117, § 4.
Section 5 of S.L. 2018-117 contains the language to be included on the 2018 general
19.
election ballot submitting the proposed amendments in Sections 1-4 of S.L. 2018-117 to the
qualified voters of our State. The “question to be used in the voting systems and ballots” is
required by S.L. 2018-117 to read as follows:

9

App. 71

- 131 -

[ ] AGAINST
[ ] FOR
Constitutional amendment to establish a bipartisan Board of Ethics and Elections
to administer ethics and election laws, to clarify the appointment authority of the
Legislative and the Judicial Branches, and to prohibit legislators from serving on
boards and commissions exercising executive or judicial authority.

2018 N.C. Sess. Laws 117, § 5.
20.

Section 1 of S.L. 2018-118 proposes to amend Article IV of the North Carolina

Constitution by adding a new section to read:
Sec. 23. Merit selection: judicial vacancies.
0) All vacancies occurring in the offices of Justice or Judge of the General
Court of Justice shall be filled as provided in this section. Appointees shall hold
their places until the next election following the election for members of the
General Assembly held after the appointment occurs, when elections shall be held
to fill those offices. When the vacancy occurs on or after the sixtieth day before the
next election for members of the General Assembly and the term would expire on
December 31 of that same year, the Chief Justice shall appoint to fill that vacancy
for the unexpired term of the office.
i21 In filling any vacancy in the office of Justice or Judge of the General Court
of Justice, individuals shall be nominated on merit bv the people of the State to fill
that vacancy. In a manner prescribed bv law, nominations shall be received from
the people of the State bv a nonpartisan commission established under this section.
which shall evaluate each nominee without regard to the nominee's partisan
affiliation, but rather with respect to whether that nominee is qualified or not
qualified to fill the vacant office, as prescribed bv law. The evaluation of each
nominee of people of the State shall be forwarded to the General Assembly, as
prescribed bv law. The General Assembly shall recommend to the Governor, for
each vacancy, at least two of the nominees deemed qualified bv a nonpartisan
commission under this section. For each vacancy, within 10 days after the nominees
are presented, the Governor shall appoint the nominee the Governor deems best
qualified to serve from the nominees recommended bv the General Assembly.
The Nonpartisan Judicial Merit Commission shall consist of no more than
nine members whose appointments shall be allocated between the Chief Justice of
the Supreme Court, the Governor, and the General Assembly, as prescribed bv law.
The General Assembly shall, bv general law, provide for the establishment of local
merit commissions for the nomination of judges of the Superior and District Court.
Appointments to local merit commissions shall be allocated between the Chief
Justice of the Supreme Court, the Governor, and the General Assembly, as
prescribed bv law. Neither the Chief Justice of the Supreme Court, the Governor.
nor the General Assembly shall be allocated a majority of appointments to a
nonpartisan commission established under this section.
{4}
If the Governor fails to make an appointment within 10 days after the
nominees are presented bv the General Assembly, the General Assembly shall elect.

m

10

App. 72

- 132 -

bv a majority of the members of each chamber present and
to fill the vacancy in a manner prescribed bv law.
£5) If the General Assembly has adjourned sine die or for more than 30 days
jointly as provided under Section 20 of Article II of this Constitution, the Chief
Justice shall have the authority to appoint a qualified individual to fill a vacant
office of Justice or Judge of the General Court of Justice if any of the following
apply:
& The vacancy occurs during the period of adjournment.
The General Assembly adjourned without presenting nominees to
(b)
the Governor as required under subsection ( 2) of this section or
failed to elect a nominee as required under subsection (4J of this
section.
The Governor failed to appoint a recommended nominee under
£s
subsection 121 of this section.
Any
appointee bv the Chief Justice shall have the same powers and duties
£6)
as any other Justice or Judge of the General Court of Justice, when duly assigned
to hold court in an interim capacity and shall serve until the earlier of:
Appointment bv the Governor.
£a)
Election bv the General Assembly.
(b)
( c)
The first day of January succeeding the next election of the members
of the General Assembly, and such election shall include the office
for which the appointment was made.
However, no appointment bv the Governor or election bv the General Assembly to
fill a judicial vacancy shall occur after an election to fill that judicial office has
commenced, as prescribed bv law.
joint session and
voting, an appointee

in

>

2018 N.C. Sess. Laws 118, § 1.
21.

Section 2 of S.L. 2018-118 proposes to amend Article IV, Section 10 of the North

Carolina Constitution by rewriting the section to read as follows:
Sec. 10. District Courts.
The General Assembly shall, from time to time, divide the State into a
convenient number of local court districts and shall prescribe where the District
Courts shall sit, but a District Court must sit in at least one place in each county.
District Judges shall be elected for each district for a term of four years, in a manner
prescribed by law. When more than one District Judge is authorized and elected for
a district, the Chief Justice of the Supreme Court shall designate one of the judges
as Chief District Judge. Every District Judge shall reside in the district for which
he is elected.
For each county, the senior regular resident Judge of the Superior Court
£2}
serving the county shall appoint from nominations submitted by the Clerk of the
Superior Court of the county, one or more Magistrates who shall be officers of the
District Court. The initial term of appointment for a magistrate shall be for two
years and subsequent terms shall be for four years.

£D

11

App. 73

- 133 -

The number of District Judges and Magistrates shall, from time to time, be
determined by the General Assembly. Vacancies intheoffice of District Judge shaH
be filled for the unexpired term in a manner prescribed -by-law.-Vacancies in the
office of Magistrate shall be filled for the unexpired term in the manner provided
for original appointment to the office, unless otherwise provided by the General
Assembly.

£21

2018 N.C. Sess. Laws 118, § 2.

22.

Section 3 of S.L. 2018-118 proposes to amend Article IV, Section 18 of the North

Carolina Constitution by adding a new subsection to read:
Vacancies. All vacancies occurring in the office of District Attorney shall be
filled by appointment of the Governor, and the appointees shall hold their places
until the next election for members of the General Assembly that is held more than
60 days after the vacancy occurs, when elections shall be held to fill the offices.
When the unexpired term in which a vacancy has occurred expires on the first day
of January succeeding the next election for members of the General Assembly, the
Governor shall appoint to fill that vacancy for the unexpired term of the office.

(3)

2018 N.C. Sess. Laws 118, § 3.
23.

Section 4 of S.L. 2018-118 repeals in its entirety Article IV, Section 19 of the

North Carolina Constitution, which currently reads as follows:2
Unless otherwise provided in this Article, all vacancies occurring in the offices
provided for by this Article shall be filled by appointment of the Governor, and the
appointees shall hold their places until the next election for members of the General
Assembly that is held more than 60 days after the vacancy occurs, when elections
shall be held to fill the offices. When the unexpired term of any of the offices
named in this Article of the Constitution in which a vacancy has occurred, and in
which it is herein provided that the Governor shall fill the vacancy, expires on the
first day of January succeeding the next election for members of the General
Assembly, the Governor shall appoint to fill that vacancy for the unexpired term of
the office. If any person elected or appointed to any of these offices shall fail to
qualify, the office shall be appointed to, held and filled as provided in case of
vacancies occurring therein. All incumbents of these offices shall hold until their
successors are qualified.

2018 N.C. Sess. Laws 118, § 4.

2

For the sake of clarity, this section is not displayed as struck through despite the proposed amendment fully
removing the language from the North Carolina Constitution.

12

App. 74

- 134 -

Section 5 of S.L. 2018-118 proposes to amend Article II, Section 22, Subsection

24.

(5) of the North Carolina Constitution by rewriting the subsection to read as follows:

Other exceptions. Every bill:
In which the General Assembly makes an appointment or
appointments to public office and which contains no other matter;
(b)
Revising the senate districts and the apportionment of Senators
among those districts and containing no other matter;
Revising the representative districts and the apportionment of
(c)
Representatives among those districts and containing no other
matter;-©?
(d)
Revising the districts for the election of members of the House of
Representatives of the Congress of the United States and the
apportionment of Representatives among those districts and
containing no other matterunatter:
Recommending a nominee or nominees to fill a vacancy in the
(e)
office of Justice and Judge of the General Court of Justice, in
accordance with Section 23 of Article IV of this Constitution: or
Electing a nominee or nominees to fill a vacancy in the office of
Justice or Judge of the General Court of Justice, in accordance with
Section 23 of Article IV of this Constitution.
shall be read three times in each house before it becomes law and shall be signed
by the presiding officers of both houses.
(5)

(a)

2018 N.C. Sess. Laws 118, § 5.
25.

Section 6 of S.L. 2018-118 contains the language to be included on the 2018

general election ballot submitting the proposed amendments in Sections 1-5 of S.L. 2018-118 to

the qualified voters of our State. The “question to be used in the voting systems and ballots” is

required by S.L. 2018-118 to read as follows:
[ ] FOR
[ ] AGAINST
Constitutional amendment to implement a nonpartisan merit-based system that
relies on professional qualifications instead of political influence when nominating
Justices and judges to be selected to fill vacancies that occur between judicial
elections.
2018 N.C. Sess. Laws 118, § 6.

26.

Section 1 of S.L. 2018-119 proposes to amend Article V, Section 2 of the North

Carolina Constitution by rewriting the section to read as follows:
13

App. 75

- 135 -

Sec. 2. State and local taxation.
•• «

Income tax. The rate of tax on incomes shall not in any case
(6)
exceed ten seven percent, and there shall be allowed personal exemptions and
deductions so that only net incomes are taxed.

-

•• •

2018 N.C. Sess. Laws 119, § 1.
27.

Section 2 of S.L. 2018-119 contains the language to be included on the 2018

general election ballot submitting the proposed amendment in Section 1 of S.L. 2018-119 to the

qualified voters of our State. The “question to be used in the voting systems and ballots” is

-

required by S.L. 2018 119 to read as follows:
[ ] FOR
[ ] AGAINST
Constitutional amendment to reduce the income tax rate in North Carolina to a
maximum allowable rate of seven percent (7%).

2018 N.C. Sess. Laws 119, § 2.
28.

Section 1 of S.L. 2018-128 proposes to amend Article VI, Section 2 of the North

Carolina Constitution by adding a new subsection to read:
Photo identification for voting in person. Voters offering to vote in person
shall present photographic identification before voting. The General Assembly
shall enact general laws governing the requirements of such photographic
identification, which may include exceptions.
(4)

2018 N.C. Sess. Laws 128, § 1.

29.

Section 2 of S.L. 2018-128 proposes to amend Article VI, Section 3 of the North

Carolina Constitution by rewriting the section to read as follows:
Sec. 3. Registrntion.Registration; Voting in Person.
Every person offering to vote shall be at the time legally registered as a
0)
voter as herein prescribed and in the manner provided by law. The General
Assembly shall enact general laws governing the registration of voters.
)
Voters offering to vote in person shall present photographic identification
before voting. The General Assembly shall enact general laws governing the
requirements of such photographic identification, which may include exceptions.

a

14

App. 76

- 136 -

2018 N.C. Sess. Laws 128, § 2.
30.

Section 3 of S.L. 2018-128 contains the language to be included on the 2018

general election ballot submitting the proposed amendments in Sections 1-2 of S.L. 2018-128 to

the qualified voters of our State. The “question to be used in the voting systems and ballots” is

-

required by S.L. 2018 128 to read as follows:

[ ] AGAINST
[ ] FOR
to provide photo identification before
voters
require
to
amendment
Constitutional
voting in person.

2018 N.C. Sess. Laws 128, § 3.
Guiding Legal Principles

31.

The analytical framework for reviewing a facial constitutional challenge is well-

established. Town of Boone v. State , 369 N.C. 126, 130, 794 S.E.2d 710, 714 (2016). Acts of the
General Assembly are presumed constitutional, and courts will declare them unconstitutional
only when “it [is] plainly and clearly the case.” State ex rel. Martin v. Preston, 325 N.C. 438,

.

-

449, 385 S.E.2d 473, 478 (1989) (quoting Glenn v. Bd. OfEduc , 210 N.C. 525, 529 30, 187 S.E.

781, 784 (1936)). The party alleging the unconstitutionality of a statute has the burden of proving
beyond a reasonable doubt that the statute is unconstitutional. Baker v. Martin, 330 N.C. 331,

334-35, 410 S.E. 2d 887, 889 (1991). “This is a rule of law which binds us in deciding this case.”
Id.

32.

In considering these facial constitutional challenges, this panel understands and

applies the following principles of law to the analysis: We presume that laws enacted by the
General Assembly are constitutional, and we will not declare a law invalid unless we determine

that it is unconstitutional beyond a reasonable doubt. The constitutional violation must be plain

and clear. To determine whether the violation is plain and clear, we look to the text of the

15

App. 77

- 137 -

constitution, the historical context in which the people of North Carolina adopted the applicable

constitutional provision, and our precedents.

33.

Article I of the North Carolina Constitution declares that “[a]ll political power is

vested in and derived from the people; all government of right originates from the people, is
founded upon their will only, and is instituted solely for the good of the whole.” N.C. Const, art.

I, § 2. Article I also declares that “[t]he people of this State have the inherent, sole, and
exclusive right of regulating the internal government and police thereof, and of altering or

abolishing their Constitution and form of government whenever it may be necessary to their
safety and happiness; but every such right shall be exercised in pursuance of law and consistently

with the Constitution of the United States.” N.C. Const, art. I, § 3. Article I also preserves the
right to due process of law, declaring that “[n]o person shall be taken, imprisoned, or disseized of

his freehold, liberties, or privileges, or outlawed, or exiled, or in any manner deprived of his life,
liberty, or property, but by the law of the land.” N.C. Const, art. I, § 19. Finally, Article I
declares that “[a] frequent recurrence to fundamental principles is absolutely necessary to

preserve the blessings of liberty.” N.C. Const, art. I, § 35.
34.

Article XIII of the North Carolina Constitution provides that “[t]he people of this

State reserve the power to amend this Constitution and to adopt a new or revised
Constitution. This power may be exercised by either of the methods set out hereinafter in this

Article, but in no other way.” N.C. Const, art. XIII, § 2. The two permitted methods to amend
the Constitution require an amendment to be proposed by a “Convention of the People of this
State,” or by the General Assembly. N.C. Const, art. XIII, §§ 3, 4.

35.

An amendment to the Constitution “may be initiated by the General Assembly,

-

but only if three fifths of all the members of each house shall adopt an act submitting the

16

App. 78

- 138 -

proposal to the qualified voters of the State for their ratification or rejection. The proposal shall

be submitted at the time and in the manner prescribed by the General Assembly.” N.C. Const.
art. XIII, § 4.
36.

These provisions of the North Carolina Constitution make plain and clear a

number of points: first, the power to govern in this State, including the power to write, revise, or

abolish the Constitution is vested in the people of this State, founded upon the will of the
people; second, the General Assembly may initiate a proposal for one or more amendments to
the Constitution, by adopting an act submitting the proposal to the voters. The General
Assembly has exclusive authority to determine the time and manner in which the proposal is

submitted to the voters, but ultimately the issue must be submitted to the voters for ratification or
rejection, whereupon the will of the people, expressed through their votes, will determine
whether or not the proposal becomes law.

37.

Finally, while not a Constitutional provision, or standard for interpretation of the

North Carolina Constitution, the State Board of Elections is required by our State’s general
statutes to “ensure that official ballots throughout the State have all the following characteristics:
(1 ) Are readily understandable by voters. (2) Present all candidates and questions in a fair and

-

nondiscriminatory manner.” N.C.G.S. § 163A 1108. We note that while the State Board of

Elections has asserted a cross-claim based upon these statutory requirements in N.C.G.S. §

-

-

163A 1108, such a claim is not within the jurisdiction of a three judge panel constituted under
N.C.G.S. § 1-267.1. The undersigned three-judge panel has therefore not considered this
statutorily-based claim.

17

App. 79

- 139 -

Issue Presented

38.

The ultimate question presented to this three-judge panel by the facial

constitutional challenges requires this panel to decide whether or not the language contained in
the ballot questions adopted by the General Assembly satisfies the constitutional mandate that

proposed amendments be submitted to the voters for ratification or rejection.

39.

In addressing this issue, the Legislative Defendants have argued that the issue

might better be decided after the November election rather than before and that the issue might

even become moot, depending upon the outcome of the vote. We are compelled, however, in
conducting our analysis, to do so through a neutral lens and to do so without considering the
wisdom or lack thereof of the proposed amendments. The question is not whether the

voters should vote for or against the measures, but whether the voters in this State have had a fair

opportunity to declare themselves upon this question. Hill, 176 N.C. at 584, 97 S.E. at 503.
Applicable Legal Standards When Examining Ballot Language

40.

We are aware that our courts have not previously addressed a situation exactly

like the one presented here. As a result, this panel must rely on principals of constitutional

interpretation established by our courts, including the text of the Constitution and accepted

canons of construction, as well as the historical jurisprudence of our courts on similar issues.
Other courts provide persuasive, but not authoritative guidance in analysis of challenged ballot
proposal language.

41.

Since 1776 our constitutions have recognized that all political power resides in the

people. N.C. Const, art. I, § 2; N.C. Const, of 1868, art. I, § 2; N.C. Const, of 1776, Declaration

of Rights § 1. Presently, our constitutional jurisprudence provides that “the General Assembly is
checked and balanced by its structure and its accountability to the people.” State ex rel. McCrory

18

App. 80

- 140 -

v. Berger, 368 N.C. 533, 653, 781 S.E.2d 248, 261 (2016) (Newby, J. concurring in part and
dissenting in part) (emphasis added). In order to amend the constitution, the amendment must

“be submitted to the qualified voters of this State,” N.C. Const , art. II, § 22. Notably, “the object
of all elections is to ascertain, fairly and truthfully, the will of the people,” Wilmington, O. &

E.C.R. Co. v. Onslow Cty. Comm’rs, 116 N.C. 563, 568, 21 S.E. 205, 207 (1895).

42.

Legislative Defendants submit that this panel should apply a substantive due

process standard in determining whether or not the language of the Ballot Questions satisfies

constitutional requirements, i.e., “When the ballot language purports to identify the proposed

amendment by briefly summarizing the text, then substantive due process is satisfied and the
election is not patently and fundamentally unfair so long as the summary does not so plainly

mislead voters about the text of the amendment that they do not know what they are voting for or
against, that is, they do not know which amendment is before them.” Sprague v. Cortes, 223

F.Supp. 3d 248, 295 (M.D. Pa. 2016). A majority of this panel concludes that this standard,
though relevant, is not determinative to an issue decided by state courts under our state

constitution.

43.

A majority of this panel instead concludes that the requirements of our state

constitution are more appropriately gleaned from the decisions of state courts, and in particular

our own Supreme Court. In Hill v. Lenoir County, 176 NC 572, 97 SE 498 (1918), our Supreme
Court said: “In elections of this character great particularity should be required in the notice in
order that the voters may be fully informed of the question they are called upon to decide. There

is high authority for the principle that even where there is no direction as to the form in which
the question is submitted to the voters, it is essential that it be stated in such manner to enable

19
App. 81

- 141 -

-

them intelligently to express their opinion upon z7[.]” Id. at 578, 97 S.E. at 500 01 (emphasis

added).

44.

Drawing from the requirements expressed in Hill , as well as analyses from other

jurisdictions, a majority of this panel find that relevant considerations include 1) whether the
ballot question clearly makes known to the voter what he or she is being asked to vote upon, 2)
whether the ballot question fairly presents to the voter the primary purpose and effect of the

proposed amendment, and 3) whether the language used in the ballot question implies a position
in favor of or opposed to the proposed amendment. See Stop Slots MD 2008 v. State Bd. of

Elections, 424 Md. 163, 208, 34 A.3d 1164, 1191 (2012) (noting that ballot questions need to be

determined on what would put an “average voter” on notice of “the purpose and effect of the
amendment”); Donaldson v. Dep't of Transp. , 262 Ga. 49, 51, 414 S.E.2d 638, 640 (1992)
(establishing that the courts must “presume that the voters are informed” but the legislature

should still “strive to draft ballot language that leaves no doubt in the minds of the voters as to
the purpose and effect of each . . . amendment”); Fla. Dep’t of State v. Fla. State Conf. of

NAACP Branches, 43 So. 3d 662, 668 (FI. 2010) (noting that lawmakers, as well as the voting
public, “must be able to comprehend the sweep of each proposal from a fair notification in the
proposition itself that is neither less nor more extensive than it appears to be”); State ex rel.

Voters First v. Ohio Ballot Bd. , 133 Ohio St. 3d 257, 978 N.E.2d 119 (2012) (finding that
material omissions in the ballot language of a proposed amendment to the Ohio constitution
deprived the voters of the right to know what they were voting upon).3
3

One of the cases cited by Legislative Defendants was Sears v. State, 232 Ga. 547, 208 S.E.2d 93 ( 1974), which
included the following language:
“Though we hold that the ballot language is not a proper subject for more than this minimal judicial review
we must note that to the extent to which the legislature describes proposed amendments in any way other than
through the most objective and brief of terms.. . it exposes itself to the temptation—yielded to here, we think to
interject its own value judgments concerning the amendments into the ballot language and thus to propagandize the
voters in the very voting booth in denigration of the integrity of the ballot.” 232 Ga. at 556, 208 S. E . 2d at 100.

—

20

App. 82

- 142 -

45.

In the present case, as in Hill, there can be no doubt that our General Assembly

has the exclusive power and authority to initiate a proposal for a constitutional amendment and

to specify the time and manner in which voters of the State are presented with the proposal. But
the proposal must be “submitted” to the voters. According to the Merriam-Webster Dictionary,

“submit” means “to present or propose to another for consideration” or “to submit oneself to the
authority or will of another.” In order for the proposals to be submitted to the will of the people,

the ballot language must comply with the constitutional requirements as expressed in Hill.

46.

With those legal principles in mind, we now turn our attention to the particular

issues presented by the present litigation.
INJUNCTIVE RELIEF

47.

This panel is presented with two lawsuits, one filed by Governor Cooper, along

with a cross-claim filed by the State Board of Elections, and a second filed by NC NAACP.
Although the Governor contests only two of the proposed measures, it is helpful to our analysis

to discuss all four of the measures in each lawsuit, as we find the application of the

aforementioned legal principles to be substantially different with respect to each of the four
proposed amendments and, specifically, the proposed Ballot Question pertaining to each.

48.

“The purpose of a preliminary injunction is ordinarily to preserve the status

quo pending trial on the merits. Its issuance is a matter of discretion to be exercised by the
hearing judge after a careful balancing of the equities.” State ex rel. Edmisten v. Fayetteville

Street Christian School , 299 N.C. 351, 357, 261 S.E.2d 908, 913 (1980). A preliminary
injunction is an “extraordinary remedy” and will issue “only (1) if a plaintiff is able to

show likelihood of success on the merits of his case and (2) if a plaintiff is likely to sustain
irreparable loss unless the injunction is issued, or if, in the opinion of the Court, issuance is

21

App. 83

- 143 -

necessary for the protection of a plaintiffs rights during the course of litigation.” A.E.P.

Industries, Inc. v. McClure, 308 N.C. 393, 401, 302 S.E.2d 754, 759-60 (1983) (emphasis in
original); see also N.C.G.S. § 1A- l , Rule 65(b). When assessing the preliminary injunction

factors, the trial judge “should engage in a balancing process, weighing potential harm to the

plaintiff if the injunction is not issued against the potential harm to the defendant if injunctive
relief is granted. In effect, the harm alleged by the plaintiff must satisfy a standard of relative

substantiality as well as irreparability.” Williams v. Greene, 36 N.C. App. 80, 86, 243 S.E.2d

156, 160 (1978).
The Tax Rate Proposed Amendment

49.

S.L. 2018-119, as shown above, proposes to amend Article V, Section 2 of the

North Carolina Constitution by rewriting the section. NC NAACP contend that the proposed

-

Ballot Language in S.L. 2018 119 is misleading, suggesting that the currently-applicable tax rate
will be reduced. We conclude otherwise. The language of the Ballot Question may not be

perfect, but it is virtually identical to the wording of the amendment itself, referring clearly to “a
maximum allowable rate.” NC NAACP would prefer that the Ballot Question use the term

“maximum tax rate cap,” but the word “cap” appears nowhere in the amendment itself and we do
not consider it necessary for the Ballot Question to explain all potential legal ramifications of the

amendment, but only its purpose and effect.
The Photo Identification for Voting Proposed Amendment
50.

-

S.L. 2018 128, as shown above, proposes an amendment requiring photo

identification in order to vote in person. The proposed amendment would amend Article VI,

Sections 2 and 3 of the North Carolina Constitution by adding identical language to each section,
the pertinent provisions of which read as follows: “Voters offering to vote in person shall

22
App. 84

- 144 -

present photographic identification before voting. The General Assembly shall enact general

laws governing the requirements of such photographic identification, which may include

exceptions.” The language of the Ballot Question adopted by the General Assembly reads:
“Constitutional Amendment to require voters to provide photo identification before voting in

person.”

51.

NC NAACP contends that the ballot language is misleading by failing to define

“photo identification” and failing to make clear that implementing legislation will be needed to
establish which photo IDs would suffice. Again, we conclude otherwise. There can be little
doubt whether or not the voters will be able to identify the issue on which they will be voting

with respect to this proposed amendment. This panel takes judicial notice that Voter ID laws
currently comprise a significant political issue in this country, on which an overwhelming
majority of voters have strong feelings, one way or the other. The General Assembly has the

exclusive authority to determine the details of any implementing legislation and it would be
entirely inappropriate for this panel to speculate as to whether or not that legislation will comport

with state and federal constitutional requirements. We have already noted that there is a
presumption of constitutional validity afforded to every act of the General Assembly, and we
must afford that same presumption to acts that may be enacted in the future.

52.

In making the aforementioned observations, we are mindful of the fact that there

has been ongoing litigation in the federal courts concerning similar legislation previously passed
by this General Assembly. Indeed, NC NAACP has devoted much of its argument on this

amendment to the reasons for their philosophical opposition to the Voter ID amendment itself.
These arguments go well beyond the function of this three-judge panel in these cases. In
determining facial constitutional challenges, this court should not concern itself with the wisdom

23

App. 85

- 145 -

of the legislation, its political ramifications, or the possible motives of the legislators in
submitting the issue to voters in the form of a proposed constitutional amendment. This court is

limited to determining whether the enacting legislation is facially unconstitutional. With regard

-

to S.L. 2018 128, this panel cannot conclude beyond a reasonable doubt that any such facial

invalidity has been shown.

The Board Appointments Proposed Amendment

53.

S.L. 2018-117, as shown above, proposes to amend Article VI of the North

Carolina Constitution by adding a new section, amend Article I, Section 6 by rewriting the
section, amend Article II, Section 20 by rewriting the section, and amend Article III, Section 5
by rewriting the section. The language of the Ballot Question, also as shown above, is as

follows: “Constitutional amendment to establish a bipartisan Board of Ethics and Elections to
administer ethics and election laws, to clarify the appointment authority of the Legislative and
the Judicial Branches, and to prohibit legislators from serving on boards and commissions
exercising executive or judicial authority.”

54.

Governor Cooper, the State Board of Elections, and the NC NAACP complain

that this ballot language is misleading in saying that the amendment “establishes” a bipartisan

Board of Ethics and Elections, and will “prohibit” legislators from serving on boards and

commissions exercising executive or judicial authority. While the language may not be the most
accurate or articulate description of the effect of these provisions, we do not find that the
language in these two parts of the Ballot Question is so misleading, standing alone, so as to

violate constitutional requirements; although each of these provisions already exists under law,

neither has previously been addressed specifically by our state constitution.

24

App. 86

- 146 -

55.

In addition to the two points described above, the Ballot Question says only: “to

clarify the appointment authority of the Legislative and the Judicial Branches[.]” The MerriamWebster Dictionary defines “clarify” as “to make understandable” or “to free of confusion.” The

concern here with this particular language in the Ballot Question is whether it describes the
remaining portions of the proposed amendment with sufficient particularity in order that the

voters may be fully informed of the question they are called upon to decide. In this regard, a

majority of this panel concludes beyond a reasonable doubt that this portion of the ballot

language in the Board Appointments Proposed Amendment does not sufficiently inform the
voters and is not stated in such manner as to enable them intelligently to express their opinion

upon it. In particular:
a. The proposed amendment substantially realigns appointment authority as
allocated previously between the Legislative and Executive branches, but
makes no mention of how the Amendment affects the Executive branch.
b. The ballot language mentions clarification of appointment authority of the

Judicial Branch, but the Amendment makes no mention of any changes to

appointment authority of the Judiciary.
c. The Amendment makes significant changes of the duties of the Governor in
exercising his powers pursuant to the Separation of Powers clause, but no

mention is made of that change in the ballot language.

The Judicial Vacancies Proposed Amendment

56.

S.L. 2018-118, as shown above, proposes to amend Article IV of the North

Carolina Constitution by adding a new section, amend Article IV, Section 10 by rewriting the

section, amend Article IV, Section 18 by adding a new subsection, repeal in its entirety Article

25

App. 87

- 147 -

IV, Section 19, and amend Article II, Section 22, Subsection (5) by rewriting the subsection.
The language of the Ballot Question, also as shown above, is as follows: “Constitutional
amendment to implement a nonpartisan merit-based system that relies on professional

qualifications instead of political influence when nominating Justices and judges to be selected to

fill vacancies that occur between judicial elections.”

57.

Governor Cooper, the State Board of Elections, and NC NAACP complain that

this ballot language is misleading in saying that the amendment implements a “nonpartisan

-

merit based system” that instead of relying on “political influence” relies on “professional
qualifications.” A majority of this panel agrees and finds that the language in this Ballot

Question misleads and does not sufficiently inform the voters. The concern here with the Ballot
Question, again, is whether it describes the proposed amendment with sufficient particularity in

order that the voters may be fully informed of the question they are called upon to decide. In this
regard, a majority of this panel concludes beyond a reasonable doubt that the ballot language in

S.L. 2018-118 does not sufficiently inform the voters and is not stated in such manner to enable
them intelligently to express their opinion upon it. In particular:

a. The ballot language indicates that the nonpartisan merit-based system will rely
on “ professional qualifications” rather than “political influence.” The
Amendment requires only that the commission screen and valuate each

nominee without regard to the nominee’s partisan affiliation, but rather with
respect to whether that nominee is qualified or not qualified, as prescribed by

law. Aside from partisan affiliation, there is no limitation or control on
political influence; the nominees are categorized only as qualified or not
qualified rather than being rated or ranked in any order of qualification and

26

App. 88

- 148 -

the General Assembly is not required to consider any criteria other than

choosing nominees found “qualified” by the Commission. (As pointed out by

Plaintiffs, current qualifications by law for holding judicial office in this state

only require that the person be 21 years of age or more, hold a law license
and, in some instances, be a resident of the District.)
b. The Amendment makes substantial changes to appointment powers of the

Governor in filling judicial vacancies, but no mention is made of the Governor
in the ballot language.
c. Perhaps most significantly, the ballot language makes no mention of the

provisions of Section 5 of S.L. 2018-118, which adds two new provisions to

Article II, Section 22, Subsection (5) of the North Carolina Constitution
i. Recommending a nominee or nominees to fill a vacancy in the office
of Justice and Judge of the General Court of Justice in accordance with
Section 23 of Article IV of this Constitution, or

ii. Electing a nominee or nominees to fill a vacancy in the office of
Justice or Judge of the General Court of Justice, in accordance with
Section 23 of Article IV of this Constitution.

Each of these provisions omits the words “and containing no other matter”

included in each of the other enumerated exceptions in Section 5, meaning that
proposed Bills coupled with judicial appointments would be immune to a veto by
the Governor. The ballot language makes no mention of any effect of the

Amendment upon veto powers of the Governor.

27

App. 89

- 149 -

58.

We therefore find that there is a substantial likelihood that Governor Cooper, the

State Board of Elections, and NC NAACP will prevail on the merits of these actions with respect
to the constitutionality of the Ballot Question language pertaining to the Board Appointments

Proposed Amendment and the Judicial Vacancies Proposed Amendment. We do not find that

there is a substantial likelihood that NC NAACP will prevail on the merits of this action with
respect to the constitutionality of the Ballot Question language pertaining to the Tax Rate

Proposed Amendment and the Photo Identification for Voting Proposed Amendment.

59.

We find that irreparable harm will result to Governor Cooper, the State Board of

-

Elections, and NC NAACP if the Ballot Language included in S.L. 2018 117 and S.L. 2018-118

is used in placing these respective proposed constitutional amendments on a ballot, in that v/e

conclude beyond a reasonable doubt that such language does not meet the requirements under the
North Carolina Constitution for submission of the issues to the will of the people by providing
sufficient notice so that the voters may be fully informed of the question they are called upon to

decide and in a manner to enable them intelligently to express their opinion upon it.
60.

Under these circumstances, the Court, in its discretion and after a careful

balancing of the equities, concludes that the requested injunctive relief shall issue in regards to
S.L. 2018-117 and S.L. 2018-118. The requested injunctive relief is denied in regards to S.L.

2018-119 and S.L. 2018-128. This court concludes that no security should be required of the

Governor, as an officer of the State, but that security in an amount of $ 1 ,000 should be required
of the NC NAACP pursuant to Rule 65 to secure the payment of costs and damages in the event

.

that it is later determined that this relief has been improvidently granted

61.

This three-judge panel recognizes the significance and the urgency of the

questions presented by this litigation. This panel also is mindful of its responsibility not to

28

App. 90

- 150 -

disturb an act of the law-making body unless it clearly and beyond a reasonable doubt runs

counter to a constitutional limitation or prohibition. For that reason, this Order is being
expedited so that (1) the parties may proceed with requests for appellate review, if any, or (2) the

General Assembly may act immediately to correct the problems in the language of the Ballot
Questions so that these proposed amendments, properly identified and described, may yet appear

on the November 2018 general election ballot. This panel likewise does not seek to retain
jurisdiction to “supervise” or otherwise be involved in re-drafting of any Ballot Question
language. That process rests in the hands of the General Assembly, subject only to constitutional

limitations.

62.

In view of the fact that counsel for all parties have candidly expressed a likelihood

that ANY decision of this panel in this case will be appealed, this three-judge panel hereby

certifies pursuant to Rule 54 of the North Carolina Rules of Civil Procedure this matter for

immediate appeal, notwithstanding the interlocutory nature of this order, finding specifically that
this order affects substantial rights of each of the parties to this action.

63.

The Honorable Jeffrey K. Carpenter dissents from portions of this Order and will

file a separate Opinion detailing his positions on each of the issues herein addressed.

BASED UPON THE FOREGOING, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that:

1. Plaintiff Governor Cooper’s motion for a preliminary injunction is hereby
GRANTED as follows:
a. The Legislative Defendants and the State Board of Elections, their officers,
agents, servants, employees and attorneys and any person in active concert or
participation with them are hereby enjoined from preparing any ballots,
printing any ballots or authorizing any person or entity to prepare or print any
ballots for the November 2018 general election containing the Ballot Question
language currently contained in Section 5 of Session Law 2018 117.

-

29

App. 91

- 151 -

b. The Legislative Defendants and the State Board of Elections, their officers,
agents, servants, employees and attorneys and any person in active concert or
participation with them are hereby enjoined from preparing any ballots,
printing any ballots or authorizing any person or entity to prepare or print any
ballots for the November 2018 general election containing the Ballot Question
language currently contained in Section 6 of Session Law 2018 118.

-

2. Cross-claimant State Board of Elections’ motion for a preliminary injunction is
hereby GRANTED as follows:
a. The Legislative Defendants and the State Board of Elections, their officers,
agents, servants, employees and attorneys and any person in active concert or
participation with them are hereby enjoined from preparing any ballots,
printing any ballots or authorizing any person or entity to prepare or print any
ballots for the November 2018 general election containing the Ballot Question
language currently contained in Section 5 of Session Law 2018-117.
b. The Legislative Defendants and the State Board of Elections, their officers,
agents, servants, employees and attorneys and any person in active concert or
participation with them are hereby enjoined from preparing any ballots,
printing any ballots or authorizing any person or entity to prepare or print any
ballots for the November 2018 general election containing the Ballot Question
language currently contained in Section 6 of Session Law 2018-118.
3. Plaintiff NC NAACP’s motion for preliminary injunction is hereby GRANTED IN
PART AND DENIED IN PART, as follows:
a. The Legislative Defendants and the State Board of Elections, their officers,
agents, servants, employees and attorneys and any person in active concert or
participation with them are hereby enjoined from preparing any ballots,
printing any ballots or authorizing any person or entity to prepare or print any
ballots for the November 2018 general election containing the Ballot Question
language currently contained in Section 5 of Session Law 2018-117.
b. The Legislative Defendants and the State Board of Elections, their officers,
agents, servants, employees and attorneys and any person in active concert or
participation with them are hereby enjoined from preparing any ballots,
printing any ballots or authorizing any person or entity to prepare or print any
ballots for the November 2018 general election containing the Ballot Question
language currently contained in Section 6 of Session Law 2018-118.
4. Except as hereinbefore described, all requests for injunctive relief are hereby
DENIED.

5. Legislative Defendants’ Rule 12(b)(1) motion as to Plaintiff Governor Cooper’s
claims is hereby DENIED.

6. Legislative Defendants’ Rule 12(b)(1) motion as to Plaintiff NC NAACP’s claims is
hereby DENIED.

30

App. 92

- 152 -

7. Legislative Defendants’ Rule 12(b)(1) motion as to Plaintiff CAC’s claims is hereby
GRANTED.
8. The Motions for realignment of the Defendant Board of Elections is hereby remanded
to the Wake County Superior Court for determination.
SO ORDERED, this 21st day of August, 2018.

t

ForfestXk Bridges/Superior Court Judge

\

V1

‘

/

Thomas H. Lock, Superior Court Judge

as a majority of this Three Judge Panel

31

App. 93

State Board of Elections
Closed Session Board Minutes
September 15, 2020 (3:16 p.m. – 6:02 p.m.)
In attendance via video conference and/or telephone –Katelyn Love, Kelly Tornow, Lindsey Wakely,
Candace Marshall and Annette Barefoot – State Board of Elections Legal Staff, Patrick Gannon - Public
Information Officer, Swain Wood and Sripriya Narasimhan – NC Department of Justice; Executive
Director Bell in addition to all State Board of Elections members. Roll Call: Dr. Anderson, Mr. Carmon,
Mr. Black, Mr. Raymond and Chair Circosta - present.
Chair opened closed session with reminder that the attorney client privilege and confidentiality of items
discussed here are ours as a group and not individual. Reminder to preserve the confidentiality of
closed sessions and all issues discussed.
Chair stated that closed session minutes from August 31, 2020 would be approved with a minor
correction of the opening statement to include language regarding attorney client privilege and
confidentiality of items discussed. This revised language would apply to all future closed sessions.
Chair expressed his concern with 49 days before the elections and felt with certainty that the Board of
Elections was under assault with lawsuits this election. The agency legal staff and NCDOJ staff were
managing the case load. He reached out to NCDOJ to discuss potential settlement opportunities with
the State Board members.
Swain Wood, General Counsel to the Attorney General and Sripriya Narasimhan, Deputy General
Counsel were introduced. Mr. Wood stated that the Attorney General was the lawyer for the State and
DOJ attorneys represent our agency. A memo prepared by AG’s office on the election litigation was
provided to the Board. The goal of the AG’s office was to protect the board in election administration.
Multiple lawsuits – 20 or more are currently in ongoing litigation. Eight of those cases are identified for
discussion today which deal with voting mechanics and the impact of the pandemic on elections.
Mr. Wood provided a brief summary of the case involving the US Postal Service. Goal is to make sure
that the postal service does not slow down delivery of absentee ballots. Noted the NCSBE is not a party
to that case, but relevant to some of the issues discussed at this meeting. There will be a hearing next
week on this case.
Mr. Wood then moved into a discussion of pending NCSBE cases. Noted that some groups are
coordinating, and others are not. Noted that most are constitutional challenges under both NC and US
constitution. Cases have been very active with depositions and hearings. It is expected that all cases will
have a hearing and subsequent ruling between now and Election Day. Some cases will continue after
Election Day. Some will go up for appeal and others will not continue further. With court rulings, one or
more judges could change what the State Board will do in upcoming elections. There is a high potential
for conflicting rulings and changing rules.
Mr. Wood then moved to a discussion of the settlement possibility. Noted that we would need to find
some common ground with plaintiffs and that any settlement would be subject to judicial approval.
Allows professional staff to be in control of the rules going forward. He explained that he will walk
1

App. 94

through the opportunities for compromise and leverage. Will ultimately ask the Board to authorize the
Executive Director to settle these cases along the lines discussed in this meeting.
Chair thanked Mr. Wood for the memo detailing the litigation and noted that he agrees with the AG
counsel’s litigation assessment. There were areas where there was no interest in compromise – early
voting, pre-paid postage, accommodations for the visually impaired, and restrictions on systems for
requesting and returning absentee ballots. He asked if any other members wanted to open up these
topics for discussion. Noted that there was silence from the other members.
Secretary Anderson commented that focus should be on the issues like extension of receipt deadline as
more than one case seeks to do that. She said that she does not want to see the agency accomplish
these things by emergency orders. Would prefer to do it in the context of a settlement of specific
complaints. Noted that more than one of the cases involves existing legal receipt deadline.
Chair asked the AG’s office to begin with this topic. Mr. Wood agreed that there were one or more cases
where the issue arose of the postal service warning of delays in delivery. The postal service said it takes
as much as a week between when a piece of mail is sent out and when received back. He noted, by law,
North Carolina only permits three days between postmark deadline and receipt. A ballot mailed on
Election Day that arrives on the 4th day is not counted. For overseas voters under federal law ballots are
accepted if they are received by the day before canvass. It is recommend to extend to correlate with
overseas deadline – a reasonable deadline for settlement, possibly 9 to 10 days after Election Day.
Mr. Raymond says he cannot support extending civilian absentee deadline. It would compromise the
integrity of elections. The current deadline is sufficient. Opens the door for any bad actors that would
want to play games, to accomplish that. Stated that he really cannot support this. He understands the
need for things to go smoothly, however, believes this recommendation compromises the outcome of
the election.
Chair asked Ms. Narasimhan to explain in greater detail the proposed settlement position. He noted that
he would like a vote for each individual issue he is asking to settle. That the Executive Director would
work specifically within the parameters. There was not a formal vote, but Mr. Raymond indicated his
support for this approach.
Mr. Carmon stated that he was under the impression that settlements worked together. Wanted to
know if it was still beneficial to settle one instead of all. He noted that any proposed settlement still
needs a plaintiff to agree to it. He asked Ms. Narasimhan to explain what may work or not work for an
issue by issue approach.
Mr. Wood noted that they came up with the recommended list because they believe it’s a set of issues
that if presented as a package could get sufficient buy-in from the plaintiffs and the courts for a global
resolution. The DOJ will work with whatever settlement options the State Board gives, but the more you
give us on these issues to work with, the higher likelihood of accomplishing resolution. Not everything is
necessary, but it is a package and plaintiffs will approach it that way.
Ms. Narasimhan summarizes the claims regarding the absentee ballot deadline. Noted that plaintiffs
would like all ballots to be counted that are received by the UOCAVA deadline. She thinks there are
good reasons the postmark issue is important to the state board. She noted that in offering the position,

2

App. 95

the plaintiffs will have to compromise on the postmark position (which would remain unchanged). This
is in line with the recommendation from the US Postal Service.
Chair agrees with Mr. Raymond as he does not want any funny business after Election Day. But the
postal service has issues now that are a challenge for elections. And a ballot cast on Election Day would
have to be returned by the voter by the deadline, not a month later. The voter would have to mail it by
Election Day or before. The envelope would have to have some indicia that it was put in the delivery
stream on or before Election Day.
Mr. Carmon asked for clarification on voting on settlement positions individually. If there is a sweet
package, we have a deal, if there is no sweet package, they may proceed to litigation. Chair suggested
the State Board be briefed on all, then vote. Mr. Carmon agreed with this approach. So did Mr.
Raymond.
Mr. Black said he thought it would serve better if the State Board could discuss and come to a
reasonable decision on each instead of a package. Secretary Anderson noted that she can see both sides
with one-by-one vs package approach. She asked for starting with the extension of the receipt deadline
as helping in other ways. Noted that it’s hard to separate. What we do in one area may help or hinder in
others.
Chair stated that the focus should be, is the board willing to settle and will settlement provide a stronger
litigation position. Chair asked if they could take a straw poll without taking votes regarding the
proposed settlement.
Mr. Black stated that everyone should have a chance to vote, no later than the date for postmarking of
ballots. He would agree to the extension of the date for receipt of the ballot but not allowing the
postmark on ballots to be after the election. Otherwise, he agrees with board members.
Chair asked if Mr. Raymond’s earlier reservations stand. Mr. Raymond stated that his reservations
stand. A ballot must be postmarked by Election Day. Chair agreed, but noted his concern that without
the settlement a judge may feel differently.
General Counsel Love asked for clarification regarding postmark. Noted postmark only means stamp on
the envelope. Noted there is benefit in discussing if this is the only method, or if there are others
acceptable to the State Board. Chair noted that they need to know that the ballot was voted on
November 3rd and not after. Bottom line is we have to know it was voted by then.
Ms. Narasimhan stated that while the USPS should postmark all mail, however, in practice it does not.
Mail could arrive on November 8th with no postmark.
General Counsel Love agreed that this is the part there is a question about. Could BallotTrax be used?
She noted the use of UPS and FedEx. There is no postmark, but it is possible for tracking information to
show if delivered to the carrier by Election Day.
Chair noted he would be loath to settle anything that would allow ballots to be counted that were voted
after Election Day.

3

App. 96

Secretary Anderson asked if the agency could make the determination to use Ballottrax if no USPS
postmark? She asked if necessary, to the settlement, versus allowing the agency to issue this
position/guidance.
General Counsel Love stated that it would be better to put it in settlement vs. State Board interpretation
to provide legal certainty. Mr. Wood agreed.
Chair suggested moving on to the next topic.
Mr. Carmon asked if the State Board was clear on language for that portion of the settlement (as it
relates to postmark).
Chair invited additional thoughts, but noted his inclination to make a motion that offers Executive
Director Brinson Bell the authority to settle outstanding claims as it relates to returned ballots. That they
must be received by the State Board of Elections by UOCAVA deadline, if there is sufficient indicia of the
ballot being out of the voters hands on Election Day or before.
Chair suggested that Ms. Narasimhan move onto the signature verification requirement. Ms.
Narasimhan noted it was included as a claim the plaintiffs are raising, but a numbered memo is
satisfactory to resolve this.
Chair asked Ms. Narasimhan to move onto the witness requirement.
Ms. Narasimhan stated that the witness requirement is a subject of litigation in practically all of the
lawsuits. Challenge is to the entire one witness requirement to absentee voters in this election. And
there is a challenge for individuals living alone, because of COVID-19. There is a concern regarding the
current cure provision for a witness deficiency. Plaintiffs have filed legal challenges and received court
rulings in other states lifting witness requirement. Guidance was provided to the counties with cure
provisions which have now been challenged. Currently there is no cure provision in place, as agency
legal staff provided guidance to the counties to refrain from contacting voters about deficient ballots
until further notice.
There are two hearings this week before Judge Bryan Collins whom litigation counsel advised was likely
sympathetic to the Plaintiff’s viewpoint on witnesses. Plaintiffs are seeking to lift the entire
requirement. AG proposes we do not lift the requirement. General Assembly was asked to change it and
it did not. Instead the AG proposes a cure procedure that is more voter friendly. Cure would confirm
that voter is who they say they are when they are filling out the absentee ballot. Would need to discuss
form. Cure procedure at present isn’t a cure, but a redo. Courts in other states have looked for an
alternative pathway.
Ms. Narasimhan noted the need to understand the purpose of the cure provision. There may be ways to
do this other than a redo. Need for a pathway.
Associate General Counsel Tornow sought clarification as to whether the initial cure memo issued to the
counties and discussed with DOJ attorneys was shared with opposing counsel and the federal court in
Democracy NC.

4

App. 97

Ms. Narasimhan stated that the proposed cure was not given to the court as SBE is adjusting the cure
procedures. She stated that it was not filed with the court because there were challenges made to it as
soon as it was put out. And a new lawsuit was filed, so cure procedure was not presented to the court.
Chair stated that the witness requirement is important to the Board. The Board does not want to lose
the one witness requirement. Problems can exist with missing signatures and address information and
how to go about curing the problems. There is danger to the process if we do not figure out some cure.
Ms. Narasimhan stated that DOJ managed to uphold the witness requirement in Federal court in
Democracy NC case and in state court in the Chambers case. In South Carolina, the District Court lifted
the witness requirement and no appeal has been filed yet. The impact is that South Carolina is in the 4th
Circuit.
Secretary Anderson noted that DOJ memo says we do not have a court-approved cure process and no
ballots may be rejected at this time. She noted the first absentee meeting starts September 29. What
does this mean for those meetings? Will we have one by the time these boards are situated and ready
to act, or will there be an opportunity for the county boards to have a pool of ballots and some
deficiency and an opportunity to get them cured even if not in place by the 29th?
Executive Director Bell noted that continuing to update the cure memo is a challenge. Noted we have
already accepted nearly 52,000 absentee ballots. From an administrative standpoint, if there is an easier
way to resolve the witness situation, that will make it easier for the counties to administer.
Secretary Anderson noted that we should think about the difference in having a witnesses’ signature but
no name or address and not having a witness signature. If we say that the voter can cure no witness
signature, we are exempting them from the witness requirement. This is problematic.
Chair stated that the point of the witness signature is to confirm that the voter voted the ballot. Noted
that if cure process confirms it’s the voter’s ballot, confirmation is still occurring.
Executive Director Bell stated that right now the redesign of the envelope helped with readability and
clarity, but voters are confused by the witness signature portion of the envelope. Currently there are 18
different questions about deficiencies, and over 1000 incomplete witness certifications. What is being
proposed is the voter will attest that no one nefariously completed the ballot envelope. Upon receipt of
a ballot with no witness, the affidavit would be sufficient.
General Counsel Love stated she wanted it to be clear to the board that effective Friday, no cure
affidavits or new ballots will be sent out. This is because staff had been preparing to make some changes
to the cure memo because of an issue with the envelope design. We were alerted that some voters
were confused because the voter and witness signatures are highlighted in light yellow but the rest of
the box the witness completes, where they print their name and address, was in grey. So some voters
did not complete the grey part, only the yellow signatures. The cure memo was being updated so it
would allow the voter to cure a missing witness name and address by providing that information by
affidavit if they knew it. Counties were told on Friday that the new memo would be out by the end of
the day on Friday. However, the board meeting was scheduled so it did not go out.
Secretary Anderson asked if the counties had started the cure process as originally outlined.

5

App. 98

General Counsel Love confirmed that the numbered memo was issued after the Democracy NC decision
on September 4th. Counties followed that memo until Friday. No new action on ballots by CBE and no
ballots have been officially disapproved by any county board of elections.
Chair stated that if we don’t get it right it does not matter. Cure must be quick.
Mr. Wood commented that a cure was needed very quickly and could happen by the court in a matter of
days.
Chair then directed the discussion to in-person voting and stated that he envisions the cure process as
akin to in-person voting. We are not getting rid of the witness requirement.
Mr. Wood noted the early data about ballots being rejected is concerning. Disparate impact across
demographic and racial groups.
Associate General Counsel Tornow noted that with the advent of BallotTrax, voters are now seeing that
there may be an issue with their ballot and they are contacting the county boards. This is an additional
administrative concern because presently the county board is not able to tell them whether or not they
can cure their ballot so they are confused. Chair pointed out it’s better to pause now than to pause
later.
A discussion was had regarding CBE checking signature on voter registration record with that as a cure
when the signatures are compared. Secretary Anderson asked how does the voter verify that it’s
actually their ballot during the cure process? Do they sign to that effect? How will the county board
confirm the signature?
Chair noted that he did not envision a signature comparison. If the county board staff are not
comfortable, don’t cure and instead spoil the ballot. Mr. Black restated his opinion that we should not
do away with the witness law. It is an important thing to retain. If struck down, then ballots without it
and resulting in more lawsuits. Refers to 9th district hearing and need to keep. Okay if the staff member
calls the voter (preferred) or emails the voters then okay. Getting away from the witness aspect may
result in additional consequences. Be careful in trying to keep hijinks from going on. We want to give the
voter a sense of security and have them feel good about the voting process.
Chair stated that we could do nothing regarding these issues or we could reach agreement on
settlement options. There is the possibility that the court could impose more sanctions on us. We want
to maintain elections security and have the litigation go away.
Mr. Carmon wanted to know what are we offering as a way that the voter may cure a witness
deficiency? We agree not to remove witness requirements.
Chair summarized his motion as permitting the voter to cure deficiencies with the witness requirement.
Executive Director Bell agreed in not removing the witness requirement. She restated her support for a
cure process whereby the voter attests to their ballot. Cure will allow for the voter to attest, even if no
witness info, or if no witness, that it is their ballot.
Mr. Carmon inquired as to how to handle a possible attestation – mailed to voter, emailed to voter,
provide to voter in person. Would we send a new ballot?
6

App. 99

Executive Director Bell said it would be a form. Received by mail or email or in person.
Mr. Wood stated that from a litigation perspective, the AG is concerned about something fair,
administrable and efficient. Serves the primary thrust of the purpose of the rule. Mr. Raymond stated
that we must keep the witness requirement. Voter showing up in person as a cure would be great. One
thing to consider is that the Plaintiffs as a group would not agree to a requirement that the voter appear
in person to cure any deficiency.
Chair stated that all board members agree on retaining witness requirement. With the options of email,
in person and mail, worried about adverse rulings in court.
Secretary Anderson commented on the burden on voters. Letting the voter know of a deficiency and a
potential to do over, as we get closer to Election Day, a do over would become more problematic for the
voter without an extension of the time for allowed receipt of the new ballot. Again, a lack of witness
signature places a burden on the voter.
Chair stated that today the burden on the voter is not bad but at the end closer to Election Day it would
be worse. Chair asked Secretary Anderson what specifically she is concerned about with respect to the
proposed cure process.
Secretary Anderson indicated her concern that cure affidavit or memo could be exploited by the same
person who sent the ballot. No more assurance then we did from the get-go. Said she was trying to
balance vote with criticism and challenges that we might get as an agency – that we will get criticism.
Chair said he thinks it’s unlikely the same nefarious actor could act twice. Secretary Anderson asked if
this would protect us from protests and voter challenges.
Ms. Narasimhan responded that a judge would have ordered it, so it protects the State Board from
collateral attack.
Chair moved the discussion to the next topic, in person return of absentee ballots. Voters are seeking
ways to return their ballot without using the USPS. Per the existing rule from 2018, is there no way to
streamline the process. The idea is not to abandon logging of voter ballots as they come into the
elections office. The potential problem is with the chain of custody of the log and the impact of how to
make the process work best in a COVID-19 environment with the passing of pens back and forth by voter
and clerk. Ideally, the voter would enter the CBE office with a ballot. The clerk would get the voter’s
name and CIV#, ask if the person was the voter, near relative or guardian or other. Then the ballot
would be received if voter or near relative or guardian. There is a question of how to handle if the
response from the individual is that they are neither voter or near relative or guardian. The individual
would be attesting to a crime.
Secretary Anderson stated that we are dealing with the existing law and existing rule. Raised question
about how far we should deviate from rule. What happens when a ballot is accepted by an ineligible
person dropping it off? What do we do with those logged as dropped off by “other?” Not returned
correctly.
General Counsel Love explained the history of the rule. Stated that return by an unauthorized person is
a felony, not that the ballot is not counted. An absentee ballot is not invalid if delivered by someone not
7

App. 100

authorized. She distinguished this from the absentee request form statute, which says explicitly that a
request form returned by an unauthorized person invalidates the request.
Mr. Black proposed the idea of a poster/sign being evident at the CBE office that would notify the
person dropping off the ballot that it was a felony to bring the ballot into the office if they were not
either the voter or a near relative or guardian of the voter. They would be directed to take the ballot
back to the voter. The signs would educate the voters and at the same time caution at the same time
against committing a felony.
Chair stated that simplest method is best. The onus should be placed on the CBE clerk to take down the
information, name, CIV#, relationship to voter, and then receive the ballot. Signage would be good to
educate the voter.
Mr. Wood stated that there is a litigation risk as the rule was not written with consideration of a
pandemic. Judges are sympathetic about contact issues and procedures in place. Plaintiffs in cases
want a drop box which could in turn result in ballot harvesting.
Chair says he is opposed to unmanned drop boxes.
Secretary Anderson proposed the CBE clerk obtain the name, relationship to voter, and marking the
ballot as accepted. The voter will assume that whether dropped in a box or handed to clerk, ballot as
being accepted. She noted that marking relationship to voter as “other” but still giving the ballot to the
clerk would give the appearance that it’s being accepted and counted.
Chair said he originally thought not asking the question of relationship to voter would best prevent
contest, but we probably need to ask the question.
General Counsel Love provided an explanation of the law such that the CBE would let the SBE
investigations team know if a ballot were returned by an unauthorized person. Specifics of the case
would be considered to determine whether it was a priority according to the Investigations Policy;
specifically, whether it was intentional, willful and attempted to influence the election.
Chair suggested that the log is something that should be handled by the clerk, not by the voter. CIV
number and name are written down by the clerk. Confirm whether person returning ballot is voter, near
relative, or “other.”
Executive Director Bell clarified that if someone other than the voter or near relative drops off the
ballot, the clerk would collect additional information. She provided further history and guidance on this
issue from an administrative viewpoint. When a ballot is mailed, there is no way to determine who
dropped it in the postal box. In prior elections, absentee voting was at 3 to 4 percent of voters, maybe as
high as 5 percent. In today’s environment of the pandemic, the number is closer to 30 to 40 percent of
absentee voters. We have to consider if the person is trying to be a good neighbor without knowing
their action is a felony. Items are turned over to investigations with the fear of others getting their
hands on the logs. She believes that it is a best practice to have the CBE clerk collect the information
and post notices as described by Mr. Black. Before the rule, no log was required. An example shared
was that in past few days in Henderson County over 700 voters have showed up in person to turn in
their absentee ballots. The lobbies of some county board offices are only the size of doctors or dentist
offices. In these small spaces we’re seeing as many people drop off in a day as we might see in a one8

App. 101

stop site or an Election Day polling place. I issued the emergency order to reduce long lines and reduce
long lines, and the current written log requirement counters that.
Discussion between board members and Executive Director on how to handle if an unauthorized person
attempts to drop off the ballot. It is agreed that log is important but discussed who within the CBE office
should handle. Temporary staff may not be able to handle issues with someone who is not authorized
returning a ballot.
Mr. Carmon stated he does not want our county board staff to turn a blind eye to someone breaking the
law. Mr. Black felt that the CBE clerk should handle the processing of ballot, review for errors, cure some
errors immediately for a walk-in voter. Discussion ensued regarding the clerk being reluctant to take the
ballot if it was returned by an unauthorized person. Secretary Anderson commented that a good
Samaritan neighbor returning the ballot for a voter should not be punished nor should that ballot be
rejected as a result.
General Counsel Love provided guidance that the numbered memo and administrative rule clarify that a
ballot that is returned by an unauthorized person is not invalid. The county board of elections would
consider who delivered the ballot in conjunction with other evidence in determining whether the ballot
envelope was properly executed. General Counsel Love also clarified that statute states that once the
county board of elections accepts the ballot, it cannot be returned to the voter, even if the ballot is
being returned by an unauthorized person.
Executive Director suggested that the agency could provide more guidance in the updated numbered
memo for various scenarios – for example, the same person delivers 20 ballots to the CBE office. This
would be a red flag for potential ballot harvesting.
Chair made the motion that the SBE propose to empower the executive director to authorize settlement
on any, and all outstanding cases in which the Attorney General’s Office proposes settlement that
achieves the following:
1. As it pertains to late return of ballots, that ballots will be accepted if they have a postmark or
other indicia of receipt of November 3rd (BallotTrax, commercial carrier tracking info, etc.) They
need to come back by UOCAVA deadline – close of business on the day before county canvass.
2. Witness and assistant requirement – must remain in effect and in full force and that the voter
herself has the opportunity to cure any deficiencies in voter’s attestation or witness portions of
container-return envelope. The assistant deficiencies may also be cured.
3. No unmanned ballot drop boxes allowed. Maintain log – clerk asks for name of person
returning ballot, and verbal acknowledgement of relationship to voter that they are voter or
near relative. Then the clerk writes down CIV number on the log. Then if person returning is not
near relative or voter, clerk will take down name, address, relationship to voter, and then we
will accept receipt of the ballot and keep that info available for any investigation.
Discussion on the motion to delegate authority to Executive Director. Specifically, the date for
acceptance of late return ballots.
Mr. Raymond stated November 3rd for civilian voters and UOCAVA voters had 9 days. Chair agreed with
November 3rd postmark and allowing 9 days for receipt. Mr. Black expressed his concern about relying
9

App. 102

on canvass, which might be changed by a court. He did not want the date automatically extended. He
expressed his preference for relying on a date certain. All board members would accept November 3rd
postmark and allowing 9 days after for receipt of ballot. Mr. Black expressed his preference for a date
certain. Chair noted that the idea is to cure postal deficiencies, so he’s okay with a date certain.
Executive Director Bell suggested the alternative of 9 calendar days after the election. Both Chair and
Mr. Black acknowledged support of this.
Chair noted that delegation of settlement authority to Executive Director is not blanket, but only within
parameters of this motion. This information is confidential.
Second of motion by Member Carmon. Roll Call vote: Anderson – aye, Black – aye, Carmon – aye,
Raymond – aye, Chair – aye.
Chair, General Counsel Love and Executive Director Bell discussed language for the motion in open
session. Announcement will be taken in open session about delegation of authority. Chair stated that
the State Board of Elections was in a good place. There are no good options since March 3rd and COVID19 impact. He asked that the Attorney General’s office keep us updated on litigation and settlement
efforts.
The Chair made the motion that the State Board return to open session. The motion was seconded by
Secretary Anderson. Closed session ended at 6:02 p.m.

10

App. 103

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION

STATE OF NORTH CAROLINA
COUNTY OF WAKE

® SEP

oo

NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS; BARKER '
FOWLER ; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM
KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,

0
No. 20-CVS-8881

>

'

^

Plaintiffs,
v.

THE NORTH CAROLINA STATE BOARD
OF ELECTIONS; and DAMON CIRCOSTA,
in his official capacity as CHAIR OF THE
NORTH CAROLINA STATE BOARD OF
ELECTIONS,

PLAINTIFFS’ AND EXECUTIVE
DEFENDANTS’ JOINT MOTION FOR
ENTRY OF A CONSENT JUDGMENT

Defendants, and,

PHILIP E. BERGER , in his official capacity as
President Pro Tempore of the North Carolina
Senate; and TIMOTHY K. MOORE, in his
official capacity as Speaker of the North
Carolina House of Representatives,
Intervenor-Defendants.

Plaintiffs North Carolina Alliance for Retired Americans, Barker Fowler, Becky Johnson,
Jade Jurek, Rosalyn Kociemba, Tom Kociemba, Sandra Malone, and Caren Rabinowitz, and

Defendants Damon Circosta and the North Carolina State Board of Elections (“Executive
Defendants”), by and through counsel, respectfully move this Court pursuant to Local Rule 3.4
for entry of a Consent Judgment, filed concurrently with this Joint Motion. In support thereof ,
Parties show the Court as follows:

App. 104

1.

On August 18, 2020, Plaintiffs filed an Amended Complaint, seeking declaratory

and injunctive relief to enjoin North Carolina laws related to in-person and absentee-by-mail
voting in the remaining elections in 2020 that they alleged unconstitutionally burden the right to
vote in light of the current public health crisis caused by the novel coronavirus (“COVID-19”).
2.

Also on August 18, Plaintiffs filed a Motion for Preliminary Injunction seeking

to:
(i)

enjoin the enforcement of the absentee ballot receipt deadline set forth in
N.C.G.S. § 163-231(b)(1), (2), as applied to ballots submitted through the
United States Postal Service (USPS) for the 2020 elections, and order
Defendants to count all otherwise eligible ballots that are postmarked by
Election Day and received by county boards of elections up to nine days
after Election Day;

(ii)

enjoin the enforcement of the witness requirements for absentee ballots set
forth in N.C. Gen. Stat. § 163-231(a), as applied to voters residing in
single-person or single-adult households;

(iii)

enjoin the enforcement of N.C. Gen. Stat. § 163-231(b)(1) to the extent
that it requires voters to pay for postage in order to mail their absentee
ballots;

(iv)

order Defendants to provide postage for absentee ballots submitted by
mail in the November election;

(v)

order Defendants to provide uniform guidance and training for election
officials engaging in signature verification and instruct county election
officials not to reject absentee ballots due to perceived non-matching
signatures until the county officials receive such guidance and undergo
training;

(vi)

enjoin the enforcement of N.C. Gen. Stat. §§ 163-226.3(a)(5), 163230.2(c) and (e), 163-231(b)(1), and any other laws that prohibit
individuals or organizations from assisting voters to submit absentee
ballots or to fill out and submit absentee ballot request forms; and

(vii)

enjoin the enforcement of N.C. Gen. Stat. § 163-227.2(b) and any other
laws that prevent county election officials from providing additional onestop (“early”) voting days and ordering Defendants to allow county
election officials to expand early voting by up to an additional 21 days for
the November election.

-2App. 105

Plaintiffs filed a brief in support of their Motion on September 4, 2020.
3.

Since Plaintiffs moved the Court for preliminary injunctive relief, Plaintiffs and

Executive Defendants have engaged in substantial good-faith negotiations regarding a potential
settlement of Plaintiffs’ claims against Executive Defendants.
4.

Following extensive negotiation, the Parties have reached a settlement to fully

resolve Plaintiffs’ claims, the terms of which are set forth in the proposed Consent Judgment
filed concurrently with this Joint Motion.
5.

As set forth in the Consent Judgment and in the exhibits thereto, (Numbered

Memos 2020-19, 2020-22, and 2020-23), all ballots postmarked by Election Day shall be
counted if otherwise eligible and received up to nine days after Election Day, pursuant to
Numbered Memo 2020-22. Numbered Memo 2020-19 implements a procedure to cure certain
deficiencies with absentee ballots, including missing voter, witness, or assistant signatures and
addresses. Finally, Numbered Memo 2020-23 instructs county boards to designate separate
absentee ballot drop-off stations at all one-stop early voting locations and county board offices,
through which voters and authorized persons may return absentee ballots in person.
6.

Plaintiffs and Executive Defendants further agree to each bear their own fees,

expenses, and costs with respect to all claims raised by Plaintiffs against the Executive
Defendants, and all such claims Plaintiffs allege against the Executive Defendants in this action
related to the conduct of the 2020 elections shall be dismissed.
WHEREFORE Plaintiffs and Executive Defendants respectfully request that this Court grant
their Joint Motion and enter the proposed Consent Judgment, filed concurrently with this motion,
as a full and final resolution of Plaintiffs’ claims against Executive Defendants related to the
conduct of the 2020 elections.

-3App. 106

Dated: September 22, 2020

Respectfully submitted,

Marc E. Elias
Uzoma N. Nkwonta
Lalitha D. Madduri
Jyoti Jasrasaria
Ariel B. Glickman
PERKINS COIE LLP
700 Thirteenth Street, N.W., Suite 800
Washington, D.C. 20005
Telephone: 202.654.6200
Facsimile: 202.654.6211
MElias@perkinscoie.com
UNkwonta@perkinscoie.com
LMadduri@perkinscoie.com
JJasrasaria@perkinscoie.com
AGlickman@perkinscoie.com

By:
Narendra K. Ghosh, NC Bar No. 37649
Burton Craige, NC Bar No. 9180
Paul E. Smith, NC Bar No. 45014
PATTERSON HARKAVY LLP
100 Europa Drive, Suite 420
Chapel Hill, NC 27517
Telephone: 919.942.5200
BCraige@pathlaw.com
NGhosh@pathlaw.com
PSmith@pathlaw.com
Attorneys for Plaintiffs

Molly Mitchell
PERKINS COIE LLP
1111 West Jefferson Street, Suite 500
Boise, Idaho 83702
Telephone: 208.343.3434
Facsimile: 208.343.3232
MMitchell@perksincoie.com
Attorneys for Plaintiffs
/s/ Alexander McC. Peters
Alexander McC. Peters, N.C. Bar No. 13654
Terrance Steed
North Carolina Dept. of Justice
Post Office Box 629
Raleigh, N.C. 27602
apeters@ncdoj.gov
tsteed@ncdoj.gov
Attorneys for Executive Defendants

-4App. 107

CERTIFICATE OF SERVICE
I certify that I served the foregoing document by email to counsel for defendants,
addressed as follows:
Alexander McC. Peters
N.C. Department of Justice
PO Box 629
Raleigh, NC 27602
apeters@ncdoj.gov
Attorney for Defendants
Nicole Jo Moss, N.C. Bar No. 31958
Cooper & Kirk, PLLC
1523 New Hampshire Avenue NW
Washington DC, 20036
nmoss@cooperkirk.com
Nathan A. Huff, N.C. Bar No. 40626
Phelps Dunbar LLP
GlenLake One
4140 Parklake Avenue, Suite 100
Raleigh, North Carolina 27612-3723
Nathan.Huff@phelps.com
Attorneys for Intervenors
R. Scott Tobin
TAYLOR ENGLISH DUMA LLP
4208 Six Forks Road. Suite 1000
Raleigh, NC. 27609
stobin@taylorenglish.com
Bobby R. Burchfield
KING & SPALDING LLP
1700 Pennsylvania Ave, N.W., Suite 200
Washington. D.C. 20006-4707
BBurchfield@KSLAW.com
Attorneys for Proposed Intervenors
This the 22nd day of September, 2020.

_______________________________
7"
Narendra K. Ghosh

-5App. 108

STATE OF NORTH CAROLINA
COUNTY OF WAKE

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION

NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS; BARKER
FOWLER; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM
KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,

No. 20-CVS-8881

Plaintiffs,
v.

STIPULATION AND CONSENT
JUDGMENT

THE NORTH CAROLINA STATE BOARD
OF ELECTIONS; and DAMON CIRCOSTA,
in his official capacity as CHAIR OF THE
NORTH CAROLINA STATE BOARD OF
ELECTIONS,
Defendants, and,
PHILIP E. BERGER, in his official capacity as
President Pro Tempore of the North Carolina
Senate; and TIMOTHY K. MOORE, in his
official capacity as Speaker of the North
Carolina House of Representatives,
Intervenor-Defendants.

Plaintiffs North Carolina Alliance for Retired Americans, Barker Fowler, Becky Johnson,
Jade Jurek, Rosalyn Kociemba, Tom Kociemba, Sandra Malone, and Caren Rabinowitz, and
Executive Defendants Damon Circosta and the North Carolina State Board of Elections
(collectively, “the Consent Parties”) stipulate to the following and request that this Court approve
this Consent Judgment. This Stipulation and Consent Judgment encompasses Plaintiffs’ claims,
which pertain to elections in 2020 (“2020 elections”) and are premised upon the current public
health crisis facing North Carolina caused by the ongoing spread of the novel coronavirus.

App. 109

I.
RECITALS
WHEREAS on August 10, 2020, Plaintiffs filed a complaint, and, on August 18, 2020,
Plaintiffs filed an amended complaint against Executive Defendants challenging the
constitutionality and enforcement, during the 2020 elections, of: (1) North Carolina’s limitations
on the number of days and hours of early voting that counties may offer, N.C. Gen. Stat. § 163227.2(b); (2) its requirement that all absentee ballot envelopes must be signed by a witness
during the pandemic, as applied to voters in single-person or single-adult households, Bipartisan
Elections Act of 2020, 2020 N.C. Sess. Laws 2020-17, § 1.(a) (“HB 1169”) (the “Witness
Requirement”); (3) its failure to provide pre-paid postage for absentee ballots and ballot request
forms, N.C. Gen. Stat. § 163-231(b)(1) (the “Postage Requirement”); (4) laws requiring county
boards of elections to reject absentee ballots that are postmarked by Election Day but delivered
to county boards more than three days after the election, as applied to voters who submit ballots
through the United States Postal Service, id. § 163-231(b)(2) (the “Receipt Deadline”); (5) the
practice in some counties of rejecting absentee ballots for signature defects (the “Signature
Matching Procedures”); (6) laws prohibiting voters from receiving assistance from the vast
majority of individuals and organizations in completing or submitting their absentee ballot
request forms, 2019 N.C. Sess. Laws 2019-239, § 1.3(a) (“SB 683”), (the “Application
Assistance Ban”); and (7) laws severely restricting voters’ ability to obtain assistance in
delivering their marked and sealed absentee ballots to county boards, and imposing criminal
penalties for providing such assistance, N.C. Gen. Stat. § 163-226.3(a)(5) (the “Ballot Delivery
Ban”) (collectively, the “Challenged Provisions”);

2
App. 110

WHEREAS the Complaint seeks to enjoin enforcement of the Challenged Provisions
during the 2020 elections due to the ongoing public health crisis caused by the spread of the
novel coronavirus (COVID-19);
WHEREAS the COVID-19 public health crisis is ongoing, and North Carolina remains
under Executive Order 163, which contemplates a phased reopening of North Carolina but
strongly recommends social distancing, Exec. Order 163, § 2.2, mandates mask wearing in most
business and government settings, id. § 3.2, imposes capacity limits in most public-facing
business and government settings, id., § 3.2(e), prohibits mass gatherings, id. § 7, and states that
“[p]eople who are at high risk of severe illness from COVID-19 are very strongly encouraged to
stay home and travel only for absolutely essential purposes,” id. § 2.1;
WHEREAS North Carolina remains under a state of emergency, declared by the
Governor, “based on the public health emergency posed by COVID-19,” Exec. Order 116, and
under a federal disaster declaration statewide, 85 Fed. Reg. 20701;
WHEREAS as of September 19, 2020, North Carolina has had more than 192,248
confirmed COVID-19 cases, with more than 3,235 fatalities;
WHEREAS COVID-19 case counts continue to grow across the country, and the
director of the Center for Disease Control and Prevention recently warned that the country
should brace for “the worst fall from a public health perspective, we’ve ever had” 1;
WHEREAS the Executive Director of the North Carolina State Board of Elections
observed that COVID-19 infections in North Carolina are likely to continue into the fall, through
at least Election Day; 2
1

Coronavirus in Context: CDC Director Discusses Next Steps in the War Against COVID,
Interview with John Whyte, WebMD (Aug. 13, 2020), https://www.webmd.com/coronavirus-incontext/video/robert-redfield.

3
App. 111

WHEREAS, on June 22, 2020, the Centers for Disease Control and Prevention (CDC)
issued interim guidance to prevent the spread of COVID-19 in election-polling locations. 3 The
CDC guidance encourages elections officials to:
• “Encourage voters to stay at least 6 feet apart” from each other by posting signs and
providing other visual cues and have plans to manage lines to ensure social distancing
can be maintained;
• Increase the number of polling locations available for early voting and extend hours of
operation at early voting sites;
• Maintain or increase the total number of polling places available to the public on
Election Day to improve the ability to social distance;
• Minimize lines as much as possible, especially in small, indoor spaces;
• “Limit the number of voters in the facility by moving lines outdoors if weather permits
or using a ticket system for access to the facility”;
• Offer alternatives to in-person voting;
• Offer alternative voting options that minimize exposure between poll workers and
voters;

2

N.C. State Bd. of Elections, Emergency Order, Administering the November 3, 2020
General Election During the Global COVID-19 Pandemic and Public Health Emergency (July
17,
2020),
https://s3.amazonaws.com/dl.ncsbe.gov/State_Board_Meeting_Docs/Orders/Executive%20Direc
tor%20Orders/Emergency%20Order_2020-07-17.pdf.
3
Considerations for Election Polling Locations and Voters: Interim guidance to prevent
spread of coronavirus disease 2019 (COVID-19), CDC, https://www.cdc.gov/coronavirus/2019ncov/community/election-polling-locations.html.

4
App. 112

WHEREAS large crowds at early voting and long lines on Election Day may create
public health risks and impose severe burdens on the right to vote, making absentee voting by
mail essential to ameliorate these possibilities;

WHEREAS, as of September 18, 2020, more than 889,273 absentee ballots had already
been requested by North Carolina voters, more than 14 times the number of absentee ballots that
had been requested by this time in 2016;
WHEREAS the absentee voting period for the 2020 elections began on September 4,
2020, N.C. Gen. Stat. § 163-227.10(a), and, as of September 21, 2020, nearly 1,400 absentee
ballots had been flagged for incomplete witness information, according to data from the State
Board of Elections 4;
WHEREAS, on August 4, 2020, the United States District Court for the Middle District
of North Carolina enjoined the State Board from “the disallowance or rejection . . . of absentee
ballots without due process as to those ballots with a material error that is subject to
remediation.” Democracy N.C. v. N.C. State Bd. of Elections, No. 1:20-cv-00457-WO-JLW
(M.D.N.C. Aug. 4, 2020) (Osteen, J.), ECF 124 at 187. The injunction is to remain in force until
the State Board implements a cure process that provides a voter with “notice and an opportunity
to be heard before an absentee ballot with a material error subject to remediation is disallowed or
rejected.” Id.
WHEREAS courts in other states have enjoined those states from enforcing witness and
notarization requirements, some of which are similar to North Carolina’s Challenged Provisions,

4

North
Carolina
Early
Voting
Statistics,
https://electproject.github.io/Early-Vote-2020G/NC.html.

5
App. 113

U.S.

Elections

Project,

for elections occurring this year during the COVID-19 pandemic. See, e.g., Common Cause R.I.
v. Gorbea, No. 20-1753, 2020 WL 4579367, at *2 (1st Cir. Aug. 7, 2020) (denying motion to
stay consent judgment suspending “notary or two-witness requirement” for mail ballots and
finding that “[t]aking an unusual and in fact unnecessary chance with your life is a heavy burden
to bear simply to vote.”), stay denied sub nom. Republican Nat’l Comm. v. Common Cause, No.
20A28, 2020 WL 4680151 (U.S. Aug. 13, 2020); Thomas v. Andino, No. 3:20-cv-01552-JMC,
2020 WL 2617329, at *21 (D.S.C. May 25, 2020) (finding “strong likelihood that the burdens
placed upon [plaintiffs] by” single-witness signature requirement “outweigh the imprecise, and
(as admitted by [defendants]) ineffective, state interests of combating voter fraud and protecting
voting integrity”); League of Women Voters of Va. v. Va. State Bd. of Elections, No. 6:20-CV00024, 2020 WL 2158249, at *8 (W.D. Va. May 5, 2020) (“In our current era of social
distancing—where not just Virginians, but all Americans, have been instructed to maintain a
minimum of six feet from those outside their household—the burden [of the witness
requirement] is substantial for a substantial and discrete class of Virginia’s electorate. During
this pandemic, the witness requirement has become ‘both too restrictive and not restrictive
enough to effectively prevent voter fraud.’”); Stipulation and Partial Consent Judgment, LaRose
v. Simon, No. 62-CV-20-3149 (2d Jud. Dist. Minn. June 17, 2020) (approving consent judgment
to not enforce Witness Requirement and Receipt deadline for primary election); Stipulation and
Partial Consent Judgment, LaRose v. Simon, No. 62-CV-20-3149 (2d Jud. Dist. Minn. July 17,
2020) (approving similar consent judgment for November general election);

6
App. 114

WHEREAS the delivery standards for the Postal Service, even in ordinary times,
contemplate at a minimum at least a week for ballots to be processed through the postal system
and delivered to election officials 5;
WHEREAS the General Counsel of the Postal Service sent a letter on July 30, 2020 to
North Carolina’s Secretary of State warning that, under North Carolina’s “election laws, certain
deadlines for requesting and casting mail-in ballots are incongruous with the Postal Service’s
delivery standards,” and that “there is a significant risk” that “ballots may be requested in a
manner that is consistent with your election rules and returned promptly, and yet not be returned
in time to be counted.” 6 In particular, the Postal Service recommended that election officials
transmitting communication to voters “allow 1 week for delivery to voters,” and that civilian
voters “should generally mail their completed ballots at least one week before the state’s due
date. In states that allow mail-in ballots to be counted if they are both postmarked by Election
Day and received by election officials by a specific date that is less than a week after Election
Day, voters should mail their ballots at least one week before they must be received by election
officials.” Id.;
WHEREAS mail delivery conditions are already leading to greater delays: since midJuly there have been sharp decreases in the percentage of U.S. Postal Service mail, sent by any
method, delivered on time; 7

5

State and Local Election Mail—User’s Guide, U.S. Postal Serv. (Jan. 2020),
https://about.usps.com/publications/pub632.pdf.
6
Letter to North Carolina Secretary of State from USPS General Counsel, App’x to Compl.,
ECF No. 1-1 at 53-55, Commonwealth of Pennsylvania v. DeJoy, No. 2:20-cv-04096-GAM
(E.D. Pa. Aug. 21, 2020).
7
Service Performance Measurement PMG Briefing, U.S. Postal Serv. (Aug. 12, 2020),
https://oversight.house.gov/sites/democrats.oversight.house.gov/files/documents/PMG%20Briefi
ng_Service%20Performance%20Management_08_12_2020.pdf.

7
App. 115

WHEREAS on August 21, 2020, the State of North Carolina, along with six other states
filed a lawsuit challenging the Postal Service’s procedural changes that the State alleges will
likely delay election mail even further, creating a “significant risk” that North Carolina voters
will be disenfranchised by the State’s relevant deadlines governing absentee ballots;
WHEREAS increases in absentee voting, coupled with mail delays, threaten to slow
down the process of mailing and returning absentee ballots, and appear likely to impact the 2020
elections;
WHEREAS pursuant to N.C. Gen. Stat. § 163-231(b)(2)(c), North Carolina already
accepts military and overseas absentee ballots until the end of business on the business day
before the canvass which occurs no earlier than the tenth day after the election, see id. § 163182.5(b);
WHEREAS for the April 7, 2020 primary election in Wisconsin, the U.S. Supreme
Court affirmed the implementation of a postmark rule, whereby ballots postmarked by Election
Day could be counted as long as they were received within six days of Election Day, Republican
Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1207 (2020), and other courts have
also extended Election Day Receipt Deadlines in light of the current public health crisis. See
Mich. All. for Retired Americans v. Benson, No. 20-000108-MM (Mich. Ct. Cl. Sept. 18, 2020)
(extending ballot receipt deadline for November 2020 election); Pa. Democratic Party v.
Boockvar, K., 133 MM 2020, 2020 WL 5554644 (Pa. Sept. 17, 2020) (extending ballot receipt
deadline for the November 2020 election); New Ga. Project v. Raffensperger, No. 1:20-cv01986-ELR (N.D. Ga, Aug. 31, 2020) (granting motion for preliminary injunction in part and
extending receipt deadline); Driscoll v. Stapleton, No. DV 20-408 (Mont. Dist. Ct. May 22,
2020), stayed pending appeal No. DA 20-0295 (preliminarily enjoining Montana’s receipt

8
App. 116

deadline and recognizing that enforcing the deadline was likely to disenfranchise thousands of
voters); LaRose v. Simon, No. 62-CV-20-3149 at *25 (Minn. Dist. Ct. Aug. 3, 2020) (entering
consent judgment extending Minnesota’s receipt deadline);
WHEREAS multiple courts have found that the enforcement of various other state
election laws during the pandemic violate constitutional rights. See, e.g., Esshaki v. Whitmer, 813
F. App’x 170, 173 (6th Cir. 2020) (finding ballot-access provisions unconstitutional as applied
during COVID-19 pandemic and upholding part of injunction enjoining state from enforcing the
provisions under the present circumstances against plaintiffs and all other candidates); Garbett v.
Herbert, No. 2:20-CV-245-RJS, 2020 WL 2064101, at *18 (D. Utah Apr. 29, 2020); Libertarian
Party of Ill. v. Pritzker, No. 20-cv-2112, 2020 WL 1951687 (N.D. Ill. Apr. 23, 2020) (applying
Anderson-Burdick in light of pandemic, and alleviating signature and witness requirements for
minor party candidates), aff’d sub nom. Libertarian Party of Ill. v. Cadigan, No. 20-1961, 2020
WL 5104251 (7th Cir. Aug. 20, 2020); People Not Politicians Oregon v. Clarno, 20-cv-1053,
2020 WL 3960440 (D. Or. July 13, 2020); Cooper v. Raffensperger, -- F. Supp. 3d --, 20-cv1312, 2020 WL 3892454 (N.D. Ga. July 9, 2020); Reclaim Idaho v. Little, 20-cv-268, 2020 WL
3490216 (D. Idaho June 26, 2020); Paher v. Cegavske, -- F. Supp. 3d --, 20-cv-243, 2020 WL
2089813 (D. Nev. Apr. 30, 2020); Goldstein v. Sec’y of Commonwealth, 484 Mass. 516, 142
N.E.3d 560 (2020);
WHEREAS the State Board of Elections has broad, general supervisory authority over
elections as set forth in N.C. Gen. Stat. § 163-22(a). As part of its supervisory authority, the State
Board is empowered to “compel observance” by county boards of election laws and procedures
as set forth in N.C. Gen. Stat. § 163-22(c).

9
App. 117

WHEREAS the Executive Director of the State Board, as the chief State elections
official, has the authority to issue Emergency Orders pursuant to N.C. Gen. Stat. § 163-27.1 and
08 NCAC 01.0106, which authorize her to exercise emergency powers to conduct an election
where the normal schedule is disrupted. See, e.g., Numbered Memo 2020-14; Numbered Memo
2020-19;
WHEREAS the Consent Parties agree that an expeditious resolution of this matter for
the 2020 elections, in the manner contemplated by the terms of this Stipulation and Consent
Judgment, will limit confusion and increase certainty surrounding the 2020 elections and is in the
best interests of the health, safety, and constitutional rights of the citizens of North Carolina, and,
therefore, in the public interest;
WHEREAS the Executive Defendants believe that continued litigation over the
Challenged Provisions will result in the unnecessary expenditure of State resources, and is
contrary to the best interests of the State of North Carolina;
WHEREAS the Consent Parties wish to avoid uncertainty about the requirements and
obligations of voting in the 2020 elections for State Board officials and non-parties including
county board officials, staff, and election workers, and the voting public;
WHEREAS the Consent Parties, in agreeing to these terms, acting by and through their
counsel, have engaged in arms’ length negotiations, and the Consent Parties are represented by
counsel knowledgeable in this area of the law;
WHEREAS, other courts across the country have approved similar consent judgments
between parties, see Common Cause R.I. v. Gorbea, No. 120CV00318MSMLDA, 2020 WL
4460914 (D.R.I. July 30, 2020) (approving consent judgment to not enforce Witness
Requirement in primary and November general elections); Stipulation and Partial Consent

10
App. 118

Judgment, LaRose v. Simon, No. 62-CV-20-3149 (2d Jud. Dist. Minn. June 17, 2020) (approving
consent judgment to not enforce Witness Requirement and Receipt deadline for primary
election); Stipulation and Partial Consent Judgment, LaRose v. Simon, No. 62-CV-20-3149 (2d
Jud. Dist. Minn. July 17, 2020) (approving similar consent judgment for November general
election); League of Women Voters of Va., 2020 WL 2158249 (approving consent judgment to
not enforce Witness Requirement in primary election); see also Common Cause R.I. v. Gorbea,
970 F.3d 11, 14 (1st Cir. 2020) (denying motion to stay the consent judgment and judgment
pending appeal) stay denied sub nom. Republican Nat’l Comm. v. Common Cause R.I., No.
20A28, 2020 WL 4680151 (U.S. Aug. 13, 2020);
WHEREAS the Executive Defendants do not waive any protections offered to them
through federal or state law and do not make any representations regarding the merits of
Plaintiffs’ claims or potential defenses which could be raised in litigation;
WHEREAS the Consent Parties agree that the Consent Judgment promotes judicial
economy, protects the limited resources of the Consent Parties, and resolves Plaintiffs’ claims
regarding the 2020 elections against the Executive Branch Defendants;
WHEREAS Plaintiffs agree to a waiver to any entitlement to damages and fees,
including attorneys’ fees, expenses, and costs against the Executive Defendants with respect to
any and all claims raised by Plaintiffs in this action relating to the 2020 elections;
WHEREAS it is the finding of this Court, made on the pleadings and upon agreement of
the Consent Parties, that: (i) the terms of this Consent Judgment constitute a fair and equitable
settlement of the issues raised with respect to the 2020 elections, and (ii) the Consent Judgment
is intended to and does resolve Plaintiffs’ claims;

11
App. 119

NOW, THEREFORE, upon consent of the Consent Parties, in consideration of the
mutual promises and recitals contained in this Stipulation and Consent Judgment, including
relinquishment of certain legal rights, the Consent Parties agree as follows:
II.
JURISDICTION AND VENUE
This Court has jurisdiction over the subject matter of this action pursuant to Article 26 of
Chapter 1 of the General Statutes, N.C. Gen. Stat. § 7A-245(a)(2), and N.C. Gen. Stat. § 1-493,
and has jurisdiction over the Consent Parties herein. Venue for this action is proper in Wake
County Superior Court because the Executive Defendants reside in Wake County. Id. § 1-82.
The Court shall retain jurisdiction of this Stipulation and Consent Judgment for the duration of
the term of this Stipulation and Consent Judgment for purposes of entering all orders and
judgments that may be necessary to implement and enforce compliance with the terms provided
herein.
III.
PARTIES
This Stipulation and Consent Judgment applies to and is binding upon the following
parties:
A.

Damon Circosta, in his capacity as Chair of the North Carolina State Board of

Elections;
B.

The North Carolina State Board of Elections; and

C.

All Plaintiffs.
IV.
SCOPE OF CONSENT JUDGMENT

12
App. 120

A.

This Stipulation and Consent Judgment constitutes a settlement and resolution of

Plaintiffs’ claims against Executive Defendants pending in this Lawsuit. Plaintiffs recognize that
by signing this Stipulation and Consent Judgment, they are releasing any claims under the North
Carolina Constitution that they might have against Executive Defendants with respect to the
Challenged Provisions in the 2020 elections. Plaintiffs’ release of claims will become final upon
the effective date of this Stipulation and Consent Judgment.
B.

The Consent Parties to this Stipulation and Consent Judgment acknowledge that

this does not resolve or purport to resolve any claims pertaining to the constitutionality or
enforcement of the Challenged Provisions for elections held after the 2020 elections.
C.

The Consent Parties to this Stipulation and Consent Judgment further

acknowledge that by signing this Stipulation and Consent Judgment, the Consent Parties do not
release or waive the following: (i) any rights, claims, or defenses that are based on any events
that occur after they sign this Stipulation and Consent Judgment, (ii) any claims or defenses that
are unrelated to the allegations filed by Plaintiffs in this Lawsuit, and (iii) any right to institute
legal action for the purpose of enforcing this Stipulation and Consent Judgment or defenses
thereto.
D.

By entering this Stipulation and Consent Judgment, Plaintiffs are fully settling a

disputed matter between themselves and Executive Defendants. The Consent Parties are entering
this Stipulation and Consent Judgment for the purpose of resolving disputed claims, avoiding the
burdens and costs associated with the costs of litigating this matter through final judgment, and
ensuring both safety and certainty in advance of the 2020 elections. Nothing in this Stipulation
and Consent Judgment constitutes an admission by any party of liability or wrongdoing. The
Consent Parties acknowledge that a court may seek to consider this Stipulation and Consent

13
App. 121

Judgment, including the violations alleged in Plaintiffs’ Amended Complaint, in a future
proceeding distinct from this Lawsuit.
V.
CONSENT JUDGMENT OBJECTIVES
In addition to settling the claims of the Consent Parties, the objective of this Stipulation
and Consent Judgment is to avoid any continued uncertainty and distraction from the uniform
administration of the 2020 elections, protect the limited resources of the Consent Parties, ensure
that North Carolina voters can safely and constitutionally exercise the franchise in the 2020
elections, and ensure that election officials have sufficient time to implement any changes for the
2020 elections and educate voters about these changes.
VI.
INJUNCTIVE RELIEF
ACCORDINGLY, IT IS HEREBY ORDERED, ADJUDGED, AND JUDGED FOR
THE REASONS STATED ABOVE THAT:
A.

For the 2020 elections Executive Defendants shall extend the Receipt Deadline

for mailed absentee ballots, as set forth in N.C. Gen. Stat. § 163-231(b)(2), to the deadline set
forth in paragraph VI.B below and in Numbered Memo 2020-22 (attached as Exhibit A).
B.

Pursuant to Numbered Memo 2020-22, an absentee ballot shall be counted as

timely in the 2020 elections if it is either (1) received by the county board by 5:00 p.m. on
Election Day; or (2) the ballot is postmarked on or before Election Day and received by nine
days after the election, which is Thursday, November 12, 2020 at 5:00 p.m. For purposes of this
Stipulation and Consent Judgment and as the Numbered Memo requires, a ballot shall be
considered postmarked on or before Election Day if it has a postmark affixed to it or if there is
information in the Postal Service tracking system (BallotTrax), or another tracking service

14
App. 122

offered by the Postal Service or the commercial carrier, indicating that the ballot was in the
custody of the Postal Service or a commercial carrier on or before Election Day.
C.

For the 2020 elections, Executive Defendants shall institute a process to cure

deficiencies that may be cured with a certification from the voter in accordance with the
procedures set forth in Numbered Memo 2020-19 (attached as Exhibit B). Curable deficiencies
include: no voter signature, misplaced voter signature, no witness or assistant name, no witness
or assistant address, no witness or assistant signature, and misplaced witness or assistant
signature. If a county board office receives a container-return envelope with such a curable
deficiency, it shall contact the voter in writing by mail and, if available, email, within one
business day of identifying the deficiency, informing the voter that there is an issue with their
absentee ballot and enclosing a cure certification. The written notice shall be sent to the address
to which the voter requested their ballot be sent. The cure certification must be received by the
county board of elections by no later than 5 p.m. on Thursday, November 12, 2020, the day
before county canvass. The cure certification may be submitted to the county board office by fax,
email, in person, or by mail or commercial carrier.
D.

Pursuant to Numbered Memo 2020-23, (attached as Exhibit C) Executive

Defendants shall institute a process for establishing a separate absentee ballot drop-off station at
each one-stop early voting location and at county board offices. Such drop-off stations may be
located outdoors subject to the conditions set forth in Numbered Memo 2020-23. In addition,
when a person returns a ballot in person, the county board intake staffer shall ask the person for
their name and whether they are the voter or the voter’s near relative or legal guardian. The
staffer will indicate this information on a log along with the CIV number of the ballot and the
date that it was received. If the person returning the ballot in person indicates that they are not

15
App. 123

the voter or the voter’s near relative or legal guardian, the county board intake staffer will also
require the person to provide their address and phone number.
E.

Executive Defendants shall take additional reasonable steps to inform the public

of the contents of Numbered Memos 2020-19, -22, -23 and shall encourage all county boards of
elections to do the same.
F.

Plaintiffs will withdraw their Motion for Preliminary Injunction, filed on August

18, 2020, and will not file any further motions for relief for the 2020 elections based on the
claims raised in their Amended Complaint of August 18, 2020.
G.

In accordance with the terms of this Stipulation and Consent Judgment, the

Consent Parties shall each bear their own fees, expenses, and costs incurred as of the date of this
Order with respect to this lawsuit.
H.

All remaining claims filed by Plaintiffs against the Executive Defendants related

to the conduct of the 2020 elections in this action are hereby dismissed with prejudice. The Court
will retain jurisdiction of these claims only as to enforcement of the Stipulation and Consent
Judgment.
VII.
ENFORCEMENT AND RESERVATION OF REMEDIES
The parties to this Stipulation and Consent Judgment may request relief from this Court if
issues arise concerning the interpretation of this Stipulation and Consent Judgment that cannot be
resolved through the process described below. This Court specifically retains continuing
jurisdiction over the subject matter hereof and the Consent Parties hereto for the purposes of
interpreting, enforcing, or modifying the terms of this Stipulation and Consent Judgment, or for
granting any other relief not inconsistent with the terms of this Consent Judgment, until this
Consent Judgment is terminated. The Consent Parties may apply to this Court for any orders or

16
App. 124

other relief necessary to construe or effectuate this Stipulation and Consent Judgment or seek
informal conferences for direction as may be appropriate. The Consent Parties shall attempt to
meet and confer regarding any dispute prior to seeking relief from the Court.
If any Party believes that another has not complied with the requirements of this
Stipulation and Consent Judgment, it shall notify the other Party of its noncompliance by
emailing the Party’s counsel. Notice shall be given at least one business day prior to initiating
any action or filing any motion with the Court.
The Consent Parties specifically reserve their right to seek recovery of their litigation
costs and expenses arising from any violation of this Stipulation and Consent Judgment that
requires any Party to file a motion with this Court for enforcement of this Stipulation and
Consent Judgment.
VIII.
GENERAL TERMS
A.

Voluntary Agreement. The Consent Parties acknowledge that no person has

exerted undue pressure on them to enter into this Stipulation and Consent Judgment. Every Party
is voluntarily choosing to enter into this Stipulation and Consent Judgment because of the
benefits that are provided under the agreement. The Consent Parties acknowledge that they have
read and understand the terms of this Stipulation and Consent Judgment; they have been
represented by legal counsel or had the opportunity to obtain legal counsel; and they are
voluntarily entering into this Stipulation and Consent Judgment to resolve the dispute among
them.
B.

Severability. The provisions of this Stipulation and Consent Judgment shall be

severable, and, should any provisions be declared by a court of competent jurisdiction to be

17
App. 125

unenforceable, the remaining provisions of this Stipulation and Consent Judgment shall remain
in full force and effect.
C.

Agreement. This Stipulation and Consent Judgment is binding. The Consent

Parties acknowledge that they have been advised that (i) no other Party has a duty to protect their
interest or provide them with information about their legal rights, (ii) signing this Stipulation and
Consent Judgment may adversely affect their legal rights, and (iii) they should consult an
attorney before signing this Stipulation and Consent Judgment if they are uncertain of their
rights.
D.

Entire Agreement. This Stipulation and Consent Judgment constitutes the entire

agreement between the Consent Parties relating to the constitutionality and enforcement of the
Challenged Provisions as they pertain to the 2020 elections. No Party has relied upon any
statements, promises, or representations that are not stated in this document. No changes to this
Stipulation and Consent Judgment are valid unless they are in writing, identified as an
amendment to this Stipulation and Consent Judgment, and signed by all Parties. There are no
inducements or representations leading to the execution of this Stipulation and Consent
Judgment except as herein explicitly contained.
E.

Warranty. The persons signing this Stipulation and Consent Judgment warrant

that they have full authority to enter this Stipulation and Consent Judgment on behalf of the Party
each represents, and that this Stipulation and Consent Judgment is valid and enforceable as to
that Party.
F.

Counterparts. This Stipulation and Consent Judgment may be executed in

multiple counterparts, which shall be construed together as if one instrument. Any Party shall be
entitled to rely on an electronic or facsimile copy of a signature as if it were an original.

18
App. 126

G.

Effective Date. This Stipulation and Consent Judgment is effective upon the date

it is entered by the Court.
IX.
TERMINATION
This Stipulation and Consent Judgment shall remain in effect through the certification of
ballots for the 2020 elections. The Court shall retain jurisdiction to enforce the terms of the
Consent Judgment for the duration of this Consent Judgment. This Court’s jurisdiction over this
Stipulation and Consent Judgment shall automatically terminate after the certification of all
ballots for the 2020 elections.
THE PARTIES ENTER INTO AND APPROVE THIS STIPULATION AND CONSENT
JUDGMENT AND SUBMIT IT TO THE COURT SO THAT IT MAY BE APPROVED
AND ENTERED. THE PARTIES HAVE CAUSED THIS STIPULATION AND
CONSENT JUDGMENT TO BE SIGNED ON THE DATES OPPOSITE THEIR
SIGNATURES.

19
App. 127

NORTH CAROLINA STATE BOARD OF
ELECTIONS; and DAMON CIRCOSTA
CHAIR, NORTH CAROLINA STATE BOARD OF
ELECTIONS
Dated: September 22, 2020

By: /s/ Alexander McC. Peters
Alexander McC. Peters, N.C. Bar No. 13654
Terrance Steed
North Carolina Dept. of Justice
Post Office Box 629
Raleigh, N.C. 27602
apeters@ncdoj.gov
tsteed@ncdoj.gov
NORTH CAROLINA ALLIANCE FOR RETIRED
AMERICANS; BARKER FOWLER; BECKY
JOHNSON; JADE JUREK; ROSALYN
KOCIEMBA; TOM KOCIEMBA; SANDRA
MALONE; and CAREN RABINOWITZ

Dated: September 22, 2020

By:
Burton Craige, NC Bar No. 9180
Narendra K. Ghosh, NC Bar No. 37649
Paul E. Smith, NC Bar No. 45014
PATTERSON HARKAVY LLP
100 Europa Drive, Suite 420
Chapel Hill, NC 27517
Telephone: 919.942.5200
BCraige@pathlaw.com
NGhosh@pathlaw.com
PSmith@pathlaw.com
Marc E. Elias
Uzoma N. Nkwonta
Lalitha D. Madduri
Jyoti Jasrasaria
Ariel B. Glickman
PERKINS COIE LLP
700 Thirteenth Street, N.W., Suite 800
Washington, DC 20005
Telephone: 202.654.6200
Facsimile: 202.654.6211
MElias@perkinscoie.com
UNkwonta@perkinscoie.com
LMadduri@perkinscoie.com
JJasrasaria@perkinscoie.com
AGlickman@perkinscoie.com
20
App.
128 Mitchell
Molly
PERKINS COIE LLP

IT IS SO ORDERED. JUDGMENT SHALL BE ENTERED IN ACCORDANCE WITH
THE FOREGOING CONSENT JUDGMENT.

Dated: _____________________

______________________________
Superior Court Judge

21
App. 129

EXHIBIT A

App. 130

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611

^

( vOTE N O R T H C A R O L I N A
Tjjy S T A T E B O A R D O F E L E C T I O N S
\

(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-22
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Return Deadline for Mailed Civilian Absentee Ballots in 2020

DATE:

September 22, 2020

The purpose of this numbered memo is to extend the return deadline for postmarked civilian absentee ballots that are returned by mail and to define the term “postmark.” This numbered memo
only applies to remaining elections in 2020.

Extension of Deadline
Due to current delays with mail sent with the U.S. Postal Service (USPS)—delays which may be
exacerbated by the large number of absentee ballots being requested this election—the deadline
for receipt of postmarked civilian absentee ballots is hereby extended to nine days after the election
only for remaining elections in 2020.
An absentee ballot shall be counted as timely if it is either (1) received by the county board
by 5:00 p.m. on Election Day; or (2) the ballot is postmarked on or before Election Day and
received by nine days after the election, which is Thursday, November 12, 2020 at 5:00 p.m.1

Postmark Requirement
The postmark requirement for ballots received after Election Day is in place to prohibit a voter
from learning the outcome of an election and then casting their ballot. However, the USPS does
not always affix a postmark to a ballot return envelope. Because the agency now offers BallotTrax,
a service that allows voters and county boards to track the status of a voter’s absentee ballot, it is
possible for county boards to determine when a ballot was mailed even if it does not have a postmark. Further, commercial carriers including DHL, FedEx, and UPS offer tracking services that
allow voters and the county boards of elections to determine when a ballot was deposited with the
commercial carrier for delivery.

1

Compare G.S. § 163-231(b)(2)(b) (that a postmarked absentee ballot be received by three days
after the election).

App. 131

For remaining elections in 2020, a ballot shall be considered postmarked by Election Day if
it has a postmark affixed to it or if there is information in BallotTrax, or another tracking
service offered by the USPS or a commercial carrier, indicating that the ballot was in the
custody of USPS or the commercial carrier on or before Election Day. If a container-return
envelope arrives after Election Day and does not have a postmark, county board staff shall conduct
research to determine whether there is information in BallotTrax that indicates the date it was in
the custody of the USPS. If the container-return envelope arrives in an outer mailing envelope
with a tracking number after Election Day, county board staff shall conduct research with the
USPS or commercial carrier to determine the date it was in the custody of USPS or the commercial
carrier.

2
App. 132

EXHIBIT B

App. 133

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611

^

( vOTE N O R T H C A R O L I N A
Tjjy S T A T E B O A R D O F E L E C T I O N S
\

(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-19
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Absentee Container-Return Envelope Deficiencies

DATE:

August 21, 2020 (revised on September 22, 2020)

County boards of elections have already experienced an unprecedented number of voters seeking
to vote absentee-by-mail in the 2020 General Election, making statewide uniformity and consistency in reviewing and processing these ballots more essential than ever. County boards of
elections must ensure that the votes of all eligible voters are counted using the same standards,
regardless of the county in which the voter resides.
This numbered memo directs the procedure county boards must use to address deficiencies in absentee ballots. The purpose of this numbered memo is to ensure that a voter is provided every
opportunity to correct certain deficiencies, while at the same time recognizing that processes must
be manageable for county boards of elections to timely complete required tasks. 1

1. No Signature Verification
The voter’s signature on the envelope shall not be compared with the voter’s signature on file because this is not required by North Carolina law. County boards shall accept the voter’s signature on the container-return envelope if it appears to be made by the voter, meaning the signature
on the envelope appears to be the name of the voter and not some other person. Absent clear evidence to the contrary, the county board shall presume that the voter’s signature is that of the
voter, even if the signature is illegible. A voter may sign their signature or make their mark.

1

This numbered memo is issued pursuant to the State Board of Elections’ general supervisory
authority over elections as set forth in G.S. § 163-22(a) and the authority of the Executive Director in G.S. § 163-26. As part of its supervisory authority, the State Board is empowered to “compel observance” by county boards of election laws and procedures. Id., § 163-22(c).

App. 134

The law does not require that the voter’s signature on the envelope be compared with the voter’s
signature in their registration record. See also Numbered Memo 2020-15, which explains that
signature comparison is not permissible for absentee request forms.

2. Types of Deficiencies
Trained county board staff shall review each executed container-return envelope the office receives to determine if there are any deficiencies. County board staff shall, to the extent possible,
regularly review container-return envelopes on each business day, to ensure that voters have every
opportunity to correct deficiencies. Review of the container-return envelope for deficiencies occurs after intake. The initial review is conducted by staff to expedite processing of the envelopes.
Deficiencies fall into two main categories: those that can be cured with a certification and those
that cannot be cured. If a deficiency cannot be cured, the ballot must be spoiled and a new ballot
must be issued, as long as the ballot is issued before Election Day. See Section 3 of this memo,
Voter Notification.

2.1. Deficiencies Curable with a Certification (Civilian and UOCAVA)
The following deficiencies can be cured by sending the voter a certification:
•
•
•
•
•
•

Voter did not sign the Voter Certification
Voter signed in the wrong place
Witness or assistant did not print name 2
Witness or assistant did not print address 3
Witness or assistant did not sign
Witness or assistant signed on the wrong line

2

If the name is readable and on the correct line, even if it is written in cursive script, for example, it does not invalidate the container-return envelope.
3

Failure to list a witness’s ZIP code does not require a cure. G.S. § 163-231(a)(5). A witness or
assistant’s address does not have to be a residential address; it may be a post office box or other
mailing address. Additionally, if the address is missing a city or state, but the county board of
elections can determine the correct address, the failure to list that information also does not invalidate the container-return envelope. For example, if a witness lists “Raleigh 27603” you can
determine the state is NC, or if a witness lists “333 North Main Street, 27701” you can determine
that the city/state is Durham, NC. If both the city and ZIP code are missing, staff will need to
determine whether the correct address can be identified. If the correct address cannot be identified, the envelope shall be considered deficient and the county board shall send the voter the cure
certification in accordance with Section 3.
2
App. 135

This cure certification process applies to both civilian and UOCAVA voters.

2.2. Deficiencies that Require the Ballot to Be Spoiled (Civilian)
The following deficiencies cannot be cured by certification:
•
•

Upon arrival at the county board office, the envelope is unsealed
The envelope indicates the voter is requesting a replacement ballot

If a county board receives a container-return envelope with one of these deficiencies, county board
staff shall spoil the ballot and reissue a ballot along with a notice explaining the county board
office’s action, in accordance with Section 3.

2.3. Deficiencies that require board action
Some deficiencies cannot be resolved by staff and require action by the county board. These include situations where the deficiency is first noticed at a board meeting or if it becomes apparent
during a board meeting that no ballot or more than one ballot is in the container-return envelope.
If the county board disapproves a container-return envelope by majority vote in a board meeting
due to a deficiency, it shall proceed according to the notification process outlined in Section 3.

3. Voter Notification
3.1. Issuance of a Cure Certification or New Ballot
If there are any deficiencies with the absentee envelope, the county board of elections shall contact
the voter in writing within one business day of identifying the deficiency to inform the voter there
is an issue with their absentee ballot and enclosing a cure certification or new ballot, as directed
by Section 2. The written notice shall also include information on how to vote in-person during
the early voting period and on Election Day.
The written notice shall be sent to the address to which the voter requested their ballot be sent.
If the deficiency can be cured and the voter has an email address on file, the county board shall
also send the cure certification to the voter by email. If the county board sends a cure certification
by email and by mail, the county board should encourage the voter to only return one of the certifications. If the voter did not provide an email address but did provide a phone number, the county
board shall contact the voter by phone to inform the voter that the county board has mailed the
voter a cure certification.
If the deficiency cannot be cured, and the voter has an email address on file, the county board shall
notify the voter by email that a new ballot has been issued to the voter. If the voter did not provide
an email address but did provide a phone number, the county board shall contact the voter by phone
to inform the voter that the county board has issued a new ballot by mail.

3
App. 136

If, prior to September 22, 2020, a county board reissued a ballot to a voter, and the updated memo
now allows the deficiency to be cured by certification, the county board shall contact the voter in
writing and by phone or email, if available, to explain that the procedure has changed and that the
voter now has the option to submit a cure certification instead of a new ballot. A county board is
not required to send a cure certification to a voter who already returned their second ballot if the
second ballot is not deficient.
A county board shall not reissue a ballot on or after Election Day. If there is a curable deficiency,
the county board shall contact voters up until the day before county canvass.

3.2. Receipt of a Cure Certification
The cure certification must be received by the county board of elections by no later than 5 p.m. on
Thursday, November 12, 2020, the day before county canvass. The cure certification may be
submitted to the county board office by fax, email, in person, or by mail or commercial carrier. If
a voter appears in person at the county board office, they may also be given, and can complete, a
new cure certification.
The cure certification may only be returned by the voter, the voter’s near relative or legal guardian,
or a multipartisan assistance team (MAT). A cure certification returned by any other person is
invalid. It is not permissible for a cure certification to be submitted through a portal or form created
or maintained by a third party. A cure certification may not be submitted simultaneously with the
ballot. Any person who is permitted to assist a voter with their ballot may assist a voter in filling
out the cure certification.

3.3 County Board Review of a Cure Certification
At each absentee board meeting, the county board of elections may consider deficient ballot return
envelopes for which the cure certification has been returned. The county board shall consider together the executed absentee ballot envelope and the cure certification. If the cure certification
contains the voter’s name and signature, the county board of elections shall approve the absentee
ballot. A wet ink signature is not required, but the signature used must be unique to the individual.
A typed signature is not acceptable, even if it is cursive or italics such as is commonly seen with a
program such as DocuSign.

4. Late Absentee Ballots
Voters whose ballots are not counted due to being late shall be mailed a notice stating the reason
for the deficiency. A late civilian ballot is one that received after the absentee-ballot receipt deadline, defined in Numbered Memo 2020-22 as (1) 5 p.m. on Election Day or (2) if postmarked on
or before Election Day, 5 p.m. on Thursday, November 12, 2020. Late absentee ballots are not
curable.
If a ballot is received after county canvass the county board is not required to notify the voter.
4
App. 137

COUNTY LETTERHEAD

DATE

NAME
STREET ADDRESS
CITY, STATE, ZIP CODE
RE:

Notice of a Problem with Your Absentee Ballot

The [County] Board of Elections received your returned absentee ballot. We were unable to approve the counting of your
absentee ballot for the following reason or reasons:
☐

The absentee return envelope arrived at the county board of elections office unsealed.

☐

The absentee return envelope did not contain a ballot or contained the ballots of more
than one voter.

☐

Other:
________________________________________________________________________

We have reissued a new absentee ballot. Please pay careful attention to ALL of the instructions on the back of the
container-return envelope and complete and return your ballot so that your vote may be counted.
If time permits and you decide not to vote this reissued absentee ballot, you may vote in person at an early voting site in
the county during the one-stop early voting period (October 15-31), or at the polling place of your proper precinct on
Election Day, November 3. The hours for voting on Election Day are from 6:30 a.m. to 7:30 p.m. To find the hours and
locations for in-person voting in your county, visit http://www.ncsbe.gov .
31TU

U31T

Sincerely,
[NAME]
__________ County Board of Elections

App. 138

COUNTY LETTERHEAD
DATE
VOTER’S NAME
STREET ADDRESS
CITY, STATE, ZIP CODE
CIV Number
Absentee Cure Certification
There is a problem with your absentee ballot – please sign and return this form.

U

Instructions
You are receiving this affidavit because your absentee ballot envelope is missing information. For your absentee
ballot to be counted, complete and return this affidavit as soon as possible. The affidavit must be received by
your county board of elections by no later than 5 p.m. on Thursday, November 12, 2020. You, your near
relative or legal guardian, or a multipartisan assistance team (MAT), can return the affidavit by:
•
•
•
•

Email (add county email address if not in letterhead) (you can email a picture of the form)
Fax (add county fax number if not in letterhead)
Delivering it in person to the county board of elections office
Mail or commercial carrier (add county mailing address)

If this affidavit is not returned to the county board of elections by the deadline, your absentee ballot will
not count. If you decide not to return this affidavit, you may still vote in person during the early voting
period (October 15-October 31) or on Election Day, November 3, 2020. To find the hours and locations for
in-person voting in your county, visit http://www.ncsbe.gov .
U

U

31T U

U31T

READ AND COMPLETE THE FOLLOWING:
I am submitting this affidavit to correct a problem with missing information on the ballot envelope. I am an
eligible voter in this election and registered to vote in [name] County, North Carolina. I solemnly swear or affirm
that I voted and returned my absentee ballot for the November 3, 2020 general election and that I have not voted
and will not vote more than one ballot in this election. I understand that fraudulently or falsely completing this
affidavit is a Class I felony under Chapter 163 of the North Carolina General Statutes.
(Print name and sign below)
________________________________________________
Voter’s Printed Name (Required)
_________________________________________________
Voter’s Signature* (Required)

* A wet ink signature is not required, but the signature used must be unique to the individual. A typed signature is not
acceptable, even if it is in cursive or italics such as is commonly seen with a program such as DocuSign.

App. 139

EXHIBIT C

App. 140

Mailing Address:

^

( vOTE N O R T H C A R O L I N A
Tjjy S T A T E B O A R D O F E L E C T I O N S
\

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-23
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

In-Person Return of Absentee Ballots

DATE:

September 22, 2020

Absentee by mail voters may choose to return their ballot by mail or in person. Voters who return
their ballot in person may return it to the county board of elections office by 5 p.m. on Election
Day or to any one-stop early voting site in the county during the one-stop early voting period. This
numbered memo provides guidance and recommendations for the safe, secure, and controlled inperson return of absentee ballots.

General Information
Who May Return a Ballot
A significant portion of voters are choosing to return their absentee ballots in person for this election. Only the voter, or the voter’s near relative or legal guardian, is permitted to possess an absentee ballot. 1 A multipartisan assistance team (MAT) or a third party may not take possession of
an absentee ballot. Because of this provision in the law, an absentee ballot may not be left in
an unmanned drop box.
The county board shall ensure that, if they have a drop box, slot, or similar container at their office,
the container has a sign indicating that absentee ballots may not be deposited in it.

Intake of Container-Return Envelope
As outlined in Numbered Memo 2020-19, trained county board staff review each container-return envelope to determine if there are any deficiencies. Review of the container-return envelope

1

It is a class I felony for any person other than the voter’s near relative or legal guardian to take
possession of an absentee ballot of another voter for delivery or for return to a county board of
elections. G.S. § 163-223.6(a)(5).

App. 141

does not occur at intake. Therefore, the staff member conducting intake should not conduct a review of the container envelope and should accept the ballot. If intake staff receive questions
about whether the ballot is acceptable, they shall inform the voter that it will be reviewed at a
later time and the voter will be contacted if there are any issues. Intake staff shall accept receipt
of all ballots provided to them, even if information is missing or someone other than the voter or
their near relative or legal guardian returns the ballot.
It is not recommended that county board staff serve as a witness for a voter while on duty. If a
county board determines that it will allow staff to serve as a witness, the staff member who is a
witness shall be one who is not involved in the review of absentee ballot envelopes.

Log Requirement
An administrative rule requires county boards to keep a written log when any person returns an
absentee ballot in person. 2 However, to limit the spread of COVID-19, the written log requirement has been adjusted for remaining elections in 2020.
When a person returns the ballot in person, the intake staff will ask the person for their name and
whether they are the voter or the voter’s near relative or legal guardian. The staffer will indicate
this information on a log along with the CIV number of the ballot and the date that it was received.
If the person indicates they are not the voter or the voter’s near relative or legal guardian, the staffer
will also require the person to provide their address and phone number.

Board Consideration of Delivery and Log Requirements
Failure to comply with the logging requirement, or delivery of an absentee ballot by a person other
than the voter, the voter’s near relative, or the voter’s legal guardian, is not sufficient evidence in
and of itself to establish that the voter did not lawfully vote their ballot. 3 A county board shall not
disapprove an absentee ballot solely because it was delivered by someone who was not authorized

2

08 NCAC 18 .0102 requires that, upon delivery, the person delivering the ballot shall provide
the following information in writing: (1) Name of voter; (2) Name of person delivering ballot;
(3) Relationship to voter; (4) Phone number (if available) and current address of person delivering ballot; (5) Date and time of delivery of ballot; and (6) Signature or mark of person delivering
ballot certifying that the information provided is true and correct and that the person is the voter
or the voter's near relative.
3

Id. Compare G.S. § 163-230.2(3), as amended by Section 1.3.(a) of Session Law 2019-239,
which states that an absentee request form returned to the county board by someone other than an
unauthorized person is invalid.
2
App. 142

to possess the ballot. The county board may, however, consider the delivery of a ballot in accordance with the rule, 08 NCAC 18 .0102, in conjunction with other evidence in determining whether
the ballot is valid and should be counted.

Return at a County Board Office
A voter may return their absentee ballot to the county board of elections office any time the office
is open. A county board must ensure its office is staffed during regular business hours to allow
for return of absentee ballots. Even if your office is closed to the public, you must provide staff
who are in the office during regular business hours to accept absentee ballots until the end of
Election Day. You are not required to accept absentee ballots outside of regular business hours.
Similar to procedures at the close of polls on Election Day, if an individual is in line at the time
your office closes or at the absentee ballot return deadline (5 p.m. on Election Day), a county board
shall accept receipt of the ballot.
If your site has a mail drop or drop box used for other purposes, you must affix a sign stating that
voters may not place their ballots in the drop box. However, a county board may not disapprove
a ballot solely because it is placed in a drop box. 4
In determining the setup of your office for in-person return of absentee ballots, you should consider
and plan for the following:
•
•
•
•
•

4

Ensure adequate parking, especially if your county board office will be used as a one-stop
site
Arrange sufficient space for long lines and markings for social distancing
Provide signage directing voters to the location to return their absentee ballot
Ensure the security of absentee ballots. Use a locked or securable container for returned
absentee ballots that cannot be readily removed by an unauthorized person.
If your set-up allows the return of ballots outside, plan for the possibility of severe weather.
You may need a tent or other covering. Have a plan for how crowd control will occur
without the physical barriers of an office and the security of your staff and the balloting
materials. For safety reasons, it is not recommended you keep an outside return location
open after dark or during inclement weather.

Id.
3
App. 143

Return at an Early Voting Site
Location to Return Absentee Ballots
Each early voting site shall have at least one designated, staffed station for the return of absentee
ballots. Return of absentee ballots shall occur at that station. The station may be set up exclusively for absentee ballot returns or may provide other services, such as a help desk, provided the
absentee ballots can be accounted for and secured separately from other ballots or processes.
Similar to accepting absentee ballots at the county board of elections office, you should consider
and plan for the following with the setup of an early voting location for in-person return of absentee ballots:
•
•
•
•

Have a plan for how crowd control will occur and how voters will be directed to the appropriate location for in-person return of absentee ballots
Provide signage directing voters and markings for social distancing
Ensure adequate parking and sufficient space for long lines
If your set-up allows the return of ballots outside, plan for the possibility of severe weather.
You may need a tent or other covering. Have a plan for how crowd control will occur
without the physical barriers of an office and the security of your staff and the balloting
materials. For safety reasons, ensure that there is adequate lighting as voting hours will
continue past dark.

Because absentee ballots must be returned to a designated station, absentee ballots should not be
returned in the curbside area.

Procedures
Absentee ballots that are hand-delivered must be placed in a secured container upon receipt, similar to how provisional ballots are securely stored at voting sites. Absentee by mail ballots delivered to an early voting site must be stored separately from all other ballots in a container designated only for absentee by mail ballots. County boards must also conduct regular reconciliation
practices between the log and the absentee ballots. County boards are not required by the State
to log returned ballots into SOSA; however, a county board may require their one-stop staff to
complete SOSA logging.
If a voter brings in an absentee ballot and does not want to vote it, the ballot should be placed in
the spoiled-ballot bag. It is recommended that voters who call the county board office and do not
want to vote their absentee ballot be encouraged to discard the ballot at home.

Return at an Election Site
An absentee ballot may not be returned at an Election Day polling place. If a voter appears in
person with their ballot at a polling place on Election Day, they shall be instructed that they may

4
App. 144

(1) take their ballot to the county board office or mail it so it is postmarked that day and received
by the deadline; or (2) have the absentee ballot spoiled and vote in-person at their polling place.
If someone other than the voter appears with the ballot, they shall be instructed to take it to the
county board office or mail the ballot so it is postmarked the same day. If the person returning
the ballot chooses to mail the ballot, they should be encouraged to take it to a post office to ensure the envelope is postmarked. Depositing the ballot in a USPS drop box on Election Day may
result in ballot not being postmarked by Election Day and therefore not being counted.

5
App. 145

September 23, 2020

Everyone,

Effectively immediately, I hereby submit my resignation to the North Carolina State Board of
Elections.
It has been a great honor for me to serve the people of North Carolina on the board, however I
cannot, in good conscious, continue for the following reasons:
Regarding the settlement agreement with the plaintiffs in the lawsuit filed by the North Carolina
Alliance for Retired Americans against the State Board of Elections, attorneys from AG Josh
Stein’s office did not advise us of the fact that a lot of the concessions made in the settlement
have already been denied in a prior case by a federal judge and another case by a state court
three-judge panel.
Secondly, we were led to believe that refusal to make a deal that included the extension of mailin absentee ballots, past the legal acceptance date, would also result in the elimination of the onewitness requirement for residents voting absentee by mail.
Additionally, we were led to believe the effective administration of the election itself rested upon
a settlement. And if a judicial order were issued as voters cast their ballots, the effective
administration of the election would be impossible.
To preserve the trust of the voters, I acted to keep the one-witness requirement and mitigate the
possibility the election being disrupted by a judicial order by compromising on the acceptance
date of absentee ballots.
It is impossible to have true bipartisanship when both sides of the political aisle do not have the
important and vital information needed to make the right decisions.

Sincerely,

Ken Raymond

App. 146

North Carolina State Board of Elections
PO Box 27255
Raleigh, NC 27611-7255

September 23, 2020

To: Chairman Damon Circosta
Dear Mr. Chairman,
I am submitting my resignation to the State Board of Elections effective immediately. However, I would
like to clarify some of the issues that came before this board and the reason for my decision.
In particular, the recent memo outlining the new absentee ballot “cure” for the witness requirement. It
was not my understanding that the cure would simply mean an affidavit, or cure document, would be
sent to the voter for a confirmation that this ballot was their own. No further information but a
signature by the voter affirming the ballot was theirs would be required. My understanding was the
witness requirement would stay as it is currently with the exception that only one witness signature
would be required. Not only was I taken aback by this but I am sure many county directors will be too.
Many of the new rules for the elections this year have been brought about by lawsuits filed against the
NCBOE and the opinion from the NC Attorney General’s Office that the likelihood of prevailing in court
would be slim. A negotiated settlement would be the best option for our agency to pursue. Part of this
thinking was that if we waited for a 3-panel judge to rule, that the ruling might occur during the voting
period and would cause disruption to the process. Even if that didn’t happen, my thought was that a
ruling might be more detrimental than what could be negotiated.
I also disagreed vehemently with the one-stop requirement equation to determine the number of onestop sites. My argument was that it would lead to higher costs to the county by forcing them to open
additional sites and not relying on the county boards to use their knowledge of their own county voters
in determining how many sites they felt were needed. While waivers were offered by the NCSBOE to
the counties, it was in my view, over-reach by the agency.
It was also misleading by the agency to send out a memo requiring the weekend hours at one-stop sites
requiring a minimum of 10 hours for the one-stop sites to be open. My take on the initial
communication sent to county BOE’s was that implied that Sunday voting be included. This was
amplified by requiring counties that had already submitted plans to re-submit them based on the new
requirements. My protestation to the agency was met with the response that they would be sending
out a memo giving examples for the counties to use that would not included Sunday voting. While that
was done by the agency, in later meetings where non-unanimous county one-site stop sites were
mediated by our Board, it was stated by at least one county that they thought that Sunday voting would
be required. I myself received two phone calls from local board members from separate county boards
asking if Sunday voting was now required.
These are all items I discussed with our Director and offered my opinion.

App. 147

In my time on the board we have:
1) Undertaken the 9th Congressional hearing on the first full day I was appointed to the board
2) Fired Kim Strach, which I voted against
3) Hired Karen Brinson Bell, which I voted against. Note: While I voted against hiring Director
Brinson Bell, I want to commend her for re-organizing the office to operate more efficiently and
improving communication with the county BOE offices, which was goal of mine.
4) Certified new voting equipment which at least allowed more than one vendor to compete.
Hopefully, in the future, by opening competition between vendors will result in better systems
at a competitive price.
5) Dealt with our usual hurricane preparedness but threw in a earthquake for good measure.
6) Lost one chairman (Chairman Cordle) and gained another (Chairman Cirosta).
7) Currently dealing with COVID-19, an unprecedented pandemic that has forced us all to look at
how elections will be conducted for now.
I can only offer that I did my best to act to reach consensus to make sensible decisions while knowing
that the vote most likely would end up 3-2. These recent decisions have made it untenable for me to
remain as member.

Sincerely,
David Black

App. 148

Attorney Work Product
Attorney Client Privileged

^

( vOTE
Tjjy
\

Prepared at the request of the
chair to provide legal counsel
to board members

Bench Memo
Tuesday, September 15, 2020
3 p.m. meeting

This will be a remote meeting using Cisco Webex. For the open session,
you should have received an invitation with access for the meeting. You
will need to have a microphone on your computer to participate. You can
also
join
using
the
following
link:
https://ncgov.webex.com/ncgov/onstage/g.php?MTID=ed32d939d1696fb9
345eed16a5363b108.
For the closed session, you should have received a second Cisco Webex
invitation. When it is time for the closed session, fully close out of the
open session and then log into the closed session. You can also access the
meeting
using
the
following
link:
https://ncgov.webex.com/ncgov/j.php?MTID=m7d2d355882525d07dfc63c
af5af160fe
Meeting number: 171 884 6487
Password: g3DGu3735cm
Please contact Katelyn (864-357-3335) if there are any issues.
A copy of the meeting notice and tentative agenda, as well as a link to the
documents, is available here.

Statement Regarding Ethics and
Conflict of Interest

Authority
G.S. § 138A-15(e)
(e)
At the beginning of any meeting of a board, the chair shall
remind all members of their duty to avoid conflicts of interest under this
1
App. 149

Attorney Work Product
Attorney Client Privileged

^

( vOTE
Tjjy
\

Prepared at the request of the
chair to provide legal counsel
to board members

Subchapter. The chair also shall inquire as to whether there is any
known conflict of interest with respect to any matters coming before the
board at that time.

Counsel Note
Counsel has not been informed of any conflict in advance of this meeting.
Suggested Statement {Chair}

In accordance with the State Government Ethics Act, it is the duty of
every Board member to avoid both conflicts of interest and the
appearance of a conflict.
Does any Board member have any known conflict of interest or any
appearance of a conflict with respect to any matters coming before the
Board today? If so, please identify the conflict or appearance of conflict
and refrain from any undue participation in the particular matter.

Approval of Prior Meeting Minutes

Materials
August 31, 2020 Open Session Meeting Minutes (draft)
August 31, 2020 Closed Session Meeting Minutes (attached to email)

Authority
G.S. § 143-318.10(e) (relevant portion)
(e)
Every public body shall keep full and accurate minutes of all
official meetings, including any closed sessions held pursuant to G.S.
143-318.11. Such minutes may be in written form or, at the option of
the public body, may be in the form of sound or video and sound
recordings. …
Draft Motion

I move that we approve the State Board’s open and closed session
meeting minutes of August 31, 2020.
2
App. 150

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

{ VOTE ) N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

Roll Call Vote

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

Appointment to Vacancies on
County Boards of Elections

Materials
Applications are available upon request (Bertie applications attached to
email)
Authority
G.S. § 163-30(d) (relevant portion)
Whenever a vacancy occurs in the membership of a county board of
elections for any cause the State chair of the political party of the
vacating member shall have the right to recommend two registered
voters of the affected county for such office, and it shall be the duty of
the State Board to fill the vacancy from the names thus recommended.
Summary
We have received nominations from the Democratic Party as follows:
• McDowell County
1. Michelle Wilson Price (Class 3 misdemeanor 20 years ago; no
conflict indicated)
2. Harriet Allen Rockett (no conflict indicated)
• Nash County
1. Brenda Johnson Foster (no conflict indicated)
2. Dr. Cassandra Stroud Conover (no conflict indicated)
We have received nominations from the Republican Party as follows:
• Person County
1. David Harris Minshall (no conflict indicated)
3
App. 151

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

( tfOTE|N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

2. Grace Anne Mattson (no conflict indicated)
Suggested Motion

I move that the State Board appoint ________ to the ________ County
Board of Elections
Roll Call Vote

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

Closed Session

Authority
§ 143-318.11. Closed sessions.
(a) Permitted Purposes. - It is the policy of this State that closed
sessions shall be held only when required to permit a public body to act
in the public interest as permitted in this section. A public body may
hold a closed session and exclude the public only when a closed session
is required:
…
(3) To consult with an attorney employed or retained by the public
body in order to preserve the attorney-client privilege between the
attorney and the public body, which privilege is hereby
acknowledged. General policy matters may not be discussed in a
closed session and nothing herein shall be construed to permit a
public body to close a meeting that otherwise would be open
merely because an attorney employed or retained by the public
body is a participant. The public body may consider and give
instructions to an attorney concerning the handling or settlement
of a claim, judicial action, mediation, arbitration, or
administrative procedure. If the public body has approved or
considered a settlement, other than a malpractice settlement by or
on behalf of a hospital, in closed session, the terms of that
settlement shall be reported to the public body and entered into its
4
App. 152

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

( tfOTE|N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

minutes as soon as possible within a reasonable time after the
settlement is concluded.
…
(c)
Calling a Closed Session. - A public body may hold a closed
session only upon a motion duly made and adopted at an open meeting.
Every motion to close a meeting shall cite one or more of the permissible
purposes listed in subsection (a) of this section. A motion based on
subdivision (a)(1) of this section shall also state the name or citation of
the law that renders the information to be discussed privileged or
confidential. A motion based on subdivision (a)(3) of this section shall
identify the parties in each existing lawsuit concerning which the public
body expects to receive advice during the closed session.
Counsel Note
As background for the closed session, there are 8 cases to be discussed
in relation to possible settlement:
• Democracy North Carolina v. State Board of Elections
1. A federal district court judge entered a preliminary
injunction that requires a cure process for deficient absentee
ballots and that allows one named plaintiff to receive help
from a nursing home employee. The judge denied all of
plaintiff’s other requests
2. Plaintiffs and the State Board have asked the judge to
reconsider denial of the injunction to allow nursing home
employees to assist voters due to the visitation restrictions
subsequently issued by DHHS.
3. This was the only lawsuit where plaintiffs sought to allow
contactless drop boxes for in person return of absentee
ballots. The judge denied this request.
• Chambers v. North Carolina
1. A three-judge panel of the Wake County Superior Court
unanimously denied the preliminary injunction motion,
thereby declining to enjoin the witness requirement.
• Taliaferro v. State Board of Elections
1. This case is pending in federal district court in the Eastern
District of North Carolina. It challenges the failure to
5
App. 153

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

( tfOTE|N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

provide a way for blind voters to vote absentee by mail
independently, without depending on another person for
assistance. In its brief, the State Board largely did not
dispute plaintiffs’ claim that the agency has failed to comply
with the ADA and Rehabilitation Act requirements, due to
applicable caselaw in the 4th Circuit. However, we do not
believe it would not be administratively feasible to
implement an accessible option safely for the November
election due cyber security issues with online voting,
changes to SEIMS, and implementing a new software
program.
Marc Elias cases:
• North Carolina Alliance for Retired Americans v. State Board of
Elections
1. Raises challenges to the single witness requirement for
single-person or single-adult households, the postage
requirement, signature matching procedures, and the
prohibitions on who can assist with and deliver an absentee
request form.
2. A hearing on the preliminary injunction (PI) hearing is
scheduled at 9:30 a.m. on September 18 before a single
judge.
• Stringer v. State Board of Elections
1. The complaint raises various constitutional challenges to
absentee voting requirements.
2. There is a hearing scheduled on September 18 but it is not
expected to include the PI motion on this case, because there
is no dispute the case should go to a three-judge panel.
• North Carolina Democratic Party v. State Board of Elections
1. This case was filed in 2019 and challenges various early
voting restrictions. Awaiting appointment of a three-judge
panel.
• Advance North Carolina v. State Board of Elections
1. Challenges restrictions made by Session Law 2019-239 on
who can make an absentee ballot request.
• Democratic Senatorial Campaign Committee v. State Board
6
App. 154

Attorney Work Product
Attorney Client Privileged

^

( vOTE
Tjjy
\

Prepared at the request of the
chair to provide legal counsel
to board members

1. This case was filed last week and challenges the
requirement in Numbered Memo 2020-19 that a voter be
issued a new ballot if the witness did not provide their name,
address, or signature. The memo was issued to implement
the injunction in the Democracy NC case.

The Department of Justice has recommended several areas for
settlement in litigation against the State Board. In addition to their
memo, board members may wish to consider the following information:
Absentee Ballot Return Deadline
• State law requires that ballots be postmarked after Election Day.
This requirement is in place to prohibit a voter from learning the
outcome of an election and then casting their ballot. However, we
are aware that the USPS does not postmark all ballots. Ballottrax
now provides county boards and voters with status updates to
track ballots in the mail stream. If a ballot was not postmarked,
this information could be researched in Ballottrax to determine if
there was affirmative information indicating that the ballot was
mailed by Election Day.
• The Post Office continues to state that ballots may take up to a
week to be delivered, but state law only allows ballots to be
accepted that are received three days after the election.
• If the Executive Director’s emergency powers are used to extend
the receipt deadline for ballots, an emergency order requires
consideration of the factors in the rule, which must be calculated
to offset the nature and scope of the disruption, and consultation
with the board. It also requires that there be a disruption to the
election normal schedule for an election to trigger any use of
emergency powers. 08 NCAC 01 .0106. At this time, the executive
director would need to consider whether there enough information
to determine the nature and scope of a potential disruption with
mail service and to determine how long the deadline needed to be
extended for. More specific information may be available closer to
the mail deadline for absentee ballots. For more discussion on the
emergency powers authority, see the section “In Person Return of
Absentee Ballots” below. If this change were made as part of a
7
App. 155

Attorney Work Product
Attorney Client Privileged

^

( vOTE
Tjjy
\

Prepared at the request of the
chair to provide legal counsel
to board members

settlement agreement that was approved by the court, it would
help protect the action from legal attack.
In Person Return of Absentee Ballots
• Voters may return their absentee ballots in person to either the
county board of elections office or a one-stop site. They may not
return them to an Election Day polling place.
• There has been a vast increase in the number of voters who are
returning their absentee ballots in person. Approximately half of
absentee ballots returned in the first week of voting were returned
in person. Using a written log adds several minutes to the time
that a voter must spend returning their ballot in person. Some
county boards are providing drop off locations outside but for
others this is not feasible.
• It is a Class I felony for any person other than the voter or their
near relative or legal guardian take possession of a ballot for
delivery to a voter or for return to a county board of elections.
G.S. § 163-226.3(a)(5).
• In 2018, the State Board adopted a rule that requires logging of
absentee ballots that are returned in person to the county board of
elections office. 08 NCAC 18 .0102. The rule requires that the
person delivery the ballot provide the following information in
writing: (1) Name of voter; (2) Name of person delivering ballot;
(3) Relationship to voter; (4) Phone number (if available) and
current address of person delivering ballot; (5) Date and time of
de-livery of ballot; and (6) Signature or mark of person delivering
ballot certifying that the information provided is true and correct
and that the person is the voter or the voter's near relative.
According to the rule and State Board guidance, failure to comply
with the logging requirement, or delivery of an absentee ballot by
a person other than the voter, the voter’s near relative, or the
voter’s legal guardian, is not sufficient evidence in and of itself to
establish that the voter did not lawfully vote their ballot.
o The rule was adopted in part because of the illegal absentee
ballot activity that took place in Bladen County in 2016.
Previously, policy required that county boards log absentee
ballots that were received in person, but not every county
complied with this and the logs varied somewhat in what
8
App. 156

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

( VOTM N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

was required. The logs that Bladen County used in 2018
were important to the CD9 investigation.
o Keeping a detailed log may allow a county board to
determine if there are patterns with absentee ballots being
returned in person. It also creates a record of who dropped
off the ballot in case there is a need to contact that person
and the voter cannot be reached or does not know the contact
information for that person. Relaxing or eliminating the
written log could lead the public or candidates to question
whether large numbers of ballots were returned illegally and
could result in the filing of post-election litigation and
election protests, ultimately calling into question the results
of the election. Further, the written log is one of the security
measures the State Board has cited to for why absentee
voting is secure.
• By its language, the rule requiring a written log does not apply to
one-stop sites, likely because voters rarely used this option in
prior elections. The rule was previously interpreted as requiring
that all absentee ballots be logged when they were returned in
person, regardless of the location of return. It could be confusing
to voters and county board staff and difficult to justify requiring
logging at a one-stop site but not at a county board office,
especially if the county board office is also a one-stop site.
• Absent a settlement agreement or court order, requiring only
verbal confirmation at a county board office would require an
emergency order because it is too late to change the rule before
the election due to the extended amount of time that rulemaking
takes. Any time the executive director exercises her emergency
powers due to a pandemic-related issue, there is a risk of legal
challenges, because the Rules Review Commission disapproved
the temporary rule that would have clarified that it included a
disease epidemic. Some groups, including the NCGOP, have laid
out legal arguments that the RRC’s disapproval means that the
emergency powers cannot be used for a disruption related to the
pandemic. While counsel believe that the permanent rule’s
language is sufficient, the usage of emergency powers must be
weighed against possible litigation risk, or risk that the
9
App. 157

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

( tfOTE|N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

legislature might act to repeal or further limit the statutory
authorization for the executive director’s emergency powers.
• There is one lawsuit, Democracy NC, that sought to allow
contactless drop boxes for voters to return their absentee ballots.
However, the judge denied this request. Therefore, it is unclear
how or why the State Board would settle a claim about drop boxes
when the judge already denied the claim, and this is not at issue
in any other active lawsuit discussed in this memo. In the
absence of a court order, the executive director would need to
exercise emergency powers to lift the written log requirement at
county board offices.
Witness Requirement
• Following the federal court order in Democracy NC, Numbered
Memo 2020-19 was issued on August 21. It states that a missing
voter signature or a voter signature in the wrong place on the
absentee return envelope can be corrected by the voter signing a
cure affidavit. The memo further provides that missing witness
information (name, address, signature) cannot be cured and if a
ballot is missing this information the county board will spoil the
ballot and issue the voter a new ballot.
• Once absentee ballots started being returned, county boards
provided feedback that some voters were confused by the
highlighting on the witness section. The section the witness is to
complete is grey, but the witness signature box is light yellow, so
some witnesses only signed but did not provide their name and
address. In response, State Board staff began considering
whether witness name and address could be provided by the voter
in a cure affidavit, if the voter knows that information. The law
requires that this information be provided but does not prohibit
the voter from providing it. However, for ballots missing the
witness signature, voters would still be reissued a new ballot,
since the voter cannot sign and attest for the witness. State Board
staff also considered allowing the voter to cure the missing
witness signature by affidavit by having the witness and voter
sign the affidavit; however, this places additional burden on the
voter because the same witness who observed the voter marking
their ballot may no longer be available or the voter may no longer
10
App. 158

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

( VOTM N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

have access to that person. Issuing the voter a new ballot in the
case of a missing witness signature would give the voter the
opportunity to have a different person witness the reissued ballot.
• Last Friday, staff sent county boards of elections an email
instructing them not to send voters any cure affidavits or to spoil
any ballots and reissue a new ballot. County boards were told
that the Numbered Memo 2020-19 was being updated and would
be reissued with updated cure letters by the end of the day.
Because of the board meeting scheduled for Tuesday, the
numbered memo update could not be finalized and therefore
county boards are not currently following up with voters whose
ballots have missing information.
• Numbered Memo 2020-19 states that a county board shall not use
signature verification to compare the voter’s signature on the
absentee envelope with the signature on file for the voter. It
explains: “Verification of the voter’s identity is completed through
the witness requirement.”
• If the witness requirement is allowed to be cured by the voter
submitting an affidavit, consider whether the voter would be
allowed to submit the affidavit simultaneously with the ballot.
And if so, consider how to know that the voter is the person who
voted the absentee ballot or who filled out the cure affidavit. We
are aware, for example, that the NC Democratic Party has created
an online tool to allow a voter to complete and submit the cure
affidavit using an online link.
Other Considerations
Because of the pandemic, the absentee process is under much more
scrutiny this year than it has been previously. Political parties,
advocacy groups, candidates, and the public are closely monitoring how
these processes are carried out and how county boards ensure that all
voters can safely cast their votes in a fair and accurate election. And
the pandemic has led to a number of lawsuits, which have caused
uncertainty for voters and from an election administration standpoint.
When considering a settlement agreement, the board may wish to
consider what the court might order to determine whether settlement is
11
App. 159

Attorney Work Product
Attorney Client Privileged

^

( vOTE
Tjjy
\

Prepared at the request of the
chair to provide legal counsel
to board members

more advantageous. Consider what specifically a court might order,
when it might be ordered, and whether settling now is more favorable,
in light of all factors. Settlement would provide certainty sooner than
waiting for a court order and would give the State Board more control
over what changes were made. The board may also want to consider if
the settlement terms are acceptable and whether it is preferable to
decide now or to await the courts. Additionally, the board may wish to
consider the effect of settlement of several of these issues
simultaneously; for example, if there any compounding effects to the
absentee process if a voter is allowed to cure a missing witness
signature and the log requirement is also relaxed. Also, the legislature
is a party to a number of the cases discussed in this memo and that
they may oppose settlement. The courts have approved settlement
without the legislature’s consent in past cases against other state
entities, so this may not be a barrier.

Finally, one other matter to note is the constitutional and statutory
provisions that give the General Assembly—not the courts—the
authority to determine the outcome of a contested election for Council of
State offices. See Article VI, § 5 of the NC Constitution. Pursuant to
G.S. § 163-182.13A, “contest” means “a challenge to the apparent
election for any elective office established by Article III of the
Constitution [Council of State offices] or to request the decision of an
undecided election to any elective office established by Article III of the
Constitution…” A decision of the General Assembly in determining the
contest of the election is not reviewable by state courts. Legal questions
about how to count out-of-precinct provisional ballots led to the General
Assembly to decide the outcome of the Superintendent of Public
Instruction after the 2004 election. See this article by Bob Joyce for
additional description of the dispute. When the governor’s race was
close in 2016, it was thought that the General Assembly might take
jurisdiction over it, but that did not happen.
Suggested Motion

I move that the State Board go into closed session pursuant to G.S. §
143-318.11(a)(3) to receive legal advice from its attorneys in the
following cases:
12
App. 160

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

{ VOTE ) N O R T H C A R O L I N A
STATE BOARD OF ELECTIONS

North Carolina Democratic Party v. State Board of Elections
Advance North Carolina v. State Board of Elections
Chambers v. North Carolina
Stringer v. State Board of Elections
North Carolina Alliance for Retired Americans v. State Board of
Elections
• Democracy North Carolina v. State Board of Elections
• Taliaferro v. State Board of Elections
• Democratic Senatorial Campaign Committee v. State Board
•
•
•
•
•

Roll Call Vote

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

Delegation of Settlement Authority
to the Executive Director

Authority
§ 163-26. Executive Director of State Board of Elections.
There is hereby created the position of Executive Director of the State
Board, who shall perform all duties imposed by statute and such duties
as may be assigned by the State Board.
Suggested Motion

I move that the State Board delegate settlement authority to its
Executive Director for the following cases: [List cases]
Roll Call Vote

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

13
App. 161

Attorney Work Product
Attorney Client Privileged

Suggested Motion

Prepared at the request of the
chair to provide legal counsel
to board members

{ VOTE ) N O R T H C A R O L I N A

Adjournment

I move that the State Board adjourn.
Roll Call

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

14
App. 162

STATE BOARD OF ELECTIONS

PRIVILEGED & CONFIDENTIAL
ATTORNEY-CLIENT COMMUNICATION
ATTORNEY WORK PRODUCT

MEMORANDUM
From: North Carolina Department of Justice
To:

Members of the North Carolina State Board of Elections

RE:

COVID-19-Related Litigation

The State Board and its members are parties to a multitude of constitutional challenges to
state elections law as applied to the November 2020 general election, which will be held in the
midst of the COVID-19 health crisis. These include multiple cases in both federal and state
courts.
This memo assesses the principal requests for relief sought by the plaintiffs in these
cases, and identifies areas of concern, as well as potential resolution.
The requests for relief generally fall into the following categories:
(1) relaxation of absentee ballot signature verification procedures,
(2) lifting the witness requirement for absentee ballots,
(3) prepaid postage,
(4) extension of the civilian absentee-ballot receipt deadline,
(5) removal of restrictions on assistance with requesting absentee ballots,
(6) removal of restrictions on assistance with returning absentee ballots,
(7) extending early voting,
(8) providing electronic ballots for visually impaired voters,
(9) cure procedures for witness signature requirement on absentee ballots and
(10) implementation of contactless absentee ballot return procedures.
Litigation on these issues remains pending in numerous state and federal courts in North
Carolina. To date, some preliminary rulings have been issued, and while most claims have been
denied, some have been granted. For example, the Department of Justice recently defended the
Board and its members against challenges to the application of the witness requirement, lack of
prepaid postage, restrictions on assistance with absentee-ballot request forms, and restrictions on
assistance with returning absentee ballots. See Democracy North Carolina v. State Board of
Elections, No. 20-cv-457 Dkt. 134 (M.D.N.C. 2020) (denying motion for preliminary injunction
on challenges to multiple requirements, while granting motion as to the availability of a cure
process for absentee ballots and allowing nursing home employees to assist a named plaintiff in
marking, witnessing, and returning his absentee ballot); Chambers v. North Carolina, No. 20

App. 163

PRIVILEGED & CONFIDENTIAL
ATTORNEY-CLIENT COMMUNICATION
ATTORNEY WORK PRODUCT

CVS 500124 (Wake Cty. Sup. Ct. 2020), Order on Injunctive Relief (denying motion for
preliminary injunction on challenge to the application of the witness requirement).
In one case (Taliaferro v. North Carolina State Bd. of Elections (E.D.N.C.)), the law
compelled us to concede that the Board’s current processes do not comply with the Americans
with Disabilities Act and that the plaintiffs are likely to succeed in the case. This determination
was based on a 2016 case from the United States Court of Appeals for the Fourth Circuit,
National Federation of the Blind v. Lamone, which held that Maryland’s failure to provide any
means by which a blind voter could vote absentee without assistance resulted in a clear denial of
meaningful access to the absentee voting program. 813 F.3d 494, 506-07 (4th Cir. 2016). We
are not aware of any measures taken by the State Board to comply with this ruling since it was
issued in 2016. It is our understanding that Board staff believes it is now too late to implement
effective and secure measures to comply with this ruling for the 2020 election. However,
compliance for future elections should be among the Board’s highest priorities.
On many of the issues outlined above, the risk of adverse and unpredictable rulings
remains.
Similar claims have been brought in other states, with many courts ruling in favor of the
challengers.


See, e.g., Arizona Democratic Party v. Hobbs, No. 2:20-cv-1143 (D. Ariz) (granting
motion for preliminary and permanent injunction challenging the state’s failure to afford
voters an opportunity to cure the omission of a signature from an otherwise-valid mail-in
ballot); Democratic Nat’l Committee v. Hobbs, No. 18-15845 (9th Cir. 2020) (striking
down statute that criminalizes assistance with absentee-ballot delivery); Vote Latino v.
Hobbs, No. 2:19-cv-05685 (D. Ariz.) (settlement of challenge to absentee ballot receipt
deadline); New Georgia Project v. Raffensperger, No. 1:20-cv-1986 (N.D. Ga.) (granting
preliminary injunction to challenge of absentee ballot receipt deadline); Frederick v.
Lawson, No. 1:19-cv-1959 (S.D. Ind.) (permanent injunction granted precluding the
rejection of “any mail-in absentee ballot on the basis of a signature mismatch absent
adequate notice and cure procedures to the affected voter”); LaRose v. Simon, No. 62-cv20-3149 (Minn. Dist. Ct., Ramsey Cty.) (consent decree lifting the witness requirement
for November general elections and changing the election day receipt deadline for mail-in
ballots); Western Native Voice v. Stapleton, No. DV-2020-377 (Mont. Dist. Ct.,
Yellowstone Cty.) (granting preliminary injunction enjoining enforcement of restrictions
on absentee ballot assistance laws); Frye v. Gardner, 1:20-cv-751 (D. N.H.) (settlement
providing that state will take steps to ensure that blind voters can vote absentee without
sacrificing secrecy); Gallagher v. N.Y. State Bd. of Elections, No. 1:20-cv-5504
(S.D.N.Y.) (granting preliminary injunction against requirement that ballots be
postmarked and postponing absentee ballot receipt deadline); Hernandez v. N.Y. State Bd.
of Elections, No. 1:20-cv-4003 (S.D.N.Y.) (settling with agreement to provide online
absentee balloting capabilities to blind voters); Self Advocacy Solutions North Dakota v.
Jaeger, No. 3:20-cv-71 (D. N.D.) (permanent injunction granted against state law
allowing rejection of ballots with signature mismatch issues without providing
opportunity to cure); Common Cause Rhode Island v. Gorbea, No. 1:20-cv-318 (D.R.I.)
2
App. 164

PRIVILEGED & CONFIDENTIAL
ATTORNEY-CLIENT COMMUNICATION
ATTORNEY WORK PRODUCT

(consent decree enjoining witness requirement); Middleton v. Andino, No. 3:20-cv-1730
(D.S.C.) (settling dispute re prepaid postage requirement); Thomas v. Andino, No. 3:20cv-1552 (D.S.C.) (enjoining enforcement of the witness requirement); League of Women
Voters v. Hargett, No. 3:19-cv-385 (M.D. Tenn.) (enjoining state laws that restrict ability
of community-based organizations to provide voter registration assistance); Gary v. Va.
Dept. of Elections, No. 1:20-cv-860 (E.D.Va.) (partial consent judgment on access to
electronic voting for blind voters); League of Women Voters of Va. v. Va. State Bd. of
Elections, No. 6:20-cv-23 (W.D.Va.) (consent decree lifting witness requirement in
2020).
Reasonable settlement of certain claims may heighten the Board’s ability to ensure that
resulting orders and requirements are practical and administrable.
Because North Carolina has already begun sending out absentee ballots and as we
approach Election Day and the early voting period, an adverse ruling may become increasingly
difficult to administer. This difficulty may cause confusion for pollworkers, county staff, and
voters.
In some cases, courts will conclude that these considerations counsel against granting
relief. But it is likely that in other cases, courts may find those considerations are outweighed by
the impact of what they conclude is a legal violation.
In addition, as with all litigation, there is a significant possibility that the court grants
relief that the parties did not ask for or that is greater and/or more difficult to administer than the
relief requested by the parties. See, e.g., Community Success Initiative v. State Bd. of Elections
(Wake. Cty. Sup. Ct.) (enjoining the State Board from prohibiting those who are serving
extended probation sentences for failure to pay fines and fees, where no party requested this
relief).
Settlement may lessen exposure to claims for attorneys’ fees and costs by prevailing
plaintiffs.
In light of these considerations, and the recent wave of court decisions around the country
granting challengers relief in the midst of the global pandemic, the Department of Justice
recommends that consideration be given to the following potential pathways to resolution of
some claims in pending litigation.
Potential Areas for Compromise
Signature verification requirement




Challenge to requirement that absentee voters must sign the absentee ballot container
envelope, arguing that the State Board has failed to provide county boards with sufficient
guidance to verify the absentee voter’s signature.
This claim is a misapprehension of the State’s signature verification requirement.

3
App. 165

PRIVILEGED & CONFIDENTIAL
ATTORNEY-CLIENT COMMUNICATION
ATTORNEY WORK PRODUCT



Settlement offer from plaintiffs: The plaintiffs are willing to settle this claim, in light of
the guidance provided by the State Board through Numbered Memo 2020-19, published
on August 21, 2020.

Civilian absentee ballot receipt deadline








Challenge to the civilian absentee ballot receipt deadline of Election Day + 3 days (5 p.m.
on Friday, November 6).
Potential settlement position: Allow for all ballots mailed by Election Day to be counted
if received by the day before canvass (same deadline as UOCAVA ballots).
This would be align with the lawsuit that the State has filed separately against the U.S.
Postal Service challenging the new policies causing delays in election mail delivery.
By extending the deadline, we would be adhering to the U.S. Postal Service’s warnings
that there should be at least one week from the request deadline to the postmark deadline
and at least one week from the postmark deadline to the receipt deadline by the county
board.
This would provide the plaintiffs with less than the full scope of relief they seek (lifting
the postmark requirement).
This resolution may be sufficient for the plaintiffs in the remaining challenges to the
absentee ballot receipt deadline.

Application of witness requirement











Challenge to one-witness requirement for absentee voters in November 2020 elections.
Note: the State Board is already under an injunction not to reject any ballots without an
appropriate and court-approved cure process. At this point in time, we do not have a
court-approved cure process in place at all—no ballots may be rejected for deficiencies at
this time.
o The State Board staff have developed some cure provisions that have been
circulated by Numbered Memo to the counties. But the plaintiffs are still
challenging these provisions and this Numbered Memo has now become the
subject of further litigation and a new lawsuit.
The witness requirement is the subject of multiple other lawsuits.
o Two of these are scheduled for hearings before Judge Bryan Collins on Friday.
Potential settlement position: Provide cure procedures that are somewhat more voterfriendly (e.g., confirmation from voter that s/he is the one who filled out the absentee
ballot).
This would align with the evidence the State Board has provided in other litigation that
the primary purpose of the witness signature requirement is not to verify the voter’s
identity (which is done through other means), but rather to prevent the voter from having
her ballot stolen and marked without her knowledge.
This offer would provide the plaintiffs with less than the full scope of relief they seek
(lifting the witness requirement altogether) and would leave the state law intact.
In addition, it would address the claim of inadequate cure procedures for incorrect or
missing witness signatures on absentee ballots.
4
App. 166

PRIVILEGED & CONFIDENTIAL
ATTORNEY-CLIENT COMMUNICATION
ATTORNEY WORK PRODUCT



This resolution may be sufficient for the plaintiffs in the remaining challenges to the
witness requirement and witness-signature cure procedures.

Lack of contactless absentee ballot return provisions






Challenge to lack of provisions allowing for contactless absentee ballot return.
Potential settlement position: Allow for absentee ballots to be dropped off at early voting
sites with verbal confirmation instead of formal logging.
We have been told that a challenge to the lack of contactless drop boxes and the logging
procedure may be imminent, potentially as an additional claim in one or more existing
cases.
We believe the above settlement position may be sufficient to avoid the lawsuit.
Other Claims (Compromise Not Recommended at this Time)

Lack of prepaid postage





Challenge to failure of the State to provide prepaid postage.
We do not recommend settling this claim, unless the State Board believes that the most
recent appropriation by the General Assembly would allow for prepaid postage.
The only other cases in which the state has provided prepaid postage through litigation
have resulted from negotiated settlements.
Ballots have already gone out in North Carolina—it would be unfair to only provide
prepaid postage for those whose ballots have not gone out. Moreover, it would be
difficult and confusing to try to send prepaid envelopes out now to those who have
already received their ballots.

Restrictions on assistance with requesting and returning absentee ballots





Challenge to restrictions on assistance with requesting and returning absentee ballots.
We do not recommend settling these claims at this time.
In most cases challenging these restrictions in other states, the states have prevailed.
North Carolina’s most recent experience with CD-9 supports the need for some
restrictions.

Extending early voting






Challenge to 17-day early voting period, seeking a period that begins three weeks earlier.
We do not recommend settling these claims at this time.
It would be a Herculean administrative burden to procure the leases on early voting sites
and sufficient pollworkers at a time when staffing the current early voting period is
already difficult.
Note that it may be sufficient for the plaintiffs if the State Board allowed counties, by
unanimous vote or approval by the State Board, to extend the hours of their early voting
sites after early voting has commenced, should the crush of voters become difficult for
the counties to manage within 8 a.m. and 7:30 p.m. and their weekend early voting hours.
5
App. 167

PRIVILEGED & CONFIDENTIAL
ATTORNEY-CLIENT COMMUNICATION
ATTORNEY WORK PRODUCT

Availability of electronic ballots for the visually impaired









Challenge to failure to provide electronic absentee ballots to blind voters.
We do not recommend settling these claims at this time, unless the Board decides that
providing this opportunity through existing technology is secure and otherwise
appropriate.
There is a controlling Fourth Circuit decision that identifies this as an ADA violation, and
the Board is likely to lose this case on the merits, when ultimately decided. However, we
understand the Board staff has determined that correcting this problem for the November
2020 election would create unacceptable logistical and security risks.
Accordingly, the Department of Justice has filed an opposition to the plaintiffs’ motion
for a preliminary injunction requiring the State Board to provide electronic absentee
voting access to blind voters.
Until such time as the court rules, there is little opportunity to change course, unless the
Board decides that, as a matter of policy, such a change is possible and prudent.

6
App. 168

Why NC GOP election officials resigned over absentee voting | Raleigh News & Observer

SECTIONS

( vOTE



^

Sen. Phil Berger talks with reporters following the resignation
of two Board of Elections members
Sen. Phil Berger at a GOP press conference Friday, Sept. 25, 2020
following the Thursday resignation of two Republican members from the
N.C. Board of Elections. BY NC GOP FACEBOOK VIDEO FEED

UP NEXT

Bipartisan duo
sing 'Long Black
Veil' on the

×



Sen. Phil Berger talks with reporters following the
resignation of two Board of Elections members SHARE

HOMEPAGE

Republican election officials resigned after call with lawyer for ‘very unhappy’
NCGOP
BY WILL DORAN AND DANIELLE BATTAGLIA
SEPTEMBER 25, 2020 08:03 PM , UPDATED 4 MINUTES AGO






Sen. Phil Berger at a GOP press conference Friday, Sept. 25, 2020 following the Thursday resignation of two Republican members from the N.C. Board of Elections.

BY NC GOP FACEBOOK VIDEO FEED

RALEIGH

Both Republican members of the N.C. State Board of Elections voted Tuesday in favor of proposed changes to mail-in voting rules, then resigned in protest of
those rules the next day.
Those resignations, of board members Ken Raymond and David Black, came in the wake of several highly critical press releases from the state’s top Republican
politicians. A party spokesman confirmed to The News & Observer that they also came after a phone call with the top lawyer for the state Republican Party to
convey that the NC GOP was “very unhappy.”
“They called and spoke with our counsel,” said Tim Wigginton, the N.C. Republican Party’s spokesman, referring to Chief Counsel Philip Thomas. “And
afterward they put out their resignation letters.”
TOP ARTICLES

App. 169
https://www.newsobserver.com/article246017110.html[9/25/2020 8:40:42 PM]

Why NC GOP election officials resigned over absentee voting | Raleigh News & Observer

SKIP AD

On Facebook, Black’s wife wrote that his resignation was “not voluntary.”
Deb Black’s Facebook comment read: “The GOP chairman neglected to mention that these resignations were not voluntary. They were told to resign. Sad times
when republicans are firing intelligent and trustworthy republicans.”

Today’s top headlines
Sign up for the Afternoon Update and get the day’s biggest stories in your inbox.

Enter Email Address

SIGN UP
SIGN
UP

This site is protected by reCAPTCHA and the Google Privacy Policy and Terms of Service apply.

Wigginton disputed that — but also said there was no mystery about how party leaders felt about Black and Raymond voting with the election board’s
Democratic members to approve a lawsuit settlement that could lead to new, more relaxed absentee voting rules.
“We can’t order anybody to resign,” Wigginton said. “But we did have conversations with him that we were very unhappy.”

‘Politics at its worst’
Efforts to reach Raymond on Friday afternoon weren’t successful. David Black confirmed in an interview Friday that his wife did write the Facebook comment.
He also spoke about his time, and occasional frustrations, on the board.
David Black.jpg

David Black, N.C. Board of Elections member NC Board of Elections

Local news has never been more important
Subscribe for unlimited digital access to the news that matters to your community.

#READLOCAL

App. 170
https://www.newsobserver.com/article246017110.html[9/25/2020 8:40:42 PM]

Why NC GOP election officials resigned over absentee voting | Raleigh News & Observer

Deb Black went on to question the “true agenda” of the Republican Party in her Facebook post. “A fine example of politics at its worst,” she wrote.
“She posted them,” David Black said. “A lot of what she wrote about is stuff that’s on the surface. I think, the best thing to do is to say that she loves me very
much, and I love her very much and I appreciate some of the things she writes and sometimes she gets her hackles up.”
Black noted his wife also wrote that the couple doesn’t always think the same.
“She said we don’t exactly share the same political philosophies but it works out OK,” Black said. “We agree some but sometimes we just agree not to say
anything, but I think she felt it was a good time to put in a few good words for me and I appreciate it.”
He said Friday this was not the first time he felt like resigning, but it was the first time he went through with it.

He said his term started with an election-fraud scandal in the 9th Congressional District and included firings and hirings and a new chair for the board.
And to make matters worse, Black said, he would drive more than two hours, from his home in Concord to the state election offices in Raleigh, just to lose on
votes.
“It’s frustrating when you’re on the losing end 3-to-2 every time,” Black said, acknowledging he did have some wins and saying he was happy to have served.

Vote by mail settlement
Black and Raymond’s resignations came at around 10 p.m. Wednesday, just more than 24 hours after they joined with the Democrats on the board to give
unanimous approval to several proposed changes in the rules around voting by mail.

Ken Raymond.jpg

Ken Raymond, N.C. Board of Elections member N.C. Board of Elections

Since then, Democratic politicians have said the changes — which have yet to be formally approved — would address coronavirus concerns and also make it less
likely for legitimate voters to have their votes thrown out. But Republicans say the changes could lead to voter fraud.
“It is inviting folks to do things to game an election,” Senate leader Phil Berger, a Republican from Rockingham County, said Friday. “And quite frankly if the
election’s not close, it probably won’t make that much difference. But the problem is ... everybody’s talking about how close the election for president is going to
be in North Carolina, the election for various other offices, for legislative seats.”
If a judge approves the lawsuit settlement — which will be up for debate in court Oct. 2 — the new rules would make it easier for voters to fix problems with
absentee ballots by signing an affidavit to confirm their identity, instead of having to start over from scratch with a new ballot.
The changes would also extend the number of days after the election that mail-in ballots could arrive and still be counted, and would tweak the rules surrounding
the process for people to get a mail-in ballot but then drop it off in person, either at their county elections office or during early voting at a polling place.

App. 171
https://www.newsobserver.com/article246017110.html[9/25/2020 8:40:42 PM]

Why NC GOP election officials resigned over absentee voting | Raleigh News & Observer

In the 2018 elections, an investigation by WRAL and ProPublica found, about 6,000 votes out of 104,000 mail-in ballots were thrown out for various reasons.
Black voters were about twice as likely as white voters to have their ballots thrown out.
This year, mail-in voting has been significantly more popular with Democrats than Republicans — but not as much with Black voters, who lean heavily
Democratic. As of Thursday, Black voters were 21% of the total registered voters in the state, but just 16% of the 220,000 voters who had already turned in an
absentee ballot.

Casting doubt on election
The elections board framed the changes to the rules, specifically on dropping of ballots in person, as a way to further limit contact during the coronavirus
pandemic. The proposal also say if someone’s ballot is dropped off on their behalf by someone who isn’t a close relative, it won’t necessarily be thrown out.
But Berger said the rule about only voters or their relatives dropping off absentee ballots was put in place by the General Assembly after the 9th district scandal in
2018 involving suspicions of absentee ballot fraud to benefit the Republican candidate, which led to a congressional election having to be redone.

“That’s the thing that I think folks should be most offended by, that what they’re doing is eliminating basic protections that actually provide confidence to the
people as to the results of the elections,” Berger said.
His comments came a day after Republican Sen. Thom Tillis of North Carolina said he was concerned about the absentee voting changes, and two days after
Republican President Donald Trump told reporters he wouldn’t commit to a peaceful transfer of power if he were to lose the election.
Trump has frequently made evidence-free claims of mail-in voting being rife with fraud. In the same remarks about transition of power, he also said that “I’ve
been complaining very strongly about the ballots, and the ballots are a disaster. We want to get rid of the ballots,” the New York Times reported.
Berger on Friday said he’s concerned that if North Carolina changes its rules, that might in his opinion cast doubt on the vote count here.
“These are the sorts of things that have the ability of creating uncertainty as to whether or not the result was the right result,” he said.

But Democratic Gov. Roy Cooper — who appoints members of the Board of Elections — said on Friday that the proposed changes, in addition to being
unanimous, would simply give people assurance that their vote will count.
“Voting is a sacred right, and the state board is working to make it secure and accessible. They are working hard to make sure that people’s legal right to vote is
protected during this pandemic,” Cooper told reporters Friday.
For more North Carolina government and politics news, listen to the Domecast politics podcast from The News & Observer and the NC Insider. You can find it
on Megaphone, Apple Podcasts, iHeartRadio, Stitcher or wherever you get your podcasts.

App. 172
https://www.newsobserver.com/article246017110.html[9/25/2020 8:40:42 PM]

Why NC GOP election officials resigned over absentee voting | Raleigh News & Observer

RELATED STORIES FROM RALEIGH NEWS & OBSERVER
ELECTION

Previously secret documents revealed on NC mail-in voting settlement opposed by GOP
SEPTEMBER 25, 2020 10:16 AM
POLITICS-GOVERNMENT

Dan Forest asks Trump administration to investigate NC Democrats over mail-in voting
SEPTEMBER 24, 2020 5:31 PM
POLITICS-GOVERNMENT

Tillis says he has ‘grave concerns’ about voting by mail in NC after board settlement
SEPTEMBER 24, 2020 10:09 PM
ELECTION

Both Republican members of NC Board of Elections resign day after election settlement
SEPTEMBER 23, 2020 10:58 PM

File photo DAVID GOLDMAN AP

App. 173
https://www.newsobserver.com/article246017110.html[9/25/2020 8:40:42 PM]

Why NC GOP election officials resigned over absentee voting | Raleigh News & Observer
WILL DORAN

919-836-2858

Will Doran reports on North Carolina politics, with a focus on state employees and agencies. In 2016 he started The News & Observer’s fact-checking partnership, PolitiFact NC, and
before that he reported on local governments around the Triangle. Contact him at wdoran@newsobserver.com or (919) 836-2858.

DANIELLE BATTAGLIA

 Comments



919-836-2801

READ NEXT

ELECTIONS

Previously secret documents revealed on NC mail-in
voting settlement opposed by GOP
BY WILL DORAN
SEPTEMBER 25, 2020 10:16 AM , UPDATED 1 HOUR 26 MINUTES AGO






Meeting minutes from elections board’s secret lawsuit settlement debate over North Carolina mail-in voting rules are made
public to dispute GOP claims.
TRENDING STORIES

KEEP READING ➔

Two NC cities among best places to live in US, rankings show. They might surprise you
UPDATED 10 HOURS 7 MINUTES AGO

NC pastor yells ‘white power’ from truck during weekend Trump parade, videos show
UPDATED SEPTEMBER 25, 2020 07:57 AM

NC pastor yells ‘white power’ during Trump parade

App. 174
https://www.newsobserver.com/article246017110.html[9/25/2020 8:40:42 PM]

FILED
c P|j IN THE GENERAL COURT OF JUSTICE
' J
DIVISION

STATE OF NORTH CAROLINA ppr
u
WAKE COUNTY

^v A.

v

u

-

- u,

'
c .s . c.
T

NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS, et al .

)
)

)
)
)
)

Plaintiffs,
v.

THE NORTH CAROLINA STATE
BOARD OF ELECTIONS, et al. ,
Defendants, and

PHILIP E. BERGER in his official capacity
as President Pro Tempore of the North
Carolina Senate, et al.,

Intervenor-Defendants, and
REPUBLICAN NATIONAL COMMITTEE,
et al.,
Republican CommitteeIntervenor Defendants.

SUPERIOR COURT
20 CVS 8881

)
)
)
)
)
)
)
)
)
)
)

FINDINGS OF FACT AND
CONCLUSIONS OF LAW
SUPPORTING OCTOBER 2, 2020
ORDER GRANTING
JOINT MOTION FOR ENTRY
OF CONSENT JUDGMENT

)
)
)
)

THIS MATTER CAME ON TO BE HEARD before the Court during the October 2, 2020

Session of the Superior Court of Wake County. All adverse parties received notice and
participated. The Court considered the pleadings, arguments, briefs of the parties, supplemental

affidavits, and the record established thus far, as well as argument submitted by counsel in

attendance.
1.

Following the hearing, the Court granted the Joint Motion for Entry of Consent

Judgment, whereupon the Consent Judgment was signed by the Court, and filed and served on all

parties. The Court sees fit to further explain the basis of its rulings in the Consent Judgment here.
The Court heard argument at the October 2, 2020 hearing, considered the arguments made by the

App. 175

parties, and made a series of oral rulings upon which it based the granting of the Joint Motion and
entry of the Consent Judgment. These rulings, which were effective at the time they were
announced from the bench, are hereby memorialized and further explained below.
FINDINGS OF FACT
2.

This matter involves claims brought by Plaintiffs involving as-applied challenges

to the absentee ballot receipt deadline set forth in N.C.G.S. § 163-231(b)(1), (2), enforcement of
the witness requirement for absentee ballots set forth in N.C.G.S. § 163-231(a) (as modified by SL
2020-17), the lack of prepaid postage available to absentee-by-mail voters, application of any
signature verification requirement, enforcement of elections laws prohibiting individuals and
organizations from assisting voters when submitting or filling out absentee ballot request forms or
absentee ballots as set forth in N.C.G.S. §§ 163-226.3(a)(5), -230.2(c), (e), and -231(b)(1), and the
failure to provide an additional 21 days of early voting.
3.

Plaintiff North Carolina Alliance For Retired Americans is incorporated in North

Carolina as a 501(c)(4) nonprofit, social welfare organization. The Alliance has over 50,000
members across all 100 of North Carolina’s counties. Its members comprise retirees from public
and private sector unions, community organizations, and individual activists. Some of its members
are disabled, and all of its members are of an age that places them at a heightened risk of
complications from coronavirus.
4.

Individual Plaintiffs each have their own hardships as well as shared hardships,

which encumber their abilities to vote in the election. These include, but are not limited to,
significant concerns regarding the United States Postal Service’s ability to timely deliver and
return absentee ballots; and health concerns related to voting in person, interacting with a witness,
2

App. 176

traveling to and from voting sites, or delivering an absentee ballot, particularly for those deemed
high risk for COVID-19.
5.

On July 30, 2020, Thomas J. Marshall, General Counsel and Executive Vice

President of the United States Postal Service sent a letter to North Carolina’s Secretary of State,
warning her that North Carolina elections law relating to absentee ballot deadlines was
“incongruous with the Postal Service’s delivery standards.” Pennsylvania v. DeJoy, No. 2:20-cv04096 (E.D.P.A.), Dkt. 1-1 at 53-55. USPS also stated that “there is a significant risk” that “ballots
may be requested in a manner that is consistent with your election rules and returned promptly,
and yet not be returned on time or be counted.” Id. In particular, USPS recommended that elections
officials transmitting communication to voters “allow 1 week for delivery to voters” and that
civilian voters “should generally mail their completed ballots at least one week before the state’s
due date. In states that allow mail-in ballots to be counted if they are both postmarked by Election
Day and received by election officials by a specific date that is less than a week after Election Day,
voters should mail their ballots at least one week before they must be received by election
officials.” Id. Accordingly, in North Carolina, voters can postmark their ballot by Election Day,
but because of USPS delays and through no fault of their own, not have their ballots counted
because the ballots arrived at the county board of elections office after the statutory deadline.
6.

On May 12, 2020, Legislative Defendants noticed their intervention in this case

purportedly “as agents of the State” and “on behalf of the General Assembly.” LDs’ Mot. to
Intervene, ¶¶ 9-10.
7.

On July 1, 2020, the Republican National Committee, the National Republican

Senatorial Committee, the National Republican Congressional Committee, Donald J. Trump for
3

App. 177

President, Inc., and the North Carolina Republican Party (the Political Committees) moved to
intervene in this case to protect their “specific desire to elect particular candidates,” and “the
interests of voters throughout North Carolina,” as well as their “members’ ability to participate in
those elections . . . governed by the challenged rules.” Political Committees’ Mot. to Intervene,
¶¶ 1, 25. The Court granted the Political Committees permissive intervention on September 24,
2020.
8.

On August 18, 2020, Plaintiffs filed a motion for preliminary injunction.

9.

On September 22, 2020, Plaintiffs and State Defendants jointly moved for the entry

of a consent judgment as full and final resolution of Plaintiffs’ claims against the State Defendants
related to the conduct of the 2020 elections. On October 1, 2020, Plaintiffs withdrew their motion
for preliminary injunction.
10.

Under the consent order as proposed in the Joint Motion, plaintiffs agreed to forgo

many of their demands, including expanded early voting, elimination of the witness requirement
for mail-in absentee ballots, elimination of the postmark requirement, and pre-paid postage for
mail-in absentee ballot return envelopes. The Executive Defendants agreed: (1) to extend the
deadline for receipt of mail-in absentee ballots mailed on or before Election Day to nine (9) days
after Election Day to match the UOCAVA deadline, in keeping with the guidance received on July
30, 2020 from the Postal Service; (2) implement the revised cure process set forth in Numbered
Memo 2020-19; and (3) establish separate mail-in absentee ballot “drop off stations” staffed by
elections officials at each early voting site and at each county board of elections to reduce the
congestion and crowding at early voting sites and county board offices. Plaintiffs agreed to accept

4

App. 178

these measures, which fell far short of their demands, “as a full and final resolution of Plaintiffs’
claims against Executive Defendants related to the conduct of the 2020 elections.”
11.

The consent judgment as proposed does not enjoin any statutes. The proposed

consent judgment retains fidelity to the purpose behind these statutes: (1) ensuring that all ballots
that are marked in accordance with all state laws are counted so long as the delay in delivery to
the county board of elections is no fault of the voter’s, (2) ensuring that there is a log of the person
who returns absentee ballots so that, in the event of concerns about fraud, these concerns can be
investigated, and (3) ensuring that the voter to whom the absentee ballot was issued is the one who
voted the ballot that the county board of elections received. In addition, the consent order is
narrowly targeted to modifications that address the exigent circumstances of the COVID-19
pandemic. It therefore does not modify any election procedures beyond the 2020 election cycle.
12.

As of September 29, 2020, more than 1,116,696 absentee ballots have been

requested. As of October 2, 2020, 325,345 have been submitted, and 319,209 have been accepted.
Early voting starts on October 15.
13.

The Court hereby incorporates by reference those factual statements made in the

Stipulation and Consent Judgment, Part I – Recitals, and entered on October 2, 2020 by this Court,
as if set forth fully herein.
CONCLUSIONS OF LAW
14.

North Carolina courts have a “strong preference for settlement over litigation.”

Ehrenhaus v. Baker, 216 N.C. App. 59, 72, 717 S.E.2d 9, 19 (2011).
15.

Although North Carolina courts have not articulated a standard for approval of a

consent judgment, courts in this State have looked to the federal standard to provide guidance in
5

App. 179

similar contexts. See, e.g., Ehrenhaus, 216 N.C. App. at 71-72, 717 S.E.2d at 18-19 (adopting
federal standard for approval of class-action settlements). Before approving entry of a consent
judgment, a federal court has the duty to “satisfy itself that the agreement is ‘fair, adequate and
reasonable,’ and is ‘not illegal, a product of collusion, or against the public interest.’” United States
v. North Carolina, 180 F.3d 574, 581 (4th Cir. 1999) (quoting United States v. Colorado, 937 F.2d
505, 509 (10th Cir. 1991)).
16.

On June 10, 2020, the North Carolina General Assembly enacted House Bill 1169,

which the Governor signed into law as North Carolina Session Law 2020-17 the following day.
This law made a number of changes in response to the COVID-19 pandemic. The legislature did
not revise, in any way relevant to the Joint Motion or the Consent Judgment, the emergency powers
granted to the State Board or its Executive Director under section 163-27.1 or revise powers
granted to the State Board to enter into agreements to avoid protracted litigation under section 16322.2.
17.

Joint movants have demonstrated that the plaintiffs are likely to succeed on the

merits of their constitutional claims.
18.

The Court finds this agreement is fair, adequate, and reasonable. It is not illegal. It

is not a product of collusion. On its face, comparing the complaint to the consent order, the
plaintiffs did not obtain all the relief that they had sought. On its face, this is a compromise. There
exists no evidence to the contrary.
19.

The relief imposed by this consent judgment is very limited. It makes only minor

and temporary changes to election procedures to accommodate the exigencies of the COVID-19
pandemic, which also makes it reasonable.
6

App. 180

20.

The Court finds that there is a strong public interest in having certainty in our

elections procedures and rules, and the entry of this consent judgment is, therefore, in the public
interest.
21.

The North Carolina State Board of Elections has a strong incentive to settle this

case to ensure certainty on the procedures that will apply during the current election
cycle. Settlement will also provide public confidence in the safety and security in this election, in
light of all the serious public-health challenges faced at this time.
22.

The North Carolina State Board of Elections has authority to enter into this consent

judgment under two separate provisions of the North Carolina General Statutes: sections 163-22.2
and 163-27.1.
23.

First, section 163-22.2 authorizes the State Board, “upon recommendation of the

Attorney General, to enter into agreement with the courts in lieu of protracted litigation until such
time as the General Assembly convenes.” This section applies here. The proposed consent
judgment is an “agreement with the courts.” The State Board, moreover, has made the reasonable
decision to enter into this agreement to avoid “protracted litigation” regarding plaintiffs’ claims
with an election fast approaching.
24.

Second, section 163-27.1 authorizes the Executive Director of the State Board to

“exercise emergency powers to conduct an election in a district where the normal schedule for the
election is disrupted by” a “natural disaster.” A “natural disaster” includes a “[c]atastrophe arising
from natural causes [that] result[s] in a disaster declaration by the President of the United States
or the Governor.” 08 NCAC 01.0106. The COVID-19 pandemic constitutes a natural disaster
within the meaning of the statute, as shown by the declaration of emergency by the Governor, the
7

App. 181

declaration of disaster by the President, and the emergency order that the Executive Director issued
under this authority on July 17, 2020. The Executive Director therefore had the statutory authority
to issue the Numbered Memoranda that form the basis of this consent judgment pursuant to her
emergency powers under section 163-27.1.
25.

Accordingly, votes cast and counted pursuant to the Numbered Memoranda and the

consent judgment are lawfully cast votes under North Carolina law, because the North Carolina
State Board of Elections and its Executive Director validly issued the Numbered Memoranda and
entered into the consent judgment under their statutory authority conferred on them by the General
Assembly.
26.

Sections 1-72.2 and 120-32.6 of the North Carolina General Statutes do not alter

the State Board’s authority under sections 163-22.2 or 163.27.1. Nor do they provide that the
Speaker and the President Pro Tem are necessary parties to the consent judgment in this case.
As an initial matter, the authority delegated to the State Board in sections 163-22.2 and 163-27.1
is more specific than the more general grants of authority listed in sections 1-72.2 and 120-32.6.
More specific grants of statutory authority control over more general grants. Here, therefore, the
more general grants of certain litigation authority in sections 1-72.2 and 120-32.6 do not displace
the settlement and emergency powers of the State Board.
27.

In addition, sections 1-72.2 and 120-32.6 allow the Speaker and the President Pro

Tem to appear and be heard, or in some cases to request to do so, in certain lawsuits on behalf of
the legislative branch alone. However, this limited authority does not allow these legislators to
represent the interests of the executive branch or of the State, including any interest of the State in
the execution and enforcement of its laws. These statutes do not authorize the Speaker and the
8

App. 182

President Pro Tem, individually or jointly, to control executive officials’ decisions about execution
and enforcement of state law, or to prevent executive officials from entering into settlements that
affect how statutes are executed or enforced after their enactment. Nor do these statutes make the
General Assembly or these legislative officers necessary parties to any such settlement. To read
sections 1-72.2 and 120-32.6 otherwise would violate the North Carolina Constitution’s separation
of powers clause. See N.C. Const. art. I, § 6; Cooper v. Berger, 370 N.C. 392, 414-15, 809 S.E.2d
98, 111-12 (2018).
28.

For all these reasons, therefore, the consent of the Speaker and the President Pro

Tem is not needed for this Court to approve and enter this consent judgment.
29.

Because the North Carolina General Statutes delegate to the State Board the

authority to issue the directives that form the basis for the proposed consent judgment, neither the
Numbered Memoranda, nor the consent judgment itself, violates the Elections Clause of the U.S.
Constitution, art. I, § 4, cl.1.
30.

Neither the Numbered Memoranda, nor the consent judgment itself, violates the

Equal Protection Clause of the U.S. Constitution, amend. XIV, § 1. They provide adequate
statewide standards for determining what is a legal vote, and practicable procedures to implement
them. They do not dilute or discount anyone’s vote. Instead, they ensure that all eligible voters
have an opportunity to cast their ballots and correct any deficiencies in those ballots under the
same, uniform standards.
31.

The Numbered Memoranda and the consent judgment are therefore consistent with

both the North Carolina Constitution and the U.S. Constitution.

9

App. 183

32.

Based upon the foregoing, on October 2, 2020, Plaintiffs’ and Executive

Defendants’ Joint Motion for Entry of a Consent Judgment was granted and final judgment was
entered.

ISSUED, this 5th day of October 2020, nunc pro tunc October 2, 2020.

G . BryM Colli
Spcciaf Superior Court Judge

10

App. 184

CERTIFICATE OF SERVICE
The undersigned hereby certifies that the forgoing document was served on the following
parties via email:
Burton Craige
Narendra K. Ghosh
Paul E. Smith
Patterson Harkavy LLP
100 Europa Dr., Suite 420
Chapel Hill, N.C. 27517
bcraige@pathlaw.com
nghosh@pathlaw.com
psmith@pathlaw.com
Marc E. Elias
Uzoma N. Nkwonta
Ariel B. Glickman
Jyoti Jasrasaria
Lalitha D. Madduri
PERKINS COIE, LLP
700 Thirteenth Street, N.W. Suite 800
Washington, D.C. 20005
MElias@perkinscoie.com
UNkwonta@perkinscoie.com
AG1ickman@perkinscoie.com
JJasrasaria@perkinscoie.com
LMadduri@perkinscoie.com
Counsel for Plaintiffs
Alexander McC. Peters
Chief Deputy Attorney General
N.C. Dept. of Justice
Post Office Box 629
Raleigh, NC 27602
apeters@ncdoj.gov
Counsel for the Executive Defendants

Nathan Huff
Phelps Dunbar LLP
4140 ParkLake Avenue, Suite 100
Raleigh, N.C. 27612
nathan.huff@phelps.com
Nicole Jo Moss
David H. Thompson
Peter A. Patterson
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, NW
Washington, D.C. 20036
nmoss@cooperkirk.com
ppatterson@cooperkirk.com
dthompson@cooperkirk.com
Counsel for Intervenor-Defendants
R. Scott Tobin
Taylor English Duma LLP
4208 Six Forks Road, Suite 1000
Raleigh, N.C. 27609
stobein@taylorenglish.com
Bobby Burchfield
Matthew M. Leland
King & Spalding LLP
1700 Pennsylvania Ave. N.W., Suite 200
Washington, DC 20006-4707
BBurchfield@KSLAW.com
mleland@kslaw.com
Counsel for Intervenor-Defendants

This the 5th day of October, 2020.

Kellies?: My rs j
Trial Court Administrator - 10th Judicial District
kellie.z.myers @ nccourts.org

^

App. 185

No._______

TENTH DISTRICT
NORTH CAROLINA COURT OF APPEALS

****************************************************
NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS; BARKER
From Wake County
FOWLER; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM
No. 20-CVS-8881
KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,
Plaintiffs,
v.
THE NORTH CAROLINA STATE BOARD
OF ELECTIONS; and DAMON CIRCOSTA,
in his official capacity as CHAIR OF THE
NORTH CAROLINA STATE BOARD OF
ELECTIONS,
Defendants,
PHILIP E. BERGER, in his official capacity as
President Pro Tempore of the North Carolina
Senate, and TIMOTHY K. MOORE, in his
official capacity as Speaker of the North
Carolina House of Representatives,
Intervenor-Defendants, and,
REPUBLICAN NATIONAL COMMITTEE,
NATIONAL REPUBLICAN SENATORIAL
COMMITTEE, NATIONAL REPUBLICAN
CONGRESSIONAL COMMITTEE, DONALD
J. TRUMP FOR PRESIDENT, INC., and
NORTH CAROLINA REPUBLICAN PARTY,
Republican Committee
Intervenor-Defendants.
****************************************************
PETITION FOR WRIT OF SUPERSEDEAS AND MOTION FOR TEMPORARY STAY
AND EXPEDITED REVIEW
****************************************************

App. 186

i
INDEX
TABLE OF AUTHORITIES .......................................................................................................... ii
INTRODUCTION ...........................................................................................................................1
BACKGROUND .............................................................................................................................4
A. North Carolina’s Election Code and the BOE’s Role in Administering
Elections. ........................................................................................................................4
B. The General Assembly Responds to the COVID-19 Pandemic. ...................................6
C. The Coordinated Litigation Effort To Subvert HB 1169 and Alter North
Carolina’s Election Procedures. .....................................................................................8
D. The Plaintiffs’ Lawsuit and the Superior Court’s Approval and Entry of the
Consent Judgment. .......................................................................................................11
E. The Consent Judgment’s Purported Changes to North Carolina’s Voting Law. .........12
F. The United States District Court’s Concern with Revised Numbered Memo
2020-19. .......................................................................................................................15
G. The United States District Court’s Temporary Restraining Order Enjoining
Enforcement of the Numbered Memos Attached to the Settlement Agreement. ........16
H. The Voting To Date in North Carolina. .......................................................................17
ARGUMENT .................................................................................................................................18
I. STANDARD OF REVIEW ...............................................................................................18
II. ALL FACTORS WEIGH IN FAVOR OF ISSUANCE OF A WRIT OF
SUPERSEDEAS AND TEMPORARY STAY .................................................................19
A. Writ of Supersedes and Stay Pending Resolution of the Petition for Writ of
Supersedes Are Necessary To Avoid Irreparable Harm to the Republican
Committees. .................................................................................................................19
B. A Writ of Supersedeas and Temporary Stay Are Also in the Public Interest. .............20
C. The Republican Committees Are Likely to Prevail on Appeal. ..................................23
D. A Writ of Supersedeas and Temporary Stay Would Maintain the Status Quo. ...........30
III. EXPEDITED REVIEW IS IN THE PUBLIC INTEREST ...............................................30
CONCLUSION ..............................................................................................................................30

App. 187

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Abbott v. Highlands,
52 N.C. App. 69, 277 S.E.2d 820 827 (1981) ..........................................................................18
Advance North Carolina. v. North Carolina,
No. 20-CVS-2965 (Sup. Ct. Wake Cnty. Mar. 4, 2020) ..........................................................10
Andino v. Middleton,
592 U.S. ___ (2020) ...................................................................................................................2
Chambers v. N.C.,
No. 20-CVS-500124 (Sup. Ct. Wake Cnty. Sept. 3, 2020) ...........................................1, 10, 11
Chambers v. State of North Carolina,
No. 20 CVS 5001242 (Sup. Ct. Wake Cnty.) ..........................................................................24
Common Cause R.I. v. Gorbea,
2020 WL 4365608 (D. RI July 30, 2020) ................................................................................12
Common Cause v. Thomsen,
2020 WL 5665475 (W.D. Wisc. Sept. 23, 2020) .....................................................................22
Craver v. Craver,
298 N.C. 231, 258 S.E.2d 357 (1979)......................................................................................18
Crawford v. Marion County Election Bd.,
553 U.S. 181 (2008) .......................................................................................................3, 20, 22
Democracy N.C. v. State Bd. of Elections,
No. 1:20-cv-00457-WO-JLW (M.D.N.C. Sept. 30, 2020) ..........................................20, 27, 28
Democracy North Carolina,
No. 20-cv-00457(M.D.N.C. Oct. 2, 2020) .........................................................................15, 16
Democracy North Carolina v. North Carolina State Bd. of Elections,
No. 1:20-cv-457, 2020 WL 4484063 (M.D.N.C. Aug. 4, 2020) ..................................... passim
DSCC v. N.C. State Bd. of Elections,
No. 20-CVS-69947 (Sup. Ct. Wake Cnty. Sept. 8, 2020) .......................................................10
Flinn v. FMC Corp.,
528 F.2d 1169 (4th Cir. 1975) .................................................................................................25

App. 188

iii
Frye v. City of Kannapolis,
109 F. Supp. 2d 436 (M.D.N.C. 1999) ....................................................................................24
Griffin v. Roupas,
385 F.3d 1128 (7th Cir. 2004) ...................................................................................................5
Guilford Cty. v. Eller,
146 N.C. App. 579, 553 S.E.2d 235 (2001) .............................................................................29
Hill v. Hill,
97 N.C.App. 499, 389 S.E.2d 141 (1990) ................................................................................25
Home Indem. Co. v. Hoechst Celanese Corp.,
128 N.C. App. 113, 493 S.E.2d 806 (1997) .............................................................................18
James v. Bartlett,
359 N.C. 260, 607 S.E.2d 638 (2005)......................................................................................29
Jenkins v. State Bd. of Elections of N.C.,
180 N.C. 169, 104 S.E. 346 (1920) ............................................................................................4
LaRose v. Simon,
No. 62-CV-20-3149 (Ramsey Cty. Dist. Ct. July 17, 2020)....................................................12
League of Women Voters of Va. v. Va. State Bd.,
20-cv-24 (W.D. Va. Aug. 21, 2020) ........................................................................................12
Local No. 93, Int’l Ass’n of Firefighters, AFL-CIO C.L.C. v. City of Cleveland,
478 U.S. 501 (1986) .............................................................................................................3, 25
McPherson v. Blacker,
146 U.S. 1 (1892) .....................................................................................................................27
Moore v. Circosta,
No. 20-cv-507-D (E.D.N.C. Sept. 26, 2020) ................................................................... passim
North Carolina Democratic Party v. North Carolina,
No. 19-CVS-14688 (Sup. Ct. Wake Cnty. Oct. 28, 2019) .......................................................10
In re Plurality Elections,
8 A. 881 (R.I. 1887) .................................................................................................................27
Selwyn Village Homeowners Ass’n v. Cline & Co.,
186 N.C. App. 645, 651 S.E.2d 909 (2007) .............................................................................19
State v. Grady,
372 N.C. 509, 831 S.E.2d 542 (2019)......................................................................................24

App. 189

iv
Stringer v. North Carolina,
No. 20-CVS-5615 (Sup. Ct. Wake Cty. May 4, 2020) ............................................................10
Stringer v. North Carolina State Board of Elections,
No. 20-CVS-14688 (Sup. Ct. Wake Cnty.) .............................................................................24
United States v. North Carolina,
180 F.3d 574 (4th Cir. 1999) ...............................................................................................3, 25
Wise v. North Carolina State Board of Elections,
No. 5:20-cv-505-D (E.D.N.C.) ......................................................................................2, 16, 17
Statutes
N.C.G.S. § 1-81.1.................................................................................................................3, 23, 24
N.C.G.S. § 1-267.1(c) ................................................................................................................3, 24
N.C.G.S. § 120-32.6.......................................................................................................................29
N.C.G.S. § 120-32.6(b) ..................................................................................................................29
N.C.G.S. § 163-22(a) .....................................................................................................................28
N.C.G.S. § 163-22(c) .....................................................................................................................28
N.C.G.S. § 163-22.2.......................................................................................................................28
N.C.G.S. § 163-27.1(a) ............................................................................................................28, 29
N.C.G.S. § 163-223.6(a)(5) .....................................................................................................14, 27
N.C.G.S. § 163-226(a) .....................................................................................................................4
N.C.G.S. § 163-226.3.................................................................................................................5, 14
N.C.G.S. § 163-226.3(a)(6) ...........................................................................................................21
N.C.G.S. § 163-227.2(b) ..................................................................................................................5
N.C.G.S. § 163-227.6.......................................................................................................................5
N.C.G.S. § 163-227.6(a) ..................................................................................................................5
N.C.G.S. § 163-227.6(c)(2) .............................................................................................................5
N.C.G.S. § 163-227.10...............................................................................................................1, 17
N.C.G.S. § 163-229(b) .............................................................................................................14, 27

App. 190

v
N.C.G.S. § 163-231(a) .....................................................................................................................5
N.C.G.S. § 163-231(b)(1) ................................................................................................................5
N.C.G.S. § 163-231(b)(2) ............................................................................................13, 14, 21, 27
N.C.G.S. § 163-231(b)(2)(b)............................................................................................................5
N.C.G.S. § 163 art. 14A ...................................................................................................................6
N.C.G.S. § 163 art. 20 ......................................................................................................................4
Other Authorities
N.C. R. App. P. 2 .....................................................................................................................19, 30
N.C. R. App. P. 23 .........................................................................................................................18
N.C. R. App. P. 23(c) .....................................................................................................................18
U.S. Const., art. I, § 4, cl. 1 ............................................................................................................26
U.S. Const., art. II, § 1 .........................................................................................................3, 16, 26
U.S. Const., art. II, § 1, cl. 2 ..........................................................................................................26
U.S. Const., art. II, § 4 .........................................................................................................3, 12, 16

App. 191

1
TO THE HONORABLE COURT OF APPEALS OF NORTH CAROLINA:
The Republican National Committee (“RNC”), National Republican Senatorial Committee
(“NRSC”), National Republican Congressional Committee (“NRCC”), Donald J. Trump for
President, Inc., and the North Carolina Republican Party (“NCRP”) (collectively the “Republican
Committees”), respectfully (1) petition this Court to issue a writ of supersedeas suspending the
Superior Court’s October 2, 2020 order; and move to: (2) temporarily stay enforcement of the
Superior Court’s October 2, 2020 Order during review of the petition for writ of supersedeas; and
(3) expedite the briefing and resolution of this appeal.
INTRODUCTION
Absentee voting for the November 2020 election has been underway in North Carolina
since September 4, 2020. See N.C.G.S. § 163-227.10. On October 2, 2020, however, a single
judge in the Superior Court entered an order approving a Consent Judgment between the Plaintiffs
and the North Carolina State Board of Elections and Damon Circosta (collectively the “BOE”).
Leland Decl., Ex. 1, Order. The Consent Judgment substantially alters absentee voting laws in
this State through three attached BOE “Numbered Memos.” See below at pp. 12–14. The other
parties were excluded from negotiating the Consent Judgment and opposed its entry. As of
October 4, 2020, according to reported numbers from the BOE, 1,157,6061 North Carolinians had
requested an absentee ballot and 340,7952 had returned completed absentee ballots to the BOE.
The Consent Judgment further conflicts with the orders of three other courts to address related
issues. Leland Decl., Ex. 2, Chambers v. N.C., Case No. 20-CVS-500124, Order (Sup. Ct. Wake
Cnty. Sept. 3, 2020) (Lock, J., Bell, J., Hinton, J.); Democracy North Carolina v. North Carolina

1
2

See https://www.ncsbe.gov/ for an updated total.
See https://www.ncsbe.gov/results-data/absentee-data.

App. 192

2
State Bd. of Elections, No. 1:20-cv-457, 2020 WL 4484063 (M.D.N.C. Aug. 4, 2020) (Osteen, J.);
Wise v. North Carolina State Board of Elections, No. 5:20-cv-505-D (E.D.N.C.) (Dever, J.). Those
other three decisions are consistent with recent orders by the Supreme Court, including an October
5, 2020 order staying the decision of a South Carolina District Court, which had enjoined South
Carolina’s witness requirement for absentee ballots. Andino v. Middleton, 592 U.S. ___ (2020).
In a concurring opinion, Justice Kavanaugh noted that (1) “a State legislature’s decision either to
keep or make changes to election rules to address COVID—19 ordinarily ‘should not be subject
to second-guessing by an ‘unelected federal judiciary,’” and (2) that “federal courts ordinarily
should not alter state election rules in the period close to an election.” Id. at *2 (citations omitted).
The requested relief is necessary to prevent irreparable harm to the Republican
Committees, their constituents, and all North Carolinians. The Republican Committees made
substantial investments to get out the vote for their preferred candidates and to educate voters about
the election laws, which will be lost if the Consent Judgment goes into effect and substantially
alters the voting laws. See Leland Decl., Ex. 3, Dore Decl. ¶¶ 11–13; Leland Decl., Ex. 4, White
Decl. ¶¶ 7–10; Leland Decl., Ex. 5, Dollar Decl. ¶¶ 10–11; Leland Decl., Ex. 6, Clark Decl. ¶¶ 7–
9. A stay is also in the public interest. If the Consent Judgment goes into effect, the hundreds of
thousands of voters who previously cast their absentee ballots in accordance with the rules then in
effect would be treated differently than voters who cast their absentee ballots afterwards. Leland
Decl, Ex. 7, Moore, No. 20-CV-507, Order at *12–15 (E.D.N.C. Oct. 3, 2020) (enjoining
enforcement of the Numbered Memos that are incorporated into the Consent Judgment and noting
that those who have already voted absentee would be irreparably harmed absent injunctive relief).
The public interest also weighs in favor of a stay because the Consent Judgment would undermine
provisions of the voting law designed to safeguard the election from fraud and maintain public

App. 193

3
confidence in the integrity of the election. Crawford v. Marion County Election Bd., 553 U.S. 181,
197 (2008) (noting the public interest strongly favors safeguarding “public confidence in the
integrity of the electoral process.”). Similarly, the changes contemplated by the Consent Judgment
would undermine the orderly administration of the election. Id. at 195 (noting the State has a
compelling interest in promoting the “orderly administration” of elections).
A stay is also required because the Republican Committees are likely to prevail on the
merits of their appeal. First, only a three-judge panel of the Superior Court has authority to enter
the Consent Judgment because it alters laws enacted by the General Assembly for all North
Carolinians. N.C.G.S. § 1-81.1 (a1); N.C.G.S. § 1-267.1(c). Second, the Consent Judgment does
not meet the standards for approval because it was not agreed to by necessary parties and it is not
fair, adequate, and reasonable. Local No. 93, Int’l Ass’n of Firefighters, AFL-CIO C.L.C. v. City
of Cleveland, 478 U.S. 501, 529 (1986) (“[A] court may not enter a consent decree that imposes
obligations on a party that did not consent to the decree.”); United States v. North Carolina, 180
F.3d 574, 581 (4th Cir. 1999) (consent decree must be fair, adequate, and reasonable). Third, the
Consent Judgment violates the United States Constitution because it intrudes on the General
Assembly’s authority under the United States Constitution to set the time, place, and manner for
the November election and the appointment of Electors for President, and because it violates the
Equal Protection Clause. U.S. Const., Art. II, § 4; U.S. Const., Art. II, § 1; Leland Decl, Ex. 7,
Moore, No. 20-CV-507, Order at *19 (E.D.N.C. Oct. 3, 2020) (finding plaintiffs likely to prevail
on Equal Protection challenge to the Consent Judgment). Fourth, in agreeing to the Consent
Judgment, the BOE exceeded its authority by adopting changes to the voting laws that were
explicitly rejected by the General Assembly.

App. 194

4
Expedited briefing and consideration are necessary to resolve this appeal, which is of
immense public importance and urgency given the proximity to the November 2020 election.
BACKGROUND
A. North Carolina’s Election Code and the BOE’s Role in Administering
Elections.
North Carolina offers its citizen three ways to vote: (1) absentee voting by mail-in ballot,
(2) in-person early voting, and (3) in-person voting on Election Day. The General Assembly
created the option for absentee voting in 1917,3 and more recently expanded the absentee voting
option to allow “no excuse” absentee voting; now anyone can vote absentee simply by complying
with the safeguards enacted by the General Assembly. The availability of these three options
maximizes election participation, but each is also regulated to ensure that elections are fair, honest,
and secure.
The first option is to vote by absentee ballot. See generally N.C.G.S. § 163 art. 20. The
Consent Judgment purports to modify this method through its attached Numbered Memos. Under
the General Statues, North Carolina allows “[a]ny qualified voter of the State [to] vote by absentee
ballot in a statewide . . . general . . . election.” Id. § 163-226(a). Given the consensus that mail-in
ballots present a higher risk of fraud than ballots submitted in person,4 North Carolina enacted

3 See Jenkins v. State Bd. of Elections of N.C., 180 N.C. 169, 104 S.E. 346, 347 (1920).
4 For example, a commission chaired by President Jimmy Carter and former Secretary of State

James A. Baker, III found that voting by mail is “the largest source of potential voter fraud.”
Leland Decl., Ex. 8, Carter-Baker Report, at 46. Other commissions have reached the same
conclusion, finding that “when election fraud occurs, it usually arises from absentee ballots.”
Leland Decl., Ex. 9, Morley Redlines Article, at 2. This is true for a number of reasons. For
instance, absentee ballots are sometimes “mailed to the wrong address or to large residential
buildings” and “might get intercepted.” Leland Decl., Ex. 8, Carter-Baker Report, at 46. Absentee
voters “who vote at home, at nursing homes, at the workplace, or in church are more susceptible
to pressure, overt and subtle, or to intimidation.” Id. And “[v]ote buying schemes are far more
difficult to detect when citizens vote by mail.” Id. As one court put it, “absentee voting is to

App. 195

5
measures to deter and detect fraudulent mail-in ballots. As relevant here, the voter must complete
and certify the ballot-return envelope in the presence of two witnesses (or a notary), who must
certify “that the voter is the registered voter submitting the marked ballot[]” (the “Witness
Requirement”). Id. § 163-231(a). The voter (or a near relative or verifiable legal guardian) can
then deliver the ballot in person to the county board office or transmit the ballot “by mail or by
commercial courier service, at the voter’s expense, or delivered in person” not “later than 5:00
p.m. on the day of the” general election. Id. § 163-231(b)(1). A ballot would be considered timely
if it was postmarked by election day (the “Postmark Requirement”) and received “by the county
board of elections not later than three days after the election by 5:00 p.m.” (the “Receipt
Deadline”). Id. § 163-231(b)(2)(b). With limited exceptions, North Carolina law prohibits anyone
except the voter’s near relative or legal guardian from assisting a voter with the completion and
submission of an absentee ballot (the “Assistance Ban” and “Ballot Delivery Ban”). Id. § 163226.3.
The second option for North Carolina voters is one-stop early voting. See id. § 163-227.6.
Under this provision, county boards can establish one or more early-voting locations, which the
BOE must approve. Id. § 163-227.6(a). Those locations open on the third Thursday before
Election Day, and early voting must be conducted through the last Saturday before the election.
Id. § 163-227.2(b). North Carolina law mandates the hours at which the early voting sites must
open, and requires that if “any one-stop site across [a] county is opened on any day . . . all onestop sites shall be open on that day” (“Uniform Hours Requirement”). Id. § 163-227.6(c)(2).

voting in person as a take-home exam is to a proctored one.” Griffin v. Roupas, 385 F.3d 1128,
1131 (7th Cir. 2004).

App. 196

6
The third option is in-person voting on election day. See generally § 163 art. 14A. As with
the other two methods of voting, the General Assembly has prescribed a series of rules, to be
administered by the BOE and county boards, to ensure that in-person voting is fair, efficient, and
secure. See id.
B. The General Assembly Responds to the COVID-19 Pandemic.
The General Assembly took decisive action in response to the COVID-19 pandemic and
enacted HB 1169, which passed into law on June 12, 2020. The bill modified voting laws for the
2020 election and appropriated funding to ensure the election may be conducted in a safe, efficient,
and fair manner.
Before enacting HB 1169, the Assembly spent a month and a half working on the bill5 and
considered many proposals. The BOE advanced several, including a proposal to reduce or
eliminate the witness requirement for absentee ballots. Leland Decl., Ex. 11, State Bd. Mar. 26,
2020 Ltr. at 3. Moreover, the General Assembly had the benefit of information about other primary
elections conducted during the pandemic, such as the one in Wisconsin, as well as reports of
challenges faced by the United States Postal Service (“USPS”) during and apart from those
elections. The General Assembly was also familiar with the recent election in North Carolina’s
Ninth Congressional District, which was tainted by “absentee ballot fraud” and needed to be held
anew, and from that incident understood the importance of ballot security measures such as
restricting who can assist voters with the request for, completion, and delivery of absentee ballots.
See Leland Decl., Ex. 12, In The Matter Of: Investigation of Election Irregularities Affecting
Counties Within the 9th Cong. Dist., Order at 2 (Mar. 13, 2019).

5 Leland Decl., Ex. 10, Jordan Wilkie, NC House Passes Bipartisan Election Bill To Fund

COVID-19 Response, Carolina Public Press (May 29, 2020), at 3.

App. 197

7
HB 1169 passed with overwhelming bipartisan majorities, by a vote of 105-14 in the House
and by a vote of 37-12 in the Senate,6 and was signed by Governor Cooper. Members lauded the
bill: As Democrat representative Allison Dahle remarked, “[n]either party got everything they
wanted,” but the “compromise bill” was “better for the people of North Carolina.”7 For the
November 2020 election, among other things, the General Assembly:
•

Reduced the number of witnesses required for absentee ballots to one person
instead of two, HB 1169 § 1.(a).

•

Allowed voters to call the State or county board of elections to request a blank
absentee ballot request form be sent to the voter via mail, e-mail, or fax. Id § 5(a).

•

Enabled voters to request absentee ballots online. Id. § 7.(a).

•

Allowed completed requests for absentee ballots to be returned in person or by mail,
e-mail, or fax. Id. § 2.(a).

•

Permitted “multipartisan team” members to help any voter complete and return
absentee ballot request forms. Id. § 1.(c).

•

Provided for a “bar code or other unique identifier” to track absentee ballots. Id. §
3.(a)(9).

•

Appropriated funds “to prevent, prepare for, and respond to the coronavirus
pandemic during the 2020 federal election cycle.” Id. § 11.1.(a).

These changes balanced the public health concerns of the pandemic against the legitimate
needs for election security. To balance the public health concerns against the interests in election
security and orderly administration, the General Assembly retained several provisions, including
(1) the Postmark Requirement, (2) the three-day Receipt Deadline, (3) the Assistance Ban and
Ballot Delivery Ban, and (4) a reduced one-person Witness Requirement.

6 Leland Decl., Ex. 13, HB 1169, Voting Record.
7 See Leland Decl., Ex. 10, Jordan Wilkie, NC House Passes Bipartisan Election Bill To Fund

COVID-19 Response, Carolina Public Press (May 29, 2020).

App. 198

8
C. The Coordinated Litigation Effort To Subvert HB 1169 and Alter North
Carolina’s Election Procedures.
The General Assembly’s bipartisan action to combat the COVID-19 pandemic’s impact on
the November election was not enough for certain groups, who seized the COVID-19 pandemic
as a bases to legislate long-desired absentee voting changes through the courts. E.g., Leland Decl.,
Ex. 14, Eric Holder: Here’s How the Coronavirus Crisis Should Change U.S. Elections—For
Good, TIME (Apr. 14, 2020) (“Coronavirus gives us an opportunity to revamp our electoral system
. . .”). In North Carolina alone, Democratic Party committees and related organizations have filed
seven lawsuits attacking various aspects of North Carolina’s election code. Plaintiffs in many of
these cases filed motions to preliminarily enjoin certain aspects of HB 1169 and the North Carolina
election code.
The first North Carolina decision came in Democracy North Carolina v. North Carolina
State Bd. of Elections, No. 1:20-cv-457, 2020 WL 4484063 (M.D.N.C. Aug. 4, 2020) (Osteen, J.).
Several organizations and individuals sued the BOE and moved for a preliminary injunction,
claiming that numerous provisions of North Carolina’s election code, including the Witness
Requirement, Receipt Deadline, Postage Requirement, Assistance Ban, and Ballot Delivery Ban,
violated federal constitutional and statutory law. See id. at *5–10. The President Pro Tempore of
the North Carolina Senate and Speaker of the North Carolina House of Representatives
(“Legislative Defendants”) intervened to defend the General Assembly’s election laws, and the
Republican Committees appeared as amici. See id. *3. On August 4, after a three-day evidentiary
hearing and extensive argument, the district court issued a comprehensive 188-page opinion and
order. See generally id. The court rejected nearly all of the claims, finding that plaintiffs could
not show a likelihood of success on the merits. See id. *1, 64. For instance, the court rejected the
challenge to the Witness Requirement because even elderly, high-risk voters could fill out a ballot

App. 199

9
in a short period of time and have the witness observe the process from a safe distance, thereby
significantly reducing any risk of COVID-19 transmission. Id. at *24–33; see also id. at *52
(finding that the Ballot Delivery Ban was related to the legitimate purpose of “combating election
fraud” and would likely be upheld). Moreover, the court found that even if certain procedures did
“present an unconstitutional burden under the circumstances created by the COVID-19 pandemic,”
it was not the court’s role to “undertake a wholesale revision of North Carolina’s election laws,”
particularly so close to an election. See id. at *45 (citing Purcell v. Gonzalez, 549 U.S. 1, 127
S.Ct. 5, 166 L.Ed.2d 1 (2006)).
Although the district court denied nearly all of the plaintiffs’ claims, it did find that they
were likely to succeed on two issues. First, the court found that one plaintiff (an elderly, blind
nursing home resident) was likely to succeed on his Voting Rights Act claim challenging North
Carolina’s limitation on who could assist him with completing his ballot. Id. at *55, 61. Second,
the court found that plaintiffs were likely to succeed in showing that North Carolina’s lack of a
notification and cure procedure for deficient absentee ballots violated procedural due process. Id.
at *55. The court accordingly enjoined the Board “from allowing county boards of elections to
reject a delivered absentee ballot without notice and an opportunity to be heard until” the Board
could implement a uniform cure procedure. Id. at *64.
The BOE responded to the court’s procedural due process ruling by issuing Numbered
Memo 2020-19 (Leland Decl., Ex. 15), which (1) eliminated the requirement that county boards
match the signature on the ballot to the voter’s signature on file and (2) defined a cure procedures
for deficient absentee ballots. Id. §§ 1, 2. A voter’s failure to sign the voter certification or signing
the certification in the wrong place could be cured through an affidavit. Id. § 2.1. Affidavits could

App. 200

10
not cure deficiencies related to the Witness Requirement, meaning the ballot would be spoiled and
a new one issued to the voter. Id. Collectively, these procedures will be called the “Cure Process.”
Notwithstanding the federal court’s extensive ruling, which upheld the vast majority of the
challenged provisions, as well as the BOE’s prompt action in implementing the Cure Process, the
Democratic Party and related organizations remained undeterred. They continued to press forward
with this lawsuit and four other lawsuits in North Carolina state court challenging many of the
same provisions upheld in Democracy North Carolina, including one claiming that the Cure
Process violated North Carolina’s Constitution because it arbitrarily distinguished between
voters.8 All of those lawsuits were filed against the BOE, and the Legislative Defendants were
granted intervention in each case. Except for Chambers, in every lawsuit the Perkins Coie law
firm represented the plaintiffs against the BOE.
The second decision to address a motion to enjoin certain aspects of HB 1169 was
Chambers, which involved a challenge to the Witness Requirement. On September 3, a threejudge panel denied the plaintiffs’ motion to preliminarily enjoin the Witness Requirement. See
Leland Decl., Ex. 2, Chambers, Case No. 20-CVS-500124. After briefing with evidentiary
submissions and an oral hearing, the panel held that there was not a substantial likelihood the
plaintiffs would prevail on the merits. Id. at 6. Furthermore, it held that “the equities do not weigh
in [plaintiffs’] favor” because of the proximity of the election, the tremendous costs that the
plaintiffs’ request would impose on the State, and the confusion it would cause voters. Id. at 7.

8 See DSCC v. N.C. State Bd. of Elections, No. 20-CVS-69947 (Sup. Ct. Wake Cnty. Sept. 8, 2020)

(challenging Cure Process); Stringer v. North Carolina, No. 20-CVS-5615 (Sup. Ct. Wake Cty.
May 4, 2020) (challenges similar to those in this case); Advance North Carolina. v. North
Carolina, No. 20-CVS-2965 (Sup. Ct. Wake Cnty. Mar. 4, 2020) (limitations on who may assist
with completion and delivery of absentee ballots); North Carolina Democratic Party v. North
Carolina, No. 19-CVS-14688 (Sup. Ct. Wake Cnty. Oct. 28, 2019) (Uniform Hours requirement).

App. 201

11
Specifically, the panel determined that changes requested by plaintiffs “will create delays in
mailing ballots for all North Carolinians voting by absentee ballot in the 2020 general election and
would likely lead to voter confusion as to the process for voting by absentee ballot.” Id. (emphasis
in original).
D. The Plaintiffs’ Lawsuit and the Superior Court’s Approval and Entry of the
Consent Judgment.
Plaintiffs filed their complaint on August 10, 2020. The Legislative Defendants intervened
in their respective official capacities. On August 18, 2020, Plaintiffs filed an amended complaint
and a motion for a preliminary injunction. Among other things, the Amended Complaint requested
the court to “[s]uspend the Witness Requirement for single-person or single-adult householder”
and “[r]equire election officials to count all absentee ballots mailed through USPS and put in the
mail by Election Day if received by county boards up to nine days after Election Day.” Leland
Decl., Ex. 16, Am. Compl. at 4. On August 24, 2020, the Republican Committees moved to
intervene as defendants as well. Although the Legislative Defendants and Republican Committees
moved to send the case to a three-judge court as a facial challenge, Plaintiffs—joined by the
BOE—opposed that request and Judge Collins retained jurisdiction. On September 22, 2020,
Plaintiffs and the BOE filed a motion seeking entry of a Consent Judgment. On September 25, the
Superior Court granted the Republican Committee’s motion to intervene. The Superior Court held
a hearing on the Motion for Entry of a Consent Judgment on October 2, and approved and entered
the Consent Judgment between Plaintiffs and the BOE that same day. The Legislative Defendants
and the Republican Committees played no role in the negotiation of the Consent Judgment and
opposed its entry.
The purported Consent Judgment appears to be part of a nation-wide strategy formulated
by lawyers for the Democratic National Committee. Ironically dubbed the “Democracy Docket,”

App. 202

12
the group is funded by unreported contributions. As Marc Elias of Perkins Coie, the Democratic
Party’s top election lawyer and founder of Democracy Docket, put it, if litigation could lead to an
increase of “1 percent of the vote [for Democrats], that would be among the most successful tactics
that a campaign could engage in.” Leland Decl., Ex. 17, Marc Elias Tweet. The “Democracy
Docket” boasts that it has sponsored 56 lawsuits in 22 states around the country by Democratic
Party committees and their allies to rewrite election laws in the state and federal courts. Leland
Decl., Ex. 18, Marc Elias, “Committed to Justice,” On the Docket Newsletter (Sept. 2020). But
rather than litigating those cases to conclusions—because they might and most often do lose on
their challenges, as they have in North Carolina—their emerging strategy is to cut backroom deals
with friendly state election officials to eliminate statutory protections against fraud, sow confusion
among the electorate and election officials, and extend the November 2020 election into midNovember or beyond. Already, this strategy has played out in purported “consent decrees” entered
with complicit election officials in Rhode Island,9 Virginia,10 and Minnesota.11 This is an effort
to take responsibility for election laws from the state legislatures, where it is vested by Article I,
section 4 of the Constitution, and place it in the courts.
E. The Consent Judgment’s Purported Changes to North Carolina’s Voting Law.
The Consent Judgment purports to resolve Plaintiffs’ lawsuit by substantially altering
North Carolina’s voting procedures though three BOE “Numbered Memos,” which are attached to
and a part of the Consent Judgment. The Numbered Memos: (1) extend the deadline for receipt
of mailed-in ballots from three days after election day, as plainly specified in the statute, to nine

9

Common Cause R.I. v. Gorbea, 20-cv-00318, 2020 WL 4365608 (D. RI July 30, 2020).
10 Leland Decl., Ex. 19, League of Women Voters of Va. v. Va. State Bd., 20-cv-24, (W.D. Va.
Aug. 21, 2020).
11 Leland Decl., Ex. 20, LaRose v. Simon, 62-CV-20-3149, (Ramsey Cty. Dist. Ct. July 17, 2020).

App. 203

13
days after election day; (2) effectively eliminate the statutory requirement that one person witness
an absentee ballot; (3) emasculate the statutory requirement that only mailed ballots postmarked
by 5:00 p.m. on election day be counted; and (4) neuter restrictions on who can handle and return
completed ballots. The changes to North Carolina’s voting law enacted by the Consent Judgment
are as follows:
Receipt deadline. The voting law enacted by the General Assembly requires that absentee
ballots be delivered by 5:00 p.m. on election day, or if they are mailed by the USPS, that they are
postmarked by election day and received no later than three days after election day (by Nov. 6,
2020) by 5:00 p.m. N.C.G.S. § 163-231(b)(2). Numbered Memo 2020-22, purports to extend the
deadline by six days: “An absentee ballot shall be counted as timely if it is either (1) received by
the county board by 5:00 p.m. on Election Day; or (2) the ballot is postmarked on or before
Election Day and received by nine days after the election, which is Thursday, November 12, 2020
at 5:00 p.m.” Leland Decl., Ex. 21, Numbered Memo 2020-22 at 1.
Witness requirement. The voting law was recently revised by the General Assembly to
reduce, for the 2020 election, the requirement that two individuals witness a voter’s absentee ballot
to a one-witness requirement. HB 1169 § 1.(a). The BOE’s Revised Numbered Memo 2020-19
goes further and would allow an absentee ballot for which the witness or assistant did not print his
or her name or address, or sign the ballot, to be cured by a voter a certification. Leland Decl., Ex.
22, Revised Numbered Memo 2020-19 at 2. A voter who submits an absentee ballot without a
witness will be sent a certification for the voter to sign, and upon receipt of that unwitnessed
certification, the BOE will count the ballot.
Postmark requirement. With respect to absentee ballots that are mailed by USPS and
received within three days of the election, the voting laws require that the ballots be “postmarked”

App. 204

14
on or before the election day by 5:00 p.m. N.C.G.S. § 163-231(b)(2). However, for remaining
elections in 2020, which could include run-offs as well as the November 3 election, Numbered
Memo 2020-22 provides that a ballot “shall be considered postmarked by Election Day if it has a
postmark affixed to it or if there is information in BallotTrax, or another tracking service offered
by the USPS or a commercial carrier, indicating that the ballot was in the custody of USPS or the
commercial carrier on or before Election Day.” Leland Decl., Ex. 21, Numbered Memo 2020-22
at 2 (emphasis added). This rewrites the plain meaning of the statute. A “postmark” is “[a]n
official mark put by the post office on an item of mail to cancel the stamp and to indicate the place
and date of sending or receipt.” Postmark, Black’s Law Dictionary (11th ed. 2019).12
Ballot delivery and assistance bans.

Pursuant to the laws enacted by the General

Assembly, completed mail ballots may be returned in person by the voter, the voter’s near relative
or verifiable legal guardian, or by mail using USPS or a commercial courier. N.C.G.S. §§ 163229(b); 163-231(a)-(b); HB 1169 §§ 1.(a), 2.(a). It is a class I felony for any other person to take
possession of an absentee ballot of another voter for deliver or return to a county board of elections.
N.C.G.S. § 163-223.6(a)(5). With limited exceptions, North Carolina law also prohibits anyone
except the voter’s near relative or legal guardian from assisting a voter with the completion and
submission of an absentee ballot. N.C.G.S. § 163-226.3. The Consent Judgment would effectively
neuter these protections. Numbered Memo 2020-23 provides that “[a] county board shall not
disapprove an absentee ballot solely because it was delivered by someone who was not authorized
to possess the ballot” and that “a county board may not disapprove a ballot solely because it is
placed in a drop box.” Leland Decl., Ex. 25, Numbered Memo 2020-23 at 2-3.

12 See also USPS processing guidelines, https://about.usps.com/handbooks/po408/ch1_003.htm.

App. 205

15
F. The United States District Court’s Concern with Revised Numbered Memo
2020-19.
Plaintiffs have alleged that one of the three Numbered Memos incorporated into the
Consent Judgment—Revised Numbered Memo 2020-19—responds to the U.S. District Court’s
decision in Democracy North Carolina, 2020 WL 4484063.

See Consent Judgment at 5

(referencing injunction in Democracy North Carolina).
On September 28, 2020, six days after the BOE and the plaintiffs in this case filed their
motion with the Superior Court to approve the Consent Judgment, they filed a copy of the Revised
Numbered Memo 2020-19 with the Middle District.
Shortly after reviewing that filing, on September 30, 2020, the Middle District ordered a
status conference at the “earliest possible date and time,” stating it “d[id] not find [Revised
Numbered Memo 2020-19] consistent with [it’s] previous order” because “it appear[ed] to th[e]
court that Memo 2020-19 . . . may be reasonably interpreted to eliminate the one-witness
requirement under the guise of compliance with th[e] court’s order.” Leland Decl., Ex. 23,
Democracy North Carolina, No. 20-cv-00457, Order at *12 (M.D.N.C. Sept. 30, 2020). That same
day, the Democracy North Carolina plaintiffs filed a motion asking the court to enforce its order
granting in part and denying in part those plaintiffs’ motion for a preliminary injunction, or in the
alternative, to clarify and expedite clarification of the same order. Leland Decl., Ex. 24, Motion.
The court subsequently ordered additional briefing and scheduled a status conference for
October 7, 2020. Leland Decl., Ex. 25, Democracy North Carolina, No. 20-cv-00457, Order
(M.D.N.C. Oct. 1, 2020); Leland Decl., Ex. 26, Democracy North Carolina, No. 20-cv-00457,
Order (M.D.N.C. Oct. 2, 2020). The court specified that, “[c]ontrary to the [BOE Defendants’]
suggestion,” it did “not intend to instruct state officials on how to conform their conduct to state
law.” Leland Decl., Ex. 26, Democracy North Carolina, No. 20-cv-00457, Order, Dkt. 152, at *5

App. 206

16
(M.D.N.C. Oct. 2, 2020). And it continued to express concern that its “preliminary injunction was
used to obtain relief [(i.e. elimination of the Witness Requirement) that the] court denied in the
first instance.” Id.
G. The United States District Court’s Temporary Restraining Order Enjoining
Enforcement of the Numbered Memos Attached to the Settlement Agreement.
After Plaintiffs in this case and the BOE moved the Superior Court to enter the Consent
Judgment, the Republican Committees and certain other individuals filed suit in the United States
District Court for the Eastern District of North Carolina challenging the Consent Judgment under
federal law and asserting four counts: (1) violation of the Elections Clause in the United States
Constitution, Art. II, § 4; (2) violation of the Electors Clause of the United States Constitution,
Art. II, § 1; (3) dilution of the right to vote under the Fourteenth Amendment of the United States
Constitution; and (4) denial of equal protection under the Fourteenth Amendment of the United
States Constitution. Wise v. North Carolina State Board of Elections, No. 5:20-cv-505-D,
Complaint, Dkt. 1 (E.D.N.C. Sept. 26, 2020). The Legislative Defendants, also joined by other
individuals, filed a complaint in the same court raising similar challenges to the Consent Judgment.
Moore v. Circosta, No. 20-cv-507-D, Complaint, Dkt. 1 (E.D.N.C. Sept. 26, 2020). With the filing
of their complaints, the plaintiffs in Wise and Moore also filed motions for a temporary restraining
order to temporarily enjoin enforcement of the Numbered Memos accompanying the Consent
Judgment.
After hearing argument on October 2, the U.S. District Court granted the motions the
following day, and temporarily enjoined the defendants in Wise and Moore from enforcing the
Numbered Memos attached to the Consent Judgment “or any similar memoranda or policy
statement that does not comply with the requirement of the Equal Protection Clause.” Leland
Decl, Ex. 7, Moore, No. 20-CV-507, Order at *19 (E.D.N.C. Oct. 3, 2020). The order is in effect

App. 207

17
until no later than October 16, 2020, and the court noted it is “intended to maintain the status quo.”
Id. The court found the “plaintiffs’ argument concerning the Equal Protection Clause persuasive,”
and concluded that the plaintiffs:
(1) . . . are likely to succeed on the merits of their claims that the provision in the
[Numbered Memos] violate the plaintiff voters’ rights under the Equal Protection
Clause; (2) . . . are likely to suffer irreparable harm absent a temporary restraining
order; (3) the balance of the equities tips in their favor; and (4) a temporary
restraining order is in the public interest.
Id. at 12. In evaluating the factors for a temporary restraining order, the court expressed concern
that the Numbered Memos would “materially chang[e] the electoral process in the middle of an
election after over 300,000 people have voted,” and observed that the temporary restraining order
would “restor[e] the status quo for absentee voting in North Carolina,” while the court assesses the
case. Id. at 15. By the same order, both complaints (Wise and Moore) were transferred to the
Judge Osteen in the United States District Court for the Middle District of North Carolina. Id. at
19. Judge Osteen has scheduled the motions for preliminary injunction in both Wise and Moore
for October 8, at 10:30 am.
H. The Voting To Date in North Carolina.
As Judge Dever determined, the substantial changes to North Carolina voting law
envisioned by the Consent Judgment would come a month after absentee mail voting began,13 and
only weeks before the November 2020 election. Indeed, on September 22, 2020—the date the
Plaintiffs and BOE filed their motion for entry of the Consent Judgment—the BOE’s website noted
that, as of 4:40 a.m., 153,664 North Carolina Voters had cast absentee ballots.14 As of October 4,

13

Absentee voting by mail began on Sept. 4, 2020 when absentee ballots were mailed to North
Carolina voters. See N.C.G.S. § 163-227.10.
14 See https://www.ncsbe.gov/results-data/absentee-data.

App. 208

18
North Carolinians had requested 1,157,60615 absentee ballots, and 340,79516 completed ballots
had been returned.
ARGUMENT
I.

STANDARD OF REVIEW
North Carolina Appellate Rule of Procedure 23 governs when a writ of supersedeas and

temporary stay pending review of the petition for writ of supersedeas may issue. It provides that
“[a]pplication may be made to the appropriate appellate court for a writ of supersedeas to stay the
. . . enforcement of any judgment . . . which is not automatically stayed by the taking of appeal
when an appeal has been taken” and where “extraordinary circumstances make it impracticable to
obtain a stay by deposit of security or by application to the trial tribunal for a stay order.” The
purpose of a temporary stay and writ of supersedeas is to “preserve the Status quo pending the
exercise of appellate jurisdiction.” Craver v. Craver, 298 N.C. 231, 237–38, 258 S.E.2d 357, 362
(1979). Rule 23 requires the applicant to show that the writ should issue “in justice” to the
applicant. N.C. R. App. P. 23(c). The limited authority suggests that courts should balance (1) the
petitioner’s likelihood of success on the merits of the appeal; (2) whether irreparable injury will
occur absent a stay, and (3) whether the balancing of the equities supports temporary relief
preserving the status quo during the appeal. See Abbott v. Highlands, 52 N.C. App. 69, 79, 277
S.E.2d 820 827 (1981) (stay appropriate where “there [was] some likelihood that plaintiffs would
have prevailed on appeal and thus been irreparably injured”); Home Indem. Co. v. Hoechst
Celanese Corp., 128 N.C. App. 113, 117-19, 493 S.E.2d 806, 809-11 (1997) (stay appropriate
where failure to stay enforcement “would work a substantial injustice”).

15
16

See https://www.ncsbe.gov/ for an updated total.
See https://www.ncsbe.gov/results-data/absentee-data.

App. 209

19
North Carolina Rule of Appellate Procedure 2 governs the Court’s authority to expedite
the briefing and resolution of this matter. That rule provides the Court discretionary authority to
“suspend or vary the requirements or provisions of any of these rules” in order to (a) prevent
manifest injustice to a party, or (b) to “expedite decision in the public interest.” N.C. R. App. P.
2. While North Carolina courts apply this rule “cautiously,” the rule establishes the appellate
authority “to consider, in exceptional circumstances, significant issues of importance in the public
interest or to prevent injustice which appears manifest to the court.” Selwyn Village Homeowners
Ass’n v. Cline & Co., 186 N.C. App. 645, 650, 651 S.E.2d 909, 912 (2007) (quoting State v. Hart,
361 N.C. 309, 315–16, 644 S.E.2d 201, 205 (2007)).
II.

ALL FACTORS WEIGH IN FAVOR OF ISSUANCE OF A WRIT OF
SUPERSEDEAS AND TEMPORARY STAY
A. Writ of Supersedes and Stay Pending Resolution of the Petition for Writ of
Supersedes Are Necessary To Avoid Irreparable Harm to the Republican
Committees.
A writ of supersedeas and temporary stay are necessary to avoid irreparable harm to the

Republican Committees and their members. In addition to the harm to voters, discussed below
(Part II.B.), the Republican Committees have expended considerable resources to get out the vote
for their preferred candidates in North Carolina and to educate voters about North Carolina’s
election laws. These investments will be wasted if the Consent Judgment goes into effect. See
Leland Decl., Ex. 3, Dore Decl. ¶¶ 11–13; Leland Decl., Ex. 4, White Decl. ¶¶ 7–10; Leland Decl.,
Ex. 5, Dollar Decl. ¶¶ 10–11; Leland Decl., Ex. 6, Clark Decl. ¶¶ 7–9. For example, the NCRP
spent $250,000 in support of door-knocking efforts to educate voters, and over $2.2 million on
direct mail campaigns to educate over 7.6 million North Carolina households about absentee ballot
procedures. Dore Decl. ¶¶ 11, 13. The RNC also set up four Victory Headquarters Field Offices
in North Carolina and has approximately 16 paid staff working on voter education in the state.

App. 210

20
White Decl. ¶ 9. The Republican Committees prioritized their strategic activities in reliance on
North Carolina’s established voting laws. See Dore Decl. ¶¶ 14–15; White Decl. ¶¶ 11–12; Dollar
Decl. ¶¶ 12–13; Clark Decl. ¶ 10. The Consent Judgment’s modifications to those voting laws
will largely negate the Republican Committees’ previous efforts, require them to educate voters
about the voting changes, and cause the Republican Committees to suffer enormous financial loss.
See Dore Decl. ¶¶ 14–15; White Decl. ¶¶ 11–12; Dollar Decl. ¶¶ 12–13; Clark Decl. ¶ 10.
B. A Writ of Supersedeas and Temporary Stay Are Also in the Public Interest.
A writ of supersedeas and temporary stay are also in the public interest. Judge Dever
recently concluded that voters who have already cast an absentee ballot are likely to suffer
irreparable harm absent a temporary restraining order to restrain enforcement of the Numbered
Memos attached to the Consent Judgment. Leland Decl, Ex. 7, Moore, No. 20-CV-507, Order at
*12–15 (E.D.N.C. Oct. 3, 2020).
In addition, the Consent Judgment undermines the integrity of the electoral process. The
public interest strongly favors safeguarding “public confidence in the integrity of the electoral
process.” Crawford v. Marion County Election Bd., 553 U.S. 181, 197 (2008). As detailed at pp.
12–14, the deal overrides or neuters: (1) the receipt deadline; (2) the Witness Requirement for
absentee ballots; (3) the Postmark Requirement; and (4) the Application Assistance and Ballot
Delivery bans. The nullification of each of these requirements would increase the risk of voter
fraud in the upcoming general election.
Witness Requirement. The Witness Requirement protects the integrity of the election by
serving as an impediment to voter fraud. As the federal court noted in Democracy North Carolina,
“the One-Witness Requirement plays a key role in preventing voter fraud and maintaining the
integrity of elections.” Democracy N.C., 2020 WL 4484063, at *35. “[M]uch like an in-person
voter is required to state their name and address upon presenting themselves at an in-person polling

App. 211

21
place; the act of identification, as witnessed by the poll worker, acts as the same deterrent from
committing fraud.” Id. Furthermore, even if a fraudster were determined to violate North
Carolina’s election laws, the Witness Requirement would act as a deterrent because it would
require the fraudster to enlist a confederate who is also willing to break the law and risk
prosecution. See id. at *34 (describing the recent Dowless election fraud case).
Postmark Requirement and Receipt Deadline. The Postmark Requirement and receipt
deadline work in tandem to ensure that North Carolina counts only timely submitted absentee
ballots—rather than absentee ballots that are voted after election day. Far from adhering to North
Carolina’s statutory requirement that absentee ballots be “postmarked” on or before the election
day by 5:00 p.m, see N.C.G.S. § 163-231(b)(2), Numbered Memo 2020-22 would permit absentee
ballots to be counted so long as “there is information in BallotTrax, or another tracking service
offered by the USPS or a commercial carrier, indicating that the ballot was in the custody of USPS
or the commercial carrier on or before Election Day.” Leland Decl., Ex. 21, Numbered Memo
2020-22 at 2. Relying on a non-governmental tracking service as a substitute for the Postmark
Requirement would increase the risk of absentee ballots being mailed (and ultimately counted)
after election day. See Leland Decl., Ex. 27, Ellie Kaufman, “Postmarks Come Under Scrutiny as
States Prepare for Mail-In Voting,” CNN (Aug. 11, 2020) (“Many states add a postmark
requirement to mail-in ballots to ensure that the ballots were sent before or on Election Day, trying
to prevent votes submitted after Election Day from being counted.”).
Application Assistance and Ballot Delivery bans. Statutes such as N.C.G.S. § 163226.3(a)(6) provide further deterrence for those who would interfere with validity of election
results through ballot harvesting, because they criminalize absentee ballot collection and delivery
on the part of anyone who is not a voter’s near relative or verifiable legal guardian. As the BOE

App. 212

22
itself successfully argued before a federal court just a few months ago, the Application Assistance
and Ballot Delivery bans are integral components of North Carolina’s attempt to deter voting
fraud: “North Carolina’s restrictions on absentee ballot assistance . . . reduce the risk of fraud and
abuse in absentee voting. . .” Leland Decl., Ex. 28, Democracy North Carolina, No. 1:20-cv00457-WO-JLW, State Opp. to Mot. for Preliminary Injunction, Dkt. 50, at *22 (M.D.N.C. June
26, 2020).
Finally, the Consent Judgment will disrupt the orderly administration of the election. The
State has a compelling interest in promoting the “orderly administration” of elections through laws
such as the Postmark Requirement and receipt deadline. See Crawford, 553 U.S. at 195. Not only
have absentee ballots begun going out with instructions on how to submit a valid ballot, but the
“Judicial Voter Guide,” with comprehensive instructions about voting generally, has been printed
and is being mailed. Leland Decl., Ex. 29, Bell Aff. ¶ 12. The Consent Judgment would also
create a substantial risk of confusion and chaos for voters. To use an obvious example, the Consent
Judgment would prohibit voters from using a drop box to submit ballots, but then nevertheless
require county boards to count all ballots placed in a drop box. See Leland Decl., Ex. 30,
Numbered Memo 2020-23 at 3. This new rule is self-contradictory and could confuse voters (not
to mention administrators). The extension of the receipt deadline from three days after Election
Day to nine days risks giving procrastinating voters another excuse to wait, and perhaps miss the
postmark deadline. It could even mislead voters if it turns out that the extension is overturned on
appeal before Election Day. See Leland Decl., Ex. 21, Numbered Memo 2020-22; cf. Common
Cause v. Thomsen, 2020 WL 5665475, at *2 (W.D. Wisc. Sept. 23, 2020) (noting this risk).
Moreover, extension of the Receipt Deadline and elimination of the Postmark Requirement could

App. 213

23
prompt voters to delay submission of their votes until Election Day (or after), causing a flood of
last-minute ballots that could swamp election officials and risk lost or miscounted votes.
The changed procedures would also confuse administrators, burden them with training on
revised procedures, or both, and interfere with their ability to perform their duties. For example,
the BOE already issued a cure process to county boards on August 21. If this revised process goes
into effect only six weeks later, county board officials and election workers would need additional
training on the new cure process (and the other changes in the Board’s memos), taking away
precious time from handling and processing absentee ballots. The difficulties of such a process
would be exacerbated by the numerous ambiguities in the new Numbered Memos. For instance,
election workers would have to determine what “information” on a ballot tracking service is
enough to “indicat[e]” that a ballot was in the custody of the USPS or another commercial carrier
on or before Election Day. See Leland Decl., Ex. 21, Numbered Memo 2020-22. And if a ballot
return envelope does not contain a postmark, the county boards must conduct “research” to trace
the ballot—even though the BOE has not provided any guidance as to how much research to
conduct, what sources to examine, and how long to spend on each ballot. See id. That is hardly a
recipe for orderly, uniform election administration in which each ballot is counted on an equal
basis.
C. The Republican Committees Are Likely to Prevail on Appeal.
A writ of supersedeas and temporary stay are also necessary because the Republican
Committees are likely to prevail on the merits. First, although the Consent Judgment was entered
by a single judge in the Wake County Superior Court, only a three-judge panel has authority to
approve it. Pursuant to N.C.G.S. § 1-81.1 (a1):
claims [that seek to restrain the enforcement of an act of the General Assembly in
whole or in part based on an allegation that the statute is facially invalid] shall be
transferred to a three-judge panel . . . if, after all other questions of law in the action

App. 214

24
have been resolved, a determination as to the facial validity of an act of the General
Assembly must be made in order to completely resolve any issues in the case.
N.C.G.S. § 1-81.1 (a1); see also N.C.G.S. § 1-267.1(c). A challenge is facial to the extent it is not
limited to the plaintiff’s particular case but also seeks to enjoin application of a statute to other
individuals. See State v. Grady, 372 N.C. 509, 547, 831 S.E.2d 542, 547 (2019); see also Frye v.
City of Kannapolis, 109 F. Supp. 2d 436, 439 (M.D.N.C. 1999) (“[I]f successful in an as-applied
claim the plaintiff may enjoin enforcement of the statute only against himself or herself in the
objectionable manner, while a successfully mounted facial attack voids the statute in its entirety
and in all applications.”) (emphasis added) (cited approvingly in Town of Beech Mountain v.
Genesis Wildlife Sanctuary, Inc., 247 N.C. App. 444, 460, 786 S.E.2d 335, 347 (2016), aff’d, 369
N.C. 722, 799 S.E.2d 611 (2017), to explain the difference between as-applied and facial
challenges). Thus, only a three-judge panel may enter the Consent Judgment because it grants
relief beyond the parties to the case. The Consent Judgment: (1) extends the number of days for
all counties to receive all absentee ballots postmarked by election day from November 6 to
November 12, (2) implements new, state-wide procedures for “curing” any non-compliant
absentee ballots, and (3) loosens restrictions throughout the state on who may deliver an absentee
ballot to a voting location. Further demonstrating the facial nature of the Consent Judgment and
the necessity of a three-judge panel is the fact that the Consent Judgment is meant to settle not
only this lawsuit but also two others that were found to raise facial challenges— Chambers v. State
of North Carolina, No. 20 CVS 5001242 (Super. Ct. Wake Cnty.), and Stringer v. North Carolina
State Board of Elections, No. 20-CVS-14688 (Super. Ct. Wake Cnty.). Leland Decl., Ex. 31, BOE
Bench Memo at 5-7 (Sept. 15, 2020). Indeed, the Consent Judgment states its purported objective
is “to avoid any continued uncertainty and distraction from the uniform administration of the 2020
elections,” and objective that would be best served by recognizing the facial challenge for what it

App. 215

25
is and transferring it to the statutorily required three-judge court. Leland Decl., Ex. 1, Consent
Judgment at 14.
Second, the Consent Judgment does not meet the standards for approval. The Superior
Court should not have entered the Consent Judgment because the Legislative Defendants and
Republican Committees did not approve it. “[A] court may not enter a consent decree that imposes
obligations on a party that did not consent to the decree.” Local No. 93, 478 U.S. at 529; see also
Hill v. Hill, 389 S.E.2d 141, 142 (1990) (“The authority of a court to sign and enter a consent
judgment depends upon the unqualified consent of the parties thereto, and the judgment is void if
such consent does not exist at the time the court sanctions or approves the agreement of the parties
and promulgates it as a judgment.”) (emphasis added).
The Consent Judgment also lacks the “fairness and adequacy” that is necessary for a court
to approve a consent decree. See United States v. North Carolina, 180 F.3d 574, 581 (4th Cir.
1999). “[B]efore entering a consent decree the court must satisfy itself that the agreement ‘is fair,
adequate, and reasonable.’” Id. (quoting United States v. Colorado, 937 F.2d 505, 509 (10th Cir.
1991)). To assess a consent judgement’s fairness, courts generally weigh the strength of the
plaintiffs’ arguments against the provided relief. See Flinn v. FMC Corp., 528 F.2d 1169, 1172
(4th Cir. 1975) (“If the settlement offer was grossly inadequate, it can be inadequate only in light
of the strength of the case presented by the plaintiffs.” (citation and internal alterations omitted)).
The Consent Judgment here cannot survive such an assessment. Under its terms, Plaintiffs would
receive nearly all of their requested relief: including the nullification of the witness requirement,
extension of the receipt deadline, elimination of the postmark requirement, and neutralization of
the ballot assistance and delivery bans. And the State Board has agreed to grant this relief in
exchange for Plaintiffs’ abandonment of a series of legal challenges that they have been

App. 216

26
consistently losing up to this point. The unfairness of this deal is exacerbated by its timing, as it
would impose new rules on prospective absentee voters in North Carolina while threatening to
throw the system into chaos. The Consent Judgment would accordingly grant relief that is grossly
disproportionate to the strength of Plaintiffs’ case, and its entry should be stayed for that reason.
Third, entry of the Consent Judgment violates the Elections, Electors and Equal Protection
clauses in the United States Constitution. The Elections Clause of the United States Constitution,
mandates that “[t]he Times, Places and Manner of holding Elections for Senators and
Representatives, shall be prescribed in each State by the Legislature thereof.” U.S. Const., art. I,
§ 4, cl. 1. The only caveat is that “Congress may at any time by Law make or alter such
Regulations, except as to the Places of chusing [sic] Senators.” Id. Analogously, the Electors
Clause of the United States Constitution provides that “[e]ach State shall appoint, in such Manner
as the Legislature thereof may direct, a Number of Electors” for President. U.S. Const., art. II,
§ 1, cl. 2. Neither the North Carolina’s “legislature” nor the United States Congress approved the
deal. The General Assembly constitutes the “Legislature” of the State of North Carolina, see N.C.
Const., art. II, § 1, and it has already exercised its exclusive constitutional power to regulate the
time, places, and manner of election during the COVID-19 pandemic through the enactment of
HB 1169.
In HB 1169, the North Carolina General Assembly stepped forward to fulfill its
constitutional responsibility to address the worst pandemic in a century, reaching a carefullynegotiated legislative compromise that garnered overwhelming bipartisan support. The Consent
Judgment throws those efforts to the wind in favor of a back room deal cut in secret between
unelected officials and a highly partisan organization. The deal would effectively nullify multiple
election laws, including: (1) the witness requirement, compare HB 1169 § 1.(a) with Leland Decl.,

App. 217

27
Ex. 22, Revised Numbered Memo 2020-19 at 2; see also Democracy N.C. v. State Bd. of Elections,
No. 1:20-cv-00457-WO-JLW, Dkt. 145, at *7 (M.D.N.C. Sept. 30, 2020) (“[I]t now appears that
on September 22, 2020, the North Carolina State Board of elections has eliminated the one-witness
requirement under the guise of compliance with this court’s order.”); (2) the receipt deadline for
mailed-in ballots, which the Consent Judgment would extend from three to nine days after election
day, compare N.C.G.S. § 163-231(b)(2) with Leland Decl., Ex. 21, Numbered Memo 2020-22 at
1; (3) the statutory requirement for mailed ballots to be postmarked by 5:00 p.m. on election day,
compare N.C.G.S. § 163-231(b)(2) with Leland Decl., Ex. 21, Numbered Memo 2020-22 at 2; and
(4) the statutory restrictions on who is permitted to assist with and deliver completed ballots,
compare N.C.G.S. § 163-229(b); id. § 163-231(a)-(b); id. § 163-223.6(a)(5); HB 1169 §§ 1.(a),
2.(a) with Leland Decl., Ex. 30, Numbered Memo 2020-23 at 2-3. Under this new regime, a future
voter would be able to have his or her absentee ballot counted despite failing to adhere to one or
more statutory voting requirements—and despite hundreds of thousands of previous North
Carolina voters’ being bound by, and subject to having their votes voided for failing to follow, the
very absentee voting requirements that the State Board would now nullify. See also pp. 12–14
above (discussing changes enacted by the Numbered Memos). Courts have long rejected similar
efforts to limit state legislatures’ powers under the Elections Clause and the Electors Clause.
McPherson v. Blacker, 146 U.S. 1, 35 (1892) (noting that the Michigan legislature’s ability to
select the method for appointing electors to the Electoral College under the Electors Clause of the
U.S. Constitution “cannot be taken from [the Michigan legislature] or modified by [its] state
constitution[]”); In re Plurality Elections, 8 A. 881, 882 (R.I. 1887) (noting that any provision of
the Rhode Island constitution that sought to “impose a restraint upon the [Rhode Island
legislature’s] power [to] prescribe[e] the manner of holding . . . elections [of representatives to

App. 218

28
Congress]” was void because the Elections Clause of the U.S. Constitution gives the power to the
legislature, limited only by Congressional regulations).
Moreover, Judge Dever recently concluded that other plaintiffs are likely to prevail on the
merits of their equal protection challenge to the Consent Judgment. Leland Decl, Ex. 7, Moore,
No. 20-CV-507, Order at *19 (E.D.N.C. Oct. 3, 2020) (finding plaintiffs likely to prevail on Equal
Protection challenge to the Consent Judgment).
Fourth, the BOE grossly exceeds its statutory authority by entering the Consent Judgment.
While the BOE has the power to exercise “general supervision over the primaries and elections in
the State,” it is expressly prohibited from implementing rules and regulations that “conflict with
any provisions of this Chapter.” N.C.G.S. § 163-22(a); see also id. § 163-22(c) (providing that
the BOE “shall compel observance of the requirement of the election laws by the county boards of
elections and other election officers”). Similarly, another statute provides that the BOE’s authority
“to make reasonable interim rules and regulations with respect to the pending primary or election”
is subject to the following constraint: those rules must “not conflict with any provisions of this
chapter 163 of the General Statutes.” Id. § 163-22.2. 17 Even if the BOE were acting pursuant to
its “emergency powers to conduct an election in a district where the normal schedule for the
election is disrupted” due to a “natural disaster” under N.C.G.S. § 163-27.1(a), 18 that same statute

17

Section 163-22.2 does not apply. It requires as a precondition that a state or federal court hold
all or part of the election statutes “unconstitutional or invalid.” That has not happened. Judge
Osteen did not invalidate a single provision; he held that the Board was required to provide due
process to a voter before rejecting an absentee ballot. See Democracy N.C., 2020 WL 4484063,
at *64. Further, the challenges to HB 1169 have moved swiftly and are not “protracted.” And as
shown the Stipulated Judgment conflicts in many material ways with the General Statutes.
18 On its face, this provision does not apply. It allows the Board to use “emergency powers to
conduct an election in a district where the normal schedule for the election is disrupted by . . . a
natural disaster.” To begin, the General Assembly has already addressed the pandemic
“emergency”/“natural disaster,” and it would make no sense to interpret this provision to allow the
Board to undo what the General Assembly has done based on the very same “emergency”/“natural

App. 219

29
mandates that “the Executive Director shall avoid unnecessary conflict with the provisions of this
Chapter.” Id. (emphasis added). The Supreme Court of North Carolina has already invalidated
actions from the BOE that would have nullified a North Carolina election law requiring that voters
register and vote in the precinct in which they reside. See James v. Bartlett, 359 N.C. 260, 270,
607 S.E.2d 638, 644 (2005). This Consent Judgment involves a similar agency attempt to nullify
election laws through unilateral administrative action, and its entry should accordingly be stayed
pending appeal.
Moreover, the Consent Judgment cannot be entered because the Legislative Defendants are
necessary parties to any consent judgment in this case under state law, N.C.G.S. § 120-32.6(b),
and they did not consent. Pursuant to N.C.G.S. § 120-32.6, as here, when the “validity or
constitutionality of an act of the General Assembly” is “the subject of an action in any State or
federal court, the Speaker of the House of Representatives and the President Pro Tempore of the
Senate, as agents of the State through the General Assembly, shall be necessary parties.” In fact,
they are “lead counsel” and “possess final decision-making authority.” Id. Because the Legislative
Defendants are a necessary party and were not included, the court lacked power to enter the
Consent Judgment. Guilford Cty. v. Eller, 146 N.C. App. 579, 581, 553 S.E.2d 235, 236 (2001)
(“It is well-settled that ‘‘[t]he power of the court to sign a consent judgment depends upon the
unqualified consent of the parties thereto; and the judgment is void if such consent does not exist
at the time the court sanctions or approves the agreement and promulgates it as a judgment.’’”)
(citation omitted).

disaster.” Second, the provision authorizes action only in a “district,” not statewide. Third, it
applies only “when the normal schedule for the election has been disrupted,” whereas the 2020
election will proceed on schedule on November 3. And, as indicated, the statute instructs the
Board to avoid unnecessary conflict with the statutes.

App. 220

30

D. A Writ of Supersedeas and Temporary Stay Would Maintain the Status Quo.
A writ of supersedeas and temporary stay are also appropriate because they would maintain
the status quo. See Leland Decl, Ex. 7, Moore, No. 20-CV-507, Order at *19 (E.D.N.C. Oct. 3,
2020). Voting has been underway since Sept. 4, 2020, and, as of October 4, 2020, 340,79519 North
Carolinians had already voted under the current rules.
III.

EXPEDITED REVIEW IS IN THE PUBLIC INTEREST

Expedited review is in the public interest. See N.C. Rule App. Proc. 2 (court has discretion
to “suspend or vary the requirements or provisions” of the rules to “expedite decision in the public
interest”). As of October 4, 2020, the BOE reported that 1,157,60620 North Carolinians had
requested an absentee ballot and 340,79521 had returned completed absentee ballots to the BOE.
The rules for absentee voting thus impact not only the Republican Committees and their members,
but also hundreds of thousands of North Carolinians. Moreover, the November election is only
weeks away, necessitating prompt resolution of these matters and the procedures by which
absentee voting will occur.
CONCLUSION
The Republican Committees respectfully request that the Court grant their petition and
motion and (1) temporarily stay enforcement of the Superior Court’s October 2, 2020 Order during
review of the petition for writ of supersedeas; (2) issue a writ of supersedeas suspending the
Superior Court’s October 2, 2020 order; and (3) expedite the briefing and resolution of this appeal.
Respectfully submitted this the 5th day of October, 2020.

19
20
21

See https://www.ncsbe.gov/results-data/absentee-data.
See https://www.ncsbe.gov/ for an updated total.
See https://www.ncsbe.gov/results-data/absentee-data.

App. 221

31

Dated: October 6, 2020

By:

Bobby R. Burchfield*
Matthew M. Leland*
KING & SPALDING LLP
1700 Pennsylvania Ave., N.W., Suite 200
Washington, D.C. 20006-4707
Telephone: (202) 737-0500
Facsimile: (202) 626-3737
Bburchfield@kslaw.com
Mleland@kslaw.com
Attorneys for Republican Committees
*Seeking Pro Hac Vice Admission

App. 222

R. Scott Tobin, NC Bar No. 34317
TAYLOR ENGLISH DUMA LLP
4208 Six Forks Road, Suite 1000
Raleigh, NC 27609
Telephone: (404) 640-5951
stobin@taylorenglish.com
Attorney for Republican Committees

VERIFICATION
Pursuant to Rule 23(c), I have read the foregoing Petition for Writ of Supersedeas and
Motion for Temporary Stay and Expedited Review and pursuant to Appellate Rule 23, I hereby
certify that the material allegations and contents of the foregoing petition are true to my knowledge,
except those matters stated upon information and belief and, as to those matters, I believe them to
be true.

R. Scott Tobin

App. 223

CERTIFICATE OF SERVICE
I certify that I have on this 6th day of October, 2020, served a copy of the foregoing by
email and United States mail, postage prepaid, to counsel for the Plaintiffs, Defendants, and
Intervenor-Defendants at the following addresses:
For the Plaintiffs:

For the Defendants:

Marc E. Elias
Uzoma N. Nkwonta
Ariel B. Glickman
Jyoti Jasrasaria
Lalitha D. Madduri
PERKINS COIE LLP
700 Thirteenth St., N.W., Suite 600
Washington, D.C. 20005-3960

Alexander McC. Peters
Paul M. Cox
NORTH CAROLINA DEPARTMENT
OF JUSTICE
P.O. Box 629
Raleigh, N.C. 27602

Burton Craige-State Bar No. 9180
Narendra K. Ghosh-State Bar No.
37649
Paul E. Smith, State Bar No. 45014
PATTERSON HARKAVY LLP
l 00 Europa Dr., Suite 420
Chapel Hill, N.C. 27517
For Intervenor-Defendants:
Nicole J. Moss-State Bar No. 31958
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
Telephone: (202) 220-9600
Fax: (202) 220-9601
nmoss@cooperkirk.com
Nathan Huff
State Bar No. 40626
PHELPS DUNBAR LLP
4140 Park Lake Avenue, Suite 100
Raleigh, N.C. 27612
Telephone: (919) 789-5300
Fax: (919) 789-5301
nathan.huff@phelps.com
R. Scott Tobin

App. 224

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

^

( vOTE
TRENDING

Voter Guide

79º

Daily Survey

Schools and COVID

Reopenings

Hurricane Seas…

The latest news on the 2020 presidential election
DECISION 2020

Florida Extends Deadline After Crash of Voter Registration Site
Investigation underway after system had issues on ﬁnal day to register to vote in state
Published October 6, 2020 • Updated on October 6, 2020 at 8:12 pm






Pause

NBC Universal, Inc.

2:35

Florida Voter Registration Extended to Tuesday Evening

Gov. Ron DeSantis is extending the voter registration deadline here in Florida after the state’s
website crashed. NBC 6’s Steve Litz reports.

App. 225

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

1/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

Florida Gov. Ron DeSantis extended the state’s voter registration deadline Tuesday after unexpected
and unexplained heavy traffic crashed the state’s online system and potentially prevented thousands
of enrolling to cast ballots in next month’s presidential election.
DeSantis extended the deadline that expired Monday until 7 p.m. EDT Tuesday. In addition to online
registration, DeSantis ordered elections, motor vehicle and tax collectors offices to stay open until 7
p.m. local time for anyone who wants to register in person.
“You can have the best site in the world, but sometimes there are hiccups,” DeSantis said during a
press conference at The Villages, a large retirement community in central Florida. “If 500,000 people
descend at the same time, it creates a bottleneck.”

Local
9 HOURS AGO

FIU Humiliated in Loss to FCS Foe Jacksonville State

11 HOURS AGO

App. 226

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

2/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

11 HOURS AGO

Pedestrian Hit, Killed by Truck in Hollywood

The state is investigating why its voter registration system crashed on Monday, saying unexpectedly
heavy traffic that can't be immediately explained poured in during the closing hours.

With COVID-19 case numbers rising, will
you change your daily routine?

Yes, back to quarantine

No, I feel safe

Never left quarantine

Florida Secretary of State Laurel Lee, who oversees the voting system, said the online registration
system “was accessed by an unprecedented 1.1 million requests per hour” during the last few hours
of Monday.
"At this time, we have not identified any evidence of interference or malicious activity impacting the
site," Lee said in a statement Tuesday evening. "We will continue to monitor the situation and provide
any additional information as it develops."
Lee had tweeted on Monday that some users experienced delays for about 15 minutes while trying to
register due to high volume, but that they had increased capacity.

App. 227

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

3/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

Laurel M. Lee
@FLSecofState

OVR is online and working. Due to high volume, for
about 15 minutes, some users experienced delays while
trying to register. We have increased capacity. You can
register until midnight tonight.
Thank you to those who immediately brought this to
our attention.
5:57 PM · Oct 5, 2020
104

353 people are Tweeting about this

A civil rights group is threatening to sue if the governor does not extend the deadline. The Lawyers'
Committee for Civil Rights Under Law said the breakdown would unjustly deprive thousands of
casting ballots for president and other offices.
“We are not going to stand by idly,” said Kristen Clarke, the group's president. She said the group sued
Virginia in 2016 after its computer system crashed just before the deadline, winning an extension
that allowed thousands of additional voters to register.
Democrats throughout the state have pushed for an extension to the deadline.
"Not planning for a voter registration surge is voter suppression. Not ensuring everyone who wants to
register can do so is voter suppression. Not extending the deadline is voter suppression.
@GovRonDeSantis & @FLSecofState, you must extend the deadline," tweeted Nikki Fried, Florida's
Commissioner of Agriculture and consumer services and the state's highest-ranked Democrat.

Nikki Fried
@nikkifried

Not planning for a voter registration surge is voter
suppression.
Not ensuring everyone who wants to register can do so
is voter suppression.
App. 228

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

4/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

Not extending the deadline is voter suppression.

^

( vOTE
Tjjy
\

@GovRonDeSantis & @FLSecofState, you must extend
the deadline.

Florida voter registration site stops working hours before deadline
Those waiting until the last minute to register to vote experienced
problems gaining access to the Florida’s voter registration websit…
orlandosentinel.com
10:44 PM · Oct 5, 2020 from Tallahassee, FL
1.7K

921 people are Tweeting about this

"This is just latest attempt from the Republican leaders in Florida to limit democracy. The Florida
Voter Registration website not working on the last day to register to vote in Florida is blatant voter
suppression. Fix the website, stop the suppression, and let democracy work," Terrie Rizzo, chair of the
Florida Democratic Party, said in a statement.
“The utter incompetence of Gov. Ron DeSantis in allowing the state’s voter registration website to
crash on the very last day to register for the upcoming November election is, sadly, completely
believable,” U.S. Rep. Debbie Wasserman Schultz said. “His administrative buffoonery in operating
the state’s unemployment system telegraphed today’s executive ineptitude. However, this particular
blunder intimates a continuing pattern of voter suppression that the governor has become notorious
for.”
Sarah Dinkins, a Florida State University student, tried to help her younger sister register Monday
night. They began trying about 9 p.m. and by 10:30 p.m. had not been successful.
App. 229

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

5/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

“I feel very frustrated,” she said. “If the voting website doesn’t work, fewer people potentially
Democratic voters will be able to vote."
This is not the first major computer shutdown to affect the state government this year. For weeks in
the spring, tens of thousands of Floridians who lost their jobs because of the coronavirus pandemic
couldn't file for unemployment benefits because of repeated crashes by that overwhelmed computer
system, delaying their payments. DeSantis replaced the director overseeing the system but blamed
the problems on his predecessor, fellow Republican Rick Scott, who is now a U.S. senator.
Pause

2:20

Florida Addresses Problems With Voter Registration Site at
Deadline
NBC 6's Julia Bagg has more on what o cials are saying after some people claim they may have had their
registration denied due to the problems.
AP and NBC 6

This article tagged under:
DECISION 2020 • FLORIDA • RON DESANTIS • LOCAL POLITICS







0


App. 230

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

6/10

STATE OF NORTH CAROLINA
COUNTY OF WAKE

) IN THE GENERAL COURT OF JUSTICE
)
SUPERIOR COURT DIVISION
)
)
)
CASE NO. 20 CVS 8881
)
)
)
)
)
)
)
)
LEGISLATIVE DEFENDANTS’
) OPPOSITION TO PLAINTIFFS’ AND
) EXECUTIVE DEFENDANTS’ JOINT
)
MOTION FOR ENTRY OF A
)
CONSENT JUDGMENT
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS; BARKER
FOWLER; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM
KOCIEMBA; SANDRA MALONE; AND
CAREN RABINOWITZ,
PLAINTIFFS,
v.
THE NORTH CAROLINA STATE
BOARD OF ELECTIONS; AND DAMON
CIRCOSTA, Chair of the North Carolina
State Board of Elections,
DEFENDANTS, and
PHILIP E. BERGER in his official capacity
as President Pro Tempore of the North
Carolina Senate; and TIMOTHY K.
MOORE in his official capacity as Speaker
of the North Carolina House of
Representatives,
INTERVENORDEFENDANTS, and
REPUBLICAN NATIONAL COMMITTEE;
NATIONAL REPUBLICAN SENATORIAL
COMMITTEE; NATIONAL REPUBLICAN
CONGRESSIONAL COMMITTEE;
DONALD J. TRUMP FOR PRESIDENT,
INC; AND NORTH CAROLINA
REPUBLICAN PARTY;
REPUBLICAN COMMITTEE
INTERVENORDEFENDANTS.
__________________________________

1
App. 231

Intervenor-Defendants Philip E. Berger, in his official capacity as President Pro Tempore
of the North Carolina Senate, and Timothy K. Moore, in his official capacity as Speaker of the
North Carolina House of Representatives (“Legislative Defendants”), respectfully submit this
opposition to Plaintiffs’ and Executive Defendants’ Joint Motion for Entry of a Consent Judgment.
I.

Introduction
The motion for entry of a consent judgment currently before the Court was reached in

secret without the involvement or knowledge of Legislative Defendants—the parties with “final
decision-making authority with respect to the defense of” the laws Plaintiffs challenge. N.C. GEN.
STAT. § 120-32.6(b). With the filing of the motion, the North Carolina State Board of Elections
(“NCSBE”) has now joined Plaintiffs in seeking to rewrite the North Carolina General Assembly’s
carefully considered, balanced structure of election laws and substitute their judgment instead. But
the U.S. Constitution expressly vests the General Assembly with the authority to prescribe the
times, places, and manner of holding elections for federal office in the State of North Carolina,
subject to a legislative check by the U.S. Congress. U.S. CONST. art. I, § 4. And the General
Assembly recently revised the election laws—on a bipartisan basis—to address concerns related
to the COVID-19 pandemic, including by reducing to one the number of individuals required to
witness an absentee ballot, see Bipartisan Elections Act of 2020, 2020 N.C. Sess. Laws 2020-17
(“HB1169”) § 1.(a); expanding the pool of authorized poll workers to include county residents
beyond a particular precinct, id. § 1.(b); allowing absentee ballots to be requested online, by fax,
or by email, id. §§ 2.(a), 7.(a); giving additional time for county boards to canvass absentee ballots,
§ 4; and providing over $27 million in funding for election administration, id. § 11.
Plaintiffs, however, believe they know better than North Carolina’s elected officials what
needs to be done to balance the State’s interests in election administration, access to the polls, and

2
App. 232

election integrity during a global pandemic. Apparently unsatisfied with HB1169, which gives
them some, but not all, of what they seek, Plaintiffs filed suit on August 10, 2020, nearly two
months after HB1169 was signed into law. They now proffer a proposed consent judgment with
the NCSBE that would radically change North Carolina election procedures in contradiction to
North Carolina law, including by vitiating the witness requirement, extending the absentee ballot
receipt deadline, expanding the category of ballots eligible to be counted if received after election
day, undermining the General Assembly’s criminal prohibition of the unlawful delivery of
completed ballots, and providing a clear avenue for ballot harvesters to submit absentee ballots in
drop boxes after hours that will nevertheless be counted.
Fortunately for North Carolinians, Plaintiffs’ and the NCSBE’s proposed consent judgment
fails to satisfy the necessary requirements for this Court to enter it for numerous reasons. First,
Legislative Defendants are necessary parties to any consent judgment in this case under state law,
N.C. GEN. STAT. § 120-32.6(b), and because they do not consent, the consent judgment cannot be
entered. Second, Plaintiffs assert facial challenges to the election laws at issue, thereby divesting
this court of jurisdiction. State v. Grady, 372 N.C. 509, 522 (2019) (internal quotation marks
omitted). Third, the evidence indicates that the proposed consent judgment is a product of
collusion, not an arm’s length agreement between Plaintiffs and the NCSBE. Fourth, the proposed
consent judgment is illegal because it violates the federal Constitution’s Elections Clause and
Equal Protection Clause. Fifth, the consent judgment is not “fair, adequate, and reasonable,”
United States v. North Carolina, 180 F.3d 574, 581 (4th Cir. 1999) (internal quotation marks
omitted), because the Plaintiffs are unlikely to succeed on the merits of their claims and the relief
contemplated by the proposed consent judgment is vastly disproportionate to the expected harm.
And sixth, the consent judgment is against the public interest.

3
App. 233

For these and the additional reasons explained below, the Court should deny Plaintiffs’ and
Executive Defendants’ Joint Motion for Entry of a Consent Judgment.
II.

Standard
Because a consent judgment is a “judgment” of this Court, it cannot be entered without the

Court’s “examin[ation]” and “approval.” Smyth ex rel. Smyth v. Rivero, 282 F.3d 268, 280 (4th
Cir. 2002). When considering whether to grant a consent judgment, the Court should “not blindly
accept the terms of a proposed settlement.” North Carolina, 180 F.3d at 581. As federal appellate
courts have explained, approving a consent judgment “requires careful court scrutiny,” not a
“mechanistic[] ‘rubber stamp.’” Ibarra v. Tex. Emp. Comm’n, 823 F.2d 873, 878 (5th Cir. 1987);
United States v. BP Amoco Oil PLC, 277 F.3d 1012, 1019 (8th Cir. 2002). After all, a “court is
more than ‘a recorder of contracts’ from whom parties can purchase injunctions.” Local No. 93,
Int’l Ass’n of Firefighters, AFL-CIO C.L.C. v. City of Cleveland, 478 U.S. 501, 525 (1986). It is
“an organ of government constituted to make judicial decisions,” and it cannot “lend the aid of
the . . . court to whatever strikes two parties’ fancy.” Id.; Kasper v. Bd. of Elections Comm’rs of
the City of Chi., 814 F.2d 332, 338 (7th Cir. 1987). Instead, every consent judgment must be
“examine[d] carefully” to ensure that its terms are “fair, adequate, and reasonable.” United States
v. City of Miami, 664 F.2d 435, 440–41 (5th Cir. 1981) (en banc) (Rubin, J., concurring). The court
also “must ensure that the agreement is not illegal, a product of collusion, or against the public
interest.” United States v. Colorado, 937 F.2d 505, 509 (10th Cir. 1991); Aronov v. Napolitano,
562 F.3d 84, 91 (1st Cir. 2009) (“A court entering a consent decree must examine its terms to be
sure they are fair and not unlawful.”).
Particularly where a proposed consent judgment “contains injunctive provisions or has
prospective effect, the district court must be cognizant of and sensitive to equitable

4
App. 234

considerations.” Ibarra, 823 F.2d at 878. Moreover, “[i]f the decree also effects third parties, the
court must be satisfied that the effect on them is neither unreasonable nor proscribed.” City of
Miami, 664 F.2d at 441 (Rubin, J., concurring); see also, e.g., Bass v. Fed. Sav. & Loan. Ins. Corp.,
698 F.2d 328, 330 (7th Cir. 1983). In short, the Court “must assure itself that the parties have
validly consented; that reasonable notice has been given possible objectors, that the settlement is
fair, adequate, and reasonable; that the proposed decree will not violate the Constitution, a statute,
or other authority; that it is consistent with the objectives of Congress; and, if third parties will be
affected, that it will not be unreasonable or legally impermissible as to them.” Durrett v. Hous.
Auth. of City of Providence, 896 F.2d 600, 604 (1st Cir. 1990).
Examination of a plaintiff’s likelihood of success on the merits is a necessary component
to consideration of whether a consent judgment should enter. The Court must “consider[] the
underlying facts and legal arguments” that support or undermine the proposal. BP Amoco Oil, 277
F.3d at 1019. While courts need not conduct a full-blown trial, they must “reach ‘an intelligent and
objective opinion of the probabilities of ultimate success should the claim be litigated.’” Flinn v.
FMC Corp., 528 F.2d 1169, 1173 (4th Cir. 1975).
This Court must determine Plaintiffs’ likelihood of success on the merits here for two
reasons. First, the proposed consent judgment suspends multiple provisions of North Carolina’s
duly enacted state election laws. “A consent decree is not a method by which state agencies may
liberate themselves from the statutes enacted by the legislature that created them.” Kasper, 814
F.2d at 341–42. A “consent judgment in which the executive branch of a state consents not to
enforce a law is ‘void on its face,’” unless the approving court finds “a probable violation of . . .
law.” Id. at 342. A judge cannot “put the court’s sanction on and power behind a decree that

5
App. 235

violates Constitution, statute, or jurisprudence.” City of Miami, 664 F.2d at 441 (Rubin, J.,
concurring).
Second, the merits are “[t]he most important factor” in determining whether the consent
judgment is fair, adequate, and reasonable, since these factors can be examined “only in light of
the strength of the case presented by the plaintiffs.” Flinn, 528 F.2d at 1172. Courts can gauge “the
fairness of a proposed compromise” by “weighing the plaintiff’s likelihood of success on the
merits against the amount and form of the relief offered.” Carson v. Am. Brands, Inc., 450 U.S.
79, 88 n.14 (1981). As explained below, the proposed consent judgment here cannot meet the
standards necessary for its entry.
While Legislative Defendants recognize that this Court’s authority to enter a consent
judgment is governed by State, not federal, law, Legislative Defendants’ citations to federal cases
as persuasive authority on this point are appropriate given the lack of authoritative precedent from
the North Carolina courts in this area. See N.C. Ins. Guar. Ass’n v. Weathersfield Mgmt., LLC,
836 S.E.2d 754, 758 (N.C. Ct. App. 2019) (“When this Court reviews an issue of first impression,
it is appropriate to look to decisions from other jurisdictions for persuasive guidance.”); Higgins
v. Synergy Coverage Sols., LLC, No. 18 CVS 12548, 2020 NCBC LEXIS 6, at *54 n.5 (N.C.
Super, Ct. Jan. 15, 2020) (unpublished) (explaining that federal cases may be “persuasive to the
Court’s analysis, especially [in] the absence of North Carolina case law” on a topic); cf. Lord v.
Customized Consulting Specialty, Inc., 164 N.C. App. 730, 733 (2004) (recognizing that, when
interpreting North Carolina rules of procedure, “[i]n the absence of North Carolina case law, we
look to federal cases for guidance”); Roberts v. Swain, 353 N.C. 246, 250 (2000) (holding that, in
light of the existence of applicable North Carolina precedent, “it was unnecessary for the Court of
Appeals to look to federal case law for guidance”).

6
App. 236

III.

Argument
Plaintiffs’ and the NCSBE’s proposed consent judgment is neither fair nor reasonable nor

legal. It suspends constitutional laws that Plaintiffs were unlikely to succeed in attacking. It
appears to be not an arm’s-length deal between adversaries but a sweetheart deal that gives
Plaintiffs substantial changes to the election laws, including some they did not even ask for, while
causing North Carolinians confusion and undermining confidence in the integrity of the election.
And it is against the public interest, divesting control of the election mechanics from
democratically accountable officials and nullifying lawful election provisions. This Court should
reject it.
A.

The Proposed Consent Judgment Cannot Enter Because Legislative
Defendants’ Consent, a Necessary Component, Is Lacking

Legislative Defendants intervened as of right in this case as agents of the State on behalf
of the General Assembly under N.C. GEN. STAT. §§ 1A-1, 24, 1-72.2(b), and 120-32.6(b).
Legislative Defendants are “necessary parties” in every case in which “the validity or
constitutionality of an act of the General Assembly or a provision of the Constitution of North
Carolina is the subject of an action in any State or federal court,” and “in such cases, . . . possess
final decision-making authority with respect to the defense of the challenged act . . . or provision
of the North Carolina Constitution.” Id. § 120-32.6(b). Legislative Defendants represent not only
the interests of the State in defending its democratically enacted laws, see Hollingsworth v. Perry,
570 U.S. 693, 709–10 (2013); Karcher v. May, 484 U.S. 72, 82 (1987), but also the interest of the
General Assembly itself in defending the constitutionality of the challenged election law
provisions, Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n, 576 U.S. 787, 803–04
(2015); Va. House of Delegates v. Bethune-Hill, 139 S. Ct. 1945, 1953–54 (2019). Consequently,
these provisions mandate that any consent judgment cannot enter without the consent of
7
App. 237

Legislative Defendants. Cf. Guilford County v. Eller, 146 N.C. App. 579, 581, 553 S.E.2d 235,
236 (2001) (“It is well-settled that the power of the court to sign a consent judgment depends upon
the unqualified consent of the parties thereto; and the judgment is void if such consent does not
exist at the time the court sanctions or approves the agreement and promulgates it as a judgment.”)
(cleaned up). Indeed, entering a consent judgment over the objection of Legislative Defendants
would represent an end-run around the statutes making Legislative Defendants a necessary party
to this case and giving them primacy in the defense of state laws from constitutional attack.
Because Legislative Defendants have not given consent here, the proposed consent judgment must
be rejected.
B.

This Court Does Not Have Jurisdiction to Enter the Proposed Consent
Judgment Because Plaintiffs’ Challenges to the Various Election Laws are
Facial.

While we acknowledge the Court has decided to the contrary, we respectfully submit that
Plaintiffs’ claims are facial for the reasons we have explained in our briefing and argument to the
Court. As we have explained, the North Carolina Supreme Court has held that a claim is facial to
the extent that it seeks relief for individuals beyond the plaintiffs to the case. See Grady, 372 N.C.
at 546–47 (citing a civil case, Doe v. Reed, 561 U.S. 186, 194 (2010)).
What is more, even if the facial nature of Plaintiffs’ claims were not clear from the face of
their complaint, it is clearly established by the relief requested in the proposed consent judgment,
which is programmatic in nature and to be effectuated through the issuance of Numbered Memos
to all 100 county boards of elections throughout the state. See Plaintiffs’ and Executive
Defendants’ Joint Motion for Entry of a Consent Judgment at 14–16 (“Proposed Consent
Judgment”). Indeed, two limitations on the relief sought that Plaintiffs seized upon to assert that
their claims are as applied—the limitation of the challenge to the witness requirement to

8
App. 238

individuals who do not reside with another adult and the limitation of the challenge to the ballot
receipt deadline to ballots sent through the U.S. Postal Service (“USPS”), see Plaintiffs’ Response
to Intervenor-Defendants’ Motion and Cross-Motion for Recommendation for Rule 2.1
Designation at 3 (Aug. 24, 2020)—have disappeared in the proposed consent judgment. Plaintiffs
and the NCSBE instead seek to relieve all voters of the necessity of complying with the witness
requirement and to extend the receipt deadline for all ballots sent out for delivery by election day,
whether through the USPS or a commercial carrier. See Proposed Consent Judgment at 15–16.
Further demonstrating the facial nature of the proposed consent judgment before the Court
is the fact that the NCSBE’s actions are meant to settle not only this lawsuit but also two others
that this Court has found raise facial challenges—Chambers v. State, No. 20 CVS 500124, and
Stringer v. N.C. State Bd. of Elections, No. 20 CVS 5615. See Bench Memo at 5–7 (Sept. 15, 2020)
(attached as Ex. 1 to Affidavit of Nicole Jo Moss in Support of Legislative Defendants’ Opposition
to Plaintiffs’ and Executive Defendants’ Joint Motion for Entry of a Consent Judgment (“Moss
Aff.”)). Indeed, the proposed consent judgment must be intended to buy NCSBE global peace,
otherwise it could not possibly achieve its purported objective “to avoid any continued uncertainty
and distraction from the uniform administration of the 2020 elections.” Proposed Consent
Judgment at 14.
For the foregoing reasons, even if Plaintiffs’ claims could have been plausibly described
as as applied at one time, that is no longer the case. A single judge of this Court therefore lacks
jurisdiction to enter the proposed consent judgment, and Plaintiffs’ case must be transferred to a
three-judge panel immediately. See N.C. GEN. STAT. §§ 1A-1, Rule 42, 1-81.1(a1), 1-267.1(a1).

9
App. 239

C.

This Court Must Not Enter the Proposed Consent Judgment Because There Is
a Substantial Risk It Is the Product of Collusion

The substantial risk of collusion at play in this litigation is another reason for the Court to
decline to enter the proposed consent judgment. The proposed consent judgment must be rejected
because it likely does not reflect arm’s-length negotiations and gives a windfall to Plaintiffs. A
consent judgment is generally a “request for the court to exercise its equitable powers,” which in
turn “involves the court’s sanction and power and is not a tool bending without question to the
litigants’ will.” League of United Latin Am. Citizens, Council No. 4434 v. Clements, 999 F.2d 831,
846 (5th Cir. 1993). “[P]arties cannot, by giving each other consideration, purchase from a court
of equity a continuing injunction.” Id. (quoting Sys. Fed’n No. 91, Ry. Emps. Dep’t, AFL-CIO v.
Wright, 364 U.S. 642, 651 (1961)).
Consent judgments must be not only substantively sound but also procedurally fair.
Procedural fairness is evaluated “from the standpoint of [both] signatories and nonparties to the
decree.” United States v. Akzo Coatings of Am., Inc., 949 F.2d 1409, 1435 (6th Cir. 1991). Consent
judgments are procedurally fair when they flow from negotiations “filled with ‘adversarial vigor.’”
United States v. City of Waterloo, No. 15-cv-2087, 2016 U.S. Dist. LEXIS 7224, at *12 (N.D.
Iowa Jan. 20, 2016). The parties must “negotiat[e] in good faith and at arm’s length.” BP Amoco
Oil, 277 F.3d at 1020. Agreements that lack adversarial vigor become “collusi[ve],” and are, by
definition, not fair. Colorado, 937 F.2d at 509.
In fact, a consent judgment between non-adverse parties “is no judgment of the court[;] [i]t
is a nullity.” Lord v. Veazie, 49 U.S. 251, 256 (1850). This rule stems from the fundamental
requirement that parties be concretely adversarial before a court can act on their claims. See Neuse
River Found., Inc. v. Smithfield Foods, Inc., 155 N.C. App. 110, 114, 574 S.E.2d 48, 51–52 (2002).
The requisite adversity plainly is lacking when “both litigants desire precisely the same result.”
10
App. 240

Moore v. Charlotte-Mecklenburg Bd. of Educ., 402 U.S. 47, 47–48 (1971); see also Time Warner
Ent. Advance / Newhouse P’ship v. Town of Landis, 228 N.C. App. 510, 516 (2013) (internal
quotation marks omitted) (explaining that a justiciable controversy “entails an actual controversy
between parties having adverse interests in the matter in dispute”). In other words, a collusive suit
lacks “the ‘honest and actual antagonistic assertion of rights’ to be adjudicated—a safeguard
essential to the integrity of the judicial process.” United States v. Johnson, 319 U.S. 302, 305
(1943).
Regrettably, “it is not uncommon for consent decrees to be entered into on terms favorable
to those challenging governmental actions because of rifts within the bureaucracy or between the
executive and legislative branches.” Ragsdale v. Turnock, 941 F.2d 501, 517 (7th Cir. 1991)
(Flaum, J., concurring in part and dissenting in part). That is why courts must and do look
skeptically at consent judgments used to enact or modify governmental policy. Otherwise, nonadverse parties could employ consent judgments to “sidestep political constraints” and obtain relief
otherwise unavailable through the political process. Michael W. McConnell, Why Hold Elections?
Using Consent Decrees to Insulate Policies from Political Change, 1987 U. CHI. LEGAL F. 295,
317; see also, e.g., Horne v. Flores, 557 U.S. 443, 448–49 (2009) (observing that “public officials
sometimes consent to . . . decrees that . . . bind state and local officials to the policy preferences of
their predecessors and may thereby deprive future officials of their legislative and executive
powers”); Nw. Env’t Advocates v. EPA, 340 F.3d 853, 855 (9th Cir. 2003) (Kleinfeld, J.,
dissenting) (warning that “consent decrees between advocacy groups and agencies present a risk
of collusion to avoid executive and ultimately democratic control over the agencies”); Carcaño v.
Cooper, No. 16-cv-236, 2019 U.S. Dist. LEXIS 123497, at *21 (M.D.N.C. July 23, 2019)
(“[W]here there has been little adversarial activity, a federal court must be especially discerning

11
App. 241

when presented with a proposal in which elected state officials seek to bind their successors as to
a matter about which there is substantial political disagreement . . . .”). In particular, “judges should
be on the lookout for attempts to use consent decrees to make end runs around the legislature.”
Kasper, 814 F.2d at 340; see Dunn v. Carey, 808 F.2d 555, 560 (7th Cir. 1986) (“A court must be
alert to the possibility that a consent decree is a ploy in some other struggle.”).
Employing a consent judgment to sidestep political constraints and obtain relief otherwise
unavailable through the political process is exactly what is occurring here. The NCSBE, despite
Executive Director Bell’s March 26, 2020 letter to the General Assembly, failed to convince the
General Assembly to adopt all of its recommendations—including many of the same changes that
Plaintiffs seek here. For example, the General Assembly considered Executive Director Bell’s
recommendation that it eliminate the witness requirement but rejected it, deciding to accept her
alternative recommendation to reduce to one the witness requirement instead. See HB1169 § 1.(a).
Moreover, both a state court and a federal court have rejected motions to preliminarily enjoin the
witness requirement, finding that plaintiffs in those cases had not shown a likelihood of success
on the merits. See Order on Injunctive Relief at 6–7, Chambers v. State, No. 20 CVS 500124 (N.C.
Super. Ct. Sept. 3, 2020); Democracy N.C. v. N.C. State Bd. of Elections, No. 20-cv-457, 2020
U.S. Dist. LEXIS 138492, at *103 (M.D.N.C. Aug. 4, 2020). And according to two NCSBE
members who recently resigned, the NCSBE entered into the proposed consent judgment without
apprising NCSBE members of the fact that “a lot of the concessions” in the consent judgment had
been previously rejected by these courts. See Ken Raymond Resignation Letter (Sept. 23, 2020)
(attached as Ex. 2 to Moss Aff.); David Black Resignation Letter (Sept. 23, 2020) (attached as Ex.
3 to Moss Aff.). Those same board members were also not apprised of the Legislative Defendants’
significant involvement in those cases or that the legislature was not being informed of or consulted

12
App. 242

with about the proposed settlement. See Affidavit of Ken Raymond (attached as Ex. 4 to Moss
Aff.); Affidavit of David Black (attached as Ex. 5 to Moss Aff.). The NCSBE provides no
justification for its sudden course reversal in the face of its demonstrated successes in court.
There are other circumstances that raise concerns about potential collusion in this case. The
claims here are essentially a subset of the claims asserted in Stringer, a case filed by Plaintiffs’
counsel several months before this one. The principal difference is that Plaintiffs in this case have
attempted (unsuccessfully, in Legislative Defendants’ view) to plead their claims as as applied
challenges—a characterization the NCSBE has endorsed. The chronology and the NCSBE’s ready
agreement with Plaintiffs that the claims here are as applied are consistent with collusion between
the parties. The August 18, 2020 notice of voluntary dismissal of claims against the State of North
Carolina, originally a defendant here, also is consistent with collusion, as it appears to have been
done to provide an argument (again, unsuccessfully in Legislative Defendants’ view) for why
Legislative Defendants’ agreement was not necessary for the entry of a consent judgment. See
N.C. GEN. STAT. § 1-72.2(a) (“[W]hen the State of North Carolina is named as a defendant in
[cases in state court challenging the validity of an act of the General Assembly] both the General
Assembly and the Governor constitute the State of North Carolina.”).
At bottom, a court is not a place where parties with mutual interests can “purchase . . . a
continuing injunction.” Clements, 999 F.2d at 846. Yet that is precisely what the proposed consent
judgment seeks. The NCSBE is in effect aligned with Plaintiffs, and this Court should find that the
proposed consent judgment bears too many hallmarks of collusion to be appropriately entered by
the Court. Accordingly, the proposed consent judgment must be rejected—or, at a minimum,
Legislative Defendants must be permitted to take discovery before Plaintiffs’ and the NCSBE’s
motion is decided to investigate the evidence of collusion apparent from the public record.

13
App. 243

D.

This Court Must Not Enter the Proposed Consent Judgment Because It Is
Illegal.

The proposed consent judgment undermines North Carolina’s election statutes and
effectively nullifies statutes enacted by the General Assembly while depriving the State of its
ability to “enforce its duly enacted” laws. Abbott v. Perez, 138 S. Ct. 2305, 2324 n.17 (2018). The
proposed consent judgment violates two provisions of the federal Constitution that protect North
Carolina’s elections and the right to vote: the Elections Clause and the Equal Protection Clause.
1.

The Proposed Consent Judgment Violates the Elections Clause

The text of the Elections Clause is clear: “[t]he Times, Places and Manner of holding
Elections for Senators and Representatives, shall be prescribed in each State by the Legislature
thereof; but the Congress may at any time by Law make or alter such Regulations, except as to the
Places of chusing [sic] Senators.” U.S. CONST. art. I, § 4, cl. 1 (emphasis added). Accordingly,
there are only two entities that may constitutionally regulate federal elections: Congress and the
state “Legislature.” Neither the NCSBE nor this Court have the authority to override the General
Assembly’s exercise of this authority through the proposed consent judgment. If entered, therefore,
the consent judgment would be unconstitutional because it would overrule the enactments of the
General Assembly to regulate the times, places, and manner of holding the upcoming federal
election.1
The General Assembly is the “Legislature,” established by the people of North Carolina.
N.C. CONST. art. II, § 1. And the North Carolina Constitution affirmatively states that the grant of
legislative power to the General Assembly is exclusive—“[t]he legislative, executive, and supreme

While this Court in Stringer did not accept the argument that claims like Plaintiffs’ are foreclosed
by the political question doctrine (which Legislative Defendants continue to assert), it does not follow that
the Elections Clause allows the NCSBE to change the State’s election laws without the General Assembly’s
consent, either with or without this Court’s entry of a consent judgment.
1

14
App. 244

judicial powers of the State government shall be forever separate and distinct from each other.” Id.
art. I, § 6; see also State v. Berger, 781 S.E.2d 248, 250 (N.C. 2016). With this grant of exclusive
legislative power, the General Assembly is vested with the authority to “enact[] laws that protect
or promote the health, morals, order, safety, and general welfare of” the State. Id. Concurrently,
this exclusive grant of legislative power means the U.S. Constitution has assigned the role of
regulating federal elections in North Carolina to the General Assembly.
The word “Legislature” in the Elections Clause was “not . . . of uncertain meaning when
incorporated into the Constitution.” Hawke v. Smith, 253 U.S. 221, 227 (1920). And “the
Legislature” means now what it meant then, “the representative body which ma[kes] the laws of
the people.” Id.; see, e.g., THE FEDERALIST NO. 27, at 174–75 (Alexander Hamilton) (Clinton
Rossiter ed., 1961) (defining “the State legislatures” as “select bodies of men”); NOAH WEBSTER,
AN AMERICAN DICTIONARY OF THE ENGLISH LANGUAGE (1828) (defining “Legislature” as “the
body of men in a state or kingdom, invested with power to make and repeal laws”); SAMUEL
JOHNSON, A DICTIONARY

OF THE

ENGLISH LANGUAGE (1755) (defining “Legislature” as “[t]he

power that makes laws”). By choosing to use the word “Legislature,” the Elections Clause makes
clear that the Constitution does not grant the power to regulate elections to states as a whole, but
only to the state’s legislative branch, Ariz. Indep. Redistricting Comm’n, 576 U.S. at 814, and in
North Carolina that is the General Assembly.
The Framers had a number of reasons to delegate (subject to Congress’s supervisory
power) the task of regulating federal elections to state Legislatures like the General Assembly.
Specifically, the Framers understood the regulation of federal elections to be an inherently
legislative act. After all, regulating elections “involves lawmaking in its essential features and most
important aspect.” Smiley v. Holm, 285 U.S. 355, 366 (1932); cf. Ariz. Indep. Redistricting

15
App. 245

Comm’n, 576 U.S. at 808 (observing that “redistricting is a legislative function, to be performed
in accordance with the State’s prescriptions for lawmaking”). And so, as one participant in the
Massachusetts debate on the ratification of the Constitution explained, “[t]he power . . . to regulate
the elections of our federal representatives must be lodged somewhere,” and there were “but two
bodies wherein it can be lodged—the legislatures of the several states, and the general Congress.”
2 JONATHAN ELLIOT, THE DEBATES IN THE SEVERAL STATE CONVENTIONS ON THE ADOPTION OF
THE

FEDERAL CONSTITUTION,

AS

RECOMMENDED

BY

THE

GENERAL CONVENTION

AT

PHILADELPHIA, IN 1787 (Jonathan Elliot ed., 2d ed., Philadelphia, J.B. Lippincott Co., 1881).
Further, the Framers were aware of the possibility that regulations governing federal
elections could be ill-designed. James Madison, for instance, acknowledged that those with power
to regulate federal elections could “take care so to mould their regulations as to favor the candidates
they wished to succeed.” 2 THE RECORDS OF THE FEDERAL CONVENTION OF 1787 (Max Farrand
ed., 1911), available at https://bit.ly/3kPvZRu. But as with so many other problems the Framers
confronted, their solution was structural and democratic. To ensure appropriate regulation of
federal elections, the Elections Clause gives responsibility to the most democratic branch of state
government—the Legislature—so that the people may check any abuses at the ballot box. And as
a further check, the Elections Clause gives supervisory authority to the most democratic branch of
the federal government—the U.S. Congress.
The text and history of the Elections Clause thus confirm that the General Assembly is the
only constitutionally empowered state entity to regulate federal elections. And as the Supreme
Court has explained with respect to the Presidential Electors Clause—the closely analogous
provision of Article II, Section 1 that empowers state legislatures to select the method for choosing
electors to the Electoral College—the state legislatures’ power to prescribe regulations for federal

16
App. 246

elections “cannot be taken.” McPherson v. Blacker, 146 U.S. 1, 35 (1892). And courts have long
recognized this limitation on the power of states to restrain the discretion of state legislatures under
the Elections Clause and the Presidential Electors Clause. See, e.g., State ex rel. Beeson v. Marsh,
34 N.W.2d 279, 286–87 (Neb. 1948); Commonwealth ex rel. Dummit v. O’Connell, 181 S.W.2d
691, 695 (Ky. Ct. App. 1944); In re Plurality Elections, 8 A. 881, 882 (R.I. 1887); In re Opinion
of Justices, 45 N.H. 595, 601 (1864).
The NCSBE has clearly violated the Elections Clause by issuing numbered memos to
effectuate the proposed consent judgment that purport to adjust the rules of the election that have
already been set by statute, and this Court would be doing the same were it to validate the NCSBE’s
unconstitutional behavior through entry of the consent judgment. Neither the NCSBE nor this
Court have freestanding power under the Constitution to rewrite North Carolina’s election laws
and to “prescribe[]” their own preferred “[r]egulations.” U.S. CONST. art. I, § 4, cl. 1. Rather, as
noted above, the North Carolina Constitution states that “[t]he legislative power of the State shall
be vested in the General Assembly,” N.C. CONST. art. II, § 1, and it makes clear that “[t]he
legislative, executive, and supreme judicial powers of the State Government shall be forever
separate and distinct from each other, id. art. I, § 6. And where there is an exception to this
separation, it is expressly indicated. See id. art. IV, § 1 (“The judicial power of the State shall,
except as provided in Section 3 of this Article”—addressing administrative agencies—“be vested
in a Court for the Trial of Impeachments and in a General Court of Justice.”) (emphasis added).
Thus, neither the NCSBE nor this Court are the “Legislature” empowered to adjust the rules of the
federal election on their own.
Because the People of North Carolina have not granted legislative power to the NCBSE or
the Court, this case is far afield from Arizona Independent Redistricting Commission. In that case,

17
App. 247

the Supreme Court dealt with a provision of the Arizona Constitution—adopted through popular
initiative—that vested an independent state commission with authority over drawing federal
congressional districts. The state legislature claimed that the federal Elections Clause rendered that
allocation of authority invalid, but the Supreme Court disagreed, concluding that the independent
state commission simply acted as “a coordinate source of legislation on equal footing with the
representative legislative body.” Arizona Indep. Redistricting Comm’n, 576 U.S. at 795. But here
neither the NCSBE nor this Court have legislative power and are not on equal footing with the
General Assembly. Indeed, the North Carolina Supreme Court expressly held that a prior version
of the NCSBE “clearly performs primarily executive, rather than legislative or judicial, functions.”
Cooper v. Berger, 809 S.E.2d 98, 112 (N.C. 2018). It therefore struck down provisions limiting
the Governor’s control over the NCSBE. The current version of the statute does not change the
nature of the NCSBE’s activities but rather addresses the constitutional infirmities recognized by
Cooper. Compare id. at 114, with N.C. GEN. STAT. § 163-19.
Even if it were possible in some circumstances for an executive agency like the NCSBE to
exercise the authority to prescribe regulations governing the times, places, and manner of federal
elections that the Elections Clause assigns exclusively to the legislature (and it is not), the NCSBE
would lack authority to do so here. The NCSBE is a creature of statute. See N.C. GEN. STAT. § 16319(a) (“There is established the State Board of Elections . . . .”). And consistent with being a
creature of statute, the NCSBE is limited by the statute that created it. “The State Board of
Elections shall have general supervision over the primaries and elections in the State, and it shall
have authority to make such reasonable rules and regulations . . . as it may deem advisable so long
as they do not conflict with any provisions of this Chapter.” See id. § 163-22(a) (emphasis added).
Thus, the General Assembly has not granted the NCSBE any power to overrule the duly enacted

18
App. 248

statutes governing elections or given it any form of legislative power. Quite the contrary, the
NCSBE is not allowed to issue any rules or regulations that “conflict” with provisions enacted by
the General Assembly.
To be sure, Executive Director Bell has limited statutory authority to make necessary
changes to election procedures in response to “a natural disaster.” N.C. GEN. STAT. § 163-27.1.
But the current pandemic is not a “natural disaster” under the statute and its implementing
regulations “describing the emergency powers and the situations in which the emergency powers
will be exercised,” id.; see 8 N.C. ADMIN. CODE 1.0106, and the North Carolina Rules Review
Commission unanimously rejected an earlier attempt by Executive Director Bell to extend her
emergency powers to the pandemic, see Rules Review Commission Meeting Minutes at 4 (May
21, 2020), https://bit.ly/3kLAY5y (attached as Ex. 6 to Moss Aff.). In declining to approve the
changes to the Rule, the Rules Review Commission explained that the NCSBE “does not have the
authority to expand the definition of ‘natural disaster’ as proposed” in the amendments. Id.
The proposed consent judgment will replace the judgment of the General Assembly with
that of the NCSBE. But “consent is not enough when litigants seek to grant themselves power they
do not hold outside of court.” Clements, 999 F.2d at 846. Accordingly, “an alteration of the [state]
statutory scheme may not be based on consent alone.” Kasper, 814 F.2d at 342; see also PG Publ’g
Co. v. Aichele, 705 F.3d 91 (3d Cir. 2013) (finding that where no violation of law had been found,
court lacked authority to enter a consent decree “that would violate a valid state law”); Kasper,
814 F.2d at 341–42 (“A consent decree is not a method by which state agencies may liberate
themselves from the statutes enacted by the legislature that created them.”); Nat’l Revenue Corp.
v. Violet, 807 F.2d 285, 288 (1st Cir. 1986) (holding that a consent judgment was “void on its face”
because state Attorney General lacked authority to stipulate that a statute was unconstitutional);

19
App. 249

League of Residential Neighborhood Advocates v. City of Los Angeles, 498 F.3d 1052, 1055 (9th
Cir. 2007) (“A . . . consent decree . . . cannot be a means for state officials to evade state law.”).
Recently, the court in League of Women Voters of Michigan v. Benson, No. 17-cv-14148,
2019 U.S. Dist. LEXIS 228463 (E.D. Mich. Feb. 1, 2019), denied a motion to enter a consent
decree resolving a partisan gerrymandering case. The League of Women Voters had cut a deal
with the newly elected Democrat Michigan Secretary of State to require portions of Michigan’s
redistricting maps to be redrawn. The Republican congressional delegation and two Republican
state legislators, who had intervened, objected to the entry of the consent decree. Id. at *4. The
court declined to enter the consent decree because under the Michigan constitution, only the
Michigan Legislature had authority to “regulate the time, place and manner of all . . . elections.”
Id. at *10. The U.S. Constitution, of course, similarly limits authority to regulate federal elections
to the General Assembly. And North Carolina’s Constitution states that the grant of legislative
power to the General Assembly is exclusive. N.C. CONST. art. I, § 6.
The Constitution delegated to a single North Carolina entity the power to regulate federal
elections: the General Assembly. Thus, because the proposed consent judgment purports to alter
the time, place, and manner for holding the upcoming federal election in a manner that contravenes
the General Assembly’s duly enacted statutes, its entry would violate the Elections Clause.

2.

The Proposed Consent Judgment Violates the Equal Protection Clause

State election laws may not “deny to any person within” the state’s “jurisdiction the equal
protection of the laws.” U.S. CONST. amend. XIV, § 1. The Constitution thus ensures “the right of
all qualified citizens to vote, in state as well as in federal elections.” Reynolds v. Sims, 377 U.S.

20
App. 250

533, 554 (1964). “Obviously included within the right to [vote], secured by the Constitution, is the
right of qualified voters within a state to cast their ballots and have them counted . . . .” United
States v. Classic, 313 U.S. 299, 315 (1941). But the right to vote includes the right to have one’s
ballot counted “at full value without dilution or discount.” Reynolds, 377 U.S. at 555 n.29 (internal
quotation marks omitted).
To ensure equal weight is afforded to all votes, the Equal Protection Clause further requires
states to “avoid arbitrary and disparate treatment of the members of its electorate.” Bush v. Gore,
531 U.S. 98, 105 (2000); see also Dunn v. Blumstein, 405 U.S. 330, 336 (1972) (“[A] citizen has
a constitutionally protected right to participate in elections on an equal basis with other citizens in
the jurisdiction.”); Gray v. Sanders, 372 U.S. 368, 380 (1963) (“The idea that every voter is equal
to every other voter in his State, when he casts his ballot in favor of one of several competing
candidates, underlies many of [the Supreme Court’s] decisions.”). “[T]reating voters different”
thus “violate[s] the Equal Protection Clause” when the disparate treatment is the result of arbitrary,
ad hoc processes. See Charfauros v. Bd. of Elections, 249 F.3d 941, 954 (9th Cir. 2001).
At a minimum then, the Equal Protection Clause requires the “nonarbitrary treatment of
voters” and forbids voting practices that are “standardless,” without “specific rules designed to
ensure uniform treatment.” Bush, 531 U.S. at 103, 105–06; League of Women Voters of Ohio v.
Brunner, 548 F.3d 463, 477–78 (6th Cir. 2008). Consequently, the “formulation of uniform rules”
is “necessary” because the “want of” such rules may lead to “unequal evaluation of ballots.” Bush,
531 U.S. at 106.
If entered, the proposed consent judgment would violate these constitutional requirements,
thereby infringing on the Equal Protection rights of those 153,664 North Carolina voters who had

21
App. 251

already cast their absentee ballots before the proposed consent judgment was announced 2 to
“participate in” the upcoming election “on an equal basis with other citizens in” North Carolina,
Dunn, 405 U.S. at 336, and the Equal Protection right of all North Carolina voters to have their
ballots counted “at full value without dilution or discount,” Reynolds, 377 U.S. at 555 n.29.
i.

The Proposed Consent Judgment Subjects Voters in the Same
Election to Different Regulations

First, if the proposed consent judgment is entered, North Carolina will be administering its
election in an arbitrary fashion pursuant to nonuniform rules that will result in the unequal
evaluation of ballots. As discussed above, North Carolina law requires all absentee ballots to be
witnessed by one qualifying adult. See HB1169 § 1.(a). North Carolina prohibits any person other
than a voter’s “near relative” or “verifiable legal guardian” from delivering a completed absentee
ballot to a county board of elections. N.C. GEN. STAT. § 163-226.3(a)(5). And North Carolina also
requires absentee ballots to be received, at the latest, by 5:00 p.m. three days after election day.
These provisions governed the absentee ballot submission process for the 153,664 voters who had
already cast their absentee ballots before the proposed consent judgment was announced.
Similarly, these provisions had governed the nearly 950,000 voters who had requested absentee
ballots prior to the proposed consent judgment.3 The proposed consent judgment is thus a sudden
about-face on the rules governing the ongoing election that upends the careful bipartisan
framework that has structured voting so far.
While the proposed consent judgment effectively nullifies the witness requirement and the
ballot harvesting ban, the NCSBE has also been plainly inconsistent in what each provision

2

Absentee Data, N.C. STATE BD. OF ELECTIONS (Sept. 29, 2020), available at
https://bit.ly/33SKzAw.
3
Absentee Data, N.C. STATE BD. OF ELECTIONS (Sept. 29, 2020), available at
https://bit.ly/33SKzAw.

22
App. 252

requires. On August 21, 2020, the NCSBE explained in Numbered Memo 2020-19 that a failure
to comply with the witness requirement was a deficiency that could not be cured by a postsubmission affidavit. See N.C. State Bd. of Elections, Numbered Memo 2020-19 (“Original
Numbered Memo 2020-19”) at 2 (Aug. 21, 2020) (attached as Ex. 7 to Moss Aff.). Instead, the
relevant county board of elections was required to spoil the ballot and reissue a new ballot along
with an explanatory notice to the voter. Id. The lack of a witness was a problem that no affidavit
could cure. Id. Notably, in federal litigation challenging the witness requirement, Executive
Director Bell testified under oath that an absentee ballot with “no witness signature” could not be
cured and therefore elections officials would have to “spoil that particular ballot” and require the
voter to vote a new one. Evidentiary Hearing Tr. (“Democracy N.C. Tr.”) at 122, Democracy N.C.
v. N.C. State Bd. of Elections, No. 20-cv-457 (M.D.N.C. July 21, 2020) (attached as Ex. 8 to Moss
Aff.).4
The NCSBE then arbitrarily changed course and issued an updated Numbered Memo 202019 on September 22, 2020 as part of the proposed consent judgment. The new memo explains that
an absentee ballot entirely devoid of witness information may be cured with a certification from
the voter. See N.C. State Bd. of Elections, Numbered Memo 2020-19 at 2–4 (Sept. 22, 2020),
https://bit.ly/3666pTV (explaining that deficiencies curable by a certification from the voter
include a witness or assistant failing to write their name, address, or signature). This absentee
“certification” will transmogrify an entirely unwitnessed (and hence invalid) ballot into a lawful,
compliant ballot. All the NCSBE’s proposed consent judgment requires is that the voter merely

4

Indeed, that is precisely what was happening across the State as the example from Cumberland
County provided in the Affidavit of Linda Devore (“Devore Aff.”) (attached as Ex. 18 to Moss Aff.) makes
clear. Ms. Devore explains how prior to receiving the revised Numbered Memo 2020-19, her county issued
hundreds of notifications to voters whose absentee ballot return envelope lacked a witness signature that
their ballot would be spoiled and issued them new ballots. See id. ¶ 19.

23
App. 253

affirm that the voter “voted and returned [her] absentee ballot for the November 3, 2020 general
election and that [she] ha[s] not voted and will not vote more than one ballot in this election.”
Proposed Consent Judgment at 37. The certification does not require voters to affirm that they had
their ballots witnessed in the first place or even attempted to follow this important aspect of the
law.
The update to Numbered Memo 2020-19 is not required by or even supported by the federal
court’s preliminary injunction in Democracy N.C. This is shown by the text of that order, the
evidence in the case, and the chronology of the NCSBE’s actions.
The Democracy N.C. order enjoined the NCSBE “from the disallowance or rejection, or
permitting the disallowance or rejection, of absentee ballots without due process as to those ballots
with a material error that is subject to remediation.” Democracy N.C., 2020 U.S. Dist. LEXIS
138492, at *177 (M.D.N.C. Aug. 4, 2020). The evidence in the case made clear that ballots lacking
a witness signature are not subject to remediation. As explained above, Executive Director Bell
testified under oath that an absentee ballot with “no witness signature” could not be cured and
therefore elections officials would have to “spoil that particular ballot” and require the voter to
vote a new one. Democracy N.C. Tr. at 122. Thus, since failing to procure a witness is not “subject
to remediation,” any cure for a voter’s failure to comply with the witness requirement is outside
the scope of the remedy ordered by the Middle District of North Carolina.
This understanding of the Democracy N.C. order is reflected in the original Numbered
Memo 2020-19 that the NCSBE released on August 21, 2020. See Original Numbered Memo
2020-19. This version of the Memo did not allow a cure for lack of a witness, but instead listed
errors in the witness certification as deficiencies that “cannot be cured by affidavit, because the
missing information comes from someone other than the voter,” therefore requiring ballots with

24
App. 254

such errors “to be spoiled.” Id. at 2. To be clear, Legislative Defendants are not challenging here
Numbered Memo 2020-19 in its original form, but only as amended on September 22, 2020 to
eviscerate the witness requirement.
The original form of Numbered Memo 2020-19 makes implausible any claim that the
NCSBE understood the Democracy N.C. injunction to require the new cure procedures gutting the
witness requirement in the amended Numbered Memo 2020-19. As explained above, the court
enjoined the NCSBE from “permitting the disallowance or rejection, of absentee ballots without
due process as to those ballots with a material error that is subject to remediation.” Yet, in response
to this order, the NCSBE issued guidance not only allowing but requiring the rejection of absentee
ballots with witness deficiencies. If the new cure procedures truly were required by the Democracy
N.C. order, that would mean the NCSBE was acting in open defiance of a court order from August
21 until the amendment of Number Memo 2020-19 on September 22, 2020. While this is
implausible standing alone, it is even more so given that the plaintiffs in Democracy N.C. have not
challenged the scope of Numbered Memo 2020-19 as originally drafted.5
The Democracy N.C. court has now confirmed our interpretation: “This court does not find
Memo 2020-19 ‘consistent with the Order entered by this Court on August 4, 2020,’ and, to the
degree this court’s order was used as a basis to eliminate the one-witness requirement, this court
finds such an interpretation unacceptable.” Order at 10, Democracy N.C., No. 20-cv-457,
(M.D.N.C. Sept. 30, 2020), ECF No. 145 (citation omitted).
The proposed consent judgment goes further by allowing absentee ballots to be received
up to nine days after election day. Proposed Consent Judgment at 19, 28. This is both in violation

5

The NCSBE filed the amended Numbered Memo 2020-19 with the Democracy N.C. court on
September 28, but in that filing it did not claim that the procedures outlined there are required by the
preliminary injunction but rather only “consistent with” it. See Notice of Filing, Democracy N.C. (Sept. 28,
2020), ECF No. 143 (attached as Ex. 21 to Moss Aff.).

25
App. 255

of the General Assembly’s duly enacted statutes but also a further change in the rules while voting
is ongoing. The proposed consent judgment also provides a standardless approach by allowing
even the anonymous delivery of ballots—facilitating violations of N.C. GEN. STAT. § 163-226.3’s
prohibition on the delivery of ballots by all but a select few—to unmanned boxes at polling sites.
Proposed Consent Judgment at 38–42.
Accordingly, if the proposed consent judgment is entered, North Carolina will necessarily
be administering its election in an arbitrary fashion pursuant to nonuniform rules that will result in
the unequal evaluation of ballots. See Bush, 531 U.S. at 106. Over 150,000 voters cast their ballots
before the proposed consent judgment was unveiled, and therefore worked to comply with the
witness requirements and lawful delivery requirements. There is no justification for subjecting
North Carolina’s electorate to this arbitrary and disparate treatment, especially given that both a
North Carolina state court and a North Carolina federal court have rejected motions to
preliminarily enjoin the witness requirement, finding that plaintiffs in those cases had not shown
a likelihood of success on the merits. See Order on Injunctive Relief at 6–7, Chambers; Democracy
N.C., 2020 U.S. Dist. LEXIS 138492, at *103. For the NCSBE to suddenly reverse course and
capitulate to Plaintiffs’ demands despite this demonstrated success in court raises questions as to
the rationale underlying a sudden change in policy in the midst of an ongoing election.
ii.

The Proposed Consent Judgment Will Dilute Lawfully Cast Votes

Second, if the proposed consent judgment is entered, the NCSBE will be violating North
Carolina voters’ rights to have their votes counted without dilution. Reynolds, 377 U.S. at 555
n.29. The proposed consent judgment ensures that votes that are invalid under the duly enacted
laws of the General Assembly will be counted in four ways: (1) by allowing unwitnessed, invalid
ballots to be retroactively validated into lawful, compliant ballots, see Proposed Consent Judgment

26
App. 256

at 31–36; (2) by allowing absentee ballots to be counted if received up to nine days after election
day, see id. at 28–29; and (3) by allowing absentee ballots without a postmark to be counted in
certain circumstances if received after election day, id.; and (4) by allowing for the anonymous
delivery of ballots to unmanned boxes at polling sites, see id. at 38–42. These changes are open
invitations to fraud and ballot harvesting, which will have the direct and immediate effect of
diluting the votes of North Carolina voters.
The proposed consent judgment is a denial of the one-person, one-vote principle affixed in
the Supreme Court’s jurisprudence. Dilution of lawful votes, to any degree, by the casting of
unlawful votes violates the right to vote. Reynolds, 377 U.S. at 555; Anderson v. United States,
417 U.S. 211, 226–27 (1974); Baker v. Carr, 369 U.S. 186, 208 (1962). Moreover, those practices,
such as the NCSBE’s that promote fraud and dilute the effectiveness of individual votes by
allowing illegal votes, violate the Fourteenth Amendment too. Reynolds, 377 U.S. at 555 (“[T]he
right of suffrage can be denied by a debasement or dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise of the franchise.”). Thus, when the NCSBE
purposely accepts even a single ballot without the required witness, accepts otherwise late ballots
beyond the deadline set by the General Assembly, or facilitates the delivery of ballots by unlawful
parties, the NCSBE has accepted votes that dilute the weight of lawful North Carolina votes.
*

*

*

Accordingly, if the proposed consent judgment is entered, the NCSBE will not only be
administering the election in an arbitrary and nonuniform manner that will inhibit the right of
voters who cast their absentee ballots before the proposed consent judgment was announced “to
participate in” the election “on an equal basis with other citizens in” North Carolina, Dunn, 405
U.S. at 336, but it will also be purposefully allowing otherwise unlawful votes to be counted,

27
App. 257

thereby deliberately diluting and debasing North Carolina voters’ votes. These are clear violations
of the Equal Protection Clause.
E.

This Court Must Not Enter the Proposed Consent Judgment Because It Is Not
Fair, Adequate, and Reasonable

The proposed consent judgment must be rejected because it is not fair, adequate, and
reasonable. In considering these characteristics, a court must “assess the strength of the plaintiff’s
case.” North Carolina, 180 F.3d at 581. The merits of the claims at issue are “[t]he most important
factor” because fairness, adequacy, and reasonableness can be examined “only in light of the
strength of the case presented by the plaintiffs.” Flinn, 528 F.2d at 1172. Courts gauge “the fairness
of a proposed compromise” by “weighing the plaintiff’s likelihood of success on the merits against
the amount and form of the relief offered.” Carson, 450 U.S. at 88 n.14. Here, because Plaintiffs
are unlikely to succeed on the merits of their claims, and because the relief afforded by the
proposed consent judgment is vastly disproportionate to the purported harm, the proposed consent
judgment is not fair, adequate, and reasonable, and must not be entered.
1.

Plaintiffs Are Unlikely to Succeed on the Merits of Their Claims

Plaintiff’s legal theories, evidence, and expert reports have significant weaknesses that
render their claims unlikely to succeed on the merits. Each will be discussed in turn below.
i.

Plaintiffs’ Cannot Possibly Succeed In Showing that the
Challenged Statutes are Unconstitutional in all of their
Challenged Applications.

As explained above, Plaintiffs’ claims—particularly viewed in light of the proposed
consent judgment—are facial. But regardless of whether the Court agrees with that
characterization, to succeed Plaintiffs must demonstrate that the challenged provisions are
unconstitutional in all the applications for which Plaintiffs seek to have them invalidated. For these
purposes, “the label is not what matters and to the extent that a claim and the relief that would
28
App. 258

follow reach beyond the particular circumstances of the party before the court, the party must
satisfy [the] standards for a facial challenge to the extent of that reach.” Grady, 372 N.C. at 547
(cleaned up) (citing Doe v. Reed, 561 U.S. 186, 194 (2010)). It is well established that “[a]n
individual challenging the facial constitutionality of a legislative act must establish that no set of
circumstances exists under which the act would be valid.” Kimberley Rice Kaestner 1992 Fam.
Tr. v. N.C. Dep’t of Revenue, 371 N.C. 133, 138 (2018) (internal quotation marks and brackets
omitted), aff’d, 139 S. Ct. 2213 (2019). Under this “exacting standard,” id., therefore, Plaintiffs
“must establish that [the challenged provisions are] unconstitutional in all of [their challenged]
applications” during the COVID-19 pandemic. Grady, 372 N.C. at 522 (internal quotation marks
omitted). Plaintiffs do not even seriously attempt to carry their burden of showing that all
challenged applications of the challenged provisions are unconstitutional during the pandemic.
As will be explained below, Plaintiffs cannot even credibly demonstrate that they
themselves are meaningfully injured by North Carolina’s generous early voting opportunities, by
the requirement to find a single witness, by having to pay the postage for mailing a completed
ballot, by the speculative possibility that the delivery of their ballots might suffer from a mail
delay, and by the prohibition on third-party ballot harvesting. Indeed, at least two of the
Plaintiffs—Tom Kociemba and Rosalyn Kociemba—have already voted. See N.C. State Bd. of
Elections, Voter Search, https://bit.ly/2HNjzLL (search Thomas Kociemba and Rosalyn
Kociemba).6 They certainly have not established that these measures impose an unconstitutional
burden in every circumstance. Plaintiffs have not established that the risk of polling place

6

These are two of the plaintiffs whose depositions Plaintiffs unilaterally cancelled after the filing
of the proposed consent judgment. They signed declarations on August 30 stating, “I usually hand-deliver
my absentee ballot to the county board of elections, but I do not want to do so this year because of potential
exposure to COVID-19” or “to avoid unnecessary exposure to COVID-19.” See R. Kociemba Aff. ¶ 5; To
Kociemba Aff. ¶ 6. According to the NCSBE voter lookup tool cited in the text, their ballots were handdelivered a little over a week later, on September 8.

29
App. 259

consolidation or reduced hours is so dire that it has imposed unconstitutional burdens on all inperson voters, and even if “crowds and long lines” occur at some voting locations, Memorandum
of Law in Support of Plaintiffs’ Motion for Preliminary Injunction (“Pls.’ Mem.”) at 36, that will
obviously not be the case everywhere, so Plaintiffs’ facial challenge must fail as a matter of law.
Neither can Plaintiffs carry their burden of showing that all applications of the witness
requirement are unconstitutional during the pandemic, even if the analysis is limited to those who
do not live with another adult. Indeed, as explained below, each of the individual voters deposed
who allege they live alone and are concerned about complying with the witness requirement
admitted to one or more of the following: (1) having regular contact with other individuals outside
their home since March 2020, (2) having someone they could ask to witness their ballot, or (3)
even having already made arrangements for a witness. See infra Part III.E.1.vi.c. And presumably
these voters were chosen to participate in this lawsuit because they are isolating themselves more
than the typical voter. Plaintiffs make no effort to establish the number of voters who live alone
but nonetheless would have essentially zero burden to comply with the witness requirement, such
as those who attend a physical school, go to a workplace, or frequently visit with family and
friends. The witness requirement cannot possibly be unconstitutional in these applications. As for
the necessity of paying postage to mail a completed ballot, it simply cannot be maintained with a
straight face that having to purchase a single 55-cent stamp unconstitutionally burdens the right to
vote of every absentee voter in the State. Nor do Plaintiffs provide any credible explanation
supporting the notion that every voter who chooses to vote by mail will face difficulty returning
their ballot in time. And Plaintiffs fail to establish that the prohibition on ballot harvesting
unconstitutionally burdens all absentee voters, as many North Carolinians will not be burdened in
the slightest by the ban.

30
App. 260

As Justice Stevens explained in his controlling opinion in Crawford v. Marion County
Election Board, 553 U.S. 181 (2008), see Greater Birmingham Ministries v. Sec’y of State for Ala.,
966 F.3d 1202, 1222 n.31 (11th Cir. 2020), even if a “neutral, nondiscriminatory regulation of
voting procedure” creates “an unjustified burden on some voters,” the “proper remedy” is not “to
invalidate the entire statute,” Crawford, 553 U.S. at 203 (controlling opinion of Stevens, J.)
(emphasis added). But the kind of improper remedy condemned by Justice Stevens in Crawford is
precisely what Plaintiffs seek here. Id. at 202 (internal quotation marks omitted). Plaintiffs’
challenges thus are doomed to fail.
ii.

Plaintiffs’ Challenges Violate the Purcell Principle

The U.S. Supreme Court, invoking its decision in Purcell v. Gonzalez, “has repeatedly
emphasized that lower federal courts should ordinarily not alter the election rules on the eve of an
election.” Republican Nat’l Comm., 140 S. Ct. 1207. That is because “practical considerations
sometimes require courts to allow elections to proceed despite pending legal challenges.” Riley v.
Kennedy, 553 U.S. 406, 426 (2008). For example, “[c]ourt orders affecting elections, especially
conflicting orders, can themselves result in voter confusion and consequent incentive to remain
away from the polls,” a risk that will increase “[a]s an election draws closer.” Purcell v. Gonzalez,
549 U.S 1, 4–5 (2006) (per curiam).
Even if Plaintiffs are correct that the challenged provisions violate the State Constitution,
this Court should abstain from entering the proposed consent judgment, thereby disrupting the
State’s upcoming elections. “In awarding or withholding immediate relief, a court is entitled to
and should consider the proximity of a forthcoming election and the mechanics and complexities
of state election laws, and should act and rely upon general equitable principles.” Reynolds, 377
U.S. at 585. Here, equity favors judicial modesty.

31
App. 261

In recent months, other courts faced with election-law challenges prompted by the COVID19 pandemic have followed the Supreme Court’s lead in Republican National Committee and have
recognized the need to avoid changing “state election rules as elections approach.” Thompson v.
DeWine, 959 F.3d 804, 813 (6th Cir. 2020); see also Tex. Democratic Party v. Abbott, 961 F.3d
389, 412 (5th Cir. 2020). And they have exercised caution under Purcell even though “the
November election itself may be months away,” Thompson, 959 F.3d at 813, because states cannot
reasonably be expected to dramatically alter their election procedures overnight; they need
sufficient time to coordinate and plan the logistics of any election-related changes.
The reasons animating the Purcell principle apply with full force here. First, should the
Court enter the proposed consent decree, it would create a “conflicting court order[]” with recent
federal court and state court decisions to uphold the very same provisions against similar federal
and state constitutional challenges. See Order on Injunctive Relief, Chambers (rejecting motion to
enjoin witness requirement); Democracy N.C., 2020 U.S. Dist. LEXIS 138492, at *103, *136–45
(rejecting motion to enjoin the witness requirement and require contactless drop boxes). Second,
the November election is merely six weeks away, and “important, interim deadlines that affect
Plaintiffs . . . and the State” have already passed. Thompson, 959 F.3d at 813. In particular,
absentee ballots were made available to voters on September 4, see N.C. GEN. STAT. § 163227.10(a), and as of September 29, 2020, nearly 1.1 million absentee ballots have been requested
and over 275,000 voters have already cast their absentee ballots. 7 Moreover, counties have already
set their one-stop early voting schedules.8 If the Court were to enter the proposed consent judgment
and change the challenged provisions now—when hundreds of thousands of absentee ballots have

7

Absentee Data, N.C. STATE BD. OF ELECTIONS (Sept. 29, 2020), available at
https://bit.ly/33SKzAw.
8
See Vote Early In-Person, N.C. STATE BD. OF ELECTIONS (Sept. 21, 2020),
https://www.ncsbe.gov/voting/vote-early-person.

32
App. 262

already been sent to voters and early voting schedules have already been set and disseminated—
the Court’s order would surely cause massive confusion and consume administrative resources
because to implement the order the NCSBE and county boards would have to embark on a public
education campaign that would inform voters that the instructions on the ballot envelopes must be
disregarded and that the previously stated requirements and receipt deadlines are incorrect. What
is more, this Court’s order itself would be subject to immediate appellate review which, absent a
stay, could lead to a reversion back to the original rules in the days or weeks to come.
In short, whatever the merits of Plaintiffs’ legal claims, they have put this Court in an
untenable position because the proposed consent judgment they seek is entirely impractical—
indeed, affirmatively harmful—because of the proximity to the November election. Under the
logic of Purcell, this reason alone should be sufficient to deny their motion.
iii.

Plaintiffs Failed to Exercise Appropriate Dispatch in Raising
Their Challenges

“Equity demands that those who would challenge the legal sufficiency of [legislative]
decisions concerning time sensitive public [decisions] do so with haste and dispatch” in particular.
Quince Orchard Valley Citizens Ass’n v. Hodel, 872 F.2d 75, 80 (4th Cir. 1989); see also North
Iredell Neighbors for Rural Life v. Iredell Cnty., 196 N.C. App. 68, 79, 674 S.E.2d 436, 443 (2009)
(affirming denial of injunction when “some two months elapsed without any contention by
plaintiffs of an urgent threat of irreparable harm”) (brackets deleted). Here, Plaintiffs did not file
their initial complaint until August 10, 2020—nearly five months after the NCSBE’s Executive
Director raised the potential need for legislative reform to address the impact of the pandemic on
the State’s elections (including specifically the witness requirement, prepaid return postage for
completed absentee ballots, and early voting restrictions) and nearly two months after HB1169
was enacted. Worse still, Plaintiffs did not file their motion for entry of the proposed consent
33
App. 263

decree until September 22—over a month after they initiated suit. Indeed, “Plaintiffs have in some
respects created the need for the emergency relief” by “wait[ing] more than three months to file
this action.” Kishore v. Whitmer, No. 20-1661, 2020 U.S. App. LEXIS 26827, at *11 (6th Cir.
Aug. 24, 2020); see also Little v. Reclaim Idaho, No. 20A18, 2020 U.S. LEXIS 3585, at *5 (U.S.
July 30, 2020) (Roberts, C.J., joined by Alito, Gorsuch, Kavanaugh, JJ., concurring in the grant of
stay) (faulting a party seeking emergency injunctive relief against a state’s election law for
“delay[ing] unnecessarily its pursuit of relief” (internal quotation marks omitted)).
Plaintiffs could have easily challenged the various election policies and requirements at
issue before August 10. The provisions existed—some of them in a more restrictive form—long
before the pandemic began. And even after the pandemic hit the State, Plaintiffs clearly delayed
in filing their complaint. Contrast their suit with the similar federal challenge in Democracy North
Carolina v. North Carolina State Board of Elections. There, the plaintiffs filed their complaint on
May 22, 2020, see Democracy N.C., 2020 U.S. Dist. LEXIS 138492, at *11, nearly three months
before Plaintiffs here, and moved for a preliminary injunction on June 5, 2020—three months
before the September 4 deadline for releasing absentee ballots. Plaintiffs also are represented by
the same counsel that represent the plaintiffs in the Stringer case, which raises similar claims but
was filed in May (although they have delayed in moving the case forward since then). Plaintiffs
here had no legitimate reason for not acting sooner than they have.
And although Plaintiffs had ample opportunity to file for relief at an earlier date, their delay
now risks putting the State in an untenable situation. If the Court enters the proposed consent
decree now, the State will have to expend significant administrative resources informing voters of
the new election procedures, likely causing massive confusion. This Court should not reward
Plaintiffs’ delay with a consent judgment.

34
App. 264

iv.

Plaintiffs’ Challenges Second-Guessing State Officials’ Responses
to the Pandemic Are Not Appropriate

“Under the Constitution, state and local governments . . . have the primary responsibility
for addressing COVID-19 matters such as . . . adjustment of voting and election procedures . . . .”
Calvary Chapel Dayton Valley v. Sisolak, No. 19A1070, 2020 U.S. LEXIS 3584, at *29–30 (U.S.
July 24, 2020) (Kavanaugh, J., dissenting from denial of application for injunctive relief). As the
passage of HB1169 demonstrates, North Carolina legislators and election officials have acted to
adapt the State’s election laws to account for the COVID-19 pandemic. Moreover, these elected
officials are far better positioned than a court to assess the balance of benefits and harms that are
likely to result from altering the State’s election regulations in the final months before a general
election. Indeed, such assessments require officials “to act in areas fraught with medical and
scientific uncertainties,” where “their latitude must be especially broad,” and not “subject to
second-guessing by” judges who “lack[] the background, competence, and expertise to assess
public health.” S. Bay United Pentecostal Church, 140 S. Ct. at 1613–14 (Roberts, C.J.,
concurring) (internal quotation marks omitted). North Carolina officials have not been sitting idly
by; they are actively and diligently seeking to accommodate both the State’s interests and their
voters’ interests, all while reacting to the ever-changing effects of COVID-19 on daily life.
The COVID-19 pandemic has not given judges “a roving commission to rewrite state
election codes.” Tex. Democratic Party, 961 F.3d at 394. For this reason, the Supreme Court has
shown enormous deference to State election officials during the COVID-19 pandemic. The Court
on several occasions during the pandemic has refused to vacate courts of appeals’ stays of lowercourt preliminary injunctions affecting elections. See, e.g., id. at 412 (staying injunction against
Texas absentee ballot restrictions), application to vacate stay denied, 140 S. Ct. 2015 (2020)
(mem.); Thompson, 959 F.3d 804 (staying injunction against Ohio initiative signature
35
App. 265

requirements), application to vacate stay denied, No. 19A1054, 2020 U.S. LEXIS 3376 (U.S. June
25, 2020) (mem.). And it has on even more occasions granted stays of lower-court preliminary
injunctions that have attempted to change electoral rules in light of the pandemic. See, e.g.,
Republican Nat’l Comm., 140 S. Ct. 1205 (staying injunction against requirement that absentee
ballots be postmarked by election day); Little, 2020 U.S. LEXIS 3585; Clarno v. People Not
Politicians Or., No. 20A21, 2020 U.S. LEXIS 3631 (U.S. Aug. 11, 2020) (mem.) (staying
injunction against initiative signature requirement); Merrill v. People First of Ala., No. 19A1063,
2020 U.S. LEXIS 3541 (U.S. July 2, 2020) (mem.) (staying injunction against absentee ballot
witness requirement).
Of particular note is the Supreme Court’s ruling in Merrill, where the district court enjoined
Alabama from enforcing its two-witness requirement for absentee voters to all voters “who
determine it is impossible or unreasonable to safely satisfy that requirement in light of the COVID19 pandemic, and who provide a written statement signed by the voter under penalty of perjury
that he or she suffers from an underlying medical condition that the Centers for Disease Control
has determined places individuals at a substantially higher risk of developing severe cases or dying
of COVID-19.” People First of Ala. v. Merrill, No. 20-cv-619, 2020 U.S. Dist. LEXIS 104444, at
*86–87 (N.D. Ala. June 15, 2020). The Eleventh Circuit refused to stay that injunction pending
Alabama’s appeal, see People First of Ala. v. Sec’y of State for Ala., 815 F. App’x 505, 505 (11th
Cir. 2020), but the Supreme Court stepped in to halt the injunction. And importantly, that
injunction was not the kind of blanket prohibition requested by Plaintiffs here. If the Supreme
Court concluded that Merrill’s comparatively modest injunction was not justified by the pandemic,
it is hard to see how an appellate court could find Plaintiffs’ proposed consent judgment any more
justifiable.

36
App. 266

v.

Plaintiffs’ Challenges Related to Absentee Voting Are All Subject
to Rational-Basis Review

All of Plaintiffs’ claims challenge aspects of absentee voting—whether limitations on onestop early voting (a form of absentee voting) or absentee voting by mail. Plaintiffs assert that the
challenged provisions “unconstitutionally burden the right to vote” because they violate the North
Carolina Constitution’s guarantees of the freedom of assembly, the freedom of speech, and equal
protection. Pls.’ Mem. at 30; see also N.C. CONST. art. I, §§ 12, 14, 19. In assessing the merit of
this claim, the Court must first ascertain the proper level of scrutiny for reviewing the election
policies and requirements at issue. Plaintiffs contend that “[b]ecause [their] claims implicate the
fundamental right to vote on equal terms, and the challenged provisions burden constitutionallyprotected speech and political association, strict scrutiny applies.” Pls.’ Mem. at 31. This assertion
is meritless.
The view that all restrictions on the right to vote are subject to strict scrutiny is plainly
foreclosed by precedent. See Burdick v. Takushi, 504 U.S. 428, 432 (1992) (“Petitioner proceeds
from the erroneous assumption that a law that imposes any burden upon the right to vote must be
subject to strict scrutiny. Our cases do not so hold.”). In Libertarian Party of North Carolina v.
State, 365 N.C. 41 (2011), the North Carolina Supreme Court—following the United States
Supreme Court’s lead—explained that “requiring ‘every voting, ballot, and campaign regulation’
to meet strict scrutiny ‘would tie the hands of States seeking to assure that elections are operated
equitably and efficiently,’” id. at 50 (quoting Buckley v. Am. Const. Law Found., Inc., 525 U.S.
182, 206 (1999) (Thomas, J., concurring)). “Hence, strict scrutiny is warranted only when [the]
right [asserted] is severely burdened.” Id. (emphasis added).
Having established that strict scrutiny cannot be reflexively applied in the electoral context,
the question remains of how to assess the constitutionality of the challenged provisions. Although
37
App. 267

Plaintiffs do not even consider the possibility that rational-basis review may apply to their voteburdening claims, a careful review of the case law reveals that to be the case.
For starters, it is well established that “there is no constitutional right to an absentee ballot.”
Mays v. LaRose, 951 F.3d 775, 792 (6th Cir. 2020); see also Burdick, 504 U.S. at 433 (explaining
that the right to vote does not entail an absolute right to vote in any particular manner); Crawford,
553 U.S. at 209 (Scalia, J., concurring the judgment) (“That the State accommodates some voters
by permitting (not requiring) the casting of absentee or provisional ballots, is an indulgence—not
a constitutional imperative that falls short of what is required.”); O’Brien v. Skinner, 414 U.S. 524,
536 (1974) (Blackmun, J., dissenting) (“The State, after all, as a matter of constitutional
requirement, need not have provided for any absentee registration or absentee voting.”).
Indeed, although the North Carolina Supreme Court long ago held that the North Carolina
Constitution does not preclude the General Assembly from permitting absentee voting, see Jenkins
v. State Bd. of Elections of N.C., 180 N.C. 169, 104 S.E. 346, 349 (1920), no court in this State has
ever held that the North Carolina Constitution requires the option of absentee voting. And because
there is no constitutional right to cast an absentee ballot, burdens imposed on one’s ability to vote
absentee are reviewed under heightened scrutiny only in narrowly confined circumstances.
On this score, the Supreme Court’s decision in McDonald v. Board of Election
Commissioners of Chicago, 394 U.S. 802 (1969), is instructive. See Libertarian Party of N.C., 365
N.C. at 47–53 (adopting the United States Supreme Court’s construction of the Federal
Constitution for evaluating state constitutional challenges to election law); see also State v.
Packingham, 368 N.C. 380, 383 (2015) (“[W]hen analyzing alleged violations of our State
Constitution’s Free Speech Clause, this Court has given great weight to the First Amendment
jurisprudence of the United States Supreme Court.”), rev’d on other grounds, 137 S. Ct. 1730

38
App. 268

(2017); State v. Hicks, 333 N.C. 467, 484 (1993) (“We . . . give great weight to decisions of the
Supreme Court of the United States interpreting provisions of the Constitution which are parallel
to provisions of the State Constitution to be construed.”).
In McDonald, the Court held that an Illinois statute that denied certain inmates absentee
ballots did not restrict their right to vote. 394 U.S. at 807. In Illinois, unlike North Carolina,
absentee balloting had been made “available [only] to four classes of person,” such as those absent
from their precinct and the disabled. Id. at 803–04. Because incarcerated persons were not among
the limited classes, the plaintiffs’ applications “were refused.” Id. at 804. Applying an equalprotection framework, the Supreme Court held that so long as Illinois gave at least one alternative
means of voting to the prisoners, the “Illinois statutory scheme” would not “impact” the inmates’
“ability to exercise the fundamental right to vote.” Id. at 807. The Court further explained that
restrictions on absentee ballots are reviewed only for rationality unless the putative voter is “in
fact absolutely prohibited from voting by the State” when looking at the state’s election code “as
a whole.” Id. at 807–08 & n.7 (emphasis added). That is because there is a fundamental difference
between “a statute which ma[kes] casting a ballot easier for some who were unable to come to the
polls” and a “statute absolutely prohibit[ing]” someone “from exercising the franchise.” Kramer
v. Union Free Sch. Dist. No. 15, 395 U.S. 621, 626 n.6 (1969); see also Goosby v. Osser, 409 U.S.
512, 521–22 (1973) (striking down an absentee ballot restriction only because the state’s statutory
scheme “absolutely prohibit[ed]” incarcerated prisoners from voting by other means).
Earlier this year, the Fifth Circuit relied on McDonald and its progeny to reaffirm that state
regulations of absentee ballots should be examined under rational basis review. In Texas
Democratic Party v. Abbott, a motions panel of the Fifth Circuit determined that challenges to
Texas’s statutory scheme were unlikely to succeed on the merits even though Texas provides

39
App. 269

absentee ballots only to a few limited classes of voters such as those over the age of 65 or those
suffering from disabilities. 961 F.3d at 407. The court explained that in McDonald, the Supreme
Court held that where a state statute “burden[s] only [an] asserted right to an absentee ballot,” it is
subject only to rational-basis review unless the plaintiff can produce “evidence that the state would
not provide them another way to vote.” Id. at 403. And as the Fifth Circuit further explained,
although COVID-19 “increases the risks of interacting in public,” under McDonald, state laws
limiting access to absentee ballots do not violate the Constitution unless the State itself has “‘in
fact absolutely prohibited’ the plaintiff from voting” and COVID-19 is “beyond the state’s
control.” Id. at 404–05 (quoting McDonald, 394 U.S. at 808 n.7); see also Thompson, 959 F.3d at
810 (emphasizing that courts “cannot hold private decisions to stay home for their own safety
against the State”). North Carolina “permits the plaintiffs to vote in person; that is the exact
opposite of absolutely prohibiting them from doing so.” Tex. Democratic Party, 961 F.3d at 404
(internal quotation marks and brackets omitted).9
Therefore, “McDonald directs [this Court] to review [North Carolina absentee-ballot laws]
only for a rational basis.” Id. at 406. That review demands only that the challenged provisions
“bear some rational relationship to a legitimate state end.” Id. Under this general standard, the Fifth
Circuit found that Texas’s restrictions on absentee voting were rationally related to the State’s
interest in deterring voter fraud and preserving efficient, orderly election administration. See id. at
406–08.

Although the later merits panel in Texas Democratic Party was “hesitant to hold that McDonald”
applied to plaintiffs’ claims challenging Texas’s regulations of absentee ballots, it nonetheless made “clear”
that it was “not stating, even as dicta, that rational basis scrutiny is incorrect.” Tex. Democratic Party v.
Abbott, No. 20-50407, 2020 U.S. App. LEXIS 28799, at *54 (5th Cir. Sept. 10, 2020). The original opinion
therefore remains persuasive and has not been repudiated.
9

40
App. 270

If Texas’s absentee balloting regime satisfies rational-basis review, then North Carolina’s
far less restrictive regime is necessarily constitutional. Any North Carolinian eligible to vote at the
polls is eligible to vote by absentee ballot; the State does not restrict absentee voting to only certain
classes of voters. And in North Carolina, any prospective voter can obtain an absentee ballot and
the State has provided trained personnel to safely serve as witnesses for voters who require them.
See N.C. GEN. STAT. §§ 163-226(a), 163-226.3(c). Under the rational-basis standard, the
challenged provisions come to this Court “bearing a strong presumption of validity,” FCC v. Beach
Commc’ns, Inc., 508 U.S. 307, 314 (1993), and the Court must uphold it against constitutional
challenge so long as it “can envision some rational basis for the classification.” Huntington Props.,
LLC v. Currituck County, 153 N.C. App. 218, 231 (2002). And the burden here is not on the State
to prove that the challenged provisions are constitutionally permissible but “on the one attacking
the legislative arrangement to negative every conceivable basis which might support it.” Armour
v. City of Indianapolis, 566 U.S. 673, 685 (2012). Plaintiffs do not and cannot come close to
clearing this hurdle.
The State’s “interest in ensuring orderly, fair, and efficient procedures of the election of
public officials” is plainly legitimate. Pisano v. Strach, 743 F.3d 927, 937 (4th Cir. 2014). The
absentee ballot receipt deadline, dates and times for one-stop early voting, and allocation of
postage expenses to the voter are bread-and-butter administrative measures of the sort necessary
to conduct an election in an orderly and efficient manner. And the witness requirement and the
ballot harvesting ban are rational means of promoting the State’s interest in deterring, detecting,
and punishing voter fraud and in ensuring confidence in the integrity of elections, for when a voter
comes to the poll, he or she must provide identifying information in the presence of elections
officials, but when would-be voters fill out a ballot remotely, there is no such check. This increases

41
App. 271

the risk of ineligible and fraudulent voting. See, e.g., Comm’n on Fed. Election Reform, Building
Confidence in U.S. Elections 46, CTR. FOR DEMOCRACY & ELECTION MGMT., AM. UNIV. (Sept.
2005), https://bit.ly/2YxXVRh. And as the Democracy N.C. court pointed out, this potential for
abuse has been a reality in North Carolina, particularly in the recently discovered “Dowless
scandal,” which took place over the course of the 2016 and 2018 elections and threatened the
integrity of state and federal elections. That scandal also put into stark relief the risk that absentee
balloting may present. That is also probably why a dozen States have adopted witness requirements
of some form. See VOPP: Table 14: How States Verify Voted Absentee Ballots, NAT’L CONF. OF
STATE LEGISLATURES (Apr. 17, 2020), https://bit.ly/33LAqay. The challenged provisions are a
rational means for ensuring that the absentee ballot was filled out by the person under whose name
the vote will be counted. That is enough to satisfy rational-basis review.
vi.

If the Anderson-Burdick Balancing Framework Applies, the
Challenged Provisions Are Constitutional

Even if Plaintiffs’ challenge to the various election policies and requirements at issue were
not subject to rational-basis review, the highest level of constitutional scrutiny Plaintiffs’ claims
could even conceivably merit is the standard known as the Anderson-Burdick analysis, which is
taken from the United States Supreme Court’s decisions in Anderson v. Celebrezze, 460 U.S. 780
(1983), and Burdick v. Takushi, 504 U.S. 428 (1992), and their progeny. The North Carolina
Supreme Court, considering a ballot-access challenge, explicitly adopted the Anderson-Burdick
framework to govern voting-rights challenges under the State constitution’s equal protection,
speech, election, and assembly clauses. See Libertarian Party of N.C., 365 N.C. at 42; see also
James v. Bartlett, 359 N.C. 260, 270 (2005).
This approach recognizes that “[i]n the interest of fairness and honesty, the State “may,
and inevitably must, enact reasonable regulations of parties, elections, and ballots to reduce
42
App. 272

election- and campaign-related disorder,” and accordingly that “requiring every voting, ballot, and
campaign regulation to meet strict scrutiny would tie the hands of States seeking to assure that
elections are operated equitably and efficiently.” Libertarian Party of N.C., 365 N.C. at 49–50
(internal quotation marks omitted). Thus, under Anderson-Burdick, “requirements constituting an
unreasonable, discriminatory burden are the only requirements subject to strict scrutiny review.”
Wood v. Meadows, 207 F.3d 708, 716 (4th Cir. 2000); see also Mays, 951 F.3d at 786 (strict
scrutiny is applicable only when “the State totally denie[s] the electoral franchise to a particular
class of residents, and there [i]s no way in which the members of that class could have made
themselves eligible to vote”). For “reasonable and nondiscriminatory rules,” the court must “ask
only that the state articulate its asserted interests.” Libertarian Party of Va. v. Alcorn, 826 F.3d
708, 719 (4th Cir. 2016) (internal quotation marks and brackets omitted). This is “not a high bar”
and can be cleared with “[r]easoned, credible argument,” rather than “elaborate, empirical
verification.” Id. (internal quotation marks omitted). Once the State’s interests have been
articulated, that is the end of the matter; there is no further analysis of “the extent to which the
state’s interests make it necessary to burden the plaintiff’s rights.” Wood, 207 F.3d at 716.
Under this framework, then, the first question is whether any of the measures Plaintiffs
have challenged “severely burden” the right to vote. Id. None do.
a.

Postage Expenses

The requirement that voters bear their own postage—a single, 55-cent stamp—when
choosing to return their completed ballot by mail is self-evidently a “reasonable, nondiscriminatory
restriction[].” Id. (internal quotation marks omitted). The vast majority of states nationwide expect
absentee voters to bear this minor, incidental expense. See VOPP: Table 12: States with PostagePaid Election Mail, NAT’L CONF. OF STATE LEGISLATURES (2020), https://bit.ly/3hSTFDm; Expert

43
App. 273

Affidavit of Dr. M.V. Hood, III, Ph.D. (“Hood Aff.”) ¶¶ 38–39 (attached as Ex. 9 to Moss Aff.).
While Legislative Defendants are acutely aware of the “devastating economic impact of the
pandemic,” Pls.’ Mem. at 34, Plaintiffs’ contention that purchasing a single 55-cent stamp imposes
a “significant hurdle[] on North Carolinian’s exercise of the franchise” is meritless, id. at 31.
Indeed, in Crawford the U.S. Supreme Court found that Indiana’s voter ID law failed to impose a
severe burden on voting despite the fact that some voters may have been required to pay between
$3 and $12 for a copy of their birth certificate in order to obtain a voter ID. See 553 U.S. at 199
n.17 (controlling opinion of Stevens, J.).
If the purchase of a 55-cent postage stamp constituted a severe burden on the right to vote,
thereby triggering strict scrutiny, the same scrutiny would also have to be applied to the laws
governing in-person voting in every single state. Any voter who lives more than a mile from the
polling place will incur at least 55-cents in traveling expenses going to the polls, in either public
transit costs or fuel and wear-and-tear. Indeed, Plaintiffs’ expert Kenneth Mayer conceded that
public transportation and gas costs for in person voters “probably” “are more than 55 cents per
voter.” Kenneth Mayer Expert Deposition Transcript (“Mayer Tr.”) at 107:20–108:9 (attached as
Ex. 10 to Moss Aff.). Yet no state reimburses voters for these incidental, de minimis expenses, and
the courts have “routinely rejected” the notion that having to undergo “a long commute” to reach
a polling place imposes “a significant harm to a constitutional right.” Gwinnett Cnty. NAACP v.
Gwinnett Cnty. Bd. of Registration & Elections, 446 F. Supp. 3d 1111, 1124 (N.D. Ga. 2020); cf.
Crawford, 553 U.S. at 199 (controlling opinion of Stevens, J.) (“For most voters who need them,
the inconvenience of making a trip to the BMV, gathering the required documents, and posing for
a photograph surely does not qualify as a substantial burden on the right to vote, or even represent
a significant increase over the usual burdens of voting.”); Lee v. Va. State Bd. of Elections, 843

44
App. 274

F.3d 592, 601 (4th Cir. 2016) (“[E]very polling place will, by necessity, be located closer to some
voters than to others.”).
Courts have agreed that voters bearing their own postage expenses to submit their
completed absentee ballots does not impose a severe burden on the right to vote, even in the context
of the COVID-19 pandemic. In DCCC v. Ziriax, No. 20-cv-211, 2020 U.S. Dist. LEXIS 170427
(N.D. Okla. Sept. 17, 2020), the court found that postage “is a type of ‘usual burden[] of voting,’”
id. at *68 (quoting Crawford, 553 U.S. at 197–98), determined that “plaintiffs have not established
that the lack of postage will result in disenfranchisement or an undue burden on any voter,” and
concluded that the burden the requirement imposed was “light,” id. Furthermore, the court
determined that the policy of the USPS “is to deliver the ballot, irrespective of whether it has
postage or not.” Id. (Plaintiffs’ expert Mayer confirmed that the USPS’s policy is to “deliver
absentee ballots without a stamp,” and therefore that “in theory, [it] should be true” that “no one
in North Carolina will be disenfranchised because they failed to put a stamp on their absentee
ballot return envelope.” Mayer Tr. at 106:2–14.) The District Court for the Northern District of
Georgia recently rejected a similar claim under Anderson-Burdick and did not find a constitutional
violation. New Ga. Project v. Raffensperger, No. 20-cv-1986, 2020 U.S. Dist. LEXIS 159901, at
*63 (N.D. Ga. Aug. 31, 2020).
What little discovery Legislative Defendants have been able to conduct in this case further
undermines Plaintiffs’ likelihood of success on the merits. With respect to concerns related to the
delays in the postal service and lack of access to a stamp, each of the individual voters deposed
who plan to vote absentee admitted at least one of the following: (1) they have a stamp, see
Rebecca Johnson Deposition Transcript (“Johnson Tr.”) at 28:14–17 (attached as Ex. 11 to Moss
Aff.); Caren Rabinowitz Deposition Transcript (“Rabinowitz Tr.”) at 32:24–25 (attached as Ex.

45
App. 275

12 to Moss Aff.); and (2) they could ask for a stamp or regularly frequent places that sell stamps,
see Susan Barker Fowler Deposition Transcript (“Fowler Tr.”) at 24:15–17 (attached as Ex. 13 to
Moss Aff.) (goes to grocery store); 24:18–19 (goes to drugstore); 24:22–23 (goes to gas stations);
25:20–22 (orders from Amazon); 32:13–15 (could ask parents for stamp).
b.

Ballot Receipt Deadline

Likewise, Plaintiffs cannot plausibly claim that North Carolina’s deadline for receipt of
completed absentee ballots somehow “severely burden[s]” the right to vote. Libertarian Party of
N.C., 365 N.C. at 51. Obviously, the need to fairly and expeditiously count the ballots and
determine the election results necessitates some deadline for submitting absentee ballots; and
North Carolina’s cutoff—which allows ballots postmarked before the end of election day to come
in up to three days later—is more generous than most. See Hood Aff. at 13 fig.2. While Plaintiffs
complain about anticipated postal delays, it simply cannot be realistically denied that North
Carolina’s deadline gives absentee voters “ample opportunity”—alleged USPS delays and all—to
get their votes in on time, and it therefore does not “burden[] them in any meaningful way.” Pisano,
743 F.3d at 934–35. All Plaintiffs have to do is mail in their ballots far enough in advance of
election day to ensure they are received on time. Presumably, a week in advance of election day
would be enough, as that would give their ballots more time to arrive than the relief they are
seeking. That is precisely what the NCSBE is advising voters, both on its website and in the judicial
voter guide sent to every household in the State. See Detailed Instructions for Voting by Mail,
Returning a Ballot, N.C. STATE BD. OF ELECTIONS, https://bit.ly/2E4ZxL7 (last accessed Sept. 29,
2020); Judicial Voter Guide 2020 at 14, N.C. STATE BD. OF ELECTIONS, https://bit.ly/2EPP72k
(“We strongly recommend mailing your completed ballot before October 27 for a timely
delivery.”). And this is leaving to the side the options of dropping off a ballot in person rather than

46
App. 276

sending it through the mail (as the Plaintiffs Tom Kociemba and Rosalyn Kociemba have done),
or voting in person, which, for those at heightened risk of complications from COVID-19 infection,
can be done curbside without entering the polling place. See N.C. State Bd. of Elections, Numbered
Memo 2020-20 (Sept. 1, 2020), https://bit.ly/32Onr5M.
Massachusetts’ highest court recently rejected a similar challenge to that State’s ballot
receipt deadline. In line with the requirement in most states, the Massachusetts deadline at issue
required all absentee ballots to be received before the end of election day itself—without North
Carolina’s extra three-day grace period. See Grossman v. Sec’y of the Commonwealth, 151 N.E.3d
429, 2020 Mass. LEXIS 510, at *1–2 (Mass. 2020).10 The Massachusetts Supreme Judicial Court
held that this deadline “does not significantly interfere with the constitutional right to vote,”
particularly given the obvious necessity of some “reasonable deadlines” and the fact that “voters,
including those who have requested mail-in ballots, have multiple voting options, and thus are not
limited to returning their ballots by mail.” Id. at *3, *11. So too here. And notably, even when
granting relief to plaintiffs challenging Pennsylvania’s ballot receipt deadline, the Supreme Court
of Pennsylvania extended that deadline from 8:00 p.m. on election day to 8:00 p.m. only three days
after—essentially the same deadline that North Carolina currently has and a much shorter
extension than the nine-day extension Plaintiffs request. Pa. Democratic Party v. Boockvar, No.
133 MM 2020, 2020 Pa. LEXIS 4872, at *89 (Pa. Sept. 17, 2020).
Deposition testimony confirms the lack of merit in Plaintiffs’ claim. The one Plaintiff
deposed thus far who had experience in the past with her absentee ballot being delayed in the mail

10

Grossman considered a challenge to the Massachusetts deadline for receipt of absentee votes in
the September 1 primary election: “before 8 P.M. on September 1.” Grossman, 2020 Mass. LEXIS 510, at
*2. Massachusetts’ receipt deadline for the general election is the same as North Carolina’s—a ballot is
timely if it “is received not later than 5 P.M. on November 6, 2020,” i.e., three days after the election, “and
mailed on or before November 3, 2020,” as evidenced by a November 3 postmark. 2020 MASS. ACTS ch.
115, sec. 6(h)(3).

47
App. 277

and who is advocating for extending the ballot receipt deadline admitted the problem was not with
her prior ballot not getting back to her county board of election on time, but with her receiving her
ballot in the first instance. See Fowler Tr. at 19:3–22. She admitted that none of the relief Plaintiffs
are seeking would have addressed the problem she experienced in the past, and that she does not
intend to wait until the last minute to mail her absentee ballot in this election, but instead to vote
and return her ballot the day she gets it. See id. at 15:18–20; cf. Johnson Tr. at 36:18–24 (plans to
mail ballot in September so it will be received before election); 36:25–37:2 (can use Ballottrax to
make sure ballot arrives at the county board of election on time); Rabinowitz Tr. at 39:12–17
(agreed no reason she could not mail her ballot to be sure it got in before election day); 39:8–11
(can use Ballottrax to make sure ballot arrives on time).
c.

Witness Requirement

North Carolina’s absentee voting witness requirement—reduced, for the November 2020
election, to a single witness—likewise does not severely burden the right to vote. Even for those
voters who live alone, asking a family member, friend, neighbor, or coworker to take a few minutes
to observe that voter cast her vote and then write their name, address, and signature is hardly the
type of “severe burden,” Libertarian Party of N.C., 365 N.C. at 50, that “totally denie[s]” the right
to vote, Mays, 951 F.3d at 787.
That is so notwithstanding Plaintiffs’ contentions that “interacting with individuals outside
of one’s household can pose the risk of contracting a highly contagious and dangerous virus.” Pls.’
Mem. at 33. Even voters who live alone and are social distancing from all other adults can satisfy
the witness requirement while abiding by all relevant social-distancing and sanitization guidelines.
For example, any family member, friend, neighbor, mail-delivery person, food-delivery person, or
multipartisan assistance team (“MAT”) member can watch the voter mark their ballot through a

48
App. 278

window, glass door, or other barrier. At that point, the voter can pass the ballot under a closed door
or through an open window to be marked, signed, and returned (after handwashing or sanitizing)
without direct interaction between the two persons. These options are available to practically all
voters living alone and would not require the voter or the witness to come within six feet of each
other or break other social-distancing guidelines. By engaging in these sorts of protective activities,
voters can vote without exposing themselves to any appreciable risk of contracting the virus.
Indeed, the NCSBE has expressly advised voters on complying with the witness requirement in a
safe manner.11
As the federal court for the Middle District of North Carolina recently found in rejecting a
similar challenge to the State’s witness requirement, “even high-risk voters can comply with the
One-Witness Requirement in a relatively low-risk way, as long as they plan ahead and abide by
all relevant precautionary measures, like social distancing, using hand sanitizer, and wearing a
mask; in other words, the burden on voters is modest at most.” Democracy N.C., 2020 U.S. Dist.
LEXIS 138492, at *102; see also DCCC, 2020 U.S. Dist. LEXIS 170427, at *51–57. Once again,
there is simply no realistic risk associated with having another adult witness the execution of an
absentee ballot through a closed window, so long as the two parties use separate pens and the ballot
itself is disinfected before it is passed between them. See Expert Affidavit of Philip S. Barie, M.D.,
M.B.A. (“Barie Aff.”) ¶ 35 (attached as Ex. 14 to Moss Aff.).
Moreover, the witness requirement serves the important State interests of protecting the
integrity of its elections, preventing fraud, and fostering confidence in the election process. The
requirement is “especially important” during the pandemic because it helps “identify potential
irregularities with absentee voting,” which “takes place entirely out of the sight of election officials

11

FAQs: Voting by Mail in North Carolina in 2020, N.C. STATE BD. OF ELECTIONS (Sept. 1, 2020),
https://www.ncsbe.gov/voting/vote-mail/faqs-voting-mail-north-carolina-2020.

49
App. 279

and is more susceptive to irregularity and fraud than other methods of voting.” Strach Aff. ¶¶ 54–
55. Accordingly, the witness requirement was pivotal in allowing the NCSBE to ferret out the
patterns of fraudulent absentee ballots submitted as part of the Dowless scandal. Id. ¶ 59.
Eliminating the requirement would divest the NCSBE and local county boards of elections of a
“valuable tool[] [for] detecting and investigating irregularities and fraud.” Id. ¶ 64.
Plaintiffs’ deposition testimony does not help their claim. Each of the individual voters
deposed who allege they live alone and are concerned about complying with the witness
requirement admitted to one or more of the following: (1) having regular contact with other
individuals outside their home since March 2020, see Johnson Tr. at 17:14–25; 19:4–15; 21:8–18;
22:10–20; 25:16–18; 26:13–19; 27:5–10 (spent weekend at cousin’s lake house, gotten take-out
numerous times, gotten haircuts and pedicures, sees her yard man weekly, has visited with a friend
outdoors for over an hour, and drove a friend to have lunch at her club); Rabinowitz Tr. at 23:15;
26:7–18 (been to drug store, gotten haircut, been to doctors and took a ride share service to get
there and back three times); (2) having someone they could ask to witness their ballot, see Johnson
Tr. at 28:23–29:8; 36:3–9; Rabinowitz Tr. at 15:6–16; 19:5–15; 35:21–36:21; or (3) even having
already made arrangements for a witness, see Johnson Tr. at 36:3–9 (stating that “a friend offered
to come over – wanted hers witnessed, and we do each other’s”). For those witnesses who do not
live alone, they readily admitted they could have someone witness their ballots. See Fowler Tr. at
12:22–13:2; Jade Jurek Deposition Transcript (“Jurek Tr.”) at 12:12–25 (attached as Ex. 15 to
Moss Aff.); William Dworkin Deposition Transcript (“Dworkin Tr.”) at 19:23–20:5 (attached as
Ex. 16 to Moss Aff.).

50
App. 280

d.

Early Voting

Plaintiffs contend that “limitations on the number of days and hours of early voting that
counties may offer burdens in-person voting.” Pls.’ Mem. at 36. They assert that the “pandemic
will force counties to offer fewer total early voting locations than they would under normal
circumstances, and the resulting fewer cumulative early voting hours will lead to larger crowds
and long lines for those who attempt to vote in person.” Id. These “crowded polling places” will
force Plaintiffs to “risk[] their health in order to cast their votes.” Id.
First, the data does not bear out Plaintiffs’ dire predictions about polling place crowds.
“[T]he number of early voting sites per count remains stable in 2020” as compared to 2016, and
the “number of early voting hours and days offered in the 2020 general election represents a large
increase over the prior two presidential election years.” Expert Affidavit of Keegan Callanan,
Ph.D. (“Callanan Aff.”) ¶¶ 8, 10 (attached as Ex. 17 to Moss Aff.). Consequently, instead of
leading to crowded polling places and long lines, this “significant increase in voting hours and
days may logically be expected to reduce average waiting times at North Carolina’s early voting
sites.” Id. ¶ 12. Moreover, “voter preference for in-person voting is expected to fall substantially
in 2020 as compared to 2012 and 2016,” id.—nearly 1.1 million absentee ballots have been
requested as of September 29, 2020, compared with merely 106,051 requests 36 days before the
2016 election—logically entailing less crowded in-person polling places. See also Devore Aff.
¶¶ 4–10 (explaining efforts made to enlarge early voting sites and provide more opportunities to
vote).
Second, neither does the data support Plaintiffs’ claims about risks to health at in-person
voting places. Plaintiffs cannot establish that polling places will not abide by necessary and
appropriate social distancing and sanitizing protocols specifically designed to mitigate those risks.

51
App. 281

See N.C. State Bd. of Elections, Numbered Memo 2020-18 at 2–3 (Aug. 14, 2020),
https://bit.ly/3jp2kO9 (requiring election officials to implement such measures, including
mandated social distancing, masks for all election workers, and frequent sanitizing of high-touch
areas). Recent peer-reviewed research found that the April election in Wisconsin highlighted by
Plaintiffs produced “no detectable spike” in COVID-19 infections and thus appears to have been
“a low-risk activity.”12 Dr. Fauci, the nation’s leading expert on infectious diseases, recently
suggested that voting in person, in compliance with recognized social distancing and other
protective measures, poses no greater risk of infection than going to the grocery store. 13 And again,
any voter who suffers from an elevated risk of COVID-19-related complications is entitled to vote
curbside, without ever leaving his or her car. See N.C. GEN. STAT. § 163-166.9; Numbered Memo
2020-20. Counties also are authorized to set up walk-up curbside voting areas for voters who do
not arrive at the polling place in a vehicle. See Numbered Memo 2020-20 at 2.
That leaves Plaintiffs with nothing more than the allegation that there will be “inevitable
crowds and long lines” at some polling places in November. Pls.’ Mem. at 36. But while “having
to wait in line may cause people to be inconvenienced,” that minor inconvenience—experienced
in every election by at least some voters who reside in populous areas—does not alone constitute
a severe burden on the right to vote. Jacksonville Coal. for Voter Prot. v. Hood, 351 F. Supp. 2d
1326, 1335 (M.D. Fla. 2004); see also Gwinnett Cnty. NAACP, 446 F. Supp. 3d at 1124 (“[W]hile
the Court understands that a long commute or wait in line can be an inconvenience, courts have
routinely rejected these factors as a significant harm to a constitutional right—particularly when
there is no evidence of improper intent.”).

12

Kathy Leung et al., No Detectable Surge in SARS-CoV-2 Transmission Attributable to the April
7, 2020 Wisconsin Election, 110 AM. J. PUB. HEALTH 1169 (2020), https://bit.ly/3gKKWKr.
13
Nsikan Akpan, What Fauci Says the U.S. Really Needs To Reopen Safely, NAT’L GEOGRAPHIC
(Aug. 13, 2020), https:/on.natgeo.com/2EQZxhM.

52
App. 282

The one Plaintiff deposed thus far who intends to vote in person and alleged concerns about
inadequate opportunities to vote leading to long lines and crowds that would necessitate extending
the early-voting period admitted that her regular polling place will be open, that in the past she has
found times to vote that were not crowded, that she has no idea how the number of days or hours
of early voting compare to prior elections, and that she can vote at times that will be less crowded
such as during the day in the middle of the week. See Jurek Tr. at 23:8–22; 24:3–8; 25:13–23;
27:1–8; 28:1–7. Further undermining her claims, this Plaintiff admitted she could use curbside
voting but that she did not want to. Id. at 20:22–21:16.
e.

Ballot Harvesting Ban

Plaintiffs claim that they are injured by North Carolina’s restrictions on third-party
assistance with requesting absentee ballots and delivering completed ballots. Pls.’ Mem. at 35–36.
But, first, none of the Plaintiffs assert that they have been injured by the restrictions on assistance
with requesting absentee ballots. Indeed, each of the Plaintiffs deposed thus far who intend to vote
absentee admitted to having already requested their absentee ballots, see Johnson Tr. at 29:9–20;
Rabinowitz Tr. at 16:13–21; Fowler Tr. at 13:3–10; Dworkin Tr. at 9:25–20:5. Thus, there is no
evidence of a single Plaintiff who requires assistance from other individuals or organizations in
completing and submitting their absentee ballot applications.
Second, although Ms. Johnson, Ms. Rabinowitz, and Rosalyn and Tom Kociemba assert
that they are injured by the restrictions on who can deliver completed ballots, Pls.’ Mem. at 35–
36, they are unlikely to succeed on their challenge to the ballot harvesting ban. Rosalyn and Tom
Kociemba, of course, have already voted, so this Court can provide them with no relief. With
respect to the others, North Carolina law criminally prohibits anyone other than the voter, the
voter’s near relative, or the voter’s verifiable legal guardian from “return[ing] to a county board of

53
App. 283

elections the absentee ballot of any voter.” N.C. GEN. STAT. § 163-226.3(a)(5). But given that no
criminal prosecutors are defendants in this case, the Court cannot provide relief from this criminal
statute as regardless of what this Court does prosecutors will remain free to prosecute violations.
Plaintiffs’ claims fail apart from these fatal defects. Plaintiffs insist that this ballot
harvesting ban “erects another barrier to absentee voting” for voters without access to postage,
voters who are concerned about their ballot being delivered by the USPS on time, voters who are
concerned about the risks of in-person voting, voters without immediate family members available
to assist them in submitting their ballots, and voters whose ballots arrive too late to return by mail.
Pls.’ Mem. at 35–36. But because the ballot harvesting ban is a “reasonable and
nondiscriminatory” rule, this Court must “ask only that the state articulate its asserted interests.”
Libertarian Party of Va., 826 F.3d at 719 (internal quotation marks and brackets omitted). This is
“not a high bar” and can be cleared with “[r]easoned, credible argument,” rather than “elaborate
empirical verification.” Id. (internal quotation marks omitted).
The State has met its burden. The Dowless scandal exposed that absentee ballots are
particularly susceptible to fraud. See Comm’n on Fed. Election Reform, Building Confidence in
U.S. Elections 46, CTR.

FOR

DEMOCRACY & ELECTION MGMT., AM. UNIV. (Sept. 2005),

https://bit.ly/2YxXVRh. Indeed, Legislative Defendants’ expert found evidence of at least 1,265
voters who voted in both North Carolina and another state in the 2016 general election—64% of
whom cast an absentee ballot in North Carolina. Expert Report of Ken Block ¶ 38 (attached as Ex.
19 to Moss Aff.). In the aftermath of the Dowless scandal, the State reasonably and credibly
determined that preventing abuse of the ballot collection process required targeted restrictions on
handling completed absentee ballots by individuals outside of the voter’s family and legal

54
App. 284

guardians. The State plainly has a legitimate and important interest in preventing such election
fraud from occurring again.
Moreover, with respect to restrictions on who can return an absentee ballot if the voter did
not want to use the postal service, each of the individual voters deposed admitted to one or more
of the following: (1) regularly leaving their home and being in situations that put them in contact
with others for at least the length of time it would take to return their ballots to their county boards
of election, see Johnson Tr. at 17:14–25; 19:4–15; 21:8–18; 22:10–20; 25:16–18; 26:13–19; 27:5–
10 (spent weekend at cousin’s lake house, gotten take-out numerous times, gotten haircuts and
pedicures, sees her yard man weekly, has visited with a friend outdoors for over an hour, and drove
a friend to have lunch at her club); Rabinowitz Tr. at 23:23–24:11 (spent half an hour getting a
haircut); (2) having the ability to get to their respective county board by car, walking, or a rideservice, see Rabinowitz Tr. at 26:13–18 (has taken a Lyft several times since March 2020); or (3)
having a near-relative who could return their ballot for them, see Fowler Tr. at 15:1–13, 18–24.
William Dworkin, the President of the one organizational Plaintiff in the case, the North Carolina
Alliance for Retired Americans, admitted under oath that his organization does not plan to offer
assistance to voters in returning their ballots even if the relief Plaintiffs are seeking is granted. See
Dworkin Tr. at 56:13–18.
*

*

*

Despite these decided weaknesses in Plaintiffs’ claims that render them unlikely to succeed
on the merits, there is no evidence that the weaknesses were ever explored by the NCSBE or that
they informed the ultimate settlement analysis of either party. Moreover, the State has a compelling
interest in deterring voter fraud and protecting election integrity, a theme that underlies the
challenged election law provisions. The proposed consent judgment does not meaningfully analyze

55
App. 285

these state interests either. The proposed consent judgment fails on the “most important factor”—
likelihood of success on the merits—so this Court must reject it. Flinn, 528 F.2d at 1172.
2.

The Relief Afforded by the Proposed Consent Judgment is Vastly
Disproportionate to the Purported Harm

The proposed consent judgment is not fair, adequate, and reasonable for the second,
independent basis that the relief it affords is vastly disproportionate to the purported harm. Indeed,
in several respects the proposed consent judgment goes beyond the relief Plaintiffs are seeking.
For example, the proposed consent judgment vitiates the witness requirement for all voters, not
just those who reside without another adult. See Am. Compl. at 39. The proposed consent judgment
extends the ballot receipt deadline for ballots sent by commercial carrier despite Plaintiffs limiting
their claims to ballots sent through the USPS. Id. at 40. And despite Plaintiffs not even seeking to
have contactless drop boxes implemented as relief in this case, see Am. Compl. at 38–41, and
despite that request being denied by the Democracy N.C. court, see 2020 U.S. Dist. LEXIS 138492,
at *128–29, the proposed consent judgment allows such drop boxes to be implemented statewide.
The District of Minnesota recently rejected a consent judgment because of overbreadth
problems similar to those plaguing this one. There, the court found that the burdens on particular
voters could not possibly support the State’s “blanket refusal to enforce [Minnesota’s] witness
requirement.” Fairness Hearing Tr. at 11–12, League of Women Voters of Minn. Educ. Fund v.
Simon, No. 20-cv-1205 (D. Minn. June 23, 2020). As the court put it, “the consent decree is not
substantively fair or reasonable because it would, if approved, impose relief that goes well beyond
remedying the harm Plaintiffs allege to suffer in support of their as-applied challenge to
Minnesota’s witness requirement.” Id. at 10. It is a well-settled principle that “injunctive relief
should be no more burdensome to the defendant than necessary to provide complete relief to the
plaintiffs.” Califano v. Yamasaki, 442 U.S. 682, 702 (1979); see Appeal of Barbour, 112 N.C. App.
56
App. 286

368, 373–74 (1993). Because the proposed consent judgment violates this principle, granting
Plaintiffs relief that is vastly disproportionate to the purported harm they allege, the proposed
consent judgment is not fair, adequate, and reasonable, and this Court must reject it.
F.

This Court Must Not Enter the Proposed Consent Judgment Because It Is
Against the Public Interest

Entering the proposed consent judgment would disserve the public interest in four ways.
First, the public interest is served by allowing for state control of its election mechanics by
elected officials, not unelected agency members and civil litigants.
Second, because the challenged election laws are constitutional, not entering the consent
judgment “is where the public interest lies.” Tex. Democratic Party, 961 F.3d at 412 (internal
quotation marks omitted); accord Respect Maine PAC v. McKee, 622 F.3d 13, 15 (1st Cir. 2010);
Phelps-Roper v. Nixon, 545 F.3d 685, 690 (8th Cir. 2008). Courts should not “lightly tamper with
election regulations,” Thompson, 959 F.3d at 813, so the public interest lies in “giving effect to the
will of the people by enforcing the [election] laws they and their representatives enact,” id. at 812;
Coal. to Def. Affirmative Action v. Granholm, 473 F.3d 237, 252 (6th Cir. 2006); Voting for Am.,
Inc. v. Andrade, 488 F. App’x 890, 904 (5th Cir. 2012). This is especially true in the context of an
approaching election. Thompson, 959 F.3d at 813; Respect Maine, 622 F.3d at 16. And it remains
true even though the NCSBE has chosen to capitulate to Plaintiffs’ demands instead of defending
its duly enacted election laws. Entering the unconstitutional consent judgment, therefore, would
undermine the constitutional election laws.
Third, entering the proposed consent judgment will engender substantial confusion, among
both voters and election officials, by changing the election rules after the election has already
started. See Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1207 (2020)
(per curiam) (explaining that the Supreme Court “has repeatedly emphasized that lower . . . courts
57
App. 287

should ordinarily not alter the election rules on the eve of an election”); Purcell, 549 U.S at 4–5.
To date, voters have requested 1,095,327 absentee ballots and cast 275,144 absentee ballots.14
These ballots require a witness signature on their face, so eliminating that requirement now would
render the instructions on hundreds of thousands, if not over a million, absentee ballots inaccurate.
The NCSBE itself admitted that altering the election rules this close to the election would create
considerable administrative burdens, confuse voters, poll workers, and local elections officials,
and engender disparate treatment of voters in the ongoing election. See Reply Br. of the State Bd.
Defs.-Appellants at 8, N.C. State Conf. of the NAACP v. Raymond, No. 20-1092 (4th Cir. July 27,
2020), ECF No. 103 (“[A]t this point in time, changes to the current [absentee voting] process
would run a substantial risk of confusion and disparate treatment of voters for this election cycle.
Thus, any mandate that the Court issues reversing the injunction should be given effect only after
the current election cycle.”); id. at 9 (“The proximity to the election . . . make[s] it practically
impossible for the State Board to fairly and effectively administer the November 2020 elections
under the [challenged election law], particularly in light of the significant administrative and voteroutreach efforts that would be required to do so.”); id. at 27–35 (discussing the difficulty of
changing election procedures in close proximity to the election and acknowledging that late-stage
changes “may engender increased confusion among voters and poll workers,” id. at 34).
Fourth, entering the proposed consent judgment will undermine confidence in the election
by eliminating safeguards that protect against ineligible and fraudulent voting and that protect
vulnerable voters. See Affidavit of Kimberly Westbrook Strach ¶¶ 69, 72, 87 (attached as Ex. 20
to Moss Aff.). For example, eliminating the witness requirement that the General Assembly
specifically insisted on retaining (in a relaxed form), could cause some to question the integrity of

14

Absentee Data, N.C. STATE BD. OF ELECTIONS (Sept. 29, 2020), available at
https://bit.ly/33SKzAw.

58
App. 288

the election, particularly when the NCSBE also has barred signature matching for absentee ballots.
Indeed, eliminating the witness requirement will create particularly acute risks vulnerable
populations. The witness requirement “protects the most vulnerable voters,” including nursing
home residents and other vulnerable voters, against being taken advantage of by caregivers or other
parties” by “provid[ing] assurances to family members that their loved ones were able to make
their own vote choices” and were not victims of absentee ballot abuse. Id. ¶ 72.
The proposed consent judgment is thus against the public interest and must not be entered.
IV.

Should the Court Grant the Joint Motion for Entry of a Consent Judgment,
Legislative Defendants Request a Stay Pending Appeal
In the alternative, should this Court grant the Plaintiffs’ and Executive Defendants’ joint

motion for entry of a consent judgment, Legislative Defendants request that this Court temporarily
stay enforcement of the consent judgment pending appeal. This Court has broad authority to enter
a stay to protect the rights of the litigants during the pendency of an appeal. See, e.g., N.C. R. Civ.
P. 62(d) (allowing the trial court to recognize a stay of execution on a judgment under certain
statutes); N.C. R. App. P. 8(a) (allowing the trial court to stay execution or enforcement of an order
or judgment pending appeal).
While the Court of Appeals has not articulated a specific test for granting a stay of the
enforcement of a trial court’s order pending resolution of an appeal, see Vizant Techs., LLC v. YRC
Worldwide Inc., No. 15 CVS 20654, 2019 NCBC LEXIS 16, at *12 (N.C. Super. Ct. Mar. 1, 2019)
(unpublished), trial courts deciding whether to grant a stay have focused on the prejudice and
irreparable harm to the moving party if a stay were not issued, see, e.g., Vizant, 2019 NCBC LEXIS
16, at *12–13; 130 of Chatham, LLC v. Rutherford Elec. Membership Corp., No. 14 CVS 711,
2014 NCBC LEXIS 35, at *7–8 (N.C. Super. Ct. July 31, 2014) (unpublished) (citing Home Indem.
Co. v. Hoechst Celanese Corp., 128 N.C. App. 113, 117–19 (1997); Rutherford Elec. Membership
59
App. 289

Corp. v. Time Warner Ent. / Advance-Newhouse P’ship, No. 13 CVS 231, 2014 NCBC LEXIS 34,
at *10–11 (N.C. Super. Ct. July 25, 2014) (unpublished). Indeed, the Court of Appeals has upheld
a trial court’s decision to stay enforcement of a judgment pending appeal where the movant’s
claims were not “wholly frivolous” and thus “[t]here was some likelihood that [movants] would
have prevailed on appeal and thus have been irreparably injured.” Abbott v. Town of Highlands,
52 N.C. App. 69, 79 (1981).
Here, Legislative Defendants will be prejudiced and irreparably injured if this Court does
not grant a stay of the proposed consent judgment pending appeal. A stay is necessary to protect
Legislative Defendants’ interests in defending duly enacted state election laws, the integrity of the
ongoing election, and North Carolinians voting rights. Furthermore, the proposed consent decree
substantially alters the current election law framework that governs the ongoing election. The
NCSBE itself has admitted that altering the election rules this close to the election would create
considerable administrative burdens, confuse voters, poll workers, and local elections officials,
and engender disparate treatment of voters in the ongoing election. See Reply Br. of the State Bd.
Defs.-Appellants at 8, N.C. State Conf. of the NAACP v. Raymond, No. 20-1092 (4th Cir. July 27,
2020), ECF No. 103 (“[A]t this point in time, changes to the current [absentee voting] process
would run a substantial risk of confusion and disparate treatment of voters for this election cycle.
Thus, any mandate that the Court issues reversing the injunction should be given effect only after
the current election cycle.”); id. at 9 (“The proximity to the election . . . make[s] it practically
impossible for the State Board to fairly and effectively administer the November 2020 elections
under the [challenged election law], particularly in light of the significant administrative and voteroutreach efforts that would be required to do so.”); id. at 27–35 (discussing the difficulty of

60
App. 290

changing election procedures in close proximity to the election and acknowledging that late-stage
changes “may engender increased confusion among voters and poll workers,” id. at 34).
Consequently, if the Court grants the motion to enter the consent judgment, a stay of the
enforcement of that judgment is necessary to preserve the status quo, prevent confusion, and
preserve the appellate court’s ability to afford Legislative Defendants relief. Absent a stay, the
NCSBE and the county boards of elections will move toward implementing procedures and
conducting voter education efforts for extending the absentee ballot receipt deadline to nine days
after election day and allowing unmanned drop boxes for voters to deliver completed ballots,
efforts that may confuse voters and election officials should Legislative Defendants prevail on
appeal and restore the status quo.
Furthermore, if the Court is inclined to deny Legislative Defendants’ request for a stay,
then they will seek the same relief from the appellate courts in the form of a motion for temporary
stay and petition for writ of supersedeas. See N.C. R. App. P. 8(a) (“After a stay order or entry has
been denied or vacated by a trial court, an appellant may apply to the appropriate appellate court
for a temporary stay and writ of supersedeas in accordance with Rule 23.”); see also N.C. R. App.
P. 23 (stating procedure for petitions for writs of supersedeas). Thus, at a minimum, the Court
should grant the temporary stay to afford the appellate courts the opportunity to rule on the
Legislative Defendants’ request.
V.

Conclusion
For the foregoing reasons, the Court should deny Plaintiffs’ and Executive Defendants’

Joint Motion for Entry of a Consent Judgment.

61
App. 291

STATE OF NORTH CAROLINA
COUNTY OF WAKE

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION

NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS; BARKER
FOWLER; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM
KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,

DOCKET NO. 20-CVS-8881

Plaintiffs,
v.
THE NORTH CAROLINA STATE BOARD
OF ELECTIONS; and DAMON CIRCOSTA,
in his official capacity as CHAIR OF THE
NORTH CAROLINA STATE BOARD OF
ELECTIONS,
Defendants,
PHILIP E. BERGER, in his official capacity as
President Pro Tempore of the North Carolina
Senate, and TIMOTHY K. MOORE, in his
official capacity as Speaker of the North
Carolina House of Representatives,
Intervenor-Defendants, and,
REPUBLICAN NATIONAL COMMITTEE,
NATIONAL REPUBLICAN SENATORIAL
COMMITTEE, NATIONAL REPUBLICAN
CONGRESSIONAL COMMITTEE, DONALD
J. TRUMP FOR PRESIDENT, INC., and
NORTH CAROLINA REPUBLICAN PARTY,
Republican Committee
Intervenor-Defendants.

REPUBLICAN COMMITTEES’ OPPOSITION TO
PLAINTIFFS’ AND EXECUTIVE DEFENDANTS’
MOTION FOR ENTRY OF CONSENT JUDGMENT

App. 292

TABLE OF CONTENTS
TABLE OF AUTHORITIES .......................................................................................................... ii
INTRODUCTION ...........................................................................................................................1
BACKGROUND .............................................................................................................................2
A. North Carolina’s Election Code and the BOE’s Role in Administering Elections..............2
B. The General Assembly Responds to the COVID-19 Pandemic ..........................................5
C. The Coordinated Litigation Effort To Subvert HB 1169 and Alter North
Carolina’s Election Procedures ............................................................................................7
D. The BOE’s Consent Judgment with the Alliance Plaintiffs...............................................11
LEGAL STANDARD....................................................................................................................13
ARGUMENT .................................................................................................................................13
I. THE CONSENT JUDGMENT IS NOT PROPERLY BEFORE THE COURT. ....................14
II. EVEN IF PROPERLY BEFORE THIS COURT, THE PURPORTED CONSENT
JUDGMENT DOES NOT MEET STANDARDS FOR APPROVAL. ..................................15
III. ENTRY OF THE CONSENT JUDGMENT WOULD INTRUDE ON THE GENERAL
ASSEMBLY’S AUTHORITY TO REGULATE ELECTIONS. ............................................18
IV. THE BOARD EXCEEDED ITS STATUTORY AUTHORITY TO ENTER THE DEAL
WITH PLAINTIFFS. ...............................................................................................................25
V. THE LATE-HOUR CONSENT JUDGMENT WILL DISRUPT THE ORDERLY
ADMINISTRATION OF THE NOVEMBER 2020 ELECTION. ..........................................27
CONCLUSION ..............................................................................................................................32

i
App. 293

TABLE OF AUTHORITIES
Page(s)
Cases
Advance North Carolina. v. North Carolina,
No. 20-CVS-2965 (Sup. Ct. Wake Cnty. Mar. 4, 2020) ............................................................9
State ex. rel. Beeson v. Marsh,
34 N.W. 2d 279 (Neb. 1948)....................................................................................................19
Benisek v. Lamone,
138 S. Ct. 1942 (2018) .............................................................................................................28
Briar Metal Products, Inc. v. Smith,
64 N.C.App. 173 (1983) ....................................................................................................13, 16
Chambers v. North Carolina,
Case No. 20-CVS-500124 (Sup. Ct. Wake Cnty. July 10, 2020) ............................9, 10, 11, 17
City of Los Angeles v. Patel,
576 U.S. 409 (2015) .................................................................................................................15
Common Cause R.I. v. Gorbea,
No. 20-cv-00318, 2020 WL 465608 (D. R.I. July 30, 2020) ...................................................18
Common Cause v. Thomsen,
No. 19-CV-323-JDP, 2020 WL 5665475 (W.D. Wis. Sept. 23, 2020) .............................29, 30
Democracy North Carolina v. The North Carolina State Board of Elections,
2020 WL 4484063 (M.D.N.C. Aug. 4, 2020) ....................................................................7, 8, 9
DSCC v. N.C. State Bd. of Elections,
No. 20-CVS-69947 (Sup. Ct. Wake Cnty. Sept. 8, 2020) .........................................................9
Com. Ex rel. Dummit v. O’Connell,
181 S.W. 2d 691 (Ky. Ct. App. 1944) .....................................................................................19
Griffin v. Roupas,
385 F.3d 1128 (7th Cir. 2004) ...................................................................................................3
Hawke v. Smith,
253 U.S. 221 (1920) .................................................................................................................18
Hill v. Hill,
97 N.C. App. 499 (1990) ...................................................................................................13, 15

ii
App. 294

Holdstock v. Duke Univ. Health Sys., Inc.,
841 S.E.2d 307 (N.C. Ct. App. 2020) ......................................................................................15
James v. Bartlett,
359 N.C. 260, 607 S.E.2d 638 (2005)................................................................................26, 27
Jenkins v. State Bd. of Elections of N.C.,
180 N.C. 169, 104 S.E. 346 (1920) ............................................................................................2
LaRose v. Simon,
No. 62-CV-20-3149 (Ramsey Cty. Dist. Ct. Aug. 3, 2020) ....................................................18
League of Women Voters of Va. v. Va. State Bd.,
___ F. Supp. 3d ___, No. 6:20-cv-00024, 2020 WL 4927524 (W.D. Va. Aug.
21, 2020) ..................................................................................................................................18
Local No. 93, Intern. Ass’n of Firefighters, AFL-CIO C.L.C. v. City of Cleveland,
478 U.S. 501 (1986) .................................................................................................................15
Medford v. Lynch,
67 N.C. App. 543, 313 S.E.2d 593 (1984) .........................................................................13, 16
Moore, et al. v. Circosta, et al.,
No. 4:20-cv-00182-D, Dkt. No. 1 (E.D.N.C. Sept. 26, 2020) .................................................12
Ne. Ohio Coal. for Homeless & Serv. Employees Int’l Union, Local 1199 v.
Blackwell,
467 F.3d 999 (6th Cir. 2006) ...................................................................................................31
North Carolina Democratic Party v. North Carolina,
No. 19-CVS-14688 (Sup. Ct. Wake Cnty. Oct. 28, 2019) .........................................................9
North Carolina v. Covington,
138 S. Ct. 2548 (2018) .............................................................................................................28
In re Opinion of Justices,
45 N.H. 595 (1864) ..................................................................................................................19
In re Plurality Elections,
8 A. 881 (R.I. 1887) .................................................................................................................19
Purcell v. Gonzalez,
549 U.S. 1, 127 S.Ct. 5, 166 L.Ed.2d 1 (2006) ................................................................ passim
Republican Nat’l Comm. v. Democratic Nat’l Comm.,
140 S. Ct. 1205 (2020) .............................................................................................................28

iii
App. 295

Riley v. Kennedy,
553 U.S. 406 (2008) .................................................................................................................28
Stringer v. North Carolina,
No. 20-CVS-5615 (Sup. Ct. Wake Cty. May 4, 2020) .................................................... passim
Veasey v. Perry,
769 F.3d 890 (5th Cir. 2014) ...................................................................................................30
Weaver v. Hampton,
204 N.C. 42, 167 S.E. 484 (1933) ......................................................................................13, 16
Wise, et al. v. N.C. State Bd. of Elections, et al.,
No. 5:20-cv-00505-M, Dkt. No. 1 (E.D.N.C. Sept. 26, 2020).................................................12
Statutes
N.C.G.S. § 1-81.1(a1) ....................................................................................................................14
N.C.G.S. § 1A-1, 42.......................................................................................................................10
N.C.G.S. § 163-22(a) .................................................................................................................4, 25
N.C.G.S. § 163-22.2.......................................................................................................................25
N.C.G.S. § 163-27.1.....................................................................................................................4, 5
N.C.G.S. § 163-166.9.....................................................................................................................22
N.C.G.S. § 163-223.6(a)(5) .....................................................................................................19, 24
N.C.G.S. § 163-226(a) .....................................................................................................................2
N.C.G.S. § 163-226.3.................................................................................................................3, 24
N.C.G.S. § 163-227.6...................................................................................................................3, 4
N.C.G.S. § 163-227.10(a) ..............................................................................................................22
N.C.G.S. § 163-229(b) .............................................................................................................19, 24
N.C.G.S. § 163-231(a) ...............................................................................................................3, 19
N.C.G.S. § 163-231(b) ...................................................................................................................19
N.C.G.S. § 163-231(b)(1) ..........................................................................................................3, 22
N.C.G.S. § 163-231(b)(2) ..............................................................................................3, 19, 21, 23

iv
App. 296

N.C.G.S. § 163 art. 20 ......................................................................................................................2
N.C.G.S. § 16327.1(a) ...................................................................................................................26
Other Authorities
U.S. Const., art. I, § 4.................................................................................................................1, 19
U.S. Const., art. I, § 4, cl. 1 ......................................................................................................18, 19

v
App. 297

INTRODUCTION
With a backroom deal announced only last week, Plaintiffs and the Executive Defendants
attempt to circumvent the authority of the General Assembly to regulate elections and rewrite
statutes recently upheld by two courts—the U.S. District Court for the Middle District of North
Carolina and a three-judge Court sitting in Wake County Superior Court. They claim this action
is justified by the pandemic, but the General Assembly, vested with authority over election laws
by both the Constitution of the United States and the Constitution of the State of North Carolina,
has already made adjustments to the election laws to address the pandemic. This illegitimate deal
is a plain ploy by an Executive Branch agency working collusively with a partisan group to usurp
power from the General Assembly.
More specifically, this deal fails to pass scrutiny for at least five reasons. First, the socalled Consent Judgment may be approved, if at all, only by a 3-judge court. The agreement
purports to revise certain statutory provisions—such as the ballot receipt deadline and the witness
requirement—for all voters in all circumstances. Indeed, as Plaintiffs concede, if approved the
deal would resolve the claims not only in NC Alliance but also in Stringer, which all parties and
this Court agree is a facial challenge. Second, even if properly before this Court, the purported
consent judgment does not meet standards for approval. Third, if entered by the Court, the revised
election procedures would eviscerate laws enacted by the General Assembly earlier this year, and
thereby violate Article I, Section 4 of the U.S. Constitution, which grants exclusive authority to
the General Assembly to regulate the time, place, and manner for elections in the state. See U.S.
Const. art. I, § 4. Fourth, even if constitutional, the changes called for in the Consent Judgment
exceed the limited statutory authority of the North Carolina State Board of Elections. Finally, the
deal would cause substantial voter confusion and cause significant disruption to the orderly

1
App. 298

administration of voting, which has been underway since September 4. With only five weeks
remaining until Election Day, these material, late changes to voting rules will sow confusion
among voters and election officials, extend casting and tabulation of votes well past any reasonable
deadline, invite post-election controversy, and deprive North Carolina voters of the free, fair, and
secure election to which they are entitled. For these reasons, the Republican Committees urge the
Court to reject the motion.
BACKGROUND
A.

North Carolina’s Election Code and the BOE’s Role in Administering
Elections

Today, North Carolina offers its citizens three ways to vote: (1) absentee voting by mailin ballot, (2) in-person early voting, and (3) in-person voting on Election Day. The General
Assembly created the option for absentee voting in 1917,1 and more recently expanded the
absentee voting option to allow “no excuse” absentee voting; now anyone can vote absentee simply
by complying with the safeguards enacted by the General Assembly. The availability of these
three options maximizes election participation, but each is also carefully structured to ensure that
elections are not only accessible but fair, honest, and secure.
In the order they are available to voters, the first option to vote is by absentee ballot. See
generally N.C.G.S. § 163 art. 20. The BOE purported to make material modifications to this
method through its Consent Judgment and Numbered Memos. North Carolina allows “[a]ny
qualified voter of the State [to] vote by absentee ballot in a statewide . . . general . . . election.” Id.
§ 163-226(a). In view of the consensus that mail-in ballots present a higher risk of fraud than

1 See Jenkins v. State Bd. of Elections of N.C., 180 N.C. 169, 104 S.E. 346, 347 (1920).

2
App. 299

ballots submitted in person,2 North Carolina enacted measures to deter and detect fraudulent mailin ballots. As relevant here, the voter must complete and certify the ballot-return envelope in the
presence of two witnesses (or a notary), who must certify “that the voter is the registered voter
submitting the marked ballot[]” (the “Witness Requirement”). Id. § 163-231(a). The voter (or a
near relative or verifiable legal guardian) can then deliver the ballot in person to the county board
office or transmit the ballot “by mail or by commercial courier service, at the voter’s expense, or
delivered in person” not “later than 5:00 p.m. on the day of the” general election. Id. § 163231(b)(1). A ballot would be considered timely if it was postmarked by election day (the
“Postmark Requirement”) and received “by the county board of elections not later than three days
after the election by 5:00 p.m.” (the “Receipt Deadline”). Id. § 163-231(b)(2)(b). With limited
exceptions, North Carolina law prohibits anyone except the voter’s near relative or legal guardian
from assisting a voter with the completion and submission of an absentee ballot (the “Assistance
Ban” and “Ballot Delivery Ban”). Id. § 163-226.3.
The second option for North Carolina voters is one-stop early voting. See id. § 163-227.6.
Under this provision, county boards can establish one or more early-voting locations, which the
BOE must approve. Id. § 163-227.6(a). Those locations open on the third Thursday before
Election Day, and early voting must be conducted through the last Saturday before the election.

2 For example, a commission chaired by President Jimmy Carter and former Secretary of State James A.

Baker, III found that voting by mail is “the largest source of potential voter fraud.” Leland Decl., Ex. 1,
Carter-Baker Report, at 46. Other commissions have reached the same conclusion, finding that “when
election fraud occurs, it usually arises from absentee ballots.” Leland Decl., Ex. 2, Morley Redlines Article,
at 2. This is true for a number of reasons. For instance, absentee ballots are sometimes “mailed to the wrong
address or to large residential buildings” and “might get intercepted.” Leland Decl., Ex. 1, Carter-Baker
Report, at 46. Absentee voters “who vote at home, at nursing homes, at the workplace, or in church are
more susceptible to pressure, overt and subtle, or to intimidation.” Id. And “[v]ote buying schemes are far
more difficult to detect when citizens vote by mail.” Id. As one court put it, “absentee voting is to voting
in person as a take-home exam is to a proctored one.” Griffin v. Roupas, 385 F.3d 1128, 1131 (7th Cir.
2004).

3
App. 300

Id. § 163-227.2(b). North Carolina law mandates the hours at which the early voting sites must
open, and requires that if “any one-stop site across [a] county is opened on any day . . . all onestop sites shall be open on that day” (“Uniform Hours Requirement”). Id. § 163-227.6(c)(2).
The third option is in-person voting on election day. See generally § 163 art. 14A. As with
the other two methods of voting, the General Assembly has prescribed a series of rules, to be
administered by the BOE and county boards, to ensure that in-person voting is fair, efficient, and
secure. See id.
The General Assembly created the BOE and empowered it with “general supervision” of
elections and the authority “to make such reasonable rules and regulations” for elections. Id.
§ 163-22(a). But the General Assembly also instructed that the BOE’s rules cannot “conflict with
any provisions of” North Carolina’s election code.

Id.

That is true even where exigent

circumstances require the BOE to pass temporary rules or exercise emergency powers. The BOE
can promulgate temporary rules should any provision of North Carolina’s election code be held
unconstitutional, provided that those rules “do not conflict with any provisions of . . . Chapter 163
of the General Statutes and such rules and regulations shall become null and void 60 days after the
convening of the next regular session of the General Assembly.” Id. § 163-22.2. And consistent
with these restrictions, “upon recommendation of the Attorney General,” the BOE can “enter into
agreement with the courts in lieu of protracted litigation,” but it can only do so “until such time as
the General Assembly convenes.” Id.
The Executive Director may also exercise “emergency powers to conduct an election in a
district where the normal schedule for the election is disrupted by . . . [a] natural disaster[,]
[e]xtremely inclement weather[, or certain] armed conflict[s].” N.C.G.S. § 163-27.1. These
powers are similarly limited. To begin, these provisions apply only in exigent circumstances in

4
App. 301

which the General Assembly has no opportunity to act. They do not give the BOE a chance to
second guess the General Assembly after it has responded to an emergency, as the General
Assembly has here. Moreover, the statute provides that in exercising this power, “the Executive
Director shall avoid unnecessary conflict with the provisions of” the voting code. Id. (emphasis
added). Thus, these statutory provisions cannot support the deal BOE reached in this case.
B.

The General Assembly Responds to the COVID-19 Pandemic

The General Assembly took decisive action in response to the COVID-19 pandemic and
enacted HB 1169, which passed into law on June 12, 2020. Taking full account of the COVID-19
pandemic and experiences of other states that had conducted primary elections during the
pandemic, the General Assembly modified voting laws for the 2020 election and appropriated
funding to ensure the election may be conducted in a safe, efficient, and fair manner.
Before enacting HB 1169, the Assembly spent a month and a half working on the bill3 and
considered many proposals. The BOE advanced several proposals, including one to reduce or
eliminate the witness requirement for absentee ballots. Leland Decl., Ex. 4, State Bd. Mar. 26,
2020 Ltr. at 3. Moreover, the General Assembly had the benefit of information about other primary
elections conducted during the pandemic, and numerous contemporaneous articles recounting
challenges faced by the United States Postal Service (“USPS”). See generally Leland Decl., Ex.
5, Jordan Fabian, “Trump’s Postal Service Feud Risks Riling Voters with Price Hikes,” Bloomberg
(May 22, 2020); Leland Decl., Ex. 6, Nicholas Fandos & Reid J. Epstein, “A Fight Over the Future
of the Mail Breaks Down Along Familiar Lines,” New York Times (May 10, 2020).

3 Leland Decl., Ex. 3, Jordan Wilkie, NC House Passes Bipartisan Election Bill To Fund COVID-19

Response, Carolina Public Press (May 29, 2020), at 3.

5
App. 302

The General Assembly was also familiar with the recent election in North Carolina’s Ninth
Congressional District, which was so severely tainted by “absentee ballot fraud” that it had to be
held anew, and from that incident understood the importance of restricting who can assist voters
with the request for, filling out, and delivery of absentee ballots. See Leland Decl., Ex. 7, In The
Matter Of: Investigation of Election Irregularities Affecting Counties Within the 9th Cong. Dist.,
Order at 2 (Mar. 13, 2019).
HB 1169 passed with overwhelming bipartisan majorities, by a vote of 105-14 in the House
and by a vote of 37-12 in the Senate,4 and was signed by Governor Cooper. Members lauded the
bill: As Democrat representative Allison Dahle remarked, “[n]either party got everything they
wanted,” but the “compromise bill” was “better for the people of North Carolina.”5 For the
November 2020 election, among other things, the General Assembly:
•

Reduced the number of witnesses required for absentee ballots to one person
instead of two, HB 1169 § 1.(a).

•

Allowed voters to call the State or county board of elections to request a blank
absentee ballot request form be sent to the voter via mail, e-mail, or fax. Id § 5(a).

•

Enabled voters to request absentee ballots online. Id. § 7.(a).

•

Allowed completed requests for absentee ballots to be returned in person or by mail,
e-mail, or fax. Id. § 2.(a).

•

Permitted “multipartisan team” members to help any voter complete and return
absentee ballot request forms. Id. § 1.(c).

•

Provided for a “bar code or other unique identifier” to track absentee ballots. Id. §
3.(a)(9).

•

Appropriated funds “to prevent, prepare for, and respond to the coronavirus
pandemic during the 2020 federal election cycle.” Id. § 11.1.(a).

4 Leland Decl., Ex. 8, HB 1169, Voting Record.
5 See Leland Decl., Ex. 3, Jordan Wilkie, NC House Passes Bipartisan Election Bill To Fund COVID-19

Response, Carolina Public Press (May 29, 2020).

6
App. 303

These changes carefully balanced the public health concerns about the pandemic against
the legitimate needs for election security. To achieve this balance, the General Assembly retained
several provisions, including (1) the Postmark Requirement, (2) the three-day Receipt Deadline,
(3) the Assistance Ban and Ballot Delivery Ban, and (4) a reduced one-person Witness
Requirement.
C.

The Coordinated Litigation Effort To Subvert HB 1169 and Alter North
Carolina’s Election Procedures

The General Assembly’s bipartisan action to assure North Carolina’s general election will
be safe, secure, and fair did not satisfy certain Democratic Party operatives, who saw in the
COVID-19 pandemic a way to legislate through the courts. E.g., Leland Decl., Ex. 9, Eric Holder:
Here’s How the Coronavirus Crisis Should Change U.S. Elections—For Good, TIME, at 4 (Apr.
14, 2020) (“Coronavirus gives us an opportunity to revamp our electoral system . . .”). Indeed,
Plaintiffs’ counsel in this case ventured that if litigation could lead to an increase of “1 percent of
the vote [for Democrats], that would be among the most successful tactics that a campaign could
engage in.” Leland Decl., Ex. 10, Marc Elias Tweet. In North Carolina alone, Democratic Party
committees and related organizations have filed at least seven lawsuits attacking various aspects
of North Carolina’s election code. Plaintiffs in many of these cases filed motions to preliminarily
enjoin certain aspects of HB 1169 and the North Carolina election code.
The first North Carolina decision came in Democracy North Carolina, 2020 WL 4484063.
Several organizations and individuals sued the BOE and moved for a preliminary injunction,
claiming that numerous provisions of North Carolina’s election code, including the Witness
Requirement, Receipt Deadline, Postage Requirement, Assistance Ban, and Ballot Delivery Ban,
violated federal constitutional and statutory law. See id. at *5–10. The President Pro Tempore of
the North Carolina Senate and Speaker of the North Carolina House of Representatives
7
App. 304

(“Legislative Defendants”) intervened to defend the General Assembly’s election laws, and the
Republican Committees appeared as amici. See id. *3. Executive Director Bell testified by
affidavit and in person, confirming the basis and reasonableness of the challenged restrictions. See
p. 17, n. 11 below. On August 4, after a three-day evidentiary hearing and extensive argument,
the district court issued a comprehensive 188-page opinion and order. See generally Democracy
North Carolina v. The North Carolina State Board of Elections, 2020 WL 4484063 (M.D.N.C.
Aug. 4, 2020). The court rejected nearly all the plaintiffs’ claims, finding that plaintiffs could not
show a likelihood of success on the merits. See id. *1, 64. For instance, the court rejected the
challenge to the Witness Requirement finding that even elderly, high-risk voters can fill out a ballot
in a short period of time and have the witness observe the process from a safe distance, thereby
significantly reducing or eliminating any risk of COVID-19 transmission. Id. at *24–33; see also
id. at *52 (finding that the Ballot Delivery Ban was related to the legitimate purpose of “combating
election fraud” and would likely be upheld). Moreover, the court found that even if certain
procedures did “present an unconstitutional burden under the circumstances created by the
COVID-19 pandemic,” it was not the court’s role to “undertake a wholesale revision of North
Carolina’s election laws,” particularly so close to an election. See id. at *45 (citing Purcell v.
Gonzalez, 549 U.S. 1, 127 S. Ct. 5, 166 L. Ed. 2d 1 (2006)).
Although the district court denied nearly all of the plaintiffs’ claims, it did find that they
were likely to succeed on two discrete issues. First, the court held that one plaintiff (an elderly,
blind nursing home resident) was likely to succeed on a Voting Rights Act claim challenging North
Carolina’s limitation on who could assist him with completing his ballot. Id. at *55, 61. It granted
limited to relief to that voter. Second, the court held that plaintiffs were likely to succeed in
showing that North Carolina’s lack of a notification and cure procedure for deficient absentee

8
App. 305

ballots violated procedural due process. Id. at *55. The court accordingly enjoined the Board
“from allowing county boards of elections to reject a delivered absentee ballot without notice and
an opportunity to be heard until” the Board could implement a uniform cure procedure. Id. at *64.
The BOE responded to the court’s procedural due process ruling on August 21, 2020 by
issuing Numbered Memo 2020-19. Leland Decl., Ex. 11. The original Numbered Memo 202019 had two key parts: (1) it eliminated the requirement that county boards match the signature on
the ballot to the voter’s signature on file and (2) it defined a cure procedure for deficient absentee
ballots. Id. §§ 1, 2. A voter’s failure to sign the voter certification or signing the certification in
the wrong place could be cured through an affidavit. Id. § 2.1. In contrast, affidavits could not be
used to cure deficiencies related to the Witness Requirement—which the court had upheld—
meaning the ballot would be spoiled, the voter notified, and the voter issued a new ballot. Id.
Collectively, these procedures will be called the “Cure Process.”
Notwithstanding the federal court’s extensive ruling, which upheld the vast majority of the
challenged provisions, as well as the Board’s prompt action in implementing the Cure Process,
Plaintiffs in this case and related organizations remained undeterred. They have continued to press
forward with five other lawsuits in North Carolina state court challenging many of the same
provisions upheld in Democracy North Carolina, including one claiming that the Cure Process
violated North Carolina’s Constitution because it arbitrarily distinguished between voters.6 All of
those lawsuits were filed against the BOE, and the Legislative Defendants were granted

6 See DSCC v. N.C. State Bd. of Elections, No. 20-CVS-69947 (Sup. Ct. Wake Cnty. Sept. 8, 2020)

(challenging Cure Process); Chambers v. North Carolina, Case No. 20-CVS-500124 (Sup. Ct. Wake Cnty.
July 10, 2020) (Witness Requirement); Stringer v. North Carolina, No. 20-CVS-5615 (Sup. Ct. Wake Cty.
May 4, 2020) (challenges similar to those in the Alliance case); Advance North Carolina. v. North Carolina,
No. 20-CVS-2965 (Sup. Ct. Wake Cnty. Mar. 4, 2020) (challenging limitations on who may assist with
completion and delivery of absentee ballots); North Carolina Democratic Party v. North Carolina, No. 19CVS-14688 (Sup. Ct. Wake Cnty. Oct. 28, 2019) (challenging Uniform Hours requirement).

9
App. 306

intervention in each case. In all of those lawsuits except Chambers, the Perkins Coie law firm, led
by Partner Marc Elias, represented the plaintiffs against the BOE.
The second decision to address a motion to enjoin portions of HB 1169 was Chambers,
which challenged the Witness Requirement. On September 3, a three-judge panel7 denied the
Chambers plaintiffs’ motion to preliminarily enjoin the Witness Requirement. See Leland Decl.,
Ex. 12, Chambers, Case No. 20-CVS-500124. After briefing with evidentiary submissions and an
oral hearing, the panel held that there was not a substantial likelihood the plaintiffs would prevail
on the merits. Id. at 6. Furthermore, it held that “the equities do not weigh in [plaintiffs’] favor”
because of the proximity of the election, the tremendous costs that the plaintiffs’ request would
impose on the State, and the confusion it would cause voters. Id. at 7. Specifically, the panel
determined that changes requested by plaintiffs “will create delays in mailing ballots for all North
Carolinians voting by absentee ballot in the 2020 general election and would likely lead to voter
confusion as to the process for voting by absentee ballot.” Id. (emphasis in original).
The Board of Elections then proceeded, pursuant to a statutory requirement, to mail
absentee ballots to “more than 650,000” voters who had requested them. See Leland Decl., Ex.
13, The November Election Season Has Officially Started, as North Carolina Begins Sending Out
Mail Ballots, The Washington Post (Sept. 4, 2020) (indicating that on Sept. 4, the North Carolina
had already begun mailing out more than 650,000 absentee ballots to voters). As of September
30, 1,116,696 absentee ballots had been requested, and 280,353 completed ballots had been
returned.8

7 As discussed below (pp. 14-15), North Carolina law requires all challenges to the facial validity of North

Carolina statutes to be heard by a three-judge panel in the Superior Court of Wake County. N.C.G.S. § 1A1, 42.
8 See https://www.ncsbe.gov/ for a current number of requested ballots; Leland Decl., Ex. 14, BOE

Absentee Data.

10
App. 307

Notwithstanding defeats in Democracy North Carolina and Chambers, and the
approaching election, plaintiffs in the remaining cases continued to press on. In this case, plaintiffs
filed a preliminary injunction motion on August 21, and submitted supporting papers on September
4. Opposition briefs were due on September 28, with a preliminary injunction hearing scheduled
for October 2. During that time, the Legislative Defendants and State Defendants began deposing
fact and expert witnesses.9 The Republican Committees, who were awaiting a ruling on their
intervention motion, also participated in those depositions.
D.

The BOE’s Consent Judgment with the Alliance Plaintiffs

During the time that the Legislative Defendants and Republican Committees were engaged
in depositions, the State Defendants conducted secret settlement negotiations with the Alliance
plaintiffs. Those negotiations resulted in the plaintiffs’ and BOE’s agreement to the Consent
Judgment, which they submitted to the court for approval on September 22. Not until September
22, after the negotiations were concluded, after execution of the deal, and when one of the
plaintiffs’ witnesses failed to show up for her deposition did the plaintiffs inform the Legislative
Defendants and Republican Committees of the deal.
The proposed Consent Judgment would require plaintiffs to drop their claims against the
BOE in exchange for the BOE’s implementing significant changes to North Carolina’s election
code for the November general election. Although the hearing on the joint Consent Judgment
motion is scheduled for October 2, it appears that the BOE has deemed its new “Numbered
Memos” to be immediately effective, without awaiting this Court’s approval.10

9 The depositions were not completed. After the plaintiffs and the State Board defendants announced the

deal, plaintiffs refused to allow any further witnesses to be deposed.
10 BOE has purported to instruct county boards of election to begin immediate implementation of the

revised version of Numbered Memo 2020-19. The Republican Committees, joined by others, and separately
the Legislative Defendants, also joined by others, have sought injunctive relief against the Consent

11
App. 308

Under the deal, the BOE implemented changes to North Carolina’s election code by
rewriting Numbered Memo 2020-19 (which established the Cure Process) and issuing three other
new memos to county boards. Revised Numbered Memo 2020-19 now (1) requires county boards
to accept a ballot signature as long as it appears to have been made by the voter and (2) allows
voters to cure a ballot that is deficient due to a (i) lack of signature, (ii) problems with the voter’s
contact information, or (iii) problems with the witness’s certification (for instance, the ballot had
no witness or the witness failed to sign the ballot) by submitting a cure affidavit executed by the
voter. See Leland Decl., Ex. 17, Revised Numbered Memo 2020-19. See also Leland Decl., Ex.
18 (redline comparison of original version of Numbered Memo 2020-19 to revised version).
The Board also issued Numbered Memo 2020-22, which applies only to “remaining
elections in 2020,” and provides that absentee ballots are timely if “(1) received by the county
board by 5:00 p.m. on Election Day; or (2) the ballot is postmarked on or before Election Day and
received by nine days after the election, which is Thursday, November 12, 2020 at 5:00 p.m.”
Leland Decl., Ex. 19, Numbered Memo 2020-22. In addition to tripling the Receipt Deadline from
the statutory requirement of receipt three days after Election Day to nine days, the BOE eliminated
the Postmark Requirement by providing that a ballot is considered “postmarked” if there is
information in a tracking service showing that the ballot was “in the custody of USPS or the
commercial carrier on or before Election.” Id.
Finally, the Board issued Numbered Memo 2020-23, which affirms that absentee ballots
cannot be left in an unmanned drop box, but then negates that restriction by stating that county
boards cannot “disapprove a ballot solely because it is placed in a drop box.” Leland Decl., Ex.

Judgment in federal court. See Leland Aff., Ex. 15, Wise, et al. v. N.C. State Bd. of Elections, et al., No.
5:20-cv-00505-M, Dkt. No. 1 (E.D.N.C. Sept. 26, 2020); Leland Aff., Ex. 16, Moore, et al. v. Circosta, et
al., No. 4:20-cv-00182-D, Dkt. No. 1 (E.D.N.C. Sept. 26, 2020).

12
App. 309

20, Numbered Memo 2020-23. The Board ignored North Carolina’s strict statutory limits on who
may deliver a completed absentee ballot by instructing county boards that they cannot “disapprove
an absentee ballot solely because it was delivered by someone who was not authorized to possess
the ballot.” Id.
LEGAL STANDARD
When considering whether to grant a consent decree, “[t]he authority of a court to sign and
enter a consent judgment depends upon the unqualified consent of the parties thereto, and the
judgment is void if such consent does not exist at the time the court sanctions or approves the
agreement of the parties and promulgates it as a judgment.” Hill v. Hill, 97 N.C. App. 499, 501
(1990); see also Briar Metal Products, Inc. v. Smith, 64 N.C. App. 173, 176 (1983) (same). In
short, a failure of all parties to consent to a judgment, standing alone, precludes entry of the
proposed judgment by the Court.
But even if (unlike here) all parties have consented, the Court must not blindly accept the
terms of a proposed settlement. The Court must satisfy itself that “such settlement is made in good
faith and free of fraud, collusion, or other vitiating element.” Weaver v. Hampton, 204 N.C. 42,
167 S.E. 484, 485–86 (1933); see also Medford v. Lynch, 67 N.C. App. 543, 546, 313 S.E.2d 593,
595 (1984) (stating that a consent judgment is not a final judgment if there is evidence of
collusion). And, of course, the proposed judgment must be consistent with the state and federal
Constitutions, and within the authority of the agreeing parties.
ARGUMENT
Plaintiffs and Executive Defendants have not satisfied the fundamental requirements for
entry of the Consent Judgement. Even if they had, entry of the Consent Judgment would be
contrary to the laws duly enacted by the North Carolina General Assembly, exceed the authority
of the Board to enter, and create confusion about the rules for administering the election while
13
App. 310

votes are already being cast and tallied. For these reasons, the Republican Committees urge the
Court to deny the Joint Motion.
I.

THE CONSENT JUDGMENT IS NOT PROPERLY BEFORE THE COURT.
The Consent Judgment is not properly before this Court. Rather, the three-judge panel in

Stringer v. North Carolina State Board, No. 20-CVS-5615 (Sup. Ct. Wake Cnty.) has jurisdiction
over the Consent Judgment. This Court retained jurisdiction over the North Carolina Alliance case
based on Plaintiffs’ representation, joined by the State Defendants, that it is an “as applied” rather
than a facial challenge. In contrast, the Court referred Stringer to a three-judge panel because all
agreed Stringer is a facial challenge. But the Consent Judgment would order relief concerning the
entire North Carolina voting population, regardless of the particular circumstances of any
individual voter, by (1) extending the number of days for all 100 counties to receive all absentee
ballot postmarked by election day from November 6 to November 12, (2) implementing new, statewide procedures for “curing” any non-compliant absentee ballots, and (3) loosening restrictions
throughout the state on who may deliver an absentee ballot to a voting location. This relief has
broad public policy implications for all voters, and is far beyond the individual issues raised by
the voters in N.C. Alliance. Indeed, the Plaintiffs and State explicitly state that the order “is in the
best interests of the health, safety, and constitutional rights of the citizens of North Carolina, and,
therefore, in the public interest.” Consent Order Recital, p. 10.
Accordingly, the Consent Decree falls within the three-judge court statute. Any claim
seeking an order to enjoin an act of the General Assembly on the basis that it is facially invalid
because it violates the North Carolina Constitution or federal law must be transferred to a threejudge panel “if [] a determination as to the facial validity of an act of the General Assembly must
be made in order to completely resolve any issues in the case” N.C. Gen. Stat. Ann. § 1-81.1(a1)
(emphasis added). “A facial challenge is an attack on a statute itself as opposed to a particular
14
App. 311

application.” Holdstock v. Duke Univ. Health Sys., Inc., 841 S.E.2d 307, 311 (N.C. Ct. App. 2020);
City of Los Angeles v. Patel, 576 U.S. 409, __, 135 S. Ct. 2443, 2449, 192 L. Ed. 2d 435, 443
(2015)). It would be anomalous for this Court to approve, in a case asserting an “as applied”
challenge, a purported Consent Judgment that provided “facial” relief.
In fact, the relief sought in the Consent Order closely resembles the relief requested by
Plaintiffs in Stringer v. North Carolina State Board, No. 20-CVS-5615 (Sup. Ct. Wake Cnty.), a
case transferred to a three-judge panel on September 22, 2020. Compare Stringer Complaint
Prayer for Relief (“Requiring the State to extend the Receipt Deadline for ballots postmarked by
Election Day”) and Consent Order § VI.A (“For the 2020 elections Executive Defendants shall
extend the Receipt Deadline for mailed absentee ballots”). It is no wonder, then, that Plaintiffs’
lawyers in Stringer (who also represent the NC Alliance Plaintiffs) have also withdrawn their
motion for preliminary injunction in Stringer.

Accordingly, only a three-judge Court has

jurisdiction to review and approve the Consent Judgement.
II.

EVEN IF PROPERLY BEFORE THIS COURT, THE PURPORTED CONSENT
JUDGMENT DOES NOT MEET STANDARDS FOR APPROVAL.
There are at least three reasons why, even if this Court, and not the three-judge panel, did

have jurisdiction, the Consent Judgment still does not met standards for approval.
First, , this court cannot consider a settlement agreement over the objections of other
Defendants in the same case. “[A] court may not enter a consent decree that imposes obligations
on a party that did not consent to the decree.” Local No. 93, Int’l Ass’n of Firefighters, AFL-CIO
C.L.C. v. City of Cleveland, 478 U.S. 501, 529 (1986); see also Hill, 389 S.E.2d at 142 (“The
authority of a court to sign and enter a consent judgment depends upon the unqualified consent of
the parties thereto, and the judgment is void if such consent does not exist at the time the court
sanctions or approves the agreement of the parties and promulgates it as a judgment.”) (emphasis
15
App. 312

added); Briar Metal Prods., 64 N.C. App. at 176. The Legislative Defendants, representing the
institutional interests of the General Assembly, as well as the Republican Committees, who were
granted intervention while expressing objections to the deal, were excluded from negotiations
leading to the Consent Judgment and alerted to the deal only after its submission to the Court.
Indeed, the Republican Committees and Legislative Defendants learned of the settlement
agreement for the first time on September 22 when one of the Plaintiffs failed to appear for her
agreed deposition. See emails from Uzoma Nkwonta to Nicole Moss (Sept. 22-24, 2020) (attached
as Leland Decl. Ex. 21). But as explicitly stated in the Consent Agreement, “extensive” and
“substantial” negotiations between Plaintiffs and the Executive Defendants had been underway for
weeks—indeed since the date Plaintiffs first filed their motion for a preliminary injunction in this
case (on September 4), and before the Executive Defendants acquiesced in Plaintiffs’ objection to
transfer of this case to the three-judge court along with Stringer. By excluding the Legislative
Defendants, who wrote and passed the laws in question and are the only parties in this lawsuit that
have the power to revise or amend the General Statutes, and the Republican Committees, the
Plaintiffs and Executive Defendants have entered and submitted an incomplete deal. This alone is
a sufficient reason for the Court not to enter the Consent Judgment.
Second, as evidenced by the announcement of the deal to the Republican Committees and
Legislative Defendants, the Consent Judgment is the product of collusion. Medford, 313 S.E.2d
at 595 (stating that a consent judgment is not a final judgment if there is evidence of collusion);
see also Weaver, 167 S.E. at 485–86 (1933) (stating that a court must satisfy itself that “such
settlement is made in good faith and free of fraud, collusion, or other vitiating element.”). The
Executive Defendants had vigorously defended the General Assembly’s laws in two previous

16
App. 313

lawsuits, with Executive Director Bell testifying repeatedly against changes to the challenged
provisions.11
And then, abandoning her sworn testimony, the Executive Defendants negotiated for weeks
with Plaintiffs before striking an ultra vires backroom deal that completely cuts out the Legislative
Defendants and the Republican Committees.

The Consent Judgment and the Numbered

Memoranda issued by the Board of Elections purport to rewrite the General Statutes—the
exclusive prerogative of the General Assembly—in accordance with the policy preferences of
Plaintiffs and their political allies. Indeed, the deal (encompassing both the Consent Judgment and
the new and revised Numbered Memos that are part of it) adopts a number of provisions that the
General Assembly actually considered and rejected earlier this year.
The Consent Judgment appears to be part of a nationwide strategy formulated by lawyers
for the Democratic National Committee that have attempted to rewrite the election code of at least
22 states through at least 56 similar lawsuits. Each suit seeks to eliminate statutory protections
against election fraud and extend the November 2020 election into mid-November or beyond.
Highlighted on a website ironically named the “Democracy Docket,” these cases are seldom
litigated to conclusion—instead, plaintiffs cut backroom deals with friendly state election officials,
exactly like this one.12 Because the Consent Judgment bears several hallmarks of collusion, and

11 Executive Director Bell defended the Witness Requirement, testifying that it can “easily be

accomplished” at a “safe and socially distant location.” See Leland Aff., Ex. 22, Decl. of Karen Brinson
Bell ¶ 19–22, Chambers. Executive Director Bell also defended the Assistance Ban. Leland Aff., Ex. 23,
Trans. of Evid. Hearing Vol. 2, at 60:14–15, Democracy NC. She also testified against allowing voters to
place their absentee ballots into “drop boxes” because a sufficient number of drop boxes do not exist, and
there was not “sufficient time” to allow voters to use drop boxes for their ballots. Leland Aff., Ex. 24, Decl.
of Karen Brinson Bell ¶ 35, Democracy NC.
12 Plaintiffs and the Executive Defendants get no help from consent judgments recently entered with other

states. Apart from being subject to different state statutes and judicial review standards than this deal, none
of them drew an objection from a state party, whereas here the Legislative Intervenors in this case strongly
oppose this deal in their capacities as a party to the litigation and as a co-equal branch of State Government.
Moreover, in each of those other cases, the modifications to absentee voting provisions had been

17
App. 314

appears to be the latest in a long line of similar collusive Consent Judgments, the Republican
Committees urge this Court to reject it.
Third, even though the Joint Motion represents (p. 19, para VIII.G.) that “[t]his Stipulation
and Consent Judgment is effective upon the date it is entered by the Court,” the BOE is not waiting
for this Court’s approval. It has instructed county election boards to begin applying the standards
in revised Numbered Memo 2020-19 immediately, including the provisions emasculating the
Witness Requirement. Leland Decl. Ex. 25, Summa Aff. ¶¶ 3-5; Id., Ex. A.
III.

ENTRY OF THE CONSENT JUDGMENT WOULD INTRUDE ON THE
GENERAL ASSEMBLY’S AUTHORITY TO REGULATE ELECTIONS.
The Elections Clause of the United States Constitution, mandates that “[t]he Times, Places

and Manner of holding Elections for Senators and Representatives, shall be prescribed in each
State by the Legislature thereof.” U.S. Const., art. I, § 4, cl. 1. Neither North Carolina’s
“legislature” nor the United States Congress approved the deal. In fact, as described below at pp.
18-25, the deal purportedly adopts several changes to the law that the General Assembly expressly
rejected this summer.
There is no question that the General Assembly is North Carolina’s “Legislature.” The
North Carolina Constitution provides that “[t]he legislative power of the State shall be vested in
the General Assembly, which shall consist of a Senate and a House of Representatives.” N.C.
Const. art. II, § 1. See also Hawke v. Smith, 253 U.S. 221, 227, 40 S. Ct. 495, 497, 64 L. Ed. 871
(1920) (noting the term “Legislature” in the U.S. Constitution refers to “the representative body

implemented during primary elections from June through August 2020, meaning that the relief had been
implemented months prior to absentee voting in the general election. See League of Women Voters of Va.
v. Va. State Bd., ___ F. Supp. 3d ___, No. 6:20-cv-00024, 2020 WL 4927524, at *4 (W.D. Va. Aug. 21,
2020); LaRose v. Simon, No. 62-CV-20-3149, at *7 (Ramsey Cty. Dist. Ct. Aug. 3, 2020); Common Cause
R.I. v. Gorbea, No. 20-cv-00318, 2020 WL 465608, at *4 (D. R.I. July 30, 2020). Here, in contrast, absentee
voting for the general election is already underway.

18
App. 315

[that] ma[es] the laws of the people.”). It is also undisputable that the deal purports to alter the
time, place, and manner for the November elections in North Carolina, Art I, Sec. 4, and the
manner in which the state will appoint Electors for President, Art. II, sec. X. As explained in more
detail below, the deal purports to: (1) effectively eliminate the statutory requirement that one
person witness an absentee ballot (“Witness Requirement”), compare HB 1169 § 1.(a) with Leland
Decl., Ex. 17, Revised Numbered Memo 2020-19 at 2; (2) extend the deadline for receipt of
mailed-in ballots from three days after election day (“Receipt Deadline”), as plainly specified in
the statute, to nine days after election day, compare N.C.G.S. § 163-231(b)(2) with Leland Decl.,
Ex. 19, Numbered Memo 2020-22 at 1; (3) eviscerate the statutory requirement that only mailed
ballots postmarked by 5:00 p.m. on election day be counted (“Postmark Requirement”), compare
N.C.G.S. § 163-231(b)(2) with Leland Decl., Ex. 19, Numbered Memo 2020-22 at 2; and
(4) undermine restrictions on who can handle and return completed ballots (“Ballot Assistance”
and “Ballot Delivery” bans), compare N.C.G.S. § 163-229(b); N.C.G.S. § 163-231(a)-(b);
N.C.G.S. § 163-223.6(a)(5); HB 1169 §§ 1.(a), 2.(a) with Leland Decl., Ex. 20, Numbered Memo
2020-23 at 2-3. Courts have long rejected similar efforts to intrude upon the authority of state
legislatures under the Elections Clause. In re Plurality Elections, 8 A. 881, 882 (R.I. 1887) (noting
that any provision of the Rhode Island constitution that sought to “impose a restraint upon the
[Rhode Island legislature’s] power [to] prescribe[e] the manner of holding . . . elections [of
representatives to Congress]” was void because the Elections Clause of the U.S. Constitution gives
the power to the legislature, limited only by Congressional regulations); State ex. rel. Beeson v.
Marsh, 34 N.W. 2d 279, 286-87 (Neb. 1948); Com. Ex rel. Dummit v. O’Connell, 181 S.W. 2d
691, 695 (Ky. Ct. App. 1944); In re Opinion of Justices, 45 N.H. 595, 601 (1864). On these issues
the Board is entitled to no deference under the United States Constitution.

19
App. 316

Witness requirement. The BOE has gutted the critical Witness Requirement. In light of
the pandemic, the General Assembly exercised its judgment to reduce, for the 2020 election, the
requirement that two individuals witness a voter’s absentee ballot to a one-witness requirement.
HB 1169 § 1.(a). The BOE’s Revised Numbered Memo 2020-19 goes further and would require
a voter who submits an absentee ballot without a witness to be sent a certification for the voter to
sign, and then upon receipt of that voter certification (but still with no witness), instructs BOE to
count the ballot. Leland Decl., Ex. 17, Revised Numbered Memo 2020-19 at 2. When drafting HB
1169, the General Assembly expressly considered and rejected the BOE’s proposal to eliminate
the witness requirement—although then (unlike now, in Revised Numbered Memo 2020-19) BOE
proposed replacing the witness requirement with signature verification software. See Leland Decl.,
Ex. 28, State Bd. Apr. 22, 2020 Ltr. at 3; Leland Decl., Ex. 4, State Bd. Mar. 26, 2020 Ltr. at 3.
Again, it would be cynical for the Board to argue that the COVID-19 pandemic, as a health
emergency, gives it the authority to eliminate this requirement. The General Assembly expressly
considered—and indeed made—changes to the Witness Requirement to address the COVID-19
pandemic. The General Assembly has already addressed the emergency. And, as explained (pp.
7-11 above), two courts have already sustained the revised witness requirement against pandemicrelated challenges. Thus, the BOE’s backroom deal to eliminate the Witness Requirement entirely
is not a response to any “emergency” requiring BOE action. Rather, BOE’s deal is an ultra vires
power grab that attempts to override the General Assembly’s considered response to the pandemic.
For that reason, the deal offends the Constitution and is not justified by the pandemic.
Receipt deadline. Similarly, the BOE’s changes to the Receipt Deadline were also not for
purposes of addressing the already-addressed emergency, and also plainly conflict with the
controlling statute. The statute enacted by the General Assembly requires that absentee ballots be

20
App. 317

delivered by 5:00 p.m. on election day, or if they are mailed via the USPS, that they are postmarked
by election day and received no later than three days after election day (by Nov. 6, 2020) by 5:00
p.m. N.C.G.S. § 163-231(b)(2). Flouting this directive, Numbered Memo 2020-22 purports to
extend the deadline by six days: “An absentee ballot shall be counted as timely if it is either
(1) received by the county board by 5:00 p.m. on Election Day; or (2) the ballot is postmarked on
or before Election Day and received by nine days after the election, which is Thursday, November
12, 2020 at 5:00 p.m.” Leland Decl., Ex. 19, Numbered Memo 2020-22 at 1.
Since the General Assembly explicitly and responsibly revisited the North Carolina
Election Code to address concerns about COVID-19 and USPS challenges observed during
primary elections in other states, any suggestion by the Board that this change was necessitated by
those issues13 would lack merit. The Consent Judgment expresses concern that, due to the current
mail processing rates by the USPS, completed ballots mailed on election day will not arrive in time
to be counted three days later, as required by statute. E.g., Leland Decl., Ex. 28, Alliance, No. 20CVS-8881, Stipulation and Consent Judgment, at **7-10. As shown, the General Assembly was
well aware of mail issues encountered during Spring primaries conducted in other states, and made
a prudent judgment not to extend the receipt deadline. Moreover, this provision relates to no
“emergency” at all; it is wholly within each voter’s control to avoid unnecessary delays by mailing

13 Kenneth R. Mayer, Plaintiffs’ expert in the Alliance case, testified that he was not aware that the Postal

Service is currently experiencing any problems in North Carolina during the current absentee voting
period. (Leland Decl., Ex. 27, Deposition of Kenneth R. Mayer at 80.) He also could not identify any
instances in which the Postal Service had failed to deliver an absentee ballot in North Carolina for
insufficient postage, and was unaware of any North Carolinian who declined to vote because of confusion
as to how much postage to affix to a ballot return envelope. Id. at 104-06. Mayer also acknowledged that
it is the Postal Service’s policy to deliver absentee ballots even if they are unstamped. Id. at 106. Finally,
he had no reason to question statistics showing that in 2019 the Postal Service delivered an average of
approximately 472 million mail pieces per delivery day, and that even if every registered voter in the United
States voted by mail (about 155 million ballots), those ballots would represent only a small fraction of the
total volume of mail. Id. at 106-07.

21
App. 318

a completed ballot with sufficient time for receipt, as over 200,000 North Carolinians already have
done. Indeed, USPS and the BOE, among others, have already encouraged voters to request and
return ballots as early as possible within the more than 60-day window before the receipt deadline.
Leland Decl., Ex. 30, Plunkett Aff. at ¶ 28; see also N.C. Gen. Stat. § 163-227.10(a). Moreover,
if a voter waits until the last day to return his or her completed ballot, he or she may return it in
person. N.C.G.S. § 163-231(b)(1). The voter may also use “drive through” voting. N.C.G.S.
§ 163-166.9.
But even if a voter does wait until the last permitted hour of Election Day to mail his or her
ballot, USPS will be able to process that ballot within the time parameters set by North Carolina
voting statutes. Michael Plunkett, a recognized expert on the operations of the USPS, believes that
USPS will be able to deliver absentee ballots in compliance with the statutory deadlines. Under
the statutes, a ballot postmarked by Election Day can be received up to 3 days after Election Day.
First, in North Carolina, more than 95% of Presort First-Class Mail is delivered within 2 days,
Plunkett Aff. at ¶ 17, and no First-Class Mail in the state has more than a three-day service
standard, id. at ¶ 18. Second, “the increased volume of absentee ballot mail (estimated by plaintiffs
as up to 2.3 million ballots) is infinitesimal compared to the normal volume of mail handled by
USPS (twelve billion pieces of First-Class Mail in the third quarter of 2020), which has in any
event fallen by over a billion pieces in the most recent quarter compared to the same period in
2019. Id. at ¶¶ 35-36. Accordingly, USPS’s ability to deliver mail in a timely fashion will not be
impacted by an increased volume of mail ballots. Id. at ¶¶ 33-35. Third, USPS has a plan for
delivering election mail, and has established procedures and processes for the upcoming election.
Id. Thus, even for voters who irresponsibly procrastinate to request and mail their ballots, it is
highly likely that USPS will deliver their ballots on time. Id. at ¶ 14.

22
App. 319

Finally, any attempt to justify the extension based on the UOCAVA deadline for military
and overseas ballots would be misguided for two reasons. To begin, the General Assembly has
long been aware of the different deadlines, and has elected not to standardize them. Moreover,
military and overseas voters receive an extended deadline because of the unique difficulties –
military personnel frequently change locations, and international mail takes longer to deliver than
domestic mail—and that extension is intended to put them on par with domestic voters. Extending
the deadline for domestic voters would again place military and overseas voters at a disadvantage.
Leland Decl., Ex. 29, Lockerbie Aff. at ¶ 71.
Postmark requirement. The BOE’s modification of the postmark requirement also plainly
contradicts the controlling statute. With respect to absentee ballots that are mailed by USPS and
received within three days of the election, the General Statutes require that the ballots be
“postmarked” on or before the election day by 5:00 p.m. N.C.G.S. § 163-231(b)(2). For remaining
elections in 2020, however, which could include run-offs as well as the November 3 election, the
BOE has unilaterally declared that a ballot “shall be considered postmarked by Election Day if it
has a postmark affixed to it or if there is information in BallotTrax, or another tracking service
offered by the USPS or a commercial carrier, indicating that the ballot was in the custody of USPS
or the commercial carrier on or before Election Day.” Leland Decl., Ex. 24, Numbered Memo
2020-22 at 2 (emphasis added). This rewrites the plain meaning of the statute. A “postmark” is
“[a]n official mark put by the post office on an item of mail to cancel the stamp and to indicate the
place and date of sending or receipt.” Postmark, Black’s Law Dictionary (11th ed. 2019).14 The
General Assembly has also refused to enact similar changes. Another bill, HB 1184, which the
General Assembly did not adopt, included a similar proposal, among other items on the

14 See also USPS processing guidelines, https://about.usps.com/handbooks/po408/ch1_003.htm.

23
App. 320

Democrats’ “wish list,”15 and was not enacted.16 HB 1184 would have similarly amended the
voting statute such that “absentee ballots that are received without a postmark through the United
States Postal Service mail system shall be deemed properly cast and accepted and counted up to
three days after the general election.” HB 1184 § 3.6. Once again, the terms of the deal
intentionally override express judgments made by the General Assembly.
Moreover, the Board’s rewrite is as porous as Swiss Cheese: What “information” is
sufficient to “indicate” that a ballot was in the “custody” of the USPS on Election Day? What
other “tracking services” besides BallotTrax will the Board deem sufficient to “indicate” when a
ballot was in USPS custody. The Board doesn’t say. Coupled with the extended receipt deadline,
it is not difficult to see where this is going: under the BOE’s regime, election officials will be
debating what constitutes sufficient information to indicate that a ballot was in custody of the
USPS until mid-November and beyond. Postmarks will be the 2020 version of hanging chads.
Ballot delivery and assistance bans. The BOE’s modification to the ballot delivery ban
also plainly contradicts the voting statutes. Completed mail ballots may be returned in person by
the voter, the voter’s near relative or verifiable legal guardian, or by mail using USPS or a
commercial courier. N.C.G.S. §§ 163-229(b); 163-231(a)-(b); HB 1169 §§ 1.(a), 2.(a). It is a class
I felony for any other person to take possession of an absentee ballot of another voter for delivery
or return to a county board of elections. N.C.G.S. § 163-223.6(a)(5). With limited exceptions,
North Carolina law also prohibits anyone except the voter’s near relative or legal guardian from
assisting a voter with the completion and submission of an absentee ballot. N.C.G.S. § 163-226.3.
The BOE would effectively neuter these protections. Numbered Memo 2020-23 provides that “[a]

15 Leland Decl., Ex 3, Jordan Wilkie, NC House Passes Bipartisan Election Bill To Fund COVID-19

Response, Carolina Public Press (May 29, 2020).
16 Id.

24
App. 321

county board shall not disapprove an absentee ballot solely because it was delivered by someone
who was not authorized to possess the ballot” and that “a county board may not disapprove a ballot
solely because it is placed in a drop box.” Leland Decl., Ex. 20, Numbered Memo 2020-23 at 23. This is not a change necessitated by COVID-19. Stamps are widely available, see Leland Decl.,
Ex. 30, Plunkett Aff. at ¶¶ 32-34, and there is no reason voters could not mail their ballots.
One need look no further than the Dowless scheme in District 9 to see the justification for
the harvesting ban and not accepting ballots tainted by harvesting. That scheme took years to
uncover and led to the invalidation of a congressional election. Under the BOE’s deal, a county
board of elections would be required to count ballots delivered as part of the Dowless scheme.
The Numbered Memos do not merely enforce or interpret the law; they modify it in
significant, material, and unnecessary ways. And the BOE lacks the authority to do so.
IV.

THE BOARD EXCEEDED ITS STATUTORY AUTHORITY TO ENTER THE
DEAL WITH PLAINTIFFS.
Under its limited statutory authority, the State Board is not entitled to nullify or refuse to

enforce North Carolina’s election laws. The State Board has the power to exercise “general
supervision over the primaries and elections in the State, and it shall have authority to make such
reasonable rules and regulations with respect to the conduct of primaries and elections as it may
deem advisable,” with one significant caveat: those rules and regulations may “not conflict with
any provisions of this Chapter.” N.C.G.S. § 163-22(a) (emphasis added). Similarly, while the
State Board has the authority “to make reasonable interim rules and regulations with respect to the
pending primary or election as it deems advisable,” those rules must “not conflict with any
provisions of this Chapter 163 of the General Statutes.” Id. § 163-22.2. Indeed, the State Board
has an affirmative obligation to follow and enforce North Carolina’s election laws, as it “shall

25
App. 322

compel observance of the requirements of the election laws by county boards of elections and other
election officers.” Id. § 163-22(c).17
As shown above, see pp. 18-24, the consent decree’s provisions would override several
critical components of North Carolina’s absentee voting system. The Supreme Court of North
Carolina has invalidated similar actions from the State Board that contravened North Carolina’s
election laws. In James v. Bartlett, 359 N.C. 260, 607 S.E.2d 638 (2005), the Court reviewed
whether the State Board acted lawfully by counting votes cast in a precinct other than the voter’s
precinct of residence in the final election tallies—despite North Carolina’s requirement that “a
voter is ‘qualified to register and vote in the precinct in which he resides.’” Id. at 267, 607 S.E.2d
at 642 (quoting N.C.G.S. § 163-55 (2003) (emphasis omitted)). The Court determined that the
State Board exceeded its authority by violating the “plain language of the statute.” Id. In so doing,
the Court made clear that the State Board’s actions not only violated its authority but further
undermined the fundamental right to vote of those North Carolina citizens who voted lawfully:
“[T]he right to vote is the right to participate in an electoral process that is
necessarily structured to maintain the integrity of the democratic system.” Burdick
v. Takushi, 504 U.S. 428, 441 (1992). This Court is without power to rectify the
Board's unilateral decision to instruct voters to cast provisional ballots in a manner
not authorized by State law. To permit unlawful votes to be counted along with
lawful ballots in contested elections effectively “disenfranchises” those voters who
cast legal ballots, at least where the counting of unlawful votes determines an
election's outcome. Mindful of these concerns, and attendant to our unique role as
North Carolina's court of last resort, we cannot allow our reluctance to order the

17 The State Board may also “exercise emergency powers to conduct an election in a district where the

normal schedule for the election is disrupted” by a “natural disaster,” “[e]xtremely inclement weather,” or
“[a]n armed conflict.” See N.C.G.S. § 16327.1(a). That statute is inapplicable here, as the COVID-19
pandemic would not fall under any of these three categories. Even if the pandemic fit the definition of an
“emergency,” however, the General Assembly has already addressed that emergency. It is inconceivable
that the statute allows the Board, in the name of the very same “emergency,” to ignore the General
Assembly’s response. Moreover, the emergency powers statute provides that “the Executive Director shall
avoid unnecessary conflict with the provisions of this Chapter,” id. § 163-27.1(a), and the State Board has
provided no reason for thinking that overriding key provisions of North Carolina’s election laws is
necessary for responding to COVID-19.

26
App. 323

discounting of ballots to cause us to shirk our responsibility to “say what the law
is.” Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803).
James, 359 N.C. at 270, 607 S.E.2d at 644 (emphasis added). Indeed, the nullified precinct
requirement served as a “protection against election fraud” and a means for “election officials to
conduct elections in a timely and efficient manner,” both of which were factors that provided
further support for the Court’s invalidation of the State Board’s abuse of power. Id.
The same holds true here. The State Board’s consent judgment aims to nullify some of the
most significant components of North Carolina’s electoral system only five weeks before the
general election. This action threatens to cast the election into turmoil by increasing voter
confusion, facilitating voter fraud, and undermining the public’s confidence in the legitimacy of
the electoral results. Both the North Carolina General Assembly and Supreme Court have made
clear that the State Board of Elections is bound by North Carolina’s election laws and lacks the
authority to nullify those laws through unilateral administrative action. For this reason as well,
the Consent Judgment is invalid.
V.

THE LATE-HOUR CONSENT JUDGMENT WILL DISRUPT THE ORDERLY
ADMINISTRATION OF THE NOVEMBER 2020 ELECTION.
The Consent Judgment fails for a final reason: the drastic changes Plaintiffs seek would

lead to voter confusion and disrupt the administration of the general election only a month before
Election Day and after 1,116,696 North Carolina voters have requested absentee ballots and
280,353 have already marked and returned their ballots.18
Under the well-established principle articulated in Purcell v. Gonzalez, 549 U.S. 1, 4, 127
S. Ct. 5, 7 (2006), courts must consider how rulings issued just “weeks before an election” can
lead to voter confusion, uncertainty, and related harms. In Purcell, the plaintiffs challenged

18 See https://www.ncsbe.gov/ for current total.

27
App. 324

Arizona’s voter identification law that was in effect for a November 7 election. Id. at 2, 127 S. Ct.
at 6. The district court denied the plaintiffs’ request for a preliminary injunction, the plaintiffs
appealed, and on October 5—just over a month before the election—the court of appeals granted
a preliminary injunction pending appeal. Id. at 3, 127 S. Ct. at 7. The Supreme Court reversed,
emphasizing how “[c]ourt orders affecting elections, especially conflicting orders, can . . . result
in voter confusion and consequent incentive to remain away from the polls,” a risk that increases
“[a]s an election draws closer.” Id. at 4–5, 127 S. Ct. at 7.
The Supreme Court has repeatedly applied the Purcell principle in election litigation. See,
e.g., North Carolina v. Covington, 138 S. Ct. 2548, 2553–54 (2018) (determining that the district
court did not abuse its discretion in appointing a special master to redraw a challenged election
map because doing so reduced the risk of the case’s interfering with the election); Benisek v.
Lamone, 138 S. Ct. 1942, 1944 (2018) (per curiam) (affirming the district court’s denial of a
preliminary injunction to enjoin Maryland elections because “a due regard for the public interest
in orderly elections supported [that] discretionary decision to deny a preliminary injunction and to
stay the proceedings”).19 And the Court has continued to recognize that this principle applies even
during the COVID-19 pandemic. See Republican Nat’l Comm. v. Democratic Nat’l Comm., 140
S. Ct. 1205, 1205–07 (2020) (staying preliminary injunction requiring Wisconsin to count absentee
ballots postmarked after election day, emphasizing that the injunction “contravened” the rule that
courts “should ordinarily not alter the election rules on the eve of an election”).
A recent Wisconsin federal district court decision illustrates how the Purcell principle
applies even where, as here, the plaintiffs seek relief that would arguably expand their ability to

19 See also Riley v. Kennedy, 553 U.S. 406, 426 (2008) (“[P]ractical considerations sometimes require

courts to allow elections to proceed despite pending legal challenges.”).

28
App. 325

vote. In Common Cause v. Thomsen, No. 19-CV-323-JDP, 2020 WL 5665475, *1 (W.D. Wis.
Sept. 23, 2020), the plaintiffs challenged Wisconsin’s restrictions on the use of certain forms of
student identification for voting. The parties completed briefing on summary judgment motions
on “September 22, 2020, only six weeks before the presidential election, [which was] well within
the sensitive time frame” under Purcell. Id. Voting was already underway at that point, and the
state election commission had “issued its Election Day Manual for municipal clerks, explaining
the requirements for voting with a student ID as they [stood].” Id. In light of that short timeframe,
the court denied the plaintiffs’ request for relief. Id. at *2. It reasoned that “changing the status
quo” would (1) leave the election commission “and municipal clerks with little time to issue new
guidance and retrain staff”; (2) the “inevitable appeal” would create “weeks of uncertainty”; and
(3) an order in favor of the plaintiffs could “lull student voters into complacency, believing that
they now held an ID valid for voting, only to find out on the eve of the election that an appellate
court had reached a different conclusion,” thereby creating the “chaos and confusion that the
Purcell principle is meant to avoid.” Id. The court rejected the plaintiffs’ argument that the Purcell
principle does not apply “when voters rights would be vindicated by a change in the law,”
reasoning that the plaintiffs cited “no authority for that view,” which was inconsistent with the
Supreme Court’s Republican National Committee decision where the Court “relied on the Purcell
principle to reverse a decision extending the deadline for mailing absentee ballots.” Id. (quotation
marks omitted).
The Purcell principle similarly weighs in favor of rejecting the Consent Judgment. Even
if this Court granted relief today, October 2, there would be only one month and one day until the
election, which is well within the “sensitive timeframe” under Purcell. Id. at *1; see also Purcell,
549 U.S. at 3, 127 S. Ct. at 6 (applying principle where court of appeals granted injunction on

29
App. 326

October 5, with election on November 7); Veasey v. Perry, 769 F.3d 890, 895 (5th Cir. 2014)
(collecting cases where Supreme Court stayed injunctions on voting requirements issued between
30 and 55 days before the election, and observing “the common thread” that these decisions “would
change the rules of the election too soon before the election date”). The short timeframe is
compounded by the fact that voting is already well underway, with over one million absentee
ballots requested as of September 30 and 280,353 completed ballots already returned.
Given this short timeframe, the Consent Judgment would disrupt the voting process in a
number of ways. As the Executive Defendants argued in prior cases, not only have absentee ballots
begun going out with instructions on how to submit a valid ballot, but the “Judicial Voter Guide,”
with comprehensive instructions about voting generally, has been printed and is being mailed.
Leland Decl., Ex. 22, Bell Aff. at ¶ 12. With conflicting instructions, the voter confusion feared
in Purcell is a certainty. The Consent Judgment would also create a substantial risk of confusion
and chaos for voters. To use an obvious example, the State Board would prohibit voters from
using a drop box to submit ballots, but then nevertheless require county boards to count a ballot
placed in a drop box. See Leland Decl. Ex. 20, Numbered Memo 2020-23 at 3. This new rule is
self-contradictory and could confuse voters (not to mention administrators). The extension of the
receipt deadline from three days after Election Day to nine days risks giving procrastinating voters
another excuse to wait, and perhaps miss the postmark deadline, or even mislead voters if it turns
out that the extension is overturned on appeal before Election Day. See Leland Decl. Ex. 19,
Numbered Memo 2020-22; cf. Thomsen, 2020 WL 5665475, at *2 (noting this risk).
Finally, the aggregate impact of the Consent Judgment on election administrators would
be material. Extension of the Receipt Deadline and elimination of the Postmark Requirement may
prompt voters to delay submission of their votes until Election Day (or after), causing a flood of

30
App. 327

last-minute ballots that could swamp election officials and risk lost or miscounted votes.
Moreover, the changes procedures would confuse administrators, burden them with training on
revised procedures, or both, interfering with their ability to perform their duties. For example, the
State Board already issued a cure process to county boards on August 21. If this Court approves
a revised process only six weeks later, county board officials and election workers would need
additional training on the new cure process (and the other changes in the Board’s memos), taking
away precious time from handling and processing absentee ballots. Further, the new Memos
contain numerous ambiguities. For instance, election workers would have to determine what
“information” on a ballot tracking service is enough to “indicat[e]” that a ballot was in the custody
of the USPS or another commercial carrier on or before Election Day. See Leland Decl. Ex. 19,
Numbered Memo 2020-22. And if a ballot return envelope does not contain a postmark, the county
boards must conduct “research” to trace the ballot—even though the State Board has not provided
any guidance as to how much research to conduct, what sources to examine, and how long to spend
on each ballot. See id. That is hardly a recipe for orderly, uniform election administration in which
each ballot is considered on an equal basis.
The Purcell principle recognizes that last-minute changes to election laws can do more
harm than good. See Ne. Ohio Coal. for Homeless & Serv. Emps. Int’l Union, Local 1199 v.
Blackwell, 467 F.3d 999, 1012 (6th Cir. 2006) (“[T]here is a strong public interest in smooth and
effective administration of the voting laws that militates against changing the rules in the middle
of the submission of absentee ballots.”). Here, the Consent Judgment’s sweeping changes to North
Carolina’s election code threaten to sow confusion among administrators and voters, doubling the
threat of chaos and disorder. As a result, the Purcell principle compels the rejection of the Consent
Judgment.

31
App. 328

In short, by sowing confusion among voters as to the applicable rules for completion and
submission of ballots (for instance, whether it is permissible to drop a ballot in a dropbox), the
Consent Judgment would interfere with the right of North Carolinians to cast their ballots with
confidence that the election will be conducted fairly, kept secure, and counted accurately. The
Consent Judgment must be rejected.
CONCLUSION
For these reasons, the Republican Committees respectfully urge this Court to deny
Plaintiffs’ and Executive Defendants’ Joint Motion for Entry of a Consent Judgment.

Respectfully submitted,

Dated: September 30, 2020

By:

Bobby R. Burchfield*
Matthew M. Leland*
KING & SPALDING LLP
1700 Pennsylvania Ave., N.W., Suite 200
Washington, D.C. 20006-4707
Telephone: (202) 737-0500
Facsimile: (202) 626-3737
Bburchfield@kslaw.com
Mleland@kslaw.com
Attorneys for Republican Committees
*Admitted pro hac vice

32
App. 329

R. Scott Tobin, NC Bar No. 34317
TAYLOR ENGLISH DUMA LLP
4208 Six Forks Road, Suite 1000
Raleigh, NC 27609
Telephone: (404) 640-5951
stobin@taylorenglish.com

Attorney for Republican Committees

CERTIFICATE OF SERVICE
I certify that I have on this 30th day of September, 2020, served a copy of the foregoing by
email and United States mail, postage prepaid, to counsel for the Plaintiffs, Defendants, and
Intervenor-Defendants at the following addresses:
For the Plaintiffs:

For the Defendants:

Marc E. Elias
Uzoma N. Nkwonta
Ariel B. Glickman
Jyoti Jasrasaria
Lalitha D. Madduri
PERKINS COIE LLP
700 Thirteenth St., N.W., Suite 600
Washington, D.C. 20005-3960

Alexander McC. Peters
Paul M. Cox
NORTH CAROLINA DEPARTMENT
OF JUSTICE
P.O. Box 629
Raleigh, N.C. 27602

Burton Craige-State Bar No. 9180
Narendra K. Ghosh-State Bar No.
37649
Paul E. Smith, State Bar No. 45014
PATTERSON HARKAVY LLP
l 00 Europa Dr., Suite 420
Chapel Hill, N.C. 27517
For Intervenor-Defendants:
Nicole J. Moss-State Bar No. 31958
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
Telephone: (202) 220-9600
Fax: (202) 220-9601
nmoss@cooperkirk.com
Nathan Huff
State Bar No. 40626
PHELPS DUNBAR LLP
4140 Park Lake Avenue, Suite 100
Raleigh, N.C. 27612
Telephone: (919) 789-5300
Fax: (919) 789-5301
nathan.huff@phelps.com

R. Scott Tobin
App. 330

North Carolina Court of Appeals
Fax: (919) 831-3615
Web: https://www.nccourts.gov

DANIEL M. HORNE JR., Clerk
Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. P20-513

NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS; BARKER FOWLER; BECKY JOHNSON;
JADE JUREK; ROSALYN KOCIEMBA; TOM KOCIEMBA; SANDRA MALONE; AND CAREN
RABINOWITZ,
PLAINTIFFS,
V.
THE NORTH CAROLINA STATE BOARD OF ELECTIONS; AND DAMON CIRCOSTA, CHAIR OF THE
NORTH CAROLINA STATE BOARD OF ELECTIONS,
DEFENDANTS,
PHILIP E. BERGER IN HIS OFFICIAL CAPACITY AS PRESIDENT PRO TEMPORE OF THE NORTH
CAROLINA SENATE; AND TIMOTHY K. MOORE IN HIS OFFICIAL CAPACITY AS SPEAKER OF THE
NORTH CAROLINA HOUSE OF REPRESENTATIVES,
Intervenor-Defendants,
AND
REPUBLICAN NATIONAL COMMITTEE; NATIONAL REPUBLICAN SENATORIAL COMMITTEE;
NATIONAL REPUBLICAN CONGRESSIONAL COMMITTEE; DONALD J. TRUMP FOR PRESIDENT,
INC;AND NORTH CAROLINA REPUBLICAN PARTY
From Wake
( 20CVS8881 )

ORDER

The following order was entered:
The 'Petition for Writ of Supersedeas and Motion for Temporary Stay' filed in this cause on 13 October
2020 by Philip E. Berger and Timothy K. Moore, in their respective official capacities as President Pro
Tempore of the North Carolina Senate and Speaker of the North Carolina House of Representatives, and the
'Renewed Petition for Writ of Supersedeas and Motion for Temporary Stay and Expedited Review' filed in this
cause on 13 October 2020 by the Republican National Committee, National Republican Senatorial
Committee, National Republican Congressional Committee, Donald J. Trump for President, Inc, and the
North Carolina Republican Party, are decided as follows: The petitions for writ of supersedeas are denied
except for the purpose of directing the trial court to conduct any hearings it deems necessary and to issue
any necessary orders to determine the scope of implementation of the order entered on 2 October 2020 by
Judge G. Bryan Collins, Jr. in Wake County Superior Court in light of Numbered Memo 2020-19 and any
orders entered by a federal court in any related matters. The temporary stay granted by this Court on 15
October 2020 is dissolved. The Motion for Expedited Review is dismissed without prejudice to re-filing once
the appeal has been docketed in this Court.
By order of the Court this the 19th of October 2020.
The above order is therefore certified to the Clerk of the Superior Court, Wake County.
WITNESS my hand and the seal of the North Carolina Court of Appeals, this the 19th day of October

App. 331

2020.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Mr. Nathan A. Huff, Attorney at Law, For Berger, Philip E et al
Ms. Nicole J. Moss, Attorney at Law
Mr. David H. Thompson, Attorney at Law
Mr. Peter A. Patterson, Attorney at Law
Mr. Burton Craige, Attorney at Law
Mr. Alexander McC. Peters, Special Deputy Attorney General
Mr. R. Scott Tobin, Attorney at Law, For Berger, Philip E et al
Marc E. Elias, For Barker, Fowler et al
Ms. Denise S. Upchurch
Lalitha D Madduri, For Barker, Fowler et al
Jyoti Jasrasaria, For Barker, Fowler et al
Uzoma N. Nkwonta, For Barker, Fowler et al
Mr. Narendra K. Ghosh, Attorney at Law, For Barker, Fowler et al
Mr. Terence Steed, Assistant Attorney General, For Berger, Philip E et al
Bobby R. Burchfield, King & Spaulding LLP, For Berger, Philip E et al
Mr. Ryan Y. Park, Solicitor General, For The North Carolina State Board of Elections
Hon. Frank Blair Williams, Clerk of Superior Court

App. 332

Supreme Court of North Carolina
Fax: (919) 831-5720
Web: https://www.nccourts.gov

AMY L. FUNDERBURK, Clerk
Justice Building, 2 E. Morgan Street
Raleigh, NC 27601
(919) 831-5700

Mailing Address:
P. O Box 2170
Raleigh, NC 27602

From N.C. Court of Appeals
( P20-513 )
From Wake
( 20CVS8881 )
23 October 2020

Ms. Nicole J. Moss
Attorney at Law
COOPER & KIRK, PLLC
1523 New Hampshire Ave., N.W.
Washington, DC 20036
RE: NC Alliance For Retired Americans, et al. v NC State Board of Elections, et al. - 440P20-1

Dear Ms. Moss:

The following order has been entered on the motion filed on the 21st of October 2020 by IntervenorDefendants (Philip E. Berger and Timothy K. Moore, in their official capacities) for Temporary Stay:
"Motion Denied by order of the Court in conference, this the 23rd of October 2020."
Beasley, C.J., Recused
Newby, J., Recused
Davis, J., Recused
s/ Earls, J.
For the Court

WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 23rd day of
October 2020.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. Hackney
Assistant Clerk, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. Nathan A. Huff, Attorney at Law, For Berger, Philip E et al - (By Email)
Ms. Nicole J. Moss, Attorney at Law, For Berger, Philip E et al - (By Email)
Mr. Burton Craige, Attorney at Law, For Barker, Fowler et al - (By Email)
Mr. Alexander McC. Peters, Special Deputy Attorney General, For The North Carolina State Board of Elections, et al. - (By Email)
Mr. R. Scott Tobin, Attorney at Law, For Republican National Committee, et al. - (By Email)
Mr. Narendra K. Ghosh, Attorney at Law, For Barker, Fowler et al - (By Email)
Mr. Terence Steed, Assistant Attorney General, For The North Carolina State Board of Elections, et al. - (By Email)
Mr. Ryan Y. Park, Solicitor General, For The North Carolina State Board of Elections, et al. - (By Email)
Ms. Kellie Z. Myers, Trial Court Administrator - (By Email)
App. 333
West Publishing - (By Email)

FILED
STATE OF NORTH CARpKUfl&T
COUNTY OF WAKE

t*

*

- 2 PH L!: 08 IN THE GENERAL COURT OF JUSTIC E

WAKE C 0 . , C . S . C .

NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS; BARKER
FOWLER ; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM
KOCIEMBA ; SANDRA MALONE ; and
CAREN RABINOWITZ,

SUPERIOR COURT DIVISION

No. 20-CVS-888 I

Plaintiffs,

v.

STIPULATION AND CONSENT
JUDGMENT

THE NORTH CAROLINA STATE BOARD
OF ELECTIONS; and DAMON CIRCOSTA,
in his official capacity as CHAIR OF THE
NORTH CAROLINA STATE BOARD OF
ELECTIONS,
Defendants, and,

PHILIP E. BERGER , in his official capacity as
President Pro Tempore of the North Carolina
Senate; and TIMOTHY K. MOORE, in his
official capacity as Speaker of the North
Carolina House of Representatives,

Intervenor-Defendants.

Plaintiffs North Carolina Alliance for Retired Americans, Barker Fowler, Becky Johnson,

Jade Jurck , Rosalyn Kociemba, Tom Kocicmba , Sandra Malone, and Carcn Rabinowitz, and
Executive Defendants Damon Circosta and the North Carolina State Board of Elections
(collectively, “the Consent Parties”) stipulate to the following and request that this Court approve

this Consent Judgment . This Stipulation and Consent Judgment encompasses Plaintiffs’ claims,
which pertain to elections in 2020 (“2020 elections”) and are premised upon the current public
health crisis facing North Carolina caused by the ongoing spread of the novel coronavirus.

App. 334

I.

RECITALS
WHEREAS on August 10, 2020, Plaintiffs filed a complaint, and, on August 18» 2020,
Plaintiffs filed an amended complaint against Executive Defendants challenging the
constitutionality and enforcement, during the 2020 elections, of : ( 1 ) North Carolina’s limitations

on the number of days and hours of early voting that counties may offer, N.C. Gen. Stat. § 163-

227.2( b); ( 2) its requirement that all absentee ballot envelopes must be signed by a witness
during the pandemic, as applied to voters in single- person or single-adult households, Bipartisan
Elections Act of 2020, 2020 N.C. Sess. Laws 2020- 17, § l .(a ) (“ HB 1169” ) ( the “ Witness

Requirement” ); (3) its failure to provide pre- paid postage for absentee ballots and ballot request
forms, N.C. Gen. Stat. § 163-231( b )( 1) ( the “ Postage Requirement” ); (4) laws requiring county

boards of elections to reject absentee ballots that are postmarked by Election Day but delivered
to county boards more than three days after the election, as applied to voters who submit ballots

through the United States Postal Service, id. § 163-231( b )(2 ) ( the “ Receipt Deadline”); (5 ) the

practice in some counties of rejecting absentee ballots for signature defects ( the “Signature
Matching Procedures” ); ( 6 ) laws prohibiting voters from receiving assistance from the vast
majority of individuals and organizations in completing or submitting their absentee ballot

request forms, 2019 N.C. Sess. Laws 2019-239, § 1.3(a ) (“SB 683”), (the “ Application

Assistance Ban ” ); and (7) laws severely restricting voters’ ability to obtain assistance in
delivering their marked and sealed absentee ballots to county boards, and imposing criminal

penalties for providing such assistance, N.C. Gen. Stat. § 163-226.3(a )(5) ( the “ Ballot Delivery

Ban” ) (collectively, the “Challenged Provisions”);

9

App. 335

WHEREAS the Complaint seeks to enjoin enforcement of the Challenged Provisions
during the 2020 elections due to the ongoing public health crisis caused by the spread of the

novel coronavirus (COVID- 19);

WHEREAS the COVID-19 public health crisis is ongoing, and North Carolina remains
under Executive Order 163, which contemplates a phased reopening of North Carolina but

strongly recommends social distancing, Exec. Order 163, § 2.2, mandates mask wearing in most
business and government settings, id. § 3.2, imposes capacity limits in most public-facing

.

business and government settings, id , § 3.2(e ), prohibits mass gatherings, id. § 7, and states that
“[ pleople who are at high risk of severe illness from COVID-19 are very strongly encouraged to

stay home and travel only for absolutely essential purposes,” id. § 2.1;

WHEREAS North Carolina remains under a state of emergency, declared by the
Governor, “ based on the public health emergency posed by COVID-19,” Exec. Order 116, and

under a federal disaster declaration statewide, 85 Fed. Reg. 20701;

WHEREAS as of September 19, 2020, North Carolina has had more than 192,248
confirmed COVID- 19 cases, with more than 3,235 fatalities;

WHEREAS COVID- 19 case counts continue to grow across the country, and the
director of the Center for Disease Control and Prevention recently warned that the country
should brace for "the worst fall from a public health perspective, we’ ve ever had” 1 ;

WHEREAS the Executive Director of the North Carolina State Board of Elections
observed that COVID- 19 infections in North Carolina are likely to continue into the fall , through
at least Election Day; 2

Coronavirus in Context: CDC Director Discusses Next Steps in the War Against COVID ,
Interview with John Whyte, WebMD ( Aug. 13, 2020), https:// www. webmd.com/coronavirus- incontext/ video/robert- redfield.

3
App. 336

WHEREAS, on June 22, 2020, the Centers for Disease Control and Prevention ( CDC )
issued interim guidance to prevent the spread of COY ID- 19 in election - polling locations. ’ The
CDC guidance encourages elections officials to:

• “Encourage voters to stay at least 6 feet apart” from each other by posting signs and
providing other visual cues and have plans to manage lines to ensure social distancing

can be maintained;

• Increase the number of polling locations available for early voting and extend hours of
operation at early voting sites;

• Maintain or increase the total number of polling places available to the public on
Election Day to improve the ability to social distance;

• Minimize lines as much as possible, especially in small , indoor spaces;
• “ Limit the number of voters in the facility by moving lines outdoors if weather permits
or using a ticket system for access to the facility”;

• Offer alternatives to in- person voting;

• Offer alternative voting options that minimize exposure between poll workers and
voters;

2

N.C. State Bd . of Elections, Emergency Order , Administering the November 3, 2020
General Election During the Global COVID- I 9 Pandemic and Public Health Emergency ( July
17,
2020 ),
_
_
_
https://s3.amazonaws.com/dl. ncsbe.gov /State Board Meeting Docs/Orders/Executive% 20 Direc
tor % 200 rders/ Emcrgency % 200 rder 2020-07 - 17. pdf .
Considerations for Election Polling Locations and Voters: Interim guidance to prevent
spread of coronavirus disease 2019 ( COVID- 19 ) , CDC , https:// www.cdc.gov /coronavirus/2019ncov/community/election- polling- locations.html.

_

4
App. 337

WHEREAS large crowds at early voting and long lines on Election Day may create
public health risks and impose severe burdens on the right to vote, making absentee voting by

mail essential to ameliorate these possibilities;

WHEREAS, as of September 18, 2020, more than 889,273 absentee ballots had already
been requested by North Carolina voters, more than 14 times the number of absentee ballots that
had been requested by this time in 2016;

WHEREAS the absentee voting period for the 2020 elections began on September 4,
2020, N.C. Gen. Stat. § 163-227.10( a ), and, as of September 21, 2020, nearly 1,400 absentee

ballots had been flagged for incomplete witness information, according to data from the State
Board of Elections4;

WHEREAS, on August 4, 2020, the United States District Court lor the Middle District
of North Carolina enjoined the State Board from “the disallowance or rejection . . . of absentee
ballots without due process as to those ballots with a material error that is subject to
remediation.” Democracy N.C. v. N.C. State Bd. of Elections , No. l :20-cv -00457-WO-JLW
( M . D. N.C.

Aug. 4, 2020) (Osteen, J .), ECF 124 at 187. The injunction is to remain in force until

the State Board implements a cure process that provides a voter with “notice and an opportunity
to be heard before an absentee ballot with a material error subject to remediation is disallowed or

rejected.” Id.

WHEREAS courts in other states have enjoined those states from enforcing witness and
notarization requirements, some of which are similar to North Carolina’s Challenged Provisions,

4

Voting
Early
Statistics ,
Carolina
North
https://electproject.github. io/ Early- Vote- 2020G / NC. html .

5
App. 338

U .S.

Elections

Project ,

for elections occurring this year during the COVID- 19 pandemic. See, e.g. , Common Cause R.I.

v. Gorbeci , No. 20-1753, 2020 WL 4579367, at *2 ( 1st Cir. Aug. 7, 2020) (denying motion to
stay consent judgment suspending “notary or two- witness requirement ” for mail ballots and

finding that “[ tjaking an unusual and in fact unnecessary chance with your life is a heavy burden
to bear simply to vote.”), stay denied sub nom. Republican Nat ’ l Comm. v. Common Cause, No.

20A 28, 2020 WL 4680151 ( U .S. Aug. 13, 2020); Thomas v. Andino, No. 3:20-cv-01552 -JMC ,
2020 WL 2617329, at *21 ( D.S.C. May 25, 2020) (finding “strong likelihood that the burdens

placed upon [ plaintiffs] by” single- witness signature requirement “outweigh the imprecise, and
(as admitted by [ defendants ] ) ineffective, state interests of combating voter fraud and protecting

.

voting integrity” ); League of Women Voters ofVa v. Va. State Bd. of Elections, No. 6:20-CV-

00024, 2020 WL 2158249, at *8 ( W.D. Va. May 5, 2020 ) (“In our current era of social

—where not just Virginians, but all Americans, have been instructed to maintain a

distancing

minimum of six feet from those outside their household

—the

burden [ of the witness

requirement ] is substantial for a substantial and discrete class of Virginia’s electorate. During
this pandemic, the witness requirement has become ‘both too restrictive and not restrictive

enough to effectively prevent voter fraud .’”); Stipulation and Partial Consent Judgment , LaRose

v. Simon, No. 62-CV-20-3149 ( 2d Jud . Dist. Minn. June 17, 2020) (approving consent judgment
to not enforce Witness Requirement and Receipt deadline for primary election ); Stipulation and

Partial Consent Judgment, LaRose v. Simon, No. 62-CV -20-3149 ( 2d Jud . Dist. Minn. July 17,
2020) ( approving similar consent judgment for November general election );

6
App. 339

WHEREAS the delivery standards for the Postal Service, even in ordinary times,
contemplate at a minimum at least a week for ballots to be processed through the postal system
and delivered to election officials5;

WHEREAS the General Counsel of the Postal Service sent a letter on July 30, 2020 to
North Carolina’s Secretary of State warning that , under North Carolina’s “election laws, certain
deadlines for requesting and casting mail- in ballots are incongruous with the Postal Service’s
delivery standards,” and that “ there is a significant risk ” that “ ballots may be requested in a

manner that is consistent with your election rules and returned promptly, and yet not be returned
in time to be counted.”6 In particular, the Postal Service recommended that election officials

transmitting communication to voters “allow 1 week for delivery to voters,” and that civilian
voters “should generally mail their completed ballots at least one week before the state’s due

date. In states that allow mail- in ballots to be counted if they are both postmarked by Election

Day and received by election officials by a specific date that is less than a week after Election
Day, voters should mail their ballots at least one week before they must be received by election

officials.” Id.',

WHEREAS mail delivery conditions are already leading to greater delays: since midJuly there have been sharp decreases in the percentage of U.S. Postal Service mail, sent by any
method, delivered on time;7

—

1

State and Local Election Mail User ' s Guide , U.S. Postal Serv . ( Jan. 2020),
https://about . usps.com/ publications/ pub632. pdf .
6
Letter to North Carolina Secretary of State from USPS General Counsel, App’ x to Compl .,
ECF No. 1 - 1 at 53-55, Commonwealth of Pennsylvania v. DeJoy , No. 2:20-cv-04096 GAM
( E.D. Pa. Aug. 21 , 2020).
7
Service Performance Measurement PMG Briefing , U .S. Postal Serv. ( Aug. 12, 2020 ),
https://oversight.house.gov/sites/democrats.oversight.house.gov/files/documents/PMG %20Briefi
ng Service %20 Performance% 20 Management 08 12 2020. pdf.

-

_

_ _ _

7
App. 340

WHEREAS on August 21, 2020, the State of North Carolina, along with six other states
filed a lawsuit challenging the Postal Service’s procedural changes that the State alleges will

likely delay election mail even further, creating a “significant risk” that North Carolina voters
will be disenfranchised by the State’s relevant deadlines governing absentee ballots;

WHEREAS increases in absentee voting, coupled with mail delays, threaten to slow
down the process of mailing and returning absentee ballots, and appear likely to impact the 2020

elections;
WHEREAS pursuant to N.C. Gen. Stat. § 163-231( b)( 2 )(c), North Carolina already
accepts military and overseas absentee ballots until the end of business on the business day

before the canvass which occurs no earlier than the tenth day after the election, see id. § 163182.5( b );

WHEREAS for the April 7, 2020 primary election in Wisconsin, the U.S. Supreme
Court affirmed the implementation of a postmark rule, whereby ballots postmarked by Election

Day could be counted as long as they were received within six days of Election Day, Republican

Nat’l Comm. v. Democratic Nat’l Comm. , 140 S. Ct. 1205, 1207 ( 2020), and other courts have
also extended Election Day Receipt Deadlines in light of the current public health crisis. See

Mich. All. for Retired Americans v. Benson , No. 20-000108- MM ( Mich. Ct. Cl . Sept . 18, 2020 )
(extending

ballot receipt deadline for November 2020 election ); Pa. Democratic Party v.

Boockvar. K. , 133 MM 2020, 2020 WL 5554644 ( Pa. Sept. 17, 2020 ) (extending ballot receipt
deadline for the November 2020 election ); New Ga. Project v. Raffensperger , No. l :20-cv -

01986- ELR ( N.D. Ga, Aug. 31 , 2020) ( granting motion for preliminary injunction in part and
extending receipt deadline); Driscoll v. Stapleton , No. DV 20-408 ( Mont. Dist. Ct. May 22,

2020), stayed pending appeal No. DA 20-0295 ( preliminarily enjoining Montana’s receipt

8
App. 341

deadline and recognizing that enforcing the deadline was likely to disenfranchise thousands of
voters); LaRose v. Simon, No. 62-CV-20-3149 at *25 ( Minn. Dist. Ct. Aug. 3, 2020) (entering
consent judgment extending Minnesota’s receipt deadline );

WHEREAS multiple courts have found that the enforcement of various other state
election laws during the pandemic violate constitutional rights. See, e.g ., Esshaki v. Whitmer , 813

F. App’ x 170, 173 (6 th Cir. 2020) (finding ballot-access provisions unconstitutional as applied
during COVID- 19 pandemic and upholding part of injunction enjoining state from enforcing the

provisions under the present circumstances against plaintiffs and all other candidates ); Garbett v.

Herbert , No. 2:20 -CV - 245- RJS, 2020 WL 2064101, at * 18 ( D. Utah Apr. 29, 2020); Libertarian
Party of III. v. Pritzker , No. 20-cv-2112, 2020 WL 1951687 ( N.D. Ill. Apr. 23, 2020 ) ( applying

Anderson- Burdick in light of pandemic, and alleviating signature and witness requirements for
minor party candidates), aff’d sub nom. Libertarian Party of III. v. Cadigan , No. 20-1961 , 2020

WL 5104251 (7th Cir. Aug. 20, 2020); People Not Politicians Oregon v. Clarno , 20-CV - 1053,

2020 WL 3960440 ( D. Or. July 13, 2020); Cooper v. Raffensperger,

—

F. Supp. 3d

—

, 20-cv -

1312, 2020 WL 3892454 ( N . D. Ga. July 9, 2020); Reclaim Idaho v. Little , 20-cv -268, 2020 WL

3490216 ( D. Idaho June 26, 2020); Paher v. Cegavske ,

—

F. Supp. 3d

—

, 20-cv

-243, 2020 WL

2089813 ( D. Nev. Apr. 30, 2020); Goldstein v. Sec’ y of Commonwealth , 484 Mass. 516, 142
N . E.3d 560 ( 2020 );

WHEREAS the State Board of Elections has broad, general supervisory authority over
elections as set forth in N .C. Gen. Stat. § 163-22( a ). As part of its supervisory authority, the State
Board is empowered to “compel observance” by county boards of election laws and procedures

as set forth in N .C. Gen . Stat . § 163-22(c).

9

App. 342

WHEREAS the Executive Director of the State Board , as the chief State elections
official , has the authority to issue Emergency Orders pursuant to N.C. Gen. Stat. § 163-27.1 and
08 NCAC 01.0106, which authorize her to exercise emergency powers to conduct an election

where the normal schedule is disrupted. See, e.g. , Numbered Memo 2020- 14; Numbered Memo

2020- 19;

WHEREAS the Consent Parties agree that an expeditious resolution of this matter for
the 2020 elections, in the manner contemplated by the terms of this Stipulation and Consent
Judgment, will limit confusion and increase certainty surrounding the 2020 elections and is in the
best interests of the health, safety, and constitutional rights of the citizens of North Carolina, and,

therefore, in the public interest ;

WHEREAS the Executive Defendants believe that continued litigation over the
Challenged Provisions will result in the unnecessary expenditure of State resources, and is
contrary to the best interests of the State of North Carolina;

WHEREAS the Consent Parties wish to avoid uncertainty about the requirements and
obligations of voting in the 2020 elections for State Board officials and non- parties including
county board officials, staff , and election workers, and the voting public;

WHEREAS the Consent Parties, in agreeing to these terms, acting by and through their
counsel , have engaged in arms’ length negotiations, and the Consent Parties are represented by
counsel knowledgeable in this area of the law ;

WHEREAS, other courts across the country have approved similar consent judgments
between parties, see Common Cause R.I. v. Gorbea, No. 120CV00318 MSMLDA, 2020 WL

4460914 ( D. R . I. July 30, 2020) ( approving consent judgment to not enforce Witness
Requirement in primary and November general elections); Stipulation and Partial Consent

10
App. 343

Judgment, LaRose v. Simon , No. 62-CV-20-3149 ( 2d Jud. Dist. Minn. June 17, 2020) (approving
consent judgment to not enforce Witness Requirement and Receipt deadline for primary

election ); Stipulation and Partial Consent Judgment, LaRose v. Simon , No. 62-CV-20-3149 ( 2d
Jud . Dist. Minn. July 17, 2020) ( approving similar consent judgment for November general

election ); League of Women Voters of Va., 2020 WL 2158249 (approving consent judgment to
not enforce Witness Requirement in primary election ); see also Common Cause R. I. v. Gorbea ,

970 F.3d 11 , 14 ( 1 st Cir. 2020) (denying motion to stay the consent judgment and judgment

pending appeal ) stay denied sub nom. Republican Nat’l Comm. v. Common Cause R. I., No.

20A 28, 2020 WL 4680151 ( U .S . Aug. 13, 2020 );

WHEREAS the Executive Defendants do not waive any protections offered to them
through federal or state law and do not make any representations regarding the merits of

Plaintiffs’ claims or potential defenses which could be raised in litigation;

WHEREAS the Consent Parties agree that the Consent Judgment promotes judicial
economy, protects the limited resources of the Consent Parties, and resolves Plaintiffs’ claims

regarding the 2020 elections against the Executive Branch Defendants;

WHEREAS Plaintiffs agree to a waiver to any entitlement to damages and fees,

including attorneys’ fees, expenses, and costs against the Executive Defendants with respect to

any and all claims raised by Plaintiffs in this action relating to the 2020 elections;

WHEREAS it is the finding of this Court, made on the pleadings and upon agreement of
the Consent Parties, that: ( i ) the terms of this Consent Judgment constitute a fair and equitable
settlement of the issues raised with respect to the 2020 elections, and ( ii ) the Consent Judgment
is intended to and does resolve Plaintiffs’ claims;

11
App. 344

NOW, THEREFORE, upon consent of the Consent Parties, in consideration of the

mutual promises and recitals contained in this Stipulation and Consent Judgment, including
relinquishment of certain legal rights, the Consent Parties agree as follows:

.

II

JURISDICTION AND VENUE
This Court has jurisdiction over the subject matter of this action pursuant to Article 26 of
Chapter 1 of the General Statutes, N.C. Gen. Stat. § 7 A -245(a )( 2), and N.C. Gen. Stat. § 1 -493,

and has jurisdiction over the Consent Parties herein. Venue for this action is proper in Wake

County Superior Court because the Executive Defendants reside in Wake County. Id. § 1-82.
The Court shall retain jurisdiction of this Stipulation and Consent Judgment for the duration of

the term of this Stipulation and Consent Judgment for purposes of entering all orders and
judgments that may be necessary to implement and enforce compliance with the terms provided

herein.

.

III

PARTIES
This Stipulation and Consent Judgment applies to and is binding upon the following
parties:

A.

Damon Circosta, in his capacity as Chair of the North Carolina State Board of

Elections;
B.

The North Carolina State Board of Elections; and

C.

All Plaintiffs.
IV.

SCOPE OF CONSENT JUDGMENT

12
App. 345

A.

This Stipulation and Consent Judgment constitutes a settlement and resolution of

Plaintiffs’ claims against Executive Defendants pending in this Lawsuit. Plaintiffs recognize that
by signing this Stipulation and Consent Judgment, they are releasing any claims under the North
Carolina Constitution that they might have against Executive Defendants with respect to the

Challenged Provisions in the 2020 elections. Plaintiffs’ release of claims will become final upon
the effective date of this Stipulation and Consent Judgment.

B.

The Consent Parties to this Stipulation and Consent Judgment acknowledge that

this does not resolve or purport to resolve any claims pertaining to the constitutionality or

enforcement of the Challenged Provisions for elections held after the 2020 elections.
C.

The Consent Parties to this Stipulation and Consent Judgment further

acknowledge that by signing this Stipulation and Consent Judgment, the Consent Parties do not

release or waive the following: ( i ) any rights, claims, or defenses that are based on any events
that occur after they sign this Stipulation and Consent Judgment, ( ii ) any claims or defenses that

are unrelated to the allegations filed by Plaintiffs in this Lawsuit, and ( iii ) any right to institute
legal action for the purpose of enforcing this Stipulation and Consent Judgment or defenses
thereto.

D.

By entering this Stipulation and Consent Judgment, Plaintiffs are fully settling a

disputed matter between themselves and Executive Defendants. The Consent Parties are entering
this Stipulation and Consent Judgment for the purpose of resolving disputed claims, avoiding the
burdens and costs associated with the costs of litigating this matter through final judgment, and
ensuring both safety and certainty in advance of the 2020 elections. Nothing in this Stipulation
and Consent Judgment constitutes an admission by any party of liability or wrongdoing. The
Consent Parties acknowledge that a court may seek to consider this Stipulation and Consent

13
App. 346

Judgment, including the violations alleged in Plaintiffs’ Amended Complaint, in a future
proceeding distinct from this Lawsuit.

V.

CONSENT JUDGMENT OBJECTIVES
In addition to settling the claims of the Consent Parties, the objective of this Stipulation
and Consent Judgment is to avoid any continued uncertainty and distraction from the uniform
administration of the 2020 elections, protect the limited resources of the Consent Parties, ensure
that North Carolina voters can safely and constitutionally exercise the franchise in the 2020

elections, and ensure that election officials have sufficient time to implement any changes for the

2020 elections and educate voters about these changes.
VI .

INJUNCTIVE RELIEF
ACCORDINGLY, IT IS HEREBY ORDERED, ADJUDGED, AND JUDGED FOR

THE REASONS STATED ABOVE THAT:
A.

For the 2020 elections Executive Defendants shall extend the Receipt Deadline

for mailed absentee ballots, as set forth in N.C. Gen. Stat. § 163-231 ( b)( 2), to the deadline set

forth in paragraph VI. B below and in Numbered Memo 2020-22 ( attached as Exhibit A ).
B.

Pursuant to Numbered Memo 2020-22, an absentee ballot shall be counted as

timely in the 2020 elections if it is either ( 1 ) received by the county board by 5:00 p. m . on
Election Day; or ( 2 ) the ballot is postmarked on or before Election Day and received by nine
days after the election, which is Thursday, November 12, 2020 at 5:00 p.m. For purposes of this

Stipulation and Consent Judgment and as the Numbered Memo requires, a ballot shall be

considered postmarked on or before Election Day if it has a postmark affixed to it or if there is
information in the Postal Service tracking system ( BallotTrax ), or another tracking service

14
App. 347

offered by the Postal Service or the commercial earner, indicating that the ballot was in the
custody of the Postal Service or a commercial carrier on or before Election Day.

C.

For the 2020 elections, Executive Defendants shall institute a process to cure

deficiencies that may be cured with a certification from the voter in accordance with the
procedures set forth in Numbered Memo 2020-19 ( attached as Exhibit B ). Curable deficiencies

include: no voter signature, misplaced voter signature, no witness or assistant name, no witness
or assistant address, no witness or assistant signature, and misplaced witness or assistant
signature. If a county board office receives a container-return envelope with such a curable

deficiency, it shall contact the voter in writing by mail and, if available, email, within one
business day of identifying the deficiency, informing the voter that there is an issue with their
absentee ballot and enclosing a cure certification. The written notice shall be sent to the address
to which the voter requested their ballot be sent. The cure certification must be received by the

county board of elections by no later than 5 p.m. on Thursday, November 12, 2020, the day

before county canvass. The cure certification may be submitted to the county board office by fax ,

email, in person , or by mail or commercial carrier.
D.

Pursuant to Numbered Memo 2020-23, ( attached as Exhibit C) Executive

Defendants shall institute a process for establishing a separate absentee ballot drop-off station at
each one-stop early voting location and at county board offices. Such drop-off stations may be

located outdoors subject to the conditions set forth in Numbered Memo 2020-23. In addition,
when a person returns a ballot in person, the county board intake staffer shall ask the person for

their name and whether they are the voter or the voter’s near relative or legal guardian. The

staffer will indicate this information on a log along with the CIV number of the ballot and the
date that it was received. If the person returning the ballot in person indicates that they are not

15
App. 348

the voter or the voter’s near relative or legal guardian, the county board intake staffer will also

require the person to provide their address and phone number.

E.

Executive Defendants shall take additional reasonable steps to inform the public

of the contents of Numbered Memos 2020-19, -22, -23 and shall encourage all county boards of

elections to do the same.

F.

Plaintiffs will withdraw their Motion for Preliminary Injunction, filed on August

18, 2020, and will not file any further motions for relief for the 2020 elections based on the

claims raised in their Amended Complaint of August 18, 2020.
G.

In accordance with the terms of this Stipulation and Consent Judgment, the

Consent Parties shall each bear their own fees, expenses, and costs incurred as of the date of this

Order with respect to this lawsuit.

H.

All remaining claims filed by Plaintiffs against the Executive Defendants related

to the conduct of the 2020 elections in this action are hereby dismissed with prejudice. The Court

will retain jurisdiction of these claims only as to enforcement of the Stipulation and Consent
Judgment.

VII.

ENFORCEMENT AND RESERVATION OF REMEDIES
The parties to this Stipulation and Consent Judgment may request relief from this Court if
issues arise concerning the interpretation of this Stipulation and Consent Judgment that cannot be

resolved through the process described below . This Court specifically retains continuing

jurisdiction over the subject matter hereof and the Consent Parties hereto for the purposes of
interpreting, enforcing, or modifying the terms of this Stipulation and Consent Judgment, or for
granting any other relief not inconsistent with the terms of this Consent Judgment, until this
Consent Judgment is terminated. The Consent Parties may apply to this Court for any orders or

16

App. 349

other relief necessary to construe or effectuate this Stipulation and Consent Judgment or seek
informal conferences for direction as may be appropriate. The Consent Parties shall attempt to
meet and confer regarding any dispute prior to seeking relief from the Court.

If any Party believes that another has not complied with the requirements of this

Stipulation and Consent Judgment, it shall notify the other Party of its noncompliance by

emailing the Party’s counsel. Notice shall be given at least one business day prior to initiating
any action or filing any motion with the Court.
The Consent Parties specifically reserve their right to seek recovery of their litigation
costs and expenses arising from any violation of this Stipulation and Consent Judgment that

requires any Party to file a motion with this Court for enforcement of this Stipulation and
Consent Judgment.

VIII .
GENERAL TERMS
A.

Voluntary Agreement . The Consent Parties acknowledge that no person has

exerted undue pressure on them to enter into this Stipulation and Consent Judgment. Every Party
is voluntarily choosing to enter into this Stipulation and Consent Judgment because of the
benefits that are provided under the agreement. The Consent Parties acknowledge that they have
read and understand the terms of this Stipulation and Consent Judgment ; they have been

represented by legal counsel or had the opportunity to obtain legal counsel; and they are
voluntarily entering into this Stipulation and Consent Judgment to resolve the dispute among
them.

B.

Severability . The provisions of this Stipulation and Consent Judgment shall be

severable, and, should any provisions be declared by a court of competent jurisdiction to be

17
App. 350

unenforceable, the remaining provisions of this Stipulation and Consent Judgment shall remain

in full force and effect.

C.

Agreement. This Stipulation and Consent Judgment is binding. The Consent

Parties acknowledge that they have been advised that ( i) no other Party has a duty to protect their

interest or provide them with information about their legal rights, ( ii ) signing this Stipulation and
Consent Judgment may adversely affect their legal rights, and ( iii ) they should consult an
attorney before signing this Stipulation and Consent Judgment if they are uncertain of their

rights.
I ).

Entire Agreement . This Stipulation and Consent Judgment constitutes the entire

agreement between the Consent Parties relating to the constitutionality and enforcement of the

Challenged Provisions as they pertain to the 2020 elections. No Party has relied upon any
statements, promises, or representations that are not stated in this document . No changes to this

Stipulation and Consent Judgment are valid unless they are in writing, identified as an
amendment to this Stipulation and Consent Judgment, and signed by all Parties. There are no
inducements or representations leading to the execution of this Stipulation and Consent

Judgment except as herein explicitly contained.

E.

Warranty . The persons signing this Stipulation and Consent Judgment warrant

that they have full authority to enter this Stipulation and Consent Judgment on behalf of the Party
each represents, and that this Stipulation and Consent Judgment is valid and enforceable as to
that Party.

F.

Counterparts. This Stipulation and Consent Judgment may be executed in

multiple counterparts, which shall be construed together as if one instrument . Any Party shall be
entitled to rely on an electronic or facsimile copy of a signature as if it were an original.

18
App. 351

G.

Effective Date. This Stipulation and Consent Judgment is effective upon the date

it is entered by the Court.

IX.
TERMINATION
This Stipulation and Consent Judgment shall remain in effect through the certification of
ballots for the 2020 elections. The Court shall retain jurisdiction to enforce the terms of the

Consent Judgment for the duration of this Consent Judgment. This Court’s jurisdiction over this

Stipulation and Consent Judgment shall automatically terminate after the certification of all
ballots for the 2020 elections.

THE PARTIES ENTER INTO AND APPROVE THIS STIPULATION AND CONSENT
JUDGMENT AND SUBMIT IT TO THE COURT SO THAT IT MAY BE APPROVED
AND ENTERED. THE PARTIES HAVE CAUSED THIS STIPULATION AND
CONSENT JUDGMENT TO BE SIGNED ON THE DATES OPPOSITE THEIR
SIGNATURES.

19
App. 352

NORTH CAROLINA STATE BOARD OT
ELECTIONS; and DAMON CIRCOSTA
CHAIR , NORTH CAROLINA STATE BOARD OF
ELECTIONS

Dated: September 22, 2020

By: /s/ Alexander McC. Peters
Alexander McC. Peters, N.C. Bar No. 13654
Terrance Steed
North Carolina Dept , of Justice
Post Office Box 629
Raleigh , N .C. 27602
apeters @ nedoj.gov
tsteed @ ncdoj.gov

NORTH CAROLINA ALLIANCE FOR RETIRED
AMERICANS; BARKER FOWLER; BECKY
JOHNSON ; JADE JUREK; ROSALYN
KOCIEMBA ; TOM KOCIEMBA ; SANDRA
MALONE; and CAREN RABINOWITZ
Dated: September 22, 2020

Cv\y\,
By:
Burton Craige, NC Bar No. 9180
Narendra K . Ghosh , NC Bar No. 37649
Paul E. Smith , NC Bar No. 45014
PATTERSON HARKAVY LLP
100 Europa Drive, Suite 420
Chapel Hill , NC 27517
Telephone: 919.942.5200
BCraige @ pathlaw.com
NGhosh @ pathlaw.com
PSmith @ pathlaw.com
Marc E. Elias
Uzoma N . Nkwonta
Lalitha D. Madduri
Jyoti Jasrasaria
Ariel B . Glickman
PERKINS COIE LLP
700 Thirteenth Street, N.W., Suite 800
Washington, DC 20005
Telephone: 202.654.6200
Facsimile: 202.654.6211
MElias @ perkinscoie.com
UNkwonta @ perkinscoie.com
LMadduri @ perkinscoie.com
JJasrasaria @ perkinscoie.com
AGlickman @ perkinscoie.com
App. 353
Molly Mitchell

it)

cvs rrn

IT IS SO ORDERED. JUDGMENT SHALL BE ENTERED IN ACCORDANCE WITH
THE FOREGOING CONSENT JUDGMENT.

Dated:
Superior Court Judge

App.21
354

CERTIFICATE OF SERVICE

I hereby certify that a copy of the foregoing document was served on the persons

indicated below by electronic mail, with their consent to receive electronic service, as follows:

Burton Craige

Narenda K. Ghosh
Paul E. Smith
PATTERSON HARKAVY LLP
100 Europa Drive, Suite 420
Chapel Hill, NC 27517
bcraige @ pathlaw.com
nghosh @ pathlaw.com
psmith @ pathlaw.com
Counsel for Plaintiffs

Alexander McC. Peters
Paul M. Cox
NORTH CAROLINA DEPT. OF JUSTICE
Post Office Box 629
Raleigh, NC 27602
apeters @ ncdoj.gov
pcox @ ncdoj.gov
Counsel for State Defendants

Nathan A. Huff
PHELPS DUNBAR LLP
GlenLake One
4140 Parklake Avenue, Suite 100
Raleigh, NC 27612-3723
nathan.huff @ phelps.com
Counsel for Intervenor - Defendants, Berger and Moore

Nicole Jo Moss
COOPER & KIRK, PLLC
1523 New Hampshire Avenue NW
Washington DC, 20036
nmoss @ cooperkirk.com
Counsel for Intervenor - Defendants, Berger and Moore

App. 355

R. Scott Tobin
TAYLOR ENGLISH DUMA LLP
4208 Six Forks Road, Suite 1000
Raleigh, NC 27609
stobin @ taylorenglish.com
Counsel for Intervenor - Defendants, the Republican Committees
Service is made upon local counsel for all attorneys who have been granted pro hac vice

admission, with the same effect as if personally made on a foreign attorney within this state.

This the

day of October 2020.

Kellie Z Myers [ J
Trial Court Administrator - 10th Judicial District

kellie.z.myers @ nccourts.org

App. 356

RYAN PARK
SOLICITOR GENERAL

JOSHUA H. STEIN
ATTORNEY GENERAL

October 18, 2020
Daniel M. Horne, Jr.
Clerk of Court
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600
Re:

N.C. Alliance for Retired Americans v. N.C. Board of Elections, P20-513

Dear Mr. Horne:
I write to provide relevant information on the scope of issues that are presented to this
Court in the above-captioned appeal.
At the time that the State Board submitted its response to the petitions for writ of
supersedeas, the Board understood the intervenors to be contesting the cure process described in
Numbered Memo 2020-19. However, in their proposed reply brief submitted to this Court, the
legislative intervenors clarified that their appeal does not encompass a challenge to the cure
process. See Ex. A at 8 (stating that the “State Board Defendants are free to re-start the cure
process”). The legislative intervenors made a similar clarification in a brief filed in the U.S.
Court of Appeals for the Fourth Circuit, stating that their appeal to that court in a related case
does not challenge the cure process. See Ex. B at 1-2.
In subsequent correspondence between the parties, counsel for the legislative intervenors
reiterated their understanding that nothing in this appeal affects the Board’s authority to
implement a cure process. They have further stated that they do not contest the Board’s
authority to immediately implement the procedures set forth in Numbered Memo 2020-19 so
long as: (1) those procedures comply with an order by a federal district court that the absence of
a witness or assistance signature is not a curable defect, and (2) the memo does not refer to the
extended absentee-ballot receipt deadline that remains a matter of dispute. See Ex. C.
The Board has prepared a revised Numbered Memo 2020-19 that satisfies those
conditions. See Ex. D.
Counsel for the Republican National Committee intervenors have also expressed that
they do not oppose implementation of the Numbered Memo as revised, “but reserve their rights

WWW.NCDOJ.GOV

114 W. EDENTON STREET, RALEIGH, NC 27603
P. O. BOX 629, RALEIGH, NC 27602-

App. 357

919.716.6400

Page 2
to challenge this cure procedure as applied if it is being used to evade the witness requirement.”
See Ex. E.
Thus, the Board writes to communicate the parties’ mutual understanding that the Board
may proceed with the cure process described in revised Numbered Memo 2020-19,
notwithstanding the temporary administrative stay that this Court entered on Thursday, 15
October 2020. See Ex. D. Based on this mutual understanding, and the pressing need to enable
thousands of lawful voters to cure their ballots in time to exercise their right to vote, the Board
intends to proceed to implement revised Numbered Memo 2020-19 at noon tomorrow, Monday
19 October 2020. Should the Court have any questions or concerns about the Board’s intended
course of action, please do not hesitate to contact me at any time.
Respectfully submitted,
/s/ Ryan Y. Park
Ryan Y. Park
Solicitor General
North Carolina Department of Justice
P.O. Box. 629
Raleigh, NC 27602
rpark@ncdoj.gov
(919) 716-6788
cc:

All counsel of record

WWW.NCDOJ.GOV

114 W. EDENTON STREET, RALEIGH, NC 27603
P. O. BOX 629, RALEIGH, NC 27602-

App. 358

919.716.6400

Exhibit A

App. 359

No. P20-513

TENTH DISTRICT

NORTH CAROLINA COURT OF APPEALS
************************************
)
NORTH CAROLINA ALLIANCE
)
)
FOR RETIRED AMERICANS;
)
BARKER FOWLER; BECKY
)
JOHNSON; JADE JUREK;
ROSALYN KOCIEMBA; TOM
)
)
KOCIEMBA; SANDRA MALONE;
)
and CAREN RABINOWITZ,
)
)
Plaintiffs,
)
v.
From Wake County
)
)
THE NORTH CAROLINA STATE
No. 20 CVS 8881
)
BOARD OF ELECTIONS; and
)
DAMON CIRCOSTA, Chair of the
)
North Carolina State Board of
)
Elections,
)
)
Defendants,
)
)
PHILIP E. BERGER in his official
capacity as President Pro Tempore of )
)
the North Carolina Senate; and
TIMOTHY K. MOORE in his official )
)
capacity as Speaker of the North
)
Carolina House of Representatives,
)
)
Intervenor-Defendants,
)
and
)
REPUBLICAN NATIONAL
)
COMMITTEE; NATIONAL
)
REPUBLICAN SENATORIAL
)
)
COMMITTEE; NATIONAL
)
REPUBLICAN CONGRESSIONAL
COMMITTEE; DONALD J. TRUMP )
FOR PRESIDENT, INC; and
)
NORTH CAROLINA REPUBLICAN )
)
PARTY,

App. 360

-2-

Republican Committee
Intervenor-Defendants.

)
)
)

***************************************************
MOTION FOR LEAVE TO FILE REPLY
***************************************************
TO THE HONORABLE COURT OF APPEALS OF NORTH CAROLINA:
Intervenor-Defendants Philip E. Berger, in his official capacity as President
Pro Tempore of the North Carolina Senate, and Timothy K. Moore, in his official
capacity as Speaker of the North Carolina House of Representatives (“Legislative
Defendants”), respectfully request leave to file a very brief reply to respond to an
argument raised in State Defendants’ Response in Opposition to Intervenors’
Petitions for Writ of Supersedeas. See N. C. State Conference of NAACP v. Moore, 817
S.E.2d 592, 593 (N.C. 2018) (mem.) (granting plaintiffs’ motion “for Leave to File
Reply to Response in Opposition to Petition for Writ of Supersedeas”); cf. Animal Prot.
Soc. of Durham, Inc. v. State, 95 N.C. App. 258, 269, 382 S.E.2d 801, 808 (1989) (“The
reply brief was intended to be a vehicle for responding to matters raised in the
appellees’ brief.”).
In particular, State Defendants argue that granting Legislative Defendants’
petition will indefinitely paralyze the North Carolina State Board of Elections’ ability
to help voters cure or re-vote deficient absentee ballots. In reality, as more fully
explained in Legislative Defendants’ proposed Reply, an order granting our petition

App. 361

-3-

would in no way deprive the voters of this State of access to a cure process. Any
further delay on that score would be attributable wholly to the State Board.
Legislative Defendants’ proposed reply is filed contemporaneously as an
attachment to this motion.
Respectfully submitted this the 16th day of October, 2020.
COOPER & KIRK PLLC
By: /s/ Electronically Submitted
Nicole Jo Moss
N.C. State Bar No. 31958
Telephone: (202) 220-9636
nmoss@cooperkirk.com
1523 New Hampshire Ave.
N.W.
Washington, D.C. 20036
N.C. R. App. P. 33(b) Certification: I
certify that all of the attorneys listed
below have authorized me to list their
names on this document as if they had
personally signed it.
Nathan Huff
PHELPS DUNBAR LLP
North Carolina Bar #40626
4140 ParkLake Avenue,
Suite 100
Raleigh, North Carolina
27612
Telephone: (919)789 5300
Facsimile: (919) 789-5301
ATTORNEYS FOR LEGISLATIVE
DEFENDANTS PHILIP E. BERGER,
in his official capacity as President Pro
Tempore of the North Carolina Senate
and TIMOTHY K. MOORE, in his
official capacity as Speaker of the

App. 362

-4-

North Carolina House of
Representatives

App. 363

-5-

CERTIFICATE OF SERVICE
I do hereby certify that I have on this 16th day of October, 2020, served a copy
of the foregoing Motion for Leave to File Reply Brief by electronic mail and by first
class mail on the following business day, on the following parties at the following
addresses:
For the Plaintiffs:

For the State Defendants:

Marc E. Elias
Uzoma N. Nkwonta
Lalitha D. Madduri
Jyoti Jasrasaria
PERKINS COIE LLP
700 Thirteenth St., NW, Suite 600
Washington, DC 20005-3960
melias@perkinscoie.com
unkwonta@perkinscoie.com
LMadduri@perkinscoie.com
AGlickman@perkinscoie.com
JJasrasaria@perkinscoie.com

Alec McC. Peters
Terrence Steed
NORTH CAROLINA DEPARTMENT OF
JUSTICE
P.O. Box 629
Raleigh, NC 27602
apeters@ncdoj.gov
Tsteed@ncdoj.gov

Burton Craige, State Bar No. 9180
Narenda K. Ghosh, State Bar No.
37649
Paul E. Smith, State Bar No. 45014
PATTERSON HARKAVY LLP
100 Europa Dr., Suite 420
Chapel Hill, NC 27517
bcraige@pathlaw.com
nghosh@pathlaw.com
psmith@pathlaw.com

App. 364

For Intervenor-Republican
Committee Defendants:
R. Scott Tobin, N.C. Bar No. 34317
Taylor English Duma LLP
4208 Six Forks Road, Suite 1000
Raleigh, North Carolina 27609
stobin@taylorenglish.com
Bobby R. Burchfield
Matthew M. Leland
King & Spaulding LLP
1700 Pennsylvania Avenue NW,
Suite 200
Washington DC, 20006
bburchfield@kslaw.com
mleland@kslaw.com

-6Nicole Jo Moss
Cooper & Kirk , PLLC
1523 New Hampshire Ave. NW
Washington, DC 20036

App. 365

No. P20-513

TENTH DISTRICT

NORTH CAROLINA COURT OF APPEALS
************************************
)
NORTH CAROLINA ALLIANCE
)
)
FOR RETIRED AMERICANS;
)
BARKER FOWLER; BECKY
)
JOHNSON; JADE JUREK;
ROSALYN KOCIEMBA; TOM
)
)
KOCIEMBA; SANDRA MALONE;
)
and CAREN RABINOWITZ,
)
)
Plaintiffs,
)
v.
From Wake County
)
)
THE NORTH CAROLINA STATE
No. 20 CVS 8881
)
BOARD OF ELECTIONS; and
)
DAMON CIRCOSTA, Chair of the
)
North Carolina State Board of
)
Elections,
)
)
Defendants,
)
)
PHILIP E. BERGER in his official
capacity as President Pro Tempore of )
)
the North Carolina Senate; and
TIMOTHY K. MOORE in his official )
)
capacity as Speaker of the North
)
Carolina House of Representatives,
)
)
Intervenor-Defendants,
)
and
)
REPUBLICAN NATIONAL
)
COMMITTEE; NATIONAL
)
REPUBLICAN SENATORIAL
)
)
COMMITTEE; NATIONAL
)
REPUBLICAN CONGRESSIONAL
COMMITTEE; DONALD J. TRUMP )
FOR PRESIDENT, INC; and
)
NORTH CAROLINA REPUBLICAN )
)
PARTY,

App. 366

-2-

Republican Committee
Intervenor-Defendants.

)
)
)

***************************************************
PROPOSED REPLY TO STATE DEFENDANTS’ RESPONSE IN
OPPOSITION TO INTERVENORS’ PETITION FOR WRIT OF
SUPERSEDEAS
***************************************************
Argument
State Board Defendants open their response by attempting to create a specter
of “administrative urgency,” State Board Response at 6, alleging that “[u]nless and
until the State Board is permitted to implement the consent judgment approved by
the court below, the votes of thousands of North Carolinians who have already cast
their ballots by mail, but with minor technical deficiencies, will remain in
administrative limbo,” id. at 2. But this claim is false: State Board Defendants are
free to re-start the cure process they unilaterally stopped on October 4, and that is so
regardless of whether this Court enters a writ of supersedeas.
The relevant background is set forth at length in the Middle District of North
Carolina’s recent opinions in Democracy N.C. v. North Carolina State Board of
Elections, 2020 WL 6058048, No. 20-cv-457 (M.D.N.C. Oct. 14, 2020) and Moore v.
Circosta, 2020 WL 6063332, No. 20-cv-911 (M.D.N.C. Oct. 14, 2020). In short,
following a preliminary injunction entered on due-process grounds in Democracy
N.C., the State Board on August 21, 2020, issued Numbered Memo 2020-19 to
establish a uniform cure process for absentee ballots. See Democracy N.C., 2020 WL

App. 367

-3-

6058048, at *2. Absentee voting began on September 4, but on September 22, 2020—
before the entry of the consent judgment in this case—the State Board issued a
revised Numbered Memo 2020-19 purporting to allow voters to “cure” ballots wholly
devoid of witness information through a simple affidavit. Id. at *3. The consent
judgment in this case was entered on October 2, and its “WHEREAS” clauses
expressly reference the Democracy N.C. preliminary injunction. Id. at *4.
The State Board did not file Numbered Memo 2020-19 with the Middle District
of North Carolina until September 28, 2020—despite telling the Superior Court it had
done so on September 22—and the Middle District swiftly indicated that the Memo’s
evisceration of the witness requirement was “not consistent with” that court’s
preliminary injunction ruling, which had upheld the witness requirement. See id. at
*6; Moore, 2020 WL 6063332, at *5. On October 1, the State Board put a halt to the
cure process for ballots missing witness signatures, but otherwise left Numbered
Memo 2020-19’s cure procedures in place. See Numbered Memo 2020-27,
https://bit.ly/3lWy4M2.
On October 3, however, the federal court in Moore entered a temporary
restraining order halting enforcement of the revised Numbered Memo 2020-19, but
the order explicitly did “not enjoin or affect the August 2020-19 memo.” Moore v.
Circosta, No. 5:20-cv-507, 2020 WL 5880129, at *9 (Oct. 3, 2020) (emphasis added).
In response, however, the State Board unilaterally put a halt to the cure process
altogether. See Numbered Memo 2020-28, at https://bit.ly/2H5O13z. It did so despite
the severability clause in the Consent Judgment anticipating that its provisions could

App. 368

-4-

be rendered “unenforceable” by a ruling of another court, State Board Response App.
61, and despite the Supremacy Clause giving precedence to the federal court’s ruling,
see Gen. Atomic Co. v. Felter, 434 U.S. 12, 15 (1977).
That is how things stood until October 14, when the Middle District of North
Carolina (a) denied our motion for a preliminary injunction in Moore, but (b) in
Democracy North Carolina enjoined Numbered Memo 2020-19 to the extent it allowed
for an affidavit-only cure for missing witness or assistant signatures. See Democracy
North Carolina, 2020 WL 6058048, at *13. We have appealed the ruling in Moore and
sought an injunction pending appeal, but we have not sought to further enjoin
implementation of Numbered Memo 2020-19 other than its incorporation of the ballot
receipt extension deadline. See Emergency Motion for Injunction Pending Appeal at
1, Moore v. Circosta, No. 20-2107 (4th Cir. Oct. 16, 2020), ECF No. 4.
In light of the foregoing, once the Moore temporary restraining order expires
at midnight tonight the State Board will be in the same position today as it was on
October 1—free to implement Numbered Memo 2020-19 and its cure process, except
for the affidavit-only cure for missing witness or assistant signatures. Getting the
cure process moving is therefore no basis for denying the petition here, as any delay
in doing so is entirely of the State Board’s own doing. And it certainly is no basis for
denying the petition entirely, including with respect to the ballot receipt deadline and
alteration of the postmark requirement.

App. 369

-5-

Conclusion
For these reasons and those presented in our Petition, the Court should grant
a Writ of Supersedeas to stay the Superior Court’s consent judgment.
Respectfully submitted this the 16th day of October, 2020.
COOPER & KIRK PLLC
By: /s/ Electronically Submitted
Nicole Jo Moss
N.C. State Bar No. 31958
Telephone: (202) 220-9636
nmoss@cooperkirk.com
1523 New Hampshire Ave.
N.W.
Washington, D.C. 20036
N.C. R. App. P. 33(b) Certification: I
certify that all of the attorneys listed
below have authorized me to list their
names on this document as if they had
personally signed it.
Nathan Huff
PHELPS DUNBAR LLP
North Carolina Bar #40626
4140 ParkLake Avenue,
Suite 100
Raleigh, North Carolina
27612
Telephone: (919)789 5300
Facsimile: (919) 789-5301
ATTORNEYS FOR LEGISLATIVE
DEFENDANTS PHILIP E. BERGER,
in his official capacity as President Pro
Tempore of the North Carolina Senate
and TIMOTHY K. MOORE, in his
official capacity as Speaker of the
North Carolina House of
Representatives

App. 370

-6-

CERTIFICATE OF SERVICE
I do hereby certify that I have on this 16th day of October, 2020, served a copy
of the foregoing Proposed Reply To State Defendants’ Response In Opposition To
Intervenors’ Petition For Writ Of Supersedeas by electronic mail and by first class
mail on the following business day, on the following parties at the following
addresses:
For the Plaintiffs:

For the State Defendants:

Marc E. Elias
Uzoma N. Nkwonta
Lalitha D. Madduri
Jyoti Jasrasaria
PERKINS COIE LLP
700 Thirteenth St., NW, Suite 600
Washington, DC 20005-3960
melias@perkinscoie.com
unkwonta@perkinscoie.com
LMadduri@perkinscoie.com
AGlickman@perkinscoie.com
JJasrasaria@perkinscoie.com

Alec McC. Peters
Terrence Steed
NORTH CAROLINA DEPARTMENT OF
JUSTICE
P.O. Box 629
Raleigh, NC 27602
apeters@ncdoj.gov
Tsteed@ncdoj.gov

Burton Craige, State Bar No. 9180
Narenda K. Ghosh, State Bar No.
37649
Paul E. Smith, State Bar No. 45014
PATTERSON HARKAVY LLP
100 Europa Dr., Suite 420
Chapel Hill, NC 27517
bcraige@pathlaw.com
nghosh@pathlaw.com
psmith@pathlaw.com

App. 371

For Intervenor-Republican
Committee Defendants:
R. Scott Tobin, N.C. Bar No. 34317
Taylor English Duma LLP
4208 Six Forks Road, Suite 1000
Raleigh, North Carolina 27609
stobin@taylorenglish.com
Bobby R. Burchfield
Matthew M. Leland
King & Spaulding LLP
1700 Pennsylvania Avenue NW,
Suite 200
Washington DC, 20006
bburchfield@kslaw.com
mleland@kslaw.com

-7Nicole Jo Moss
Cooper & Kirk , PLLC
1523 New Hampshire Ave. NW
Washington, DC 20036

App. 372

Exhibit B

App. 373

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 1 of 10

No. 20-2107

IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
TIMOTHY K. MOORE, in his official capacity as Speaker of the North Carolina
House of Representatives, PHILIP E. BERGER, in his official capacity as President
Pro Tempore of the North Carolina Senate, BOBBY HEATH, MAXINE WHITLEY,
and ALAN SWAIN,
Plaintiffs-Appellants,
v.
DAMON CIRCOSTA, in his official capacity as Chair of the North Carolina State
Board of Elections; STELLA ANDERSON, in her official capacity as a member of the
North Carolina State Board of Elections, JEFFERSON CARMON III, in his official
capacity as a member of the North Carolina State Board of Elections, and KAREN
BRINSON BELL, in her official capacity as the Executive Director of the North
Carolina State Board of Elections,
Defendants-Appellees,
&
NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS, BARKER FOWLER, BECKY
JOHNSON, JADE JUREK, ROSALYN KOCIEMBA, TOM KOCIEMBA, SANDRA MALONE,
and CAREN RABINOWITZ,
Intervenor-Appellees.
Appeal from the United States District Court
for the Middle District of North Carolina
Plaintiffs-Appellants’ Reply in Support of Emergency
Motion for an Injunction Pending Appeal
October 16, 2020

(counsel listed on reverse)

App. 374

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 2 of 10

David H. Thompson
Peter A. Patterson
Nicole J. Moss
COOPER & KIRK PLLC
1523 New Hampshire Ave., NW
Washington, DC 20036
Telephone: (202) 220-9636
Fax: (202) 220-9601
dthompson@cooperkirk.com
Nathan A. Huff
PHELPS DUNBAR LLP
4140 ParkLake Avenue, Suite 100
Raleigh, NC 27612
Telephone: (919) 789-5300
Fax: (919) 789-5301
Counsel for PlaintiffsAppellants

App. 375

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 3 of 10

Appellants respectfully submit this reply to Appellees’ response and in further
support of Appellants’ emergency motion for an injunction pending appeal. In the
interest of time and to ensure that the Court may expeditiously consider Appellants’
motion, Appellants raise a few particularly pertinent points here and otherwise rely
on the arguments set forth in our motion, on Judge Dever’s order granting a
temporary restraining order (“TRO”), Judge Osteen’s orders in Democracy North
Carolina and Moore, and Appellants’ responses to Appellees’ and IntervenorAppellees’ motions to stay the TRO in the prior appeal in this case.
ARGUMENT
First, Appellees contend that the North Carolina State Board of Elections
(“NCSBE”) will suffer irreparable harm if the Court grants an injunction pending
appeal because that injunction would bar the NCSBE from informing voters that
their ballots contain “minor deficiencies, like placing a signature in the wrong
place.” Response to Emergency Motion for Injunction Pending Appeal at 25–26,
Doc. 12-1 (Oct. 16, 2020) (“Response”). But as Appellants’ motion makes clear, the
only aspect of the revised Numbered Memo 2020-19 that Appellants are seeking to
enjoin is the extension of the receipt deadline. See Plaintiffs-Appellants Emergency
Motion for an Injunction Pending Appeal at 1, Doc. 4 (Oct. 16, 2020) (“Motion”).
Appellants have explicitly not asked this Court to enjoin the entire cure process, see
id., so even if this Court enters an injunction pending appeal Appellees can
1
App. 376

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 4 of 10

implement the cure process they had in place prior to the TRO, subject to Judge
Osteen’s injunction against allowing the curing of missing witness signatures with a
voter affidavit. See Memorandum Opinion & Order at 40–41, Doc. 169, Democracy
N.C. v. N.C. State Bd. of Elections, No. 20-cv-457 (M.D.N.C. Oct. 14, 2020).
Second, Appellees incorrectly cite the Supreme Court’s standard for issuing
an injunction pending appeal. See Response at 4–5. The Supreme Court’s authority
to issue an injunction pending appeal arises from the All Writs Act. See Hobby Lobby
Stores, Inc. v. Sebelius, 568 U.S. 1401, 1403 (2012) (Sotomayor, J., in chambers).
And though this Court has not “made a clear statement about what standard should
be applied in determining whether to grant a[n] . . . injunction pending appeal,” Ohio
Valley Env’t Coal., Inc. v. U.S. Army Corps of Eng’rs, 890 F. Supp. 2d 688, 690
(S.D. W. Va. 2012), it has recognized a few factors that must be considered. One
factor is “whether the petitioner has made a strong showing that he is likely to prevail
on the merits of his appeal.” Miltenberger v. Chesapeake & Ohio Ry. Co., 450 F.2d
971, 974 (4th Cir. 1971). Another factor is “irreparable injury.” See Sinai Hosp. of
Balt., Inc. v. Scearce, No. 76-2259, 1976 WL 4205, at *2 (4th Cir. Nov. 10, 1976)
(Winter, C.J., in chambers). These factors are part of a common standard for granting
an injunction pending appeal that many of the Courts of Appeals share. According
to that standard, an injunction pending appeal will be granted if the movant
establishes (1) “a substantial likelihood that it will prevail on the merits of the
2
App. 377

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 5 of 10

appeal,” (2) “a substantial risk of irreparable injury unless the injunction is granted,”
(3) “the threatened injury to the [movants] exceeds whatever damage an injunction
may cause the [nonmovants],” and (4) “any injunction would not disserve the public
interest.” Eternal Word Television Network, Inc. v. Sec’y, U.S. Dep’t of Health &
Human Servs., 756 F.3d 1339, 1344 (11th Cir. 2014) (W. Pryor, J., specially
concurring) (citing Siegel v. LePore, 234 F.3d 1163, 1176 (11th Cir. 2000) (en
banc)); see also, e.g., John Doe Co. v. Consumer Fin. Prot. Bureau, 849 F.3d 1129,
1131 (D.C. Cir. 2017); United States v. Alabama, 443 F. App’x 411, 419–20 (11th
Cir. 2011); Korte v. Sebelius, 528 F. App’x 583, 586 (7th Cir. 2012); LaRouche v.
Kezer, 20 F.3d 68, 72 (2d Cir. 1994); Tribal Village of Akutan v. Hodel, 859 F.2d
662, 663 (9th Cir. 1988); Fath v. Tex. Dep’t of Transp., 670 F. App’x 294, 295 (5th
Cir. 1982). As Appellants demonstrated in their motion, these factors counsel in
favor of issuing an injunction in this case.
Third, Appellees oppose Appellants’ Equal Protection and Elections Clause
claims by contending that the NCSBE was authorized under state law to take the
actions it did—in other words, to unilaterally change state election law in
contravention of the General Assembly’s duly enacted laws. But as the district court
found, the NCSBE lacked authority to make the extensive alterations to the election
laws through the Memoranda under either N.C. GEN. STAT. § 163-22.2 or § 16327.1. See Motion App. 146–53. Section 163-22.2 does not authorize the NCSBE to
3
App. 378

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 6 of 10

implement rules that directly conflict with the General Assembly’s duly enacted
laws—like the statutory receipt deadline—and the Executive Director did not have
the power to redefine the meaning of “natural disaster” under § 163-27.1 to include
a pandemic to exercise her emergency powers to make the changes. What is more,
§ 163-27.1 is inapplicable on its face because it requires “the normal schedule for
the election” to have been “disrupted,” but the normal schedule for the November
2020 election has not been altered in any way. Consequently, without the lawful
authority they claim to have had, Appellees’ entire opposition to Appellants’ claims
falls apart.
Fourth, Appellees’ argument that Appellants’ Equal Protection claim based
on arbitrary and nonuniform treatment fails because “minor differences in treatment
among voters simply do not support an equal-protection violation,” Response at 22–
23, is meritless. Judge Osteen found that Appellants were likely to prevail on the
merits of their Equal Protection claim in this respect because Appellees’ actions
subject Appellants Heath and Whitley to “arbitrary and disparate treatment” by
“contraven[ing] the fixed rules or procedures” established by the General Assembly
before voting started. Motion App. 120–25. Appellants will not address the
particularities of the various cases that Appellees cite, but Appellees’ actions are
unconstitutional here because they were arbitrary.

4
App. 379

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 7 of 10

Fifth, Appellees maintain that courts could have struck down the witness
requirement, so their elimination of it via memoranda was a reasonable response to
avoid protracted litigation. See Response at 13. But a three-judge panel of the North
Carolina Superior Court and the Middle District of North Carolina have upheld
North Carolina’s witness requirement for this fall’s election on full preliminary
injunction records. Democracy N.C. v. N.C. State Bd. of Elections, No. 20-cv-457,
2020 WL 4484063, at *36 (M.D.N.C. Aug. 4, 2020); Order on Injunctive Relief at
6–7, Chambers v. State, No. 20-CVS-500124 (N.C. Wake Cnty. Super. Ct. Sept. 3,
2020). And the Supreme Court recently for the second time stayed an injunction of
a witness requirement during the pandemic. See Andino v. Middleton, No. 20A55,
2020 WL 5887393 (U.S. Oct. 5, 2020). Furthermore, with respect to the ballot
receipt deadline, several federal appellate courts have also recently stayed
injunctions extending election day ballot receipt deadlines that are stricter than North
Carolina’s deadline of three days after the election. See New Ga. Project v.
Raffensperger, No. 20-13360, 2020 WL 5877588 (11th Cir. Oct. 2, 2020) (staying
injunction of Georgia’s election day deadline); Democratic Nat’l Comm. v.
Bostelmann, No. 20-2835, 2020 WL 5951359 (7th Cir. Oct. 8, 2020) (staying
extension of Wisconsin’s election day deadline); Common Cause of Ind. v. Lawson,
No. 20-2911, 2020 WL 6042121 (7th Cir. Oct. 13, 2020) (staying extension of
Indiana’s election day deadline).
5
App. 380

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 8 of 10

CONCLUSION
For the foregoing reasons, Appellants respectfully request that this Court grant
their motion for an injunction pending appeal.
Dated: October 16, 2020

Respectfully submitted,
/s/ David H. Thompson
David H. Thompson
COOPER & KIRK, PLLC
Peter A. Patterson
Nicole J. Moss (State Bar No. 31958)
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600 / (202) 220-9601
dthompson@cooperkirk.com
Nathan A. Huff
Phelps Dunbar LLP
4140 ParkLake Avenue, Suite 100
Raleigh, NC 27612
Telephone: (919) 789-5300
Fax: (919) 789-5301
Counsel for Plaintiffs-Appellees

6
App. 381

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 9 of 10

CERTIFICATE OF COMPLIANCE
I hereby certify that the foregoing reply complies with the requirements of
Federal Rules of Appellate Procedure 27(d) and 32(a). The reply is prepared in 14point Times New Roman font, a proportionally spaced typeface; it is double-spaced;
and it contains 1,248 words (exclusive of the parts of the document exempted by
Federal Rule of Appellate Procedure 32(f)), as measured by Microsoft Word.
/s/ David H. Thompson
David H. Thompson

7
App. 382

USCA4 Appeal: 20-2107

Doc: 19

Filed: 10/16/2020

Pg: 10 of 10

CERTIFICATE OF SERVICE
Pursuant to Federal Rule of Appellate Procedure 25(d) and Local Rule
25(b)(2), I hereby certify that on October 16, 2020, I electronically filed the
foregoing reply with the Clerk of the Court by using the appellate CM/ECF system.
Service on counsel for all parties has been accomplished via ECF.
/s/ David H. Thompson
David H. Thompson

8
App. 383

Exhibit C

App. 384

Park, Ryan
From:
Sent:
To:
Cc:

Subject:

David Thompson <dthompson@cooperkirk.com>
Friday, October 16, 2020 9:34 PM
Peters, Alec
Burton Craige; Narendra Ghosh; Paul Smith; melias@perkinscoie.com;
UNkwonta@perkinscoie.com; Glickman, Ariel (Perkins Coie); Jasrasaria, Jyoti (Perkins
Coie); Madduri, Lalitha (Perkins Coie); nathan.huff@phelps.com; Nicole Moss; Pete
Patterson; stobin@taylorenglish.com; Burchfield, Bobby; Leland, Matthew; Park, Ryan;
Steed, Terence
Re: NC Court of Appeals P20-513—State Board Defendants' Response in Opposition to
Intervenors' Petitions for Writs of Supersedeas

Alec,
I am writing to correct your email below.

To be clear, as of midnight tonight, the state board of elections is free to implement its revised memo 2020‐19 with the
exception of the cure procedure for the absence of a witness signature or assistance signature (and the reference to the
ballot deadline extension).
That revised memo was put into place before the consent judgment and thus is not implicated by our continued efforts
to stay and enjoin the implementation of the consent judgment.

Have a good weekend.

Regards,
David
David H. Thompson
Cooper & Kirk, PLLC
1523 New Hampshire Ave., NW
Washington, DC 20036
202‐220‐9659

On Oct 16, 2020, at 9:02 PM, Peters, Alec <apeters@ncdoj.gov> wrote:

Bobby,
We have received the Request for Leave to File a Reply and the proposed Reply submitted by the
Legislative defendants earlier today. We understand the Legislative defendants to represent to the
Court of Appeals that they are not challenging the cure provisions of the Consent Judgment,
administered in conjunction with Judge Osteen’s order, and that they further represent to the court that
they do not believe that the stay issued by the court last night extends to the cure provisions. Can you
please confirm as soon as possible whether the RNC Committees share in that position.
1

App. 385

Thank you.
Best regards,
Alec Peters

<image001.jpg>

Alexander McC. Peters
Chief Deputy Attorney General
919.716.6400
apeters@ncdoj.gov
114 W. Edenton St., Raleigh, NC 27603
ncdoj.gov
Please note messages to or from this address may be public records.

From: Peters, Alec
Sent: Friday, October 16, 2020 12:52 PM
To: Burton Craige <bcraige@pathlaw.com>; Narendra Ghosh <nghosh@pathlaw.com>; Paul Smith
<psmith@pathlaw.com>; melias@perkinscoie.com; UNkwonta@perkinscoie.com; Glickman, Ariel
(Perkins Coie) <AGlickman@perkinscoie.com>; Jasrasaria, Jyoti (Perkins Coie)
<JJasrasaria@perkinscoie.com>; Madduri, Lalitha (Perkins Coie) <LMadduri@perkinscoie.com>;
nathan.huff@phelps.com; Nicole Moss <nmoss@cooperkirk.com>; Pete Patterson
<ppatterson@cooperkirk.com>; David Thompson <dthompson@cooperkirk.com>;
stobin@taylorenglish.com; Burchfield, Bobby <BBurchfield@KSLAW.com>; Leland, Matthew
<MLeland@KSLAW.com>
Cc: Park, Ryan <rpark@ncdoj.gov>; Steed, Terence <Tsteed@ncdoj.gov>
Subject: NC Court of Appeals P20‐513—State Board Defendants' Response in Opposition to Intervenors'
Petitions for Writs of Supersedeas
Counsel, attached please find the State Board Defendants' Response in Opposition to Intervenors'
Petitions for Writs of Supersedeas, which has just been filed with the North Carolina Court of Appeals.
Best regards,
Alec Peters

<image001.jpg>

Alexander McC. Peters
Chief Deputy Attorney General
919.716.6400
apeters@ncdoj.gov
114 W. Edenton St., Raleigh, NC 27603
ncdoj.gov
Please note messages to or from this address may be public records.

2

App. 386

Exhibit D

App. 387

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611

^

( vOTE N O R T H C A R O L I N A
Tjjy S T A T E B O A R D O F E L E C T I O N S
\

(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-19
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Absentee Container-Return Envelope Deficiencies

DATE:

August 21, 2020 (revised on September 22, 2020; further revised on October 17,
2020 in light of orders in Democracy NC v. North Carolina State Bd. of Elections,
No. 20-cv-457 (M.D.N.C.) and NC Alliance for Retired Americans v. North Carolina State Bd. of Elections, No. 20-CVS-8881 (Wake Cty. Sup. Ct.))

County boards of elections have already experienced an unprecedented number of voters seeking
to vote absentee-by-mail in the 2020 General Election, making statewide uniformity and consistency in reviewing and processing these ballots more essential than ever. County boards of
elections must ensure that the votes of all eligible voters are counted using the same standards,
regardless of the county in which the voter resides.
This numbered memo directs the procedure county boards must use to address deficiencies in absentee ballots. The purpose of this numbered memo is to ensure that a voter is provided every
opportunity to correct certain deficiencies, while at the same time recognizing that processes must
be manageable for county boards of elections to timely complete required tasks. 1

1. No Signature Verification
The voter’s signature on the envelope shall not be compared with the voter’s signature on file because this is not required by North Carolina law. County boards shall accept the voter’s signature on the container-return envelope if it appears to be made by the voter, meaning the signature

1

This numbered memo is issued pursuant to the State Board of Elections’ general supervisory
authority over elections as set forth in G.S. § 163-22(a) and the authority of the Executive Director in G.S. § 163-26. As part of its supervisory authority, the State Board is empowered to “compel observance” by county boards of election laws and procedures. Id., § 163-22(c).

App. 388

on the envelope appears to be the name of the voter and not some other person. Absent clear evidence to the contrary, the county board shall presume that the voter’s signature is that of the
voter, even if the signature is illegible. A voter may sign their signature or make their mark.
The law does not require that the voter’s signature on the envelope be compared with the voter’s
signature in their registration record. See also Numbered Memo 2020-15, which explains that
signature comparison is not permissible for absentee request forms.

2. Types of Deficiencies
Trained county board staff shall review each executed container-return envelope the office receives to determine if there are any deficiencies. County board staff shall, to the extent possible,
regularly review container-return envelopes on each business day, to ensure that voters have every
opportunity to correct deficiencies. Review of the container-return envelope for deficiencies occurs after intake. The initial review is conducted by staff to expedite processing of the envelopes.
Deficiencies fall into two main categories: those that can be cured with a certification and those
that cannot be cured. If a deficiency cannot be cured, the ballot must be spoiled and a new ballot
must be issued, as long as the ballot is issued before Election Day. See Section 3 of this memo,
Voter Notification.

2.1. Deficiencies Curable with a Certification (Civilian and UOCAVA)
The following deficiencies can be cured by sending the voter a certification:
•
•
•
•

Voter did not sign the Voter Certification
Voter signed in the wrong place
Witness or assistant did not print name 2
Witness or assistant did not print address 3

2

If the name is readable and on the correct line, even if it is written in cursive script, for example, it does not invalidate the container-return envelope.
3

Failure to list a witness’s ZIP code does not require a cure. G.S. § 163-231(a)(5). A witness or
assistant’s address does not have to be a residential address; it may be a post office box or other
mailing address. Additionally, if the address is missing a city or state, but the county board of
elections can determine the correct address, the failure to list that information also does not invalidate the container-return envelope. For example, if a witness lists “Raleigh 27603” you can
determine the state is NC, or if a witness lists “333 North Main Street, 27701” you can determine
that the city/state is Durham, NC. If both the city and ZIP code are missing, staff will need to
determine whether the correct address can be identified. If the correct address cannot be identified, the envelope shall be considered deficient and the county board shall send the voter the cure
2
App. 389

•

Witness or assistant signed on the wrong line

This cure certification process applies to both civilian and UOCAVA voters.

2.2. Deficiencies that Require the Ballot to Be Spoiled (Civilian)
The following deficiencies cannot be cured by certification:
•
•
•

Witness or assistant did not sign
Upon arrival at the county board office, the envelope is unsealed
The envelope indicates the voter is requesting a replacement ballot

If a county board receives a container-return envelope with one of these deficiencies, county board
staff shall spoil the ballot and reissue a ballot along with a notice explaining the county board
office’s action, in accordance with Section 3.

2.3. Deficiencies that require board action
Some deficiencies cannot be resolved by staff and require action by the county board. These include situations where the deficiency is first noticed at a board meeting or if it becomes apparent
during a board meeting that no ballot or more than one ballot is in the container-return envelope.
If the county board disapproves a container-return envelope by majority vote in a board meeting
due to a deficiency, it shall proceed according to the notification process outlined in Section 3.

3. Voter Notification
3.1. Issuance of a Cure Certification or New Ballot
If there are any deficiencies with the absentee envelope, the county board of elections shall contact
the voter in writing within one business day of identifying the deficiency to inform the voter there
is an issue with their absentee ballot and enclosing a cure certification or new ballot, as directed
by Section 2. The written notice shall also include information on how to vote in-person during
the early voting period and on Election Day.
The written notice shall be sent to the address to which the voter requested their ballot be sent.
If the deficiency can be cured and the voter has an email address on file, the county board shall
also send the cure certification to the voter by email. If the county board sends a cure certification
by email and by mail, the county board should encourage the voter to only return one of the certifications. If the voter did not provide an email address but did provide a phone number, the county

certification in accordance with Section 3. See Numbered Memo 2020-29 for additional information regarding address issues.
3
App. 390

board shall contact the voter by phone to inform the voter that the county board has mailed the
voter a cure certification.
If the deficiency cannot be cured, and the voter has an email address on file, the county board shall
notify the voter by email that a new ballot has been issued to the voter. If the voter did not provide
an email address but did provide a phone number, the county board shall contact the voter by phone
to inform the voter that the county board has issued a new ballot by mail.
A county board shall not reissue a ballot on or after Election Day. If there is a curable deficiency,
the county board shall contact voters up until the day before county canvass.

3.2. Receipt of a Cure Certification
The cure certification must be received by the county board of elections by the deadline for receipt
of absentee ballots. The cure certification may be submitted to the county board office by fax,
email, in person, or by mail or commercial carrier. If a voter appears in person at the county board
office, they may also be given, and can complete, a new cure certification.
The cure certification may only be returned by the voter, the voter’s near relative or legal guardian,
or a multipartisan assistance team (MAT). A cure certification returned by any other person is
invalid. It is not permissible for a cure certification to be submitted through a portal or form created
or maintained by a third party. A cure certification may not be submitted simultaneously with the
ballot. Any person who is permitted to assist a voter with their ballot may assist a voter in filling
out the cure certification.

3.3 County Board Review of a Cure Certification
At each absentee board meeting, the county board of elections may consider deficient ballot return
envelopes for which the cure certification has been returned. The county board shall consider together the executed absentee ballot envelope and the cure certification. If the cure certification
contains the voter’s name and signature, the county board of elections shall approve the absentee
ballot. A wet ink signature is not required, but the signature used must be unique to the individual.
A typed signature is not acceptable, even if it is cursive or italics such as is commonly seen with a
program such as DocuSign.

4. Late Absentee Ballots
Voters whose ballots are not counted due to being late shall be mailed a notice stating the reason
for the deficiency. A late civilian ballot is one that received after the absentee-ballot receipt deadline by (1) 5 p.m. on Election Day or (2), if postmarked on or before Election Day and received by
mail by the deadline for receipt of postmarked ballots. Late absentee ballots are not curable.
If a ballot is received after county canvass the county board is not required to notify the voter.

4
App. 391

Exhibit E

App. 392

Park, Ryan
From:
Sent:
To:
Cc:

Subject:

Burchfield, Bobby <BBurchfield@KSLAW.com>
Saturday, October 17, 2020 10:06 PM
Park, Ryan; Peters, Alec; David Thompson
Burton Craige; Narendra Ghosh; Paul Smith; melias@perkinscoie.com;
UNkwonta@perkinscoie.com; Glickman, Ariel (Perkins Coie); Jasrasaria, Jyoti (Perkins
Coie); Madduri, Lalitha (Perkins Coie); nathan.huff@phelps.com; Nicole Moss; Pete
Patterson; stobin@taylorenglish.com; Leland, Matthew; Steed, Terence
RE: NC Court of Appeals P20-513—State Board Defendants' Response in Opposition to
Intervenors' Petitions for Writs of Supersedeas

In these circumstances, my clients will not oppose the draft cure Memo you sent, Numbered Memo 2020‐19 (version 3),
but reserve their rights to challenge this cure procedure as applied if it is being used to evade the witness requirement.

1

App. 393

No.
SUPREME COURT OF NORTH CAROLINA
************************************
)
NORTH CAROLINA ALLIANCE
)
)
FOR RETIRED AMERICANS;
)
BARKER FOWLER; BECKY
)
JOHNSON; JADE JUREK;
)
ROSALYN KOCIEMBA; TOM
)
KOCIEMBA; SANDRA MALONE;
)
and CAREN RABINOWITZ,
)
)
Plaintiffs,
)
v.
)
From Wake County
)
THE NORTH CAROLINA STATE
)
No. P20-513
BOARD OF ELECTIONS; and
)
No. 20 CVS 8881
DAMON CIRCOSTA, Chair of the
)
North Carolina State Board of
)
Elections,
)
)
Defendants,
)
)
PHILIP E. BERGER in his official
capacity as President Pro Tempore of )
)
the North Carolina Senate; and
TIMOTHY K. MOORE in his official )
)
capacity as Speaker of the North
)
Carolina House of Representatives,
)
)
Intervenor-Defendants,
)
and
)
)
REPUBLICAN NATIONAL
COMMITTEE; NATIONAL
)
REPUBLICAN SENATORIAL
)
)
COMMITTEE; NATIONAL
)
REPUBLICAN CONGRESSIONAL
COMMITTEE; DONALD J. TRUMP )
FOR PRESIDENT, INC; and
)
NORTH CAROLINA REPUBLICAN )
)
PARTY,

App. 394

Republican Committee
Intervenor-Defendants.

)
)
)

***************************************************
PETITION FOR WRIT OF SUPERSEDEAS AND
MOTION FOR TEMPORARY STAY
***************************************************

App. 395

INDEX
Page
TABLE OF AUTHORITIES ......................................................... iv
INTRODUCTION .......................................................................... 2
FACTS ............................................................................................ 7
I.

NORTH CAROLINA’S EFFORTS TO EXPAND
VOTING OPPORTUNITIES IN LIGHT OF THE
COVID-19 PANDEMIC ................................................. 7

II.

PROCEDURAL HISTORY ............................................ 8

REASONS WHY THE COURT SHOULD CONSIDER
THIS PETITION.......................................................................... 11
REASONS WHY THE WRIT SHOULD ISSUE ......................... 12
I.

LEGISLATIVE DEFENDANTS ARE LIKELY TO
SUCCEED ON THE MERITS. ................................... 13
A. The One-Judge Superior Court Did Not Have
Jurisdiction To Enter The Proposed Consent
Judgment Because Plaintiffs’ Challenges To The
Various Election Laws Are Facial. ........................ 15
B. The Consent Judgment Must Be Vacated Because
Legislative Defendants’ Consent, A Necessary
Component, Is Lacking. ......................................... 17
C. The Consent Judgment Must Be Vacated Because
It Is Unconstitutional. ............................................ 19
1. The Consent Judgment Violates The
Elections Clause. ......................................... 19
2. The Consent Judgment Violates The Equal
Protection Clause......................................... 25

App. 396

- ii i. The Consent Judgment Subjects
Voters In The Same Election To
Different Regulations. ...................... 26
ii. The Consent Judgment Will Dilute
Lawfully Cast Votes. ......................... 27
D. The Consent Judgment Must Be Vacated Because
It Is Not Fair, Adequate, And Reasonable. ........... 29
1. Plaintiffs’ Claims Were Unlikely To Succeed
On The Merits. ............................................. 29
i. Plaintiffs Cannot Possibly Succeed
In Showing That The Challenged
Statutes Are Unconstitutional In All
Of Their Challenged Applications. ... 29
ii. Plaintiffs’ Challenges Violate The
Purcell Principle................................ 33
iii. Plaintiffs Failed To Exercise
Appropriate Dispatch In Raising Their
Challenges. ........................................ 35
iv. Plaintiffs’ Challenges SecondGuessing State Officials’ Responses
To The Pandemic Are Not
Appropriate. ..................................... 37
v. Plaintiffs’ Challenges Related To
Absentee Voting Are All Subject To
Rational-Basis Review. ..................... 39
vi. If The Anderson-Burdick Balancing
Framework Applies, The Challenged
Provisions Are Constitutional. ......... 44
a. Postage Expenses. .................. 46
b. Ballot Receipt Deadline. ........ 48

App. 397

- iii c. Witness Requirement............. 51
d. Early Voting. .......................... 54
e. Ballot Harvesting Ban. .......... 57
vii. Plaintiffs’ Free Elections Clause
Claim Was Unlikely To Succeed. ..... 60
2. The Relief Afforded By The Consent
Judgment Is Vastly Disproportionate
To The Purported Harm. ............................. 63
E. The Consent Judgment Must Be Vacated Because
It Is Against The Public Interest. .......................... 64
F. The Consent Judgment Must Be Vacated Because
There Is A Substantial Risk It Is The Product Of
Collusion. ................................................................ 66
II.

THE SUPERIOR COURT’S CONSENT
JUDGMENT WILL CAUSE IRREPARABLE
INJURY AND IS CONTRARY TO THE BALANCE
OF THE EQUITIES. ................................................... 69

MOTION TO STAY ..................................................................... 70
CONCLUSION ............................................................................ 71
VERIFICATION .......................................................................... 73
CERTIFICATE OF SERVICE ..................................................... 74

App. 398

- iv TABLE OF AUTHORITIES
Page

Case

Abbott v. Highlands, 52 N.C. App. 69,
277 S.E.2d 820 (1981)............................................................ 12
Abbott v. Perez, 138 S. Ct. 2305 (2018) ....................................... 19
Adams v. N.C. Dep’t of Nat. & Econ. Res., 295 N.C. 683, 249
S.E.2d 402 (1978) ......................................................................... 22
Anderson v. Celebrezze, 460 U.S. 780 (1983) .............................. 44
Anderson v. United States, 417 U.S. 211 (1974) ........................ 28
Appeal of Barbour, 112 N.C. App. 368,
436 S.E.2d 169 (1993)............................................................. 64
Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n,
576 U.S. 787 (2015) .................................................... 17, 20, 22
Armour v. City of Indianapolis, 566 U.S. 673 (2012) ................. 43
Baker v. Carr, 369 U.S. 186 (1962) ............................................. 28
Burdick v. Takushi, 504 U.S. 428 (1992) ........................ 39, 40, 44
Bush v. Gore, 531 U.S. 98 (2000).................................... 25, 26, 27
Califano v. Yamasaki, 442 U.S. 682 (1979) ................................ 64
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020) ............................................................ 37
Charfauros v. Bd. of Elections,
249 F.3d 941 (9th Cir. 2001) ................................................. 25
Clark v. Meyland, 261 N.C. 140, 134 S.E.2d 168 (1964) ........... 61
Clarno v. People Not Politicians Or., No. 20A21,
2020 U.S. LEXIS 3631 (U.S. Aug. 11, 2020) ........................ 38

App. 399

- vCommon Cause of Ind. v. Lawson, No. 20-2911, 2020 U.S. App.
LEXIS 32259 (7th Cir. Oct. 13, 2020) ......................................... 48
Commonwealth ex rel. Dummit v. O’Connell,
181 S.W.2d 691 (Ky. Ct. App. 1944) ................................ 20, 21
Cooper v. Berger, 370 N.C. 392, 809 S.E.2d 98 (2018).......... 22, 23
Craver v. Craver, 298 N.C. 231, 258 S.E.2d 357 (1979) ............. 12
Crawford v. Marion Cnty. Election Bd.,
553 U.S. 181 (2008) .......................................................... 32, 46
Da Silva v. WakeMed, 846 S.E.2d 634 (N.C. 2020) .................... 14
DCCC v. Ziriax, No. 20-cv-211, 2020 U.S. Dist. LEXIS 170427
(N.D. Okla. Sept. 17, 2020) ........................................ 46, 47, 52
Democracy N.C. v. N.C. State Bd. of Elections,
No. 20-cv-457, 2020 U.S. Dist. LEXIS 138492
(M.D.N.C. Aug. 4, 2020) ....................................... 34, 36, 52, 63
Democratic Nat’l Comm. v. Bostelmann, No. 20-2835, 2020 U.S.
App. LEXIS 31950 (7th Cir. Oct. 8, 2020) .................................. 48
Doe v. Reed, 561 U.S. 186 (2010) ................................................. 15
Dunn v. Blumstein, 405 U.S. 330 (1972)......................... 25, 26, 28
Dunn v. Carey, 808 F.2d 555 (7th Cir. 1986) .............................. 67
FCC v. Beach Commc’ns, Inc., 508 U.S. 307 (1993) ................... 43
Flinn v. FMC Corp., 528 F.2d 1169 (4th Cir. 1975) ............. 14, 62
Goosby v. Osser, 409 U.S. 512 (1973) .......................................... 41
Gray v. Sanders, 372 U.S. 368 (1963) ........................................ 25
Greater Birmingham Ministries v. Sec’y of State for Ala.,
966 F.3d 1202 (11th Cir. 2020) ............................................. 32

App. 400

- vi Grossman v. Sec’y of the Commonwealth, 151 N.E.3d 429,
2020 Mass. LEXIS 510 (Mass. 2020) ............................... 49, 50
Guilford County v. Eller, 146 N.C. App. 579,
553 S.E.2d 235 (2001)............................................................ 17
Gwinnett Cnty. NAACP v. Gwinnett Cnty. Bd. of Registration
& Elections, 446 F. Supp. 3d 1111 (2020).............................. 56
Hatfield v. Scaggs, 133 S.E. 109 (W. Va. 1926) ......................... 61
Hollingsworth v. Perry, 570 U.S. 693 (2013) ............................. 17
Home Indem. Co. v. Hoechst Celanese Corp.,
128 N.C. App. 113, 493 S.E.2d 806 (1997)............................ 12
Huntington Props., LLC v. Currituck County,
153 N.C. App. 218, 569 S.E.2d 695 (2002)............................. 43
Husted v. Ohio State Conf. of the NAACP,
573 U.S. 988 (2014) ................................................................ 34
In re Opinion of Justices, 45 N.H. 595 (1864) ............................. 21
In re Plurality Elections, 8 A. 881 (R.I. 1887) ............................. 21
Jacksonville Coal. for Voter Prot. v. Hood,
351 F. Supp. 2d 1326 (M.D. Fla. 2004) .................................. 56
James v. Bartlett, 359 N.C. 260, 607 S.E.2d 638 (2005) ............ 45
Jenkins v. State Bd. of Elections of N.C.,
180 N.C. 169, 104 S.E. 346 (1920) ........................................ 40
Karcher v. May, 484 U.S. 72 (1987) ............................................ 17
Kasper v. Bd. of Election Comm’rs of Chi.,
814 F.2d 332 (7th Cir. 1987) .................................................. 67
Kimberley Rice Kaestner 1992 Fam. Tr. v. N.C. Dep’t of Revenue,
371 N.C. 133, 814 S.E.2d 43 (2018) ....................................... 30

App. 401

- vii Kishore v. Whitmer, No. 20-1661,
2020 U.S. App. LEXIS 26827 (6th Cir. Aug. 24, 2020) ......... 36
Kramer v. Union Free Sch. Dist. No. 15,
395 U.S. 621 (1969) ................................................................ 41
League of United Latin Am. Citizens, Council No. 4434
v. Clements, 999 F.2d 831 (5th Cir. 1993) ............................. 24
League of Women Voters of Mich. v. Benson,
No. 17-cv-14148, 2019 U.S. Dist. LEXIS 228463
(E.D. Mich. Feb. 1, 2019)........................................................ 21
League of Women Voters of Ohio v. Brunner,
548 F.3d 463 (6th Cir. 2008) .................................................. 26
Libertarian Party of N.C. v. State,
365 N.C. 41, 707 S.E.2d 199 (2011) ............... 39, 40, 45, 48, 51
Libertarian Party of Va. v. Alcorn,
826 F.3d 708 (4th Cir. 2016) ............................................ 45, 58
Little v. Reclaim Idaho, 140 S. Ct. 2616 (2020) .................... 36, 38
Lord v. Veazie, 49 U.S. 251 (1850) .............................................. 66
Mays v. LaRose, 951 F.3d 775 (6th Cir. 2020) ...................... 40, 51
McDonald v. Bd. of Election Comm’rs of Chi.,
394 U.S. 802 (1969) .................................................... 40, 41, 42
McPherson v. Blacker, 146 U.S. 1 (1892) ................................... 20
Merrill v. People First of Ala., No. 19A1063,
2020 U.S. LEXIS 3541 (U.S. July 2, 2020) ............................ 38
Moore v. Charlotte-Mecklenburg Bd. of Educ.,
402 U.S. 47 (1971) .................................................................. 66
New Ga. Project v. Raffensperger, No. 20-cv-1986, 2020 U.S.
Dist. LEXIS 159901 (N.D. Ga. Aug. 31, 2020) ................ 47, 48

App. 402

- viii N. Iredell Neighbors for Rural Life v. Iredell County,
196 N.C. App. 68, 674 S.E.2d 436 (2009)......................... 12, 35
N.C. Ins. Guar. Ass’n v. Weathersfield Mgmt., LLC,
836 S.E.2d 754 (N.C. Ct. App. 2019)...................................... 14
Neuse River Found., Inc. v. Smithfield Foods, Inc.,
155 N.C. App. 110, 574 S.E.2d 48 (2002)............................... 66
North Carolina v. League of Women Voters of N.C.,
574 U.S. 927 (2014) ............................................................... 34
Pa. Democratic Party v. Boockvar, No. 133 MM 2020,
2020 Pa. LEXIS 4872 (Pa. Sept. 17, 2020) ............................ 50
Pisano v. Strach, 743 F.3d 927 (4th Cir. 2014)..................... 43, 48
Purcell v. Gonzalez, 549 U.S 1 (2006) ............................. 33, 34, 65
Quince Orchard Valley Citizens Ass’n v. Hodel,
872 F.2d 75 (4th Cir. 1989) ................................................... 35
Ragsdale v. Turnock, 941 F.2d 501 (7th Cir. 1991) .............. 66, 67
Republican Nat’l Comm. v. Democratic Nat’l Comm.,
140 S. Ct. 1205 (2020) ................................................ 33, 38, 65
Respect Me. PAC v. McKee, 622 F.3d 13 (1st Cir. 2010) ............. 64
Reynolds v. Sims, 377 U.S. 533 (1964)................ 25, 26, 27, 28, 33
Riley v. Kennedy, 553 U.S. 406 (2008) ........................................ 33
S. Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020) ............................................................ 37
Stanson v. Mott, 551 P.2d 1 (Cal. 1976) ...................................... 61
State ex rel. Beeson v. Marsh, 34 N.W.2d 279 (Neb. 1948)........ 20
State v. Berger, 368 N.C. 633, 781 S.E.2d 248 (2016) ............... 20

App. 403

- ix State v. Grady, 372 N.C. 509,
831 S.E.2d 542 (2019)....................................... 4, 13, 15, 29, 30
State v. Hicks, 333 N.C. 467, 428 S.E.3d 167 (1993) ............ 40, 41
Tex. Democratic Party v. Abbott,
961 F.3d 389 (5th Cir. 2020) ................................ 38, 41, 42, 64
Tex. Democratic Party v. Abbott, No. 20-50407,
2020 U.S. App. LEXIS 28799
(5th Cir. Sept. 10, 2020) ......................................................... 42
Thompson v. DeWine, 959 F.3d 804
(6th Cir. 2020)....................................................... 34, 38, 42, 64
United States v. BP Amoco Oil PLC,
277 F.3d 1012 (8th Cir. 2002) ................................................ 14
United States v. City of Miami,
664 F.2d 435 (5th Cir. 1981) ................................................. 13
United States v. City of Waterloo,
No. 15-cv-2087, 2016 U.S. Dist. LEXIS 7224
(N.D. Iowa Jan. 20, 2016)....................................................... 66
United States v. Classic, 313 U.S. 299 (1941) ............................. 25
United States v. Colorado,
937 F.2d 505 (10th Cir. 1991) .......................................... 13, 66
United States v. North Carolina,
180 F.3d 574 (4th Cir. 1999) .................................... 4, 5, 13, 14
Va. House of Delegates v. Bethune-Hill,
139 S. Ct. 1945 (2019) ............................................................ 17
Veasey v. Perry, 135 S. Ct. 9 (2014) ............................................. 34
Whitley v. Cranford, 119 S.W.3d 28 (Ark. 2003) ....................... 61
Wood v. Meadows, 207 F.3d 708 (4th Cir. 2000) ........................ 45

App. 404

- xConstitutions
U.S. CONST. amend. XIV, § 1 ....................................................... 25
U.S. CONST. art. I, § 4 .................................................................... 3
U.S. CONST. art. I, § 4, cl. 1.................................................... 19, 21
N.C. CONST. art. I, § 6 ............................................................ 20, 21
N.C. CONST. art. I, § 10 ................................................................ 60
N.C. CONST. art. I, § 12 ................................................................ 39
N.C. CONST. art. I, § 14 ................................................................ 39
N.C. CONST. art. I, § 19 ................................................................ 39
N.C. CONST. art. II, § 1 ......................................................... 19, 21
N.C. CONST. art. IV, § 1 ............................................................... 21
Statutes
N.C. GEN. STAT. § 1A-1, Rule 24 .............................................. 9, 17
N.C. GEN. STAT. § 1A-1, Rule 42 .............................................. 4, 13
N.C. GEN. STAT. § 1A-1, Rule 42(b)(4) ........................................... 9
N.C. GEN. STAT. § 1-72.2(a).......................................................... 69
N.C. GEN. STAT. § 1-72.2(b)..................................................... 9, 17
N.C. GEN. STAT. § 1-81.1(a1).................................................... 4, 13
N.C. GEN. STAT. § 1-267.1 .............................................................. 9
N.C. GEN. STAT. § 1-267.1(a1)............................................ 4, 13, 15
N.C. GEN. STAT. § 120-32.6(b)............................................ 4, 13, 17
N.C. GEN. STAT. § 163-166.9 ....................................................... 55

App. 405

- xi N.C. GEN. STAT. § 163-19 ............................................................. 23
N.C. GEN. STAT. § 163-19(a)......................................................... 23
N.C. GEN. STAT. § 163-22(a)......................................................... 23
N.C. GEN. STAT. § 163-22.2 .................................................... 10, 18
N.C. GEN. STAT. § 163-27.1 .................................................... 10, 23
N.C. GEN. STAT. § 163-226(a)....................................................... 43
N.C. GEN. STAT. § 163-226.3 ........................................................ 27
N.C. GEN. STAT. § 163-226.3(a)(5) ............................................... 57
N.C. GEN. STAT. § 163-226.3(c) .................................................... 43
N.C. GEN. STAT. § 163-227.10(a).................................................. 34
Rules
N.C. R. APP. P. 8 ........................................................................... 11
N.C. R. App. P. 23(a)(1) ................................................... 10, 11, 12
N.C. R. App. P 23(a)(2) ................................................................ 12
N.C. R. APP. P. 23(e) ................................................................. 7, 70
8 N.C. ADMIN. CODE 1.0106 ........................................................ 24
Other Authorities
2020 MASS. ACTS ch. 115, sec. 6(h)(3) ......................................... 50
Absentee Data, N.C. STATE BD. OF ELECTIONS (Oct. 21, 2020),
https://bit.ly/33SKzAw ............................................................ 26, 34, 65
Bipartisan Elections Act of 2020, 2020 N.C. Sess. Laws 2020-17
(“HB1169”) § 1.(a) .............................................................. 3, 16, 67
HB1169 § 1.(b) ............................................................................... 3

App. 406

- xii HB1169 § 2.(a) ............................................................................... 3
HB1169 § 4 ..................................................................................... 3
HB1169 § 7.(a) ............................................................................... 3
HB1169 § 11 ................................................................................... 3
Comm’n on Fed. Election Reform, Building Confidence in U.S.
Elections, CTR. FOR DEMOCRACY & ELECTION MGMT., AM. UNIV.
(Sept. 2005), https://bit.ly/2YxXVRh ..................................... 44, 58
Detailed Instructions for Voting by Mail, N.C. STATE BD. OF
ELECTIONS, https://bit.ly/2E4ZxL7
(last accessed Oct. 21, 2020) ........................................................ 49
FAQs: Voting by Mail in North Carolina in 2020, N.C. STATE BD.
OF ELECTIONS (Sept. 1, 2020), https://bit.ly/30vgciI ................... 52
Judicial Voter Guide 2020, N.C. STATE BD. OF ELECTIONS,
https://bit.ly/2EPP72k (last accessed Oct. 21, 2020) ................. 49
Kathy Leung et al., No Detectable Surge in SARS-CoV-2
Transmission Attributable to the April 7, 2020 Wisconsin
Election, 110 AM. J. PUB. HEALTH 1169 (2020),
https://bit.ly/3gKKWKr................................................................ 55
Michael W. McConnell, Why Hold Elections? Using Consent
Decrees to Insulate Policies from Political Change,
1987 U. CHI. LEGAL F. 295 ........................................................... 67
N.C. State Bd. of Elections, Numbered Memo 2020-18
(Aug. 14, 2020), https://bit.ly/3jp2kO9 ........................................ 55
N.C. State Bd. of Elections, Numbered Memo 2020-20
(Sept. 1, 2020), https://bit.ly/32Onr5M ........................... 49, 55, 56
Nsikan Akpan, What Fauci Says the U.S. Really Needs To
Reopen Safely, NAT’L GEOGRAPHIC (Aug. 13, 2020),
https:/on.natgeo.com/2EQZxhM .................................................. 55

App. 407

- xiii JOHN V. ORTH & PAUL MARTIN NEWBY, THE NORTH CAROLINA
STATE CONSTITUTION (2d ed., 2013) ............................................ 60
John V. Orth, North Carolina Constitutional History,
70 N.C. L. REV. 1759 (1972) ......................................................... 60
VOPP: Table 12: States with Postage-Paid Election Mail,
NAT’L CONF. OF STATE LEGISLATURES (Sept. 14, 2020),
https://bit.ly/3hSTFDm ............................................................... 46
VOPP: Table 14: How States Verify Voted Absentee Ballots,
NAT’L CONF. OF STATE LEGISLATURES (Apr. 17, 2020),
https://bit.ly/33LAqay .................................................................. 44
Vote Early In-Person, N.C. STATE BD. OF ELECTIONS
(Sept. 21, 2020), https://bit.ly/2Geq3ms ...................................... 35

App. 408

No.
SUPREME COURT OF NORTH CAROLINA
************************************
)
NORTH CAROLINA ALLIANCE
)
)
FOR RETIRED AMERICANS;
)
BARKER FOWLER; BECKY
)
JOHNSON; JADE JUREK;
)
ROSALYN KOCIEMBA; TOM
)
KOCIEMBA; SANDRA MALONE;
)
and CAREN RABINOWITZ,
)
)
Plaintiffs,
)
v.
)
From Wake County
)
THE NORTH CAROLINA STATE
)
No. P20-513
BOARD OF ELECTIONS; and
)
No. 20 CVS 8881
DAMON CIRCOSTA, Chair of the
)
North Carolina State Board of
)
Elections,
)
)
Defendants,
)
)
PHILIP E. BERGER in his official
capacity as President Pro Tempore of )
)
the North Carolina Senate; and
TIMOTHY K. MOORE in his official )
)
capacity as Speaker of the North
)
Carolina House of Representatives,
)
)
Intervenor-Defendants,
)
and
)
)
REPUBLICAN NATIONAL
COMMITTEE; NATIONAL
)
REPUBLICAN SENATORIAL
)
)
COMMITTEE; NATIONAL
)
REPUBLICAN CONGRESSIONAL
COMMITTEE; DONALD J. TRUMP )
FOR PRESIDENT, INC; and
)
NORTH CAROLINA REPUBLICAN )
)
PARTY,

App. 409

-2-

Republican Committee
Intervenor-Defendants.

)
)
)

***************************************************
PETITION FOR WRIT OF SUPERSEDEAS AND
MOTION FOR TEMPORARY STAY
***************************************************
TO THE HONORABLE SUPREME COURT OF NORTH CAROLINA:
Intervenor-Defendants Philip E. Berger, in his official capacity as President
Pro Tempore of the North Carolina Senate, and Timothy K. Moore, in his official
capacity as Speaker of the North Carolina House of Representatives (together,
“Legislative Defendants”), respectfully petition this Court to issue a temporary stay
and a writ of supersedeas.
INTRODUCTION
On October 2, 2020, the Wake County Superior Court, the Honorable George
B. Collins, Jr. presiding, entered an order approving a proposed consent judgment
between Plaintiffs and the North Carolina State Board of Elections (“NCSBE”) that
radically changes North Carolina election procedures in the midst of an election
in which hundreds of thousands of citizens have already voted and in
contradiction to duly enacted North Carolina law. Absent immediate relief, the
implementation of the consent judgment will engender substantial confusion among
both voters and election officials, create considerable administrative burdens, and
produce disparate treatment of voters in the ongoing election—all after in-person
early voting has already started and a mere 13 days from election day. Indeed, the

App. 410

-3State Board has already informed the Fourth Circuit that “the North Carolina Court
of Appeals denied the petitions for writ of supersedeas and dissolved a temporary
administrative stay” in this case and that accordingly it had “instructed county
boards of elections to implement all three Numbered Memoranda” that are reflected
in the consent judgment. See Defendants’ 28(j) Letter, ECF No. 21, Moore v. Circosta,
No. 20-2107 (4th Cir. Oct. 19, 2020) (attached as Doc. Ex. 1181).
In asking the Superior Court to enter the consent judgment, the NCSBE joined
Plaintiffs in seeking to rewrite the North Carolina General Assembly’s carefully
considered, balanced structure of election laws and substitute their judgment instead.
But the U.S. Constitution expressly vests the General Assembly with the authority
to prescribe the times, places, and manner of holding elections for federal office in the
State of North Carolina, subject to a legislative check by the U.S. Congress. U.S.
CONST. art. I, § 4. And the General Assembly recently revised the election laws—on
a bipartisan basis—to address concerns related to the COVID-19 pandemic, including
by reducing to one the number of individuals required to witness an absentee ballot,
see Bipartisan Elections Act of 2020, 2020 N.C. Sess. Laws 2020-17 (“HB1169”)
§ 1.(a); expanding the pool of authorized poll workers to include county residents
beyond a particular precinct, id. § 1.(b); allowing absentee ballots to be requested
online, by fax, or by email, id. §§ 2.(a), 7.(a); giving additional time for county boards
to canvass absentee ballots, id. § 4; and providing over $27 million in funding for
election administration, id. § 11.

App. 411

-4Plaintiffs, however, believe they know better than North Carolina’s elected
officials what needs to be done to balance the State’s interests in election
administration, access to the polls, and election integrity during a global pandemic.
Apparently unsatisfied with HB1169, which gives them some, but not all, of what
they seek, Plaintiffs filed suit on August 10, 2020, nearly two months after HB1169
was signed into law. Now pursuant to their consent judgment with the NCSBE, they
have radically changed North Carolina election procedures in contradiction to North
Carolina law, including by extending the absentee ballot receipt deadline and
amending the postmark requirement for ballots received after election day. The
agreement also purported to vitiate the absentee ballot witness requirement, but that
attempt has now been halted by a federal court.
Fortunately for North Carolinians, this Court is likely to vacate the consent
judgment for at least six independent reasons. First, because Plaintiffs assert facial
challenges to the election laws at issue, the single-judge Superior Court did not have
jurisdiction to consider their claims and enter the consent judgment. See State v.
Grady, 372 N.C. 509, 522, 831 S.E.2d 542, 553–54 (2019); N.C. GEN. STAT. §§ 1A-1,
Rule 42, 1-81.1(a1), 1-267.1(a1). Second, Legislative Defendants are necessary parties
to any consent judgment in this case under state law, N.C. GEN. STAT. § 120-32.6(b),
and because they do not consent, the consent judgment must be vacated. Third, the
consent judgment is illegal because it violates the federal Constitution’s Elections
Clause and Equal Protection Clause. Fourth, the consent judgment is not “fair,
adequate, and reasonable,” United States v. North Carolina, 180 F.3d 574, 581 (4th

App. 412

-5Cir. 1999), because Plaintiffs were unlikely to succeed on the merits of their claims
and the relief contemplated by the consent judgment is vastly disproportionate to the
expected harm. Fifth, the consent judgment is against the public interest. And sixth,
there is a risk that the consent judgment is a product of collusion, not an arm’s length
agreement between Plaintiffs and the NCSBE.
Indeed, on October 3, 2020, the District Court for the Eastern District of North
Carolina, recognizing that plaintiffs in a federal suit (including Legislative
Defendants, individual voters, and a congressional candidate) were likely to succeed
on the merits of their claims in that court that the numbered memoranda that
comprise the consent judgment violate the federal Equal Protection Clause, granted
a temporary restraining order enjoining the NCSBE from enforcing them. Order at
12, 19, ECF No. 47, Moore v. Circosta, No. 20-cv-507 (E.D.N.C. Oct. 3, 2020) (attached
as Doc. Ex. 1). And on October 14, 2020, the District Court for the Middle District of
North Carolina, in the same case after transfer, determined that plaintiffs had
demonstrated a likelihood of success on the merits with respect to their Equal
Protection challenge to the absentee ballot receipt deadline extension implemented
through Numbered Memo 2020-22. Memorandum Opinion & Order at 57, ECF No.
74, Moore, No. 20-cv-911 (M.D.N.C. Oct. 14, 2020) (attached as Doc. Ex. 908). These
rulings underscore the unlawful nature of the NCSBE’s actions.
In opposing Legislative Defendants’ motion for a temporary stay pending
appeal and petition for a writ of supersedeas below, the NCSBE attempted to create
a specter of “administrative urgency,” State Board Defendants’ Response in

App. 413

-6Opposition to Intervenors’ Petitions for Writ of Supersedeas at 6, N.C. All. for Retired
Ams. v. N.C. State Bd. of Elections, No. P20-513 (N.C. Ct. App. Oct. 16, 2020)
(attached as Doc. Ex. 1000), alleging that “[u]nless and until the State Board is
permitted to implement the consent judgment approved by the court below, the votes
of thousands of North Carolinians who have already cast their ballots by mail, but
with minor technical deficiencies, will remain in administrative limbo,” id. at 2. But
that claim has been entirely obviated. In an October 18, 2020 letter to the North
Carolina Court of Appeals Clerk of Court, the NCSBE stated that it had reached an
understanding with Legislative Defendants and the Republican National Committee
intervenors to implement a revised Numbered Memo 2020-19 that complies with the
Middle District of North Carolina’s order determining that the absence of a witness
or assistant signature is not a curable defect and that does not refer to the extended
absentee ballot receipt deadline that remains a matter of dispute. See Letter from
Ryan Y. Park to Daniel M. Horne, Jr., Clerk of Court (Oct. 18, 2020) (attached as Doc.
Ex. 1077); Memorandum Opinion & Order, ECF No. 169, Democracy N.C. v. N.C.
State Bd. of Elections, No. 20-cv-457 (M.D.N.C. Oct. 14, 2020) (attached as Doc. Ex.
1115). Consequently, the NCSBE is free to restart the cure process they unilaterally
stopped on October 4, and that is so regardless of whether this Court enters a writ of
supersedeas.
The public interest also favors staying the Superior Court’s judgment, as voters
face a greater risk of irreparable harm if the consent judgment is not stayed.
Regardless of what happens in this or any other lawsuit moving forward, any ballot

App. 414

-7that complies with the statutes and guidance in place when voting started on
September 4 will count. The same cannot be said of votes that would count only under
the consent judgment and the Numbered Memoranda implementing it.
For these and the additional reasons explained below, the consent judgment is
likely to be vacated on appeal. And coupled with the irreparable injury that the
consent judgment inflicts on North Carolina’s ability to hold a safe and fair election
in the midst of a worldwide pandemic, that means that a writ of supersedeas should
issue staying the consent judgment and preserving the status quo it upsets. Because
the relief that has been ordered is extraordinarily important and time-sensitive,
Legislative Defendants also respectfully apply, pursuant to Rule 23(e), for an order
temporarily

staying

enforcement

of

the

consent

judgment

until

determination by this Court of whether it shall issue its writ. A temporary
stay is necessary to prevent irreparable harm while this Court determines whether
it shall issue its writ of supersedeas. In support of their petition and motion,
Legislative Defendants show the following:
FACTS
I.

NORTH CAROLINA’S EFFORTS TO EXPAND VOTING
OPPORTUNITIES IN LIGHT OF THE COVID-19 PANDEMIC
On March 26, 2020, the Executive Director of the NCSBE addressed a letter to

General Assembly members and Governor Cooper requesting various changes to the
State’s election laws to account for the COVID-19 pandemic. See Karen Brinson Bell
Letter (March 26, 2020) (attached as Doc. Ex. 22). The General Assembly responded
by passing bipartisan legislation, HB1169, in mid-June by a total vote of 142–26, and

App. 415

-8it was signed into law by Governor Cooper on June 12. HB1169 altered North
Carolina election law to cope with the pandemic in numerous ways but reflected the
General Assembly’s reasoned decision not to adopt all of Executive Director Bell’s
recommendations.
II.

PROCEDURAL HISTORY
Plaintiffs filed this suit in Wake County Superior Court on August 10, 2020,

nearly two months after HB1169 was signed into law, alleging that several provisions
of North Carolina’s election laws are unconstitutional during the COVID-19
pandemic as violations of the North Carolina Constitution. Specifically, Plaintiffs
challenged
(1) limitations on the number of days and hours of early voting that
counties may offer, N.C.G.S. § 163-227.2(b); (2) the requirement that all
absentee ballot envelopes must be signed by a witness, . . . [HB1169]
§ 1.(a)[;] (3) the State’s failure to provide pre-paid postage for absentee
ballots and ballot request forms during the pandemic, id. § 163231(b)(1)[;] (4) laws requiring county boards of elections to reject
absentee ballots that are postmarked by Election Day but delivered to
county boards more than three days after the election, . . . id. § 163231(b)(2)[;] (5) the practice in some counties of rejecting absentee ballots
for signature defects, or based on an official’s subjective determination
that the voter’s signature on the absentee ballot envelope does not match
the signature on file with election authorities, without providing
sufficient advance notice and an opportunity to cure[;] (6) laws
prohibiting voters from receiving assistance from the vast majority of
individuals and organizations in completing or submitting their
absentee ballot request forms, 2019 N.C. Sess. Laws 2019-239 § 1.3(a)[;]
and (7) laws severely restricting voters’ ability to obtain assistance in
delivering their marked and sealed absentee ballots to county boards,
and imposing criminal penalties for providing such assistance, N.C.G.S.
§ 163-226.3(a)(5).
Am. Compl. ¶ 5 (Aug. 18, 2020).

App. 416

-9Plaintiffs named as defendants the State of North Carolina, the NCSBE, and
Damon Circosta, in his official capacity as chair of the NCSBE. On August 12, 2020,
Legislative Defendants noticed their intervention as of right as agents of the State on
behalf of the General Assembly under N.C. GEN. STAT. §§ 1A-1, Rule 24 and 1-72.2(b).
On August 18, 2020, Plaintiffs filed an Amended Complaint that dropped the State
of North Carolina as a defendant and on the same day moved for a preliminary
injunction of the various election laws and requirements at issue. Not until
September 4, however, did Plaintiffs file their brief and supporting evidence—nearly
a month after filing suit.
After holding a hearing on the nature of Plaintiffs’ constitutional challenges,
on September 24, 2020, the Superior Court determined that Plaintiffs were not
raising facial challenges to the validity of acts of the General Assembly, and therefore
declined to transfer the matter to a three-judge panel of the Superior Court. See N.C.
GEN. STAT. §§ 1-267.1, 1A-1, Rule 42(b)(4).
On September 22, 2020, Plaintiffs and the NCSBE jointly moved the Superior
Court for entry of a proposed consent judgment. The court heard argument on the
motion on October 2, 2020, and it entered an order granting the motion the same day.
The court entered findings of fact and conclusions of law supporting that order on
October 5. The court determined that Plaintiffs were likely to succeed on the merits
of their constitutional claims, Findings of Fact and Conclusions of Law Supporting
October 2, 2020 Order Granting Joint Motion for Entry of Consent Judgment ¶ 17,
N.C. All. for Retired Ams. v. N.C. State Bd. of Elections, No. 20 CVS 8881 (Oct. 5,

App. 417

-102020) (attached as Doc. Ex. 1169); the consent judgment was fair, adequate, and
reasonable because it was not illegal or the product of collusion, id. ¶ 18; the North
Carolina State Board of Elections (“NCSBE”) had authority to enter into the consent
judgment under both N.C. GEN. STAT. § 163-22.2 and § 163-27.1, id. ¶¶ 22–25;
Plaintiffs Berger and Moore, as statutory representatives of the General Assembly’s
interests in this case, were not necessary parties to the consent judgment, id. ¶ 26;
and the consent judgment and the Memoranda at issue were consistent with both the
North Carolina Constitution and the U.S. Constitution, neither violating the
Elections Clause nor the Equal Protection Clause, id. ¶¶ 29–31. The court also
declined to grant Legislative Defendants’ request that the court stay enforcement of
the consent judgment pending appeal by entering the judgment. Legislative
Defendants filed their Notice of Appeal from the trial court’s judgment on October 6,
2020. Notice of Appeal, N.C. All. for Retired Ams. v. N.C. State Bd. of Elections (Oct.
6, 2020) (attached as Doc. Ex. 1187).
Legislative Defendants renewed their request to stay enforcement of the
consent judgment pending appeal on October 7, 2020. Because Plaintiffs and the
NCSBE opposed Legislative Defendants’ motion, the Court set a hearing for Friday,
October 16, 2020, and denied the motion at the end of the hearing.
Legislative Defendants also filed a petition for writ of supersedeas and motion
for temporary stay with the Court of Appeals. That petition was dismissed without
prejudice on October 6, 2020 for failure to comply with Rule of Appellate Procedure
23(a)(1). Legislative Defendants therefore again sought a writ of supersedeas and

App. 418

-11temporary stay from the Court of Appeals on October 9, 2020, only to have their
petition dismissed again on October 13, 2020 for failure to comply with Rule 23(a)(1)’s
requirement that an appeal be taken. That same day, Legislative Defendants cured
the issue with their petition by attaching their notice of appeal, and the Court of
Appeals granted it in part, temporarily staying the consent judgment pending a
ruling on the petition for a writ of supersedeas. Order, N.C. All. for Retired Ams. v.
N.C. State Bd. of Elections, No. P20-513 (N.C. Ct. App. Oct. 15, 2020) (attached as
Doc. Ex. 1157). On October 19, 2020, the Court of Appeals denied the motion and
dissolved the temporary stay. Order, N.C. All. for Retired Ams. v. N.C. State Bd. of
Elections, No. P20-513 (N.C. Ct. App. Oct. 19, 2020) (attached as Doc. Ex. 1160).
Accordingly, Legislative Defendants now petition this Court for a writ of
supersedeas pursuant to Rule of Appellate Procedure 23 to stay enforcement of the
consent judgment pending appeal, and further move the Court to temporarily stay
the consent judgment, on an emergency basis, pending its decision whether to issue
a writ of supersedeas. See N.C. R. App. P. 8.
REASONS WHY THE COURT SHOULD CONSIDER THIS PETITION
Rule 23(a)(1) explicitly provides that “[a]pplication may be made to the
appropriate appellate court for a writ of supersedeas to stay the execution or
enforcement of any judgment, order, or other determination of a trial tribunal”
provided that “a stay order or entry has been sought by the applicant by deposit of
security or by motion in the trial tribunal and such order or entry has been denied or
vacated by the trial tribunal” or “extraordinary circumstances make it impracticable

App. 419

-12to obtain a stay by deposit of security or by application to the trial tribunal for a stay
order.” N.C. R. App. P. 23(a)(1). Rule 23(a)(2) further provides that “no petition will
be entertained by the Supreme Court unless the application has been made first to
the Court of Appeals and denied by that court.” Legislative Defendants did so petition
the Court of Appeals and that petition was denied. Doc. Ex. 1161.
REASONS WHY THE WRIT SHOULD ISSUE
A writ of supersedeas should issue when justice so requires, Rule 23(c), and its
purpose is “to preserve the Status quo pending the exercise of appellate jurisdiction,”
Craver v. Craver, 298 N.C. 231, 238, 258 S.E.2d 357, 362 (1979). There is limited
authority on the legal standard that governs the availability of a writ of supersedeas
and temporary stay pending appeal, but what precedent exists supports the
application of the familiar test balancing (1) the petitioner’s likelihood of success on
the merits of the appeal, (2) whether irreparable injury will occur absent a stay, and
(3) whether the balancing of the equities supports temporary relief preserving the
status quo during the appeal. See Abbott v. Highlands, 52 N.C. App. 69, 79, 277 S.E.2d
820, 827 (1981) (stay appropriate where “there [was] some likelihood that plaintiffs
would have prevailed on appeal and thus been irreparably injured”); Home Indem.
Co. v. Hoechst Celanese Corp., 128 N.C. App. 113, 117–19, 493 S.E.2d 806, 809–11
(1997) (stay appropriate where failure to stay enforcement “would work a substantial
injustice”); see also N. Iredell Neighbors for Rural Life v. Iredell Cnty., 196 N.C. App.
68, 79, 674 S.E.2d 436, 443 (2009). Here, each of these factors favors the grant of a
temporary stay and writ of supersedeas preserving the status quo pending appeal.

App. 420

-13I.

LEGISLATIVE DEFENDANTS ARE LIKELY TO SUCCEED ON THE
MERITS.
Legislative Defendants are likely to succeed on the merits of their appeal for

no fewer than six independent reasons, any of which is dispositive. First, because
Plaintiffs assert facial challenges to the election laws at issue, the single-judge
Superior Court did not have jurisdiction to consider their claims. See Grady, 372 N.C.
at 522; N.C. GEN. STAT. §§ 1A-1, Rule 42, 1-81.1(a1), 1-267.1(a1). Second, Legislative
Defendants are necessary parties to any consent judgment in this case under state
law, N.C. GEN. STAT. § 120-32.6(b), and because they do not consent, the consent
judgment must be vacated. Third, the consent judgment is illegal because it violates
the federal Constitution’s Elections Clause and Equal Protection Clause. Fourth, the
consent judgment is not “fair, adequate, and reasonable,” North Carolina, 180 F.3d
at 581, because the Plaintiffs were unlikely to succeed on the merits of their claims
and the relief contemplated by the consent judgment is vastly disproportionate to the
expected harm. Fifth, the consent judgment is against the public interest. And sixth,
the evidence indicates that the consent judgment is a product of collusion, not an
arm’s length agreement between Plaintiffs and the NCSBE.
In considering whether to enter a consent judgment, a court must examine it
“carefully” to ensure that its terms are “fair, adequate, and reasonable.” United States
v. City of Miami, 664 F.2d 435, 440–41 (5th Cir. 1981) (en banc) (Rubin, J.,
concurring). The court also “must ensure that the agreement is not illegal, a product
of collusion, or against the public interest.” United States v. Colorado, 937 F.2d 505,
509 (10th Cir. 1991). Examination of a plaintiff’s likelihood of success on the merits

App. 421

-14is a necessary component to consideration of whether a consent judgment should
enter. In fact, the merits are “[t]he most important factor” in determining whether
the consent judgment is fair, adequate, and reasonable. Flinn v. FMC Corp., 528 F.2d
1169, 1172 (4th Cir. 1975). The Court must “consider[] the underlying facts and legal
arguments” that support or undermine the proposal. United States v. BP Amoco Oil,
277 F.3d 1012, 1019 (8th Cir. 2002). While courts need not conduct a full-blown trial,
they must “reach ‘an intelligent and objective opinion of the probabilities of ultimate
success should the claim be litigated.’” Flinn, 528 F.2d at 1173. A lower court’s
decision to accept or reject a consent judgment is reviewed for abuse of discretion. See
North Carolina, 180 F.3d at 577, 581. “However, when the pertinent inquiry on
appeal is based on a question of law—such as whether the trial court properly
interpreted and applied the language of a statute—[this Court] conduct[s] de novo
review.” Da Silva v. WakeMed, 846 S.E.2d 634, 638 (N.C. 2020). Furthermore, “an
error of law is an abuse of discretion.” Id. at 638 n.2. As explained below, because the
consent judgment here cannot meet the standards necessary for its entry, the
Superior Court erred as a matter of law and abused its discretion in entering it. 1

While Legislative Defendants recognize that this Court’s authority to enter a consent
judgment is governed by State, not federal, law, Legislative Defendants’ citations to federal
cases as persuasive authority on this point are appropriate given the lack of authoritative
precedent from the North Carolina courts in this area. See N.C. Ins. Guar. Ass’n v.
Weathersfield Mgmt., LLC, 836 S.E.2d 754, 758 (N.C. Ct. App. 2019) (“When this Court
reviews an issue of first impression, it is appropriate to look to decisions from other
jurisdictions for persuasive guidance.”).
1

App. 422

-15A. The One-Judge Superior Court Did Not Have Jurisdiction To Enter
The Proposed Consent Judgment Because Plaintiffs’ Challenges To
The Various Election Laws Are Facial.
Plaintiffs’ attempt to use the courts to enact programmatic, substantial
changes to North Carolina’s election law was statutorily required to be heard before
a three-judge panel of the Superior Court because Plaintiffs’ claims are facial. See
N.C. GEN. STAT. § 1-267.1(a1). In their Amended Complaint, Plaintiffs sought an
order “permitting counties to expand the early voting days and hours during the
pandemic,” “suspending the Witness Requirement for single-person or single-adult
households,” “requiring the State to provide pre-paid postage on all absentee ballots
and ballot request forms,” “requiring election officials to count all absentee ballots
mailed through USPS and put in the mail by Election Day if received by county
boards up to nine days after Election Day,” and allowing voters to obtain assistance
from third parties in completing and submitting their absentee ballot applications
and in delivering completed ballots to election officials. Am. Compl. ¶ 7. Plaintiffs
explicitly sought this relief not only for themselves but also for “all other eligible
North Carolinians.” Id. ¶ 2. To the extent these claims seek relief for parties beyond
the actual Plaintiffs in this case, they are facial in nature. See Grady, 372 N.C. at
546–47 (citing Doe v. Reed, 561 U.S. 186, 194 (2010)).
What is more, even if the facial nature of Plaintiffs’ claims were not clear from
the face of their complaint, it is clearly established by the relief contained in the
consent judgment, which is to be effectuated through the issuance of Numbered
Memos to all 100 county boards of elections throughout the state. See Stipulation and
Consent Judgment at 15–17, N.C. All. for Retired Ams. v. N.C. State Bd. of Elections,

App. 423

-16No. 20 CVS 8881 (Wake Cnty. Super. Ct. Oct. 2, 2020) (“Consent Judgment”)
(attached as Doc. Ex. 29). Indeed, two limitations on the relief sought that Plaintiffs
seized upon to assert that their claims are as applied—the limitation of the challenge
to the witness requirement to individuals who do not reside with another adult and
the limitation of the challenge to the ballot receipt deadline to ballots sent through
the U.S. Postal Service (“USPS”), see Plaintiffs’ Response to Intervenor-Defendants’
Motion & Cross-Motion for Recommendation for Rule 2.1 Designation at 3 (Aug. 24,
2020) (attached as Doc. Ex. 69)— disappeared in the consent judgment. Plaintiffs and
the NCSBE instead agreed to relieve all voters of the necessity of complying with the
witness requirement and extended the receipt deadline for all ballots sent out for
delivery by election day, whether through the USPS or a commercial carrier. See
Consent Judgment at 15–16. The attempted evisceration of the one-witness
requirement is particularly indicative of the facial nature of Plaintiffs’ claims, as that
relaxed witness requirement applies only to this November’s election. See HB1169 §
1.(a).
Further demonstrating the facial nature of the consent judgment is the fact
that the NCSBE’s actions apparently are meant to settle not only this lawsuit but
also two others that Judge Collins himself found to raise facial challenges—Chambers
v. State, No. 20 CVS 500124, and Stringer v. N.C. State Bd. of Elections, No. 20 CVS
5615. See NCSBE Bench Memo at 5–7 (Sept. 15, 2020) (attached as Doc. Ex. 76).
Indeed, the consent judgment must be intended to buy NCSBE global peace,
otherwise it could not possibly achieve its purported objective “to avoid any continued

App. 424

-17uncertainty and distraction from the uniform administration of the 2020 elections.”
Consent Judgment at 15.
For the foregoing reasons, a one-judge Superior Court lacked jurisdiction to
enter the consent judgment, and this Court must therefore vacate it.
B. The Consent Judgment Must Be Vacated Because Legislative
Defendants’ Consent, A Necessary Component, Is Lacking.
Legislative Defendants intervened as of right in this case as agents of the State
on behalf of the General Assembly under N.C. GEN. STAT. §§ 1A-1, Rule 24, 1-72.2(b),
and 120-32.6(b). Legislative Defendants are “necessary parties” in every case in
which “the validity or constitutionality of an act of the General Assembly or a
provision of the Constitution of North Carolina is the subject of an action in any State
or federal court,” and “in such cases, . . . possess final decision-making authority with
respect to the defense of the challenged act . . . or provision of the North Carolina
Constitution.” Id. § 120-32.6(b). Legislative Defendants represent not only the
interests of the State in defending its democratically enacted laws, see Hollingsworth
v. Perry, 570 U.S. 693, 709–10 (2013); Karcher v. May, 484 U.S. 72, 82 (1987), but also
the interest of the General Assembly itself in defending the constitutionality of the
challenged election law provisions, Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787, 803–04 (2015); Va. House of Delegates v. Bethune-Hill, 139 S.
Ct. 1945, 1953–54 (2019). Consequently, these provisions mandate that any consent
judgment cannot enter without the consent of Legislative Defendants. Cf. Guilford
Cnty v. Eller, 146 N.C. App. 579, 581, 553 S.E.2d 235, 236 (2001) (“It is well-settled
that the power of the court to sign a consent judgment depends upon the unqualified

App. 425

-18consent of the parties thereto; and the judgment is void if such consent does not exist
at the time the court sanctions or approves the agreement and promulgates it as a
judgment.” (cleaned up)). Indeed, entering a consent judgment over the objection of
Legislative Defendants would represent an end-run around the statutes making
Legislative Defendants a necessary party to this case and giving them primacy in the
defense of state laws from constitutional attack. Because Legislative Defendants have
not given consent here, the consent judgment must be vacated.
Judge Collins concluded that N.C. GEN. STAT. § 163-22.2 gives the NCSBE
authority to settle this case without Legislative Defendants’ consent, but it does no
such thing. That statute provides that when an election law is “held unconstitutional”
the NCSBE has limited authority to make rules that “do not conflict with any
provisions of this Chapter 163 of the General Statutes.” N.C. GEN. STAT. § 163-22.2.
It then provides that the NCSBE “shall also be authorized, upon recommendation of
the Attorney General, to enter into agreement with the courts in lieu of protracted
litigation until such time as the General Assembly convenes.” Id. (emphasis added).
Read in context, there thus are at least two conditions to settlement under § 163-22.2
that are not met here: (1) a court must have held a state election law unconstitutional;
and (2) the proposed settlement must not conflict with any provisions of Chapter 163.
See Order at 79, Moore. In addition, given Legislative Defendants’ final decisionmaking authority in this litigation, the Attorney General cannot lawfully recommend
a settlement without Legislative Defendants’ consent.

App. 426

-19C. The Consent Judgment Must Be Vacated Because It Is
Unconstitutional.
The consent judgment undermines North Carolina’s election statutes and
effectively nullifies statutes enacted by the General Assembly while depriving the
State of its ability to “enforce its duly enacted” laws. Abbott v. Perez, 138 S. Ct. 2305,
2324 n.17 (2018). It violates two provisions of the federal Constitution that protect
North Carolina’s elections and the right to vote: the Elections Clause and the Equal
Protection Clause.
1. The Consent Judgment Violates The Elections Clause.
The text of the Elections Clause is clear: “[t]he Times, Places and Manner of
holding Elections for Senators and Representatives, shall be prescribed in each State
by the Legislature thereof; but the Congress may at any time by Law make or alter
such Regulations, except as to the Places of chusing [sic] Senators.” U.S. CONST. art.
I, § 4, cl. 1 (emphasis added). Accordingly, there are only two entities that may
constitutionally regulate federal elections: Congress and the state “Legislature.”
Neither the NCSBE nor this Court have the authority to override the General
Assembly’s exercise of this authority through the consent judgment. The consent
judgment is unconstitutional, therefore, because it overrules the enactments of the
General Assembly to regulate the times, places, and manner of holding the upcoming
federal election.
The General Assembly is the “Legislature,” established by the people of North
Carolina. N.C. CONST. art. II, § 1. And the North Carolina Constitution affirmatively
states that the grant of legislative power to the General Assembly is exclusive—“[t]he

App. 427

-20legislative, executive, and supreme judicial powers of the State government shall be
forever separate and distinct from each other.” Id. art. I, § 6; see also State v. Berger,
368 N.C. 633, 635, 781 S.E.2d 248, 250 (2016). With this grant of exclusive legislative
power, the General Assembly is vested with the authority to “enact[] laws that protect
or promote the health, morals, order, safety, and general welfare of” the State. N.C.
CONST. art. I, § 6. Concurrently, this exclusive grant of legislative power means the
U.S. Constitution has assigned the role of regulating federal elections in North
Carolina to the General Assembly. By choosing to use the word “Legislature,” the
Elections Clause makes clear that the Constitution does not grant the power to
regulate elections to states as a whole, but only to the state’s legislative branch, Ariz.
Indep. Redistricting Comm’n, 576 U.S. at 814, and in North Carolina that is the
General Assembly.
The Elections Clause thus mandates that the General Assembly is the only
constitutionally empowered state entity to regulate federal elections. And as the U.S.
Supreme Court has explained with respect to the Presidential Electors Clause—the
closely analogous provision of Article II, Section 1 that empowers state legislatures
to select the method for choosing electors to the Electoral College—the state
legislatures’ power to prescribe regulations for federal elections “cannot be taken.”
McPherson v. Blacker, 146 U.S. 1, 35 (1892). And courts have long recognized this
limitation on the power of states to restrain the discretion of state legislatures under
the Elections Clause and the Presidential Electors Clause. See, e.g., State ex rel.
Beeson v. Marsh, 34 N.W.2d 279, 286–87 (Neb. 1948); Commonwealth ex rel. Dummit

App. 428

-21v. O’Connell, 181 S.W.2d 691, 695 (Ky. Ct. App. 1944); In re Plurality Elections, 8 A.
881, 882 (R.I. 1887); In re Opinion of Justices, 45 N.H. 595, 601 (1864).
The NCSBE has clearly violated the Elections Clause by issuing numbered
memoranda to effectuate the consent judgment that purport to adjust the rules of the
election that have already been set by statute, and the Superior Court did the same
by entering the consent judgment. Neither the NCSBE nor the Superior Court have
freestanding power under the United States Constitution to rewrite North Carolina’s
election laws and to “prescribe[]” their own preferred “[r]egulations.” U.S. CONST. art.
I, § 4, cl. 1. The North Carolina Constitution is fully consistent with this mandate and
states that “[t]he legislative power of the State shall be vested in the General
Assembly,” N.C. CONST. art. II, § 1, and it makes clear that “[t]he legislative,
executive, and supreme judicial powers of the State Government shall be forever
separate and distinct from each other, id. art. I, § 6. And where there is an exception
to this separation, it is expressly indicated, see id. art. IV, § 1 (“The judicial power of
the State shall, except as provided in Section 3 of this Article”—addressing
administrative agencies—“be vested in a Court for the Trial of Impeachments and in
a General Court of Justice.” (emphasis added)). Thus, neither the NCSBE nor the
Superior Court are the “Legislature” empowered to adjust the rules of the federal
election on their own. See League of Women Voters of Mich. v. Benson, No. 17-cv14148, 2019 U.S. Dist. LEXIS 228463, at *10 (E.D. Mich. Feb. 1, 2019) (declining to
enter a consent decree in a partisan gerrymandering case between the League of
Women Voters and the Secretary of State because only the Michigan Legislature had

App. 429

-22authority to regulate the time, place, and manner of elections). What is more, “the
legislature may not abdicate its power to make laws or delegate its supreme
legislative power to any coordinate branch or to any agency which it may create.”
Adams v. N.C. Dep’t of Nat. & Econ. Res., 295 N.C. 683, 696, 249 S.E.2d 402, 410
(1978).
Because the People of North Carolina have not granted legislative power to the
NCBSE or the Superior Court, this case is far afield from Arizona Independent
Redistricting Commission. In that case, the Supreme Court dealt with a provision of
the Arizona Constitution—adopted through popular initiative—that vested an
independent state commission with authority over drawing federal congressional
districts. The state legislature claimed that the federal Elections Clause rendered
that allocation of authority invalid, but the Supreme Court disagreed, concluding that
the independent state commission simply acted as “a coordinate source of legislation
on equal footing with the representative legislative body.” Ariz. Indep. Redistricting
Comm’n, 576 U.S. at 795. But here neither the NCSBE nor this Court have legislative
power and are not on equal footing with the General Assembly. Indeed, the North
Carolina Supreme Court expressly held that a prior version of the NCSBE “clearly
performs primarily executive, rather than legislative or judicial, functions.” Cooper v.
Berger, 370 N.C. 392, 415, 809 S.E.2d 98, 112 (2018). And it made clear that whatever
“interstitial” policy decisions the NCSBE can make, it cannot “make any policy
decision that conflicts with or is not authorized by the General Assembly, subject to
applicable constitutional limitations.” Id. at 415 n.11. It therefore struck down

App. 430

-23provisions limiting the Governor’s control over the NCSBE. The current version of
the statute does not change the nature of the NCSBE’s activities but rather addresses
the constitutional infirmities recognized by Cooper. Compare id. at 418–19, with N.C.
GEN. STAT. § 163-19.
Even if it were possible in some circumstances for an executive agency like the
NCSBE to exercise the authority to prescribe regulations governing the times, places,
and manner of federal elections that the Elections Clause assigns exclusively to the
legislature (and it is not), the NCSBE would lack authority to do so here. The NCSBE
is a creature of statute. See N.C. GEN. STAT. § 163-19(a) (“There is established the
State Board of Elections . . . .”). And consistent with being a creature of statute, the
NCSBE is limited by the statute that created it. “The State Board of Elections shall
have general supervision over the primaries and elections in the State, and it shall
have authority to make such reasonable rules and regulations . . . as it may deem
advisable so long as they do not conflict with any provisions of this Chapter.” See id.
§ 163-22(a) (emphasis added). Thus, the General Assembly has not granted the
NCSBE any power to overrule the duly enacted statutes governing elections or given
it any form of legislative power. Quite the contrary, the NCSBE is not allowed to issue
any rules or regulations that “conflict” with provisions enacted by the General
Assembly.
To be sure, Executive Director Bell has limited statutory authority to make
necessary changes to election procedures “where the normal schedule for the election
is disrupted by . . . a natural disaster.” N.C. GEN. STAT. § 163-27.1. Here, the normal

App. 431

-24schedule for the election has not been disrupted. And the current pandemic is not a
“natural disaster” under the statute and its implementing regulations “describing the
emergency powers and the situations in which the emergency powers will be
exercised,” id.; see 8 N.C. ADMIN. CODE 1.0106, and the North Carolina Rules Review
Commission unanimously rejected an earlier attempt by Executive Director Bell to
extend her emergency powers to the pandemic, see Rules Review Commission
Meeting Minutes at 4 (May 21, 2020), https://bit.ly/3kLAY5y (attached as Doc. Ex.
91). In declining to approve the changes to the Rule, the Rules Review Commission
explained that the NCSBE “does not have the authority to expand the definition of
‘natural disaster’ as proposed” in the amendments. Id.; see also Order at 80–85,
Moore. What is more, in enacting HB1169, the General Assembly already decided
what adjustments to the election laws are necessary to account for the pandemic.
The consent judgment replaces the judgment of the General Assembly with
that of the NCSBE. But “consent is not enough when litigants seek to grant
themselves power they do not hold outside of court.” League of United Latin Am.
Citizens, Council No. 4434 v. Clements, 999 F.2d 831, 846 (5th Cir. 1993). The
Constitution delegated to a single North Carolina entity the power to regulate federal
elections: the General Assembly. Thus, because the consent judgment purports to
alter the time, place, and manner for holding the upcoming federal election in a
manner that contravenes the General Assembly’s duly enacted statutes, its entry
would violate the Elections Clause.

App. 432

-252. The Consent Judgment Violates The Equal Protection Clause.
State election laws may not “deny to any person within” the state’s “jurisdiction
the equal protection of the laws.” U.S. CONST. amend. XIV, § 1. The Constitution thus
ensures “the right of all qualified citizens to vote, in state as well as in federal
elections.” Reynolds v. Sims, 377 U.S. 533, 554 (1964). “Obviously included within the
right to [vote], secured by the Constitution, is the right of qualified voters within a
state to cast their ballots and have them counted . . . .” United States v. Classic, 313
U.S. 299, 315 (1941). But the right to vote includes the right to have one’s ballot
counted “at full value without dilution or discount.” Reynolds, 377 U.S. at 555 n.29
(internal quotation marks omitted).
To ensure equal weight is afforded to all votes, the Equal Protection Clause
further requires states to “avoid arbitrary and disparate treatment of the members
of its electorate.” Bush v. Gore, 531 U.S. 98, 105 (2000); see also Dunn v. Blumstein,
405 U.S. 330, 336 (1972) (“[A] citizen has a constitutionally protected right to
participate in elections on an equal basis with other citizens in the jurisdiction.”);
Gray v. Sanders, 372 U.S. 368, 380 (1963) (“The idea that every voter is equal to every
other voter in his State, when he casts his ballot in favor of one of several competing
candidates, underlies many of [the Supreme Court’s] decisions.”). “[T]reating voters
different” thus “violate[s] the Equal Protection Clause” when the disparate treatment
is the result of arbitrary, ad hoc processes. See Charfauros v. Bd. of Elections, 249
F.3d 941, 954 (9th Cir. 2001).
At a minimum then, the Equal Protection Clause requires the “nonarbitrary
treatment of voters” and forbids voting practices that are “standardless,” without

App. 433

-26“specific rules designed to ensure uniform treatment.” Bush, 531 U.S. at 103, 105–06;
League of Women Voters of Ohio v. Brunner, 548 F.3d 463, 477–78 (6th Cir. 2008).
Consequently, the “formulation of uniform rules” is “necessary” because the “want of”
such rules may lead to “unequal evaluation of ballots.” Bush, 531 U.S. at 106.
As two federal courts in Moore held was likely the case, Mem. Op. & Order at
57, Moore; Order at 11–16, Moore, aspects of the consent judgment likely violate these
constitutional requirements, thereby infringing on the Equal Protection rights of
those 153,664 North Carolina voters who had already cast their absentee ballots
before the consent judgment was announced 2 to “participate in” the upcoming election
“on an equal basis with other citizens in” North Carolina, Dunn, 405 U.S. at 336. The
consent judgment also violates the Equal Protection right of all North Carolina voters
to have their ballots counted “at full value without dilution or discount.” Reynolds,
377 U.S. at 555 n.29.
i. The Consent Judgment Subjects Voters In The Same
Election To Different Regulations.
First, the consent judgment has caused North Carolina to administer its
election in an arbitrary fashion pursuant to nonuniform rules that cause the unequal
evaluation of ballots. Indeed, the district court in the Moore litigation found that two
of the policies reflected in the consent judgment “appear to be clear violations” of the
Equal Protection Clause’s prohibition of arbitrary and disparate treatment of voters,
the evisceration of the witness requirement and the Receipt Deadline Extension. See

Absentee Data, N.C. STATE BD. OF ELECTIONS (Oct. 21, 2020), available at
https://bit.ly/33SKzAw.
2

App. 434

-27Order at 3, 53–59, Moore. While the evisceration of the witness requirement has now
been enjoined by a federal court, the controversy over the Receipt Deadline Extension
is still live.
The consent judgment allows absentee ballots to be received up to nine days
after election day. Consent Judgment at 15, 26. This is both in violation of the General
Assembly’s duly enacted statutes and a change in the rules while voting is ongoing.
The consent judgment also provides a standardless approach by allowing even
the anonymous delivery of ballots—facilitating violations of N.C. GEN. STAT. § 163226.3’s prohibition on the delivery of ballots by all but a select few—to unmanned
boxes at polling sites. Consent Judgment at 36–40.
Accordingly, under the consent judgment, North Carolina will necessarily be
administering its election in an arbitrary fashion pursuant to nonuniform rules that
will result in the unequal evaluation of ballots. See Bush, 531 U.S. at 106. Over
150,000 voters cast their ballots before the consent judgment was unveiled, and
therefore worked to comply with the receipt deadline and lawful delivery
requirements. There is no justification for subjecting North Carolina’s electorate to
this arbitrary and disparate treatment.
ii. The Consent Judgment Will Dilute Lawfully Cast Votes.
Second, under the consent judgment the NCSBE will be violating North
Carolina voters’ rights to have their votes counted without dilution. Reynolds, 377
U.S. at 555 n.29. Even after the federal court injunction against evisceration of the
witness requirement, the consent judgment ensures that votes that are invalid under

App. 435

-28the duly enacted laws of the General Assembly will be counted in three ways: (1) by
allowing absentee ballots to be counted if received up to nine days after election day,
see id. at 26–27; (2) by allowing absentee ballots without a postmark to be counted in
certain circumstances if received after election day, id.; and (3) by allowing for the
anonymous delivery of ballots to unmanned boxes at polling sites, see id. at 36–40.
These changes are open invitations to fraud and ballot harvesting, which will have
the direct and immediate effect of diluting the votes of North Carolina voters.
The consent judgment is a denial of the one-person, one-vote principle affixed
in the Supreme Court’s jurisprudence. Dilution of lawful votes, to any degree, by the
casting of unlawful votes violates the right to vote and the Fourteenth Amendment.
Reynolds, 377 U.S. at 555; Anderson v. United States, 417 U.S. 211, 226–27 (1974);
Baker v. Carr, 369 U.S. 186, 208 (1962). Thus, when the NCSBE purposely accepts
otherwise late ballots beyond the deadline set by the General Assembly, or facilitates
the delivery of ballots by unlawful parties, the NCSBE has accepted votes that dilute
the weight of lawful North Carolina votes.
*

*

*

Accordingly, under the consent judgment, the NCSBE will be violating the
Equal Protection Clause in two separate ways: it will be administering the election
in an arbitrary and nonuniform manner that will inhibit the right of voters who cast
their absentee ballots before the consent judgment was announced “to participate in”
the election “on an equal basis with other citizens in” North Carolina, Dunn, 405 U.S.
at 336; and it will also be purposefully allowing otherwise unlawful votes to be

App. 436

-29counted, thereby deliberately diluting and debasing North Carolina voters’ votes.
These are clear violations of the Equal Protection Clause.
D. The Consent Judgment Must Be Vacated Because It Is Not Fair,
Adequate, And Reasonable.
The consent judgment must be vacated because it is not fair, adequate, and
reasonable. Here, because Plaintiffs were unlikely to succeed on the merits of their
claims, and because the relief afforded by the consent judgment is vastly
disproportionate to the purported harm, the consent judgment is not fair, adequate,
and reasonable, and must be vacated.
1. Plaintiffs’ Claims Were Unlikely To Succeed On The Merits.
Plaintiffs’ legal theories, evidence, and expert reports have significant
weaknesses that rendered their claims unlikely to succeed on the merits. Each will
be discussed in turn below.
i. Plaintiffs Cannot Possibly Succeed In Showing That The
Challenged Statutes Are Unconstitutional In All Of Their
Challenged Applications.
As explained above, Plaintiffs’ claims—particularly viewed in light of the
consent judgment—are facial. But regardless of whether the Court agrees with that
characterization, to succeed Plaintiffs must demonstrate that the challenged
provisions are unconstitutional in all the applications for which Plaintiffs seek to have
them invalidated. For these purposes, “the label is not what matters and to the extent
that a claim and the relief that would follow reach beyond the particular
circumstances of the party before the court, the party must satisfy [the] standards for
a facial challenge to the extent of that reach.” Grady, 372 N.C. at 547 (cleaned up)

App. 437

-30(citing Doe, 561 U.S. at 194). It is well established that “[a]n individual challenging
the facial constitutionality of a legislative act must establish that no set of
circumstances exists under which the act would be valid.” Kimberley Rice Kaestner
1992 Fam. Tr. v. N.C. Dep’t of Revenue, 371 N.C. 133, 138, 814 S.E.2d 43, 47 (2018)
(internal quotation marks and brackets omitted), aff’d, 139 S. Ct. 2213 (2019). Under
this “exacting standard,” id., therefore, Plaintiffs “must establish that [the challenged
provisions are] unconstitutional in all of [their challenged] applications” during the
COVID-19 pandemic. Grady, 372 N.C. at 522 (internal quotation marks omitted).
Plaintiffs do not even seriously attempt to carry their burden of showing that all
challenged applications of the challenged provisions are unconstitutional during the
pandemic.
As will be explained below, Plaintiffs cannot even credibly demonstrate that
they themselves are meaningfully injured by North Carolina’s generous early voting
opportunities, by the requirement to find a single witness, by having to pay the
postage for mailing a completed ballot, by the speculative possibility that the delivery
of their ballots might suffer from a mail delay, and by the prohibition on third-party
ballot harvesting. Indeed, at least five of the seven individual Plaintiffs—Tom
Kociemba, Rosalyn Kociemba, Rebecca Johnson, Barker Fowler, and Sandra
Malone—have already voted. 3 They certainly have not established that these

See Thomas John Kociemba Voter Record, Voter Search, N.C. STATE BD. OF
ELECTIONS, available at https://bit.ly/2HNjzLL (attached as Doc. Ex. 340); Rosalyn Cotter
Kociemba Voter Record, Voter Search, N.C. STATE BD. OF ELECTIONS, available at
https://bit.ly/2HNjzLL (attached as Doc. Ex. 342); Rebecca Kay Johnson, Voter Search, N.C.
STATE BD. OF ELECTIONS, available at https://bit.ly/2HNjzLL (attached as Doc. Ex. 345);
3

App. 438

-31measures impose an unconstitutional burden in every circumstance. Plaintiffs have
not established that the risk of polling place consolidation or reduced hours is so dire
that it has imposed unconstitutional burdens on all in-person voters, and even if
“crowds and long lines” occur at some voting locations, Memorandum of Law in
Support of Plaintiffs’ Motion for Preliminary Injunction (“Pls.’ Mem.”) at 36 (Sept. 4,
2020) (attached as Doc. Ex. 281), that will obviously not be the case everywhere, so
Plaintiffs’ facial challenge must fail as a matter of law.
Neither can Plaintiffs carry their burden of showing that all applications of the
witness requirement are unconstitutional during the pandemic, even if the analysis
is limited to those who do not live with another adult (a limitation on the reach of
Plaintiffs’ claim that has disappeared in the consent judgment). Indeed, as explained
below, each of the individual voters deposed who allege they live alone and are
concerned about complying with the witness requirement admitted to one or more of
the following: (1) having regular contact with other individuals outside their home
since March 2020, (2) having someone they could ask to witness their ballot, or (3)
even having already made arrangements for a witness. See infra Part I.D.1.vi.c. And
presumably these voters were chosen to participate in this lawsuit because they are
isolating themselves more than the typical voter. Plaintiffs make no effort to establish
the number of voters who live alone but nonetheless would have essentially zero
burden to comply with the witness requirement, such as those who attend a physical
Susan Barker Fowler Voter Record, Voter Search, N.C. STATE BD. OF ELECTIONS, available
at https://bit.ly/2HNjzLL (attached as Doc. Ex. 1163); Sandra Jones Malone Voter Record,
Voter Search, N.C. STATE BD. OF ELECTIONS, available at https://bit.ly/2HNjzLL (attached as
Doc. Ex. 1166).

App. 439

-32school, go to a workplace, or frequently visit in person with family and friends. The
witness requirement cannot possibly be unconstitutional in these applications. As for
the necessity of paying postage to mail a completed ballot, it simply cannot be
maintained that having to purchase a single 55-cent stamp unconstitutionally
burdens the right to vote of every absentee voter in the State, especially since ballots
can be dropped off in person and voters can vote in person. Nor do Plaintiffs provide
any credible explanation supporting the notion that every voter who chooses to vote
by mail will face difficulty returning their ballot in time—it is self-evident that those
who have already voted have had their ballots returned on time, for example. Only
those who wait to the last minute even have a theoretical concern about an alleged
slowdown in mail delivery. And Plaintiffs fail to establish that the prohibition on
ballot harvesting unconstitutionally burdens all absentee voters, as many North
Carolinians will not be burdened in the slightest by the ban.
As Justice Stevens explained in his controlling opinion in Crawford v. Marion
Cnty Election Bd., 553 U.S. 181 (2008), see Greater Birmingham Ministries v. Sec’y of
State for Ala., 966 F.3d 1202, 1222 n.31 (11th Cir. 2020), even if a “neutral,
nondiscriminatory regulation of voting procedure” creates “an unjustified burden on
some voters,” the “proper remedy” is not “to invalidate the entire statute,” Crawford,
553 U.S. at 203 (controlling opinion of Stevens, J.) (emphasis added). But the kind of
improper remedy condemned by Justice Stevens in Crawford is precisely what
Plaintiffs seek here. Plaintiffs’ challenges thus are doomed to fail.

App. 440

-33ii. Plaintiffs’ Challenges Violate The Purcell Principle.
The U.S. Supreme Court, invoking its decision in Purcell v. Gonzalez, “has
repeatedly emphasized that lower federal courts should ordinarily not alter the
election rules on the eve of an election.” Republican Nat’l Comm. v. Democratic Nat’l
Comm., 140 S. Ct. 1205, 1207 (2020). That is because “practical considerations
sometimes require courts to allow elections to proceed despite pending legal
challenges.” Riley v. Kennedy, 553 U.S. 406, 426 (2008). For example, “[c]ourt orders
affecting elections, especially conflicting orders, can themselves result in voter
confusion and consequent incentive to remain away from the polls,” a risk that will
increase “[a]s an election draws closer.” Purcell v. Gonzalez, 549 U.S 1, 4–5 (2006)
(per curiam).
Even if Plaintiffs are correct that the challenged provisions violate the State
Constitution, this Court must vacate the consent judgment, which disrupts the
State’s upcoming elections. See, e.g., Tex. All. for Retired Ams. v. Hughs, No. 2040643, 2020 WL 5816887, at *1 (5th Cir. Sept. 30, 2020) (per curiam) (attached as
Doc. Ex. 349) (staying a district court order, on Purcell grounds, that changed election
laws eighteen days before early voting was set to begin). “In awarding or withholding
immediate relief, a court is entitled to and should consider the proximity of a
forthcoming election and the mechanics and complexities of state election laws, and
should act and rely upon general equitable principles.” Reynolds, 377 U.S. at 585.
Here, equity favors judicial modesty.
“Time and time again over the past several years, the Supreme Court has
stayed lower court orders that change election rules on the eve of an election.” Tex.

App. 441

-34All. for Retired Ams., 2020 WL 5816887, at *1; see, e.g., North Carolina v. League of
Women Voters of N.C., 574 U.S. 927 (2014) (staying a lower court order that changed
election laws thirty-three days before the election); Husted v. Ohio State Conf. of the
NAACP, 573 U.S. 988 (2014) (staying a lower court order that changed election laws
sixty days before the election); Veasey v. Perry, 135 S. Ct. 9 (2014) (denying
application to vacate court of appeals’ stay of district court injunction that changed
election laws on eve of election); Purcell, 549 U.S. 1 (staying a lower court order
changing election laws twenty-nine days before the election). The reasons animating
the Purcell principle apply with full force here. First, the consent decree conflicts with
recent federal court and state court decisions to uphold the very same provisions
against similar federal and state constitutional challenges. See Order on Inj. Relief,
Chambers (rejecting motion to enjoin witness requirement); Democracy N.C., 2020
U.S. Dist. LEXIS 138492, at *103, *136–45 (rejecting motion to enjoin the witness
requirement and require contactless drop boxes). Second, the election has already
started, election day is merely 13 days away, and “important, interim deadlines that
affect Plaintiffs . . . and the State” have already passed. Thompson v. DeWine, 959
F.3d 804, 813 (6th Cir. 2020). In particular, absentee ballots were made available to
voters on September 4, see N.C. GEN. STAT. § 163-227.10(a), and as of October 21,
2020, nearly 1.4 million absentee ballots have been requested and over 2.1 million
voters have already cast their absentee ballots. 4 Moreover, counties have already set

Absentee Data, N.C. STATE BD. OF ELECTIONS (Oct. 21, 2020), available at
https://bit.ly/33SKzAw (latest available absentee ballot request data through the end of
October 20, 2020).
4

App. 442

-35their one-stop early voting schedules and early voting has begun. 5 The consent
judgment, by changing the challenged provisions now—when hundreds of thousands
of absentee ballots have already been sent to voters and early voting has already
started—will surely cause massive confusion and consume administrative resources.
In short, the consent judgment is entirely impractical—indeed, affirmatively
harmful—because it occurs mid-stream in the middle of an ongoing election and
weeks away from election day. Under the logic of Purcell, this reason alone should be
sufficient to deny their motion.
iii. Plaintiffs Failed To Exercise Appropriate Dispatch In
Raising Their Challenges.
“Equity demands that those who would challenge the legal sufficiency of
[legislative] decisions concerning time sensitive public [decisions] do so with haste
and dispatch” in particular. Quince Orchard Valley Citizens Ass’n v. Hodel, 872 F.2d
75, 80 (4th Cir. 1989); see also N. Iredell Neighbors for Rural Life, 196 N.C. App. at
79 (affirming denial of injunction when “some two months elapsed without any
contention by plaintiffs of an urgent threat of irreparable harm” (brackets omitted)).
Here, Plaintiffs did not file their initial complaint until August 10, 2020—nearly five
months after the NCSBE’s Executive Director raised the potential need for legislative
reform to address the impact of the pandemic on the State’s elections (including
specifically the witness requirement, prepaid return postage for completed absentee
ballots, and early voting restrictions) and nearly two months after HB1169 was

See Vote Early In-Person, N.C. STATE BD. OF ELECTIONS (Oct. 20, 2020),
https://bit.ly/2Geq3ms.
5

App. 443

-36enacted. Worse still, Plaintiffs did not file their motion for entry of the consent decree
until September 22—over a month after they initiated suit. Indeed, “Plaintiffs have
in some respects created the need for the emergency relief” by “wait[ing] more than
three months to file this action.” Kishore v. Whitmer, No. 20-1661, 2020 U.S. App.
LEXIS 26827, at *11 (6th Cir. Aug. 24, 2020); see also Little v. Reclaim Idaho, 140 S.
Ct. 2616, 2617 (2020) (Roberts, C.J., joined by Alito, Gorsuch, Kavanaugh, JJ.,
concurring in the grant of stay) (faulting a party seeking emergency injunctive relief
against a state’s election law for “delay[ing] unnecessarily its pursuit of relief”
(internal quotation marks omitted)).
Plaintiffs could have easily challenged the various election policies and
requirements at issue before August 10. The provisions existed—some of them in a
more restrictive form—long before the pandemic began. And even after the pandemic
hit the State, Plaintiffs clearly delayed in filing their complaint. Contrast their suit
with the similar federal challenge in Democracy North Carolina v. North Carolina
State Board of Elections. There, the plaintiffs filed their complaint on May 22, 2020,
see Democracy N.C., 2020 U.S. Dist. LEXIS 138492, at *11, nearly three months
before Plaintiffs here, and moved for a preliminary injunction on June 5, 2020—three
months before the September 4 deadline for releasing absentee ballots. Plaintiffs also
are represented by the same counsel that represent the plaintiffs in the Stringer v.
N.C. State Bd. of Elections, No. 20 CVS 5615 (Wake Cnty. Super. Ct.), case, which
raises similar claims but was filed in May. Plaintiffs here had no legitimate reason
for not acting sooner than they have.

App. 444

-37And although Plaintiffs had ample opportunity to file for relief at an earlier
date, their delay has put the State in an untenable position. The State will have to
expend significant administrative resources informing voters of the new election
procedures under the consent judgment, likely causing massive confusion. This Court
should not reward Plaintiffs’ delay by affirming the consent judgment.
iv. Plaintiffs’ Challenges Second-Guessing State Officials’
Responses To The Pandemic Are Not Appropriate.
“Under the Constitution, state and local governments . . . have the primary
responsibility for addressing COVID-19 matters such as . . . adjustment of voting and
election procedures . . . .” Calvary Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603,
2614 (2020) (Kavanaugh, J., dissenting from denial of application for injunctive
relief). As the passage of HB1169 demonstrates, North Carolina legislators acted to
adapt the State’s election laws to account for the COVID-19 pandemic. Moreover,
these elected officials are far better positioned than a court to assess the balance of
benefits and harms that are likely to result from altering the State’s election
regulations in the final months before a general election. Indeed, such assessments
require officials “to act in areas fraught with medical and scientific uncertainties,”
where “their latitude must be especially broad,” and not “subject to second-guessing
by” judges who “lack[] the background, competence, and expertise to assess public
health.” S. Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613, 1613–14
(2020) (Roberts, C.J., concurring) (internal quotation marks omitted). North Carolina
officials have not been sitting idly by; they are actively and diligently seeking to

App. 445

-38accommodate both the State’s interests and their voters’ interests, all while reacting
to the ever-changing effects of COVID-19 on daily life.
The COVID-19 pandemic has not given judges “a roving commission to rewrite
state election codes.” Tex. Democratic Party v. Abbott, 961 F.3d 389, 394 (5th Cir.
2020). For this reason, the Supreme Court has shown enormous deference to State
election officials during the COVID-19 pandemic. The Court on several occasions
during the pandemic has refused to vacate courts of appeals’ stays of lower-court
preliminary injunctions affecting elections. See, e.g., id. at 412 (staying injunction
against Texas absentee ballot restrictions), application to vacate stay denied, 140 S.
Ct. 2015 (2020) (mem.); Thompson, 959 F.3d 804 (staying injunction against Ohio
initiative signature requirements), application to vacate stay denied, No. 19A1054,
2020 U.S. LEXIS 3376 (U.S. June 25, 2020) (mem.). And it has on even more occasions
granted stays of lower-court preliminary injunctions that have attempted to change
electoral rules in light of the pandemic. See, e.g., Republican Nat’l Comm., 140 S. Ct.
1205 (staying injunction against requirement that absentee ballots be postmarked by
election day); Little, 140 S. Ct. 2616; Clarno v. People Not Politicians Or., No. 20A21,
2020 U.S. LEXIS 3631 (U.S. Aug. 11, 2020) (mem.) (staying injunction against
initiative signature requirement); Merrill v. People First of Ala., No. 19A1063, 2020
U.S. LEXIS 3541 (U.S. July 2, 2020) (mem.) (staying injunction against absentee
ballot witness requirement). The Supreme Court’s conclusion that these injunctions
were not justified by the pandemic undermines Plaintiffs’ likelihood of success on the
merits.

App. 446

-39v. Plaintiffs’ Challenges Related To Absentee Voting Are All
Subject To Rational-Basis Review.
All of Plaintiffs’ claims challenge aspects of absentee voting—whether
limitations on one-stop early voting (a form of absentee voting) or absentee voting by
mail. Plaintiffs assert that the challenged provisions “unconstitutionally burden the
right to vote” because they violate the North Carolina Constitution’s guarantees of
the freedom of assembly, the freedom of speech, and equal protection. Pls.’ Mem. at
30; see also N.C. CONST. art. I, §§ 12, 14, 19. In assessing the merit of this claim, the
Court must first ascertain the proper level of scrutiny for reviewing the election
policies and requirements at issue. Plaintiffs contend that “[b]ecause [their] claims
implicate the fundamental right to vote on equal terms, and the challenged provisions
burden constitutionally-protected speech and political association, strict scrutiny
applies.” Pls.’ Mem. at 31. This assertion is meritless.
The view that all restrictions on the right to vote are subject to strict scrutiny
is plainly foreclosed by precedent. See Burdick v. Takushi, 504 U.S. 428, 432 (1992)
(“Petitioner proceeds from the erroneous assumption that a law that imposes any
burden upon the right to vote must be subject to strict scrutiny. Our cases do not so
hold.”). In Libertarian Party of North Carolina v. State, 365 N.C. 41, 707 S.E.2d 199
(2011), this Court—following the United States Supreme Court’s lead—explained
that “requiring ‘every voting, ballot, and campaign regulation’ to meet strict scrutiny
‘would tie the hands of States seeking to assure that elections are operated equitably
and efficiently,’” id. at 50 (quoting Buckley v. Am. Const. Law Found., Inc., 525 U.S.

App. 447

-40182, 206 (1999) (Thomas, J., concurring)). “Hence, strict scrutiny is warranted only
when [the] right [asserted] is severely burdened.” Id. (emphasis added).
Having established that strict scrutiny cannot be reflexively applied in the
electoral context, the question remains of how to assess the constitutionality of the
challenged provisions. Although Plaintiffs do not even consider the possibility that
rational-basis review may apply to their vote-burdening claims, a careful review of
the case law reveals that to be the case. For starters, it is well established that “there
is no constitutional right to an absentee ballot.” Mays v. LaRose, 951 F.3d 775, 792
(6th Cir. 2020); see also Burdick, 504 U.S. at 433 (explaining that the right to vote
does not entail an absolute right to vote in any particular manner).
Indeed, although this Court long ago held that the North Carolina Constitution
does not preclude the General Assembly from permitting absentee voting, see Jenkins
v. State Bd. of Elections of N.C., 180 N.C. 169, 104 S.E. 346, 349 (1920), no court in
this State has ever held that the North Carolina Constitution requires the option of
absentee voting. And because there is no constitutional right to cast an absentee
ballot, burdens imposed on one’s ability to vote absentee are reviewed under
heightened scrutiny only in narrowly confined circumstances.
On this score, the Supreme Court’s decision in McDonald v. Bd. of Election
Comm’ners of Chicago, 394 U.S. 802 (1969), is instructive. See Libertarian Party of
N.C., 365 N.C. at 47–53 (adopting the United States Supreme Court’s construction of
the Federal Constitution for evaluating state constitutional challenges to election
law); see also State v. Hicks, 333 N.C. 467, 484, 428 S.E.2d 167, 176 (1993)

App. 448

-41(“We . . . give great weight to decisions of the Supreme Court of the United States
interpreting provisions of the Constitution which are parallel to provisions of the
State Constitution to be construed.”). In McDonald, the Court explained that
restrictions on absentee ballots are reviewed only for rationality unless the putative
voter is “in fact absolutely prohibited from voting by the State” when looking at the
state’s election code “as a whole.” Id. at 807–08 & n.7 (emphasis added). That is
because there is a fundamental difference between “a statute which ma[kes] casting
a ballot easier for some who were unable to come to the polls” and a “statute
absolutely prohibit[ing]” someone “from exercising the franchise.” Kramer v. Union
Free Sch. Dist. No. 15, 395 U.S. 621, 626 n.6 (1969); see also Goosby v. Osser, 409 U.S.
512, 521–22 (1973) (striking down an absentee ballot restriction only because the
state’s statutory scheme “absolutely prohibit[ed]” incarcerated prisoners from voting
by other means).
Earlier this year, the Fifth Circuit relied on McDonald and its progeny to
reaffirm that state regulations of absentee ballots should be examined under rational
basis review. In Texas Democratic Party v. Abbott, a motions panel of the Fifth Circuit
determined that challenges to Texas’s statutory scheme were unlikely to succeed on
the merits even though Texas provides absentee ballots only to a few limited classes
of voters such as those over the age of 65 or those suffering from disabilities. 961 F.3d
at 407. The court explained that in McDonald, the Supreme Court held that where a
state statute “burden[s] only [an] asserted right to an absentee ballot,” it is subject
only to rational-basis review unless the plaintiff can produce “evidence that the state

App. 449

-42would not provide them another way to vote.” Id. at 403. And as the Fifth Circuit
further explained, although COVID-19 “increases the risks of interacting in public,”
under McDonald, state laws limiting access to absentee ballots do not violate the
Constitution unless the State itself has “‘in fact absolutely prohibited’ the plaintiff
from voting” and COVID-19 is “beyond the state’s control.” Id. at 404–05 (quoting
McDonald, 394 U.S. at 808 n.7); see also Thompson, 959 F.3d at 810 (emphasizing
that courts “cannot hold private decisions to stay home for their own safety against
the State”). North Carolina “permits the plaintiffs to vote in person; that is the exact
opposite of absolutely prohibiting them from doing so.” Tex. Democratic Party, 961
F.3d at 404 (internal quotation marks and brackets omitted). 6
Therefore, “McDonald directs [this Court] to review [North Carolina absenteeballot laws] only for a rational basis.” Id. at 406. That review demands only that the
challenged provisions “bear some rational relationship to a legitimate state end.” Id.
Under this general standard, the Fifth Circuit found that Texas’s restrictions on
absentee voting were rationally related to the State’s interest in deterring voter fraud
and preserving efficient, orderly election administration. See id. at 406–08.
If Texas’s absentee balloting regime satisfies rational-basis review, then North
Carolina’s far less restrictive regime is necessarily constitutional. Any North
Carolinian eligible to vote at the polls is eligible to vote by absentee ballot; the State

Although the later merits panel in Texas Democratic Party was “hesitant to hold that
McDonald” applied to plaintiffs’ claims challenging Texas’s regulations of absentee ballots,
it nonetheless made “clear” that it was “not stating, even as dicta, that rational basis scrutiny
is incorrect.” Tex. Democratic Party v. Abbott, No. 20-50407, 2020 U.S. App. LEXIS 28799, at
*54 (5th Cir. Sept. 10, 2020). The original opinion therefore remains persuasive and has not
been repudiated.
6

App. 450

-43does not restrict absentee voting to only certain classes of voters. And in North
Carolina, any prospective voter can obtain an absentee ballot and the State has
provided trained personnel to safely serve as witnesses for voters who require them.
See N.C. GEN. STAT. §§ 163-226(a), 163-226.3(c). Under the rational-basis standard,
the challenged provisions come to this Court “bearing a strong presumption of
validity,” FCC v. Beach Commc’ns, Inc., 508 U.S. 307, 314 (1993), and the Court must
uphold it against constitutional challenge so long as it “can envision some rational
basis for the classification.” Huntington Props., LLC v. Currituck Cnty., 153 N.C. App.
218, 231, 569 S.E.2d 695, 704 (2002). And the burden here is not on the State to prove
that the challenged provisions are constitutionally permissible but “on the one
attacking the legislative arrangement to negative every conceivable basis which
might support it.” Armour v. City of Indianapolis, 566 U.S. 673, 685 (2012). Plaintiffs
do not and cannot come close to clearing this hurdle.
The State’s “interest in ensuring orderly, fair, and efficient procedures of the
election of public officials” is plainly legitimate. Pisano v. Strach, 743 F.3d 927, 937
(4th Cir. 2014). The absentee ballot receipt deadline, dates and times for one-stop
early voting, and allocation of postage expenses to the voter are bread-and-butter
administrative measures of the sort necessary to conduct an election in an orderly
and efficient manner. And the witness requirement and the ballot harvesting ban are
rational means of promoting the State’s interest in deterring, detecting, and
punishing voter fraud and in ensuring confidence in the integrity of elections, for
when a voter comes to the polls, he or she must provide identifying information in the

App. 451

-44presence of elections officials, but when would-be voters fill out a ballot remotely,
there is no such check. This increases the risk of ineligible and fraudulent voting. See,
e.g., Comm’n on Fed. Election Reform, Building Confidence in U.S. Elections 46, CTR.
FOR DEMOCRACY & ELECTION MGMT.,

AM. UNIV. (Sept. 2005), https://bit.ly/2YxXVRh.

And as the Democracy N.C. court pointed out, this potential for abuse has been a
reality in North Carolina, particularly in the recently discovered “Dowless scandal,”
which took place over the course of the 2016 and 2018 elections and threatened the
integrity of state and federal elections. That scandal also put into stark relief the risk
that absentee balloting may present. That is also probably why a dozen States have
adopted witness requirements of some form. See VOPP: Table 14: How States Verify
Voted Absentee Ballots, NAT’L CONF.

OF

STATE LEGISLATURES (Apr. 17, 2020),

https://bit.ly/33LAqay. The challenged provisions are a rational means for ensuring
that the absentee ballot was filled out by the person under whose name the vote will
be counted. That is enough to satisfy rational-basis review.
vi. If The Anderson-Burdick Balancing Framework Applies,
The Challenged Provisions Are Constitutional.
Even if Plaintiffs’ challenge to the various election policies and requirements
at issue were not subject to rational-basis review, the highest level of constitutional
scrutiny Plaintiffs’ claims could even conceivably merit is the standard known as the
Anderson-Burdick analysis, which is taken from the United States Supreme Court’s
decisions in Anderson v. Celebrezze, 460 U.S. 780 (1983), and Burdick v. Takushi, 504
U.S. 428 (1992), and their progeny. This Court, considering a ballot-access challenge,
explicitly adopted the Anderson-Burdick framework to govern voting-rights

App. 452

-45challenges under the State constitution’s equal protection, speech, election, and
assembly clauses. See Libertarian Party of N.C., 365 N.C. at 42; see also James v.
Bartlett, 359 N.C. 260, 270, 607 S.E.2d 638, 644 (2005).
This approach recognizes that “[i]n the interest of fairness and honesty, the
State “may, and inevitably must, enact reasonable regulations of parties, elections,
and ballots to reduce election- and campaign-related disorder,” and accordingly that
“requiring every voting, ballot, and campaign regulation to meet strict scrutiny would
tie the hands of States seeking to assure that elections are operated equitably and
efficiently.” Libertarian Party of N.C., 365 N.C. at 49–50 (internal quotation marks
omitted).

Thus,

under

Anderson-Burdick,

“requirements

constituting

an

unreasonable, discriminatory burden are the only requirements subject to strict
scrutiny review.” Wood v. Meadows, 207 F.3d 708, 716 (4th Cir. 2000). For
“reasonable and nondiscriminatory rules,” the court must “ask only that the state
articulate its asserted interests.” Libertarian Party of Va. v. Alcorn, 826 F.3d 708, 719
(4th Cir. 2016) (internal quotation marks and brackets omitted). This is “not a high
bar” and can be cleared with “[r]easoned, credible argument,” rather than “elaborate,
empirical verification.” Id. (internal quotation marks omitted). Once the State’s
interests have been articulated, that is the end of the matter; there is no further
analysis of “the extent to which the state’s interests make it necessary to burden the
plaintiff’s rights.” Wood, 207 F.3d at 716.
Under this framework, then, the first question is whether any of the measures
Plaintiffs have challenged “severely burden” the right to vote. Id. None do.

App. 453

-46a. Postage Expenses.
The requirement that voters bear their own postage—a single, 55-cent stamp—
when choosing to return their completed ballot by mail is self-evidently a “reasonable,
nondiscriminatory restriction[].” Id. (internal quotation marks omitted). The vast
majority of states nationwide expect absentee voters to bear this minor, incidental
expense. See VOPP: Table 12: States with Postage-Paid Election Mail, NAT’L CONF.
OF STATE LEGISLATURES

(Sept. 14, 2020), https://bit.ly/3hSTFDm; Expert Affidavit of

Dr. M.V. Hood, III, Ph.D. (“Hood Aff.”) ¶¶ 38–39 (attached as Doc. Ex. 354). Plaintiffs’
contention that purchasing a single 55-cent stamp imposes a “significant hurdle[] on
North Carolinian’s exercise of the franchise” is meritless, id. at 31. Indeed, in
Crawford the U.S. Supreme Court found that Indiana’s voter ID law failed to impose
a severe burden on voting despite the fact that some voters may have been required
to pay between $3 and $12 for a copy of their birth certificate in order to obtain a
voter ID. See 553 U.S. at 199 n.17 (controlling opinion of Stevens, J.).
Courts have agreed that voters bearing their own postage expenses to submit
their completed absentee ballots does not impose a severe burden on the right to vote,
even in the context of the COVID-19 pandemic. In DCCC v. Ziriax, No. 20-cv-211,
2020 U.S. Dist. LEXIS 170427 (N.D. Okla. Sept. 17, 2020), the court found that
postage “is a type of ‘usual burden[] of voting,’” id. at *68 (quoting Crawford, 553 U.S.
at 197–98), determined that “plaintiffs have not established that the lack of postage
will result in disenfranchisement or an undue burden on any voter,” and concluded
that the burden the requirement imposed was “light,” id. Furthermore, the court

App. 454

-47determined that the policy of the USPS “is to deliver the ballot, irrespective of
whether it has postage or not.” Id. (Plaintiffs’ expert Mayer confirmed that the
USPS’s policy is to “deliver absentee ballots without a stamp,” and therefore that “in
theory, [it] should be true” that “no one in North Carolina will be disenfranchised
because they failed to put a stamp on their absentee ballot return envelope.” Kenneth
Mayer Expert Deposition Transcript at 106:2–14 (attached as Doc. Ex. 407). The
District Court for the Northern District of Georgia recently rejected a similar claim
under Anderson-Burdick and did not find a constitutional violation. New Ga. Project
v. Raffensperger, No. 20-cv-1986, 2020 U.S. Dist. LEXIS 159901, at *63 (N.D. Ga.
Aug. 31, 2020).
What little discovery Legislative Defendants have been able to conduct before
Plaintiffs unilaterally shut down depositions in this case further undermines
Plaintiffs’ likelihood of success on the merits. With respect to concerns related to the
delays in the postal service and lack of access to a stamp, each of the individual voters
deposed before who plan to vote absentee admitted at least one of the following:
(1) they have a stamp, see Rebecca Johnson Deposition Transcript (“Johnson Tr.”) at
28:14–17 (attached as Doc. Ex. 553); Caren Rabinowitz Deposition Transcript
(“Rabinowitz Tr.”) at 32:24–25 (attached as Doc. Ex. 579); and (2) they could ask for
a stamp or regularly frequent places that sell stamps, see Susan Barker Fowler
Deposition Transcript (“Fowler Tr.”) at 24:15–17 (attached as Doc. Ex. 612) (goes to
grocery store); 24:18–19 (goes to drugstore); 24:22–23 (goes to gas stations); 25:20–22
(orders from Amazon); 32:13–15 (could ask parents for stamp).

App. 455

-48b. Ballot Receipt Deadline.
Likewise, Plaintiffs cannot plausibly claim that North Carolina’s deadline for
receipt of completed absentee ballots somehow “severely burden[s]” the right to vote.
Libertarian Party of N.C., 365 N.C. at 51; see also New Ga. Project v. Raffensperger,
No. 20-13360, at 2–3 (11th Cir. Oct. 2, 2020) (attached as Doc. Ex. 638) (staying
district court injunction that extended Georgia’s absentee ballot receipt deadline—
7:00 p.m. on election day—because that deadline did not severely burden the right to
vote); Democratic Nat’l Comm. v. Bostelmann, No. 20-2835, 2020 U.S. App. LEXIS
31950 (7th Cir. Oct. 8, 2020) (staying extension of Wisconsin’s election day receipt
deadline); Common Cause of Ind. v. Lawson, No. 20-2911, 2020 U.S. App. LEXIS
32259 (7th Cir. Oct. 13, 2020) (staying extension of Indiana’s election day receipt
deadline). Obviously, the need to fairly and expeditiously count the ballots and
determine the election results necessitates some deadline for submitting absentee
ballots; and North Carolina’s cutoff—which allows ballots postmarked before the end
of election day to come in up to three days later—is more generous than most. See
Hood Aff. at 13 fig.2. While Plaintiffs complain about anticipated postal delays, it
simply cannot be realistically denied that North Carolina’s deadline gives absentee
voters “ample opportunity”—alleged USPS delays and all—to get their votes in on
time, and it therefore does not “burden[] them in any meaningful way.” Pisano, 743
F.3d at 934–35. All Plaintiffs have to do is mail in their ballots far enough in advance
of election day to ensure they are received on time—as Plaintiffs Johnson and Fowler
have done. Presumably, a week in advance of election day would be enough, as that

App. 456

-49would give their ballots more time to arrive than the relief they are seeking. That is
precisely what the NCSBE is advising voters, both on its website and in the judicial
voter guide sent to every household in the State. See Detailed Instructions for Voting
by Mail, N.C. STATE BD. OF ELECTIONS, https://bit.ly/2E4ZxL7 (last accessed Oct. 20,
2020); Judicial Voter Guide 2020 at 14, N.C. STATE BD.

OF

ELECTIONS,

https://bit.ly/2EPP72k (last accessed Oct. 20, 2020) (“We strongly recommend mailing
your completed ballot before October 27 for a timely delivery.”). And this is leaving to
the side the options of dropping off a ballot in person rather than sending it through
the mail (as Plaintiffs Tom Kociemba, Rosalyn Kociemba, and Sandra Malone have
done), or voting in person, which, for those at heightened risk of complications from
COVID-19 infection, can be done curbside without entering the polling place. See N.C.
State

Bd.

of

Elections,

Numbered

Memo

2020-20

(Sept.

1,

2020),

https://bit.ly/32Onr5M.
Massachusetts’ highest court recently rejected a similar challenge to that
State’s ballot receipt deadline. In line with the requirement in most states, the
Massachusetts deadline at issue required all absentee ballots to be received before
the end of election day itself—without North Carolina’s extra three-day grace period.
See Grossman v. Sec’y of the Commonwealth, 151 N.E.3d 429, 2020 Mass. LEXIS 510,
at *1–2 (Mass. 2020). 7 The Massachusetts Supreme Judicial Court held that this

Grossman considered a challenge to the Massachusetts deadline for receipt of
absentee votes in the September 1 primary election: “before 8 P.M. on September 1.”
Grossman, 2020 Mass. LEXIS 510, at *2. Massachusetts’ receipt deadline for the general
election is the same as North Carolina’s—a ballot is timely if it “is received not later than 5
P.M. on November 6, 2020,” i.e., three days after the election, “and mailed on or before
7

App. 457

-50deadline “does not significantly interfere with the constitutional right to vote,”
particularly given the obvious necessity of some “reasonable deadlines” and the fact
that “voters, including those who have requested mail-in ballots, have multiple voting
options, and thus are not limited to returning their ballots by mail.” Id. at *3, *11. So
too here. And notably, even when granting relief to plaintiffs challenging
Pennsylvania’s ballot receipt deadline, the Supreme Court of Pennsylvania extended
that deadline from 8:00 p.m. on election day to 8:00 p.m. only three days after—
essentially the same deadline that North Carolina currently has and a much shorter
extension than the nine-day extension Plaintiffs request. Pa. Democratic Party v.
Boockvar, No. 133 MM 2020, 2020 Pa. LEXIS 4872, at *89 (Pa. Sept. 17, 2020). And
as indicated above, the Seventh Circuit (twice) and the Eleventh Circuit have recently
stayed injunctions extending election day ballot receipt deadlines.
Deposition testimony confirms the lack of merit in Plaintiffs’ claim. The one
Plaintiff deposed thus far who had experience in the past with her absentee ballot
being delayed in the mail and who is advocating for extending the ballot receipt
deadline admitted the problem was not with her prior ballot not getting back to her
county board of election on time, but with her receiving her ballot in the first instance.
See Fowler Tr. at 19:3–22. She admitted that none of the relief Plaintiffs are seeking
would have addressed the problem she experienced in the past, and that she does not
intend to wait until the last minute to mail her absentee ballot in this election, but

November 3, 2020,” as evidenced by a November 3 postmark. 2020 MASS. ACTS ch. 115, sec.
6(h)(3).

App. 458

-51instead to vote and return her ballot the day she gets it. See id. at 15:18–20. And she
has now in fact already voted.
c. Witness Requirement.
North Carolina’s absentee voting witness requirement—reduced, for the
November 2020 election, to a single witness—likewise does not severely burden the
right to vote. Even for those voters who live alone, asking a family member, friend,
neighbor, or coworker to take a few minutes to observe that voter cast her vote and
then write their name, address, and signature is hardly the type of “severe burden,”
Libertarian Party of N.C., 365 N.C. at 50, that “totally denie[s]” the right to vote,
Mays, 951 F.3d at 787.
That is so notwithstanding Plaintiffs’ contentions that “interacting with
individuals outside of one’s household can pose the risk of contracting a highly
contagious and dangerous virus.” Pls.’ Mem. at 33. Even voters who live alone and
are social distancing from all other adults can satisfy the witness requirement while
abiding by all relevant social-distancing and sanitization guidelines. For example,
any family member, friend, neighbor, mail-delivery person, food-delivery person, or
multipartisan assistance team (“MAT”) member can watch the voter mark their
ballot through a window, glass door, or other barrier. At that point, the voter can pass
the ballot under a closed door or through an open window to be marked, signed, and
returned (after handwashing or sanitizing) without direct interaction between the
two persons. These options are available to practically all voters living alone and
would not require the voter or the witness to come within six feet of each other or

App. 459

-52break other social-distancing guidelines. By engaging in these sorts of protective
activities, voters can vote without exposing themselves to any appreciable risk of
contracting the virus. Indeed, the NCSBE has expressly advised voters on complying
with the witness requirement in a safe manner. 8
As the federal court for the Middle District of North Carolina recently found in
rejecting a similar challenge to the State’s witness requirement, “even high-risk
voters can comply with the One-Witness Requirement in a relatively low-risk way, as
long as they plan ahead and abide by all relevant precautionary measures, like social
distancing, using hand sanitizer, and wearing a mask; in other words, the burden on
voters is modest at most.” Democracy N.C., 2020 U.S. Dist. LEXIS 138492, at *102;
see also DCCC, 2020 U.S. Dist. LEXIS 170427, at *51–57. Once again, there is simply
no realistic risk associated with having another adult witness the execution of an
absentee ballot through a closed window, so long as the two parties use separate pens
and the ballot itself is disinfected before it is passed between them. See Expert
Affidavit of Philip S. Barie, M.D., M.B.A. (“Barie Aff.”) ¶ 35 (attached as Doc. Ex.
670).
Moreover, the witness requirement serves the important State interests of
protecting the integrity of its elections, preventing fraud, and fostering confidence in
the election process. The requirement is “especially important” during the pandemic
because it helps “identify potential irregularities with absentee voting,” which “takes
place entirely out of the sight of election officials and is more susceptive to irregularity
FAQs: Voting by Mail in North Carolina in 2020, N.C. STATE BD. OF ELECTIONS
(Sept. 1, 2020), https://bit.ly/30vgciI.
8

App. 460

-53and fraud than other methods of voting.” Affidavit of Kimberly Westbrook Strach
¶¶ 54–55 (attached as Doc. Ex. 696). Accordingly, the witness requirement was
pivotal in allowing the NCSBE to ferret out the patterns of fraudulent absentee
ballots submitted as part of the Dowless scandal. Id. ¶ 59. Eliminating the
requirement would divest the NCSBE and local county boards of elections of a
“valuable tool[] [for] detecting and investigating irregularities and fraud.” Id. ¶ 64.
Plaintiffs’ deposition testimony does not help their claim. Each of the
individual voters deposed who allege they live alone and are concerned about
complying with the witness requirement admitted to one or more of the following: (1)
having regular contact with other individuals outside their home since March 2020,
see Johnson Tr. at 17:14–25; 19:4–15; 21:8–18; 22:10–20; 25:16–18; 26:13–19; 27:5–
10 (spent weekend at cousin’s lake house, gotten take-out numerous times, gotten
haircuts and pedicures, sees her yard man weekly, has visited with a friend outdoors
for over an hour, and drove a friend to have lunch at her club); Rabinowitz Tr. at
23:15; 26:7–18 (been to drug store, gotten haircut, been to doctors and took a ride
share service to get there and back three times); (2) having someone they could ask
to witness their ballot, see Johnson Tr. at 28:23–29:8; 36:3–9; Rabinowitz Tr. at 15:6–
16; 19:5–15; 35:21–36:21; or (3) even having already made arrangements for a
witness, see Johnson Tr. at 36:3–9 (stating that “a friend offered to come over –
wanted hers witnessed, and we do each other’s”). For those witnesses who do not live
alone, they readily admitted they could have someone witness their ballots. See
Fowler Tr. at 12:22–13:2; Jade Jurek Deposition Transcript (“Jurek Tr.”) at 12:12–25

App. 461

-54(attached as Doc. Ex. 735); William Dworkin Deposition Transcript (“Dworkin Tr.”)
at 19:23–20:5 (attached as Doc. Ex. 764). Indeed, Johnson has now successfully voted
so she apparently was able to secure a witness.
d. Early Voting.
Plaintiffs contend that “limitations on the number of days and hours of early
voting that counties may offer burdens in-person voting.” Pls.’ Mem. at 36. They
assert that the “pandemic will force counties to offer fewer total early voting locations
than they would under normal circumstances, and the resulting fewer cumulative
early voting hours will lead to larger crowds and long lines for those who attempt to
vote in person.” Id. These “crowded polling places” will force Plaintiffs to “risk[] their
health in order to cast their votes.” Id.
First, the data does not bear out Plaintiffs’ dire predictions about polling place
crowds. “[T]he number of early voting sites per count remains stable in 2020” as
compared to 2016, and the “number of early voting hours and days offered in the 2020
general election represents a large increase over the prior two presidential election
years.” Expert Affidavit of Keegan Callanan, Ph.D. (“Callanan Aff.”) ¶¶ 8, 10
(attached as Doc. Ex. 807). Consequently, instead of leading to crowded polling places
and long lines, this “significant increase in voting hours and days may logically be
expected to reduce average waiting times at North Carolina’s early voting sites.” Id.
¶ 12. Moreover, “voter preference for in-person voting is expected to fall substantially
in 2020 as compared to 2012 and 2016,” id.—nearly 1.4 million absentee ballots have
been requested as of October 21, 2020, compared with merely 210,493 requests 14

App. 462

-55days before the 2016 election—logically entailing less crowded in-person polling
places. See also Devore Aff. ¶¶ 4–10 (explaining efforts made to enlarge early voting
sites and provide more opportunities to vote).
Second, neither does the data support Plaintiffs’ claims about risks to health
at in-person voting places. Plaintiffs cannot establish that polling places will not
abide by necessary and appropriate social distancing and sanitizing protocols
specifically designed to mitigate those risks. See N.C. State Bd. of Elections,
Numbered Memo 2020-18 at 2–3 (Aug. 14, 2020), https://bit.ly/3jp2kO9 (requiring
election officials to implement such measures, including mandated social distancing,
masks for all election workers, and frequent sanitizing of high-touch areas). Recent
peer-reviewed research found that the April election in Wisconsin highlighted by
Plaintiffs produced “no detectable spike” in COVID-19 infections and thus appears to
have been “a low-risk activity.” 9 Dr. Fauci, the nation’s leading expert on infectious
diseases, recently suggested that voting in person, in compliance with recognized
social distancing and other protective measures, poses no greater risk of infection
than going to the grocery store. 10 And again, any voter who suffers from an elevated
risk of COVID-19-related complications is entitled to vote curbside, without ever
leaving his or her car. See N.C. GEN. STAT. § 163-166.9; Numbered Memo 2020-20.

Kathy Leung et al., No Detectable Surge in SARS-CoV-2 Transmission Attributable
to the April 7, 2020 Wisconsin Election, 110 AM. J. PUB. HEALTH 1169 (2020),
https://bit.ly/3gKKWKr.
10 Nsikan Akpan, What Fauci Says the U.S. Really Needs To Reopen Safely, NAT’L
GEOGRAPHIC (Aug. 13, 2020), https:/on.natgeo.com/2EQZxhM.
9

App. 463

-56Counties also are authorized to set up walk-up curbside voting areas for voters who
do not arrive at the polling place in a vehicle. See Numbered Memo 2020-20 at 2.
That leaves Plaintiffs with nothing more than the allegation that there will be
“inevitable crowds and long lines” at some polling places in November. Pls.’ Mem. at
36. But while “having to wait in line may cause people to be inconvenienced,” that
minor inconvenience—experienced in every election by at least some voters who
reside in populous areas—does not alone constitute a severe burden on the right to
vote. Jacksonville Coal. for Voter Prot. v. Hood, 351 F. Supp. 2d 1326, 1335 (M.D. Fla.
2004); see also Gwinnett Cnty. NAACP v. Gwinnett Cnty. Bd. of Registration and
Elections, 446 F. Supp. 3d 1111, 1124 (2020) (“[W]hile the Court understands that a
long commute or wait in line can be an inconvenience, courts have routinely rejected
these factors as a significant harm to a constitutional right—particularly when there
is no evidence of improper intent.”).
The one Plaintiff deposed thus far who intends to vote in person and alleged
concerns about inadequate opportunities to vote leading to long lines and crowds that
would necessitate extending the early-voting period admitted that her regular polling
place will be open, that in the past she has found times to vote that were not crowded,
that she has no idea how the number of days or hours of early voting compare to prior
elections, and that she can vote at times that will be less crowded such as during the
day in the middle of the week. See Jurek Tr. at 23:8–22; 24:3–8; 25:13–23; 27:1–8;
28:1–7. Further undermining her claims, this Plaintiff admitted she could use
curbside voting but that she did not want to. Id. at 20:22–21:16.

App. 464

-57e. Ballot Harvesting Ban.
Plaintiffs claim that they are injured by North Carolina’s restrictions on thirdparty assistance with requesting absentee ballots and delivering completed ballots.
Pls.’ Mem. at 35–36. But, first, none of the Plaintiffs assert that they have been
injured by the restrictions on assistance with requesting absentee ballots. Indeed,
each of the Plaintiffs deposed thus far who intend to vote absentee admitted to having
already requested their absentee ballots, see Johnson Tr. at 29:9–20; Rabinowitz Tr.
at 16:13–21; Fowler Tr. at 13:3–10; Dworkin Tr. at 9:25–20:5. Thus, there is no
evidence of a single Plaintiff who requires assistance from other individuals or
organizations in completing and submitting their absentee ballot applications.
Second, although Ms. Johnson, Ms. Rabinowitz, and Rosalyn and Tom
Kociemba assert that they are injured by the restrictions on who can deliver
completed ballots, Pls.’ Mem. at 35–36, they are unlikely to succeed on their challenge
to the ballot harvesting ban. Rosalyn and Tom Kociemba and Ms. Johnson, of course,
have already voted, so this Court can provide them with no relief. With respect to the
others, North Carolina law criminally prohibits anyone other than the voter, the
voter’s near relative, or the voter’s verifiable legal guardian from “return[ing] to a
county board of elections the absentee ballot of any voter.” N.C. GEN. STAT. § 163226.3(a)(5). But given that no criminal prosecutors are defendants in this case, the
Court cannot provide relief from this criminal statute as regardless of what this Court
does prosecutors will remain free to prosecute violations. In other words, Plaintiffs’

App. 465

-58claims challenging this criminal ballot harvesting restriction, as pleaded, are not
redressable, and thus the Court lacks jurisdiction to rule in Plaintiffs’ favor.
Plaintiffs’ claims fail apart from these fatal defects. Plaintiffs insist that this
ballot harvesting ban “erects another barrier to absentee voting” for voters without
access to postage, voters who are concerned about their ballot being delivered by the
USPS on time, voters who are concerned about the risks of in-person voting, voters
without immediate family members available to assist them in submitting their
ballots, and voters whose ballots arrive too late to return by mail. Pls.’ Mem. at 35–
36. But because the ballot harvesting ban is a “reasonable and nondiscriminatory”
rule, this Court must “ask only that the state articulate its asserted interests.”
Libertarian Party of Va., 826 F.3d at 719 (internal quotation marks and brackets
omitted). This is “not a high bar” and can be cleared with “[r]easoned, credible
argument,” rather than “elaborate empirical verification.” Id. (internal quotation
marks omitted).
The State has met its burden. The Dowless scandal exposed that absentee
ballots are particularly susceptible to fraud. See Comm’n on Fed. Election Reform,
Building Confidence in U.S. Elections 46, Ctr. for Democracy & Election Mgmt., AM.
UNIV. (Sept. 2005), https://bit.ly/2YxXVRh. Indeed, Legislative Defendants’ expert
found evidence of at least 1,265 voters who voted in both North Carolina and another
state in the 2016 general election—64% of whom cast an absentee ballot in North
Carolina. Expert Report of Ken Block ¶ 38 (attached as Doc. Ex. 817). In the
aftermath of the Dowless scandal, the State reasonably and credibly determined that

App. 466

-59preventing abuse of the ballot collection process required targeted restrictions on
handling completed absentee ballots by individuals outside of the voter’s family and
legal guardians. The State plainly has a legitimate and important interest in
preventing such election fraud from occurring again.
Moreover, with respect to restrictions on who can return an absentee ballot if
the voter did not want to use the postal service, each of the individual voters deposed
admitted to one or more of the following: (1) regularly leaving their home and being
in situations that put them in contact with others for at least the length of time it
would take to return their ballots to their county boards of election, see Johnson Tr.
at 17:14–25; 19:4–15; 21:8–18; 22:10–20; 25:16–18; 26:13–19; 27:5–10 (spent weekend
at cousin’s lake house, gotten take-out numerous times, gotten haircuts and
pedicures, sees her yard man weekly, has visited with a friend outdoors for over an
hour, and drove a friend to have lunch at her club); Rabinowitz Tr. at 23:23–24:11
(spent half an hour getting a haircut); (2) having the ability to get to their respective
county board by car, walking, or a ride-service, see Rabinowitz Tr. at 26:13–18 (has
taken a Lyft several times since March 2020); or (3) having a near-relative who could
return their ballot for them, see Fowler Tr. at 15:1–13, 18–24. William Dworkin, the
President of the one organizational Plaintiff in the case, the North Carolina Alliance
for Retired Americans, admitted under oath that his organization does not plan to
offer assistance to voters in returning their ballots even if the relief Plaintiffs are
seeking is granted. See Dworkin Tr. at 56:13–18.

App. 467

-60vii. Plaintiffs’ Free Elections Clause Claim Was Unlikely To
Succeed.
Plaintiffs’ claim invoking North Carolina’s Free Elections Clause fails as a
matter of law because that clause simply has no application here, where all Plaintiffs
have alleged are purportedly unconstitutional costs and burdens of participating in
the political process.
The North Carolina Constitution’s Free Elections Clause simply states that
“[a]ll elections shall be free,” N.C. CONST. art. I, § 10, a statement that clearly means
that voters are free to choose how they cast their ballot without coercion,
intimidation, or undue influence. The history of the provision confirms this reading.
The modern version of this provision has its roots in the 1868 North Carolina
Constitution. See N.C. CONST. art. I, § 10 (1868) (“All elections ought to be free.”). Its
origin, however, runs far deeper—through the 1776 North Carolina and Virginia
declarations of rights and to the Eighth Clause of the English Declaration of Rights
in 1689, which declared that the “election of members of parliament ought to be free.”
See John V. Orth, North Carolina Constitutional History, 70 N.C. L. REV. 1759, 1797
(1972). In crafting provisions requiring elections to be “free,” the drafters of both the
English and Colonial declarations were responding to royal interference in the
electoral process. Given this background—and the reality that there were substantial
limitations on the right to vote at the time that such provisions were adopted—it
comes as no surprise that the meaning of “free” in the Clause “is plain: free from
interference or intimidation.” JOHN V. ORTH & PAUL MARTIN NEWBY, THE NORTH
CAROLINA STATE CONSTITUTION 56 (2d ed., 2013).

App. 468

-61This Court has confirmed that the Free Elections Clause requires only that
voters be left free to choose how they will cast their ballot. In Clark v. Meyland, 261
N.C. 140, 143, 134 S.E.2d 168, 170–71 (1964), the Court invalidated a state-law
requirement that those voters who wished to change their party affiliation must first
take an oath to support their new party’s nominees both in the next election and in
any and all subsequent elections in which the voters maintained their new party
affiliation. What implicated the Free Elections Clause was not the burden of having
to appear and take an oath, or even the fact that the oath was one of loyalty to a
particular party, but rather the reality that the promise to vote only for candidates of
one party imposed a “shackle” on the free choice of the voter:
The oath to support future candidates violates the principle of
freedom of conscience. It denies a free ballot—one that is cast
according to the dictates of the voter’s judgment. We must hold
that the Legislature is without power to shackle a voter’s
conscience by requiring the objectionable part of the oath as a
price to pay for his right to participate in his party’s primary.
Id. It was the fact that the oath required the voter to vote for particular candidates
that “violate[d] the constitutional provision that elections shall be free.” Id.
Courts have identified several forms of state action that may compromise a
free election, including (1) serious threats of physical violence, see Hatfield v. Scaggs,
133 S.E. 109, 113 (W. Va. 1926); (2) requiring a voter to disclose a secret ballot, see
Whitley v. Cranford, 119 S.W.3d 28, 40–41 (Ark. 2003) (Imber, J., dissenting)
(discussing cases); and (3) funding campaigns or initiatives with state funds, see
Stanson v. Mott, 551 P.2d 1, 9–10 (Cal. 1976). But we are aware of no court that has

App. 469

-62ever found a free-election provision violated when a voter incurs incidental costs or
inconveniences to exercise the right to vote.
Plaintiffs’ claim under the Free Elections Clause thus fails because they have
not alleged that any of the challenged measures coerces, intimidates, or influences
the free choice of North Carolina’s voters in any of the ways that the courts have
found would compromise a free election. Instead, they merely complain of concerns
about the “risks” posed by the challenged measures, or the “increased costs and
burdens” voters must undergo because of the pandemic. Am. Compl. ¶¶ 6, 141. None
of these allegations suggest that any of the challenged measures somehow render
voters powerless to follow the dictates of their own free will—which means that
Plaintiffs have failed to allege a violation of the Free Elections Clause, and their claim
fails as a matter of law.
*

*

*

Despite these decided weaknesses in Plaintiffs’ claims that render them
unlikely to succeed on the merits, there is no evidence that the weaknesses were ever
explored by the NCSBE or that they informed the ultimate settlement analysis of
either party. Moreover, the State has a compelling interest in deterring voter fraud
and protecting election integrity, a theme that underlies the challenged election law
provisions. The consent judgment does not meaningfully analyze these state interests
either. The consent judgment fails on the “most important factor”—likelihood of
success on the merits—so this Court must vacate it. Flinn, 528 F.2d at 1172.

App. 470

-632. The Relief Afforded By The Consent Judgment Is Vastly
Disproportionate To The Purported Harm.
The consent judgment is not fair, adequate, and reasonable for the second,
independent basis that the relief it affords is vastly disproportionate to the purported
harm. Indeed, in several respects the consent judgment goes beyond the relief
Plaintiffs are seeking. For example, the consent judgment purported to vitiate the
witness requirement for all voters, not just those who reside without another adult.
See Am. Compl. at 39. The consent judgment extends the ballot receipt deadline for
ballots sent by commercial carrier despite Plaintiffs limiting their claims to ballots
sent through the USPS. Id. at 40. And despite Plaintiffs not even seeking to have
contactless drop boxes implemented as relief in this case, see Am. Compl. at 38–41,
and despite that request being denied by the Democracy N.C. court, see 2020 U.S.
Dist. LEXIS 138492, at *128–29, the consent judgment allows ballots submitted in
drop boxes to be counted statewide.
The District of Minnesota recently rejected a consent judgment because of
overbreadth problems similar to those plaguing this one. There, the court found that
the burdens on particular voters could not possibly support the State’s “blanket
refusal to enforce [Minnesota’s] witness requirement.” Fairness Hearing Tr. at 11–
12, League of Women Voters of Minn. Educ. Fund v. Simon, No. 20-cv-1205 (D. Minn.
June 23, 2020) (attached as Doc. Ex. 846). As the court put it, “the consent decree is
not substantively fair or reasonable because it would, if approved, impose relief that
goes well beyond remedying the harm Plaintiffs allege to suffer in support of their asapplied challenge to Minnesota’s witness requirement.” Id. at 10. It is a well-settled

App. 471

-64principle that “injunctive relief should be no more burdensome to the defendant than
necessary to provide complete relief to the plaintiffs.” Califano v. Yamasaki, 442 U.S.
682, 702 (1979); see Appeal of Barbour, 112 N.C. App. 368, 373–74, 436 S.E.2d 169,
173–74 (1993). Because the consent judgment violates this principle, granting
Plaintiffs relief that is vastly disproportionate to the purported harm they allege, the
consent judgment is not fair, adequate, and reasonable, and this Court must vacate
it.
E. The Consent Judgment Must Be Vacated Because It Is Against The
Public Interest.
The consent judgment disserves the public interest in at least three ways.
First, the public interest is served by allowing for state control of its election
mechanics by elected officials, not unelected agency members and civil litigants.
Second, because the challenged election laws are constitutional, vacating the consent
judgment “is where the public interest lies.” Tex. Democratic Party, 961 F.3d at 412
(internal quotation marks omitted). Courts should not “lightly tamper with election
regulations,” Thompson, 959 F.3d at 813, so the public interest lies in “giving effect
to the will of the people by enforcing the [election] laws they and their representatives
enact,” id. at 812. This is especially true in the context of an ongoing election.
Thompson, 959 F.3d at 813; Respect Me. PAC v. McKee, 622 F.3d 13, 16 (1st Cir. 2010).
And it remains true even though the NCSBE has chosen to capitulate to Plaintiffs’
demands instead of defending its duly enacted election laws. Allowing the consent
judgment to be enforced, therefore, would undermine the constitutional election laws.

App. 472

-65Third, the consent judgment will engender substantial confusion, among both
voters and election officials, by changing the election rules after the election has
already started. See Republican Nat’l Comm., 140 S. Ct. at 1207 (explaining that the
Supreme Court “has repeatedly emphasized that lower . . . courts should ordinarily
not alter the election rules on the eve of an election”); Purcell, 549 U.S at 4–5. To date,
voters have requested nearly 1.4 million absentee ballots and cast over 2.1 million
absentee ballots. 11 The NCSBE itself admitted that altering the election rules this
close to the election would create considerable administrative burdens, confuse
voters, poll workers, and local elections officials, and engender disparate treatment
of voters in the ongoing election. See Reply Brief of the State Board DefendantsAppellants at 8, N.C. State Conf. of the NAACP v. Raymond, No. 20-1092 (4th Cir.
July 27, 2020), ECF No. 103 (“[A]t this point in time, changes to the current [absentee
voting] process would run a substantial risk of confusion and disparate treatment of
voters for this election cycle. Thus, any mandate that the Court issues reversing the
injunction should be given effect only after the current election cycle.”); id. at 9 (“The
proximity to the election . . . make[s] it practically impossible for the State Board to
fairly and effectively administer the November 2020 elections under the [challenged
election law], particularly in light of the significant administrative and voteroutreach efforts that would be required to do so.”); id. at 27–35 (discussing the
difficulty of changing election procedures in close proximity to the election and

Absentee Data, N.C. STATE BD. OF ELECTIONS (Oct. 21, 2020), available at
https://bit.ly/33SKzAw (latest available absentee ballot request data through the end of
October 20, 2020).
11

App. 473

-66acknowledging that late-stage changes “may engender increased confusion among
voters and poll workers,” id. at 34).
The consent judgment is thus against the public interest and must be vacated.
F. The Consent Judgment Must Be Vacated Because There Is A
Substantial Risk It Is The Product Of Collusion.
The substantial risk of collusion at play in this litigation is another reason for
the Court to vacate the consent judgment. The consent judgment likely does not
reflect arm’s-length negotiations and gives a windfall to Plaintiffs. Consent
judgments must be not only substantively sound but also procedurally fair. Consent
judgments are procedurally fair when they flow from negotiations “filled with
‘adversarial vigor.’” United States v. City of Waterloo, No. 15-cv-2087, 2016 U.S. Dist.
LEXIS 7224, at *12 (N.D. Iowa Jan. 20, 2016). Agreements that lack adversarial vigor
become “collusi[ve],” and are, by definition, not fair. Colorado, 937 F.2d at 509. In
fact, a consent judgment between non-adverse parties “is no judgment of the court[;]
[i]t is a nullity.” Lord v. Veazie, 49 U.S. 251, 256 (1850). This rule stems from the
fundamental requirement that parties be concretely adversarial before a court can
act on their claims. See Neuse River Found., Inc. v. Smithfield Foods, Inc., 155 N.C.
App. 110, 114, 574 S.E.2d 48, 51–52 (2002). The requisite adversity plainly is lacking
when “both litigants desire precisely the same result.” Moore v. CharlotteMecklenburg Bd. of Educ., 402 U.S. 47, 47–48 (1971).
Regrettably, “it is not uncommon for consent decrees to be entered into on
terms favorable to those challenging governmental actions because of rifts within the
bureaucracy or between the executive and legislative branches.” Ragsdale v. Turnock,

App. 474

-67941 F.2d 501, 517 (7th Cir. 1991) (Flaum, J., concurring in part and dissenting in
part). That is why courts must and do look skeptically at consent judgments used to
enact or modify governmental policy. Otherwise, non-adverse parties could employ
consent judgments to “sidestep political constraints” and obtain relief otherwise
unavailable through the political process. Michael W. McConnell, Why Hold
Elections? Using Consent Decrees to Insulate Policies from Political Change, 1987 U.
CHI. LEGAL F. 295, 317. In particular, “judges should be on the lookout for attempts
to use consent decrees to make end runs around the legislature.” Kasper v. Bd. of
Election Comm’rs of Chi., 814 F.2d 332, 340 (7th Cir. 1987); see Dunn v. Carey, 808
F.2d 555, 560 (7th Cir. 1986) (“A court must be alert to the possibility that a consent
decree is a ploy in some other struggle.”).
Employing a consent judgment to sidestep political constraints and obtain
relief otherwise unavailable through the political process is exactly what is occurring
here. The NCSBE, despite Executive Director Bell’s March 26, 2020 letter to the
General Assembly, failed to convince the General Assembly to adopt all of its
recommendations. For example, the General Assembly considered Executive Director
Bell’s recommendation that it eliminate the witness requirement but rejected it,
deciding to accept her alternative recommendation to reduce to one the witness
requirement instead. See HB1169 § 1.(a). Moreover, both a state court and a federal
court have rejected motions to preliminarily enjoin the witness requirement, finding
that plaintiffs in those cases had not shown a likelihood of success on the merits. See
Order on Inj. Relief at 6–7, Chambers; Democracy N.C., 2020 U.S. Dist. LEXIS

App. 475

-68138492, at *103. And according to two NCSBE members who recently resigned, the
NCSBE entered into the consent judgment without apprising NCSBE members of the
fact that “a lot of the concessions” in the consent judgment had been previously
rejected by these courts. See Ken Raymond Resignation Letter (Sept. 23, 2020)
(attached as Doc. Ex. 861); David Black Resignation Letter (Sept. 23, 2020) (attached
as Doc. Ex. 863). Those same board members were also not apprised of the Legislative
Defendants’ significant involvement in those cases or that the legislature was not
being informed of or consulted with about the proposed settlement. See Affidavit of
Ken Raymond (attached as Doc. Ex. 866); Affidavit of David Black (attached as Doc.
Ex. 892). The NCSBE provides no justification for its sudden course reversal in the
face of its demonstrated successes in court.
Also concerning is the fact that Legislative Defendants were shut out of
settlement negotiations. If Plaintiffs and the NCSBE truly wanted to maximize the
likelihood of certainty, they likely would not have conducted their negotiations in
secret and shut out representatives of the body constitutionally charged with
prescribing regulations for the conduct of elections.
There are other circumstances that raise concerns about potential collusion in
this case. The claims here are essentially a subset of the claims asserted in Stringer,
a case filed by Plaintiffs’ counsel several months before this one. The principal
difference is that Plaintiffs in this case have attempted (unsuccessfully, in Legislative
Defendants’ view) to plead their claims as as applied challenges—a characterization
the NCSBE has endorsed. The chronology and the NCSBE’s ready agreement with

App. 476

-69Plaintiffs that the claims here are as applied are consistent with collusion between
the parties. The August 18, 2020 notice of voluntary dismissal of claims against the
State of North Carolina, originally a defendant here, also is consistent with collusion,
as it appears to have been done to provide an argument (again, unsuccessfully in
Legislative Defendants’ view) for why Legislative Defendants’ agreement was not
necessary for the entry of a consent judgment. See N.C. GEN. STAT. § 1-72.2(a)
(“[W]hen the State of North Carolina is named as a defendant in [cases in state court
challenging the validity of an act of the General Assembly] both the General
Assembly and the Governor constitute the State of North Carolina.”). And the shifting
rationales for the amendment to Numbered Memo 2020-19—first, that it was done to
comply with the Democracy N.C. injunction, but then only that it was consistent with
the injunction—provide additional reasons for concern.
At bottom, the NCSBE is in effect aligned with Plaintiffs, and this Court should
find that the consent judgment bears too many hallmarks of collusion to be
appropriately entered by the Court. Accordingly, the consent judgment must be
vacated.
II.

THE SUPERIOR COURT’S CONSENT JUDGMENT WILL CAUSE
IRREPARABLE INJURY AND IS CONTRARY TO THE BALANCE OF
THE EQUITIES.
The remaining equitable factors governing the availability of the writ of

supersedeas likewise favor preserving the status quo and staying the consent
judgment pending appeal. The consent judgment will irreparably injure Legislative
Defendants if this Court does not stay it pending appeal. A stay is necessary to protect
Legislative Defendants’ interests in defending duly enacted state election laws, the

App. 477

-70integrity of the ongoing election, and North Carolinians voting rights. Furthermore,
the consent decree substantially alters the current election law framework that
governs the ongoing election. As explained above, the NCSBE itself has admitted that
altering the election rules this close to the election would create considerable
administrative burdens, confuse voters, poll workers, and local elections officials, and
engender disparate treatment of voters in the ongoing election.
Consequently, a stay of the enforcement of the consent judgment is necessary
to preserve the status quo, prevent confusion, and preserve the appellate court’s
ability to afford Legislative Defendants relief. Absent a stay, the NCSBE and the
county boards of elections will move toward implementing procedures and conducting
voter education efforts for extending the absentee ballot receipt deadline to nine days
after election day and allowing unmanned drop boxes for voters to deliver completed
ballots, efforts that may confuse voters and election officials should Legislative
Defendants prevail on appeal and restore the status quo.
MOTION TO STAY
Pursuant to Rule 23(e) of the North Carolina Rules of Appellate Procedure,
Legislative Defendants respectfully move this Court to issue a temporary stay of the
trial court’s 2 October 2020 Order. Legislative Defendants further incorporate and
rely on the arguments presented in the foregoing petition for writ of supersedeas in
support of this Motion for Temporary Stay.

App. 478

-71CONCLUSION
Wherefore, the petitioners respectfully pray this Court to issue its writ of
supersedeas to the Superior Court of Wake County of the consent judgment above
specified, pending issuance of the mandate to the Court of Appeals following its
review and determination of the appeal; and that the petitioners have such other
relief as the Court may deem proper. Petitioners also request that this Court
temporarily stay enforcement of the injunction until such time as this Court can rule
on Petitioners’ Petition for Writ of Supersedeas.

App. 479

-72Respectfully submitted this the 21st day of October, 2020.
COOPER & KIRK PLLC
By: /s/ Electronically Submitted
Nicole Jo Moss
N.C. State Bar No. 31958
Telephone: (202) 220-9636
nmoss@cooperkirk.com
1523 New Hampshire Ave.
N.W.
Washington, D.C. 20036
N.C. R. App. P. 33(b) Certification: I
certify that all of the attorneys listed
below have authorized me to list their
names on this document as if they had
personally signed it.
Nathan Huff
PHELPS DUNBAR LLP
North Carolina Bar #40626
4140 ParkLake Avenue,
Suite 100
Raleigh, North Carolina
27612
Telephone: (919)789 5300
Facsimile: (919) 789-5301
ATTORNEYS FOR LEGISLATIVE
DEFENDANTS PHILIP E. BERGER,
in his official capacity as President Pro
Tempore of the North Carolina Senate
and TIMOTHY K. MOORE, in his
official capacity as Speaker of the
North Carolina House of
Representatives

App. 480

- 73VERIFICATION
The undersigned attorney for Legislative Defendants , after being duly sworn,
says:

I have read the foregoing Petition for Writ of Supersedeas and Motion for
Temporary Stay and pursuant to Appellate Rule 23, 1 hereby certify that the material

allegations and contents of the foregoing petition are true to my knowledge, except

those matters stated upon information and belief and, as to those matters, I believe
them to be true.

I also hereby certify that the documents attached to this Petition for Writ of
Supersedeas and Motion for Temporary Stay are true and correct copies of the

pleadings and other documents from the file in Wake County Superior Court and/or

are documents of which this Court can take judicial notice.

Nicole Jo Moss

Wake County, North Carolina

Sworn to and subscribed before me this 21st day of October , 2020.
%

» »

i

o

v

Cyftitai a
'

^

Notary’s Printed Name, Notary Public

05 loSl 2022-

App. 481

•t

- *_> '

/

*

£*S

*5 $

\ tAjv\\
t
PaDia \

My Commission Expires:

i

tea
'i
•?

f

V.
at

*

)

-74CERTIFICATE OF SERVICE
I do hereby certify that I have on this 21st day of October, 2020, served a copy
of the foregoing Petition and Motion by electronic mail and by first class mail on the
following business day, on the following parties at the following addresses:
For the Plaintiffs:

For the State Defendants:

Marc E. Elias
Uzoma N. Nkwonta
Lalitha D. Madduri
Jyoti Jasrasaria
PERKINS COIE LLP
700 Thirteenth St., NW, Suite 600
Washington, DC 20005-3960
melias@perkinscoie.com
unkwonta@perkinscoie.com
LMadduri@perkinscoie.com
AGlickman@perkinscoie.com
JJasrasaria@perkinscoie.com

Alec McC. Peters
Terrence Steed
NORTH CAROLINA DEPARTMENT OF
JUSTICE
P.O. Box 629
Raleigh, NC 27602
apeters@ncdoj.gov
Tsteed@ncdoj.gov

Burton Craige, State Bar No. 9180
Narenda K. Ghosh, State Bar No.
37649
Paul E. Smith, State Bar No. 45014
PATTERSON HARKAVY LLP
100 Europa Dr., Suite 420
Chapel Hill, NC 27517
bcraige@pathlaw.com
nghosh@pathlaw.com
psmith@pathlaw.com

App. 482

For Intervenor-Republican
Committee Defendants:
R. Scott Tobin, N.C. Bar No. 34317
Taylor English Duma LLP
4208 Six Forks Road, Suite 1000
Raleigh, North Carolina 27609
stobin@taylorenglish.com
Bobby R. Burchfield
Matthew M. Leland
King & Spaulding LLP
1700 Pennsylvania Avenue NW,
Suite 200
Washington DC, 20006
bburchfield@kslaw.com
mleland@kslaw.com

-75______________________
Nicole Jo Moss
Cooper & Kirk, PLLC
1523 New Hampshire Ave. NW
Washington, DC 20036

App. 483

No. _________________

TENTH JUDICIAL DISTRICT
NORTH CAROLINA SUPREME COURT

****************************************************
NORTH CAROLINA ALLIANCE FOR RETIRED
AMERICANS; BARKER FOWLER; BECKY
From Wake County
JOHNSON; JADE JUREK; ROSALYN
KOCIEMBA; TOM KOCIEMBA; SANDRA
No. P20-513
MALONE; and CAREN RABINOWITZ,
Plaintiffs,
v.
THE NORTH CAROLINA STATE BOARD OF
ELECTIONS; and DAMON CIRCOSTA, in his
official capacity as CHAIR OF THE NORTH
CAROLINA STATE BOARD OF ELECTIONS,
Defendants,
PHILIP E. BERGER, in his official capacity as
President Pro Tempore of the North Carolina Senate,
and TIMOTHY K. MOORE, in his official capacity
as Speaker of the North Carolina House of
Representatives,
Intervenor-Defendants, and,
REPUBLICAN NATIONAL COMMITTEE,
NATIONAL REPUBLICAN SENATORIAL
COMMITTEE, NATIONAL REPUBLICAN
CONGRESSIONAL COMMITTEE, DONALD J.
TRUMP FOR PRESIDENT, INC., and NORTH
CAROLINA REPUBLICAN PARTY,
Republican Committee
Intervenor-Defendants.

****************************************************
REPUBLICAN COMMITTEES’ PETITION FOR WRIT OF SUPERSEDEAS AND
MOTION FOR TEMPORARY STAY
****************************************************

App. 484

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ......................................................................................................... iii
INTRODUCTION ...........................................................................................................................1
BACKGROUND .............................................................................................................................2
A. North Carolina’s Election Code and the BOE’s Role in Administering Elections. ............2
B. The General Assembly Responds to the COVID-19 Pandemic. ........................................3
C. The Coordinated Litigation Effort To Subvert HB 1169 and Alter North
Carolina’s Election Procedures. .........................................................................................5
D. Plaintiffs’ Lawsuit and the Superior Court’s Approval of the Consent Judgment..............7
E.

The Consent Judgment’s Purported Changes to North Carolina’s Voting Law. .................9

F.

The U.S. District Court’s TRO Enjoining Enforcement of the Numbered Memos
Attached to the Settlement Agreement. ............................................................................10

G. Proceedings before Judge Osteen. ....................................................................................12
ARGUMENT .................................................................................................................................15
I. THE REPUBLICAN COMMITTEES MEET ALL REQUIREMENTS FOR A
WRIT OF SUPERSEDEAS. ..............................................................................................15
A. The Republican Committees Are Likely To Prevail on Their Appeal. .......................16
1. Only a Three-Judge Court Has Authority to Approve the Consent
Judgment. .............................................................................................................16
2. The BOE Lacks Statutory Authority To Implement Policies that Would
Violate North Carolina’s Elections Laws. ............................................................17
3. The Consent Judgment Is Not Fair, Adequate, and Reasonable. ...........................19
4. The Consent Judgment Violates the U.S. Constitution..........................................20
B. Irreparable Injury Will Result Absent a Stay. .............................................................22
C. With Less Than Two Weeks Until Election Day, the Equities Require That
the Consent Judgment Be Stayed and the Status Quo Be Preserved..........................22
1. A Stay Is Consistent with Other Courts’ Rulings...................................................22

App. 485

ii
2. The Public Interest Weighs Heavily in Favor of a Stay. ........................................24
II. REQUEST FOR STAY PENDING A DECISION ON PETITION FOR WRIT OF
SUPERSEDEAS. ...............................................................................................................27
CONCLUSION ..............................................................................................................................27

App. 486

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Abbott v. Highlands,
52 N.C. App. 69 (1981) ...........................................................................................................16
Adams v. N.C. Dep’t of Nat. & Economic Res.,
295 N.C. 683 (1978) ......................................................................................................1, 15, 19
Andino v. Middleton,
No. 20A55, 592 U.S. ___, 2020 WL 5887393 (Oct. 5, 2020) ...........................................23, 24
Ariz. Democratic Party v. Hobbs,
No. 20-16759, 2020 WL 5903488 (9th Cir. Oct. 6, 2020) ......................................................23
Baker v. Carr,
369 U.S. 186 (1962) ...........................................................................................................20, 22
Bush v. Gore,
531 U.S. 98 (2000) .............................................................................................................20, 22
Chambers v. State of North Carolina,
No. 20-CVS-5001242 (Super. Ct. Wake Cnty.) .............................................................. passim
Common Cause v. Thomsen,
2020 WL 5665475 (W.D. Wisc. Sept. 23, 2020) .....................................................................26
Commonwealth of Pa. v. DeJoy,
No. 20-4096, 2020 WL 5763553 (E.D. Pa. Sept. 28, 2020) ....................................................26
Craver v. Craver,
298 N.C. 231 (1979) ................................................................................................................15
Davis v. New Zion Baptist Church,
811 S.E.2d 725 (N.C. Ct. App. 2018) ......................................................................................21
Democracy N.C. v. N.C. State Bd. of Elections,
No. 1:20-cv-457, 2020 WL 4484063 (M.D.N.C. Aug. 4, 2020) ..................................... passim
Democracy N.C. v. N.C. State Bd. of Elections,
No. 1:20-CV-457, 2020 WL 6058048 (M.D.N.C. Oct. 14, 2020).............................................8
Democratic Nat’l Comm. v. Bostelmann,
No. 20-2835 (7th Cir. Oct. 8, 2020) .........................................................................................23

App. 487

iv
Gray v. Sanders,
372 U.S. 368 (1963) ...........................................................................................................20, 22
Harper v. Lewis,
2019 N.C. Super. LEXIS 122 (Oct. 28, 2019) .........................................................................21
Home Indem. Co. v. Hoechst Celanese Corp.,
128 N.C. App. 113 (1997) .......................................................................................................16
James v. Bartlett,
359 N.C. 260 (2005) ........................................................................................................ passim
Moore v. Circosta,
No. 20-cv-507, 2020 WL 5880129 (E.D.N.C. Oct. 3, 2020) .............................................13, 22
Moore v. Circosta,
No. 20-cv-507-D (E.D.N.C. Sept. 26, 2020) ................................................................... passim
N.C. Alliance for Retired Americans v. N.C. State Bd. of Elections,
No. P20-513, Order (N.C. Ct. App. Oct. 15, 2020) .................................................................13
New Ga. Project v. Raffensperger,
No. 20-13360-D, 2020 WL 5877588 (11th Cir. Oct. 2, 2020) ................................................23
Purcell v. Gonzalez,
549 U.S. 1 (2006) .....................................................................................................................24
United States v. North Carolina,
180 F.3d 574 (4th Cir. 1999) ...................................................................................................19
Va. House of Delegates v. Bethune-Hill,
139 S. Ct. 1945 (2019) .............................................................................................................20
Wise v. Circosta,
No. 20-2104, Dkt. 20 (4th Cir. Oct. 20, 2020) .........................................................................12
Statutes
N.C.G.S. § 1-81.1...........................................................................................................................16
N.C.G.S. § 1-267.1...........................................................................................................................6
N.C.G.S. § 1-267.1(c) ....................................................................................................................16
N.C.G.S. § 7A-31...........................................................................................................................16
N.C.G.S. § 163-22(a) .....................................................................................................................17
N.C.G.S. § 163-22.2.......................................................................................................................18

App. 488

v
N.C.G.S. § 163-27.1.......................................................................................................................18
N.C.G.S. § 163-27.1(a) ..................................................................................................................18
N.C.G.S. § 163-223.6(a)(5) ...........................................................................................................10
N.C.G.S. § 163-226(a) .....................................................................................................................2
N.C.G.S. § 163-226.3.................................................................................................................3, 10
N.C.G.S. § 163-227.2(b) ..................................................................................................................3
N.C.G.S. § 163-227.6.......................................................................................................................3
N.C.G.S. § 163-227.6(a) ..................................................................................................................3
N.C.G.S. § 163-231........................................................................................................................10
N.C.G.S. § 163-231(a) .................................................................................................................2, 9
N.C.G.S. § 163-231(b)(1) ..........................................................................................................3, 26
N.C.G.S. § 163-231(b)(2) ............................................................................................................3, 9
N.C.G.S. § 163 art. 14A ...................................................................................................................3
N.C.G.S. § 163 art. 20 ......................................................................................................................2
Other Authorities
N.C. R. App. P. 23 .......................................................................................................14, 15, 16, 27
U.S. Const. amend. XIV ............................................................................................................1, 11
U.S. Const. art. II, § 4 ....................................................................................................................11

App. 489

1
TO THE HONORABLE SUPREME COURT OF NORTH CAROLINA:
The Republican National Committee, National Republican Senatorial Committee, National
Republican Congressional Committee, Donald J. Trump for President, Inc., and the North Carolina
Republican Party (collectively, the “Republican Committees”) respectfully (1) petition the Court
to issue a writ of supersedeas suspending the Superior Court’s October 2, 2020 Order, and move
to (2) temporarily stay enforcement of the Superior Court’s October 2, 2020 Order during review
of the petition for writ of supersedeas.
INTRODUCTION
Three “Numbered Memoranda” directly conflict with the election code that the General
Assembly revised in June 2020, on an overwhelmingly bipartisan basis, to address the COVID-19
pandemic. The BOE asserts authority to make these changes based on a Consent Judgment
approved by the Superior Court on October 2, over the objections of the Republican Committees
as well as the Speaker of the House and the President pro tempore of the Senate (“Legislative
Defendants”).
This secretly-negotiated deal suffers fundamental flaws. The BOE had no authority to enter
the deal and the Superior Court had no authority to approve it. This Court’s decisions in James v.
Bartlett, 359 N.C. 260 (2005) and Adams v. N.C. Dep’t of Nat. & Economic Res., 295 N.C. 683
(1978), require that the BOE adhere to North Carolina’s duly-enacted statutes and not supplant the
lawmaking authority of the General Assembly. The Consent Judgment does so by overriding the
statutory deadline for receiving absentee ballots, undermining the statutory postmark requirement,
and neutering statutory prohibitions on ballot harvesting. Moreover, the order conflicts with the
Elections Clause in Article I, § 4, the Electors Clause in Article II, § 1, and the Equal Protection
Clause of the Fourteenth Amendment to the U.S. Constitution. After expiration of a temporary

App. 490

2
restraining order and a temporary stay, the BOE’s changes became effective on October 19, just
two weeks before the November 3 election, and are already causing widespread chaos for voters
and election administrators.
The Republican Committees ask this Court to grant their petition for writ of supersedeas
and motion to temporarily stay the Superior Court’s order pending appeal. Only urgent action can
prevent immediate and irreparable harm to the Republican Committees, North Carolina’s general
public, and to confidence in North Carolina’s election process.1
BACKGROUND
A. North Carolina’s Election Code and the BOE’s Role in Administering Elections.
North Carolina offers its citizens three ways to vote: (1) absentee voting by mail-in ballot,
(2) in-person early voting, and (3) in-person voting on Election Day. North Carolina’s election
code provides for “no excuse” absentee voting; any qualified voter may vote absentee by
complying with the safeguards enacted by the General Assembly. These three options maximize
election participation, but each is regulated to ensure fair, honest, and secure elections.
The first option is to vote by absentee ballot. See generally N.C.G.S. § 163 art. 20. Under
the General Statues, North Carolina allows “[a]ny qualified voter of the State [to] vote by absentee
ballot in a statewide . . . general . . . election.” Id. § 163-226(a). To ensure election integrity, the
voter must complete and certify the ballot-return envelope in the presence of two witnesses (or a
notary), who must certify “that the voter is the registered voter submitting the marked ballot[]”
(the “Witness Requirement”). Id. § 163-231(a). The voter (or a near relative or verifiable legal
guardian) can then deliver the ballot in person to the county board office or transmit the ballot “by
mail or by commercial courier service, at the voter’s expense, or delivered in person” not “later

1See

Leland Decl., Ex. 1, Oct. 18.

App. 491

3
than 5:00 p.m. on the day of the” general election. Id. § 163-231(b)(1). A ballot is timely if it is
postmarked by election day (the “Postmark Requirement”) and received “by the county board of
elections not later than three days after the election by 5:00 p.m.” (the “Receipt Deadline”). Id.
§ 163-231(b)(2)(b). With limited exceptions, North Carolina law prohibits anyone except the
voter’s near relative or legal guardian from assisting a voter to complete and submit an absentee
ballot (the “Assistance Ban” and “Ballot Delivery Ban”). Id. § 163-226.3.
The second option for North Carolina voters is one-stop early voting. See id. § 163-227.6.
County boards can establish one or more early-voting locations, which the BOE must approve. Id.
§ 163-227.6(a). Those locations opened on October 15 and will remain available until the last
Saturday before the election. Id. § 163-227.2(b).
The third option is in-person voting on election day, November 3. See generally id. § 163
art. 14A. As with the other two methods of voting, the General Assembly has prescribed a series
of rules, to be administered by the BOE and county boards, to ensure that in-person voting is fair,
efficient, and secure. See id.
B. The General Assembly Responds to the COVID-19 Pandemic.
The General Assembly acted decisively by responding to COVID-19 with HB 1169,
passing it into law on June 12, 2020. In the six week lead up to enacting HB 1169, 2 the General
Assembly considered many proposals on how to amend the election code in response to COVID.
The BOE advanced several of those proposals, including one to eliminate the witness requirement
for absentee ballots. Leland Decl., Ex. 3, State Bd. Mar. 26, 2020 Ltr., at 3. Moreover, the General
Assembly had the benefit of information about other primary elections conducted during the

2 Leland Decl., Ex. 2, Jordan Wilkie, NC House Passes Bipartisan Election Bill To Fund

COVID-19 Response, Carolina Public Press (May 29, 2020), at 3.

App. 492

4
pandemic, such as Wisconsin’s, and reports of challenges faced by the United States Postal Service
(“USPS”). And the General Assembly was familiar with the recent election in North Carolina’s
Ninth Congressional District, which was so tainted by “absentee ballot fraud” that it had to be
held anew, and from that incident understood the importance of security in absentee voting. See
id., Ex. 4, In The Matter Of: Investigation of Election Irregularities Affecting Counties Within the
9th Cong. Dist., Order at 2 (Mar. 13, 2019).
HB 1169 passed with overwhelming bipartisan majorities,3 and Governor Cooper signed it
into law. For the November 2020 election, among other things, HB 1169:
•

Reduced the number of witnesses required for absentee ballots to one person
instead of two. HB 1169 § 1.(a).

•

Allowed voters to call the State or county board of elections to request a blank
absentee ballot request form be sent to the voter via mail, e-mail, or fax. Id § 5(a).

•

Enabled voters to request absentee ballots online. Id. § 7.(a).

•

Allowed completed requests for absentee ballots to be returned in person or by mail,
e-mail, or fax. Id. § 2.(a).

•

Permitted “multipartisan team” members to help any voter complete and return
absentee ballot request forms. Id. § 1.(c).

•

Provided for a “bar code or other unique identifier” to track absentee ballots. Id.
§ 3.(a)(9).

•

Appropriated funds “to prevent, prepare for, and respond to the coronavirus
pandemic
during
the
2020
federal
election
cycle.”
Id.
§ 11.1.(a).

These changes balanced public health concerns against the legitimate need for election
security. To strike this balance, the General Assembly retained several provisions, including: (1)
the Postmark Requirement, (2) the three-day Receipt Deadline, (3) the Assistance Ban and Ballot

3 Id., Ex. 5, HB 1169, Voting Record.

App. 493

5
Delivery Ban, and (4) the Witness Requirement, although for the 2020 election only one witness
is required.
Until the Consent Judgment, the BOE faithfully followed the duly-enacted election code.
The absentee ballot packages already sent to 4.7 million households instruct voters that they “must
have one witness who is nearby when [they] mark [their] ballot” and that they must “have applied
[their] postage stamp” by November 3 (if mailing the absentee ballot in). See Leland Decl, Ex. 6,
Absentee Ballot Envelope. The BOE Website instructs voters that “[a]bsentee ballots received
after 5 p.m. on Election Day will be counted only if they are postmarked on or before Election Day
and received by mail no later than 5 p.m. November 6,” see id., Ex. 7, BOE Website. And for
three months BOE vigorously and successfully defended the election code as constitutional, fair,
and necessary to the administration of an accessible, fair, and accurate election.
C. The Coordinated Litigation Effort To Subvert HB 1169 and Alter North Carolina’s
Election Procedures.
Certain groups have tried to use the COVID-19 pandemic as the vehicle to effectuate their
long-desired election policies through the courts.4 At least seven lawsuits attacking parts of HB
1169 have been filed in North Carolina.
The first court to consider these challenges was the U.S. District Court for the Middle
District of North Carolina, which issued a comprehensive 188-page decision on August 4. See
Democracy N.C. v. N.C. State Bd. of Elections, No. 1:20-cv-457, 2020 WL 4484063 (M.D.N.C.
Aug. 4, 2020) (Osteen, J.). In that case, Plaintiff claimed that numerous provisions of North
Carolina’s election code, including the Witness Requirement, Assistance Ban, and Ballot Delivery

4

By one count, at least 404 lawsuits have been filed nationwide attacking state election statutes
and procedures. See Stanford-MIT Healthy Elections Project, COVID-Related Election Litigation
Tracker (last visited Oct. 21, 2020), available at https://healthyelections-case-tracker.stanford
.edu/.

App. 494

6
Ban, violated federal constitutional and statutory law. Id. at *5–10. Legislative Defendants
intervened to defend the General Assembly’s election code, and the Republican Committees
appeared as amici. Id. at *3. After a three-day evidentiary hearing and extensive argument, the
district court rejected nearly all of the claims, finding that plaintiffs could not show a likelihood of
success on the merits. Id. at *1, 64. Moreover, it found that even if certain provisions could
“present an unconstitutional burden under the circumstances created by the COVID-19 pandemic,”
it was not the court’s role to “undertake a wholesale revision of North Carolina’s election laws” so
close to an election. See id. at *45 (citing Purcell v. Gonzalez, 549 U.S. 1 (2006)).
Although the district court denied nearly all of the plaintiffs’ claims, it held that North
Carolina’s lack of a notification and cure procedure for deficient absentee ballots likely violated
procedural due process. Id. at *55. Accordingly, it entered a limited injunction prohibiting the
BOE “from allowing county boards of elections to reject a delivered absentee ballot without notice
and an opportunity to be heard until” it could implement a uniform cure procedure. Id. at *64.
The second decision to reject efforts to enjoin certain aspects of HB 1169 was Chambers
v. State of North Carolina, No. 20-CVS-5001242 (Super. Ct. Wake Cnty.), issued on September 3,
the day before the BOE began mailing absentee ballots. After referral to a three-judge panel,
pursuant to N.C.G.S. §§ 1-267.1, 1A-1 and Rule 42(b)(4), the three-judge court (comprising
Judges Hinton, Bell, and Lock) denied the plaintiffs’ motion to preliminarily enjoin the Witness
Requirement. See Leland Decl., Ex. 8. The court unanimously ruled that the plaintiffs were
unlikely to prevail on the merits. Id. at 6. Just as important, and as an alternative holding, the
court concluded “the equities do not weigh in [plaintiffs’] favor” because of the proximity of the
election, the tremendous costs that their request would impose on the State, and the confusion it
would cause voters. Id. at 7. Adopting the BOE’s arguments, both the Democracy N.C. and

App. 495

7
Chambers courts decided—on August 4 and September 3, respectively—that it was by then too
late to make major revisions to the election code.
D. Plaintiffs’ Lawsuit and the Superior Court’s Approval of the Consent Judgment.
Plaintiffs in this case filed their complaint on August 10, 2020, and an amended complaint
and motion for a preliminary injunction on August 18. Plaintiffs requested the court to “[s]uspend
the Witness Requirement for single-person or single-adult householder” and “[r]equire election
officials to count all absentee ballots mailed through USPS and put in the mail by Election Day if
received by county boards up to nine days after Election Day.” Leland Decl., Ex. 9, Am. Compl.
at 4. On August 24, the Republican Parties moved to intervene as defendants, and the court granted
their motion on September 28.
Meanwhile, on September 22, Plaintiffs and the BOE announced a settlement by Consent
Judgment, and moved for approval of that deal. The Legislative Defendants and the Republican
Committees played no role in the negotiation of the Consent Judgment and opposed its entry. The
Superior Court refused the Legislative Defendants’ motion to refer the case to a three-judge court
on October 2, even though it involved a law passed by that legislature with overwhelming
majorities. The Court also held a hearing on the Motion for Entry of a Consent Judgment that day
and approved the Consent Judgment at the end of the hearing. Among the Numbered Memos
advanced as part of the Consent Judgment was a revised version of Memo 2020-19, which (through
the guise of a “cure” process for deficient absentee ballots) undermined the statutory Witness
Requirement.
Although the BOE represented to the Superior Court that the Consent Judgment was
necessary to ensure the BOE’s compliance with Judge Osteen’s limited preliminary injunction
order in Democracy N.C., when informed of those representations Judge Osteen vehemently
disagreed, stating he “d[id] not find [Revised Numbered Memo 2020-19] consistent with [his

App. 496

8
August 4] order.” Leland Decl., Ex. 10, Democracy N.C., No. 20-cv-00457, Order at *12
(M.D.N.C. Sept. 30, 2020). He then ordered a status conference. Id. Upon further review, Judge
Osteen wrote that he found it “unacceptable” that the BOE “[u]s[ed] the . . . Due Process language
[from his August order] to effectively override the legislative witness requirement, after [Judge
Osteen] upheld it.” Democracy N.C. v. N.C. State Bd. of Elections, No. 1:20-CV-457, 2020 WL
6058048, at *7 (M.D.N.C. Oct. 14, 2020). While BOE Executive Director Karen Brinson Bell
submitted a declaration suggesting that the Revised Memo 2020-19 did not effectively eliminate
the witness requirement, Judge Osteen was unconvinced, concluding the declaration
“contradict[ed] her [previous] testimony . . . in which she stated unequivocally that a ballot with a
missing witness signature could not be cured, but instead had to be spoiled.” Id. at *9.
Judge Osteen’s decision undercuts the Superior Court’s basis for approving the Consent
Judgment. As Judge Osteen determined, the BOE’s “representations to the North Carolina
Superior Court explaining the contents and effects of [his] August Order are at best inaccurate,
and were used to support the [BOE’s] argument to obtain approval of the Consent Judgment and
modify the witness requirement.” Democracy N.C., 2020 WL 6058048, at *9. Nevertheless the
BOE continued to misrepresent the legal theory upon which the Consent Judgment was predicated
in front of the Court of Appeals, claiming Judge Collins “did not rely on the injunction entered in
Democracy North Carolina as the basis for the [BOE’s] authority to enter into the consent
judgment,” BOE Br. at 17, a contention Judge Osteen definitively debunked. He held that Revised
Numbered Memo 2020-21 had the effect of eliminating the Witness requirement, in violation of
the election code and in disregard of his August 4 ruling. Democracy N.C., 2020 WL 6058048, at
*9. Accordingly, Judge Osteen enjoined the BOE from implementing the Revised Numbered
Memo in a way that undermined the Witness Requirement. Id. at *13.

App. 497

9
E. The Consent Judgment’s Purported Changes to North Carolina’s Voting Law.
The Consent Judgment purports to resolve Plaintiffs’ lawsuit by substantially altering
North Carolina’s election code through three “Numbered Memos.” The Numbered Memos, which
are attached to and a part of the Consent Judgment, override North Carolina’s election code in the
following ways:
Witness requirement: Revised Numbered Memo 2020-19 allowed an absentee voter to
substitute his or her own “voter certification” in lieu of a witness to the ballot. The effect of this
change was to override the statutory Witness Requirement. See N.C.G.S. § 163-231(a). The U.S.
District Court enjoined the change on October 14.5
Receipt deadline. If absentee ballots are submitted by mail, the election code requires that
they be postmarked by election day and received by 5:00 p.m. no later than three days after
election day (by Nov. 6, 2020). N.C.G.S. § 163-231(b)(2). Numbered Memo 2020-22 purports
to extend that deadline by six days: “An absentee ballot shall be counted as timely if it . . . is
postmarked on or before Election Day and received by nine days after the election, which is
Thursday, November 12, 2020 at 5:00 p.m.” Leland Decl., Ex. 11, Numbered Memo 2020-22 at
1 (emphasis added).
Postmark requirement. The election code requires that absentee ballots be “postmarked”
on or before election day at 5:00 p.m. in order to be counted. N.C.G.S. § 163-231(b)(2).
“Postmark” is a well-understood term—a “postmark” is “[a]n official mark put by the post office
on an item of mail to cancel the stamp and to indicate the place and date of sending or receipt.”

5

Judge Osteen concluded that elimination of the Witness Requirement violated his prior Order in
the case. Democracy N.C., 2020 WL 4484063, at *64. On October 18, the BOE acceded to Judge
Osteen’s October 14 injunction and issued another revision to Numbered Memo 2020-19,
producing version 3.

App. 498

10
Black’s Law Dictionary (11th ed. 2019).6 Numbered Memo 2020-22 provides, however, that a
ballot “shall be considered postmarked by Election Day if it has a postmark affixed to it or if there
is information in BallotTrax, or another tracking service offered by the USPS or a commercial
carrier, indicating that the ballot was in the custody of USPS or the commercial carrier on or before
Election Day.” Leland Decl., Ex. 11, Numbered Memo 2020-22 at 2 (emphasis added). It
therefore overrides the statute.
Ballot delivery and assistance bans.

Pursuant to the laws enacted by the General

Assembly, completed mail ballots may be returned in person by the voter, the voter’s near relative
or verifiable legal guardian, or by mail using USPS or a commercial courier. N.C.G.S. §§ 163229(b), 163-231(a)-(b); HB 1169 §§ 1.(a), 2.(a). It is a Class I felony for any other person to take
possession of another voter’s absentee ballot for delivery or return to a county board of elections.
N.C.G.S. § 163-223.6(a)(5). With limited exceptions, North Carolina law also prohibits anyone
except the voter’s near relative or legal guardian from assisting with the completion and
submission of an absentee ballot. N.C.G.S. § 163-226.3. Numbered Memo 2020-23, however,
provides that “[a] county board shall not disapprove an absentee ballot solely because it was
delivered by someone who was not authorized to possess the ballot” and that “a county board may
not disapprove a ballot solely because it is placed in a drop box.” Leland Decl., Ex. 12, Numbered
Memo 2020-23 at 2-3.
F. The U.S. District Court’s TRO Enjoining Enforcement of the Numbered Memos
Attached to the Settlement Agreement.
On September 26, the Republican Committees and others filed suit in the U.S. District
Court for the Eastern District of North Carolina and sought a temporary restraining order (“TRO”).

6

See also
/ch1_003.htm.

USPS

processing

guidelines,

App. 499

https://about.usps.com/handbooks/po408

11
The lawsuit asserted four grounds for relief: (1) violation of the Elections Clause in the U.S.
Constitution, Art. II, § 4; (2) violation of the Electors Clause of the U.S. Constitution, Art. II, § 1;
(3) dilution of the right to vote under the Fourteenth Amendment of the U.S. Constitution; and (4)
denial of equal protection under the Fourteenth Amendment of the U.S. Constitution. Id., Ex. 13,
Wise v. N.C. State Bd. of Elections, No. 5:20-cv-505-D, Dkt. 1 (E.D.N.C. Sept. 26, 2020). The
Legislative Defendants filed a complaint in the same court raising similar challenges and also
requesting a TRO. Id., Ex. 14, Moore v. Circosta, No. 20-cv-507-D, Dkt. 1 (E.D.N.C. Sept. 26,
2020).
The District Court heard the TRO motions on October 2 and granted the motions on
October 3, temporarily enjoining the defendants in Wise and Moore from enforcing the challenged
Numbered Memos “or any similar memoranda or policy statement that does not comply with the
requirement of the Equal Protection Clause.” Id., Ex. 15, Moore, No. 20-CV-507, Order at *19
(E.D.N.C. Oct. 3, 2020). This order was “intended to maintain the status quo” until no later than
October 16, 2020. Id. The court found the “plaintiffs’ argument concerning the Equal Protection
Clause persuasive,” concluding that the plaintiffs were likely to succeed on the merits of their
claims and would suffer irreparable harm without a TRO. Id. at 12. It also found that the balance
of equities tipped in their favor and the TRO was in the public interest. Id.
In evaluating the factors for a TRO, the court expressed concern that the Numbered Memos
would “materially chang[e] the electoral process in the middle of an election after over 300,000
people have voted,” and observed that the TRO would “restor[e] the status quo for absentee voting
in North Carolina,” while the court assesses the case. Id. at 15 (emphasis added). By the same
order, the Court transferred both complaints (Wise and Moore) to Judge Osteen in the Middle
District of North Carolina. Id. at 19.

App. 500

12
G. Proceedings before Judge Osteen.
An order entered by Judge Osteen last Wednesday underscores why a stay must issue. In
Moore v. Circosta, Judge Osteen concluded that the Memos likely violate the Equal Protection
Clause of the United States Constitution by subjecting North Carolina voters to two separate
absentee voting regimes based on the arbitrary factor of when they voted. 2020 WL 6063332, at
*30. For example, the extension of the Receipt Deadline “results in disparate treatment,” as
previous absentee voters complied with the statutory deadline while future absentee voters will be
under no such obligation. Id. at *19. Given the further likelihood of irreparable injury if the
Receipt Deadline were to go into effect, Judge Osteen determined “the unequal treatment of voters
. . . should be enjoined.” Id. at *22, 30.7
Furthermore, while he ultimately concluded that the plaintiffs lacked standing, he noted
the BOE likely violated its statutory obligation to adhere to North Carolina’s voting laws by
agreeing to implement the Memos, concluding that “this court cannot conceive of a more
problematic conflict with the provisions of Chapter 163 of the North Carolina General Statutes
than the procedures implemented by the Revised 2020-19 memo and the Consent Order.” Id. at
*30. Despite the Memos’ constitutional and statutory deficiencies, Judge Osteen decided that as
a Federal Judge he lacked authority to enjoin the BOE’s implementation of the Numbered Memos.
Id.
On October 16, Judge Collins held a hearing on, and denied, motions to stay the Consent
Judgment filed by the Republican Committees and the Legislative Defendants. Leland Decl., Ex.
17. Nevertheless, the TRO issued by Judge Dever preserved the status quo from October 3-16. See
7

The evening of October 20, 2020, the U.S. Court of Appeals for the Fourth Circuit, in a divided
ruling issued by the en banc court, denied a motion for injunction pending appeal from Judge
Osteen’s denial of the injunction. See Leland Decl., Ex. 16, Wise v. Circosta, No. 20-2104, Dkt.
20 at *2 (4th Cir. Oct. 20, 2020).

App. 501

13
id., Ex. 15, Moore v. Circosta, No. 20-cv-507, 2020 WL 5880129 (E.D.N.C. Oct. 3, 2020). That
TRO expired at 11:59 p.m. on October 16. See id., Ex. 18, Wise, No. 20-cv-912, Order, Dkt. 63.
On October 15, the Court of Appeals preserved the status quo by staying Judge Collins’ order
before the TRO expired. See id., Ex. 19, N.C. Alliance for Retired Americans v. N.C. State Bd. of
Elections, No. P20-513, Order, at *1 (N.C. Ct. App. Oct. 15, 2020).
On October 19, however, the Court of Appeals withdrew its temporary stay and denied the
Petitions for Writs of Supersedeas filed by the Republican Committees and Legislative
Defendants. See N.C. Alliance for Retired Americans v. N.C. State Bd. of Elections, No. P20-513,
Order, at *1 (N.C. Ct. App. Oct. 19, 2020). The BOE immediately implemented the challenged
Numbered Memos, which are now publicly available on the BOE’s website.8 As shown (pp. x
above), the challenged Memos extensively changed the election code. As predicted by the threejudge court in Chambers and the U.S. District Courts in Democracy N.C. (Osteen, J.) and Moore
(Dever, J.), these mid-election changes are already causing chaos among voters and election
officials. A long-time county election official points out that just the extension of the receipt
deadline for absentee ballots would “substantially increase the administrative burden on county
election Boards, the risk of error, and the potential for significant delays.” Leland Decl., Ex. 20,
Summa Aff. ¶ 11. This secret deal requires even more substantial changes than addressed in those
affidavits, with far less time to implement them.
A writ of supersedeas is needed to halt the implementation of the Consent Judgment. The
challenged Memos set forth rules that are inconsistent with the instructions in the absentee ballot
packages already sent to approximately 4.7 million households. Over 600,000 absentee ballots

8

See https://www.ncsbe.gov/about-elections/legal-resources/numbered-memos (last accessed
October 20, 2020).

App. 502

14
have already been cast, in accordance with the instructions in those packages.9 And the BOE’s
website continues to tell voters that “[a]bsentee ballots received after 5 p.m. on Election Day will
be counted only if they are postmarked on or before Election Day and received by mail no later
than 5 p.m. November 6” in contrast to the challenged Memos which allow receipt of ballots until
November 12.

Id., Ex. 7, BOE Website (emphasis added).

Voters and county election

administrators are, in fact, confused. See id., Ex. 21, Supp’l Summa Aff. ¶ 4. A writ of supersedeas
pending resolution of this appeal is essential to preserve an orderly, fair, and accurate election and
to prevent the BOE from implementing procedures that would violate the Elections, Electors, and
Equal Protection Clauses of the U.S. Constitution.
REASONS FOR CONSIDERING THIS PETITION
The Republican Committees satisfied their obligations under N.C. R. App. P. 23, which
permits “[a]pplication to be made to the appropriate appellate court for a writ of supersedeas to
stay the execution or enforcement of any judgment, order, or other determination of a trial tribunal
which is not automatically stayed by the taking of appeal when an appeal is taken.” See N.C. R.
App. P. 23(a)(1). Applicants must seek a stay from the trial court and Court of Appeals before
petitioning for a writ of supersedeas in the Supreme Court.

N.C. R. App. P. 23(a)–(b). The

Republican Committees adhered to this rule by petitioning the Superior Court and Court of
Appeals for a stay of the Consent Judgment, and both petitions were denied.
Grant of the Republican Committees’ petition for supersedes is urgently needed to prevent
the BOE from implementing the Numbered Memos at issue. Without this Court’s intervention,
the BOE will override multiple absentee voting requirements enacted by the General Assembly,

9

See https://www.ncsbe.gov/voting/vote-mail/detailed-instructions-voting-mail#returning-aballot (last accessed Oct. 21, 2020).

App. 503

15
an outcome that conflicts with this Court’s decisions holding that the BOE has no such authority.
See James, 359 N.C. at 270 (determining that the BOE is required to adhere to North Carolina’
statutory voting requirements); Adams, 295 N.C. at 696 (providing that the legislature lacks the
authority to delegate its lawmaking power to “any agency which it may create”). The BOE will
further continue to supplant the General Assembly’s constitutional authority to set the time,
manner, and place for federal elections, and to determine the process for choosing Presidential
Electors, while depriving North Carolina’s citizens of their right to vote on equal terms under the
Equal Protection Clause of the U.S. Constitution. The election is imminent. The Court’s grant of
a writ of supersedeas and temporary stay pending a decision on the writ is imperative to prevent
substantial—and, indeed, irreparable—harm.
ARGUMENT
I.

THE REPUBLICAN COMMITTEES MEET ALL REQUIREMENTS FOR A WRIT
OF SUPERSEDEAS.
The Republican Committees have compelling grounds for the Court to reverse the Court

of Appeals’ October 19 order and grant a writ of supersedeas. See generally, Craver v. Craver,
298 N.C. 231, 237–38 (1979) (A writ of supersedeas’s purpose is to “preserve the Status quo
pending the exercise of appellate jurisdiction.”). North Carolina Rule of Appellate Procedure 23
provides that “[a]pplication may be made to . . . to stay the . . . enforcement of any judgment . . .
which is not automatically stayed by the taking of appeal when an appeal has been taken” and
where “a stay order or entry has been sought by the applicant by deposit of security or by motion
in the trial tribunal and such order or entry has been denied.” N.C. R. App. P. 23(a)(1).10 If the
applicant satisfies these requirements, it must include “a statement of reasons why the writ should

10

The Republican Committees fulfilled the condition of first submitting their petition to the Court
of Appeals. See N.C. R. App. P. 23(a)(2).

App. 504

16
issue in justice to [him].” N.C. R. App. P. 23(c).11 The Republican Committees satisfy each
requirement. In determining the “in justice” requirement, courts must balance: (1) the petitioner’s
likelihood of success on the merits of the appeal; (2) whether irreparable injury will occur absent
a stay, and (3) whether the balancing of the equities supports temporary relief preserving the status
quo during the appeal. See Abbott v. Highlands, 52 N.C. App. 69, 79 (1981) (stay appropriate
where “there [was] some likelihood that plaintiffs would have prevailed on appeal and thus been
irreparably injured”); Home Indem. Co. v. Hoechst Celanese Corp., 128 N.C. App. 113, 117–19
(1997) (stay appropriate where failure to stay enforcement “would work a substantial injustice”).
Each of these factors weighs in favor of issuing a writ of supersedeas suspending enforcement of
the Consent Judgment pending appeal.
A. The Republican Committees Are Likely To Prevail on Their Appeal.
1. Only a Three-Judge Court Has Authority to Approve the Consent Judgment.
First, before the Consent Judgment was announced, Plaintiffs (joined by BOE) persuaded
the Superior Court to deny a request to refer the case to a three-judge panel as required by N.C.G.S.
§ 1-81.1 (a1). See also N.C.G.S. § 1-267.1(c). The BOE and the Plaintiffs argued that a threejudge panel was unnecessary because this case is an “as-applied” challenge to the enforcement of
otherwise constitutional laws in the context of the COVID pandemic and alleged issues with the
United States Postal Service. Leland Decl., Ex. 22, BOE Opp. at 23-27; Id., Ex. 23, Plaintiffs’
Opp. at 17-25.
This was a stark reversal from the BOE’s prior position. The BOE had previously argued
successfully in a very similar case that a three-judge panel was required. In Chambers, as here,
the Complaint sought relief based on COVID-19 and was purportedly limited to the 2020 general

11

See also N.C. R. App. P. 23(c) (noting the application “may be included in a petition for
discretionary review by the Supreme Court under N.C.G.S. § 7A-31”).

App. 505

17
election.

Id., Ex. 24, Chambers Compl., at 39, Prayer for Relief (requesting that the court

“[d]eclare . . . that the Witness Requirements are unconstitutional and invalid during the COVID19 pandemic”) (emphasis added). Nevertheless, the BOE successfully argued that the Chambers
Complaint asserted a facial challenge because HB 1169 is itself limited to the 2020 election and
the circumstances of COVID-19. Leland Decl., Ex. 25, Chambers v. North Carolina, No. 20-CVS500124, BOE Opp. to Preliminary Inj., at 1 (Aug. 26, 2020). HB 1169 explicitly states that its
changes are “For an election held in 2020.” HB 1169. See Leland Decl., Ex. 26, Chambers, 20CVS-500124, Order (Sup. Ct. Wake Cnty. Aug. 28, 2020) (“The Court finds the Complaint raises
only facial challenges to the constitutionally of an act of the General Assembly.”). The three-judge
panel in Chambers denied all relief on September 3 based on the imminence of the election and
the disruption changes to the election code would cause at that late date. That was over six weeks
ago. Accordingly, as in Chambers, the Plaintiffs (and now the BOE) seek to modify that statute
in all its applications, and such a request is within the exclusive jurisdiction of a three-judge court.
2. The BOE Lacks Statutory Authority To Implement Policies that Would
Violate North Carolina’s Elections Laws.
Second, by approving the Consent Judgment, the Superior Court authorized the BOE—
through the Memos—to implement absentee voting procedures that are inconsistent with multiple
provisions of the election code. North Carolina’s statutes prohibit the BOE from implementing
rules and regulations that “conflict with any provisions of this Chapter.” See N.C.G.S. § 163-22(a).
Moreover, the code instructs that BOE “shall compel observance of the requirement of the election
laws by the county boards of elections and other officers.” See id. § 163-22(c). Notwithstanding
these statutory limitations, the Consent Judgment instructs county boards of elections to ignore
absentee voting requirements and replace them with the BOE’s more lenient voting procedures.

App. 506

18
The BOE cannot overcome that statutory language by claiming that it acted within the
scope of its authority under N.C.G.S. §§ 163-22.2 and 163-27.1. Leland Decl., Ex. 22, BOE Br.
at 37. N.C.G.S. § 163-27.1(a) allows the BOE to exercise “emergency powers,” but those
“Emergency Powers are limited to an election ‘in a district where the normal schedule for the
election is disrupted.’” Moore, 2020 WL 6063332, at *28 (quoting N.C.G.S. § 163-27.1(a)).
“Nothing about COVID-19 disrupts the normal schedule for the election as might be associated
with hurricanes, tornadoes, or other natural disasters.” Id. More fundamentally, the General
Assembly directly addressed the COVID-19 pandemic in HB 1169; BOE cannot use the very same
“emergency” to override the General Assembly’s response to the COVID-19 pandemic.
N.C.G.S. § 163-22.2 also does not apply here. That provision permits the BOE to
implement “reasonable interim rules and regulations” for a pending general election only in
response to a judicial decision striking down a portion of North Carolina’s election statutes as
“unconstitutional or invalid.” N.C.G.S. § 163-22.2. But no court has held a relevant statute
unconstitutional or invalid. To the contrary, both Judge Osteen in Democracy N.C. and the threejudge panel in Chambers upheld the absentee voting requirements that the BOE now seeks to
nullify. See Democracy N.C., 2020 WL 4484063, at *64; Chambers, No. 20-CVS-500124, Order
at *6. Moreover, upon such a finding of invalidity, the statute authorizes the BOE “also” to “enter
into agreement with the courts” only if doing so would avoid “protracted litigation.” This
provision does not apply to this fast-moving litigation about an imminent election. Even if those
conditions were satisfied, however, the BOE’s actions would still violate N.C.G.S. § 163-22.2,
which reiterates that the BOE lacks the authority to implement “interim rules and regulations” that
“conflict with any provisions of Chapter 163 of the General Statutes.” (emphasis added).

App. 507

19
Moreover, the BOE’s action flies in the face of controlling precedent, which it again
ignored in its briefing before the Court of Appeals. In James v. Bartlett, 359 N.C. 260 (2005), this
Court rejected a decision by BOE to ignore the election code by counting provisional ballots cast
in the wrong precinct. This Court held that “[t]o permit unlawful votes to be counted along with
lawful ballots in contested elections effectively ‘disenfranchises’ those voters who cast legal
ballots.” Id. at 644. James makes clear that BOE is constrained by the express terms of the statutes,
even when voters make unintentional mistakes. The opinion vindicates the settled rule that the
legislature’s core legislative power is not delegable. See also Adams, 295 N.C. at 696 (holding the
legislature may not abdicate its power to make laws or delegate its supreme legislative power to
any coordinate branch or to any agency).
3. The Consent Judgment Is Not Fair, Adequate, and Reasonable.
Third, the Superior Court failed to ensure that the Consent Judgment is “fair, adequate, and
reasonable.” United States v. North Carolina, 180 F.3d 574, 581 (4th Cir. 1999). The Consent
Judgment gives Plaintiffs nearly all relief requested, including extension of the Receipt Deadline,
elimination of the Postmark Requirement, and neutralization of the Ballot assistance and delivery
Harvesting Bans.12

The unfairness of this deal is exacerbated by its timing—against the

admonitions in Democracy N.C. and Chambers—because it would impose new rules on
prospective absentee voters in North Carolina while throwing the system into chaos. The Consent
Judgment would accordingly grant relief that is grossly disproportionate to the strength of
Plaintiffs’ case. Most notably, a federal district court in Democracy N.C. (on August 4) and a
three-judge court in Chambers (on September 3) had already rejected many of the Plaintiffs’

12

That Plaintiffs did not receive everything they wished for, including relief that is impractical at
this late date, such as prepaid postage for absentee ballots, hardly demonstrates that the deal is fair,
reasonable, or arms’ length.

App. 508

20
claims, and both courts had warned weeks before the Consent Judgment that it was too late to
make such changes to the election laws. Leland Decl., Ex. 8, Chambers, No. 20-CVS-500124,
Order at *6; Democracy N.C., 2020 WL 4484063, at *64. Indeed, long after hundreds of thousands
of absentee ballots have been cast, the last-minute extension of the receipt deadline to nine days
after Election Day, as provided in Numbered Memo 2020-19, directly “contravenes the express
deadline established by the General Assembly,” Moore, 2020 WL 6063332, at *19, and directly
negates the statutory three-day deadline.
4. The Consent Judgment Violates the U.S. Constitution.
Elections and Electors Clause. The BOE opposed the Republican Committees’ arguments
regarding the Elections and Electors Clauses of the United States Constitution in the Court of
Appeals because: (1) the Republican Committees lack standing, as intervenors, to make that
argument; and (2) the BOE acted within the authority delegated to it by the North Carolina General
Assembly. Leland Decl., Ex. 22, BOE Br. at 31-42. Neither argument has merit.
The Republican Committees—or, at the very least, the Legislative Defendants, who are
also appealing—have met that standing requirement. See Va. House of Delegates v. Bethune-Hill,
139 S. Ct. 1945, 1951 (2019) (if no party appeals a decision, “an intervenor must independently
demonstrate standing” to appeal it). The Republican Committees have sustained injury because
the arbitrary and disparate procedures set forth in the Consent Judgment undermine their
investments in educating voters about the statutory procedures. See Rep. Committees’ Pet. for
Writ of Supersedeas at 2; Bush v. Gore, 531 U.S. 98, 104–05 (2000); Gray v. Sanders, 372 U.S.
368, 379–80 (1963); Baker v. Carr, 369 U.S. 186, 208 (1962).

Notably, the Republican

Committees’ standing is at least equivalent to that of the Alliance, which claimed standing to
challenge the statutes based on its voting membership. The Republican Committees also have a
representational interest for like-minded voters who have shouldered the very burdens the Alliance

App. 509

21
Plaintiffs claim are unconstitutional. In addition, the Committees represent Republican local, state,
and national candidates, who will be harmed by confusion of voters and administrators, and who
also bear the risk of post-election controversies.
The BOE’s arguments against standing are based on federal caselaw addressing the
narrower concept of Article III standing—not applicable to North Carolina courts. See Leland
Decl., Ex. 22, BOE Br. at 32–33; Davis v. New Zion Baptist Church, 811 S.E.2d 725, 727 (N.C.
Ct. App. 2018) (“[B]ecause North Carolina courts are not constrained by the ‘case or controversy’
requirement of Article III of the United States Constitution, [the] State’s standing jurisprudence is
broader than federal law.”). “The ‘gist of the question of standing’ under North Carolina law is
whether the party seeking relief has ‘alleged such a personal stake in the outcome of the
controversy as to assure that concrete adverseness which sharpens the presentation of issues upon
which the court so largely depends for illumination of difficult constitutional questions.’” Harper
v. Lewis, 2019 N.C. Super. LEXIS 122, *6-7 (Oct. 28, 2019) (quotation omitted). The Republican
Committees, and the voters and candidates they represent, are directly and seriously injured by the
BOE’s usurpation of the General Assembly’s authority: as this Court stated in James, allowing
votes that do not comply with the election code harms all voters who vote by the rules.
Equal Protection Clause. The implementation of the Numbered Memos violates the Equal
Protection Clause, which guarantees the right for each voter to have his or her vote counted on an
equal basis. In James v. Bartlett this Court ruled against the BOE’s decision, in contravention of
the election code, to count provisional ballots cast in the wrong precincts, that “effectively
‘disenfranchise[d]’ those voters who cast legal ballots, at least where the counting of unlawful
votes determines an election’s outcome.” 359 N.C. at 270. As Judge Osteen ruled in Moore v.
Circosta, the BOE “has ignored the statutory scheme and arbitrarily created multiple, disparate

App. 510

22
regimes under which North Carolina voters cast absentee ballots, and plaintiff voters in this case
and in Wise are likely to succeed on their claims under the Equal Protection Clause.” 2020 WL
5880129, at *7. Arbitrarily imposing multiple sets of voting rules violates this right, as the U.S.
and North Carolina Supreme Courts have determined. See Gore, 531 U.S. at 104-05; Carr, 369
U.S. at 208; James, 359 N.C. at 270. A writ of supersedeas is warranted to protect the integrity of
duly-enacted election statutes, to preserve the status quo, and to protect the constitutional rights
that two courts have already found would be violated if the Consent Judgment becomes effective.
B. Irreparable Injury Will Result Absent a Stay.
A stay is necessary to prevent the irreparable harm of allowing invalid votes to be cast and
counted in the upcoming election. Judge Osteen already concluded the challenged Memos violate
the Equal Protection Clause because they cause “disparate treatment, as [certain] voters . . . .
returned their ballots within the time-frame permitted under state law . . . but other voters [would]
. . . have an additional six days to return their ballot.” Moore, 2020 WL 6063332, at *1. He
further concluded that these harms were likely irreparable. Judge Dever reached a similar
conclusion hours after the Consent Judgment was approved. See Moore, 2020 WL 5880129. The
Republican Committees will also sustain irreparable injury because the arbitrary and disparate
procedures undermine their millions of dollars of investments to educate voters about the statutory
procedures. See Gore, 531 U.S. at 104–05; Sanders, 372 U.S. at 379–80; Carr, 369 U.S. at 208.
C. With Less Than Two Weeks Until Election Day, the Equities Require That the
Consent Judgment Be Stayed and the Status Quo Be Preserved.
1. A Stay Is Consistent with Other Courts’ Rulings.
Until Judge Collins’s decision to approve the Consent Judgment, every court to examine
these issues has concluded that the BOE should not undertake major changes to the procedure for
absentee voting this close to the election. The Middle District of North Carolina already rejected

App. 511

23
many of the Plaintiffs’ claims in its August 4 order, while recognizing that it was too late to make
changes to North Carolina’s election laws. See Democracy N.C., 2020 WL 4484063, at *64. On
September 3, a day before absentee voting began, a three-judge panel of the Wake County Superior
Court expressed this same concern when it unanimously denied a motion to enjoin North
Carolina’s requirement that one person witness an absentee ballot.

Leland Decl., Ex. 26,

Chambers, No. 20-CVS-500124, Order at *6, 7 (changing the law as of September 3 “would likely
lead to voter confusion about the process for voting by absentee ballots”) (emphasis added). The
BOE has ignored Chambers in its briefs before the Superior Court and the Court of Appeals, and
has never explained why putting extensive changes into effect two weeks before the election would
be less disruptive than the more modest changes rejected in Chambers two months before the
election.
In their lower-court briefing, Plaintiffs relied on decisions from other states granting
injunctions against various election law requirements. They failed to mention, however, that those
decisions are not faring well on appeal. See, e.g., Andino v. Middleton, No. 20A55, 592 U.S. ___,
2020 WL 5887393 (Oct. 5, 2020) (staying injunction against South Carolina’s witness
requirement). For example, appellate courts at the state and federal level have reversed lowercourt decisions purporting to extend the receipt deadlines for absentee ballots. See, e.g.,
Democratic Nat’l Comm. v. Bostelmann, Nos. 20-28-35, 20-2844, Dkt. 76, at *3 (7th Cir. Oct. 8,
2020) (per curiam) (staying lower court’s extension of Wisconsin’s voter registration and absentee
ballot receipt deadlines); Ariz. Democratic Party v. Hobbs, No. 20-16759, 2020 WL 5903488, at
*1 (9th Cir. Oct. 6, 2020) (staying district court’s order enjoining Arizona’s absentee ballot
signature deadline); New Ga. Project v. Raffensperger, No. 20-13360-D, 2020 WL 5877588, at *1
(11th Cir. Oct. 2, 2020) (staying injunction because lower court “manufactured its own ballot

App. 512

24
deadline so that the State [of Georgia was] required to count any ballot that was both postmarked
by and received within three days of Election Day”).
These decisions are all consistent with warnings by the three-judge court in Chambers, as
well as the United States Supreme Court, which has repeatedly admonished that courts must
consider how rulings issued just “weeks before an election” could “result in voter confusion.”
Purcell, 549 U.S. at 4–5. This risk increases and becomes weightier “[a]s an election draws
closer.” Id. at 5. Indeed, the Supreme Court repeated its instruction on October 5 by staying an
injunction against South Carolina’s witness requirement for absentee ballots. See Andino, 2020
WL 5887393, at *1. Although Purcell and Andino addressed decisions by lower federal courts,
their admonition against changing state election statutes close to an election are no less applicable
here. Indeed, the three-judge court in Chambers identified these very concerns as an independent
basis for refusing to negate the Witness Requirement. If it was too late for changes on September
3 when the Chambers court issued its decision, it is certainly too late now—six weeks later.
2. The Public Interest Weighs Heavily in Favor of a Stay.
First, the BOE argued before the Court of Appeals that its recent decision (now
abandoned) to stop processing absentee ballots is a valid basis for vacating the stay. BOE Opp. at
2–3. As of October 18, 2020, BOE unilaterally implemented version three of Numbered Memo
2020-19. This new guidance provides for a cure process without undermining the statutory witness
requirement. See Leland Decl., Ex. 27, October 18 Ltr. The BOE could have taken this action
two weeks ago but resisted while contending (inaccurately) that the Legislative Intervenors and
the Republican Committees were responsible for the lack of a cure process.
Second, the Consent Judgment will violate the Equal Protection rights of those who voted
by absentee ballot before the terms became effective by imposing arbitrary and differential
treatment on them in contrast to those who vote by absentee ballot after the terms become effective.

App. 513

25
As Judge Osteen concluded, the Memos “appear to be clear violations” of the Equal Protection
Clause in the U.S. Constitution. Moore, 2020 WL 6063332, at *1. These considered decisions by
two respected federal judges plainly show that the issues presented are substantial and that the
Republican Committees have a high likelihood of prevailing.
Third, as shown (pp. 13–14), denying the stay and allowing the Consent Judgment to
continue in effect, is causing mass confusion for voters and confusion and administrative
nightmares for county boards of elections. The BOE, the Republican Committees, and other
organizations have been instructing voters on how to correctly submit absentee ballots in
compliance with the election statutes since before September 4 when the first absentee ballots were
mailed to voters. The absentee ballot packages themselves contain instructions inconsistent with
the challenged Memos. See Leland Decl., Ex. 6, Democracy N.C., No. 1:20-cv-00457, Absentee
Ballot Envelope, Dkt. 115-2 (July 27, 2020) (requiring witness signature and “postmark” by
November 3). The BOE’s own website currently instructs voters that absentee ballots “must be
postmarked by November 3, 2020 and received by November 6, 2020.”13 Challenged Memo
2020-22 countermands this instruction. As of September 22, the day the first of the Memos was
issued, 153,664 absentee ballots had been cast.14 That number is now 626,781. Id. (Oct. 20, 2020).
The Consent Judgment would dramatically alter material aspects of these instructions. It is
unreasonable on an operational level for county boards of elections and their staffs to make these
changes and for voters to have confidence in such an arbitrary system. Moreover, the extension
of the receipt deadline from the statutory three days after Election Day to nine days gives

13See

Leland Decl., Ex. 28, https://www.ncsbe.gov/voting/vote-mail/detailed-instructions-votingmail#returning-a-ballot (last accessed Oct. 21, 2020).
14
See
https://dl.ncsbe.gov/?prefix=Press/NC%20Absentee%20Stats%20for%202020%20
General%20Election/.

App. 514

26
procrastinating voters another excuse to wait, and perhaps miss the postmark deadline, or may
mislead voters if it turns out that the extension is overturned on appeal before Election Day. Cf.
Common Cause v. Thomsen, 2020 WL 5665475, at *2 (W.D. Wisc. Sept. 23, 2020) (noting risk).
Finally, the BOE’s concerns about the United States Postal Service’s ability to deliver mail
in a timely fashion in North Carolina is unsupported. BOE Br. at 10-11. As of now, over a million
North Carolinians have succeeded in returning their absentee ballots through the mail. The
concerns raised by BOE arise (if at all) only when a voter waits until Election Day to mail his or
her completed ballot; any voter who waits that long may also return the ballot in person. N.C.G.S.
§ 163-231(b)(1). Even if a voter does wait until the last permitted hour of election day to mail his
or her ballot, data show that (i) in the second quarter of 2020—during the COVID-19 pandemic—
USPS delivered 95% of North Carolina mail within two days, (ii) mail volumes are significantly
down during the pandemic, and any increase due to mail-in voting will be infinitesimal in relation
to the normal volume of mail handled by USPS, (iii) USPS has procedures in place to deal
effectively with election mail. Leland Decl., Ex. 29, Plunkett Aff. ¶14. Although in the Court of
Appeals the BOE quoted extensively from the DeJoy litigation in Pennsylvania, it strikingly
neglected to tell the Court that the district court enjoined the administrative changes at issue in that
case through the election, so they are no longer of concern. Commonwealth of Pa. v. DeJoy, No.
20-4096, 2020 WL 5763553, at *44 (E.D. Pa. Sept. 28, 2020) (granting nationwide injunction
against changes that would have caused delays, including the prohibition on late or extra trips by
postal workers and limits on overtime). Finally, while true that the election code allows ballots
postmarked by election day from overseas and military voters six additional days to arrive, that
additional time is in recognition of the unique difficulties faced by those voters. Leland Decl., Ex.
30, Lockerbie Aff. ¶ 32. When it revised the election code in June, the General Assembly elected

App. 515

27
not to revise the Ballot Receipt Deadline for domestic voters. Doing so would once again place
overseas and military voters at a comparative disadvantage, which would be inappropriate. Id.
II.

REQUEST FOR STAY PENDING A DECISION ON PETITION FOR WRIT OF
SUPERSEDEAS.
For the reasons set forth in Part I, supra, the Republican Parties further request that the Court

enter an order temporarily staying enforcement of the Superior Court’s October 2, 2020 Order
pending a decision on their petition for writ of supersedeas. See N.C. R. App. P. 23(e). The
Republican Parties further submit that the impending election provides good cause for the Court
to issue a stay ex parte.
CONCLUSION
The Republican Committees respectfully request that this Court grant their petition and
motion and (1) temporarily stay enforcement of the Superior Court’s October 2, 2020 Order during
review of the petition for writ of supersedeas; and (2) issue a writ of supersedeas suspending the
Superior Court’s October 2, 2020 order.

App. 516

28
Respectfully submitted this the 21st day of October, 2020.
By: /s/ Electronically Submitted
R. Scott Tobin, NC Bar No. 34317
TAYLOR ENGLISH DUMA LLP
4208 Six Forks Road, Suite 1000
Raleigh, NC 27609
Telephone: (404) 640-5951
stobin@taylorenglish.com
N.C. R. App. P. 33(b) Certification: I
certify that all of the attorneys listed
below have authorized me to list their
names on this document as if they had
personally signed it.
Bobby R. Burchfield*
Matthew M. Leland*
KING & SPALDING LLP
1700 Pennsylvania Ave., N.W.,
Suite 200
Washington, D.C. 20006-4707
Telephone: (202) 737-0500
Facsimile: (202) 626-3737
Bburchfield@kslaw.com
Mleland@kslaw.com
Attorney for The Republican
Committees
*Seeking pro hac vice admission

App. 517

VERIFICATION
Pursuant to Rule 23(c), I have read the foregoing and pursuant to Appellate Rule 23, I
hereby certify that the material allegations and contents of the foregoing petition are true to my
knowledge, except those matters stated upon information and belief and, as to those matters, I
believe them to be true.
/s/ Electronically Submitted
R. Scott Tobin

App. 518

CERTIFICATE OF SERVICE
I certify that I have on this 21st day of October, 2020, served a copy of the foregoing by
email and United States mail, postage prepaid, to counsel for the Plaintiffs, Defendants, and
Intervenor-Defendants at the following addresses:
For the Plaintiffs:
Marc E. Elias
Uzoma N. Nkwonta
Ariel B. Glickman
Jyoti Jasrasaria
Lalitha D. Madduri
PERKINS COIE LLP
700 Thirteenth St., N.W., Suite 600
Washington, D.C. 20005-3960
Burton Craige
Narendra K. Ghosh
Paul E. Smith, State Bar No. 45014
PATTERSON HARKAVY LLP
l 00 Europa Dr., Suite 420
Chapel Hill, N.C. 27517

For the Defendants:
Alexander McC. Peters
Paul M. Cox
NORTH CAROLINA DEPARTMENT
OF JUSTICE
P.O. Box 629
Raleigh, N.C. 27602
For Intervenor-Defendants:
Nicole J. Moss-State Bar No. 31958
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
Nathan Huff
State Bar No. 40626
PHELPS DUNBAR LLP
4140 Park Lake Avenue, Suite 100
Raleigh, N.C. 27612

/s/ Electronically Submitted
R. Scott Tobin

App. 519

Democracy Dies in Darkness

Key swing states vulnerable to USPS slowdowns as
millions vote by mail, data shows
Battlegrounds that may decide the presidency have some of the nation’s most erratic mail service, which has
particular implications for states with firm ballot deadlines
By Jacob Bogage and Christopher Ingraham
Oct. 20, 2020 at 12:52 p.m. EDT
Key swing states that may well decide the presidential race are recording some of the nation’s most erratic mail service
as record numbers of Americans are relying on the U.S. Postal Service to deliver their ballots, agency data shows.
Consistent and timely delivery remains scattershot as the mail service struggles to right operations after the rollout,
then suspension, of a major midsummer restructuring. In 17 postal districts representing 10 battleground states and
151 electoral votes, the average on-time delivery rate for first-class mail is 83.9 percent — 7.8 percentage points lower
than in January and nearly two points below the national average. By that measure, more than 1 in 6 mailings arrive
outside the agency’s one-to-three-day delivery window.
The slowdowns, which have raised alarms and suspicions among voters, postal workers and voting experts, have
particular implications for states with strict voter deadlines. Michigan, Wisconsin and Georgia, for example, do not
accept ballots that arrive after Election Day, regardless of the postmark. Of the states that do, there is generally a short
qualifying window: In North Carolina, where polls have President Trump and Democratic nominee Joe Biden in a dead
heat, postmarked ballots must arrive within three days of the election.
“There are fundamental and foundational issues with the Postal Service that go beyond voting, and there are issues
with election administration that we can address,” said David Becker, executive director of the nonpartisan, nonprofit
Center for Election Innovation and Research. “But the rules we have for the next 14 days are the rules we have.”
There are always variabilities in the mail, he said. “There have always been states that have firm deadlines after which
no more ballots will be accepted. There has always been an element of voter responsibility along with responsibility of
election officials and the Postal Service. And voters are embracing that responsibility.”
In Detroit, where Democrats are relying on heavy turnout to carry the rest of Michigan, only 70.9 percent of first-class
mail was on time the week that ended Oct. 9, compared with 92.2 percent at the start of the year.
In Wisconsin — which struggled mightily with a vote-by-mail primary in August — on-time delivery fell to 84.3 percent
in the Lakeland district, which encompasses most of the state. In North Carolina’s Greensboro district, which includes
Raleigh and Durham, service was 10.1 percentage points lower than it had been in January. Timeliness also varied
widely in postal districts in Pennsylvania and Florida.

App. 3

Postal Service spokesman David Partenheimer said the agency has maintained performance standards despite surging /

of the best on time rates in the country. The on time rate of 89.4 percent exceeds the national average. The Central
Pennsylvania district, a Republican stronghold, has an 83.2 percent on-time rate.
But the Philadelphia Metro district, which Democrats need to dominate to offset GOP votes in the rest of the state, is
one of only six districts in the country with on-time service below 80 percent. Staffing shortfalls remain a chronic
issue, according to postal employees in the state. In Philadelphia, workers are preparing to cull ballots, process them
by hand and deliver them to local election officials to avoid having to send them to regional processing plants, where
the sorting system moves slower.

“It’s hard to tell a voter with certainty,” said David Thornburgh, president of the local good-government group
Committee of Seventy, “how long it will take the post office to deliver their ballot.”

Updated October 9, 2020

Voting in the 2020 U.S. Election
What you need to know: How to make sure your vote counts in November | Absentee ballots vs. mail-in
ballots | How to track your vote like a package | How to prevent your mail ballot from being rejected | Where Biden
and Harris stand on voting issues | Google allows ads with ‘blatant disinformation’ about voting by mail

U.S. Postal Service: USPS on-time performance dips again as millions prepare to mail 2020 ballots |
Chronic USPS delays in Detroit undermine voters’ confidence in voting by mail | Postal Service backlog sparks
worries that ballot delivery could be delayed in November | Why the USPS wanted to remove hundreds of mailsorting machines | Can FedEx and UPS deliver ballots? | Newly revealed USPS documents show the agency’s
2020 ballot pressures, uncertainty

Map: Which states can cast ballots by mail
Are you running into voting problems? Let us know.

App. 7

/

EMERGENCY ORDER – Updated 11/5/2018
G.S. § 163A-750; 08 NCAC 01.0106
1. Hurricane Florence (“Florence”) made landfall on or about September 14, 2018,
severely damaging persons and property across eastern North Carolina. The
President of the United States declared a Major Disaster and the Governor of
North Carolina declared a State of Emergency and called a special session of the
General Assembly that convened October 2, 2018.
2. Session Law 2018-134 enacted a process by which county boards of elections could
relocate voting sites affected by Florence, allocated funding for a public
information campaign to highlight registration and voting options, and extended
the voter registration deadline in the following thirty-four (34) counties (the
“Affected Counties”):
Beaufort
Bladen
Brunswick
Carteret
Columbus
Craven
Cumberland
Duplin
Greene
Harnett
Hoke
Hyde

Johnston
Jones
Lee
Lenoir
Moore
New Hanover
Onslow
Pamlico
Pender
Pitt
Richmond
Robeson

Sampson
Scotland
Wayne
Wilson

Anson
Chatham
Durham
Guilford
Orange
Union

3. The State Board of Elections & Ethics Enforcement (“State Board”) staff continue
to monitor the effect of Florence across the State and remain in communication
with disaster response teams, the U.S. Postal Service, and county elections
administrators.
4. The State Board convened in open session on October 17, 2018. During that
meeting, members of the State Board and the Executive Director discussed the
effects of Florence on voting populations and the November 6, 2018 general
election.
5. Statute provides that the Executive Director, as chief State elections official, may
exercise emergency powers to conduct an election in districts where the normal
schedule has been disrupted by a natural disaster. G.S. § 163A-750(a)(1). The
App. 34

exercise of such powers must avoid unnecessary conflict with existing law. G.S. §
163A-750(a).
6. Administrative rules authorized by the State Board, adopted by the Executive
Director, and approved by the Rules Review Commission provide standards for
the exercise of emergency powers. See 08 NCAC 01.0106. Pursuant thereto, the
Executive Director finds the following:
a. 08 NCAC 01.0106(a): Florence and its aftermath have disrupted the
normal schedule for the election and impaired critical components of
election administration by displacing persons, damaging property, and
affecting mail delivery, which have cumulatively impaired voting
opportunities in Affected Counties and absentee voting processes more
broadly.
b. 08 NCAC 01.0106(b)(1)(A): Hurricane Florence is a qualifying natural
disaster permitting the Executive Director to assess the propriety of
emergency action.
c. 08 NCAC 01.0106(c): The Executive Director has shaped the exercise of
emergency power having considered the following:
• 08 NCAC 01.0106(c)(1): The geographic scope of disruption is
limited to the Affected Counties identified by the President of the
United States as within a Major Disaster area and targeted
specifically by Session Law 2018-134. Remedial action as to
absentee ballot delivery, however, cannot be limited to the
recipient Affected County, because mail transit routes and/or
delays may affect the delivery of ballots sent from any location to
either an Affected County or a non-affected county.
• 08 NCAC 01.0106(c)(2): Select contests span both affected and
non-affected areas and include statewide ballot items. The
considered exercise of power works to preserve the rights of
candidates and voters participating in contests that span affected
and non-affected areas.
• 08 NCAC 01.0106(c)(3): More than one month has passed since
Florence made landfall, and the disruption in advance of Election
Day is highly foreseeable. The State Board has also invested
heavily in advertising campaigns communicating the registration
and voting options available this election. Nevertheless, the types
of disruptions addressed by the exercise of emergency power
contained in this Order are not adequately remedied by increased
public awareness.
• 08 NCAC 01.0106(c)(4): Alternative registration options were
made available in Affected Counties by special enactments that
extended the voter registration deadline. S.L. 2018-134, § 5.3.(a).
The General Assembly additionally directed procedures by which
county boards may relocate early voting sites and Election Day
precinct locations. Early voting has not been suspended based
App.
2 35

upon the disruption, and same-day registration remains available
to individuals who appear during the early voting period.
Registrants may present proof of residency using an electronic
document. Voters displaced outside of their county of registration
are able to request an absentee ballot sent to the address of their
choosing. Accordingly, registration and voting opportunities
remain available.
• 08 NCAC 01.0106(c)(5) and 01.0106(c)(6): The duration of
disruption is ongoing and residents and voters remain displaced.
Media reports indicate thousands remain displaced due to
Florence. See Jason DeBruyn, “FEMA Brings Trailers to NC For
Temporary Housing”, WUNC (October 18, 2018). Additionally,
FEMA has announced temporary housing services. FEMA,
“Direct Temporary Housing for North Carolina Disaster
Survivors”, Release DR-4393-NC, (October 15, 2018). Displaced
persons staying with family or friends may not be included in the
count of those utilizing federal housing assistance. Some election
workers cannot be reached or are no longer available to serve due
to disruption, and in some precincts an insufficient number of
elections officials are available to fill the positions of judge and
chief judge.
• 08 NCAC 01.0106(c)(7): The General Assembly has approved
processes that ensure secure voting locations. While access to
some voting locations was a point of initial concern, the State
Board staff remain in ongoing contact with county administrators
who are best positioned to recommend any relocations to their
respective county boards.
• 08 NCAC 01.0106(c)(8): The Executive Director transmitted
correspondence to the Governor, President Pro Tempore of the
Senate, and Speaker of the House on September 26, 2018,
detailing current legal deadlines and administrative processes
affecting voter registration, voting by mail, election workers,
voting sites, and displaced voters. The letter also cited the
administrative rule requiring consideration of the time remaining
for the political branches to address disruptions. In the month
since Florence made landfall, the General Assembly and the
Governor have approved emergency legislation on three
occasions: Session Laws 2018-134 (ratified October 2), 2018-135
(ratified October 2), and 2018-136 (ratified October 15).
• 08 NCAC 01.0106(c)(9): Emergency remedial measures contained
in this Order do not erode election integrity and ballot security.
All changes to absentee balloting involve administrative handling
of absentee ballots while suspending no security requirements
contained in current law.

App.
3 36

• 08 NCAC 01.0106(c)(10): Emergency remedial measures are
calculated to have minimal effect on certification deadlines in
that no deadline extends beyond the deadline by which certain
ballots from overseas and military voters must be accepted under
current law.
7. In evaluating the disruption and establishing remedial effects, every effort has
been made to treat similarly situated persons equally, while appropriately
tailoring relief to offset the nature and scope of the disruption as required by law.
Based upon the foregoing findings and conclusions, and in exercise of G.S. § 163A-750
and 08 NCAC 01.0106, the Executive Director hereby ORDERS:
A.

Civilian absentee ballots delivered by mail or commercial courier service to the
appropriate county board of elections office in any of the twenty-eight Affected
Counties shall be counted if received no later than 5 p.m. Thursday, November 15,
2018, if the container return envelope was postmarked on or before Election Day,
November 6. This directive modifies the deadlines contained in
G.S. § 163A-1310(b)(2) only, and in no other respect.

B.

Any voter or other person authorized by law may deliver an absentee ballot in
person to any early voting site or county board of elections office in the state; the
absentee ballot must be delivered during the site or office’s hours of operation and
shall be considered timely if delivered by 5 p.m. on Election Day, November 6.
County boards of elections must ensure delivery to the appropriate county board
of elections office prior to canvass on November 16, 2018. This directive modifies
restrictions as to the location of delivery in G.S. § 163A-1310 only, and in no other
respect.

C.

In any precinct in an Affected County where, due to the effects of Florence, the
county board finds that an insufficient number of precinct officials are available
to fill the majority of the three positions of chief judge and judge with residents of
that precinct, the county board may appoint nonresidents of the precinct to a
majority of the positions provided that the officials otherwise meet all
requirements.

This the fifth day of November, 2018.

Kim Westbrook Strach
Executive Director
State Board of Elections & Ethics Enforcement
App.
4 37

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

July 17, 2020
EMERGENCY ORDER
ADMINISTERING THE NOVEMBER 3, 2020 GENERAL ELECTION
DURING THE GLOBAL COVID-19 PANDEMIC AND PUBLIC HEALTH
EMERGENCY
As Executive Director, acting pursuant to N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01
.0106, I hereby find the following:
1.
On March 10, 2020, the Governor issued Executive Order No. 116, declaring a
State of Emergency in response to the public health emergency posed by Coronavirus Disease
2019 (COVID-19).
2.
pandemic.

On March 11, 2020, the World Health Organization declared COVID-19 a global

3.
On March 13, 2020, the President of the United States issued an emergency
declaration for all states, tribes, territories, and the District of Columbia, retroactive to March 1,
2020, and declared that the COVID-19 pandemic in the United States constitutes a national
emergency.
4.
On March 25, 2020, the President approved a Major Disaster Declaration, FEMA4487-DR, for the State of North Carolina.
5.
On May 20, 2020, the Governor stated in Executive Order 141 that “slowing and
controlling community spread of COVID-19 is critical to ensuring that the state’s healthcare
facilities remain able to accommodate those who require medical assistance.” Executive Order
141 further states that, due to the “continued community spread of COVID-19 within North
Carolina,” the State must “continue some measures to slow the spread of the virus during the
pandemic.”
6.
Executive Order 141 notes the determination of public health experts that that
“the risk of contracting and transmitting COVID-19 is higher in settings that are indoors, where
air does not circulate freely and where people are less likely to maintain social distancing by
staying six feet apart.” Executive Order 141 also notes that “the risk of contracting and
transmitting COVID-19 is higher in settings where people are stationary and in close contact for
long periods of time” and “in gatherings of larger groups of people because these gatherings
offer more opportunity for person-to-person contact with someone infected with COVID-19.”

App. 51

Mailing Address:
P.O. Box 27255
Raleigh, NC 27611-7255
Phone: (919) 733-7173
KIM WESTBROOK STRACH
Executive Director

NUMBERED MEMO 2016-21
TO:
FROM:
RE:
DATE:

County Boards of Elections
Kim Strach, Executive Director
Voter Registration Processing and Election Observer Requirements
October 19, 2016

This memorandum provides guidance to address questions regarding voter registration and
election observer requirements. For additional information on observer conduct, see Numbered
Memo 2016-17 and Tips for Observers and Runners.

Voter Registration Deadline

We have received many questions about voter registration processing in light of the extension of
the voter registration deadline in 37 counties. I am certain that many of you spent your weekend
processing voter registration applications that were received by Friday, October 14. And, due to
the mail delays associated with Hurricane Matthew, it is likely most counties will be processing
voter registration applications through today. For those 37 counties with the extended voter
registration deadline, it may be impossible to process applications received today before voting
begins tomorrow. Additionally, voter registrations will be timely in those 37 counties if
postmarked by today. If the postmark is missing or illegible on forms received in those 37
counties, the forms must be received in your office by Monday, October 24.
The grid below is meant to highlight the differences between the 37 Matthew counties and those
counties that did not have an extended voter registration deadline (Non-Matthew counties).
Matthew Counties

Non-Matthew Counties

10/19/2016

10/14/2016

Source: received by mail with
postmark date

Postmark dated 10/19/2016 or
earlier

Ignore postmark date if
received by 10/19/2016 (if
received after 10/19/16 it must
be postmarked by 10/14/16)

Source: received by mail with
missing or illegible postmark
date

Must be received by
10/24/2016

Ignore postmark date through
receipt by 10/19/2016

Voter registration deadline

App. 59

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-22
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Return Deadline for Mailed Civilian Absentee Ballots in 2020

DATE:

September 22, 2020

The purpose of this numbered memo is to extend the return deadline for postmarked civilian absentee ballots that are returned by mail and to define the term “postmark.” This numbered memo
only applies to remaining elections in 2020.

Extension of Deadline
Due to current delays with mail sent with the U.S. Postal Service (USPS)—delays which may be
exacerbated by the large number of absentee ballots being requested this election—the deadline
for receipt of postmarked civilian absentee ballots is hereby extended to nine days after the election
only for remaining elections in 2020.
An absentee ballot shall be counted as timely if it is either (1) received by the county board
by 5:00 p.m. on Election Day; or (2) the ballot is postmarked on or before Election Day and
received by nine days after the election, which is Thursday, November 12, 2020 at 5:00 p.m.1

Postmark Requirement
The postmark requirement for ballots received after Election Day is in place to prohibit a voter
from learning the outcome of an election and then casting their ballot. However, the USPS does
not always affix a postmark to a ballot return envelope. Because the agency now offers BallotTrax,
a service that allows voters and county boards to track the status of a voter’s absentee ballot, it is
possible for county boards to determine when a ballot was mailed even if it does not have a postmark. Further, commercial carriers including DHL, FedEx, and UPS offer tracking services that
allow voters and the county boards of elections to determine when a ballot was deposited with the
commercial carrier for delivery.
1

Compare G.S. § 163-231(b)(2)(b) (that a postmarked absentee ballot be received by three days
after the election).

App. 131

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-19
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Absentee Container-Return Envelope Deficiencies

DATE:

August 21, 2020 (revised on September 22, 2020)

County boards of elections have already experienced an unprecedented number of voters seeking
to vote absentee-by-mail in the 2020 General Election, making statewide uniformity and consistency in reviewing and processing these ballots more essential than ever. County boards of
elections must ensure that the votes of all eligible voters are counted using the same standards,
regardless of the county in which the voter resides.
This numbered memo directs the procedure county boards must use to address deficiencies in absentee ballots. The purpose of this numbered memo is to ensure that a voter is provided every
opportunity to correct certain deficiencies, while at the same time recognizing that processes must
be manageable for county boards of elections to timely complete required tasks. 1

1. No Signature Verification
The voter’s signature on the envelope shall not be compared with the voter’s signature on file because this is not required by North Carolina law. County boards shall accept the voter’s signature on the container-return envelope if it appears to be made by the voter, meaning the signature
on the envelope appears to be the name of the voter and not some other person. Absent clear evidence to the contrary, the county board shall presume that the voter’s signature is that of the
voter, even if the signature is illegible. A voter may sign their signature or make their mark.

1

This numbered memo is issued pursuant to the State Board of Elections’ general supervisory
authority over elections as set forth in G.S. § 163-22(a) and the authority of the Executive Director in G.S. § 163-26. As part of its supervisory authority, the State Board is empowered to “compel observance” by county boards of election laws and procedures. Id., § 163-22(c).

App. 134

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-23
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

In-Person Return of Absentee Ballots

DATE:

September 22, 2020

Absentee by mail voters may choose to return their ballot by mail or in person. Voters who return
their ballot in person may return it to the county board of elections office by 5 p.m. on Election
Day or to any one-stop early voting site in the county during the one-stop early voting period. This
numbered memo provides guidance and recommendations for the safe, secure, and controlled inperson return of absentee ballots.

General Information
Who May Return a Ballot
A significant portion of voters are choosing to return their absentee ballots in person for this election. Only the voter, or the voter’s near relative or legal guardian, is permitted to possess an absentee ballot. 1 A multipartisan assistance team (MAT) or a third party may not take possession of
an absentee ballot. Because of this provision in the law, an absentee ballot may not be left in
an unmanned drop box.
The county board shall ensure that, if they have a drop box, slot, or similar container at their office,
the container has a sign indicating that absentee ballots may not be deposited in it.

Intake of Container-Return Envelope
As outlined in Numbered Memo 2020-19, trained county board staff review each container-return envelope to determine if there are any deficiencies. Review of the container-return envelope

1

It is a class I felony for any person other than the voter’s near relative or legal guardian to take
possession of an absentee ballot of another voter for delivery or for return to a county board of
elections. G.S. § 163-223.6(a)(5).

App. 141

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

Bench Memo
Tuesday, September 15, 2020
3 p.m. meeting
This will be a remote meeting using Cisco Webex. For the open session,
you should have received an invitation with access for the meeting. You
will need to have a microphone on your computer to participate. You can
also
join
using
the
following
link:
https://ncgov.webex.com/ncgov/onstage/g.php?MTID=ed32d939d1696fb9
345eed16a5363b108.
For the closed session, you should have received a second Cisco Webex
invitation. When it is time for the closed session, fully close out of the
open session and then log into the closed session. You can also access the
meeting
using
the
following
link:
https://ncgov.webex.com/ncgov/j.php?MTID=m7d2d355882525d07dfc63c
af5af160fe
Meeting number: 171 884 6487
Password: g3DGu3735cm
Please contact Katelyn (864-357-3335) if there are any issues.
A copy of the meeting notice and tentative agenda, as well as a link to the
documents, is available here.

Statement Regarding Ethics and
Conflict of Interest

Authority
G.S. § 138A-15(e)
(e)
At the beginning of any meeting of a board, the chair shall
remind all members of their duty to avoid conflicts of interest under this
1
App. 149

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

Subchapter. The chair also shall inquire as to whether there is any
known conflict of interest with respect to any matters coming before the
board at that time.

Counsel Note
Counsel has not been informed of any conflict in advance of this meeting.
Suggested Statement {Chair}

In accordance with the State Government Ethics Act, it is the duty of
every Board member to avoid both conflicts of interest and the
appearance of a conflict.
Does any Board member have any known conflict of interest or any
appearance of a conflict with respect to any matters coming before the
Board today? If so, please identify the conflict or appearance of conflict
and refrain from any undue participation in the particular matter.

Approval of Prior Meeting Minutes

Materials
August 31, 2020 Open Session Meeting Minutes (draft)
August 31, 2020 Closed Session Meeting Minutes (attached to email)

Authority
G.S. § 143-318.10(e) (relevant portion)
(e)
Every public body shall keep full and accurate minutes of all
official meetings, including any closed sessions held pursuant to G.S.
143-318.11. Such minutes may be in written form or, at the option of
the public body, may be in the form of sound or video and sound
recordings. …
Draft Motion

I move that we approve the State Board’s open and closed session
meeting minutes of August 31, 2020.
2
App. 150

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

Roll Call Vote

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

Appointment to Vacancies on
County Boards of Elections

Materials
Applications are available upon request (Bertie applications attached to
email)
Authority
G.S. § 163-30(d) (relevant portion)
Whenever a vacancy occurs in the membership of a county board of
elections for any cause the State chair of the political party of the
vacating member shall have the right to recommend two registered
voters of the affected county for such office, and it shall be the duty of
the State Board to fill the vacancy from the names thus recommended.
Summary
We have received nominations from the Democratic Party as follows:
• McDowell County
1. Michelle Wilson Price (Class 3 misdemeanor 20 years ago; no
conflict indicated)
2. Harriet Allen Rockett (no conflict indicated)
• Nash County
1. Brenda Johnson Foster (no conflict indicated)
2. Dr. Cassandra Stroud Conover (no conflict indicated)
We have received nominations from the Republican Party as follows:
• Person County
1. David Harris Minshall (no conflict indicated)
3
App. 151

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

2. Grace Anne Mattson (no conflict indicated)
Suggested Motion

I move that the State Board appoint ________ to the ________ County
Board of Elections
Roll Call Vote

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

Closed Session

Authority
§ 143-318.11. Closed sessions.
(a) Permitted Purposes. - It is the policy of this State that closed
sessions shall be held only when required to permit a public body to act
in the public interest as permitted in this section. A public body may
hold a closed session and exclude the public only when a closed session
is required:
…
(3) To consult with an attorney employed or retained by the public
body in order to preserve the attorney-client privilege between the
attorney and the public body, which privilege is hereby
acknowledged. General policy matters may not be discussed in a
closed session and nothing herein shall be construed to permit a
public body to close a meeting that otherwise would be open
merely because an attorney employed or retained by the public
body is a participant. The public body may consider and give
instructions to an attorney concerning the handling or settlement
of a claim, judicial action, mediation, arbitration, or
administrative procedure. If the public body has approved or
considered a settlement, other than a malpractice settlement by or
on behalf of a hospital, in closed session, the terms of that
settlement shall be reported to the public body and entered into its
4
App. 152

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

minutes as soon as possible within a reasonable time after the
settlement is concluded.
…
(c)
Calling a Closed Session. - A public body may hold a closed
session only upon a motion duly made and adopted at an open meeting.
Every motion to close a meeting shall cite one or more of the permissible
purposes listed in subsection (a) of this section. A motion based on
subdivision (a)(1) of this section shall also state the name or citation of
the law that renders the information to be discussed privileged or
confidential. A motion based on subdivision (a)(3) of this section shall
identify the parties in each existing lawsuit concerning which the public
body expects to receive advice during the closed session.
Counsel Note
As background for the closed session, there are 8 cases to be discussed
in relation to possible settlement:
• Democracy North Carolina v. State Board of Elections
1. A federal district court judge entered a preliminary
injunction that requires a cure process for deficient absentee
ballots and that allows one named plaintiff to receive help
from a nursing home employee. The judge denied all of
plaintiff’s other requests
2. Plaintiffs and the State Board have asked the judge to
reconsider denial of the injunction to allow nursing home
employees to assist voters due to the visitation restrictions
subsequently issued by DHHS.
3. This was the only lawsuit where plaintiffs sought to allow
contactless drop boxes for in person return of absentee
ballots. The judge denied this request.
• Chambers v. North Carolina
1. A three-judge panel of the Wake County Superior Court
unanimously denied the preliminary injunction motion,
thereby declining to enjoin the witness requirement.
• Taliaferro v. State Board of Elections
1. This case is pending in federal district court in the Eastern
District of North Carolina. It challenges the failure to
5
App. 153

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

provide a way for blind voters to vote absentee by mail
independently, without depending on another person for
assistance. In its brief, the State Board largely did not
dispute plaintiffs’ claim that the agency has failed to comply
with the ADA and Rehabilitation Act requirements, due to
applicable caselaw in the 4th Circuit. However, we do not
believe it would not be administratively feasible to
implement an accessible option safely for the November
election due cyber security issues with online voting,
changes to SEIMS, and implementing a new software
program.
Marc Elias cases:
• North Carolina Alliance for Retired Americans v. State Board of
Elections
1. Raises challenges to the single witness requirement for
single-person or single-adult households, the postage
requirement, signature matching procedures, and the
prohibitions on who can assist with and deliver an absentee
request form.
2. A hearing on the preliminary injunction (PI) hearing is
scheduled at 9:30 a.m. on September 18 before a single
judge.
• Stringer v. State Board of Elections
1. The complaint raises various constitutional challenges to
absentee voting requirements.
2. There is a hearing scheduled on September 18 but it is not
expected to include the PI motion on this case, because there
is no dispute the case should go to a three-judge panel.
• North Carolina Democratic Party v. State Board of Elections
1. This case was filed in 2019 and challenges various early
voting restrictions. Awaiting appointment of a three-judge
panel.
• Advance North Carolina v. State Board of Elections
1. Challenges restrictions made by Session Law 2019-239 on
who can make an absentee ballot request.
• Democratic Senatorial Campaign Committee v. State Board
6
App. 154

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

1. This case was filed last week and challenges the
requirement in Numbered Memo 2020-19 that a voter be
issued a new ballot if the witness did not provide their name,
address, or signature. The memo was issued to implement
the injunction in the Democracy NC case.
The Department of Justice has recommended several areas for
settlement in litigation against the State Board. In addition to their
memo, board members may wish to consider the following information:
Absentee Ballot Return Deadline
• State law requires that ballots be postmarked after Election Day.
This requirement is in place to prohibit a voter from learning the
outcome of an election and then casting their ballot. However, we
are aware that the USPS does not postmark all ballots. Ballottrax
now provides county boards and voters with status updates to
track ballots in the mail stream. If a ballot was not postmarked,
this information could be researched in Ballottrax to determine if
there was affirmative information indicating that the ballot was
mailed by Election Day.
• The Post Office continues to state that ballots may take up to a
week to be delivered, but state law only allows ballots to be
accepted that are received three days after the election.
• If the Executive Director’s emergency powers are used to extend
the receipt deadline for ballots, an emergency order requires
consideration of the factors in the rule, which must be calculated
to offset the nature and scope of the disruption, and consultation
with the board. It also requires that there be a disruption to the
election normal schedule for an election to trigger any use of
emergency powers. 08 NCAC 01 .0106. At this time, the executive
director would need to consider whether there enough information
to determine the nature and scope of a potential disruption with
mail service and to determine how long the deadline needed to be
extended for. More specific information may be available closer to
the mail deadline for absentee ballots. For more discussion on the
emergency powers authority, see the section “In Person Return of
Absentee Ballots” below. If this change were made as part of a
7
App. 155

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

settlement agreement that was approved by the court, it would
help protect the action from legal attack.
In Person Return of Absentee Ballots
• Voters may return their absentee ballots in person to either the
county board of elections office or a one-stop site. They may not
return them to an Election Day polling place.
• There has been a vast increase in the number of voters who are
returning their absentee ballots in person. Approximately half of
absentee ballots returned in the first week of voting were returned
in person. Using a written log adds several minutes to the time
that a voter must spend returning their ballot in person. Some
county boards are providing drop off locations outside but for
others this is not feasible.
• It is a Class I felony for any person other than the voter or their
near relative or legal guardian take possession of a ballot for
delivery to a voter or for return to a county board of elections.
G.S. § 163-226.3(a)(5).
• In 2018, the State Board adopted a rule that requires logging of
absentee ballots that are returned in person to the county board of
elections office. 08 NCAC 18 .0102. The rule requires that the
person delivery the ballot provide the following information in
writing: (1) Name of voter; (2) Name of person delivering ballot;
(3) Relationship to voter; (4) Phone number (if available) and
current address of person delivering ballot; (5) Date and time of
de-livery of ballot; and (6) Signature or mark of person delivering
ballot certifying that the information provided is true and correct
and that the person is the voter or the voter's near relative.
According to the rule and State Board guidance, failure to comply
with the logging requirement, or delivery of an absentee ballot by
a person other than the voter, the voter’s near relative, or the
voter’s legal guardian, is not sufficient evidence in and of itself to
establish that the voter did not lawfully vote their ballot.
o The rule was adopted in part because of the illegal absentee
ballot activity that took place in Bladen County in 2016.
Previously, policy required that county boards log absentee
ballots that were received in person, but not every county
complied with this and the logs varied somewhat in what
8
App. 156

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

was required. The logs that Bladen County used in 2018
were important to the CD9 investigation.
o Keeping a detailed log may allow a county board to
determine if there are patterns with absentee ballots being
returned in person. It also creates a record of who dropped
off the ballot in case there is a need to contact that person
and the voter cannot be reached or does not know the contact
information for that person. Relaxing or eliminating the
written log could lead the public or candidates to question
whether large numbers of ballots were returned illegally and
could result in the filing of post-election litigation and
election protests, ultimately calling into question the results
of the election. Further, the written log is one of the security
measures the State Board has cited to for why absentee
voting is secure.
• By its language, the rule requiring a written log does not apply to
one-stop sites, likely because voters rarely used this option in
prior elections. The rule was previously interpreted as requiring
that all absentee ballots be logged when they were returned in
person, regardless of the location of return. It could be confusing
to voters and county board staff and difficult to justify requiring
logging at a one-stop site but not at a county board office,
especially if the county board office is also a one-stop site.
• Absent a settlement agreement or court order, requiring only
verbal confirmation at a county board office would require an
emergency order because it is too late to change the rule before
the election due to the extended amount of time that rulemaking
takes. Any time the executive director exercises her emergency
powers due to a pandemic-related issue, there is a risk of legal
challenges, because the Rules Review Commission disapproved
the temporary rule that would have clarified that it included a
disease epidemic. Some groups, including the NCGOP, have laid
out legal arguments that the RRC’s disapproval means that the
emergency powers cannot be used for a disruption related to the
pandemic. While counsel believe that the permanent rule’s
language is sufficient, the usage of emergency powers must be
weighed against possible litigation risk, or risk that the
9
App. 157

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

legislature might act to repeal or further limit the statutory
authorization for the executive director’s emergency powers.
• There is one lawsuit, Democracy NC, that sought to allow
contactless drop boxes for voters to return their absentee ballots.
However, the judge denied this request. Therefore, it is unclear
how or why the State Board would settle a claim about drop boxes
when the judge already denied the claim, and this is not at issue
in any other active lawsuit discussed in this memo. In the
absence of a court order, the executive director would need to
exercise emergency powers to lift the written log requirement at
county board offices.
Witness Requirement
• Following the federal court order in Democracy NC, Numbered
Memo 2020-19 was issued on August 21. It states that a missing
voter signature or a voter signature in the wrong place on the
absentee return envelope can be corrected by the voter signing a
cure affidavit. The memo further provides that missing witness
information (name, address, signature) cannot be cured and if a
ballot is missing this information the county board will spoil the
ballot and issue the voter a new ballot.
• Once absentee ballots started being returned, county boards
provided feedback that some voters were confused by the
highlighting on the witness section. The section the witness is to
complete is grey, but the witness signature box is light yellow, so
some witnesses only signed but did not provide their name and
address. In response, State Board staff began considering
whether witness name and address could be provided by the voter
in a cure affidavit, if the voter knows that information. The law
requires that this information be provided but does not prohibit
the voter from providing it. However, for ballots missing the
witness signature, voters would still be reissued a new ballot,
since the voter cannot sign and attest for the witness. State Board
staff also considered allowing the voter to cure the missing
witness signature by affidavit by having the witness and voter
sign the affidavit; however, this places additional burden on the
voter because the same witness who observed the voter marking
their ballot may no longer be available or the voter may no longer
10
App. 158

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

have access to that person. Issuing the voter a new ballot in the
case of a missing witness signature would give the voter the
opportunity to have a different person witness the reissued ballot.
• Last Friday, staff sent county boards of elections an email
instructing them not to send voters any cure affidavits or to spoil
any ballots and reissue a new ballot. County boards were told
that the Numbered Memo 2020-19 was being updated and would
be reissued with updated cure letters by the end of the day.
Because of the board meeting scheduled for Tuesday, the
numbered memo update could not be finalized and therefore
county boards are not currently following up with voters whose
ballots have missing information.
• Numbered Memo 2020-19 states that a county board shall not use
signature verification to compare the voter’s signature on the
absentee envelope with the signature on file for the voter. It
explains: “Verification of the voter’s identity is completed through
the witness requirement.”
• If the witness requirement is allowed to be cured by the voter
submitting an affidavit, consider whether the voter would be
allowed to submit the affidavit simultaneously with the ballot.
And if so, consider how to know that the voter is the person who
voted the absentee ballot or who filled out the cure affidavit. We
are aware, for example, that the NC Democratic Party has created
an online tool to allow a voter to complete and submit the cure
affidavit using an online link.
Other Considerations
Because of the pandemic, the absentee process is under much more
scrutiny this year than it has been previously. Political parties,
advocacy groups, candidates, and the public are closely monitoring how
these processes are carried out and how county boards ensure that all
voters can safely cast their votes in a fair and accurate election. And
the pandemic has led to a number of lawsuits, which have caused
uncertainty for voters and from an election administration standpoint.
When considering a settlement agreement, the board may wish to
consider what the court might order to determine whether settlement is
11
App. 159

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

more advantageous. Consider what specifically a court might order,
when it might be ordered, and whether settling now is more favorable,
in light of all factors. Settlement would provide certainty sooner than
waiting for a court order and would give the State Board more control
over what changes were made. The board may also want to consider if
the settlement terms are acceptable and whether it is preferable to
decide now or to await the courts. Additionally, the board may wish to
consider the effect of settlement of several of these issues
simultaneously; for example, if there any compounding effects to the
absentee process if a voter is allowed to cure a missing witness
signature and the log requirement is also relaxed. Also, the legislature
is a party to a number of the cases discussed in this memo and that
they may oppose settlement. The courts have approved settlement
without the legislature’s consent in past cases against other state
entities, so this may not be a barrier.
Finally, one other matter to note is the constitutional and statutory
provisions that give the General Assembly—not the courts—the
authority to determine the outcome of a contested election for Council of
State offices. See Article VI, § 5 of the NC Constitution. Pursuant to
G.S. § 163-182.13A, “contest” means “a challenge to the apparent
election for any elective office established by Article III of the
Constitution [Council of State offices] or to request the decision of an
undecided election to any elective office established by Article III of the
Constitution…” A decision of the General Assembly in determining the
contest of the election is not reviewable by state courts. Legal questions
about how to count out-of-precinct provisional ballots led to the General
Assembly to decide the outcome of the Superintendent of Public
Instruction after the 2004 election. See this article by Bob Joyce for
additional description of the dispute. When the governor’s race was
close in 2016, it was thought that the General Assembly might take
jurisdiction over it, but that did not happen.
Suggested Motion

I move that the State Board go into closed session pursuant to G.S. §
143-318.11(a)(3) to receive legal advice from its attorneys in the
following cases:
12
App. 160

Attorney Work Product
Attorney Client Privileged

Prepared at the request of the
chair to provide legal counsel
to board members

North Carolina Democratic Party v. State Board of Elections
Advance North Carolina v. State Board of Elections
Chambers v. North Carolina
Stringer v. State Board of Elections
North Carolina Alliance for Retired Americans v. State Board of
Elections
• Democracy North Carolina v. State Board of Elections
• Taliaferro v. State Board of Elections
• Democratic Senatorial Campaign Committee v. State Board
•
•
•
•
•

Roll Call Vote

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

Delegation of Settlement Authority
to the Executive Director

Authority
§ 163-26. Executive Director of State Board of Elections.
There is hereby created the position of Executive Director of the State
Board, who shall perform all duties imposed by statute and such duties
as may be assigned by the State Board.
Suggested Motion

I move that the State Board delegate settlement authority to its
Executive Director for the following cases: [List cases]
Roll Call Vote

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

13
App. 161

Attorney Work Product
Attorney Client Privileged

Suggested Motion

Prepared at the request of the
chair to provide legal counsel
to board members

Adjournment

I move that the State Board adjourn.
Roll Call

Dr. Anderson
Mr. Black
Mr. Carmon
Mr. Raymond
The Chair

14
App. 162

10/24/2020



Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida





Pause

NBC Universal, Inc.

Gov. Ron DeSantis is extending the voter registration deadline here in Florida after the state’s
website crashed. NBC 6’s Steve Litz reports.

App. 225

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

1/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

Florida Gov. Ron DeSantis extended the state’s voter registration deadline Tuesday after unexpected
and unexplained heavy traffic crashed the state’s online system and potentially prevented thousands
of enrolling to cast ballots in next month’s presidential election.
DeSantis extended the deadline that expired Monday until 7 p.m. EDT Tuesday. In addition to online
registration, DeSantis ordered elections, motor vehicle and tax collectors offices to stay open until 7
p.m. local time for anyone who wants to register in person.
“You can have the best site in the world, but sometimes there are
e hiccups,
hiccups,” DeSantis said during a
press conference at The Villages, a large retirement community in central Florida. “If 500,000 people
descend at the same time, it creates a bottleneck.”

App. 226

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

2/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

The state is investigating why its voter registration system crashed on Monday,
yy, saying unexpectedly
heavy traffic that can't be immediately explained poured in during the closing hours.

With COVID-19 case numbers rising, will
you change your daily routine?

Yes, back to quarantine

No, I feel safe

Never left quarantine

Florida Secretary of State Laurel Lee, who oversees the voting system, said the online registration
system “was accessed by an unprecedented 1.1 million requests per hour” during the last few hours
of Monday.
"At this time, we have not identified any evidence of interference or malicious activity impacting the
site," Lee said in a statement Tuesday evening. "We will continue to monitor the situation and provide
any additional information as it develops."
Lee had tweeted on Monday that some users experienced delays for about 15 minutes while trying to
register due to high volume, but that they had increased capacity.
App. 227

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

3/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

Laurel M. Lee
@FLSecofState

OVR is online and working. Due to high volume, for
about 15 minutes, some users experienced delays while
trying to register. We have increased capacity. You can
register until midnight tonight.
Thank you to those who immediately brought this to
our attention.
5:57 PM · Oct 5, 2020
104

353 people are Tweeting about this

A civil rights group is threatening to sue if the governor does not extend the deadline. The Lawyers'
Committee for Civil Rights Under Law said the breakdown would unjustly deprive thousands of
casting ballots for president and other offices.
“We are not going to stand byy idly”
idly,,,” said Kristen Clarke, the group's president. She said the group sued
Virginia in 2016 after its computer system crashed just before the deadline, winning an extension
that allowed thousands of additional voters to register.
Democrats throughout the state have pushed for an extension to the deadline.
"Not planning for a voter registration surge is voter suppression. Not ensuring everyone who wants to
register can do so is voter suppression. Not extending the deadline is voter suppression.
@GovRonDeSantis & @FLSecofState, you must extend the deadline," tweeted Nikki Fried, Florida's
Commissioner of Agriculture and consumer services and the state's highest-ranked Democrat.

Nikki Fried
@nikkifried

Not planning for a voter registration surge is voter
suppression.
Not ensuring everyone who wants to register can do so
is voter suppression.
App. 228

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

4/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

Not extending the deadline is voter suppression.
@GovRonDeSantis & @FLSecofState, you must extend
the deadline.

Florida voter registration site stops working hours before deadline
Those waiting until the last minute to register to vote experienced
problems gaining access to the Florida’s voter registration websit…
orlandosentinel.com
10:44 PM · Oct 5, 2020 from Tallahassee, FL
1.7K

921 people are Tweeting about this

"This is just latest attempt from the Republican leaders in Florida to limit democracy. The Florida
Voter Registration website not working on the last day to register to vote in Florida is blatant voter
suppression. Fix the website, stop the suppression, and let democracy work," Terrie Rizzo, chair of the
Florida Democratic Party,
ty, said in a statement.
ty
“The utter incompetence of Gov. Ron DeSantis in allowing the state’s voter registration website to
crash on the very last day to register for the upcoming November
ember election is, sadly
sadly, completely
believable,”
able,” U.S. Rep. Debbie Wasserman Schultz said. “His administrative buffoonery in operating
able,
the state’s unemployment system telegraphed today’s executive ineptitude. However,
er
er, this particular
blunder intimates a continuing pattern of voter suppression that the governor has become notorious
for.”
Sarah Dinkins, a Florida State University student, tried to help her younger sister register Monday
night. They began trying about 9 p.m. and by 10:30 p.m. had not been successful.
App. 229

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

5/10

10/24/2020

Florida Extends Deadline After Crash of Voter Registration Site – NBC 6 South Florida

“I feel very frustrated,”
ated,” she said. “If the voting website doesn’t work, fewer people potentially
ated,
Democratic voters will be able to vote."
This is not the first major computer shutdown to affect the state government this year. For weeks in
the spring, tens of thousands of Floridians who lost their jobs because of the coronavirus pandemic
couldn't file for unemployment benefits because of repeated crashes by that overwhelmed computer
system, delaying their payments. DeSantis replaced the director overseeing the system but blamed
the problems on his predecessor,
edecessor, fellow Republican Rick Scott, who is now a U.S. senator.
edecessor
Pause

NBC 6's Julia Bagg has more on what o cials are saying after some people claim they may have had their
registration denied due to the problems.
AP and NBC 6







0


App. 230

https://www.nbcmiami.com/news/local/florida-looking-into-crash-of-voter-registration-site-just-before-deadline/2303061/

6/10

